<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998</title>
<body><pre>[Senate Hearing 105-264]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-264


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2209/S. 1019

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 1998, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                          Capitol Police Board
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                      Joint Committee on Printing
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                       Nondepartmental witnesses
                          Office of Compliance
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                      U.S. GOVERNMENT PRINING OFFICE
 39-862 cc                   WASHINGTON : 1997
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  BYRON DORGAN, North Dakota
LARRY CRAIG, Idaho                   BARBARA BOXER, California
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                           Christine Ciccone
                      James H. English (Minority)



                            C O N T E N T S

                              ----------                              

                          Tuesday, May 6, 1997

                                                                   Page
Joint Committee on Printing......................................     1
Joint Economic Committee.........................................     7
Joint Committee on Taxation......................................    13

                         Tuesday, May 20, 1997

Capitol Police Board.............................................    45
Congressional Budget Office......................................    91

                         Thursday, June 5, 1997

Library of Congress..............................................   105
Government Printing Office.......................................   199
General Accounting Office........................................   227
Nondepartmental witnesses........................................   243

                         Tuesday, June 10, 1997

Office of Compliance.............................................   249
U.S. Senate:
    Office of the Secretary of the Senate........................   265
    Office of the Sergeant at Arms and Doorkeeper................   299
Architect of the Capitol.........................................   315



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                          TUESDAY, MAY 6, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present: Senators Bennett and Dorgan.

                      JOINT COMMITTEE ON PRINTING

STATEMENT OF HON. JOHN W. WARNER, CHAIRMAN
ACCOMPANIED BY ERIC C. PETERSON, STAFF DIRECTOR


              opening statement of hon. robert f. bennett


    Senator Bennett. The subcommittee will come to order. This 
is the first of four hearings that the Legislative Branch 
Subcommittee will hold on the budget request for the fiscal 
year 1998.
    I am the new chairman of this subcommittee. I welcome the 
opportunity to participate in the oversight responsibilities of 
the committee as they pertain to the appropriations programs 
and activities of the legislative branch of our Government. I 
understand Senator Dorgan, who is the new ranking member, will 
be along shortly. I have been privileged to serve on this 
committee under the chairmanship of Senator Mack, and will do 
my best to carry on in his tradition.
    We welcome Senator Warner here. He is chairman of the Joint 
Committee on Printing, and our first subject this morning is 
the budget request of the Joint Committee on Printing.
    The request in fiscal 1998 is $804,000, which is a $27,000 
increase from the 1997 level of $777,000. Senator Warner, we 
welcome you, and we will be happy to receive your testimony.


                         introduction of staff


    Senator Warner. I thank you very much, Mr. Chairman.
    May I first introduce Col. Grayson Winterling, who is staff 
director of the Rules Committee, which has sort of ancillary 
responsibility, and Mr. Eric Peterson, who is the staff 
director of the Joint Committee on Printing. I will submit my 
entire statement for the record, Mr. Chairman, and cover some 
of the high points.


                           opening statement


    The point I wish to make is under the leadership of Senator 
Stevens, my predecessor on the Rules Committee as chairman, we 
have been looking at title 44. Title 44 is an interesting piece 
of legislation. However, over a period of years there has been 
a creeping tendency on the part of a number of departments and 
agencies of the Federal Government to violate it.
    Now, the degree to which it is violated, that is maybe lost 
in semantics, but I say there is certainly a technical 
violation. It is not good, honest Government employees trying 
to break the law, but for various reasons practices have grown 
up whereby the departments and agencies have made in-house 
printing facilities which now serve their needs and have not 
gone through the Government Printing Office, so I am continuing 
the work started by Senator Stevens on what we call title 44 
reform.


                legislative proposal to revise title 44


    From a concept paper, a legislative proposal has been 
drafted, and that proposal has been the subject of one hearing 
before the Rules Committee, and there is another one planned 
here in a few days. Based on the recommendations received 
during these hearings and other comments submitted for the 
record, the staff of the Joint Committee on Printing in 
cooperation with the Senate Rules Committee will redraft the 
legislative proposal.
    It is my hope to introduce a reform bill in a matter of 
months, and do it on a bipartisan basis. There is really no 
politics at all involved in this thing. It is just a question 
of what is the intent of the legislative branch and the 
executive branch to solve the problem. That problem is a 
constitutional one that is involved with the separation of 
powers. It stems from a 1983 Supreme Court decision in the case 
of the Immigration and Naturalization Service v. Chadha.
    I mention that because it is quite well-known through 
Government circles, and everybody sort of looks the other way, 
but it is the responsibility of both the legislative and 
executive branches to solve this tough problem.
    Now, the Justice Department Office of Legal Counsel wrote 
an opinion last year which construed the committee's 
involvement with the Government Printing Office to be the 
equivalent of exercising a legislative veto over the printing 
activities of executive branch agencies and thus a violation of 
the separation of powers doctrine.
    In the face of that opinion, it is difficult for the 
committee to obtain executive branch compliance with title 44. 
Some executive branch agencies either are procuring printing 
without going through the GPO, or doing printing for other 
agencies, or doing theirs in-house, and a mix of all of the 
above.
    As I say, at the moment I describe these practices as a 
technical violation of title 44.
    Now, the question before the Rules Committee is whether 
these are violations costing the taxpayers added dollars? Are 
they costing the taxpayers a reduced accessibility to a lot of 
the information created by the Government?
    So I just urge the committee to approve this budget. 
Hopefully, we will answer these questions this year, Mr. 
Chairman. I am determined to do so. I view this budget as in 
the public interest because it funds the committee that must 
resolve this public policy question between the legislative and 
executive branches. It cannot go on.

                           prepared statement

    So with that, I will just submit the balance of my 
testimony and I will be happy to respond to your questions, Mr. 
Chairman.
    [The statement follows:]
               Prepared Statement of Senator John Warner
    Mr. Chairman, Members of the Committee. I appreciate the 
opportunity to appear before you today on behalf of the Joint Committee 
on Printing, and its budget request of $804,000 for fiscal year 1998. 
Rather than reiterate the testimony I provided the House Legislative 
Branch Appropriations Subcommittee in February, I will give you an 
update on the Joint Committee's initiative to reform Title 44.
                            title 44 reform
    The Joint Committee on Printing has adopted by consensus a concept 
paper on Title 44 reform. From this concept paper a legislative 
proposal has been drafted. That proposal has been the subject of one 
hearing before the Senate Rules Committee. A second hearing is planned 
for May 8th. Based on the recommendations received during these 
hearings, and other comments submitted for the record, the staff of the 
Joint Committee on Printing, in cooperation with the Senate Rules 
Committee, will redraft the proposal for submission as a bill. It is my 
hope to be able to introduce a reform bill this spring on a bicameral, 
and bipartisan basis with the support and participation of the 
Administration. The legislation will address two key policy issues.
    The first is the constitutional separation of powers issue which 
stems from the 1983 Supreme Court decision in the case of the 
Immigration and Naturalization Service v. Chadha. Those of you familiar 
with the Joint Committee on Printing know that the Committee acts like 
a board of directors over the operations and activities of the 
Government Printing Office. The Justice Department's Office of Legal 
Counsel wrote an opinion last year which construed the Committee's 
involvement with the Government Printing Office to be the equivalent of 
exercising a legislative veto over the printing activities of Executive 
Branch agencies, and thus a violation of the Separation of Powers 
doctrine. In the face of that opinion it is difficult for the Committee 
to obtain Executive Branch compliance with Title 44. Some Executive 
Branch agencies either are procuring printing without going through 
GPO, or doing printing for other agencies. Both of these practices are 
a violation of Title 44, and are costly to the American taxpayer.
    The second key issue is to ensure that Title 44 provides for 
permanent public access to government information and publications. 
Because agencies in all three branches of the Federal government are 
violating the procurement provisions of Title 44, they are also 
violating the public access provisions as well. Government information 
produced at taxpayer expense must go to the Federal Depository Library 
Program.
    I want to make clear at the outset that this proposal is only a 
starting point. Therefore, it is premature to suggest that any of its 
provisions reflect how the bill ultimately will be drafted. The 
Committee will work closely with this Subcommittee to ensure that all 
appropriate budgetary considerations are made, and that you have 
appropriate opportunity to comment and prepare for whatever changes the 
bill ultimately authorizes.
    Mr. Chairman, my colleague Mr. Ford has a statement he wishes 
entered in the record.
    I thank the Committee for its attention.

                 costs relating to Title 44 violations

    Senator Bennett. Thank you.
    May I ask if you have any kind of sense on the issue of 
cost with respect to these technical violations of title 44 
that you referred to?
    Senator Warner. So far as I know, we have not got any 
costs.
    Mr. Peterson. We do not have any firm, reliable data. The 
Government Printing Office estimates the Government spends 
approximately $1.2 billion a year, and of that amount about 
$494 million does not flow through the GPO.
    Senator Bennett. But do they have any general sense that, 
in fact, this is costing more, or that there are savings and 
that the only issue is a turf issue, and I understand the Rules 
Committee has not completed its work, but do you have any sense 
on this?
    Mr. Peterson. The general sense we have is that again, 
based upon GPO's analysis of this matter, that those printing 
costs could probably be reduced by about 25 percent overall.
    Senator Bennett. So if that number is right, that would be 
roughly $100 million.
    Mr. Peterson. The savings would be approximately $300 
million. The total cost would come to $900 million.
    Senator Bennett. It would be one-quarter of that which is 
not being done by GPO, and that's only $400 million.
    Mr. Peterson. No; one-quarter of the Government's total 
printing cost, $300 million.
    Senator Warner. Let me describe to the chairman an example 
quite apart from the dollars, and I will not mention the 
agency's name, but it is a clearly documented case.
    The agency has employees whose salary is paid by the 
taxpayer. They do a body of research. That body of research is 
incorporated into a very important written report. This agency 
then sends that written report to a private sector company 
which publishes that report, and sells that report.
    Now, the taxpayer does not have access to that report 
unless he or she goes out and buys a copy of the private 
sector-produced journal, and we think that is wrong. That is 
basically what we are trying to fix.
    Now, that cannot be extrapolated into dollars and cents, 
but that is probably the more serious problem, as I see it.

                          GPO's revolving fund

    Senator Bennett. OK. You testified on the House side that 
the GPO's revolving fund is at a dangerously low level. Can you 
give us, either now or for the record, what the balances of 
that revolving fund are?
    Senator Warner. I do not have that figure.
    Mr. Peterson. We can provide that for the record.
    [The information follows:]

    GPO's cash balances in the revolving fund fluctuate every 
day and the amount the Agency has on-hand depends on a number 
of variables. Because GPO spends approximately $3 million every 
working day, a $30 million cash reserve would fund their 
operations for just 10 days, which in the past, has resulted in 
very low cash balances. GPO reported the following cash 
balances as of September 30 for the last three fiscal years: 
Fiscal year 1994, $64 million; fiscal year 1995, $36 million; 
and fiscal year 1996, $46 million.
    My testimony before the House Legislative Branch 
Appropriations Subcommittee wherein I spoke of the low level of 
financial reserves in the revolving fund, was made in reference 
to the funding of a study GPO was directed to conduct to 
determine if cost effective opportunities exist to privatize 
certain Congressional publications. My point was that GPO would 
have to fund the study out of its financial reserves even when 
they have been struggling for several years to achieve a break-
even financial status in their operations. If GPO were required 
to spend an estimated $600,000 for a private consultant, it 
would result in an increase in their operating expenses and 
make it even more difficult to achieve a break-even status.

            Congressional printing and binding appropriation

    Senator Bennett. The House, as I understand, is irritated 
that excess money given by Congress for congressional printing 
and binding each year gets transferred to the revolving fund 
and then used to pay salaries, and overtime--now, the GPO 
clearly has the authority to do this, but the House believes 
that the money is used to offset the cost of executive branch 
funding.
    We have submitted questions to the GPO to flesh this out. 
Do you have any preliminary understanding about this, or any 
comment about it at this point?
    Senator Warner. I do not.
    Mr. Peterson. Mr. Chairman, the GPO cannot utilize any of 
the appropriations unless there is work against which the GPO 
can bill. There is a period of time in which the money sits in 
the revolving fund, and if it is not expended for printing 
ordered by the Congress it eventually is returned to the 
Treasury.
    I believe that the perception is a misperception.

                          JCP budget increase

    Senator Bennett. As I understand it, the increase you have 
asked for is entirely due to COLA's.
    Senator Warner. That is correct. It is civilian salaries.
    I might mention to the Chair it is this Senator's intention 
to explore the need for this committee altogether if we can do 
a proper job of title 44 reform. I am fortunate to have Mr. 
Peterson, with whom I have had a long professional association 
over many years in many different capacities, and he has 
devoted 5 days each week of his life to studying this issue, 
and he is an authority on it.
    Senator Bennett. If Congress were to abolish the Joint 
Committee, would we save the full $804,000?
    Senator Warner. Well, I would assume some added 
responsibilities might go to the Rules Committee, but I would 
hope the current budget of the Rules Committee could absorb 
that.
    Senator Bennett. Thank you very much.

                   prepared statement of senator ford

    Senator Warner. We thank the Chair very much for this 
opportunity, and forgive me for a raspy voice, and we have a 
statement here by the distinguished Senator from Kentucky, Mr. 
Ford, who is the ranking member of the Rules Committee, and I 
think it reflects the coordination with what I have said, and 
it is very short. Thank you.
    [The statement follows:]

             Prepared Statement of Senator Wendell H. Ford

    Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity to make my position known.
    I support the $804,000 request of Chairman John Warner to 
operate the Joint Committee on Printing for fiscal year 1998. 
As a former Chairman of this Committee I believe the funding is 
minimal to carry out the statutory requirements assigned to 
this group.
    Chairman Warner tells us he intends to vigorously enforce 
Title 44 as long as it remains the law of the land. In my two 
terms as Chairman, JCP pursued that course. The savings were 
remarkable. We were able to show cost avoidance and expense 
containment throughout the government worth well over $50 
million in each of my four years. With the Committee's 
attention diverted over the past two years, I am sure Chairman 
Warner will now find savings a plenty in the Executive Branch.
    Our purpose was never to disrupt the process of government 
information distribution, but to the contrary, make it even 
more widely available to all segments of the population without 
financial discrimination. Chairman Warner is charting a similar 
course. I urge you to give him the funds he needs to succeed.

    Senator Bennett. We thank you, Mr. Chairman, for being 
here. If we have further questions, we will submit them to you 
and make them a part of the record, and, of course, Senator 
Ford's statement will be a part of the record.
    Senator Warner. I thank the Chair for conducting the 
hearing in his usual dignity and so forth. Thank you, Bob, very 
much.
                        JOINT ECONOMIC COMMITTEE

STATEMENT OF HON. JIM SAXTON, CHAIRMAN
ACCOMPANIED BY CHRISTOPHER FRENZE, EXECUTIVE DIRECTOR

                           opening statement

    Senator Bennett. We will now hear from the Joint Economic 
Committee. I know that is a sterling group, because I have the 
privilege of sitting on it. We appreciate Chairman Saxton's 
being here to defend the request for fiscal 1998.
    Mr. Chairman, we will go directly to your testimony.
    Mr. Saxton. Thank you very much, Mr. Chairman. I appreciate 
being here this morning. This is my first opportunity to appear 
as the chairman of the Joint Economic Committee. Last year, as 
you know, Senator Mack was the chairman and I was the vice 
chairman.
    Senator Bennett. Senator Mack last year was chairman of 
this subcommittee, too, so we are both sitting in for Senator 
Mack. [Laughter.]
    Mr. Saxton. This is an exciting 2 years for me as chairman 
and, as you know, this chairmanship goes back and forth, and 
that is why Senator Mack was chairman last year, and next 
Congress it will move back to the Senate.
    We have tried to identify an aggressive, assertive agenda 
for our research projects for the current term. We have decided 
that we wanted to concentrate on monetary policy, tax policy, 
spending policy, and regulatory policy, and there are some 
other things that from time to time we venture into, but those 
are the four main areas.
    During the first several months of this year we have moved 
quickly to produce a series of what I believe are timely and 
high quality studies and reports on these issues along, as I 
said, with a couple of other things.
    In February, for example, the Joint Economic Committee 
released reports on international monetary policy, the 
administration's education tax credit proposal, taxes and long-
term economic growth, and the findings of the Advisory Council 
on Social Security.
    Then in March we released reports on the structure of the 
Federal Reserve System and the welfare-to-work tax credit 
proposal, and we followed that in April with reports on the 
roots of the current economic expansion, which is quite an 
interesting report, incidentally, the benefits of auto choice 
insurance reform, which is one of the areas that we ventured 
off into because it is of quite high interest to the citizens 
of the country who pay higher auto insurance premiums, the 
efficiency of targeted tax policies such as those the President 
has recommended, which is the education tax credit initiative, 
and establishing also Federal Reserve inflation goals, an 
extremely interesting subject on which we have spent a good 
deal of time.
    As you may know, Mr. Chairman, from the Joint Economic 
Committee hearings that you attended, our country has a 
practice of targeting a number of economic goals through the 
Fed, and other modern-day countries have chosen to target just 
price stability, or inflation, and so the studies address that 
issue.
    Then, in addition to the monthly hearings on employment 
conditions and the Consumer Price Index the Joint Economic 
Committee has also held hearings on the ``Economic Report of 
the President,'' the President's budget submission, and the 
economic impact of the tax system.
    Federal Reserve Chairman Greenspan's appearance before the 
Joint Economic Committee in March was widely viewed as 
telegraphing an imminent change in Federal Reserve policy just 
prior to the short-term interest rate increase.
    So I appreciate the opportunity to be here this morning to 
let you know that we have been extremely active and productive, 
and I guess I would say an informative player in the budget 
process which is currently unfolding.

                           prepared statement

    We appreciate you taking your time to take our testimony 
this morning, and we hope that inasmuch as we voluntary took a 
25-percent reduction in our budget the year before last and 
held it steady without any increase last year, this request is 
also without an increase.
    I am sorry, actually we took a $250,000 cut for fiscal 1997 
as well.
    [The statement follows:]

                   Prepared Statement of James Saxton

    Mr. Chairman and Members of the Subcommittee, it is a 
pleasure to present my strong support for the fiscal year 1998 
appropriation of the Joint Economic Committee (JEC). As the new 
Chairman of the JEC, I anticipate a productive two years of 
hearings, studies and reports on the important economic 
challenges facing our country.
    It is my view that the Congress must have the analytical 
capability to provide information to its Members before 
important policy decisions are made. The Executive Branch has a 
number of agencies with economic and statistical expertise, and 
Congress urgently needs to have access to as much similar 
information as possible through entities such as the JEC. 
Congressional decision-makers would be at a significant 
disadvantage without the analytical resources made available by 
the JEC.
    The JEC has moved quickly in this Congress to produce a 
series of timely and high-quality studies and reports on a wide 
variety of issues. In February the JEC released reports on 
international monetary policy, the Administration's education 
tax credit proposal, taxes and long-term economic growth, and 
the findings of the Advisory Council on Social Security. In 
March, the JEC released reports on the structure of the Federal 
Reserve System and the welfare to work tax credit proposal. In 
April, the JEC released reports on the roots of the current 
economic expansion, the benefits of auto-choice insurance 
reform, the efficiency of targeted tax policies, and 
establishing Federal Reserve inflation goals. In the first week 
of May, we have released a report on budget process reform. We 
are pleased with the favorable reception our research products 
have received by policy analysts and the media.
    In addition to the monthly hearings on employment 
conditions and the Consumer Price Index, the JEC has also held 
hearings on the Economic Report of the President, the 
President's budget submission, and the economic impact of the 
tax system. Federal Reserve Chairman Greenspan's appearance 
before the JEC in March was widely viewed as telegraphing an 
imminent change in Federal Reserve policy.
    In this Congress we will continue ongoing research programs 
in areas such as employment conditions, dynamic scoring of tax 
legislation, optimal size of government, middle class income 
trends, income mobility, and a variety of other topics. Our 
research agenda in the new Congress will expand in some of 
these areas, but has already branched out into some new areas 
as well.
    One area of particular interest arises from the drift in 
much of recent tax policy. At least to some extent, tax policy 
increasingly is driven by non-economic criteria, which despite 
the best of intentions, would gradually distort the tax system 
and undermine the economy. We have planned a series of studies 
and hearings to examine the economics of taxation, and the 
effects of the current tax code on work, saving, investment, 
and economic growth. These JEC activities will examine the need 
to reestablish the economic criteria on which sound tax policy 
should be based.
    Another issue on our research agenda concerns an 
examination of monetary policy, both in the United States and 
in several other nations. In recent years a number of national 
central banks, including our own Federal Reserve, have adopted 
price stability as their overriding objective. Several of these 
foreign central banks have targeted changes in price indexes as 
their main guide to conducting monetary policy. Our JEC 
research will be examining whether it would be desirable for 
the Federal Reserve to move in a similar direction.
    The JEC has been extremely active in this Congress and will 
continue to be active into the future. We will continue to 
expand our research agenda into new areas in coming months. 
Thank you for the opportunity to testify this morning.

    Senator Bennett. I am aware of that. Was your ability to 
absorb that reduction based on the use of technology and 
contracting out, or did you simply cut back and cut back 
activities?
    Mr. Saxton. I do not think we have cut back activities. 
Frankly, when we decided how we were going to reorganize 
ourselves we looked at the budget that we had and I believe we 
were able to attract some very high quality economists who are 
currently on the staff and who have worked overtime to produce 
the kind of product that we have been able to share with other 
Members of Congress and the public.
    It took some doing. I do not want to make light of it, but 
because of the quality of the people that we have and our 
ability to deal with these issues efficiently we have been able 
to continue a very high quality product.
    Senator Bennett. What is the status of the Boskin report on 
the Consumer Price Index in terms of the JEC report?
    Mr. Saxton. The Joint Economic Committee looked at the 
Boskin report, which recommended a 1.1-percent reduction in the 
Consumer Price Index presumably through some kind of a 
legislative action. We frankly related it to other policy 
issues that are addressed along with it, and we produced some 
reports which essentially said that everyone wants accurate 
numbers in dealing with economic analysis and measure of price 
stability in particular.
    But we also recognize that there are major changes which 
occur when you deal with the Consumer Price Index from a 
legislative point of view, particularly in the area of 
entitlements, and in the area of levels of taxation that we 
impose on the American people, because a change, as you know, 
in the Consumer Price Index has a direct impact on all those 
issues.
    We have also, therefore, asked the Bureau of Labor 
Statistics to report to us by the end of this summer on changes 
they might make in the computations that they make in order to 
arrive at a more accurate figure, so that rather than have 
Congress in the business of making some arbitrary judgment on 
where the Consumer Price Index ought to be pursuant to Boskin 
or pursuant to our own analysis, that the people that we hire 
and pay to do that, who are quite frankly pretty good at it, 
ought to be the group who proceed to make it more accurate.
    I would also like to point out on this issue that during 
the last couple of weeks the Bureau of Labor Statistics was 
called upon by the administration and I think by some Members 
of Congress to make suggestions as to what we might do in this 
budget to correct the inefficiencies or the deficiencies of the 
CPI.
    The leadership on the House side at least has decided not 
to make those legislative changes at this time, and so the 
Boskin Commission certainly kicked off a hot debate that had to 
do with Social Security and taxes and the Bureau of Labor 
Statistics, and I hope that we have gotten everyone's attention 
and that we will be moving toward more accurate numbers.
    Senator Bennett. We have been joined by Senator Dorgan, who 
is taking up his duties as the ranking member of this 
subcommittee, and Senator, we appreciate your being here, and 
welcome you to the subcommittee as well as to the ranking 
member's slot.
    Senator Dorgan. Thank you, Mr. Chairman.
    Senator Bennett. We will be pleased to have any opening 
statement you might have.
    Senator Dorgan. Mr. Chairman, first, it is not my usual 
practice to be tardy or late. I am in the middle of working on 
the flooding disaster issue, and we have some officials from 
North Dakota in, and we only have until 2:30 to file 
amendments, so I have been in a series of meetings on that. 
That has delayed me, and it will also require me to leave 
early, but I appreciate very much your convening the hearing 
and look forward to working with you on it.
    I served on the Joint Economic Committee and enjoyed it a 
great deal, and know of its work and appreciate, Congressman 
Saxton, your appearance.
    Mr. Saxton. Thank you.
    Senator Bennett. I would like to make a few general 
comments about the subcommittee, and I saved these until 
Senator Dorgan was here so he could contradict, comment, or 
otherwise remark.
    I think we need to be very careful in this subcommittee to 
recognize our responsibility to meet the needs of the entire 
legislative branch of the Government, not only the Senate and 
the House, but all of the other agencies that are part of the 
legislative branch, including the Library of Congress, the 
General Accounting Office, and others.
    The 103d and 104th Congresses have achieved significant 
reductions in both appropriations and numbers of staff in the 
legislative branch. In 1993, Congress eliminated 16 
subcommittees and abolished some select committees in an effort 
to reduce the budget and streamline the institution.
    In 1996, as a result of the work of those two Congresses 
and this subcommittee, both Senate and House committee staffs 
stand at roughly two-thirds of the level they were at in 1979, 
and when measured in 1979 constant dollars, legislative branch 
appropriations for fiscal 1997 are 19.8 percent less than they 
were in fiscal 1977, so we have achieved reductions in people, 
and we have achieved reductions in constant dollars.
    The reason I say that is that there are those who say we 
must now have a freeze in the legislative branch as if nothing 
had been done over the last 10, 15 years. The legislative 
branch appropriations were swollen. They were obviously too 
high.
    There was a change in control, at least in the Senate, in 
the 1980 election, and control went back to the Democratic 
Party after 6 years of Republican control, but through the 20-
year period from 1977 to 1997 we have had the reductions that I 
have referred to, so I think the time has come in the name of 
good management to review how those reductions have taken 
place, and yes, we should look for additional savings, but we 
should recognize that a lot of work has been done, and we are 
not starting out from ground zero, and it may well be that a 
freeze is not the thing to do in terms of the overall 
appropriations for the legislative branch.
    Now, that having been said, I want to thank you, Mr. 
Chairman, for the fact that your committee is not asking for an 
increase and could live with the freeze, but I did want to make 
the general statement that in the legislative branch overall, 
this being our first hearing, we may not be able to sustain an 
overall freeze.
    Senator Dorgan, did you have any comment on that overall 
opening, which I delayed, as I say, until you could be here to 
respond?
    Senator Dorgan. Well, Mr. Chairman, I appreciate your 
comments. I think most people do not know that we have 
downsized, and as you state, we have reduced appropriations for 
the legislative branch and for committees, and it is 
interesting that this weekend there appears to have been a deal 
struck on a balanced budget agreement. I think we need to 
understand that and what all of that means in terms of our 
responsibilities, what kind of aggregate public spending we 
will have, and what our obligation is on oversight.
    I think that clearly with all of the Federal budget being 
under the microscope, so, too, is the budget of the legislative 
branch activities. Yet what we do is very important, and we 
need to make sure there is adequate funding for oversight to 
carry out the responsibilities of the legislative branch.
    I cannot think of a better Member to serve with than 
Senator Bennett. I think this will be an interesting 
subcommittee, and we will face some interesting decisions, at 
least if I am reading some of the Hill journals correctly.
    There are people who have a very active interest in the 
work of the legislative branch appropriations, but we just need 
to do our work thoughtfully and in a cooperative way, and I 
appreciate very much your comments.
    Senator Bennett. Thank you.
    Mr. Chairman, do you have anything further? Your request is 
easy.
    Mr. Saxton. We appreciate the time you have spent with us 
here this morning and we look forward to being funded at the 
appropriate level, and thank you for your time.
    Senator Bennett. If we have additional questions, we will 
submit them, and we will keep the record open for your 
responses. Thank you for being here.
    Mr. Saxton. Thank you.
    Senator Bennett. The next witness has been delayed, and the 
committee will take a recess until they arrive.
    [A brief recess was taken.]

                      JOINT COMMITTEE ON TAXATION

STATEMENT OF HON. BILL ARCHER, CHAIRMAN
ACCOMPANIED BY:
        KENNETH J. KIES, CHIEF OF STAFF
        BERNARD A. SCHMITT, DEPUTY CHIEF OF STAFF, REVENUE ANALYSIS
        MARY M. SCHMITT, DEPUTY CHIEF OF STAFF, LAW

                             Budget request

    Senator Bennett. The subcommittee will reconvene. We 
appreciate the attendance of Chairman Archer of the Joint 
Committee on Taxation. This is a bipartisan and nonpartisan 
committee, so there is no division of budget between majority 
and minority salaries, as is the case in some other joint 
committees we have talked about, and for fiscal 1998 the Joint 
Committee has requested an appropriation of $6.126 million, an 
increase of 12 percent, or $656,000 over the fiscal 1997 level.
    This increase includes, I understand, $375,000 for new 
hires. That would be two to three new macroeconomists, $154,000 
for COLA's, and $120,000 for merit increases.
    Before you came, Mr. Chairman, I made a general statement 
that the appropriations for the legislative branch in constant 
dollars are substantially less than they were 20 years ago. The 
number of staff positions for the legislative branch are down 
significantly, the work primarily of the 104th Congress.
    I sat on this subcommittee when Connie Mack was the 
chairman and we took some rather substantial whacks out of a 
number of areas, including a 25-percent reduction in the 
Government Accounting Office, so I am not as convinced that we 
need an absolute freeze in the legislative branch 
appropriations as apparently some of your colleagues in the 
House are.
    So, you may find your testimony here to be a little more 
friendly than it might be on the House side in terms of the 
attitude of the Senate with respect to the legislative branch 
overall, but I would be happy to hear your testimony now, and 
then we can respond to some of the specifics.
    Mr. Archer. Thank you, Mr. Chairman.

                           opening statement

    I would not give way to anybody in the entire Congress in 
my desire to be frugal and to get 1 dollars' worth of benefit 
out of every dollar that we spend on the legislative branch. 
That was evidenced by the day after I became chairman of the 
Ways and Means Committee when I cut the majority staff by 40 
percent, which was probably the single biggest percentage cut 
of any committee in the entire Congress, House or Senate, and 
we have done our work effectively. But, I have watched over the 
years as the majority staff of the Ways and Means Committee 
ballooned up for political reasons.
    I come here today, as you know, to testify on behalf of the 
budget request for the Joint Committee on Taxation, which is 
not a political entity and which has not ballooned up over the 
years as the majority staff of the Ways and Means Committee 
ballooned up. Therefore, it did not take the cuts in the last 
Congress.
    I also believe that the massive cuts--and I also believe 
that their request for this year is justifiable, because they 
provide unique and essential services to both the House and the 
Senate at every stage of the tax legislative process, and they 
have to develop markup and draft tax bills, and they have to 
write all the tax committees' reports and the conference 
reports.
    In addition, they devote substantial, and I would say even 
more than substantial, resources to the preparation of revenue 
estimates. They have to accommodate every Member of Congress 
when they make a request for changes in the Tax Code. They 
provide the distributional analyses and other economic analyses 
that relate to tax legislation. I am sure you know that, but I 
just wanted to restate that for the record.
    In addition, what many people do not know is that they 
operate a refund office where they have to go over refunds that 
are large in numbers--that is, large in dollar numbers--that 
are suggested by the IRS before the IRS can actually make the 
refund of a certain threshold, and they have many times caught 
the IRS in errors and saved the taxpayers significant money.
    Senator Bennett. May I ask, what is that threshold?
    Mr. Kies. $1 million.
    Mr. Archer. I think you stated a little bit about what the 
request is, that for 1998 the request is $6,126,000. It is a 
net increase of $656,000 over the fiscal year 1997 
appropriation, but only $107,000 more than the fiscal year 1995 
appropriation for the Joint Committee, and I think you alluded 
to that.
    In the last Congress we asked the Joint Committee to assume 
additional responsibilities in addition to the traditional role 
of developing, drafting, and estimating of proposed revenue 
legislation. The Joint Committee now must determine the 
possible unfunded mandates contained in revenue legislation, 
which we voted for and which we put into effect. There has to 
be some entity to determine whether a particular proposal is an 
unfunded mandate or not, and beginning in 1997, to identify the 
limited tax benefits that are subject to the line item veto 
authority. The line item veto law provides that the Joint 
Committee will determine what items in the Tax Code are subject 
to a line item veto when the bill goes through the Congress.
    If the Joint Committee's responsibilities are expanded in 
any further way, for example by expanding the estimating 
services required as they begin to move toward--as they begin 
to move away from static analysis and more to an update for 
accuracy that will truly measure the revenue impact of tax 
legislation, then the Joint Committee is going to be needing 
additional resources. They are now beginning to start that, and 
some of the resources that are requested in this year's budget 
request are for that purpose.

                           prepared statement

    I guess that is pretty much what I need to tell you, Mr. 
Chairman, and maybe Ken Kies, who is the chief of staff of the 
Joint Committee on Taxation, would like to add something to it.
    [The statement follows:]
                   Prepared Statement of Bill Archer
                              introduction
    Mr. Chairman, I appreciate the opportunity to appear before the 
Subcommittee today to discuss the fiscal year 1998 appropriation 
request for the Joint Committee on Taxation (the ``Joint Committee'').
    The Joint Committee staff provides unique and essential services to 
both the House of Representatives and the Senate at every stage of the 
tax legislative process. The Joint Committee staff is comprised of 
highly qualified lawyers, accountants, and economists, and has earned a 
reputation for nonpartisan excellence with the tax-writing committees, 
the Congress, the general public, and the professional tax community. 
The Joint Committee staff is involved in the development, marking up, 
and drafting of tax bills and is responsible for writing all tax 
Committee Reports and Conference Reports. In addition, the Joint 
Committee staff devotes substantial resources to the preparation of 
revenue estimates, distributional analyses, and other economic analyses 
relating to proposed legislation. The refund office of the Joint 
Committee reviews large proposed tax refunds as part of the 
Congressional oversight of the executive branch. The services of the 
Joint Tax Committee are central to Congressional oversight of the 
Federal tax system and to the tax legislative process.
    The funding we are requesting for the Joint Committee on Taxation 
represents the minimum amount necessary to finance the operations of 
the Joint Committee for fiscal year 1998. The Joint Committee provides 
essential services to the Congress that are not duplicated by any other 
Congressional or Executive Branch office.
    Key points relating to the fiscal year 1998 appropriation request 
are as follows:
    We are requesting a fiscal year 1998 appropriation for the Joint 
Committee of $6,126,000. This amount is a net increase of $656,000 over 
the fiscal year 1997 appropriation, but only $107,000 more than the 
fiscal year 1995 appropriation for the Joint Committee.
    In the last Congress, we asked the Joint Committee staff to assume 
additional responsibilities. In addition to the traditional role of the 
Joint Committee staff in the development, drafting, and estimating of 
proposed revenue legislation, the Joint Committee staff is now 
responsible for determining the possible unfunded mandates contained in 
revenue legislation and identifying, beginning in 1997, the limited tax 
benefits subject to the Line Item Veto Act. The Line Item Veto Act has, 
as you know, been overturned by a District Court, and is scheduled for 
expedited review by the Supreme Court, so the extent of the Joint 
Committee's responsibilities under the Act is unclear at this time.
    If the Joint Committee's responsibilities are expanded in any 
further way, for example, by expanding the revenue estimating services 
required or significantly modifying the revenue estimating process, we 
will find it necessary to request an additional increase in the Joint 
Committee's appropriation to reflect the additional personnel and 
equipment expenses attributable to such increased responsibilities. In 
that regard, we want to point out to the Subcommittee that a new House 
rule, adopted for the 105th Congress, would require the Joint Committee 
to determine the macroeconomic effects of proposed revenue legislation 
under certain circumstances. The Joint Committee staff does not 
currently have the staff or computer capabilities to satisfy this 
requirement. In addition, the Joint Committee hosted, on January 17, 
1997, a symposium presenting the results of a year-long study into the 
feasibility of incorporating macroeconomic effects into Joint Committee 
revenue estimates. There has been further interest in pursuing this 
capability as a result of the symposium and, therefore, there may be 
the need for additional funding.
    Additional details relating to this appropriation request are 
provided below.
               summary of fiscal year 1998 budget request
    The following summarizes the Joint Committee's budget request for 
fiscal year 1998:

Personnel Funding.............................................$5,541,000
Non-Personnel Funding:
    Travel....................................................    10,000
    Transportation of Things..................................     2,000
    Rent, Communications, Utilities...........................    88,000
    Other Services............................................    95,000
    Supplies and Materials....................................   130,000
    Equipment.................................................   260,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total fiscal year 1998 request.......................... 6,126,000

    The fiscal year 1995 appropriation for the Joint Committee on 
Taxation was $6,019,000. The House-passed legislative branch funding 
bill for fiscal year 1996 froze the Joint Committee appropriation at 
the fiscal year 1995 level ($6,019,000). The final version of this 
legislation reduced the Joint Committee's appropriation for fiscal year 
1996 by 15 percent to $5,116,000. This reduction was the result of a 
provision in the Senate bill, adopted in conference, which generally 
reduced appropriations of all Senate committees. This was adopted 
despite the fact that the Joint Committee has always been funded 
through the House of Representatives. This appropriation was lower than 
the Joint Committee's budget in each of the last 5 fiscal years. The 
fiscal year 1997 appropriation for the Joint Committee is $5,470,000, a 
6.9 percent increase over fiscal year 1996, but still well below the 
fiscal year 1995 funding level.
           details of fiscal year 1998 appropriation request
Personnel Expenses
    We are requesting an appropriation for fiscal year 1998 for the 
Joint Committee that is $656,000 more than the fiscal year 1997 
appropriation, but only $107,000 more than the fiscal year 1995 
appropriation. Of this $656,000 requested increase, $649,000 relates to 
increases in personnel expenses.
    Cost of living.--As instructed by the House Finance Office, we are 
requesting $28,000 for the annualized fiscal year 1997 cost-of-living 
adjustment (2.3 percent) and $126,000 for a prorated fiscal year 1998 
cost-of-living adjustment (2.325 percent). These amounts are 
essentially determined for the Joint Committee by the House Finance 
Office because they provide to us both the compensation base and the 
percentage adjustments.
    Merit increases.--We are requesting an additional appropriation for 
fiscal year 1998 of $120,000 for merit increases for existing staff.
    This request does not include any specific requested amount for 
possible overtime pay. During 1996, the Joint Committee staff spent 
considerable time and effort developing procedures to comply with the 
requirements of the Congressional Accountability Act. One staff 
attorney worked essentially full time to develop a staff personnel 
manual that details all of the Joint Committee staff rules and 
procedures. In addition, she made determinations as to which employees 
are subject to the overtime requirements and created written job 
descriptions for each job category. This attorney also spent many hours 
developing support staff performance evaluation forms and procedures. 
We have developed flexible staff scheduling procedures for support 
staff that will minimize, but not eliminate, the need to pay overtime. 
However, we will be required to devote considerable administrative 
staff time each year to complying with the Congressional Accountability 
Act on an ongoing basis. Thus, the requested increase assumes a modest 
amount for administrative staff support and minimal overtime payments 
to comply on an ongoing basis with the requirements of the 
Congressional Accountability Act.
    New hiring.--We are requesting $375,000 for hiring to fill FTE's we 
are requesting for the Joint Committee for fiscal year 1998. We expect 
the Joint Committee to fill these FTE positions with additional 
professional staff--primarily staff attorneys, accountants, and 
economists--and possibly one or two computer specialists and support 
staff.
    The Joint Committee staff does not now have sufficient numbers of 
staff attorneys and economists to satisfy the traditional duties of the 
Joint Committee. The staff needs to hire additional professional staff 
so that the service provided to the Congress in connection with the 
consideration of revenue legislation does not suffer.
    Furthermore, we believe that this request is eminently reasonable 
given the new responsibilities that were imposed on the Joint Committee 
staff by legislation enacted during the 104th Congress. For example, 
the Joint Committee staff has new responsibilities specifically 
mandated under the Line Item Veto Act and arising out of the enactment 
of the Unfunded Mandates Reform Act of 1995 and the review of 
regulations under the regulatory reform bill. The scope of the Joint 
Committee staff's new responsibility for any year will be determined by 
the amount of revenue legislation considered during the year. However, 
the Joint Committee staff estimates that any significant revenue 
legislation could require approximately \1/2\ full-time employee to 
satisfy these new requirements during 1997.
Authorized positions
    We are requesting 73 FTE's for the Joint Committee for fiscal year 
1998. This number would return the Joint Committee to the authorized 
staffing level for fiscal year 1995. The Joint Committee has 61 
authorized staff positions for fiscal year 1997. Other than fiscal year 
1996, in which the authorized staff positions were 63, the authorized 
staff levels have not, since 1980, been below 66 positions. Thus, the 
authorized staffing levels of the Joint Committee are well below 
historical levels. Unless the authorized FTE's are increased to an 
acceptable level, we believe that the services the Joint Committee 
provides to the Congress will be compromised.
    We would expect that these additional FTE's would be filled 
primarily with professional staff members--attorneys, accountants, and 
economists; 1 or 2 positions might be filled with support staff to 
accommodate the needs of these new professional staff. We expect that 
particular emphasis would be placed on hiring additional staff 
economists to continue the Joint Committee's efforts to pursue the 
capability of incorporating macroeconomic effects in the Joint 
Committee's revenue estimates.
    We believe that the authorized staffing for the Joint Committee is 
unacceptably low. The Joint Committee staff will not be able to 
maintain its reputation for quality service to the Congress unless it 
is permitted to hire sufficient professional staff members. As a result 
of the new obligations of the Joint Committee discussed above, the 
amount of time that the Joint Committee staff is able to devote to the 
traditional duties analyzing revenue legislation has been diminished. 
Unless additional hiring is authorized, the service to the Congress 
will no doubt suffer.
    The current Joint Committee staff has shown remarkable dedication 
in picking up the slack as the Joint Committee is unable to fill the 
positions of departing staff members. However, at some point, these 
dedicated professionals, who often take positions on the Joint 
Committee staff at less than one-half the compensation they would make 
in the private sector, will conclude that the long hours for less-than-
market pay poses too great a burden on their families. This, we 
believe, would be a great loss for the Congress.
    The extremely complex, technical, and specialized nature of the 
Joint Committee work requires the Joint Committee to hire and retain a 
highly trained and experienced staff. The Joint Committee professional 
staff, comprised of certified public accountants, Ph.D. economists, and 
lawyers with private law practice or significant government experience, 
agree to work for the Joint Committee at salaries substantially below 
those available in the private sector. The lawyers on the Joint 
Committee staff are graduates of the leading law schools throughout the 
country, and most attained significant honors at law school. Several of 
them have advanced degrees in taxation. Each had substantial related 
experience before coming to work for the Joint Committee, either in 
private practice with major, well-respected law firms, or with the 
Internal Revenue Service or other government agencies that deal with 
Federal tax matters. The accountants on the staff each spent at least 3 
years in private practice with ``Big Six'' accounting firms. The staff 
economists all have advanced degrees. Several have university faculty 
experience. In addition, many of the economists have substantial 
experience with economic modeling, both in the government and with a 
variety of organizations in the private sector.
    Despite the competition in the marketplace for tax expertise at the 
level required by the Joint Committee, the Joint Committee has in the 
past generally been successful in retaining highly qualified staff 
members. The ability of the Joint Committee to hire sufficient numbers 
of qualified staff members to provide the current level of service to 
the Congress will be impaired if the requested appropriation is not 
approved. If the current appropriations request is approved, we expect 
that the Joint Committee will be able to fill open staff positions with 
qualified candidates so that the level of service provided to the 
Congress will not be compromised.
Nonpersonnel expenses
    We are requesting only minimal increases in nonpersonnel expenses 
for fiscal year 1998. We have requested a $5,000 increase in the travel 
budget, which is used by the Joint Committee to send staff members to 
educational conferences and for travel in connection with hiring 
personnel, and the addition of a $2,000 appropriation for the 
transportation of things. These two amounts are the only increases we 
are requesting in nonpersonnel expenses.
    The amount budgeted for other services is primarily for consulting 
services. The needs of the Members for immediate responses to requests 
for revenue estimates and the substantial volume of requests for 
revenue estimates that the Joint Committee staff receives places 
tremendous burdens on the estimating staff. To perform efficiently, the 
staff of the Joint Committee has found it necessary to contract from 
time to time with certain private sector organizations to do work that 
the Joint Committee staff does not have the time or the resources to do 
otherwise. Also, as mentioned above, the Joint Committee staff has 
contracted with firms to help investigate issues involved in 
incorporating macroeconomic effects in revenue estimates.
    The purchase of equipment represents the single largest item of 
nonpersonnel expenses. The large volume of documents that the Joint 
Committee is required to produce during the legislative process 
requires that the Joint Committee staff have computer equipment 
necessary to produce documents quickly. In addition, the Joint 
Committee devotes significant resources to the preparation of revenue 
estimates, distribution analyses, and other economic analyses relating 
to proposed legislation. The nature of this work and the speed with 
which the staff is normally asked to complete its analyses requires 
that the Joint Committee on Taxation staff utilize the most 
sophisticated and technologically advanced equipment. Thus, the staff 
finds it necessary to upgrade computer software and hardware constantly 
to enable the staff to provide the service required and expected by the 
Members of Congress.
Possible need for additional appropriation
    We believe that the fiscal year 1998 budget request represents the 
minimum appropriation necessary at this time to enable the Joint 
Committee to provide service to the Congress at current levels. In 
addition, we want to alert the Subcommittee to the fact that there are 
likely to be new responsibilities imposed by the Congress on the Joint 
Committee staff that may not be met out of the requested appropriation. 
These new responsibilities may create the need for additional funding 
for fiscal year 1998 and beyond.
    The House approved a new House rule for the 105th Congress that 
requires the staff of the Joint Committee to estimate the possible 
macroeconomic (or dynamic) scoring effects of major revenue 
legislation. The Joint Committee staff presently has neither the 
personnel nor the computer capabilities to satisfy the requirements of 
this rule. As discussed in more detail below, the staff of the Joint 
Committee undertook during 1996 a year-long study of the feasibility of 
incorporating macroeconomic effects in its revenue estimates. On 
January 17, 1997, the Joint Committee staff hosted a symposium, open to 
the public, analyzing the results of this year-long study. Based on the 
results presented at this symposium, there is further interest in 
pursuing the capability of calculating the macroeconomic effects of 
major revenue legislation and, therefore, there may be a need for 
additional funding to finance the development of this capability.
    We have asked the Joint Committee staff to estimate the number of 
additional personnel and nonpersonnel funding that might be necessary 
to work toward the development of macroeconomic estimating capability. 
They inform me that, during the developmental stages, which could take 
a couple of years, the Joint Committee would need up to 8 additional 
staff, composed of 2 senior economists, 4 economic analysts, and 2 
computer programmers with an annual salary expense of $600,000. In 
addition, it would be necessary to contract with 2 or 3 major 
macroeconomic modeling firms for various research and development 
expenses, at an estimated additional expense of approximately $100,000 
per year. After the developmental stage, the Joint Committee staff 
would have ongoing needs for approximately 6 professional staff 
economists and computer programmers, rather than 8.
    We believe that we must pursue the goal of providing a broader 
class of economic analysis for proposed tax legislation, particularly 
relating to the impact of saving and investment incentives and their 
effects on the economy. However, we recognize that pursuing this goal 
will require some extraordinarily sophisticated economic analysis that 
blends traditional macroeconomic theory with the complexities of the 
microeconomic analysis historically done in the preparation of revenue 
estimates. There is no organization or entity that currently has this 
capability. Thus, this effort will require the commitment of the 
Congress over a number of years if we can hope to be successful.
 review of joint committee on taxation operations during calendar year 
                                  1996
    Attachments A through D provide a summary of the activity of the 
Joint Committee for calendar year 1996. During 1996, the Joint 
Committee staff drafted fourteen Committee and Conference Reports 
(Statements of Managers) for the House Ways and Means Committee and the 
Senate Finance Committee. In addition, the staff drafted three tax 
treaty Executive Reports for the Senate Foreign Relations Committee 
(see Attachment A).
    During 1996, the Congress considered and passed seven different 
pieces of tax legislation. The Joint Committee staff was involved in 
the development of this legislation on both a technical and policy 
level, and prepared numerous revenue estimates and distribution 
analyses of the final legislation, as well as numerous alternative 
proposals. The legislation includes provisions in the following areas: 
Medical savings accounts; earned income credit; small business 
provisions; health-related tax provisions; corporate and other tax 
reforms; expiring tax provisions; taxpayer Bill of Rights 2; 
simplification and technical corrections; special tax rules applicable 
to combat zones in Bosnia and Herzegovina, Croatia and Macedonia; and 
tax treatment of special assessments for the Savings Association 
Insurance Fund.
    The Joint Committee was involved in a variety of other tax 
initiatives considered by the Congress, including miscellaneous tax 
reforms, and analyses of various flat tax and consumption tax 
proposals, including proposals to adopt a national sales tax, in 
connection with Congress' continued consideration of fundamental tax 
reform. Because these proposals could result in a complete 
restructuring or replacement of the Federal income tax system, they 
involve significant legal and economic analysis, and present unique 
revenue estimating issues. The Joint Committee also was involved in 
work in connection with the President's budget submission and various 
alternative budget proposals. The Joint Committee staff prepared two 
hearing pamphlets for the Senate Committee on Foreign Relations in 
connection with proposed income tax treaties.
    In addition to its work on Committee and Conference Reports and tax 
treaties, the Joint Committee staff published 61 documents during 1996, 
including pamphlets and testimony prepared at the request of the 
Committee on Ways and Means and the Senate Finance Committee for 
hearings held by those committees and pamphlets prepared for the 
benefit of Members of Congress and their staffs in connection with tax 
issues of current interest (see Attachment B). Included in these other 
documents was the General Explanation of Tax Legislation Enacted in the 
104th Congress, a comprehensive compilation of the legislative history 
of all tax legislation enacted during the 104th Congress.
    Also included in 1996 publications were two pamphlets providing a 
description of present law, issue analysis and background information 
and data on Federal transportation excise taxes and Trust Fund 
expenditure programs. These documents were prepared in response to the 
request of the Committee on Ways and Means in connection with the 
appointment of a bipartisan task force of Members of that Committee to 
advise on transportation excise tax issues. We asked the Joint 
Committee staff to assist the task force on a continuing basis by 
developing information needed for the task force's work.
    In addition, among the documents published in 1996 was a draft 
analysis of issues and procedures for applying the Line Item Veto Act 
(relating to limited tax benefits). The Joint Committee solicited 
public comment to be submitted by December 13, 1996 on the Line Item 
Veto Act analysis, in preparation for implementation of this new 
provision in 1997.
    In 1996 the Joint Committee staff undertook a review of the recent 
developments in the tax rules governing entity classification and 
taxation of the income of partnerships, as well as issues relating to 
tax-free corporate spinoffs, responding to changes in State law and 
Treasury guidance that have significantly impacted these areas. The 
Joint Committee staff consulted academics, practitioners and bar groups 
in these areas and requested public comment by December 16, 1996.
    The Unfunded Mandates Reform Act of 1995 imposes certain procedural 
requirements in the House and Senate with respect to mandates imposed 
on either the private sector or on State and local governments. Under 
procedures developed in coordination with CBO, the Joint Committee 
staff is required to provide an estimate to the CBO of the direct costs 
of complying with any such mandates contained in revenue legislation 
considered by the Congress.
    During 1996, the Joint Committee received over 1,750 requests for 
revenue estimates (see Attachment C). The requests received in 1996 
frequently involved complex proposals relating to alternative tax 
structures and proposals under consideration as part of the Small 
Business Act, the welfare reform bill, and the health reform bill, all 
of which required significant time on the part of the Joint Committee's 
legal and economics staff.
    One of the statutorily mandated functions of the staff of the Joint 
Committee is the review of Internal Revenue Service refunds or credits 
of income tax, estate and gift tax, or any tax on public charities, 
foundations, pension plans, or real estate investment trusts in excess 
of $1,000,000. The Joint Committee staff reports on each such refund 
case and makes comments or recommendations with respect to the proposed 
refund case to the IRS. During 1996 (through November), the Joint 
Committee refund staff reviewed 486 proposed refunds. The Joint 
Committee staff raised concerns in 92 cases (or approximately 19 
percent of the cases). Errors identified by the Joint Committee staff 
produced a net reduction in refunds of $10,600,000 in 1996. A copy of 
the Joint Committee staff's 1996 Refund Review Operations Report (other 
than sections containing confidential taxpayer information) is included 
as Attachment D.
summary of anticipated workload of the joint committee on taxation for 
                           calendar year 1997
    During 1997, it is expected that the Congress will return to 
consideration of various flat tax and consumption tax proposals that 
have been or will be introduced. Some work was done on restructuring 
proposals in 1995 and 1996, and we expect that this work will be 
intensified in 1997, as new proposals are introduced and existing 
proposals are refined and modified. Because these proposals involve a 
complete restructuring or replacement of the current Federal tax 
system, the economic and legal analysis of such proposals can be 
extraordinarily complex, requiring substantial staff time. We expect 
that Congressional consideration of these initiatives will place 
critical and unique demands on the staff of the Joint Committee to 
provide revenue estimates and legal and economic analyses in connection 
with these proposals.
    In addition, we expect the Joint Committee staff to continue to 
have an integral role in tax aspects of Federal budget deliberations. 
It is anticipated that the Joint Committee will assist in development 
and analysis of legislative proposals, and prepare markup documents, 
Committee reports and conference reports (Statements of Managers) with 
respect to any tax pieces of Federal budget legislation.
    The Joint Committee devotes substantial resources to the 
preparation of revenue estimates, distribution analyses, and other 
economic analyses relating to proposed revenue legislation. During 
1996, Members of Congress were increasingly interested in the revenue 
estimation process, particularly the possibility of incorporating 
macroeconomic effects in revenue estimates, and we expect that this 
interest will continue in 1997. Determining whether this can be done 
and, if so, how to do it, will require substantial resources. Currently 
accepted estimation processes do not account for macroeconomic effects, 
and there is no consensus in the economic community about how, and 
whether to, account for such effects. The Joint Committee has already 
taken steps to improve the estimating process and determine the 
feasibility of incorporating macroeconomic effects. These steps include 
providing more disclosure regarding the estimation process to Members, 
determining whether proposals are likely to have significant 
macroeconomic effects, establishing a revenue estimating advisory board 
(which will, among other things, address macroeconomic issues), and 
contracting with macroeconomic forecasting firms for the purpose of 
studying the feasibility of developing estimating models that 
incorporate macroeconomic effects. The Joint Committee is in the 
process of planning a conference of economic advisors in January 1997 
in order to review the results of the macroeconomic forecasting firms. 
It is anticipated that this review will help determine the feasibility 
of using such forecasting models and aid in the development of models 
that may be used by the Joint Committee. The ability of the Joint 
Committee to continue these efforts will be impaired if funding at the 
requested level is not provided.
    During 1997, the requirements imposed under the Unfunded Mandates 
Reform Act of 1995 will give rise to a continuing responsibility of the 
Joint Committee staff to provide an estimate to the CBO of the direct 
costs of complying with mandates on the private sector or on State and 
local governments that are contained in revenue legislation considered 
by the Congress.
    Under the regulatory reform bill recently enacted, a process of 
Congressional disapproval applies to certain executive branch 
regulations, rulings, and other pronouncements. The Ways and Means 
Committee and the Senate Finance Committee have asked the Joint 
Committee to review all tax regulations and similar guidance submitted 
to the Congress under the regulatory reform legislation and to report 
to the Committees on any issues that might be appropriate for 
Congressional disapproval.
    The Line Item Veto Act imposes a statutory responsibility on the 
Joint Committee to identify limited tax benefits contained in any 
legislation considered by the House or the Senate and to prepare a 
statement for inclusion in every Statement of Managers to identify any 
limited tax benefit. Following up on its work during 1996 in 
preparation for this duty, the Joint Committee staff, in 1997, will 
commence implementation of these provisions as required under the Act. 
The Line Item Veto Act has, as you know, been overturned by a District 
Court, and is scheduled for expedited review by the Supreme Court, so 
the extent of the Joint Committee's responsibilities under the Act is 
unclear at this time.
    It is anticipated that the Ways and Means Committee's bipartisan 
task force on transportation excise tax issues will require additional 
background information, data and analysis during 1997. This will carry 
on the work commenced by the Joint Committee, in response to the task 
force's 1996 request for assistance on an ongoing basis.
    It is also anticipated that the Joint Committee will be engaged 
during 1997 in analysis of its review of the recent developments in the 
tax rules governing entity classification and taxation of the income of 
partnerships and issues relating to tax-free corporate spinoffs, 
responding to changes in State law and Treasury guidance that have 
significantly impacted these areas.
                               conclusion
    We will continue to rely on the staff of the Joint Committee to 
provide us with their technical support. This superb staff has a 
demonstrated track record of service to the Congress. The appropriation 
request for fiscal year 1998 is intended merely to provide the 
necessary resources for the Joint Committee staff to respond promptly 
and adequately to the requests for assistance that it receives from the 
Members of Congress and to maintain its current level of services. 
Therefore, if the work required of the Joint Committee increases in any 
respect, for example, if the demand for revenue estimation services 
increases beyond the current level provided by the Joint Committee, or 
if the type of services demanded are expanded to include macroeconomic 
analyses, additional funding may be requested to enable the Joint 
Committee staff to satisfy this increased workload. For example, 
additional funds could be required to secure necessary computer models 
and data bases, to hire personnel with expertise regarding 
macroeconomic effects, and to ensure that the Joint Committee has the 
necessary computer software and hardware to complete economic analyses 
with the speed required by the Congress.
    In conclusion, we hope you appreciate the current role that the 
Joint Committee staff plays in the analysis and development of tax 
legislation. The nonpartisan technical tax experts on the Joint 
Committee staff provide an invaluable service to the Congress that 
cannot be provided by any other Congressional or Federal office. Their 
work for the Congress during 1996 proved this. A failure to provide the 
Joint Committee with its requested appropriation will hinder seriously 
the ability of the Joint Committee staff to respond to the requirements 
and needs of the Members of Congress.
                                 ______
                                 
 Attachment A.--1996 Tax-Related Legislative Reports Worked on by the 
                Staff of the Joint Committee on Taxation
                   tax committee report explanations
    H.R. 2337 (Taxpayer Bill of Rights 2). H. Rept. 104-506 (Ways and 
Means Committee report on bill to provide increased taxpayer 
protections).
    H.R. 2754 (Shipbuilding Trade Agreement Act). H. Rept. 104-524, Pt. 
1 (Ways and Means Committee report--portion on revenue offset 
provisions of Shipbuilding Trade Agreement Act).
    H.R. 2778 (Tax Benefits for Individuals Performing Services in 
Certain Hazardous Duty Areas). H. Rept. 104-465 (Ways and Means 
Committee report on bill to provide that members of the U.S. Armed 
Forces in Bosnia and Herzegovina are entitled to tax benefits as if in 
a combat zone).
    H.R. 3074 (Shipbuilding Agreement Act; Generalized System of 
Preferences Program). S. Rept. 104-270 (Finance Committee Report--
revenue offset provisions).
    H.R. 3103 (Health Insurance Portability and Accountability Act of 
1996). H. Rept. 104-496, Pt. I (Ways and Means Committee report--
revenue provisions of bill on health insurance coverage, medical 
savings accounts, long-term care services and revenue offsets).
    H.R. 3103 (Health Insurance Portability and Accountability Act of 
1996). H. Rept. 104-736 (Conference report on revenue provisions of the 
Act).
    H.R. 3286 (Adoption Promotion and Stability Act). H. Rept. 104-542, 
Pt. II (Ways and Means Committee report on bill to offset costs of 
adoptions).
    H.R. 3286 (Adoption Promotion and Stability Act). S. Rept. 104-279 
(Finance Committee report on adoption bill).
    H.R. 3415 (Temporary Repeal of 4.3-Cents-Per-Gallon Transportation 
Fuels Excise Tax). H. Rept. 104-576, Pt. 1 (Ways and Means Committee 
report on bill to provide a temporary repeal of 4.3-cents-per-gallon 
transportation motor fuels excise tax).
    H.R. 3448 (Small Business Job Protection Act of 1996). H. Rept. 
104-586 (Ways and Means Committee report on bill to provide tax relief 
for small businesses and other revenue provisions).
    H.R. 3448 (Small Business Job Protection Act of 1996). S. Rept. 
104-281 (Finance Committee report on bill to provide tax relief for 
small businesses and other revenue provisions).
    H.R. 3448 (Small Business Job Protection Act of 1996). H. Rept. 
104-737 (Conference report on bill to provide tax relief for small 
businesses and other revenue provisions).
    H.R. 3734 (Personal Responsibility and Work Opportunity Act of 
1996). H. Rept. 104-651 (House Budget Committee report--revenue 
provisions relating to the earned income tax credit).
    H.R. 3734 (Personal Responsibility and Work Opportunity Act of 
1996). H. Rept. 104-725 (Conference report--revenue provisions relating 
to the earned income tax credit).
                      tax treaty executive reports
    Income Tax Convention With Kazakhstan. Exec. Rept. 104-34 
(Executive report for Senate Foreign Relations Committee).
    Protocol Amending Article VIII of the 1948 Tax Convention With 
Respect to the Netherlands Antilles. Exec. Rept. 104-35 (Executive 
report for Senate Foreign Relations Committee).
    Taxation Protocol Amending Convention with Indonesia. Exec. Rept. 
104-36 (Executive report for Senate Foreign Relations Committee).
                                 ______
                                 
               Attachment B.--Joint Committee on Taxation
                            jcs-96 documents
    JCS-1-96--Selected Materials Relating To The Federal Tax System 
Under Present Law And Various Alternative Tax Systems. March 14, 1996
    JCS-2-96--Description Of Revenue Provisions Contained In The 
President's Fiscal Year 1997 Budget Proposal (Released On March 19, 
1996). March 27, 1996
    JCS-3-96--Impact On Small Business Of Replacing The Federal Income 
Tax. Scheduled for a Hearing Before the House Committee on Ways and 
Means on April 24, 1996. April 23, 1996
    JCS-4-96--Impact On State And Local Governments And Tax-Exempt 
Organizations Of Replacing The Federal Income Tax. Scheduled for a 
Hearing Before the House Committee on Ways and Means on May 1, 1996. 
April 30, 1996
    JCS-5-96--Impact On International Competitiveness Of Replacing The 
Federal Income Tax. Scheduled for a Hearing Before the House Committee 
on Ways and Means on July 18, 1996. July 17, 1996
    JCS-6-96--Comparison Of Revenue Provisions Of H.R. 3448 (Small 
Business Job Protection Act Of 1996) As Passed By The House And The 
Senate. Prepared for the Use of the House and Senate Conferees. July 
31, 1996
    JCS-7-96--Impact On Manufacturing, Energy, And Natural Resources Of 
Replacing The Federal Income Tax. Scheduled for a Hearing Before the 
House Committee on Ways and Means on July 31, 1996. July 31, 1996
    JCS-8-96--Explanation Of Proposed Protocol To The Income Tax Treaty 
Between The United States And Indonesia to be Considered by the 
Committee on Foreign Relations United States Senate. September 16, 1996
    JCS-9-96--Explanation Of Proposed Protocol To The Income Tax Treaty 
Between The United States And The Kingdom Of The Netherlands In Respect 
Of The Netherlands Antilles to be Considered by the Committee on 
Foreign Relations United States Senate. September 16, 1996
    JCS-10-96--Present Law And Background Information On Federal 
Transportation Excise Taxes And Trust Fund Expenditure Programs. 
Prepared for the Use of the House Committee on Ways and Means. November 
14, 1996
    JCS-11-96--Estimates Of Federal Tax Expenditures For Fiscal Years 
1997-2001. November 26, 1996
    JCS-12-96--General Explanation Of Tax Legislation Enacted In The 
104th Congress.
                            jcx-96 documents
    JCX-1-96--Description Of Tax Provisions Included In A Plan To 
Achieve A Balanced Budget Submitted To The Congress By The President On 
January 6, 1996. January 24, 1996
    JCX-2-96--Description Of Present Law, H.R. 2778, And An Amendment 
In The Nature Of A Substitute Relating To Tax Relief For Peacekeeping 
Personnel In The Former Yugoslavia. Scheduled for Markup by the House 
Committee on Ways and Means on February 28, 1996. February 27, 1996
    JCX-3-96--Estimated Revenue Effects Of H.R. 2778 As Reported By The 
Committee On Ways And Means. February 29, 1996
    JCX-4-96--Description Of Revenue Provisions Of The ``Health Care 
Availability And Affordability Act Of 1996'' to be Introduced on 
Monday, March 18, 1996 and Scheduled for Markup by the House Committee 
on Ways and Means on March 19, 1996. March 15, 1996
    JCX-5-96--Amendment In The Nature Of A Substitute To H.R. 3103 To 
Be Offered By Chairman Archer On Tuesday, March 19, 1996. March 18, 
1996
    JCX-6-96--Estimated Budget Effects Of Items Contained In An 
Amendment In The Nature Of A Substitute To H.R. 3103 To Be Offered By 
Chairman Archer On Tuesday, March 19, 1996. March 18, 1996
    JCX-7-96--Description Of Amendment In The Nature Of A Substitute To 
H.R. 2337 ``Taxpayer Bill Of Rights 2''. Scheduled for Markup by the 
House Committee on Ways and Means on March 21, 1996. March 20, 1996
    JCX-8-96--Estimated Revenue Effects Of The Taxpayer Bill Of Rights 
2. Scheduled For Ways And Means Markup On Thursday, March 21, 1996. 
March 20, 1996
    JCX-9-96--Description Of Revenue Provisions Relating To Shipping 
Income. To Be Offered in the Amendment in the Nature of a Substitute to 
H.R. 2754, the ``Shipbuilding Trade Agreement Act,'' Scheduled for 
Markup by the Committee on Ways and Means on March 21, 1996. March 20, 
1996
    JCX-10-96--Estimated Revenue Effects Of An Amendment In The Nature 
Of A Substitute For H.R. 2754, The ``Shipbuilding Trade Agreement Act'' 
Scheduled For Ways And Means Markup On Thursday, March 21, 1996. March 
20, 1996
    JCX-11-96--Description Of Revenue Provisions Of Amendment To S. 
1028 By Senators Dole And Roth. April 18, 1996
    JCX-12-96--Estimated Revenue Effects Of A Possible Amendment To S. 
1028 By Senators Dole And Roth. April 18, 1996
    JCX-13-96--Estimated Budget Effects Of The Revenue Provisions 
Contained In H.R. 3286, The ``Adoption Promotion And Stability Act Of 
1996''. April 26, 1996
    JCX-14-96--Description Of Revenue Provisions Of H.R. 3286 Relating 
To Tax Credit For Adoption Expenses And Certain Revenue Offsets 
Scheduled for Markup Before the House Committee on Ways and Means on 
May 1, 1996. April 26, 1996
    JCX-15-96--Description Of Revenue Provisions To Be Considered In 
Connection With A Markup Of Trade Matters. Scheduled for Markup by the 
Senate Committee on Finance on May 8, 1996. May 1, 1996
    JCX-16-96--Estimated Budget Effects Of Tax And Trade Provisions To 
Be Considered At A Markup Of The Senate Finance Committee On May 8, 
1996. May 1, 1996
    JCX-17-96--Present Law And Background Relating To Federal Excise 
Taxes Imposed On Transportation Motor Fuels. Scheduled for a Hearing 
Before the Senate Committee on Finance on May 3, 1996. May 2, 1996
    JCX-18-96--Present Law And Background Relating To Federal Excise 
Taxes Imposed On Transportation Motor Fuels. Scheduled for a Hearing 
Before the Committee on Ways and Means on May 8, 1996. May 7, 1996
    JCX-19-96--Temporary Repeal Of 4.3-Cents-Per-Gallon General Fund 
Transportation Motor Fuels Excise Tax. Scheduled for Markup by the 
Committee on Ways and Means on May 9, 1996. May 8, 1996
    JCX-20-96--Estimated Revenue Effects Of H.R. 3415. Scheduled for 
Markup by the Committee on Ways and Means on May 9, 1996. May 9, 1996
    JCX-21-96--Description Of Chairman's Mark Of The Small Business Job 
Protection Act. Scheduled for Markup by the House Committee on Ways and 
Means on May 14, 1996. May 13, 1996
    JCX-22-96--Estimated Revenue Effects Of The ``Small Business Job 
Protection Act Of 1996,'' A Bill To Be Introduced And Subject Of A 
Markup By The Committee On Ways And Means On Tuesday, May 14, 1996. May 
14, 1996
    JCX-23-96--Present Law And Issues Relating To Classification Of 
Workers As Employees Or Independent Contractors. Scheduled for a 
Hearing Before the Subcommittee on Oversight of the House Committee on 
Ways and Means on June 4, 1996. June 3, 1996
    JCX-24-96--Description Of Chairman's Mark For The Provisions Of 
H.R. 3286 Relating To Tax Credit For Adoption Expenses And Certain 
Revenue Offsets And The Removal Of Barriers To Interethnic Adoptions. 
Scheduled for Markup Before the Senate Committee on Finance on June 12, 
1996. June 11, 1996
    JCX-25-96--Estimated Budget Effects Of Chairman's Mark To The 
Revenue Provisions Of H.R. 3286, The ``Adoption Promotion And Stability 
Act Of 1996,'' Scheduled for Finance Committee Markup on June 12, 1996. 
June 11, 1996
    JCX-26-96--Description Of Chairman's Mark Of A Committee Amendment 
To The Revenue Provisions Of H.R. 3448 (Small Business Job Protection 
Act Of 1996). Scheduled for Markup by the Senate Committee on Finance 
on June 12, 1996. June 11, 1996
    JCX-27-96--Estimated Budget Effects Of Chairman's Mark Of A 
Committee Amendment To The Revenue Provisions Of H.R. 3448, The ``Small 
Business Job Protection Act Of 1996,'' Scheduled for Finance Committee 
Markup on June 12, 1996. June 11, 1996
    JCX-28-96--Description Of Earned Income Credit Provisions Contained 
In An Amendment In The Nature Of A Substitute To Be Offered By Chairman 
Archer. Scheduled for Markup by the House Committee on Ways and Means 
on June 12, 1996. June 11, 1996
    JCX-29-96--Estimated Revenue Effects Of Earned Income Credit 
Provisions Contained In An Amendment In The Form Of A Substitute By 
Chairman Archer With Respect To The Budget Reconciliation Welfare 
Proposal. June 11, 1996
    JCX-30-96--Estimated Budget Effects Of A Committee Amendment To The 
Revenue Provisions Of H.R. 3448, The ``Small Business Job Protection 
Act Of 1996,'' As Approved By The Senate Finance Committee on June 12, 
1996. June 17, 1996
    JCX-31-96--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 1995. 
June 25, 1996
    JCX-32-96--Description Of Chairman's Mark Of Provisions Relating To 
The Earned Income Credit. Scheduled for Markup by the Senate Committee 
on Finance on June 26, 1996. June 25, 1996
    JCX-33-96--Estimated Budget Effects Of Earned Income Credit 
Provisions Contained In S. 1795 The Chairman's Mark to be Considered at 
Markup of the Senate Finance Committee on Wednesday, June 26, 1996. 
June 25, 1996
    JCX-34-96--Description Of Managers' Amendment To The Revenue 
Provisions Of H.R. 3448 (The Small Business Job Protection Act Of 1996) 
As Reported By The Senate Finance Committee. July 9, 1996
    JCX-35-96--Estimated Budget Effects Of Revenue Provisions In H.R. 
3448 Including The Managers' Amendment. July 9, 1996
    JCX-36-96--Estimated Budget Effects Of Revenue Provisions In H.R. 
3448 As Passed By The Senate. July 9, 1996
    JCX-37-96--Description Of Selected Federal Tax Provisions That 
Impact Land Use. Scheduled for a Hearing Before the Subcommittee on 
Oversight of the House Committee on Ways and Means on July 16, 1996. 
July 11, 1996
    JCX-38-96--Markup Of Ways And Means Committee Amendment To Be 
Offered To H.R. 3592 (Water Resources Development Act Of 1996). 
Scheduled for July 17, 1996. July 16, 1996
    JCX-39-96--Comparison Of Revenue Provisions Of H.R. 3734 (Welfare 
Reform Reconciliation Act Of 1996) As Passed By The House And Senate. 
Prepared for the Use of the House and Senate Conferees. July 25, 1996
    JCX-40-96--Comparison Of The Estimated Budget Effects Of The 
Revenue Provisions Of H.R. 3734, The ``Welfare Reform Reconciliation 
Act Of 1996,'' As Passed By The House And The Senate. July 25, 1996
    JCX-41-96--Comparison Of Revenue Provisions Of H.R. 3103 (The 
``Health Coverage Availability And Affordability Act Of 1996'') As 
Passed By The House And The Senate. Prepared for use of the House and 
Senate Conferees. July 26, 1996
    JCX-42-96--Comparison Of Estimated Budget Effects Of The Revenue 
Provisions In H.R. 3103, The ``Health Coverage Availability And 
Affordability Act Of 1996''. July 26, 1996
    JCX-43-96--Description Of Tentative Agreement Relating To Medical 
Savings Accounts (``MSA's''). Prepared for the Use of the Conferees for 
the Revenue Provisions of H.R. 3103 (The ``Health Coverage Availability 
and Affordability Act of 1996''). July 26, 1996
    JCX-44-96--Comparison Of The Estimated Budget Effects Of The 
Revenue Provisions Of H.R. 3448, The ``Small Business Job Protection 
Act Of 1996,'' As Passed By The House And Senate. July 29, 1996
    JCX-45-96--Written Testimony Of The Staff Of The Joint Committee On 
Taxation Regarding H.R. 3244, The ``District Of Columbia Economic 
Recovery Act'' for the Subcommittee on the District of Columbia of the 
House Committee on Government Reform and Oversight 104th Congress on 
July 31, 1996. July 31, 1996
    JCX-46-96--Estimated Budget Effects Of The Conference Agreement 
Relating To The Revenue Provisions Of H.R. 3103, The ``Health Insurance 
Portability And Accountability Act Of 1996''. August 1, 1996
    JCX-47-96--Estimated Budget Effects Of The Conference Agreement 
Relating To The Revenue Provisions Of H.R. 3448, The ``Small Business 
Job Protection Act Of 1996''. August 1, 1996
    JCX-48-96--Draft Analysis Of Issues And Procedures For 
Implementation Of Provisions Contained In The Line Item Veto Act 
(Public Law 104-130) Relating To Limited Tax Benefits. November 12, 
1996
    JCX-49-96--Selected Background Information And Data On Federal 
Transportation Excise Taxes. Prepared for the Use of the House 
Committee on Ways and Means. December 17, 1996
                                 ______
                                 

Attachment C.--Joint Committee on Taxation Revenue Estimate Requests

        Calendar year                                                   

1985..............................................................   348
1986..............................................................   474
1987..............................................................   420
1988..............................................................   900
1989.............................................................. 1,290
1990.............................................................. 1,286
1991.............................................................. 1,461
1992.............................................................. 2,350
1993.............................................................. 2,380
1994.............................................................. 1,259
1995.............................................................. 2,278
1996.............................................................. 1,792
                                 ______
                                 
                       Attachment D.--Memorandum
                                                 December 10, 1996.
TO: Chief of Staff, Joint Committee on Taxation
FROM: Senior Refund Counsel
SUBJECT: Refund Section--Calendar Year 1996 Operations Report

    This is a report on the more significant developments in this 
Office during the past calendar year.
                                summary
    Volume--Refund Cases.--486 reports were received during the year. 
The total dollar amount of refunds was $4,649,152,429.

----------------------------------------------------------------------------------------------------------------
                                                                                                         1996   
                        Reports Received                             1993        1994        1995      (through 
                                                                                                         Nov.)  
----------------------------------------------------------------------------------------------------------------
Examination Division............................................         512         482         425         360
Appeals Division................................................         171         147         132          98
Department of Justice...........................................          18          18          20          23
Chief Counsel...................................................           8           6           2           5
                                                                 -----------------------------------------------
      Total.....................................................         709         653         579         486
                                                                 ===============================================
Concerns \1\....................................................          70          69          79         103
----------------------------------------------------------------------------------------------------------------
\1\ Includes 9 post review deficiency cases for 1993, 8 for 1994, 12 for 1995 and 11 for 1996. Includes all     
  concerns in which the Service has indicated agreement with our position and which are expected to be signed   
  and closed by year end.                                                                                       

    Post Review.--The Service reports 64 large deficiency cases to us 
annually for post review. Eleven of these cases generated concerns this 
year. We also review to a limited extent the Appeals Division's 
nationwide post review results.
    Other Action.--(1) We transmitted for consideration of legislative 
action 9 issues that arose in various cases.
    (2) We transmitted 7 memoranda suggesting corrections or discussing 
clarification of Service procedural or technical instructions.
    (3) We transmitted our concern to the Service on three issues to 
ensure uniform application of the tax laws.
    (4) We transmitted information to the Service in connection with a 
$34,000,000 refund report that led the Service to withdraw the report 
to consider whether they should reexamine the propriety of the refund.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in 1996 and prior years, and agreed to by 
the Service in 1996 produced a net reduction in refunds of $10.6 
million. The average annual reduction for the last 6 years is $9.1 
million. Such correction also reduced ATNOLCF's, $133.7 million, 
AMFTC's $4 million, and regular tax NOL's and future deductions $5.5 
million. We also brought to the attention of the Service an error in a 
proposed closing agreement that understated tax liability by 
$32,500,000.
    We hope we are satisfactorily accomplishing our assigned portion of 
the Committee's mission and meeting your expectations. We look forward 
to a productive, challenging year.
                                 ______
                                 
 Appendix C.--Proposals for Statutory, Ruling, Regulatory, and Manual 
                                Changes
                     (initials of originator shown)
    Discussion with the Hill on the holding in the Fluor Corporation 
case for purposes of legislative action. That case holds that when a 
deficiency is wiped out by a foreign tax credit carryback, the taxpayer 
is not liable for interest on the deficiency. (NB)
    Discussion with the Hill on interest netting in the context of 
allocating deductions for the purpose of determining foreign source 
income, combined taxable income, and taxable income from the property, 
for purposes of legislative action. (NB)
    Memo to the industry specialist for utilities discussing some of 
the problems we have encountered in the section 1341 area. He indicated 
this would go on the utility bulletin board so that everyone handling 
these items would be aware of the problems. (NB)
    Memo to the Chief of Staff discussing interpretative problems with 
section 172(b)(1)(C), for consideration of legislative action. (NB)
    Memo to the Chief of Staff discussing problems associated with 
accounting for rotable spare parts, for consideration of legislative 
action. (NB)
    Memo to the Assistant Chief Counsel (Income Tax and Accounting) 
pointing out a conflict between several interpretations of the 
interplay between sections 616 and 263A. (JB)
    Memo to the National Office Joint Committee Coordinator suggesting 
modification of IRM 8941 to take into account court decisions holding 
that a payment can be a payment of tax without assessment. (RWF)
    Memo to the National Director of Appeals suggesting modification of 
IRM 8953 to aggregate work units closed simultaneously in determining 
Joint Committee jurisdiction. (RWF)
    Memo to the Hill suggesting clarification of similar liability 
language in section 809(b)(5)(C). (JB)
    Memo to the Chief of Staff noting that the parenthetical language 
in section 927(a)(2)(B) raises the question as to whether the license 
of computer software is covered thereby, for purposes of legislative 
action. (NB)
    Memo to the Director Office of Large Case Programs (Appeals), 
advising that an employee suggestion for changes in the Service's Joint 
Committee procedures be considered. (RWF)
    Memo to the National Office (Examination) regarding Joint Committee 
review of Foreign Sales Corporations. (RWF)
    Memo to National Office (Examination) suggesting the correct 
procedure for applying an overpayment in excess of $1,000,000 to offset 
a liability for special estimated tax under section 847. (RWF)
    Memo to the National Office offering our opinion as requested on a 
procedural issue. (RWF)
    Memo to the Hill suggesting a technical correction to clarify 
whether a section 847 deduction can result in an alternative minimum 
tax liability that would not have otherwise existed. (JB)
    Memo to the Hill suggesting that section 835 be eliminated since 
the reason for its enactment no longer exists, or to provide for its 
treatment causing a refundable or nonrefundable credit. (JB)
    Memo to the Hill regarding correction of the section 164 reference 
in section 59A. (JB)
    Memo to Appeals regarding the authority of an Appeals Chief, under 
Order 154, to submit a Joint committee report when the Case was settled 
by District Counsel. (RWF)
    Sent information to the Service and asked whether the Service 
thought it advisable to reexamine the propriety of the refund, which 
was $34,000,000. The Service requested permission, which we granted, to 
withdraw the refund report to determine if any portion thereof should 
be recouped. (BW)
    Discussed with the Service problems of general application 
involving specified liability losses. (RG)
                                 ______
                                 

                           EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SEC. 6405                          
                                              [Calendar year 1996]                                              
----------------------------------------------------------------------------------------------------------------
                                                                      Cumulative                                
                    Month                       Received  Cumulative    monthly       Dollar          Dollar    
                                                             total      average      receipts        receipts   
----------------------------------------------------------------------------------------------------------------
 January.....................................         35          35        35.0    $425,696,759    $425,696,759
February.....................................         47          82        41.0     384,196,568     809,893,327
March........................................         55         137        45.7     540,525,945   1,350,419,272
April........................................         43         180        45.0     346,542,304   1,696,961,576
May..........................................         56         236        47.2     368,589,792   2,065,551,368
June.........................................         39         292        45.8     399,213,721   2,464,765,089
July.........................................         60         335        47.9     595,679,430   3,060,444,519
August.......................................         31         366        45.8     245,737,363   3,306,181,882
September....................................         55         421        46.8     788,095,751   4,094,277,633
October......................................         28         449        44.9     248,452,491   4,342,730,124
November.....................................         37         486        44.2     306,422,205   4,649,152,329
December.....................................  .........         486  ..........  ..............   4,649,152,329
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED IN 1996 BY TYPES OF TAXPAYER
                               AND SOURCE                               
------------------------------------------------------------------------
                                                      Cases     Percent 
------------------------------------------------------------------------
Types of Taxpayers:                                                     
    Individuals...................................         31       6.38
    Estates.......................................         10       2.06
    Trusts........................................  .........  .........
    Corporations..................................        445      91.56
                                                   ---------------------
      Total.......................................        486     100.00
                                                   =====================
Source of Reports:                                                      
    Examination...................................        360      74.07
    Appeals.......................................         98      20.17
    Justice.......................................         23       4.73
    Tax Court.....................................          5       1.03
                                                   ---------------------
      Total.......................................        486     100.00
------------------------------------------------------------------------

                                 ______
                                 

                   EXHIBIT III.--MONTHLY RECEIPTS--REFUND REPORTS FROM EXAMINATION AND APPEALS                  
                                              [Calendar year 1996]                                              
----------------------------------------------------------------------------------------------------------------
                             Month                               Examination  Cumulative    Appeals   Cumulative
----------------------------------------------------------------------------------------------------------------
January........................................................           22          22          12          12
February.......................................................           35          57           7          19
March..........................................................           47         104           6          25
April..........................................................           25         129          13          38
May............................................................           46         175           9          47
June...........................................................           31         206           8          55
July...........................................................           39         245          15          70
August.........................................................           27         272           2          72
September......................................................           37         309          14          86
October........................................................           20         329           7          93
November.......................................................           31         360           5          98
December.......................................................  ...........         360  ..........          98
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

              EXHIBIT IV.--1996 JOINT COMMITTEE ON TAXATION CONCERNS \1\ ON REFUND REPORTS FROM IRS             
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total No. of 
                                                                   Examinations       Appeals        concerns   
                                                                                                      issued    
----------------------------------------------------------------------------------------------------------------
Number of concerns issued.......................................              56              32              88
Percent of total concerns issued................................              63              37             100
Total reports received..........................................             360              98             458
----------------------------------------------------------------------------------------------------------------
\1\ Number of Concerns does not include 15 on deficiency cases.                                                 

                      additional Responsibilities

    Mr. Kies. Mr. Chairman, the only thing I would add to that 
is just to note that the Joint Committee has been requested to 
do other activities in the last two Congresses that have added 
to its responsibilities.
    We were recently requested by the chairmen of the two tax-
writing committees and the ranking members to conduct an 
investigation of whether the Internal Revenue Service has 
engaged in any inappropriate activity with respect to the 
selection of 501(c)(3) and (c)(4) entities for audit. That is 
quite a substantial project that we have underway, in addition 
to the responsibilities that we will have to deal with in 
connection with the budget agreement.
    We also have been asked, for example, by Senator Murkowski, 
to do an analysis of all tax provisions relating to the 
electric utility industry for purposes of his work in the 
Energy Committee and looking at the whole deregulation issue.
    These kind of responsibilities come up on a fairly regular 
basis and are in addition to the regular legislative work that 
we do for the Ways and Means Committee and the Senate Finance 
Committee. We also do much of the technical work in connection 
with the Senate Foreign Relations Committee's approval of tax 
treaties and protocols, which is another responsibility that we 
have, so that is in addition to the normal legislative 
responsibilities of the staff.

                           Revenue estimating

    Senator Bennett. Let me ask you a question about revenue 
estimates, because one of the most frustrating things for me as 
a businessman coming into the Government is to discover that 
there is no such thing as a monthly close, whereby you can get 
a report of how well you did last month, how close you came to 
your targets. I do not think there is such a thing as an annual 
close.
    One of the frustrating questions is, does anybody keep 
track of how close tax revenues come to estimates, the 
estimates made prior to the passage of a tax bill?
    To be specific, Marty Feldstein, in writing in the Wall 
Street Journal, estimated several years after the fact, that 
the tax increases enacted during the first year of the Clinton 
administration had produced one-third as much revenue as had 
been estimated at the time we voted for that.
    I have raised this issue with CBO and am told that I should 
talk to you, and that you are the people who do all of this. 
Could you comment on an analysis after the fact, the tracking, 
if you will, of how much, putting it in business terms, a price 
increase did contribute to the bottom line, or how much a price 
decrease did contribute to increased market share and increased 
sales?
    I know those are not the Government terms, but you know 
exactly what I am talking about.
    Mr. Archer. I understand, Mr. Chairman, and I have had the 
same concern that you have expressed over a number of years and 
have importuned the Joint Committee on Taxation to give us that 
kind of information. In previous Congresses, I have been told 
it really is very, very difficult to do, and as a result, it 
was never forthcoming. We are seeing more of that now in the 
last Congress. We are not there on an automatic basis, but 
individual Members can make requests of the Joint Committee to 
provide what actual receipts there were in certain categories, 
broad categories, and make a comparison to the estimates which, 
of course, are already out there and a matter of record.
    One thing the Joint Committee has done at the request of 
both Senator Roth and myself is that they have illuminated for 
the first time to the Members of Congress their method of 
calculating capital gains, and in doing so, they have done 
exactly what you mentioned--compared what the estimates were at 
the time and compared what the actual revenues have been.
    Then they have also overlaid their new model all the way 
back into the 1970's and taken the available data at that time 
on which the estimates were prepared and put it into their 
computer model to get an overlay of what they would have 
estimated with their new computer model.
    They are within 3 percent over the long term with their 
current computer model, because they now do take into account 
behavioral response and the induced realizations from more 
sales of capital assets whenever the tax goes down and less 
sales when the tax goes up.
    I will let Ken comment more in trying to respond to your 
question.

                          Tracking experience

    Mr. Kies. Senator, one of the things that we have done in 
the last couple of years, actually in recognition of the very 
point that you have raised, is starting to try and pick out 
specific estimates that we did and then track the actual 
experience going forward to see how well we have done in terms 
of predicting.
    The one thing that is important to realize when you talk 
about revenue estimates is, that is what they are, estimates. 
And, even though a specific number appears on a piece of paper, 
it is the consequence of a lot of judgment which goes into 
that.
    Some estimates have a much better--we have much greater 
confidence at the outset than others. For example, on the child 
credit that has been proposed, we have a high degree of 
confidence in the revenue estimate because we do not expect a 
behavioral response to enacting a child credit. In our computer 
model, we have 200,000 individual tax returns selected to 
represent a cross-section of all tax returns, and we would do 
an estimate on this basis.
    Like the child credit, we would actually recalculate the 
tax on all of those returns, and then expand those results to 
reflect what we would expect from all 130 million households.
    So, on the other hand, other estimates where the data is 
not specifically part of the tax model represent a lot more 
judgment. Last year we had an adoption credit, and there was 
very little in the way of hard data on the number of adoptions 
that occur each year, foreign and domestic, and so that is an 
example where we have to draw from secondary sources to try and 
come to a judgment about what the cost of a provision like that 
would be.
    It would not surprise me that when we look back 2 or 3 
years we would have a greater error factor on an estimate like 
that because of the fact that we had to rely on information 
that was not coming from the tax sources, but we realize that 
Members do want us to look back and try and figure out how well 
we have done so we can do better in the future.
    A good example of where we have improved our estimating 
capability as a result of realizing that we made a mistake in 
the past was the initial estimates on individual retirement 
accounts in 1981. People started using IRA's much faster than 
we had anticipated. Actually, once we got out about 5 or 6 
years, the estimate kind of converged with actual experience, 
but in the early period the utilization was far greater than we 
had anticipated.
    We used that experience when we estimated medical savings 
accounts last year because they had many of the same features 
as IRA's. There are differences, but there is a lot of 
similarity, and so we looked to the experience on IRA's to try 
to predict how quickly the takeup rate on MSA's would be.
    In the case of MSA's, not only will we be looking back at 
how accurate our estimate is, but we put in place in the 
legislation reporting to actually identify fairly quickly how 
many MSA accounts were established, and that first report will 
come in, I believe, in August or September of this year, which 
is essentially 1 year after the legislation was enacted.
    So I think you will see us doing more and more of this, 
because we want to always be improving what we are doing in 
terms of predictability, but we also realize this is the kind 
of information Members want to have because they want to get 
some feel for how reliable the work we are doing is, and so our 
whole philosophy for the past 3 years is that the more the 
people know about the estimating methodology, the higher the 
confidence level will be.
    We are not trying to have a black-box-type approach, where 
we just say trust us. We really want Members to understand what 
we are doing and how we are doing it.

                            Luxury boat tax

    Senator Bennett. Let me share with you a personal example 
of how a lack of this information can skew public policy. When 
I first came to the Senate, I was approached by John Chafee and 
he asked me if I would cosponsor a bill to repeal the boat tax, 
the luxury boat tax, and you remember how that tax destroyed an 
industry, and I said, why, of course, John. I am startled that 
the tax has not been repealed long before now, given the damage 
that it did.
    He said, well now, be careful before you sign up too fast, 
because you have to sign up not only for the repeal of the tax, 
but for the enactment of some other kind of tax to offset the 
revenue loss that comes from the repeal. I said, now, John, 
there is no revenue loss that will come from repeal. There will 
be a revenue gain that will come from repeal overall by virtue 
of the fact that the industry may come back. I am not sure that 
it has. I mean, that is a classic example of Government 
stupidity.
    He said no, the thing is scored as x percent of x number of 
sales. The fact that those sales are not taking place, and, 
therefore, that percentage is never realized, does not change 
the fact that it is scored in that fashion, and in order to 
repeal the tax under the Budget Act we have to offset that by 
increasing taxes someplace else, and you may not want to sign 
up for a bill that can be attacked as a tax increase somewhere 
down the line.
    I signed up for the bill anyway and kind of looked the 
other way while the figures were artificially created to look 
like there would be some kind of revenue offset. Again, coming 
from the business world, I would not tolerate that from one of 
my managers for 10 seconds.
    I would say, you have got a product on the shelf that has 
failed. Pull it off the shelf right now. Move it through a 
garage sale if necessary, but get rid of it, realize whatever 
you can out of it, even if it is scrap, but do not sit here and 
tell me that we have to offset the revenue that we have lost by 
taking that product out of our product line by increasing 
prices on our other products.
    But that is essentially what the Government is doing, and I 
would look to the Joint Committee on Taxation to stand up and 
say, overall revenue to the Government was lost in the 
following amounts as a result of that tax, and, therefore, the 
tax can and should be repealed without any revenue impact, 
without any negative revenue impact.
    Am I whistling in the dark on this? Is there any 
possibility for that kind of analysis out of your committee in 
a future circumstance?

                        Macroeconomic estimates

    Mr. Archer. Well, let me try to jump in as briefly as 
possible, and Ken may want to add something to it. There are 
two aspects to these revenue estimates. One is the 
macroeconomic impact of whatever occurs, which means are you 
going to increase economic activity, are you going to decrease 
economic activity, and, therefore, you have got a reflow of 
money into the Treasury either positive or negative as a result 
of what you do.
    Then there is the micro aspect which you just talked about. 
What will happen to a particular industry, or what will be the 
behavioral response to capital gains insofar as the sale of 
capital assets is concerned, but then what macroeconomic impact 
that will have is a different thing.
    The way we are currently set up, and I had chafed at this 
for many, many years, is that CBO sets the macro baseline and 
they make no adjustment, irrespective of what is done to the 
Tax Code. The Joint Committee has not had, probably not the 
legal capability, and certainly not the computer capability to 
do that.
    So if we have, for example, an impact, let us say, of the 
luxury boat tax, you can pretty well isolate it and say there 
will be a behavioral response by purchasers of boats that will 
reduce the amount of static analysis tax revenues, but nobody 
takes into account the fact that there are jobs that are going 
to be lost, so the payroll tax is going to be reduced and the 
income tax revenues are going to go down because dealers are 
going to have less sales and so on and so forth.
    Even to this day we have not solved that problem and it, to 
me, is one that must be solved, because the CBO gives us a 
baseline, a macroeconomic baseline twice a year, and they do 
not adjust it in between, with apparently one exception, which 
occurred last week. [Laughter.]
    But if that is not unique, it is exceedingly rare, and so 
here we take up a tax bill and the Joint Committee has to put 
their estimates on top of an economic baseline, that is the 
macroeconomic projections by the CBO, as if a tax change is 
going to have absolutely no bearing on it, and they have to do 
it that way, and so we have a long way to go to really get more 
accuracy. Then there is the question of what are the results 
compared to what are the estimates initially going in?
    Well, what are the results: No. 1, as a result of what 
happened to the overall economy macrowise? What did this path 
do in reality compared to what the static analysis projected 
path was that CBO gave us? That explains a lot of the 
difference in revenues, and so you have to accept, under 
today's estimating practice, the fact that the Joint Committee 
cannot do anything about that.
    Now, when you talk about Marty Feldstein's analysis of the 
1993 taxes, and I suspect that analysis is valid, part of that 
was what happened to the macroeconomy compared to what the 
baseline was, and I think we have just got to find a way to do 
a better job on the macro side.
    Part of it was also the effect of behavioral response in 
specific areas like you mentioned, the luxury boat tax and so 
on. And again, Ken may want to add something. I am just 
scratching the surface of this issue, but it has frustrated me 
in the years that I have been on the Joint Committee and on the 
Ways and Means Committee, and we are at least on the threshold 
of looking at it and trying to do something about it.
    Mr. Kies. I would just add a couple of things, Senator. 
First, in terms of Professor Feldstein's analysis, we have 
actually looked fairly closely at how he has analyzed the 
effects of the 1993 act.
    I would say that his analysis is somewhat preliminary, and 
the reason--CBO adjustment in revenue shares may suggest that 
he is way off--that the CBO baseline adjustment that Chairman 
Archer referred to last week has increased their projected 
revenue stream by over $45 billion a year over 6 years, which 
may suggest the preliminary analysis of Professor Feldstein may 
not necessarily tell the whole story, but it is the kind of 
thing that we want to keep looking at.
    In terms of the issue on the excise tax on boats, our 
estimate, which was done in 1990, which did precede a period of 
somewhat of an economic downturn, did assume a decline in boat 
sales. I mean, that was a part of our estimate.
    In fact, I testified on January 11, 1995, to a joint House-
Senate Budget Committee hearing on the issue of overall revenue 
estimating, and that testimony actually went into great detail 
about our estimate on the excise tax on boats, because it has 
gotten a lot of attention. Our assumption on sales was not that 
far off.
    The issue that makes this a more complex question is what 
one has to assume about the effects of the declining sales. If 
sales declined in the boat industry, that means that probably 
not as much capital will be employed in the boat industry, but 
it will go somewhere else in the economy.
    How quickly it moves there, how quickly jobs shift out of 
the boating industry and into some other industry, becomes a 
difficult thing to assess in terms of analyzing the overall 
revenue flows to the Federal Government. But, one cannot only 
look at the boating industry for purposes of determining what 
the revenue effect on the Federal budget has been, because the 
shift will create economic activity elsewhere, and that is 
where these kinds of estimates do become very complicated.
    The one thing that I think Members of Congress might well 
have asked about when the boat tax was considered is what the 
regional dislocation was going to be, so that they would have 
been better informed about what the consequences to areas of 
the country were. This is a significant component of the 
industry.
    But, I will make sure that I send you a copy of the 
analysis we did do after the fact of our estimate on the boat 
tax because I think you will find that it may have been a lot 
more accurate than people have portrayed by only looking at the 
effects on the boating industry itself, and not taking into 
account the overall effects.
    Senator Bennett. Well, I would be glad to receive it and 
look through it with interest, but I am less concerned about 
flogging the boat tax horse than I am about the overall issue, 
and if I understand you correctly, Mr. Chairman, there is a 
disconnect between the Joint Committee on Taxation and the CBO 
in some of these areas.
    It may well be that this committee and its corresponding 
committee in the House become the only nexus for oversight of 
both groups, where this issue can be discussed and raised, and 
it is always good to raise issues at appropriations time. We 
seem to have people's attention more at that point than at any 
other, and I intend to raise this with CBO when they come 
before this committee, and anything you can give me as 
ammunition, not to embarrass but to resolve these kinds of 
things so that we go in the right direction, I would be very 
happy to receive.
    Not to repeat again, but just to stress for clarity's sake, 
nothing can be more difficult when you are running a $1.7 
trillion exercise, or enterprise rather, than to do it with 
inaccurate information, with estimates that are based on 
formulas that are never checked up on, that are never compared 
to reality, forward-making decisions like the budget deal that 
was achieved over the weekend based on those estimates that do 
not ever look back and say, well, we have to change our model.
    It would drive a CEO crazy to run a $1.7 trillion 
enterprise with this kind of internal financial information, 
and it may be one of the major reasons why we do so poorly with 
our shareholders. They do not understand the details, but they 
sure understand in general terms how badly the Government is 
floundering in some of these areas. We do not have crisp 
answers.
    All right. I raised this issue with Senator Packwood when 
he was chairman of the Finance Committee, and he provided me 
with information that indicated that the luxury boat tax 
produced x amount less than was projected in revenue, and that 
the luxury car tax, as I recall, was three times greater than 
the amount estimated.
    Again, to a businessman that means there is a lot less 
price resistance to buying luxury cars than there is price 
resistance to buying luxury boats, and you price your product 
based upon price resistance that is out there in the 
marketplace, and we were able to say, people are still going to 
buy a $150,000 Mercedes, even with the luxury tax on them, 
because they are not buying them just for transportation.
    You can get to your destination just as warm and just as 
dry in a Ford Escort as you can in a $150,000 Mercedes. Your 
ego might not feel quite as good in the Ford Escort, and it 
might not last as long in terms of the number of years you have 
it, but if you are buying basic transportation, you do not 
necessarily buy a Mercedes.
    The luxury tax apparently did not deter people from buying 
luxury cars to nearly the degree that it was estimated, and the 
tax writers--now you are wearing your hat as chairman of Ways 
and Means--ought to know that and ought to be looking back, as 
they continue to write taxes, and say, well, we missed it on 
this one. This time, what will happen?
    OK. Enough said.
    Mr. Archer. Mr. Chairman, you are exactly right. What we 
should seek in the estimates is accuracy. We should not seek to 
put our political imprint on them and say we know this is going 
to give us more, or we know this is going to give us less, but 
we should seek accuracy, and it does mean that we have got to 
review what has been done in advance compared to what actually 
happened in reality, and I will sign up to be a soldier in your 
crusade for that.
    Senator Bennett. You will not be a soldier. You will be a 
general. [Laughter.]
    Mr. Archer. I would like to sign you up as a general in my 
crusade to get rid of the need to do all of this by abolishing 
the income tax completely and totally, and replacing it with a 
consumption tax, and then we will not have to go through all of 
this.
    Senator Bennett. I would be delighted to sit down over a 
bowl of Senate bean soup and pursue that with you.
    One of my goals is to make the Tax Code in this country 
simple, neutral, and stable so that it does not favor one group 
over the other--that is the neutrality; people can understand 
it--that is the simplicity; and people can make plans not 
expecting Congress to change it every 18 months, and I am 
willing to look at a flat tax, I am willing to look at a 
consumption tax, and I am willing to look at anything.
    Well, we can do that when we are not in this context.
    Mr. Archer. If we can do that, then I will be the first to 
jump before your committee and say cut the appropriations for 
the Joint Committee on Taxation.
    Senator Bennett. Well, that may be one of the incentives to 
get us moving in that direction.
    We have some more technical type questions about the work 
of the Joint Committee on Taxation that I would like to submit 
to you in writing. We would appreciate your response to those.

                     Additional committee questions

    Mr. Kies, I would say you were the topic of a front page 
article in the Wall Street Journal which I am sure did not make 
you real happy, and we will probably have some questions on 
that in writing for you as well. I think that you should have 
the opportunity to respond on the record, but I will not raise 
those to the level of a public hearing in a public discussion.
    Senator Dorgan, who had to be excused because of the 
pressures of flood conditions in his home State, would 
appreciate a clearing of the air on some of those issues.
    [The following questions were not asked at the hearing, but 
were submitted to the Joint Committee for response subsequent 
to the hearing:]
                     Additional Committee Questions
    Question. In your budget submission you noted that the JCT received 
over 1,750 revenue requests in 1996. Of that number, how many revenue 
estimates were answered by JCT? How many of those answered were for new 
legislative proposals versus legislation which had been previously 
estimated?
    Answer. Of the 1,799 requests for revenue estimates received in 
calendar year 1996, the staff of the Joint Committee on Taxation 
responded to 803.
    It is extremely difficult to quantify how many of the revenue 
requests answered by the staff of the Joint Committee on Taxation were 
for new legislative proposals versus legislation that had been 
previously estimated. If a bill is introduced in both the House and the 
Senate during a session, it is not uncommon for the Members sponsoring 
the legislation in the House and the Senate to request revenue 
estimates. However, the staff of the Joint Committee estimates that a 
relatively low percentage of revenue estimate requests fall into this 
category. In addition, if a request is similar or identical to a 
proposal that the Joint Committee staff has previously estimated, there 
is still a substantial amount of work entailed in responding to the 
request. The Joint Committee staff is always reviewing and updating its 
estimating methodology to account for (1) updated economic assumptions 
provided by the Congressional Budget Office, (2) improvements in 
computer modeling, (3) new information that may have become available, 
(4) new information provided by potentially affected taxpayers, and (5) 
changes in proposed effective dates and forecasted enactment dates. 
Thus, the fact that a revenue request has been previously estimated by 
the Joint Committee staff does not necessarily reduce the time required 
to respond to the current request.
    Question. How many requests have you received to date? What is the 
estimate for fiscal year 1997?
    Answer. As of June 1, 1997, the staff of the Joint Committee on 
Taxation has received over 1,000 requests for revenue estimates for 
calendar year 1997. [Note that all of the Joint Committee statistics 
are kept on essentially a calendar year system, which reflects the 
timing of legislative sessions.] It is projected that the staff will 
receive well over 2,000 requests for revenue estimates for all of 
calendar year 1997.
    The number of revenue requests received in any calendar year 
generally is determined by the amount of revenue legislation considered 
by the Congress during the year. However, there has been a fairly clear 
trend since the mid-1980's of increased numbers of requests for revenue 
estimates as the focus upon the budget impact of proposed legislation 
has continued to increase.
    In addition, if the Supreme Court overturns the decision of Judge 
Jackson with respect to the Line Item Veto Act (the ``Act''), the Joint 
Committee on Taxation staff anticipates that Members will routinely 
request information as to the status of proposed legislation under the 
Act. Thus, it is anticipated that the workload of both the economists 
and the attorneys on the Joint Committee staff will increase even more 
and it will be necessary to begin compiling statistics relating to the 
number of requests made for determinations under the Act.
    Question. At the House hearing, the Chief of Staff Kies said that 
JCT was about to complete a year-long study of the Committee's computer 
needs. Has this report been completed? If so, please summarize its 
findings and provide this subcommittee with a copy of the report.
    Answer. The year-long study referred to by Mr. Kies during the 
House hearing is a study of the feasibility of taking into account 
macroeconomic effects of proposed legislation. This study culminated in 
a symposium on January 17, 1997, of noted macroeconomists. In general, 
these macroeconomists concluded that there is not a sufficient 
consensus among the economics profession to take account of 
macroeconomic effects currently, but that if the state of the art can 
be improved, such effects should be taken into account in preparing 
revenue estimates. These economists also recommended that the Congress 
continue to work to improve the ability for such macroeconomic effects 
to be considered. The results of the year-long study and the symposium 
will be published by the staff of the Joint Committee on Taxation in 
the near future.
    As part of this study, the Joint Committee staff has also 
considered the costs (in terms of additional staff time and computer 
needs) of continuing to expand the macroeconomic estimating capability 
of the Joint Committee staff. Because this is a long-term project that 
cannot be completed in a single fiscal year, it is difficult to 
quantify the total projected costs. However, in testimony before the 
House Subcommittee on Legislative, Mr. Kies estimated that 
approximately $200,000 of the Joint Committee staff's requested 
increase for fiscal year 1998 would be devoted to the work relating to 
macroeconomic estimating.
    Question. At the House hearing in response to Congressman 
Thornton's question that ``you give serious consideration to whether 
some reduction from the requested amount for the Joint Committee could 
be made possible by developing a joint use of some of the resources of 
CBO,'' Mr. Archer stated that he would be glad to work with John 
Kasich. Has any progress been made in this area?
    Answer. This question refers to the House Subcommittee on 
Legislative hearing with respect to the Joint Committee on Taxation's 
appropriation request for fiscal year 1997. It is the opinion of the 
Joint Committee on Taxation that there is virtually no overlap in 
responsibilities between the Congressional Budget Office and the Joint 
Committee on Taxation and that no savings could be attained by 
developing a joint use of resources with the CBO. Although the Joint 
Committee staff works closely with the CBO, the two staffs have worked 
over the years to define clearly the areas of jurisdiction and, 
therefore, there are currently no areas in which the Joint Committee 
staff and the CBO staff are performing the same work. Thus, there is no 
economies to be attained by a joint use of resources because there is 
no overlap in work.
    Questions. Last Congress JCT assumed additional responsibilities 
regarding the line-item veto and the determination whether a provision 
affects 100 entities or not. Although the fate of the line-item veto is 
in the courts hands, has JCT expended any fiscal year 1997 funds in 
preparation for its new responsibilities? Are any funds in the fiscal 
year 1998 budget request earmarked for this purposes?
    Answer. Early in fiscal year 1997, the Joint Committee staff spent 
extensive staff time analyzing the provisions of the Line Item Veto Act 
as it relates to revenue legislation. A draft analysis was published in 
November of 1996, with public comment requested by December 16, 1996. 
The final analysis was published by the Joint Committee staff in late 
December.
    Because of the uncertainty over whether the provisions of the Line 
Item Veto Act will be upheld, the Joint Committee staff has earmarked 
no specific funds for fiscal year 1998 to satisfying the staff's 
responsibilities under the Act. If the Act is upheld, it is anticipated 
that the Joint Committee staff will have significant additional 
responsibilities under the Act and responding to Members during the 
consideration of legislation as to whether certain provisions may be 
limited tax benefits subject to the Act.
    Question. At the beginning of the 105th Congress, the House adopted 
a new rule which impacts the scope of work of the JCT regarding 
economic analysis. Has the Majority Leader designated any legislation 
as ``major tax legislation'' yet this year? How many tax bills of this 
designation do you anticipate this years? Next year?
    Answer. The Majority Leader has not yet designated any legislation 
during 1997 as ``major tax legislation.'' Because this is a new House 
rule for which there is no experience, it is impossible to estimate 
with any certainty the number of bills that may be designated as major 
tax legislation. It is likely that any bill that restructures the 
Federal income tax system would be so designated, but it is difficult 
to predict what other legislation might fall into this category.
    Question. Mr. Kies, you were the topic of a front page article in 
The Wall Street Journal on April 17, 1997. The article was critical of 
the amount of travel you did last year at the expense of outside groups 
with interests in tax policy. I understand that you took a dramatic cut 
in salary to take the position of Chief of Staff of the Joint Committee 
on Taxation and I commend you for your public service. However, last 
year was a very busy year. Could you explain how you were able to find 
so much free time to travel? How do you respond to critics who say that 
there is an appearance problem with the amount of travel you accepted 
from outside groups?
    Answer. Concerning this inquiry, several points are relevant. 
First, at no time during calendar year 1996 did my travel interfere 
with my other work as Chief of Staff of the Joint Committee on 
Taxation. Much of my travel was done during Congressional recesses, on 
weekends when the Congress was not in session, or when the Congress was 
not actively considering revenue legislation. In fact, of the 34 out-
of-town trips that I took during 1996, 29 of them were associated with 
travel which involved either no overnight stay or only a single night 
outside of town.
    Second, the groups that I spoke to included various tax 
professionals groups like the American Bar Association Tax Section, 
various chapters of the Tax Executives Institute, other tax 
professional gatherings and various affected taxpayer groups. Five 
speeches involved lectures at colleges or law schools concerning the 
federal tax and budget legislative process. The expenses were generally 
paid by section 501(c)(3) tax exempt educational organizations. This 
raises a fundamental issue. Each year the Federal Government expects 
taxpayers to voluntarily remit over $1.5 trillion to the Internal 
Revenue Service through a series of complex tax laws which are used to 
finance the varied activities of our Federal Government. Almost all of 
my travel involved speeches to groups to familiarize them with pending 
or recently enacted tax legislation modifying this complex set of 
rules. In 1996, the Congress passed tax legislation which contained 
many complicated provisions increasing revenues over the next 10 years 
by billions, while at the same time including billions of revenue 
losing provisions. Your inquiry raises an important question: ``Should 
Congressional staffers continue to be willing to travel outside of 
Washington to speak to groups impacted by the federal tax system and 
Congressional legislative action in that regard?'' One alternative 
would be to discontinue any such activities. The result would be that 
Congressional staff would be available only to those taxpayers with the 
time and economic resources either to travel to Washington to meet with 
us or those that have Washington offices or representatives. This is 
clearly not a desirable result. On the other hand, if we are to 
continue this type of public service to taxpayers who may not have 
access to Washington counsel, should the Federal Government (i.e., 
taxpayers) pay for it or should the current practice be continued of 
permitting those groups to whom we give speeches to reimburse the cost 
of such travel accompanied by the full disclosure required under the 
ethics rules? I believe it is essential that we continue to be willing 
to speak to groups like the ABA Tax Section and other taxpayer groups 
affected by Congressional action, but that this is not an expense that 
should be paid by taxpayers. I also do not view this activity as 
something that should be viewed as ``free time'' but rather an 
important responsibility that is inherently related to the work of the 
Congress.
    I am attaching for the record copies of materials that I prepared 
in response to The Wall Street Journal article. These materials have 
previously been shared with all Members of the Joint Committee on 
Taxation, the Senate Finance Committee and the Committee on Ways and 
Means. Moreover, my response to The Wall Street Journal was published 
on April 23, 1997 (copy also attached).
    Question. The JCT budget requests an increase of $5,000 for travel. 
How much money did the JCT spend on travel last year?
    Answer. During fiscal year 1996, the Joint Committee on Taxation 
expended approximately $8,200 for travel expenses. Approximately $1,000 
was expended to send Joint Committee staff members to educational tax 
conferences addressing issues under consideration by the Congress. The 
remainder of the funds were expended for travel to Washington by 
economists on the Joint Committee on Taxation Advisory Board or in 
connection with the macroeconomic symposium.
    The Joint Committee's request for fiscal year 1998 for travel funds 
will assure that the travel budget more closely reflects actual 
expenditures.
                                 ______
                                 
                              Attachments
                     Congress of the United States,
                               Joint Committee on Taxation,
                                    Washington, DC, April 24, 1997.
The Honorable William V. Roth, Jr.,
United States Senate,
Washington, DC.
The Honorable Bill Archer,
U.S. House of Representatives,
Washington, DC.
    Dear Mr. Roth and Mr. Archer: I am writing to you concerning an 
article which appeared in The Wall Street Journal on April 17, 1997, 
concerning my role as Chief of Staff of the Joint Committee on 
Taxation. This article is replete with inaccurate, biased and 
misleading reporting.
    I am enclosing for your information a letter which I sent to the 
Editor of The Wall Street Journal concerning the article and a separate 
letter which I have sent to Alan Murray, the Washington Bureau Chief 
for The Wall Street Journal, detailing the glaring defects in the 
article.
    If you have any questions concerning the issues raised in this 
article, I would be happy to address them. Please do not hesitate to 
call me if you wish to discuss this matter further.
            Sincerely,
                                                   Kenneth J. Kies.
                                 ______
                                 
                     Congress of the United States,
                               Joint Committee on Taxation,
                                    Washington, DC, April 23, 1997.
Mr. Ned Crabb,
Editor, Letters to the Editor, The Wall Street Journal,
New York, New York.
    Dear Mr. Crabb: Enclosed is a letter to you regarding the article 
which appeared on April 17, 1997, in The Wall Street Journal concerning 
my role as Chief of Staff of the Joint Committee. I would appreciate it 
if you would consider it for publication in the ``Letters to the 
Editor'' section of your paper. I have also enclosed a copy of a letter 
which I have sent to Alan Murray, the Washington Bureau Chief of The 
Wall Street Journal, providing additional detail supporting the 
concerns which I have raised with respect to the April 17, 1997, 
article. I believe that the more detailed information contained in my 
letter to Mr. Murray clearly supports my request that you publish my 
letter to you concerning this article.
    If you have any questions, please do not hesitate to call me.
            Sincerely,
                                                   Kenneth J. Kies.
                                 ______
                                 
                     Congress of the United States,
                               Joint Committee on Taxation,
                                    Washington, DC, April 23, 1997.
Mr. Ned Crabb,
Editor, Letters to the Editor, The Wall Street Journal,
New York, New York.
    Dear Mr. Crabb: I am writing regarding your article of April 17, 
1997, concerning my role as Chief of Staff of the Joint Committee on 
Taxation. This article is replete with inaccurate, biased and 
misleading reporting. Let me address some of the article's most glaring 
problems.
    First, the article implies that I assisted Mr. Vander Jagt in an 
effort to obtain business from Steve Wynn. Since assuming my role as 
Chief of Staff of the Joint Committee on Taxation, I have never engaged 
in any such discussion on behalf of anyone connected with Baker & 
Hostetler or any other firm.
    Second, the article suggests that I provide special treatment to my 
prior law firm, Baker & Hostetler. This assertion is false. Moreover, 
the article fails to note, as your reporter was advised, that since 
assuming the position of Chief of Staff of the Joint Committee, I have 
had a consistent policy of refusing to even meet with any member of the 
firm on any matter pending before the Joint Committee or to discuss 
such matters with them.
    Third, the discussion in your article of the so-called football 
coaches provision fails to portray accurately the history of this 
provision. The article stated that the legislation sought to insert 
special legislation to allow college coaches to set up a tax exempt 
pension plan. However, the legislation involved was a technical 
correction to legislation the Congress passed in 1987 to permit coaches 
to set up such a pension plan. Operating under this prior legislation, 
the college coaches, with the express approval of the I.R.S., had set 
up and were operating such a plan until a technical defect was 
identified with the original legislation. In 1993, Hank Gutman, then 
Chief of Staff of the Joint Committee, ruled that the legislation to 
correct the defect qualified as a technical correction because it would 
accomplish the original intent of the 1987 legislation.
    Fourth, the reference in the article to the legislation affecting 
Fort Howard and Morgan Stanley failed to note that I was by no means 
the only one to have concluded that the legislation was an appropriate 
technical correction or clarification of legislation previously enacted 
by the Congress. The Ways and Means Majority staff, the Senate Finance 
Committee Majority staff and the Treasury Department, among others, all 
supported this conclusion. Moreover, the Ninth Circuit Court of Appeals 
in the case of U.S. v. Croy (Europe)Ltd., 27 F. 3d. 367 (9th Cir., 
1994) had previously concluded in 1994 that the state of the law was 
already consistent with the 1996 clarification even prior to its 
approval by the Congress.
    Fifth, the article suggests some undefined cause and effect 
relationship between my one-time speech to the 1996 meeting of the 
commercial gambling industry's Tax Executives Committee and a 
legislative proposal to subject Indian gambling to taxation. There are 
two significant defects with this oblique suggestion: first, the 
legislation to impose taxation on Indian gambling passed the House of 
Representatives in the Fall of 1995 while my speech occurred in April 
of 1996; second, to date the commercial gambling industry has been 
unwilling to support such legislation, at least in part as a result of 
the fact that the commercial gambling industry provides substantial 
management and support services to the Indian-owned casinos.
    Finally, your article suggests that my role as Chief of Staff of 
the Joint Committee is different from the role performed by prior 
chiefs of staff. This too is inaccurate. Every chief of staff of the 
Joint Committee prior to me has engaged actively in speaking to 
taxpayer groups both inside and outside of Washington. They, like I, 
have complied with all applicable ethics rules of the Congress in these 
activities, which rules are today more restrictive than ever. This is a 
role that we should continue to fulfill given the significant impact 
which tax legislation has on the public generally and taxpayer groups 
in particular. To do otherwise would be a disservice to the tax system 
and the tax legislative process.
            Sincerely,
                                                   Kenneth J. Kies.
                                 ______
                                 
                     Congress of the United States,
                               Joint Committee on Taxation,
                                    Washington, DC, April 23, 1997.
Mr. Alan Murray,
Washington Bureau Chief, The Wall Street Journal,
Washington, DC.
    Dear Alan: I am writing concerning the recent article which The 
Wall Street Journal published by Greg Hitt regarding my role as Chief 
of Staff of the Joint Committee on Taxation. As I suggested to you in 
my letter of April 10, 1997, I believed that Mr. Hitt was in the 
process of writing a single-mindedly negative article concerning me. 
The content of the story which appeared on April 17, 1997, conclusively 
demonstrated that my suspicions were correct. The article contains 
numerous distortions and inaccuracies and fails to include a balanced 
view on almost any of the issues which Mr. Hitt raised. I have enclosed 
with this letter a point by point response to the various issues which 
Mr. Hitt raised in his article. The responses which I have received 
from many who have read this article have been consistent and are 
similar to my own assessment. First, they fail to see what was 
newsworthy in the article. Second, they believe the article is one-
sided and inaccurate. Third, they believe that the article falls 
dramatically below the standards for responsible journalism 
characteristic of The Wall Street Journal.
    By this letter I am specifically requesting a letter of apology 
from The Wall Street Journal for the printing of this article. I would 
welcome the opportunity to discuss with you, in as much detail as you 
desire, the specific concerns I have raised in my point by point 
analysis of the article.
            Sincerely,
                                                   Kenneth J. Kies.
                                 ______
                                 
  Point by Point Analysis of Distortions and Inaccuracies in The Wall 
  Street Journal Article of April 17, 1997, Entitled ``In the Public 
  Eye--Tax-Panel Staff Chief Keeps a High Profile; Special Interests 
                                 Help''
     wall street journal article contains serious distortions and 
                              inaccuracies
Text of WSJ Article
    1. When Washington lobbyist Guy Vander Jagt went to Las Vegas to 
court gambling tycoon Steve Wynn last April, he showed up with a 
friend: Kenneth Kies, chief of staff of the congressional Joint 
Committee on Taxation.
    Mr. Wynn and his fellow gambling executives were worried that 
Congress would impose new taxes on their industry's earnings. And Mr. 
Vander Jagt, a former member of Congress, was seeking to boost his 
lobbying business.
    As for Mr. Kies, Mr. Vander Jagt says: ``I thought it would look 
good if I had the chief of staff, and I did.'' The three men had lunch 
on the patio of Mr. Wynn's mansion, overlooking the 18th hole of his 
private golf course. Then Messrs. Kies and Vander Jagt played a round 
of golf.
    Mr. Vander Jagt didn't get the account. But Mr. Kies's presence at 
the outing highlights the unusual license he takes with his job as 
Congress's top tax staffer. The Joint Committee was set up 71 years ago 
to provide technical tax assistance to congressional tax writers, and 
its hear traditionally has avoided the limelight.
Response
    1. The first four paragraphs of the article concern my meeting with 
Mr. Wynn which was also attended by Mr. Vander Jagt. The thrust of this 
section of the article suggest that I was attempting to assist Mr. 
Vander Jagt in obtaining business from Mr. Wynn. This is categorically 
untrue. Moreover, this section of the article is distorting and 
misleading for a number of reasons. First, at no time during my visit 
to Las Vegas or at any other time since becoming Chief of Staff of the 
Joint Committee on Taxation, have I in any way discussed or assisted or 
encouraged anyone to hire Mr. Vander Jagt or Baker & Hostetler in 
connection with representation of the gambling industry, or any other 
industry. Second, I was in Las Vegas to give a speech to the 1996 
meeting of Hotel & Gambling Industry Tax Executives Committee as a 
result of an invitation which I received from Lee Johnson with Burson-
Marsteller, a public relations firm with offices in Washington, D.C. 
Mr. Burson-Marsteller has no relationship or connection whatsoever to 
Mr. Vander Jagt or Baker & Hostetler. Third, my entire discussion with 
Mr. Wynn focused on issues wholly unrelated to who represents him or 
the gambling industry. Among the issues we discussed were the prospects 
for federal tax restructuring and other issues of that nature. Finally, 
Mr. Vander Jagt advises me that he has no recollection of the quote 
attributed to him.
Text of WSJ Article
    2. Then there is his relationship with Mr. Vander Jagt and the 
Cleveland law firm of Baker & Hostetler. Mr. Kies earned $500,000 a 
year as a lobbyist for the firm before leaving two years ago to take 
the congressional tax job. He handed many of his accounts to Mr. Vander 
Jagt, a longtime friend whom he helped land a job at the firm in 1993.
Response
    2. Prior to taking the position as Chief of Staff of the Joint 
Committee on Taxation, I did not earn ``$500,000 a year as a lobbyist 
for [Baker & Hostetler].'' Rather, I earned this compensation as the 
Firm-wide Chair of Baker & Hostetler's Tax and Personal Planning Group. 
This group consists of over 50 lawyers located in the law firm's six 
offices. The Tax and Personal Planning Group consists of one of the 
four major practice areas of the law firm. In my capacity as Chair of 
the Firm-wide Tax and Personal Planning Group I coordinated all tax 
work for the law firm, participated in the setting of compensation for 
all associates and non-equity partners. My own tax practice included 
tax litigation, other tax controversy work, tax planning and tax 
legislative work. To state that I earned $500,000 a year as a lobbyist 
misrepresents of my role at Baker & Hostetler. A copy of my resume, 
which was provided to Greg Hitt, and my discussions with him made that 
point abundantly clear.
Text of WSJ Article
    3. In addition to accompanying Mr. Vander Jagt to see Mr. Wynn, Mr. 
Kies last year took trips at Baker & Hostetler's expense to Orlando, 
Fla., Houston, Cleveland, and Columbus, Ohio, where he spoke to the 
firm's clients and prospective clients. ``It helps the firm enormously 
because Washington works on appearances,'' Mr. Vander Jagt explains. 
Mr. Kies ``is enormously important in the formulation of tax law. 
People think, `Well, Baker & Hostetler ought to have a direct pipeline 
into Ken.' ''
    ``Having Ken over there, it's a nice thing,'' adds William 
Schweitzer, managing partner of Baker & Hostetler's Washington office. 
But he says the firm's dealings with Mr. Kies aren't any different than 
they would be with someone else serving as staff director of the Joint 
Committee on Taxation. On the issue of recruiting business, Mr. 
Schweitzer says: ``probably, it gives you a bit of an advantage'' to 
have Mr. Kies positioned on Capitol Hill, but direct connections are 
difficult to make. (Baker & Hostetler also does legal work for Dow 
Jones & Co., publisher of The Wall Street Journal.)
Response
    3. This excerpt of the article implies that I have given special 
treatment to Baker & Hostetler. It totally distorts the actual 
relationship I have had with Baker & Hostetler since taking the 
position as Chief of Staff of the Joint Committee. In particular, it 
fails to note that since assuming the position of Chief of Staff of the 
Joint Committee, I have had a consistent policy of refusing to even 
meet with either partners or associates of the firm on any matter 
pending before the Joint Committee on Taxation or to discuss such 
matters with them. I adopted this practice after consulting with prior 
Chiefs of Staff of the Joint Committee concerning the way in which they 
handled their own prior relationships with law firms with which they 
had previously been associated prior to taking the position of Chief of 
Staff of the Joint Committee. Failure to include this information 
coupled with the text presented clearly and intentionally conveys an 
unjustly unfavorable impression of me. As you can see from the enclosed 
memo to Greg Hitt dated March 14, 1997, this point was clearly 
communicated to him.
Text of WSJ Article
    4. Because of his clout, the Washington tax-writing community is 
reluctant to criticize Mr. Kies openly. But because his behavior is so 
unusual, given his staff position, many are uneasy.
    ``I'm a little surprised he's quite as visible as he is,'' says 
John ``Buck'' Capoton, former assistant secretary of the Treasury for 
tax policy in the Reagan administration ``It's a little dangerous to 
get out in front of the members. It's supposed to be their show, not 
his.''
Response
    4. The article in this excerpt makes the unsubstantiated assertion 
that ``many are uneasy'' with my behavior as Chief of Staff of the 
Joint Committee. Notwithstanding this, the only ``on the record'' 
comment included is one from Buck Chapoton. He has advised me since 
this article appeared that the quote used from his interview with Greg 
Hitt completely distorts the lengthy interview which he provided to 
Greg concerning his view of my tenure as Chief of Staff of the Joint 
Committee.
Text of WSJ Article
    5. The revolving door for government officials is a commonplace in 
Washington. But while executive-branch employees face some strict 
restrictions on their lobbying activities after office, members of 
Congress and their staffers face few such limits.
Response
    5. The statement that Members of Congress and their staffers face 
few limits on activities that they can conduct after leaving 
government, as contrasted with Executive Branch employees, is flatly 
wrong. Prior to the Clinton Administration, the Executive Branch and 
the Legislative Branch essentially operated under exactly the same 
restrictions--a one-year moratorium on their ability to have contact 
with their prior agency or employer. While it is true that the Clinton 
Administration has lengthened that to five years under some 
circumstances, the nature of the limitation is essentially the same. 
Thus, Members of Congress may not lobby their colleagues for one year 
after leaving office. Likewise, staffs of committees are precluded from 
lobbying staff members of the committee on which they worked or Members 
of such committees for one year after they leave office.
Text of WSJ Article
    6. But even in the freewheeling world of congressional staffers, 
Mr. Kies's and Mr. Vander Jagt's moves through that revolving door seem 
surprisingly fast.
    As a Baker & Hostetler lobbyist, Mr. Kies unsuccessfully pushed the 
case of the American Football Coaches Association, which was seeking 
special tax legislation that would allow college coaches to set up a 
tax-exempt pension plan. When he took his job in Congress, Mr. Kies 
passed the coaches account on to Mr. Vander Jagt. The provision 
subsequently was included in one version of the GOP's balanced-budget 
bill, which later died. Then it became part of a small-business tax 
bill that was signed into law.
    Mr. Kies denies having anything to do with the measure's success. 
But Sen. Jay Rockefeller, a West Virginia Democrat, made a point of 
publicly highlighting Mr. Kies's ties to the coaches in a meeting of 
the Senate Finance Committee. ``He made some snide comment,'' Mr. Kies 
says. ``I remember much more vividly his 65 questions on coal-miner 
retirees.''
Response
    6. The discussion in the article of the so-called football coaches 
provision fails to portray accurately the history of this provision. 
The article stated that the legislation sought to insert special 
legislation to allow college coaches to set up a tax exempt pension 
plan. However, the legislation involved was a technical correction to 
legislation the Congress passed in 1987 to permit coaches to set up 
such a pension plan. Operating under this prior legislation, the 
coaches, with the express approval of the I.R.S., had set up and were 
operating such a plan until a technical defect was identified with the 
original legislation. In 1993, Hank Gutman, then Chief of Staff of the 
Joint Committee, ruled that the legislation to correct the defect 
qualified as a technical correction because it would accomplish the 
original intent of the 1987 legislation. While the article discusses 
the exchange which Senator Rockefeller and I had during a markup of the 
Senate Finance Committee, it failed to include the fact that I 
specifically indicated during that exchange that I was recused from any 
discussion of the matter and that I had consistently during my tenure 
recused myself from discussions about this provision. Finally the 
article failed to note that the Football Coaches Association provision 
was included in a bill reported by the House Ways and Means Committee 
in 1993, more than a year prior to my becoming Chief of Staff of the 
Joint Committee.
Text of WSJ Article
    7. Another case that raised eyebrows involved Mr. Vander Jagt's 
efforts to protect a wealthy client from legislation that would tighten 
tax rules on American who renounce their U.S. citizenship in order to 
escape taxes. Mr. Vander Jagt was retained to represent Joseph 
Bogdanovich, and H.J. Heinz Co. executive who had moved to Britain and 
renounced his citizenship.
Drafting Error
    The effective date of the bill was Feb. 6, 1995. But in a closed-
door meeting of the House Ways and Means Committee, GOP lawmakers 
approved a statement that would have allowed the effective date to slip 
by a month, exempting Mr. Vander Jagt's client. Democrats were invited 
to the hastily convened meeting, but many showed up late and the change 
went unnoticed. When Democrats discovered it hours later, they 
protested loudly, and GOP members reversed course. Mr. Kies calls is a 
simple drafting error. But as the top staffer in the room, it was his 
job to advise members on the implications of the change. Democrats 
remain skeptical about the episode.
    ``We've never gotten a satisfactory explanation of how that 
happened.'' says California Democrat Robert Matsui, a senior member of 
the committee. Messrs. Kies and Vander Jagt say they never spoke about 
the issue.
Response
    7. Concerning this section of the article, at least two points are 
relevant. First, to suggest that I should have been aware of the 
implications of what was a completely innocuous statement concerning 
the expatriation issue as relates to Mr. Bogdanovich when I was wholly 
unaware of the factual circumstances concerning his situation is 
obviously an absurd statement. Second, contrary to the suggestion in 
the article, I was not the only top staffer ``in the room,'' when this 
statement was hastily drafted. In the room at the same time were top 
staffers from the majority and minority side of the Ways and Means 
Committee, both of whom were apparently familiar with the factual 
situation involving Mr. Bogdanovich. I in no way mean to suggest that 
they were attempting to assist Mr. Bogdanovich or Mr. Vander Jagt 
because I firmly believe that the statement was in no way binding 
regarding future action which the Ways and Means Committee or the 
Senate Finance Committee would take on this matter, but was only 
intended to constitute a place holder for future consideration of the 
issue of expatriation.
Text of WSJ Article
    8. And by just tweaking the language of legislation, Mr. Kies has 
shown he can wield substantial influence on issues important to special 
interests.
    Last year, for instance, he helped clear the way for a little-
noticed provision that gave millions of dollars in tax benefits to Fort 
Howard Corp. and Morgan Stanley Group Inc., which owns a major stake in 
the Wisconsin paper company. A Democratic-appointed predecessor, Harry 
Gutman, refused to touch the matter, saying it wasn't strictly a 
technical issue and therefore should be left to members of Congress to 
decide. ``I wouldn't do it,'' Mr. Gutman says. Mr. Kies says he got 
involved because he saw the situation differently.
Response
    8. The reference to the legislation affecting Fort Howard and 
Morgan Stanley failed to note that I was by no means the only one to 
have concluded that the legislation was an appropriate technical 
correction or clarification of legislation previously enacted by the 
Congress. The Ways and Means Majority staff, the Senate Finance 
Committee Majority staff and the Treasury Department, among others, all 
supported this conclusion. Moreover, the Ninth Circuit Court of Appeals 
in the case of U.S. v. Kroy (Europe) Ltd., 27 F. 3d. 367 (9th Cir., 
1994) had previously concluded in 1994 that the state of the law was 
already consistent with the 1996 clarification even prior to its 
approval by the Congress in 1996.
Text of WSJ Article
    9. As for his far-flung public speeches, Mr. Kies argues that 
speaking to taxpayers--even if it means traveling extensively--is part 
of his job. Last year, his itinerary included visits to academic 
institutions and nonprofit organizations, as well as trips underwritten 
by Baker & Hostetler and by grocery, real-estate, gambling and energy 
concerns. In all, Mr. Kies took 42 trips paid for by outside groups, 
costing nearly $60,000.
Response
    9. The article suggest that my role as Chief of Staff of the Joint 
Committee is different from the role performed by prior chiefs of 
staff. This too is inaccurate. Every chief of staff of the Joint 
Committee prior to me has engaged actively in speaking to taxpayer 
groups both inside and outside of Washington. They, like I, have 
complied with all applicable ethics rules of the Congress in these 
activities, which rules are today more restrictive than ever. This is a 
role that we should continue to fulfill given the significant impact 
which tax legislation has on the public generally and taxpayer groups 
in particular. To do otherwise would be a disservice to the tax system 
and the tax legislative process.
Text of WSJ Article
    10. It was on one such speaking trip last April that Mr. Kies and 
Mr. Vander Jagt visited Mr. Wynn, chairman of Mirage Resorts Inc. Mr. 
Kies was in Las Vegas to speak to a group of hotel and gambling 
executives. His $1,900 in travel and lodging expenses were paid by the 
hotel and gambling interests, according to Rick Darnold, a Boyd Gaming 
Corp. vice president who organized the event.
    Mr. Kies says that after his separate meeting with Mr. Wynn, he 
sent the Mirage chairman a $100 check to avoid the appearance that he 
might be accepting a special gift by playing on his private golf 
course. ``I'm the only person who probably ever paid to play there,'' 
he says.
    He says his views aren't influenced by the money spent on him. But 
the gambling executives have reason to feel their money was well spent. 
``If people have a good understanding of your industry, then they're 
better regulators,'' Mr. Darnold says.
    On the issue of gambling, Mr. Kies talks down a proposal to impose 
tax-withholding requirements on keno and bingo winnings. The gambling 
industry fears that the idea--bandied about in the last Congress and 
endorsed by the Clinton administration--would eventually be broadened 
to include slot machines. And he has strongly endorsed taxing the 
proceeds earned at Indian casinos, which provide untaxed competition 
with the commercial-gambling industry.
    ``I question whether he's got his own agenda,'' says Democratic 
Rep. Gerald Kleczka of Wisconsin, who worries about the impact such a 
tax would have on the 17 Indian-run casinos in his state. ``If you want 
the job of a member of Congress, run for it.''
Response
    10. The article suggests some undefined cause and effect 
relationship between my one-time speech to the 1996 meeting of the 
commercial gambling industry's Tax Executives Committee and a 
legislative proposal to subject Indian gambling, which currently enjoys 
tax free treatment, to the income taxation regime imposed on other 
business activities (including commercial gambling.) There are two 
significant defects with this oblique suggestion; first, the 
legislation to impose taxation on Indian gambling passed the House of 
Representatives in the Fall of 1995 while my speech occurred in April 
of 1996, second, to date the commercial gambling industry has been 
unwilling to support such legislation, at least in part as a result of 
the fact that the commercial gambling industry provides substantial 
management and support services to the Indian-owned casinos.

                          subcommittee recess

    Senator Bennett. I have nothing further. Do you have 
anything to add?
    Mr. Archer. I would only add one other thing. We rotate 
chairmanships of this committee every year, and one year it is 
the House Ways and Means chairman, the next year it is the 
Senate Finance Committee chairman, and next year Senator Roth 
is the chairman of the Joint Committee on Taxation. Next year 
he will be the chairman, at the time when these appropriations 
will be going into effect.
    Senator Bennett. All right. Thank you very much. We 
appreciate your coming over.
    Mr. Archer. Thank you, Mr. Chairman.
    Senator Bennett. The subcommittee is recessed.
    [Whereupon, at 11:45 a.m., Tuesday, May 6, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                         TUESDAY, MAY 20, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present: Senators Bennett, Stevens, Craig, and Dorgan.

                          CAPITOL POLICE BOARD

STATEMENTS OF:
        HON. GREGORY S. CASEY, CHAIRMAN, U.S. CAPITOL POLICE BOARD
        HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF 
            REPRESENTATIVES, MEMBER, U.S. CAPITOL POLICE BOARD
        CHIEF GARY L. ABRECHT, U.S. CAPITOL POLICE
ACCOMPANIED BY HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL, MEMBER, 
            U.S. CAPITOL POLICE BOARD

                 OPENING STATEMENT OF ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order.
    Today we're holding a hearing on the budget for the U.S. 
Capitol Police Board and the Congressional Budget Office budget 
request. We appreciate you being here and look forward to your 
testimony.
    The first panel will be the Capitol Police Board, including 
the Honorable Greg Casey, who is the Senate Sergeant at Arms 
and chairman, the Honorable Wilson Livingood, the House 
Sergeant at Arms, and Mr. Gary Abrecht, Chief of the Capitol 
Police. I assume you are honorable as well, sir.
    Mr. Abrecht. I do not know, sir. [Laughter.]
    Senator Bennett. And we have accompanying them the 
Honorable Alan Hantman, Architect of the Capitol, who serves as 
a member of the Police Board. We will start with this first 
panel and go on to the second one after you have concluded.
    I want to commend the board, particularly you, Mr. Casey, 
for the effort being made to review the financial management 
and human resource practices of the police. My memory goes all 
the way back to the time when the Capitol Police were referred 
to affectionately as the campus cops.
    Every Senator had patronage, and the Capitol was filled 
with students at George Washington University who were getting 
their law degrees at night while sitting behind desks around 
the Capitol wearing uniforms during the daytime. One of them, 
who is now one of the more prominent attorneys in Salt Lake 
City, said if anything had ever happened that would have 
required him to draw his gun he would have been more panicked 
than the individual against whom he was drawing it, because he 
had not the slightest idea how to use it, or even what certain 
buttons on it were for.
    The Capitol Police unfortunately have had to acquire a 
professionalism far beyond that level, and we are sorry in a 
sense that is the case, but we recognize the professionalism of 
the police and commend you for that.
    So we have been joined by Senator Craig. Do you have an 
opening statement?
    Senator Craig. No, Mr. Chairman. Go right ahead. I will 
have some questions.
    Senator Bennett. Well, we shall hear from you, then, Mr. 
Casey.

                           summary statement

    Mr. Casey. Thank you, Mr. Chairman, and I want to also 
thank Wilson Livingood and Chief Abrecht and Mr. Hantman for 
being here today. These two fine gentlemen plus the police 
chief make up the team that makes up the Police Board. It's a 
great team to work with.
    I am honored to be chairman of the Capitol Police Board. I 
am honored to be able to represent the 1,250 members of the 
Capitol Police in making this request for our 1998 
appropriations. Thank you also for your kind remarks.
    I am reminded of the fact that one of my mentors in Idaho 
politics was a former Governor of Idaho who himself served, 
while he was attending George Washington University, as a 
Capitol Hill policeman. The stories you just told, I have heard 
before from Governor Smiley when he served on the Capitol 
Police many years ago.
    You are also correct in recognizing that this is a 
department that is in transition, reminding you--I do not think 
I need to, but this is the agency with the sole statutory 
responsibility for providing law enforcement and protective 
services for the entire branch of Government, legislative 
branch of Government.
    Because of that, we have the responsibility to try to 
increase our capabilities in what has become a varied and ever-
present security threat situation.
    Thanks to the support of this committee, the Capitol Police 
has become a top-flight law enforcement operation, with 
enhanced capabilities and professional respect both within this 
community and outside this community.
    One example of the increased capabilities of the force is 
the creation of the physical security division. This division, 
which I might add was created subsequent to a Secret Service 
joint operation to analyze the physical security needs of the 
Capitol complex, was created in 1996. It has been charged with 
the development and implementation of an integrated security 
program for the entire Capitol complex.
    With the approval of this committee just recently, phase 1 
of this comprehensive state-of-the-art program has begun, and I 
might also add that we hope to finish phase 1 of our Capitol 
security program by the end of this calendar year, so the 
record of being able to put together the physical security 
division in 1996, develop and implement phase 1 by the end of 
this calendar year I think is fairly remarkable, and speaks 
highly of the effort of the Capitol Police.
    We have also become a full partner in the intelligence and 
national security community of the Federal Government, 
something which I think will become increasingly important.
    Because of these responsibilities, it falls to those of us 
who constitute the board to ensure that progress continues. The 
Capitol Police must remain responsive to the changing security 
requirements of Congress.
    In discharging this responsibility, we feel the need and 
obligation to serve both the department, its men and women, and 
the Congress. To the men and women of the department, the board 
must ensure that pay and benefits are commensurate with the 
duties we ask these personnel to perform for us on a daily 
basis. We must ensure that parity is maintained with other 
similar Federal law enforcement agencies in the Washington 
metropolitan area, and that the police command and management 
are effective and competent.
    To the Congress, the board must ensure that our budget 
request is reasonable, reflecting only the real needs of the 
department while ensuring our appropriated funds are managed 
responsibly and efficiently, something I am sure you will ask 
me questions about.
    I can assure you, Mr. Chairman and Senator Craig, that all 
of these factors were considered during the preparation of the 
fiscal year 1998 U.S. Capitol Police Board's budget request. 
The total request for 1998 is $79,336,000. This reflects a 9-
percent increase over last year, or a $7.1 million increase.
    The increase reflects basically two areas. One is parity 
initiatives for these sworn officers to include about $2 
million in COLA only, and one-third of it, roughly 30 percent, 
is increases in the general expenses to cover computer and 
telecommunications systems which are now showing as part of the 
Sergeant at Arms' budget. Basically what we are doing is moving 
an expense that is for the Capitol Police, out of the Sergeant 
at Arms' budget and into the police budget, where it should 
have been all along. It is not new money. It has just been 
shifted over.
    Senator Bennett. May I interrupt you long enough to ask if 
you know if the Sergeant at Arms' budget is going down 
commensurately?
    Mr. Casey. I cannot guarantee that at this point, Mr. 
Chairman. The Sergeant at Arms' organization is in a state of 
total reorganization at this point. We will probably come back 
to you with a net reduction in the amount of O&M that we're 
requesting for 1998 over the budget that you've already 
received in the Sergeant at Arms operations. Whether that can 
be directly attributable to the shift of this money, I cannot 
say honestly.
    Senator Bennett. Continue.
    Mr. Casey. To ensure that we build on the operational 
successes of the Capitol Police, the board and the department's 
command staff recognize that our focus for the coming year must 
be on administrative and management issues. In response, this 
board passed a resolution which directs the department to 
conduct an evaluation of administrative and management 
functions within the Capitol Police force.
    This evaluation will include analysis and assessment of 
information technology, financial management, and human 
resource programs. We know that certain improvements, 
especially in information technology, are needed to improve and 
maintain the operational successes of the force. I will just 
outline in a moment what that evaluation process is going to 
be.
    First, we are going to conduct a thorough analysis of our 
current administrative operations and practices and establish 
some benchmarks. Second, we are going to define our 
requirements and our priorities; and third, once our functional 
requirements are defined, we will develop and implement 
programs to meet those needs and apply best business practices.
    This action is a proactive and responsible approach to 
making certain that the police command, the Police Board, and 
the respective appropriations and oversight committees have 
sound information on which to base their decisions.
    The mission of the U.S. Capitol Police is critical to the 
safety and security of the U.S. Congress and all those who work 
and visit here. We are presented with a complex and challenging 
task. It is our mutual goal to ensure that the U.S. Capitol 
Police continues to receive the funding it requires to 
effectively perform its mission.
    Just to elaborate on that statement, we are told repeatedly 
that this building, if not the top, is one of the top terrorism 
targets in the Nation, so we make a choice day-in and day-out 
as to whether or not we will make it a fortress, like some 
buildings in this town, or whether or not we will continue to 
have access by the public and the many visitors who come here.
    In order to do that, we have to continue to improve and 
keep our Capitol Police force responsive to that environment in 
which we find ourselves. That is a very difficult and demanding 
task. I think our police force has risen to that. That is one 
of the reasons I think when the chief talks, you will see that 
some of our statistics are things to be proud of, but it is 
indeed a daunting task and one we have to continue to stay on 
top of.
    We are convinced the administrative management aspect of 
this needs to be evaluated, as well as the physical security 
part of it, and we set about doing that in this calendar year.
    I would like to thank this committee for the support and 
guidance you have provided us, and I also want to thank you, 
Mr. Chairman, for the excellent working relationship we have 
had with your staff and with the Appropriations Committee. It 
has indeed been a partnership with them, and we think that has 
been very beneficial to both of us.

                           prepared statement

    A detailed budget of the U.S. Capitol Police has been 
submitted to the committee, and I will be happy to answer 
questions either now or after the other gentlemen.
    [The statement follows:]
                 Prepared Statement of Gregory S. Casey
    Mr. Chairman and members of the Committee, I am Greg Casey, I am 
the 34th Sergeant at Arms and Doorkeeper of the United States Senate. 
As such, I also serve this year as chairman of the Capitol Police 
Board. On behalf of the 1,250 men and women of Capitol Police, I am 
pleased to present the fiscal year 1998 Budget Request for the United 
States Capitol Police.
    Joining me today are the other two members of the Capitol Police 
Board, Mr. Wilson Livingood, the House Sergeant at Arms, and Mr. Alan 
Hantman, the Architect of the Capitol. I would like to thank each of 
them for their commitment and effort on behalf of the Board and 
Department. In particular, Mr. Livingood for his depth of experience 
and guidance in law enforcement operations and Mr. Hantman, not only 
for his work as a member of the Board, but also his support as 
Architect in providing facilities support, including infrastructure and 
capital improvements which are included in the Architects budget 
request. Also with us today is Gary Abrecht, the Chief of Police. Our 
appreciation to him for his leadership of the department.
    Over the past few years, the U.S. Capitol Police has been a 
Department in transition. As the agency with the sole statutory 
responsibility for providing law enforcement and protective services 
for the United States Congress, the Capitol Police must constantly 
strive to meet security threats which are varied and ever present.
    With the support of this committee, the U.S. Capitol Police force 
has become a top flight law enforcement operation with enhanced 
capabilities and professional respect both from within and outside the 
force. One example of the increased capabilities of the force is the 
creation of the Physical Security Division. This division is charged 
with the development and implementation of an integrated security 
program for the entire Capitol Complex. With the approval of this 
committee, phase one of this comprehensive, state-of-the-art program 
has begun. The U.S. Capitol Police has also established itself as a 
partner within the intelligence and national security community of the 
federal government.
    It falls to the Board of the U.S. Capitol Police to ensure that 
this progress continues and the Capitol Police remain responsive to the 
changing security requirements of the Congress. In discharging this 
responsibility, the Board assumes an obligation to both the Department 
and to the Congress.
    To the men and women of the Department, the Board must ensure that 
pay and benefits are commensurate with the duties the personnel are 
asked to perform; that parity is maintained with other similar federal 
law enforcement agencies in the Washington Metropolitan area; and that 
police command and management are effective and competent. To the 
Congress, the Board must ensure that our budget request is reasonable, 
reflecting only the real needs of the Department, while ensuring 
appropriated funds are managed responsibly and efficiently.
    All of these factors were considered during the preparation of the 
fiscal year 1998 U.S. Capitol Police Budget Request. The total fiscal 
year 1998 Budget Request for the United States Capitol Police is 
$79,336,000. This reflects an increase of 9 percent over last year's 
appropriation and an increase of 3 FTE's.
    The increase reflects actions in basically two areas. It funds pay 
parity initiatives for the sworn members of the force. It also 
increases the General Expenses Budget to cover computer and 
telecommunication systems expenses which were previously funded within 
the budget of the Office of the Senate Sergeant at Arms.
    To ensure that we continue to build upon the operational successes 
of the U.S. Capitol Police, the Board and the Department's Command 
Staff recognize that our focus for the coming year must be on 
administrative and management issues.
    In response, the Capitol Police Board passed a resolution which 
directs the department to conduct an evaluation of the administrative 
and management functions within the Capitol Police force. This 
evaluation will include analysis and assessment of information 
technology, financial management, and human resource programs.
    We know that certain improvements, especially in the information 
technology area, are needed to improve and maintain the operational 
successes of the force.
    If I may take a moment to outline the evaluation process:
  --We will first conduct an analysis of current administrative 
        operations to establish benchmarks.
  --We will begin to define our requirements and priorities.
  --Once our functional requirements are defined, we will develop and 
        implement programs to meet the identified needs and apply best 
        business practices in each of the administrative operations.
    This action is a proactive and responsible approach in making 
certain that the police command, the Police Board, the respective 
appropriations and oversight committees have sound business information 
in order to make sound business decisions.
    The mission of the U.S. Capitol Police is critical to the safety 
and security of the United States Congress and all those who work and 
visit within the Capitol complex. We are presented with a complex and 
challenging task. It is our mutual goal to ensure that the U.S. Capitol 
Police continues to receive the funding it requires to effectively 
perform its mission.
    I would like to thank the Committee for the support and guidance 
you have provided to the Board over the last year. A detailed budget 
for the U.S. Capitol Police has been submitted to the Committee. I will 
be happy to answer any questions you may have.
                                 ______
                                 
      United States Capitol Police Fiscal Year 1998 Budget Request
                            combined budget
Fiscal year 1997 Appropriation..........................     $72,138,000
Fiscal year 1998 Appropriation Request..................      79,336,000
Fiscal 1998 Increase....................................       7,198,000

    The budget for the United States Capitol Police is comprised of 
funding for the salaries of officers, members and employees and a 
general expenses account for administrative and capital asset 
requirements. The total estimate for fiscal year 1998 is $79,336,000. 
This is an increase of $7,198,000 over amounts appropriated in fiscal 
year 1997.
    Funding is requested for COLA and Comparability Pay, and three new 
positions. Two of these positions are for support of internal 
personnel/payroll functions which will be administered through the 
National Finance Center. The other new position is requested for 
support of the Office of General Counsel in meeting the requirements of 
the Congressional Accountability Act.
    The amount of $2,382,000 is requested to fund several pay 
initiatives for sworn personnel. It has been a long-standing objective 
of the Capitol Police Board and the Chief of Police to achieve parity 
in terms of pay and other benefits with other similarly situated 
Federal law enforcement agencies which are covered under Title 5 of the 
United States Code. The amount requested would allow the Department to 
administer the provisions of the Fair Labor Standard Act consistent 
with other agencies that allow the inclusion of scheduled leave for 
purposes of meeting pay period thresholds. Funding would also allow the 
Department to pay sworn personnel differential pay rates for Sundays, 
nights and holidays.
    The total request for the General Expenses budget is $5,401,000. 
Included in the General Expenses budget is the amount of $2,167,000 for 
computer services and telecommunications systems. The budget for these 
functions is included at the direction of the Senate Subcommittee on 
the Legislative Branch and represents a transfer of budget authority 
from the Office of the Senate Sergeant at Arms budget.
    Funds are also requested in the amount of $100,000 to fund a cross-
servicing contract for the Accounting function related to our General 
Expenses appropriation as well as to upgrade or acquire necessary 
systems. Funding for the biennial promotion exam is included in the 
amount of $175,000. The amount of $98,000 is requested for restoration 
of the vehicle replacement budget which was reduced in fiscal year 
1997.
    The following is an explanation of changes contained in the 
Salaries and General Expenses budget estimates.
                            salaries budget
Fiscal 1997.............................................     $69,356,000
Fiscal 1998.............................................      73,935,000
Increase................................................       4,579,000

Mandatory Pay and Related Changes--$4,367,000
    Personnel Compensation--($261,000). A decrease is estimated due to 
the timing of scheduled classes at the Federal Law Enforcement Training 
Center.
    Agency Contributions for Employee Benefits--$462,000.
    Annualization of fiscal year 1997 COLA--$316,000. This amount is 
included at the COLA rate of 2.3 percent for three months for the COLA 
increase effective on January 1, 1997.
    Projected fiscal year 1998 COLA--$1,201,000. Estimated at the rate 
of 2.8 percent for nine months.
    Comparability Pay--$267,000. Estimated at the rate of .7 percent 
for nine months.
            Pay Schedule Parity Initiatives.
    Scheduled Leave Inclusion--$676,000.--Funding of this initiative 
would allow the department to administer provisions of the Fair Labor 
Standard Act in the same manner as other Federal law enforcement 
agencies. Sworn officers would be allowed to count scheduled leave 
toward meeting pay period thresholds for purposes of earning overtime.
    Differential Pay Rates.--Funding for the following differential pay 
rates is requested for sworn officers of the department consistent with 
rates paid under Title 5 of the United States Code for other Federal 
law enforcement agencies:
  --Sunday Pay--$521,000. This amount would be paid to sworn officers 
        working Sunday at a differential rate of 25 percent.
  --Night Differential--$783,000. This differential pay would be 
        administered at a rate of 10 percent.
  --Holiday Pay--$402,000. This amount is requested to fund a holiday 
        pay differential of 100 percent.
Program Type Changes--Workload--$212,000
    New Positions--$212,000. Amount of compensation and related 
benefits to fund three new positions: Two positions are requested to 
staff internal personnel/payroll functions in support of the National 
Finance Center payroll operation. The other position would be assigned 
to the Office of General Counsel in support of administering the 
Congressional Accountability Act.
                        general expenses budget
Fiscal 1997.............................................      $2,782,000
Fiscal 1998.............................................       5,401,000
Increase................................................       2,619,000

    The General Expenses Budget request for fiscal year 1998 is 
$5,401,000. This amount includes a transfer of computer services and 
telecommunications systems from the Office of the Senate Sergeant at 
Arms. The estimate to fund these functions is $2,167,000. It is 
expected that these funds will be used to reimburse the Office of the 
Senate Sergeant at Arms for the maintenance and upgrade of current 
systems.
    The following is an overview of the General Expenses budget by 
object class:



Transportation of Persons

Fiscal 1997.............................................        $250,000
Fiscal 1998.............................................         275,000
Increase................................................          25,000

    This object class includes airfare, car rental, mileage, tolls, per 
diem, and other expenses incidental to official travel by employees of 
the Department. These travel expenses are related to protective 
details, transporting employees to and from the Federal Law Enforcement 
Training Center (FLETC) for recruit and other specialized training, as 
well as other developmental training that is not held at FLETC or in 
the DC area. It also includes costs associated with other travel 
related to official business such as investigations, ceremonial 
functions, competitions, etc.



Transportation of Things

Fiscal 1997.............................................          $5,000
Fiscal 1998.............................................           5,000
Increase................................................................

    This object class includes freight costs incurred when parts, 
uniforms, or materials must be sent to another location (e.g., our 
liaison office at FLETC), when equipment is shipped to a repair 
facility, when items of evidence must be sent to another site for 
analysis or investigation, shipment of household goods for officers 
assigned to FLETC, etc. Funds contained in this object class cover any 
transportation costs except regular mail services and travel and per 
diem costs.



Rent, Communications, and Utilities

Fiscal 1997.............................................       $137,000 
Fiscal 1998.............................................         76,000 
Increase................................................        (61,000)

    This object class provides funds for the lease and rental of 
equipment and services such as law enforcement computer files, 
automated research services, and photocopying machines. It also 
includes funds for U.S. Postage, and commercial long distance telephone 
service. The estimated decrease reflects the recent level of costs for 
these functions.



Other Services

Fiscal 1997.............................................      $1,195,000
Fiscal 1998.............................................       3,666,000
Increase................................................       2,471,000

    This object class includes charges for commodities, whether 
acquired by formal contract or other form of purchase, that are 
ordinarily consumed or expended within one year after they are put into 
use. It contains items such as weapon parts, photographic supplies, K-9 
supplies, automotive maintenance supplies, electronic supplies, office 
supplies, publications, uniforms and accessories, ammunition and 
explosives, and other miscellaneous supplies.
    This object class includes all services not specifically covered by 
any other object class. It encompasses such things as repairs and 
alterations to equipment, maintenance contracts, tuition and 
registration fees for training programs, conferences, seminars, etc., 
uniform alterations, and professional services such as recruit 
physicals, forensic services, stenographic services, veterinary care, 
psychological evaluations, employee assistance program. The request 
also includes continued funding for the NFC conversion of payroll which 
is expected to occur for the House payroll on March 30, 1997.
    The amount of $2,167,000 is requested for reimbursement to the 
Office of the Senate Sergeant at Arms for computer and 
telecommunications services. Funding is also requested for an 
initiative to have the Departmental accounting of the General Expenses 
appropriation performed via cross-servicing by another agency. The 
amount of $175,000 is included in this object class for the biennial 
promotion exam.



Supplies and Materials

Fiscal 1997.............................................        $938,000
Fiscal 1998.............................................         996,000
Increase................................................          58,000

    This object class includes charges for commodities, whether 
acquired by formal contract or other form of purchase, that are 
ordinarily consumed or expended within one year after they are put into 
use. It contains items such as weapon parts, photographic supplies, K-9 
supplies, automotive maintenance supplies, electronic supplies, office 
supplies, publications, uniforms and accessories, ammunition and 
explosives, and other miscellaneous supplies.



Capital Assets

Fiscal 1997.............................................        $257,000
Fiscal 1998.............................................         383,000
Increase................................................         126,000

    This object class provides for the purchase of equipment that has a 
normal life expectancy of a year or more after being put into use, 
without material impairment of its physical condition, and has a unit 
cost of at least one hundred dollars. Included in this object class are 
weapons, vehicles, photographic equipment, automotive maintenance 
equipment, electronic equipment, investigative equipment, etc. The 
increase includes $97,000 to restore the budget for vehicle 
replacements which was reduced in fiscal year 1997.

                                                  SCHEDULE 3--JOINT--BY APPROPRIATION AND OBJECT CLASS                                                  
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 1996 actual      Fiscal year 1997          Fiscal year 1998         Net change 1997/98   
                                                 --------------------------         estimate                  estimate         -------------------------
                                                                           ----------------------------------------------------                         
                                                     Staff        Amount       Staff        Amount       Staff        Amount       Staff        Amount  
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Appropriation: U.S. Capitol Police:                                                                                                        
    Salaries:                                                                                                                                           
        House...................................          637      $34,213          637      $33,437          637      $35,507  ...........       $2,070
        Senate..................................          662       35,919          662       35,919          665       38,428            3        2,509
                                                 -------------------------------------------------------------------------------------------------------
          Subtotal..............................        1,299       70,132        1,299       69,356        1,302       73,935            3        4,579
    Rescission (Public Law 104-208).............  ...........        3,000  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total Salaries............................        1,299       67,132        1,299       69,356        1,302       73,935  ...........        4,579
                                                 =======================================================================================================
    General Expenses............................  ...........        2,560  ...........        2,782  ...........        5,401  ...........        2,619
                                                 =======================================================================================================
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...................  ...........       54,314  ...........       56,378  ...........       60,456  ...........        4,078
    12 Personnel Benefits.......................  ...........       12,818  ...........       12,978  ...........       13,479  ...........          501
    21 Transportation of Persons................  ...........          250  ...........          250  ...........          275  ...........           25
    22 Transportation of Things.................  ...........            5  ...........            5  ...........            5  ...........  ...........
    23 Rent Comm., and Utilities................  ...........          137  ...........          137  ...........           76  ...........          -61
    25 Other Services...........................  ...........        1,070  ...........        1,195  ...........        3,666  ...........        2,471
    26 Supplies and Materials...................  ...........          938  ...........          938  ...........          996  ...........           58
    31 Capital Assets...........................  ...........          160  ...........          257  ...........          383  ...........          126
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................  ...........       69,692  ...........       72,138  ...........       79,336  ...........        7,198
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                  SCHEDULE B--JOINT--ANALYSIS OF CHANGE TO BUDGET BASE BY ORGANIZATION AND OBJECT CLASS                                 
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Mandatory pay and                               Program Type Changes                                Net total changes
                                     related costs   ---------------------------------------------------------------------------------------------------
                                 --------------------     Price level         Legislation          Workload           Equipment,                        
                                                            changes      ----------------------------------------    alterations,                       
                                                     --------------------                                            maintenance,                       
                                    Staff    Amount                                                                  repairs, etc.      Staff    Amount 
                                                        Staff    Amount     Staff    Amount     Staff    Amount  --------------------                   
                                                                                                                    Staff    Amount                     
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...  ........    $3,905  ........  ........  ........  ........         3      $173  ........  ........  ........    $4,078
    12 Personnel Benefits.......  ........       462  ........  ........  ........  ........  ........        39  ........  ........  ........       501
    21 Transportation of Persons  ........  ........  ........  ........  ........  ........  ........        25  ........  ........  ........        25
    22 Transportation of Things.  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    23 Rent, Comm., and                                                                                                                                 
     Utilities..................  ........  ........  ........  ........  ........  ........  ........       -61  ........  ........  ........       -61
    25 Other Services...........  ........  ........  ........  ........  ........  ........  ........     2,371  ........      $100  ........     2,471
    26 Supplies and Materials...  ........  ........  ........       $58  ........  ........  ........  ........  ........  ........  ........        58
    31 Equipment................  ........  ........  ........  ........  ........  ........  ........  ........  ........       126  ........       126
                                 -----------------------------------------------------------------------------------------------------------------------
      Total.....................  ........     4,367  ........        58  ........  ........         3     2,547  ........       226  ........     7,198
--------------------------------------------------------------------------------------------------------------------------------------------------------


     SCHEDULE C--JOINT--DETAILED ANALYSIS OF CHANGE BY ORGANIZATION     
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                               Calculation of Base      
                                        --------------------------------
                                              Staff           Amount    
------------------------------------------------------------------------
Appropriation, 1997....................           1,299         $69,356 
Budget Base, 1997......................           1,299          69,356 
                                        --------------------------------
          Adjustments to Base                                           
(1)1998 Request                                                         
                                        --------------------------------
Mandatory Pay and Related Costs:                                        
    Federal Employees Retirement System                                 
     (FERS), CSRS and Health Benefits..  ..............             462 
    Projected fiscal year 1998 COLA....  ..............           1,201 
    Annualization of fiscal year 1997                                   
     COLA..............................  ..............             316 
    1998 Comparability Pay Increase....  ..............             267 
    Capitol Police Board Pay                                            
     Initiative:                                                        
        Scheduled Leave Toward                                          
         Threshold.....................  ..............             676 
        Night Differential.............  ..............             783 
        Sunday Pay.....................  ..............             521 
        Holiday Pay....................  ..............             402 
    Estimated Lapse/FLETC Classes......  ..............            (261)
Price Level Changes....................  ..............  ...............
Program Type Changes...................  ..............  ...............
    Legislation........................  ..............  ...............
    Workload: Personnel Compensation                                    
     and Benefits......................               3             212 
    Equipment..........................  ..............  ...............
Net Increase/Decrease Requested........               3           4,579 
                                        --------------------------------
      Total Appropriation Request, 1998  ..............          73,935 
------------------------------------------------------------------------


 SCHEDULE D--JOINT (SALARIES)--SUMMARY OF AGENCY FISCAL YEAR 1998 BUDGET
                                 REQUEST                                
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................           1,299     \1\ $69,356
Budget Base, 1997.......................           1,299      \1\ 69,356
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............           4,367
    Price Level Changes.................  ..............  ..............
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................               3             212
        Equipment.......................  ..............  ..............
                                         -------------------------------
          Total Proposed Changes........               3           4,579
                                         ===============================
          Fiscal year 1998 Budget                                       
           Request......................  ..............          73,935
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $4,000,000 and employee    
  benefits at approximately $13,479,000.                                

 explanation of change--fiscal year 1998 to accompany schedule d--house
                          adjustments to base
Mandatory Pay and Related Costs--$2,070,000
    Retirement System and Health Benefits--$174,000. The increase is 
requested commensurate with other increases in personnel compensation.
    Projected fiscal year 1998 COLA--$576,000. The projected COLA is 
2.8 percent for nine months (2.1 percent).
    Annualization of the fiscal year 1997 COLA--$153,000. This amount 
is estimated on the basis of 2.3 percent for three months.
    Fiscal year 1997 Comparability Pay Increase--$126,000. This 
increase is requested to provide USCP officers with a comparability 
increase similar to that received by other Federal law enforcement 
officers. The projected increase is .7 percent for nine months (.53 
percent).
    Estimated Employment Lapse--($103,000). This amount is estimated to 
lapse due to the scheduling of FLETC classes and the vacancies that 
accrue prior to the hiring of classes.
    Scheduled Leave Inclusion--$325,000. This amount is requested to 
allow the Department to administer the FLSA in the same manner as other 
Federal law enforcement agencies by allowing scheduled leave to be 
counted toward meeting pay period thresholds for purposes of overtime.
    Differential Pay Rates:
  --Sunday Pay--$250,000. This amount would fund a differential rate of 
        25 percent for officers that work on Sunday.
  --Night Differential--$376,000. This amount would provide for a night 
        differential at rates between 7.5 and 10 percent.
  --Holiday Pay--$193,000. This amount is requested to fund a holiday 
        pay differential of 100 percent.

SCHEDULE D--JOINT (GENERAL EXPENSES)--SUMMARY OF AGENCY FISCAL YEAR 1998
                             BUDGET REQUEST                             
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............          $2,782
Budget Base, 1997.......................  ..............           2,782
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............  ..............
    Price Level Changes.................  ..............              58
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................  ..............           2,335
        Equipment.......................  ..............             226
                                         -------------------------------
          Total Proposed Changes........  ..............           2,619
                                         ===============================
          Fiscal year 1998 Budget                                       
           Request......................  ..............           5,401
------------------------------------------------------------------------


SCHEDULE D1--HOUSE (SALARIES)--SUMMARY OF AGENCY FISCAL YEAR 1998 BUDGET
                                 REQUEST                                
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............     \1\ $33,437
Budget Base, 1997.......................  ..............      \1\ 33,437
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............           2,070
    Price Level Changes.................  ..............  ..............
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................  ..............  ..............
        Equipment.......................  ..............  ..............
                                         -------------------------------
          Total Proposed Changes........  ..............           2,070
                                         ===============================
          Fiscal year 1998 Budget                                       
           Request......................  ..............          35,507
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $6,435,000.                                 


   SCHEDULE D2--SENATE (SALARIES)--SUMMARY OF AGENCY FISCAL YEAR 1998   
                             BUDGET REQUEST                             
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............     \1\ $35,919
Budget Base, 1997.......................  ..............      \1\ 35,919
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............           2,297
    Price Level Changes.................  ..............  ..............
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................               3             212
        Equipment.......................  ..............  ..............
                                         -------------------------------
          Total Proposed Changes........               3           2,509
                                         ===============================
          Fiscal year 1998 Budget                                       
           Request......................  ..............          38,428
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $7,044,000.                                 


                         JOINT PERSONNEL SUMMARY                        
------------------------------------------------------------------------
                                            1996       1997       1998  
                                           Actual    Estimate   Estimate
------------------------------------------------------------------------
Chief..................................          1          1          1
Assistant Chief........................          1          1          1
Deputy Chief...........................          3          3          3
Inspector..............................          8          8          8
Captain................................         15         15         15
Lieutenant.............................         37         37         37
Sergeant/Special Tech..................        148        148        148
Detective..............................         47         47         47
Technician/K-9.........................         50         50         50
Officer................................        783        783        783
Non-Sworn Personnel....................        206        206        209
                                        ================================
Average salary/FTE \1\.................    $40,285    $41,615    $42,863
Number of FTE's........................      1,226      1,256      1,259
Number of FTE's authorized.............      1,299      1,299      1,302
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $4,000,000 and employee    
  benefits at approximately $13,479,000.                                


                                                  SCHEDULE A--HOUSE--BY APPROPRIATION AND OBJECT CLASS                                                  
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 1996 actual      Fiscal year 1997          Fiscal year 1998         Net change 1997/98   
                                                 --------------------------         estimate                  estimate         -------------------------
                                                                           ----------------------------------------------------                         
                                                     Staff        Amount       Staff        Amount       Staff        Amount       Staff        Amount  
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Appropriation: U.S. Capitol Police:                                                                                                        
    Salaries:                                                                                                                                           
        House...................................          637      $34,213          637      $33,437          637      $35,507  ...........       $2,070
        Rescission (Public Law 104-208).........  ...........        2,200  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
          Subtotal..............................          637       32,013          637       33,437          637       35,507  ...........        2,070
                                                 =======================================================================================================
    General Expenses............................  ...........        2,560  ...........        2,782  ...........        5,401  ...........        2,619
                                                 =======================================================================================================
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...................  ...........       25,959  ...........       27,176  ...........       29,072  ...........        1,896
    12 Personnel Benefits.......................  ...........        6,079  ...........        6,261  ...........        6,435  ...........          174
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................  ...........       32,038  ...........       33,437  ...........       35,507  ...........        2,070
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                  SCHEDULE B--HOUSE--ANALYSIS OF CHANGE TO BUDGET BASE BY ORGANIZATION AND OBJECT CLASS                                 
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Mandatory pay and                               Program Type Changes                                Net total changes
                                     related costs   ---------------------------------------------------------------------------------------------------
                                 --------------------     Price level         Legislation          Workload           Equipment,                        
                                                            changes      ----------------------------------------    alterations,                       
                                                     --------------------                                            maintenance,                       
                                    Staff    Amount                                                                  repairs, etc.      Staff    Amount 
                                                        Staff    Amount     Staff    Amount     Staff    Amount  --------------------                   
                                                                                                                    Staff    Amount                     
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...  ........    $1,896  ........  ........  ........  ........  ........  ........  ........  ........  ........    $1,896
    12 Personnel Benefits.......  ........       174  ........  ........  ........  ........  ........  ........  ........  ........  ........       174
    21 Transportation of Persons  ........  ........  ........  ........  ........  ........  ........       $25  ........  ........  ........        25
    22 Transportation of Things.  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    23 Rent, Comm., and                                                                                                                                 
     Utilities..................  ........  ........  ........  ........  ........  ........  ........       -61  ........  ........  ........       -61
    25 Other Services...........  ........  ........  ........  ........  ........  ........  ........     2,371  ........      $100  ........     2,471
    26 Supplies and Materials...  ........  ........  ........  ........  ........  ........  ........        58  ........  ........  ........        58
    31 Equipment................  ........  ........  ........  ........  ........  ........  ........  ........  ........       126  ........       126
                                 -----------------------------------------------------------------------------------------------------------------------
      Total.....................  ........     2,070  ........  ........  ........  ........  ........     2,393  ........       226  ........     4,689
--------------------------------------------------------------------------------------------------------------------------------------------------------


     SCHEDULE C--HOUSE--DETAILED ANALYSIS OF CHANGE BY ORGANIZATION     
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                               Calculation of Base      
                                        --------------------------------
                                              Staff           Amount    
------------------------------------------------------------------------
Appropriation, 1997....................             637         $33,437 
Budget Base, 1997......................             637          33,437 
                                        --------------------------------
          Adjustments to Base                                           
(1)1998 Request                                                         
                                        --------------------------------
Mandatory Pay and Related Costs:                                        
    Federal Employees Retirement System                                 
     (FERS), CSRS and Health Benefits..  ..............             174 
    Projected fiscal year 1998 COLA....  ..............             576 
    Annualization of fiscal year 1997                                   
     COLA..............................  ..............             153 
    1998 Comparability Pay Increase....  ..............             126 
    Capitol Police Board Pay                                            
     Initiative:                                                        
        Scheduled Leave Toward                                          
         Threshold.....................  ..............             325 
        Night Differential.............  ..............             376 
        Sunday Pay.....................  ..............             250 
        Holiday Pay....................  ..............             193 
    Estimated Lapse/FLETC Classes......  ..............            (103)
Price Level Changes....................  ..............  ...............
    Program Type Changes:                                               
        Legislation....................  ..............  ...............
        Workload: Personnel                                             
         Compensation and Benefits.....  ..............  ...............
        Equipment......................  ..............  ...............
Net Increase/Decrease Requested........  ..............           2,070 
                                        --------------------------------
      Total Appropriation Request, 1998  ..............          35,507 
------------------------------------------------------------------------


SCHEDULE D1--HOUSE (SALARIES)--SUMMARY OF AGENCY FISCAL YEAR 1998 BUDGET
                                 REQUEST                                
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............     \1\ $33,437
Budget Base, 1997.......................  ..............      \1\ 33,437
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............           2,070
    Price Level Changes.................  ..............  ..............
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................  ..............  ..............
        Equipment.......................  ..............  ..............
                                         -------------------------------
          Total Proposed Changes........  ..............           2,070
                                         -------------------------------
          Fiscal year 1998 Budget                                       
           Request......................  ..............          35,507
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $6,435,000.                                 


                         HOUSE PERSONNEL SUMMARY                        
------------------------------------------------------------------------
                                            1996       1997       1998  
                                           Actual    Estimate   Estimate
------------------------------------------------------------------------
Chief..................................          1          1          1
Assistant Chief........................  .........  .........  .........
Deputy Chief...........................          2          2          2
Inspector..............................          4          4          4
Captain................................          8          8          8
Lieutenant.............................         20         20         20
Sergeant/Special Tech..................         81         81         81
Detective..............................         21         21         21
Technician/K-9.........................         23         23         23
Officer................................        353        353        353
Non-Sworn Personnel....................        124        124        124
                                        ================================
Average salary/FTE \1\.................    $40,608    $41,948    $43,206
Number of FTE's........................        584        600        601
Number of FTE's authorized.............        637        637        637
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $6,435,000.                                 


                                            SCHEDULE A--SENATE (SALARIES)--BY APPROPRIATION AND OBJECT CLASS                                            
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 1996 actual      Fiscal year 1997          Fiscal year 1998         Net change 1997/98   
                                                 --------------------------         estimate                  estimate         -------------------------
                                                                           ----------------------------------------------------                         
                                                     Staff        Amount       Staff        Amount       Staff        Amount       Staff        Amount  
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Appropriation: U.S. Capitol Police:                                                                                                        
    Salaries:                                                                                                                                           
        Senate..................................  ...........      $35,919  ...........      $35,919  ...........      $38,428  ...........       $2,509
        Rescission (Public Law 104-208).........  ...........          800  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
          Subtotal..............................  ...........       35,119  ...........       35,919  ...........       38,428  ...........        2,509
                                                 =======================================================================================================
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...................  ...........       28,355  ...........       29,202  ...........   \1\ 31,384  ...........        2,182
    12 Personnel Benefits.......................  ...........        6,739  ...........        6,717  ...........        7,044  ...........          327
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................  ...........       35,094  ...........       35,919  ...........       38,428  ...........        2,509
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Personnel Compensation in fiscal year 1998 reflects overtime estimate of $2,000,000.                                                                


                                 SCHEDULE B--SENATE--ANALYSIS OF CHANGE TO BUDGET BASE BY ORGANIZATION AND OBJECT CLASS                                 
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Mandatory pay and                               Program Type Changes                                Net total changes
                                     related costs   ---------------------------------------------------------------------------------------------------
                                 --------------------     Price level         Legislation          Workload           Equipment,                        
                                                            changes      ----------------------------------------    alterations,                       
                                                     --------------------                                            maintenance,                       
                                    Staff    Amount                                                                  repairs, etc.      Staff    Amount 
                                                        Staff    Amount     Staff    Amount     Staff    Amount  --------------------                   
                                                                                                                    Staff    Amount                     
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...  ........    $2,009  ........  ........  ........  ........         3      $173  ........  ........  ........    $2,182
    12 Personnel Benefits.......  ........       288  ........  ........  ........  ........  ........        39  ........  ........  ........       327
    21 Transportation of Persons  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    22 Transportation of Things.  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    23 Rent, Comm., and                                                                                                                                 
     Utilities..................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    25 Other Services...........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    26 Supplies and Materials...  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    31 Equipment................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
                                 -----------------------------------------------------------------------------------------------------------------------
      Total.....................  ........     2,297  ........  ........  ........  ........         3       212  ........  ........  ........     2,509
--------------------------------------------------------------------------------------------------------------------------------------------------------


     SCHEDULE C--SENATE--DETAILED ANALYSIS OF CHANGE BY ORGANIZATION    
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                               Calculation of Base      
                                        --------------------------------
                                              Staff           Amount    
------------------------------------------------------------------------
Appropriation, 1997....................             662         $35,919 
Budget Base, 1997......................             662          35,919 
                                        --------------------------------
          Adjustments to Base                                           
(1)1998 Request                                                         
                                        --------------------------------
Mandatory Pay and Related Costs:                                        
    Federal Employees Retirement System                                 
     (FERS), CSRS and Health Benefits..  ..............             288 
    Projected fiscal year 1998 COLA....  ..............             625 
    Annualization of fiscal year 1997                                   
     COLA..............................  ..............             163 
    1998 Comparability Pay Increase....  ..............             141 
    Capitol Police Board Pay                                            
     Initiative:                                                        
        Scheduled Leave Toward                                          
         Threshold.....................  ..............             351 
        Night Differential.............  ..............             407 
        Sunday Pay.....................  ..............             271 
        Holiday Pay....................  ..............             209 
    Estimated Lapse/FLETC Classes......  ..............            (158)
Program Type Changes:                                                   
    Legislation........................  ..............  ...............
    Workload: Personnel Compensation                                    
     and Benefits......................               3             212 
    Equipment..........................  ..............  ...............
Net Increase/Decrease Requested........  ..............           2,509 
                                        --------------------------------
      Total Appropriation Request, 1998               3          38,428 
------------------------------------------------------------------------

explanation of change--fiscal year 1998 to accompany schedule d--senate
                          adjustments to base
Mandatory Pay and Related Costs--$2,297,000
    Retirement System and Health Benefits--$288,000. The increase is 
requested commensurate with other increases in personnel compensation.
    Projected fiscal year 1998 COLA--$625,000. The projected COLA is 
2.8 percent for nine months (2.1 percent).
    Annualization of the fiscal year 1997 COLA--$163,000. This amount 
is estimated on the basis of 2.3 percent for three months.
    Fiscal year 1997 Comparability Pay Increase--$141,000. This 
increase is requested to provide USCP officers with a comparability 
increase similar to that received by other Federal law enforcement 
officers. The projected increase is .7 percent for nine months (.53 
percent).
    Estimated Employment Lapse--($158,000). This amount is estimated to 
lapse due to the scheduling of FLETC classes and the vacancies that 
accrue prior to the hiring of classes.
    Scheduled Leave Inclusion--$351,000. This amount is requested to 
allow the Department to administer the FLSA in the same manner as other 
Federal law enforcement agencies by allowing scheduled leave to be 
counted toward meeting pay period thresholds for purposes of overtime.
    Differential Pay Rates:
  --Sunday Pay--$271,000. This amount would fund a differential rate of 
        25 percent for officers that work on Sunday.
  --Night Differential--$407,000. This amount would provide for a night 
        differential at rates between 7.5 and 10 percent.
  --Holiday Pay--$209,000. This amount is requested to fund a holiday 
        pay differential of 100 percent.
    Price Level Changes--$0.
    Program Type Changes:
    Workload--$212,000.
    New Positions--$212,000. Compensation and benefits to fund three 
new positions. Two positions are requested to staff internal payroll/
personnel functions in support of the National Finance Center payroll 
operation. The third position is requested for assignment to the Office 
of General Counsel in support of administering the Congressional 
Accountability Act.

   SCHEDULE D2--SENATE (SALARIES)--SUMMARY OF AGENCY FISCAL YEAR 1998   
                             BUDGET REQUEST                             
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............     \1\ $35,919
Budget Base, 1997.......................  ..............      \1\ 35,919
                                         ===============================
Proposed Changes for fiscal year 1998:                                  
    Mandatory Pay and Related Costs.....  ..............           2,297
    Price Level Changes.................  ..............  ..............
    Program Type Changes:                                               
        Legislation.....................  ..............  ..............
        Workload........................               3             212
        Equipment.......................  ..............  ..............
                                         -------------------------------
          Total Proposed Changes........               3           2,509
                                         -------------------------------
          Fiscal year 1998 Budget                                       
           Request......................  ..............          38,428
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $7,044,000.                                 


                        SENATE PERSONNEL SUMMARY                        
------------------------------------------------------------------------
                                            1996       1997       1998  
                                           Actual    Estimate   Estimate
------------------------------------------------------------------------
Chief..................................  .........  .........  .........
Assistant Chief........................          1          1          1
Deputy Chief...........................          1          1          1
Inspector..............................          4          4          4
Captain................................          7          7          7
Lieutenant.............................         17         17         17
Sergeant/Special Tech..................         67         67         67
Detective..............................         26         26         26
Technician/K-9.........................         27         27         27
Officer................................        430        430        430
Non-Sworn Personnel....................         82         82         85
                                        ================================
Average salary/FTE \1\.................    $40,135    $40,459    $42,703
Number of FTE's........................        642        656        659
Number of FTE's authorized.............        662        662        662
------------------------------------------------------------------------
\1\ Includes overtime currently estimated at $2,000,000 and employee    
  benefits at approximately $7,044,000.                                 


                                         SCHEDULE 3--HOUSE (GENERAL EXPENSES)--BY APPROPRIATION AND OBJECT CLASS                                        
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 1996 actual      Fiscal year 1997          Fiscal year 1998         Net change 1997/98   
                                                 --------------------------         estimate                  estimate         -------------------------
                                                                           ----------------------------------------------------                         
                                                     Staff        Amount       Staff        Amount       Staff        Amount       Staff        Amount  
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Appropriation: U.S. Capitol Police:                                                                                                        
    General Expenses............................  ...........       $2,560  ...........       $2,782  ...........       $5,401  ...........       $2,619
                                                 =======================================================================================================
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
    12 Personnel Benefits.......................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
    21 Transportation of Persons................  ...........          250  ...........          250  ...........          275  ...........           25
    22 Transportation of Things.................  ...........            5  ...........            5  ...........            5  ...........  ...........
    23 Rent Comm., and Utilities................  ...........          137  ...........          137  ...........           76  ...........          -61
    25 Other Services...........................  ...........        1,070  ...........        1,195  ...........        3,666  ...........        2,471
    26 Supplies and Materials...................  ...........          938  ...........          938  ...........          996  ...........           58
    31 Capital Assets...........................  ...........          160  ...........          257  ...........          383  ...........          126
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................  ...........        2,560  ...........        2,782  ...........        5,401  ...........        2,619
--------------------------------------------------------------------------------------------------------------------------------------------------------


                        SCHEDULE B--HOUSE (GENERAL EXPENSES)--ANALYSIS OF CHANGE TO BUDGET BASE BY ORGANIZATION AND OBJECT CLASS                        
                                                            [Amounts in thousands of dollars]                                                           
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Mandatory pay and                               Program Type Changes                                Net total changes
                                     related costs   ---------------------------------------------------------------------------------------------------
                                 --------------------     Price level         Legislation          Workload           Equipment,                        
                                                            changes      ----------------------------------------    alterations,                       
                                                     --------------------                                            maintenance,                       
                                    Staff    Amount                                                                  repairs, etc.      Staff    Amount 
                                                        Staff    Amount     Staff    Amount     Staff    Amount  --------------------                   
                                                                                                                    Staff    Amount                     
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breakdown by Object Class:                                                                                                                              
    11 Personnel Compensation...  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    12 Personnel Benefits.......  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    21 Transportation of Persons  ........  ........  ........  ........  ........  ........  ........       $25  ........  ........  ........       $25
    22 Transportation of Things.  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
    23 Rent, Comm., and                                                                                                                                 
     Utilities..................  ........  ........  ........  ........  ........  ........  ........       -61  ........  ........  ........       -61
    25 Other Services...........  ........  ........  ........  ........  ........  ........  ........     2,371  ........      $100  ........     2,471
    26 Supplies and Materials...  ........  ........  ........       $58  ........  ........  ........  ........  ........  ........  ........        58
    31 Equipment................  ........  ........  ........  ........  ........  ........  ........  ........  ........       126  ........       126
                                 -----------------------------------------------------------------------------------------------------------------------
      Total.....................  ........  ........  ........        58  ........  ........  ........     2,335  ........       226  ........     2,619
--------------------------------------------------------------------------------------------------------------------------------------------------------


  SCHEDULE C--HOUSE (GENERAL EXPENSES)--DETAILED ANALYSIS OF CHANGE BY  
                              ORGANIZATION                              
                    [Amounts in thousands of dollars]                   
------------------------------------------------------------------------
                                                Calculation of Base     
                                         -------------------------------
                                               Staff          Amount    
------------------------------------------------------------------------
Appropriation, 1997.....................  ..............          $2,782
Budget Base.............................  ..............           2,782
                                         -------------------------------
           Adjustments to Base                                          
(1)1998 Request                                                         
                                         -------------------------------
Mandatory Pay and Related Costs.........  ..............  ..............
Price Level Changes: Supplies and                                       
 Materials..............................  ..............              58
Program Type Changes....................  ..............           2,561
    Workload:                                                           
        Transportation of Persons.......  ..............              25
        Rent, Comm., and Utilities......  ..............             -61
        Other Services..................  ..............           2,371
    Equipment, Alterations, Maintenance,                                
     Etc................................  ..............             226
Net Increase Requested..................  ..............           2,619
                                         -------------------------------
      Total Appropriation Request, 1998.  ..............           5,401
------------------------------------------------------------------------

Explanation of change--fiscal year 1998 to accompany Schedule C--General 
expenses

Adjustments to Base:
    Mandatory Pay and Related Costs.....................................
    Price Level Changes.......................................  $58,000 
        Supplies and Materials................................   58,000 
    Program Type Changes......................................2,335,000 
        Transportation of Persons.............................   25,000 
        Rent, Comm., and Utilities............................  (61,000)
        Other Services........................................2,371,000 
    Equipment, Alterations, Maintenance.......................  226,000 
        Other Services........................................  100,000 
        Equipment.............................................  126,000 

                 summary statement of wilson livingood

    Senator Bennett. Let us go on.
    Mr. Livingood. Mr. Chairman, I am Bill Livingood, the House 
Sergeant at Arms, and Mr. Chairman, members of the committee, 
first of all it is an honor to appear before you and discuss 
the fiscal year 1998 budget request for the U.S. Capitol 
Police.
    I would like to join Mr. Casey in welcoming the new 
Architect, Alan Hantman, to the Capitol Police Board. During my 
tenure, which has been 2 years as Sergeant at Arms, I have 
found my service on the board to be both challenging, exciting, 
and rewarding. I know that Mr. Hantman will find this 
experience equally satisfying. The expertise he brings to the 
table I think will provide valuable insight on many board 
decisions.
    I would like to say there is a big change today. The world 
is changing, and the threat that the Capitol Police and the 
Capitol itself encounters, and the Members, is changing. With 
additional training that the Capitol Police has now been 
receiving and will receive additional other training, I feel 
that the Capitol Police is prepared today to meet this 
challenge.
    I would like to say I am really proud of what they have 
done and how they have met this challenge, because in the last 
4 or 5 years it is a different world today, and it is a 
different Capitol Police, and we feel that the Capitol Police 
Board's responsibility was to assure that they had the tools to 
meet this challenge.
    The U.S. Capitol Police is a unique law enforcement agency. 
It is charged with protecting 535 Members of Congress. It is 
charged with protection of their families, congressional staff, 
the visiting public, which has meant astronomical proportions 
this year, a large increase in visiting public, and the 
buildings, comprising the Capitol complex.
    To successfully meet its mission, the department has 
evolved into a full service security agency which also provides 
comprehensive law enforcement and protective operations to the 
legislative branch of Government. The U.S. Capitol Police also 
interacts on an equal basis with agencies that deal in national 
security and intelligence matters.
    Due to the leadership and support of this committee, and 
the dedication and hard work of our personnel, the U.S. Capitol 
Police has made great strides in its operational capabilities. 
The board feels it is now time to focus its efforts on the 
department's internal management mechanisms, as Mr. Casey 
mentioned. In particular, the board will commission review of 
the department's internal accounting, personnel, and 
information management functions to ensure that they are being 
performed in a manner which is consistent with industry 
standards.
    In addition, police post and staffing level study has been 
conducted to ensure that our personnel are deployed in a manner 
which is both operationally effective and fiscally efficient. 
It is hoped that overtime expenditures will be further reduced 
once the results of this study are instituted.
    With regard to personnel issues, it has been the 
longstanding goal of the U.S. Capitol Police Board to ensure 
that the men and women of the U.S. Capitol Police maintain pay 
parity with their counterparts in other law enforcement 
agencies. Therefore, the U.S. Capitol Police fiscal year 1998 
budget submission contains a request to fund two pay 
initiatives, scheduled leave inclusion and differential pay. 
These pay rates are consistent with rates paid for the officers 
of other similar law enforcement agencies. In order for the 
Capitol Police to attract and retain highly qualified officers, 
I feel it is imperative that these initiatives be fully funded.
    I would like to thank the committee for your support of the 
transfer of the physical security responsibilities from the 
Architect of the Capitol to the U.S. Capitol Police, and for 
providing funding for necessary security upgrades recommended 
in the U.S. Capitol Police/Secret Service study. This study 
provided the board with numerous recommendations on how to 
improve security within the Capitol complex.
    I also would like to thank the committee for your 
assistance in providing emergency funding to relocate the U.S. 
Capitol Police K-9 facility to the Architect's facility at Blue 
Plains. This has been a huge improvement. We look forward to 
occupying the former Metropolitan Police Department facility 
this summer, and urge the committee to approve the Architect's 
request to renovate that facility for the department's use.

                           prepared statement

    A detailed budget for the Capitol Police has been submitted 
to the committee, as Mr. Casey mentioned, and we will be happy 
to answer any questions.
    [The statement follows:]

                 Prepared Statement of Wilson Livingood

    Mr. Chairman and members of the Committee, as a member of 
the U.S. Capitol Police Board, it is my honor to appear before 
you to discuss the fiscal year 1998 Budget Request for the U.S. 
Capitol Police.
    I join Mr. Casey in welcoming Mr. Hantman to the U.S. 
Capitol Police Board. During my tenure as House Sergeant at 
Arms, I have found my service on the Board to be both 
challenging and rewarding. I know that Mr. Hantman will find 
the experience equally satisfying. The expertise he brings to 
the table will provide valuable insight on Board decisions.
    The United States Capitol Police is a unique law 
enforcement agency. It is charged with protecting the 535 
Members of Congress and their families, congressional staff, 
the visiting public, and the buildings comprising the Capitol 
complex. To successfully meet its mission, the Department has 
evolved into a full service security agency which also provides 
comprehensive law enforcement and protective operations to the 
Legislative Branch of government. The U.S. Capitol Police also 
interacts on an equal basis with agencies that deal in national 
security and intelligence matters.
    Due to the leadership and support of this Committee, and 
the dedication and hard work of our personnel, the U.S. Capitol 
Police has made great strides in its operational capabilities. 
The Board feels it is now time to focus its efforts on the 
Department's internal management mechanisms. In particular, the 
Board will commission a review of the Department's internal 
accounting, personnel, and information management functions to 
ensure they are being performed in a manner which is consistent 
with industry standards. In addition, a police post and 
staffing level study has been conducted to ensure that our 
personnel are deployed in a manner which is both operationally 
effective and fiscally efficient. It is hoped that overtime 
expenditures will be further reduced once the results of the 
study are instituted.
    With regard to personnel issues, it has been the long-
standing goal of the U.S. Capitol Police Board to ensure that 
the men and women of the U.S. Capitol Police maintain pay 
parity with their counterparts in other law enforcement 
agencies. Therefore, the USCP fiscal year 1998 Budget 
submission contains a request to fund two pay initiatives; 
scheduled leave inclusion and differential pay. These pay rates 
are consistent with rates paid for the officers of other 
similar law enforcement agencies. In order for the U.S. Capitol 
Police to attract and retain highly-qualified officers, I feel 
it is imperative that these initiatives be fully funded.
    I would like to thank the Committee for your support of the 
transfer of the physical security responsibilities from the 
Architect of the Capitol to the U.S. Capitol Police and for 
providing funding for necessary security upgrades recommended 
in the U.S. Capitol Police/U.S. Secret Service study. This 
study provided the Board with numerous recommendations on how 
to improve security within the Capitol Complex.
    I also thank the Committee for your assistance in providing 
emergency funding to relocate the U.S. Capitol Police K-9 
facility to the Architect's facility at Blue Plains. We look 
forward to occupying the former Metropolitan Police facility 
this summer and urge the Committee to approve the Architect's 
request to renovate that facility for the Department's use.
    A detailed budget for the U.S. Capitol Police has been 
submitted to the Committee. I will be happy to answer any 
questions you may have.

                   summary statement of gary abrecht

    Senator Bennett. Thank you very much. Chief, are you next, 
or are you coasting on your statement? [Laughter.]
    Mr. Abrecht. I have a couple of issues I would like to 
address. Last year was a time of operational growth for the 
department due to the lessons learned from the sarin gas attack 
which occurred in the Tokyo subway system. We developed a whole 
chemical and biological response capability for the Capitol 
complex. This capability complements the exemplary explosive 
device detection and disposal ability that the department has 
maintained since 1971.
    In addition, as Mr. Casey mentioned, we have expanded our 
protective intelligence capability. We now routinely exchange 
information which impacts on the security of the Capitol 
complex and Congress with other national security and 
intelligence organizations. These increased operational and 
intelligence exchange capabilities have significantly enhanced 
our ability to deter, interdict, or respond to acts of violence 
directed against the Congress and those who work and visit in 
the Capitol complex.
    You will recall that last year I reported that threats 
against Members of Congress nearly doubled from the year 
before. I am pleased to report that cases this year have 
decreased from last year's peak, although the number of threat 
cases is still above the average for the previous year.
    Compared with the previous 12 month period, the 
department's threat assessment section has recorded a 33-
percent decrease in direct threats against Members of Congress. 
Implied threats have also decreased, while direction of 
interest cases have significantly increased. We continue to 
diligently investigate each case that is brought to our 
attention, and work closely with other law enforcement agencies 
to successfully resolve those cases.
    The crime situation in the Washington area and in the city 
in particular has been of concern in recent months, so we have 
been particularly diligent in looking out for the safety of the 
public, Members, and the staff in our area of jurisdiction, and 
I am pleased to report that crimes against persons within the 
Capitol complex continue to decline.
    Last year, within our primary jurisdiction, crimes against 
persons dropped by 8 percent. This year, such crime decreased 
again by 33 percent, and there were only 16 reported incidents 
for the entire year of crimes against persons on the Capitol 
Grounds. This figure is remarkable, when one considers the 
millions of people who visited or traveled through the 
buildings, streets, and parks of the Capitol complex last year.
    Property crimes also decreased by 29 percent compared to 
the previous 12 month period. Unfortunately, in the area 
surrounding the Capitol complex which comprises the extended 
jurisdiction zone, 731 crimes against persons and 3,124 
property crimes were reported. I am fairly proud that our 
patrol and enforcement efforts deter this level of criminal 
activity from occurring within the Capitol complex itself.
    As both the Sergeants at Arms have mentioned, this year's 
budget request contains a pay initiative which is intended to 
assure that the salaries and benefits that Congress provides 
for the men and women of the U.S. Capitol Police remain 
comparable to those which are provided to their counterparts in 
other similar Federal law enforcement agencies.
    Aside from the issue of fairness, this initiative will 
ensure that the department will continue to improve and retain 
the highly qualified officers we need to effectively perform 
our mission.
    The issue of attracting the best possible officer 
candidates has become even more critical due to the 
increasingly complex and technical nature of our mission. 
Therefore, I urge the committee to support this request, and 
provide funding to institute these pay initiatives. I think 
both Mr. Casey and Mr. Livingood have mentioned the physical 
security initiative and the progress we are making on that, and 
I think I will coast, as you say, on their statement in that 
regard.
    They also both made mention of the fact that while our 
operational capabilities have increased--we reduced crime, 
increased training, and improved our response capabilities--
that there is some work needed in our administrative 
operations.
    As Mr. Livingood mentioned, we have conducted an extensive 
review of every post, to include staffing levels and the hours 
each post is required to be staffed in order to determine if 
our personnel can be redeployed. The results are now being 
compiled and analyzed, and I expect to make some 
recommendations to the Capitol Police Board in June which, if 
they prove acceptable, could result in reduced police post 
staffing costs without affecting security.
    We are also reviewing staffing of our support and 
administrative positions to see if there are additional 
reductions that could be made there.
    The second initiative consists of a management review of 
our internal accounting and information management systems. The 
weakness of our administrative infrastructure were highlighted 
by the onset of the Congressional Accountability Act. As an 
example, our antiquated mainframe custom-designed time and 
attendance system cannot be successfully reprogrammed to handle 
the accounting requirements imposed by the Fair Labor Standards 
Act.
    Despite a year's worth of effort, we have been unsuccessful 
in making that work in a streamlined fashion for us. For that 
reason, we have had great difficulties in providing accurate 
overtime reports and reconciling pay issues, and I am delighted 
the board has sought to provide assistance by commissioning an 
administrative systems and information management review. It is 
hoped that once this review is completed the department will 
have state-of-the-art systems in place to support the officers 
in the field.
    As directed by the committee last year, we have included 
amounts for reimbursing the Senate Sergeant at Arms for 
computer and telecommunications services in our budget. I would 
just like to point out that should these amounts not be 
approved, they will need to be restored to the Senate Sergeant 
at Arms budget, since obviously data processing and 
telecommunications are the lifeblood of any police agency, and 
without that we would just cease to be effective.
    Mr. Casey. And they are out of our budget, Mr. Chairman.
    Mr. Abrecht. In closing, I would like to again thank the 
committee for the appropriation you provided to relocate our K-
9 operation to the Architect's facility at Blue Plains. These 
dogs are an important, vital element of the department's 
security operations, and we take great pride in running the top 
explosives detection K-9 program in the country. In fact, just 
2 weeks ago, Officer George Lyter and his dog Maik took first 
place at the U.S. Police Canine Association's national trials 
in St. Paul, MN, in the explosive detection area.

                           prepared statement

    It is essential that our K-9's be well cared for and 
provided with adequate kenneling and training facilities so 
that we can continue to provide the highest quality and most 
effective service. This summer we will move into the 
Metropolitan Police K-9 building. This building is currently in 
a state of disrepair. Therefore, I hope the committee approves 
the Architect's request to renovate this facility for the 
department's use.
    I will be happy to answer any questions you have.
    [The statement follows:]

                 Prepared Statement of Gary L. Abrecht

    Mr. Chairman and members of the Committee, I am honored to 
appear before you to discuss the fiscal year 1998 Budget 
Request for the United States Capitol Police.
    Last year was a time of operational growth for the United 
States Capitol Police. Due to the lessons learned from the 
sarin gas attack which occurred in the Tokyo subway, we have 
developed a chemical/biological incident response capability 
for the Capitol complex. This capability complements the 
exemplary explosive device detection and disposal ability the 
Department has maintained since 1971. In addition, we have 
expanded our protective intelligence capabilities. We routinely 
exchange information which impacts on the security of the 
United States Congress with other national security and 
intelligence agencies. These increased operational and 
intelligence exchange capabilities have significantly enhanced 
our ability to deter, interdict, or respond to acts of violence 
directed at the Congress and those who work and visit within 
the Capitol complex.
    You will recall that last year I reported that threats 
against Members of Congress nearly doubled from the year 
before. I am pleased to report that cases this year have 
decreased from last year's peak, although the number of threat 
cases is still above the average for previous years. Compared 
with the previous twelve month period, the Department's Threat 
Assessment Section has recorded a 33 percent decrease in direct 
threats to physically harm Members of Congress. Implied threats 
have also decreased while direction-of-interest cases have 
significantly increased. We continue to diligently investigate 
each case that is brought to our attention and work closely 
with other law enforcement agencies to successfully resolve 
these cases.
    The crime situation in the Washington area, and in the city 
in particular, has been of concern in recent months, so we have 
been particularly diligent in looking out for the safety of the 
public, Members, and staff in our area of jurisdiction, and I 
am pleased to report that crimes against persons within the 
Capitol complex continue to decline. Last year within our 
primary jurisdiction, crimes against persons dropped by 8 
percent. This year, such crimes decreased again by 33 percent 
for a total of only 16 reported incidents for the entire year. 
This figure is remarkable when one considers the millions of 
people who visited or travelled through the buildings, streets, 
and parks of the Capitol complex last year. Property crimes 
also decreased by 29 percent compared to the previous twelve 
month period. In the area surrounding the Capitol complex which 
comprises the Extended Jurisdiction Zone, 731 crimes against 
persons and 3,124 property crimes were reported. I feel that 
our patrol and enforcement efforts deter this level of criminal 
activity from occurring within the Capitol complex.
    This year's budget request contains a pay initiative which 
is intended to ensure that the salaries and benefits the 
Congress provides to the men and women of the U.S. Capitol 
Police remain comparable to those which are provided to their 
counterparts in other similar federal law enforcement agencies. 
Aside from the issue of fairness, this initiative will ensure 
that the Department can continue to recruit and retain the 
highly qualified officers we need to effectively perform our 
mission. The issue of attracting the best possible officer 
candidate has become even more critical due to the increasing 
complexity and technical nature of our mission. Therefore, I 
urge the Committee to support this request and provide funding 
to institute these pay initiatives.
    As a result of the leadership and support of the Committee, 
the responsibility for the physical security systems within the 
Capitol complex has been transferred from the Architect of the 
Capitol to the new Capitol Police Physical Security Division. I 
appreciate the Committee's recent approval of Phase One of our 
system design and installation plan. Once the installation is 
completed, all of the security systems will be state-of-the-art 
and completely integrated. This means that the systems will be 
more easily maintained and police operations and alarm response 
will be streamlined and improved. The installation of these 
systems is a significant advance in the security of the 
Congressional community. I thank the Committee for your support 
of the project and I am confident you will be pleased with the 
results.
    Over the past several years, the Department has made great 
strides in our operational capabilities. We have reduced crime, 
increased training, improved our response capabilities, 
addressed new threats, and as I have just stated, we are in the 
process of making vast improvements in the physical security 
systems. Now it is time for us to look inward and identify 
areas in our administrative infrastructure where improvements 
can be made and fiscal savings realized. We are pursuing two 
initiatives to attain this goal. First, we have conducted an 
exhaustive review of every police post to include staffing 
levels and the hours each post is required to be staffed in 
order to determine if our personnel can be redeployed. The 
results are now being compiled and analyzed and I expect to 
make some recommendations to the U.S. Capitol Police Board in 
June, which if they prove acceptable, could result in reduced 
police post staffing costs without affecting security. 
Furthermore, we are also reviewing staffing of support and 
administrative positions to seek additional reductions.
    The second initiative consists of a management review of 
our internal accounting and information management systems. The 
weaknesses of our administrative infrastructure were 
highlighted by the onset of the Congressional Accountability 
Act. Our antiquated, mainframe, custom-designed Time and 
Attendance System cannot be successfully reprogrammed to handle 
the accounting requirements imposed by the Fair Labor Standards 
Act. Therefore, we have great difficulties in providing 
accurate overtime reports and reconciling pay issues. I am 
delighted that the Board sought to provide assistance by 
commissioning an administrative systems and information 
management review. It is hoped that once the review is 
completed, the Department will have state-of-the-art systems in 
place to support the officers in the field.
    As directed by this Committee last year, we have included 
amounts for reimbursing the Senate Sergeant at Arms for 
computer and telecommunications services. I would like to point 
out that should these amounts not be approved, they will need 
to be restored to the Sergeant at Arms' fiscal year 1998 
budget.
    In closing, I would like to thank the Committee for the 
appropriation you provided to relocate our K-9 operations to 
the Architect's Blue Plains facility. These dogs are an 
important element of the Department's security operations and 
we take great pride in running the top explosives detection 
canine program in the country. In fact, just two weeks ago 
Officer George Lyter and his dog Maik took first place at the 
United States Police Canine Association national trials in St. 
Paul, Minnesota. It is essential that our canines be well cared 
for and provided with adequate kenneling and training 
facilities so that we can continue to provide the highest 
quality and most effective level of service. This summer, we 
will move into the Metropolitan Police K-9 building. This 
building is currently in a state of disrepair. Therefore, I 
hope the Committee approves the Architect's request to renovate 
this facility for the Department's use.
    I will be happy to answer any questions you may have.

    Senator Bennett. Thank you. Mr. Hantman, do you have a 
statement?
    Mr. Hantman. I am basically here in support of the others. 
At my confirmation hearing Senator Warner recommended I be 
greatly involved in any considerations on security as it 
relates to accessibility of the Capitol.
    It is a very delicate operation we are involved with, and 
we need to guarantee the security, but yet not be a closed 
facility to the public and to the visitors. The overall 
reevaluation of security on Capitol Hill is a critical one, and 
we are cooperating very well in terms of the Sergeant at Arms 
in both the Senate and the House.
    We will take a serious look at what is happening in 
security and how we can improve it and still make it compatible 
with the historic nature of the Capitol of our country. It is a 
real challenge. I welcome it, and I would like to be part of 
this board and I think we will serve the Capitol well.
    Senator Bennett. Thank you. Senator Dorgan, do you have a 
statement?
    Senator Dorgan. Mr. Chairman, I regret I was late. My 
schedule said 10:30. In any event, I have read the statements 
and appreciate the testimony.

                          upgrading Computers

    Senator Bennett. Let me ask a few quick questions, and 
Senator Craig, can I ask you to Chair between 10:30 and 10:35, 
if you would?
    Senator Craig. Yes.
    Senator Bennett. Thank you. I have a 5-minute assignment I 
need to leave for.
    I recognize the need to update your computers and technical 
assistance. Have you looked far enough ahead in your planning 
to be able to speculate, or put a tougher word on it, that 
expenditures in this area will go down once you have acquired 
the equipment necessary, or are we looking for an ongoing level 
of increased activity in this area, and I do not ask that with 
any loaded intent. I just want to be forewarned as to where we 
would go in years to come with this.
    Mr. Casey. I will go ahead and speculate. One of the 
reasons that including the resources in the Sergeant at Arms 
budget back in the police budget is to give the police the 
resources rather than relying on somebody else to begin 
managing in the way they see fit, rather than coming to us as 
sort of a forced client of ours and accepting what we give 
them.
    What we are hoping happens, and, in fact, in our 
preliminary discussion we are hoping happens, is that they now 
have these resources. They can begin to better utilize those 
resources to accomplish what they want to get done. I believe 
that the amount we have in there is more than sufficient, and 
they should probably go down thereafter.
    Senator Bennett. How much of this is for acquisition of 
hardware and how much is for new programming of software 
techniques?
    Mr. Abrecht. About $1 million of the $2 million is for 
hardware acquisition to replace the work stations which are 
486/33's at the present time, and there is quite a lot of other 
hardware acquisition in there. I would say about three-quarters 
at the present time is for hardware acquisition and about one-
quarter of it is software and software support.
    Senator Bennett. So presumably the hardware will last more 
than 1 year.
    Mr. Abrecht. Yes, sir.
    Senator Bennett. Although in this fast-changing environment 
you can never be sure.
    Mr. Abrecht. Certainly more than 1 year, but there seems to 
be a trend that these things have a life cycle of 3 or 4 years.
    Senator Bennett. This is a very tiny nit-pick because the 
amount of money is so small in Federal terms that it is almost 
not worth raising, and I raise it solely because it might 
indicate a management issue.

                       Transportation of persons

    Your request for transportation of persons includes an 
increase of $25,000, and in fiscal 1996 the Capitol Police 
spent $439,360 for transportation of persons, and it strikes me 
that there is again a very small amount of money, but a 
disconnect between what you are requesting and what you are 
actually doing. It appears you are constantly reprogramming 
money into this, and should you not just say that we need 
$400,000, or whatever the number is, instead of these 
unrealistically low figures?
    Mr. Abrecht. I guess we are always hoping they will go back 
down. It is very hard to estimate this because it is 
essentially driven by threats against Members of Congress and 
by CODEL's and substantial committee hearings. Excuse me, not 
CODEL's but committee hearings at remote locations, and so it 
is just very hard for us to figure them.
    We are always hopeful we will not spend as much money as we 
have in the past year, and so basically I am a cheapskate. I 
say, no, we have got to keep these costs down, and so I do not 
look every year to say, well, we will have as bad a year next 
year as we had the last year. Maybe they will go back down to 
the level they were before, and so I have not sought to budget 
for every eventuality.
    This year we just did a very expensive hearing in Puerto 
Rico, and the distance is a long way away. It took a large 
number of people. There were demonstrations of substantial size 
scheduled, and so we incurred a very large expense doing that. 
I hope next year that will not happen, and so I have not just 
given myself a comfort zone of everything that could possibly 
happen.
    It is a problem. These things are not schedulable, and that 
is why we have tended to be on the conservative side, and I 
realize we impose a burden on the committee when we have to ask 
for reprogramming to cover those.
    Senator Bennett. Again, it is not a major item, but it 
raised in my mind the question of management circumstance here.
    With that, I will yield to Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. I am 
told that this is the first time the entire board has appeared 
with the chief at this appropriations hearing, and we 
appreciate that. The board has an excellent reputation, and we 
very much appreciate the work that the force does.
    I would like to ask about the chart behind you. Who brought 
the chart?
    Mr. Abrecht. I did.

                              Jurisdiction

    Senator Dorgan. That is a striking chart, and with that 
chart you described the extended jurisdiction of the Capitol 
Hill Police and the crimes committed within that jurisdiction 
in a 1-year period, is that right?
    Mr. Abrecht. That's right, sir. The red line is the primary 
jurisdiction, the Capitol Grounds, and the green line is the 
extended jurisdiction.
    Senator Dorgan. And the extended jurisdiction, can you 
describe that for me? What does the extended jurisdiction mean?
    Mr. Abrecht. In 1992 the Congress recognized the fact that 
our officers inevitably are off the grounds quite a bit and 
going to take care of various congressional facilities that are 
located off the ground, and there have been some incidents 
where they've been unable to take the police cases that they 
have made out there. They were thrown out of court because we 
did not have jurisdiction. So in 1992 the Congress gave us 
jurisdiction out to this green line in order that our officers 
could be protected from civil liability and have arrest 
authority within that area when they were out there doing their 
congressional business.
    Senator Craig. You do not normally patrol out to the green 
line?
    Mr. Abrecht. No, sir.
    Senator Craig. You just go out there, as you said, for 
congressional facilities and other targeted activities?
    Mr. Abrecht. That is correct. We do not do a general patrol 
for the deterrence of crime in the green area. We are only 
there for some congressional purpose.
    Senator Dorgan. Do you have a second chart as well?

                            Property crimes

    Mr. Abrecht. Yes; I have the property crimes.
    Senator Craig. Senator, I was just thinking of moving to 
the Hill. [Laughter.]
    I have decided not to. [Laughter.]
    Mr. Abrecht. Do not do that. I have lived on the Hill 
myself for 25 years.
    Senator Dorgan. But I look at these charts and it looks 
like a virtual crime wave in this jurisdiction. I come from a 
town of 300 people, where we had one felony last year, which 
was extraordinary. It was the talk of our county, because we 
have not had a felony for years and years and years, but this 
looks like a virtual crime wave. Is that an isolated year, or 
would you expect that next year?
    Mr. Abrecht. Obviously, we hope next year always will be 
better. The indications are that in the District of Columbia it 
has begun to go back down. It is not unusual for large urban 
areas. If you look at the city as a whole, it is certainly not 
the worst part of the city, but it is a substantial amount of 
crime. It is for an entire year.
    Senator Craig. Is this activity an increase over fiscal 
year 1994? Let us see, this is for--OK.
    Mr. Abrecht. This is the last fiscal year.
    Senator Craig. The fiscal year before, how does it stack 
up? Has it declined?
    Mr. Abrecht. For the Capitol Grounds it is a decline. Let 
me just get you it for the extended jurisdiction. I believe it 
is about the same as my recollection.
    Senator Dorgan. Just adding in my head, it looks as though 
crimes against persons and against property number about 4,000 
crimes on these two charts, which is an extraordinary number of 
crimes in a relatively small part of the city.
    Mr. Abrecht. The vast bulk of that is car break-ins, what 
makes up the huge volume of it, which is the yellow dots on 
this map.
    Senator Dorgan. We view car break-ins as serious in our 
county. [Laughter.]
    Mr. Abrecht. I certainly view them as serious as well, sir. 
It is one of the few crimes we do have to do something about on 
the Capitol Grounds.
    To answer your question, Senator, there was a decrease in 
the extended jurisdiction zone of 4 percent between the last 2 
fiscal years. There had been a substantial increase the 
previous year, so actually 1996 is down 4 percent from 1995, 
which was up substantially from 1994, so that is a trend at the 
present time.
    Senator Dorgan. I appreciate that. I will go on to a couple 
of other questions, but I was just curious about the chart. 
That is the first time I have seen a chart like that, and it is 
staggering to see the amount of crime in the extended 
jurisdiction in 12 months.

                               Pay parity

    You, chief, indicated that there was a need to establish a 
pay parity initiative, and my question would be, with whom 
would the Capitol Police force achieve parity if the initiative 
was funded?
    Mr. Abrecht. The agencies we compare ourselves with 
primarily are the two other Federal uniformed law enforcement 
agencies in town, being the U.S. Park Police and the U.S. 
Secret Service's Uniformed Division, and we also, of course, 
seek to maintain parity with the large suburban police 
departments which are essentially the agencies we compete for 
personnel with. If we lose officers it is typically to either 
the Park Police or the Uniformed Division or the large suburban 
agencies, Montgomery County, Fairfax County, Prince Georges.
    Senator Dorgan. You are asking in the budget for a COLA 
increase as well as comparability increase. Who will receive 
the comparability increase, and how will that be distributed if 
you receive it?
    Mr. Abrecht. The comparability increase is essentially a 
term of art that has come around here to represent what is 
known in the executive branch as locality pay.
    You recall, essentially the Federal Government in its 
wisdom now divides its pay, annual COLA, if you will, into two 
parts, the cost of living, which is national, and a regionally 
based locality pay, and we have essentially called that 
comparability pay for our purposes, and it is essentially the 
same COLA that would be received by all of our people, so it 
would go across the board. Whatever is put in place in the 
Executive Office we would ask the same for our office.
    Senator Dorgan. Well, I want to thank the board for its 
work, and chief, thank you, and say that most of us spend our 
days here not thinking about the work of the law enforcement 
officials of the Capitol, but they do a wonderful job, and we 
need to think more and appreciate more about the work that they 
do for us. We may have other questions about the specifics of 
the budget, but we appreciate your appearance.
    Thank you. Senator.
    Senator Craig [presiding]. Chief, let me also echo what 
Senator Dorgan has just said. I am sitting here looking at 
these charts, and my goodness, I did not realize that I worked 
every day in a virtual war zone. Now, that speaks well for you 
in the sense that I come from an area of the country and a 
community not unlike the Senator's, in which crime in itself is 
still a happening and viewed with alarm, almost any level of 
crime, and so when you see these kinds of figures or portrayals 
you react to them.
    But I must say that working here I do not sense that it is 
the No. 1 terrorist threat or target, although I recognize, 
from your statistics and all the other things you have to deal 
with, that is exactly true because of the character of this 
building and what goes on in it.

         consolidating Library and Supreme Court Police forces

    Let me ask a question about an effort that the board sought 
to undertake last year: to consolidate the Library of Congress 
Police force and the Supreme Court Police with the Capitol 
Police. A one-time cost of the transition was estimated at 
approximately $3.2 million. Has any study been done to 
determine the long-term benefits and cost savings of 
consolidating the forces?
    Mr. Abrecht. When we did the study, and at least one 
previous study, we could not identify any substantial long-term 
cost savings, the reason being that there is essentially no 
post duplication. There is no place where there is a Capitol 
Police officer walking the same place that there is a Library 
officer walking.
    There was one post, the Cannon tunnel. We discovered that 
one, and it was brought to our attention, and we took care of 
it. We worked out an agreement with the Library, and we share 
the work there. There are not two officers there any more. 
Other than that, there is really no overlap in work.
    Another thing we determined was that the Library, maybe you 
would think that there were administrative structures that were 
duplicated, but it turns out all of the administrative work for 
the Library Police is essentially done by their Library 
entities.
    They do not have their own personnel shop, data processing 
shop. All of that is essentially done by the Library's total 
operation, so we could not come up with any substantial cost 
savings in doing this.
    We tried fairly hard, and could come up with no 
duplications that would obviously disappear if we were to take 
over that operation, so it did not look like there was any real 
long-term savings.
    Senator Craig. So that the $3.2 million as a cost of 
transition, is that now a fixed cost in the budget that you 
need annually?
    Mr. Abrecht. It would be a one-time cost. If Congress were 
to decide to do that, and I have not heard any discussion of 
that issue, there would be a one-time cost, a substantial cost 
for training and to replace officers to get them trained up to 
our standard.

                              K-9 facility

    Senator Craig. I see you are getting a new doghouse. Tell 
me about the K-9 facility. Out of pure curiosity, how many dogs 
do you have on the staff?
    Mr. Abrecht. We have 30 dogs. Their primary purpose is bomb 
detection. We had an absolutely horrible facility about 2 years 
ago, and got to the point where the dogs died from a vermin, 
what appeared to be a vermin infestation in the old facility at 
the old Poplar Point Nursery.
    And so after that crisis this committee very generously 
provided some interim funding to put up a temporary facility 
out at Blue Plains, where the Architect has a large warehouse 
and nursery facility, and we moved over there.
    The Metropolitan Police Department was sort of essentially 
squatting on the Architect's facility there, and they finally 
are in the process of building themselves a new facility, after 
which we will take over their facility, which is quite rundown. 
It is going to need a little work, but after that we will have 
a good indoor kennel facility at Blue Plains, and we will be 
able to take care of all of our needs.
    Senator Craig. Well, it is interesting for you to explain 
what role these dogs play. I know we see them quite often. I 
understand why they are around, and also recognize that we have 
maybe one of the best in the country, if not the best. It is 
interesting, and it certainly fits well with the concern about 
the Capitol being the No. 1 target of terrorists, and I suspect 
that a bomb or bombs would be the weapon of choice in most 
instances with terrorists, so it is good to hear about that.
    Mr. Abrecht. Yes; it is a great program. It is not one I 
can say I started. It has been around for about 20 years. They 
have an excellent training, and it is first-rate at the present 
time, and we are going to work to keep it that way.
    Senator Craig. Thank you very much, Mr. Chairman.
    Senator Bennett [presiding]. Senator Stevens, do you have 
any questions?

                                 Bombs

    Senator Stevens. I only have one question, thank you. 
During my watch as whip we had two bombs, and I have been very 
concerned about bombs and various things. We have talked about 
the general problem of overall readiness for terrorist-type 
activities.
    One of the things that always sticks in my mind was that 
bomb upstairs was placed there because someone had studied the 
routine. It was about 8 minutes after the change of personnel, 
and personnel were a little late in getting there. They did not 
overlap. There was a gap at the time that bomb was placed 
there.
    But do we have some sort of instruction to our people about 
how to deal with routine--I mean, if everybody is at the same 
place every day, and they know exactly where you are going to 
be and who is going to be there and what time, and know the 
idiosyncracies of being late, or changing, or going to get a 
sandwich or whatever it might be?
    The briefings we had at that time indicated that the best 
way to foil attempts of that kind of terrorism was to not have 
such routines that are so strict. As a matter of fact, as I 
told you, they even told the Senators not to drive in the same 
way, to vary the cars they drive in, and various other things. 
But I do not see much attempt at that now. Have we abandoned 
that practice of having different schedules and different 
people at different places and times of change being different, 
every day?
    Mr. Abrecht. We try very hard to have officers avoid 
becoming routine, particularly in the performance of their 
duties, and we try to rotate posts as much as we can. There are 
obviously tradeoffs here. There are tradeoffs between knowledge 
of the post and complacency, essentially.
    It is obviously an advantage for us to have officers at 
certain places who know the Members who are coming through that 
area, know the routine, know the senior staff who work in that 
area, and when you constantly rotate people you lose that 
aspect of it, but you are also correct that you gain in the 
battle against complacency.
    So there is sort of a constant balancing that we have to go 
through, and if we are moving in any direction we are moving 
toward more of a rotation and less permanently assigned 
officers for just that, among other reasons, and it is 
something that we have to constantly guard against.
    Every time there is an incident like the Oklahoma City 
bombing people tend to be more alert, more careful, and to 
avoid this tendency toward complacency and routine. Then, over 
time it tends to get complacent again and to get routine again, 
and we know that we have to continue to battle that.
    Senator Stevens. Thank you.
    Mr. Casey. There is also, Mr. Chairman, the continual 
conflict between what they have as general orders, and their 
officers following the general orders to the letter, and the 
inconvenience that it sometimes puts both the visitors and the 
Members to.
    We get a lot of pressure on occasion to ease up, 
particularly at the staff doors, with things like that and 
become familiar with those people and to sort of change the way 
you interpret that order to allow those people that you would 
ordinarily recognize to come through, but we constantly get 
that kind of pressure, too, but they have been very, very good 
about trying to be as good and gentle as they can about 
enforcing that general order to the letter so something like 
that familiarity does not creep in.
    Senator Stevens. Thank you.
    Mr. Livingood. If I could add one other thing, one of the 
big issues in this area is training. Specifically, a terrorist 
will generally do a surveillance prior to coming, as you 
mentioned, to try something, and what we are going to be doing 
in our new classes, in-service classes, is adding a course of 
countersurveillance so the officers know what people to be 
looking for and how to sort of pick them out. That will add to 
the alertness of the officers.
    Senator Stevens. Well, I can understand having the same 
people and get to know sort of the clientele for a particular 
entry or passage, but it does seem to me that the mistake we 
made back in those days is that we were just letter perfect in 
every shift change. People came in 10 minutes late, and 
everyone was doing the same thing. I was always impressed with 
the lectures they gave us on how to avoid that, where you have 
shifts change at different times, and only announce them the 
day before instead of posting them on the wall so people could 
see them.
    It does seem to me that we ought to be more attuned, and I 
still think we are going to be a target. We are a main target 
for terrorism against the Government, either these facilities 
or the White House, but not in the sense of our personnel. I 
think it is the buildings.
    Thank you, Mr. Chairman.
    Senator Craig. Mr. Chairman, possibly one more question in 
this area. I am curious, in the training that you put your 
staff and the officers through. Do you ever attempt to have an 
unknown penetrate the area? Is that part of the training, to 
actually attempt to do that?
    Mr. Abrecht. We have not in recent times done testing of 
our facilities.
    Senator Craig. How do you do countersurveillance, then, 
from the sense that, I mean, obviously I can appreciate 
training people to look for certain things and certain patterns 
and certain kinds of human behavior or human activity, but 
unless you really attempt to have somebody penetrate a 
location----
    Mr. Abrecht. We train officers in how to watch for people 
who appear to be conducting surveillance of facilities, or who 
are lurking around, or try to figure out what is happening. We 
are essentially testing our system itself, rather than just 
shoo them away, to actually find out what they might be up to. 
Someone trying to come in through a garage door on foot, for 
instance.
    Mr. Casey. There are a number of things you may want to 
discuss on that in executive session.
    Senator Craig. I appreciate this is a public meeting.
    Mr. Chairman, I have one personal request. I drive by your 
facility at Blue Plains, and I see those greenhouses, and I 
would love to go visit that sometime, and I would like to see 
the dog facility also.
    Senator Bennett. I would recommend while the Architect is 
here that all members of the subcommittee take advantage of the 
opportunity to tour some of those facilities, particularly when 
we are getting ready to increase the budget for repair.
    Some of these buildings are what, 60 years old or 
something, and we are going to have to make a major renovation. 
I have been through them, and I recommend that every member of 
the subcommittee take the opportunity.
    The Architect has been very generous with his time, but I 
am sure he will be happy to take the opportunity.
    If there are no further questions----
    Mr. Casey. Mr. Chairman, I do have a detailed breakdown of 
the cost, and I can make that available to your office so that 
you can go through that.

                     Additional committee questions

    Senator Bennett. Thank you. Any further questions will be 
submitted in writing.
    Mr. Casey. Thank you, Mr. Chairman. On behalf of the Police 
Board we appreciate your time.
    Senator Bennett. We appreciate your coming. We will move 
quickly to the next panel.
    [The following questions were not asked at the hearing, but 
were submitted to the board for response subsequent to the 
hearing:]
                     Additional Committee Questions
                             new positions
    Question. You are requesting three new positions in fiscal year 
1998. What are these positions? Can these positions be absorbed through 
attrition?
    Answer. Two of these positions are in support of the anticipated 
migration of the Senate-side payroll to the National Finance Center. 
The third position will be assigned to the Office of General Counsel in 
support of administering the Congressional Accountability Act.
    It is increasingly difficult to absorb the staffing of new 
functions through attrition. In fiscal year 1992, the Capitol Police 
had an authorized staffing level of 1,357 positions. For the past two 
years we have operated at a level of 1,299 positions, a reduction of 58 
positions.
                        cola/comparability costs
    Question. In addition to the $212,000 requested for new positions, 
you are requesting $1.985 million for ``Mandatories''. Specifically, 
what is included in this amount?
    Answer. The amounts requested are to fund the anticipated cost of 
living allowance in fiscal year 1998 as well as a comparability 
increase for sworn personnel. In the current fiscal year, uniformed 
personnel received an increase of 3.33 percent, which included the 
nation-wide cost of living increase of 2.3 percent. Civilian personnel 
received the 2.3 percent COLA.
    The fiscal year 1998 cost of these increases is estimated to be 
$1,468,000. This increase would become effective on January 1, 1998, 
and reflects the rate of 2.8 percent, for the COLA and .7 percent for 
the comparability pay. The amount of $403,000 is also requested to 
cover the cost of the 1997 increases in fiscal year 1998. The net 
increase in employee benefits associated with these increases is 
estimated at $114,000.
                         pay parity initiatives
    Question. You have requested that the committee fund a pay parity 
initiative. Parity with whom? If we approved this initiative, would you 
require statutory authority to implement?
    Answer. Over the past several years, the Capitol Police Board, with 
the support of this committee, has pursued the on-going objective of 
gaining and maintaining parity with other similarly situated Federal 
law enforcement agencies with are covered under Title 5 of the USC. 
Principally, these agencies are the U.S. Park Service and the Uniformed 
Service of the Secret Service.
    Notably, recent initiatives have included the Capitol Police 
Retirement Act, pay compression, mandatory retirement, Cost of Living 
Adjustments and Comparability pay.
    The USCP competes directly with other Federal law enforcement 
agencies in recruiting and it is essential that we maintain salary and 
benefit parity with them.
    The requested funding would allow us to pay USCP uniformed 
personnel for various differentials that are paid to other law 
enforcement personnel under Title 5, including Sunday, Holiday and 
Night pay. Obviously, we would defer to the prerogative of the relevant 
House and Senate authorizing entities to determine what additional 
actions, if any, would be required prior to implementation.
                       scheduled leave/threshold
    Question. You have requested that scheduled leave be counted toward 
the earning of overtime. Do you have current authority to make this 
adjustment?
    Answer. Current authority exists for us to administratively make 
the adjustment. However, I would be remiss if I didn't point out that 
the amount requested to fund this initiative would be disbursed as 
overtime and as such would increase our current estimate from $4 
million to $4.676 million.

                                               PAYROLL COMPARISON--USCP VS. OTHER LAW ENFORCEMENT AGENCIES                                              
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     FLSA OT   Including  Including                        Percent                      
                                                                    threshold  scheduled  scheduled ----------------------------------------------------
                              Agency                                   (in       annual      sick        Night        Sunday        Holiday     COLA and
                                                                      hours)     leave      leave    differential  differential  differential   locality
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Capitol Police...............................................         85         No         No         None          None          Comp        3.33
U.S. Park Police..................................................         80        Yes        Yes           10            25           100        3.33
U.S. Secret Service...............................................         85         No         No           10            25           100        3.33
FBI...............................................................         80        Yes        Yes           10            25           100        3.33
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sunday Pay @ 25 percent. Holiday Pay @ 100 percent. Evening: 1800 to 0600 @ 10 percent; 1500 to Midnight @ 7.5 percent; Midnight to 0800 @ 10 percent.  

                        remaining parity issues
    Question. If the pay parity initiatives are approved, what 
remaining differences would remain. Please enumerate.
    Answer. There are no other parity issues of substance. The USCP 
retirement system mirrors that of other Federal law enforcement 
agencies.
                        other services increase
    Question. In the category of ``Other Services'' you have requested 
an increase of $2.4 million. Please explain the increase.
    Answer. Of the $2.4 million requested, $2.1 million will be used 
for telecommunications and computer services. The inclusion of these 
items is at the direction of the Senate Subcommittee on the Legislative 
Branch and represents a budget authority transfer from the Office of 
the Senate Sergeant at Arms which previously budgeted for these 
services.
    Also included in our ``other services'' request are funds to 
upgrade the departmental accounting system, possibly through a cross-
servicing agreement. The amount of $100,000 is requested in this area 
which will include funding for the annual agreement, outside 
consultation on meeting Comptroller General standards, assuring that 
internal and external interaction requirements are met and that data 
can be collected and reported consistent with Federal fiscal 
standardization. Finally, it may be necessary to acquire specific 
hardware and connectivity to implement the new system dependent upon 
which option is selected.
    The amount of $170,000 is also included in this object class to 
fund the biennial cost of the promotion exam.
                    computer and telecommunications
    Question. You have requested funds to reimburse the Senate Sergeant 
at Arms for Computer and Telecommunications services? Please explain 
what services are provided.
    Answer. In fiscal year 1998, we have requested $1,247,000 for 
computer products and services, and $929,000 for telecommunications 
services that were previously provided by the Senate Computer Center 
(SCC). These amounts are included at the direction of the Senate 
Subcommittee on the Legislative Branch. We will have the option of 
purchasing these products and services directly from private vendors, 
or reimbursing the SAA.
    In general, the types of services in the computer area include 
hardware and software upgrades, a pro rata share of software licensing 
and maintenance contracts, replacement of obsolete workstations and 
funding to migrate our applications from the SCC's mainframe 
environment.
    In the telecommunications area, funding is requested for 
maintenance for circuits, facsimile equipment and radio systems, 
monthly usage charges for local telephone service, radio telephone 
circuits, cellular phones and pagers. Funds are also requested for 
upgrades of systems, new consoles for the CAD system and new command 
center.

New hardware--5 color printers, control card, cables, and 
    other accessories.........................................   $14,000
Hardware and software maintenance--reimburse the Senate 
    Computer Center for the maintenance of 300 personal 
    computers, 105 printers, 8 file servers, and software.....    53,463
Mainframe to PC migration--Senate requires us to migrate our 
    applications from a mainframe environment to personal 
    computers within two years. These funds will pay for 
    consulting services, and we will require more funding in 
    fiscal year 1999..........................................    70,000
Software and software upgrades--upgrade to Corel Office Suite 
    and Windows NT 4.0........................................    89,589
Replacement of existing workstations--current 486/33 
    workstations are approaching obsolescence and cannot run 
    applications currently on our system. Faster, workstations 
    with greater memory are needed in order to complete the 
    migration project......................................... 1,020,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal computer services.............................. 1,247,052

    In fiscal year 1998, we have requested $929,000 for 
Telecommunication products and services. Summarized costs are 
as follows:

Frame Relay Circuit and Routers...............................    $1,920
10/100 Ethernet Network Interface Cards.......................     4,000
Cellular Telephones and Pagers................................     4,804
Facsimile Maintenance.........................................     6,100
NFC Conversion Telecommunication Services.....................     9,000
Streetguard Computer Aided Dispatch (CAD) System Maintenance..    14,000
Radio Circuits................................................    15,000
Upgrade of Police Metropolitan Area Radio System..............    20,000
Business Telephone Lines......................................    25,000
Technical Support for Senate Security while traveling.........    25,000
AT&T System 75 Maintenance....................................    32,000
Hand Held Radio Maintenance...................................    50,000
New Hand held Radios..........................................    60,000
Replacement and/or repair of GE Radio Receivers...............    60,000
New Consoles for the CAD System in the Communication Center...    70,000
Upgrade of System 75 to Definity G3I..........................    70,000
Local telephone Service.......................................    98,000
Radio Coverage................................................   100,000
Radio System Maintenance......................................   114,000
New Command Center............................................   150,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal telecommunication services.....................   928,824
                             house services
    Question. What services are provided to the USCP by the House? Is 
there any reimbursement to the House offices for theses services?
    The Office of the Chief Administrative Officer performs payroll 
disbursement services for the House side and the disbursement function 
for the general expenses appropriation. In addition, the House Sergeant 
at Arms pays for telephone services of the USCP on the House side. We 
provide no reimbursement for these services.
                 accounting function/management review
    Question. You have requested funds to possibly have your accounting 
functions cross-serviced by another agency. Have you discussed this 
option with the Library of Congress? Would this initiative save money?
    Answer. Also included in our ``other services'' request are funds 
to upgrade the departmental accounting system, possibly through a 
cross-servicing agreement. The amount of $100,000 is requested in this 
area which will include funding for the annual agreement, outside 
consultation on meeting Comptroller General standards, assuring that 
internal and external interaction requirements are met and that data 
can be collected and reported consistent with Federal fiscal 
standardization. Finally, it may be necessary to acquire specific 
hardware and connectivity to implement the new system dependent upon 
which option is selected.
    The accounting function within the department is currently being 
performed on an outdated system which has been in use for over ten 
years. There are several options available to the department, including 
developing our own accounting system. We believe that it may be more 
cost efficient however to be cross-serviced by another agency and we 
have begun discussions with several agencies to determine which may 
meet our requirements. There are no savings to be gained from this 
initiative in that the functions that would be provided are not 
currently being received.
              physical security supplemental spending plan
    Question. In September of 1996, you received a supplemental 
appropriation of $3.25 million. How will these funds be expended? Do 
you have a plan in place for improving physical security?
    Answer. As the Committee is aware, early in 1995 the USCP and the 
U.S. Secret Service conducted a comprehensive physical security survey. 
In fiscal year 1996, responsibility for installations of physical 
security equipment was transferred to the USCP.
    Since that time, the USCP established a Physical Security Division 
(PSD), appointed a director and hired staff. A five-year budget and 
program plan was developed, approved by the Board and forwarded to the 
Senate and House Appropriation Committees. The Board then directed the 
PSD to provide a comprehensive security implementation plan based on 
the USCP/USSS survey. In December 1996, the USCP engaged the Department 
of the Army, Physical Security Equipment Management Office to assist in 
the development of the implementation plan. This survey was initiated 
in January and included technical design, equipment selection, 
installation and cost estimates.
    In fiscal year 1997 responsibility for the maintenance of physical 
security was transferred to the USCP. At the time of this transfer, 
there were only 52 on-line accounts on the House side for the Members' 
duress alarm system, which had taken over three years to install. Since 
that time, the USCP has installed 245 additional systems in less than 
six months. Additionally, the Maintenance Section has completed more 
than 1,000 requests for service repairs since October 1, 1996. This is 
double the amount completed in the entire preceding year prior to the 
transfer. We have accomplished this without increase in personnel, 
funding or overtime while expanding coverage to seven days each week.
                                aoc mou
    Question. The implementation of physical security plans in the 
Capitol complex will require close coordination with the Architect of 
the Capitol on matters relating to design. How will you assure that 
this coordination will be carried out?
    Answer. We have executed a Memorandum of Understanding with the 
Office of the Architect as specified in the Conference Report 
accompanying H.R. 3610, Making Omnibus Consolidated Appropriations for 
Fiscal Year 1997 to delineate the process for implementing security 
projects.
                              k-9 facility
    Question. Last year, emergency funding was arranged to alleviate 
serious problems associated with your K-9 facility. What is the current 
status of the project to take over the D.C. facility? Once you have 
moved into the facility occupied by D.C., are there plans to share any 
of the facilities since they will still be adjacent to your kennels?
    Answer. The Architect of the Capitol (AOC) has completed all their 
assigned work related to the emergency funding. The obedience, attack, 
and agility fields have been completed and fenced. All the trailers and 
storage areas have been put in place. The Metropolitan Police 
Department (MPD) will turn over their old facility, which includes 12 
indoor kennels, to the U.S. Capitol Police in April, after they move to 
their new training facility, which is now under construction. Even 
though these kennel facilities are an improvement from the one at 
Poplar Point, they still need considerable renovation. The AOC has 
requested funds to renovate our kennel facilities in fiscal year 1998 
and fiscal year 1999. We plan to share the obedience, attack, and 
agility fields with MPD.
                         senate/house positions
    Question. You have 637 positions on the House side, and 662 on the 
Senate side. Please explain why there are unequal numbers of positions.
    Answer. There has never been an attempt to divide the total number 
of positions equally between the two houses. Variations have occurred 
over time due to the implementation of various initiatives such as the 
screening of all freight destined for the Senate loading dock at the 
off-site delivery center, the security aide initiative, the physical 
security initiative, and so forth. It should be noted however that 
assignments overall are made without regard to the payroll on which an 
officer resides.
                               nfc status
    Question. What is the status of the project to move the House 
payroll to NFC.
    Answer. Conversion of all House-appropriated U.S. Capitol Police 
positions and employees to the USDA/NFC payroll became effective on 
March 30, 1997. This included the transfer of payroll processing, 
salary and benefits disbursement, and retirement/benefits counseling 
functions from the House Finance Office to the Department. Appointing 
authority is retained by the Committee on House Oversight.
    In 1992, Title 40, Section 207a., was amended by legislation, and 
mandated that the House and Senate act jointly to provide for a unified 
payroll administration for the USCP. To that end, the USCP has been 
actively engaged in providing information to relevant Senate leadership 
regarding the conversion of Senate-appropriated positions to the USDA/
NFC. Currently, the matter is under serious consideration by the Senate 
Committee on Rules and Administration, and the Committee on 
Appropriations. We have determined that should the Senate decide to 
expedite approval, a unified payroll could be achieved by the beginning 
of fiscal year 1998, at little or no cost incurred above that 
appropriated for fiscal year 1997. Thereafter, we have estimated that 
the total (unified) cost of USDA/NFC cross-servicing costs would be 
approximately $160,000 per annum.
                            unified payroll
    Question. What remaining impediments remain toward a unified 
payroll? What is keeping us from a unified payroll and consolidated 
reporting?
    Answer. Bifurcated administrative systems result in a complex and 
inconsistent infrastructure. Differences in the administrative systems 
and practices of the two chambers have created disparities between 
employees working side by side. They also result in critical 
inefficiencies when trying to capture and report management information 
for budget, accounting, manpower utilization, position management, etc. 
With the assistance of this committee, the USCP is addressing these 
problems through legislation, to eliminate the disparities between the 
two chambers. Some of the most visible inequities that exist are:
    Difference in personnel practices.--Nonpay status; payroll cycles; 
wage and earnings reporting; and pay setting.
    Differences in work/information flow.--Approval processes; and 
information feedback.
                          unionization status
    Question. What is the current status of unionization efforts in the 
USCP under the Congressional Accountability Act?
    Answer. The following is a chronology of activities to date 
regarding the unionization of USCP officers.
                      uscp unionization chronology
    October 1996.--Petition for Certification as exclusive bargaining 
representative by International Brotherhood of Teamsters, Fraternal 
Order of Police, and International Union of Police Associations.
    January 1997.--Board of Directors, Office of Compliance Decision 
Order. Excluding certain divisions of the USCP.
    February 1997.--Decision and Direction of Election issued by Board 
of Directors, Office of Compliance.
    April 1997.--Election held at USCP Headquarters. (Challenges 
sufficient to affect results.) International Union of Police 
Associations eliminated.
    May 1997.--Decision and Direction on Challenged Ballots.
    June 1997.--Second Election Runoff between International 
Brotherhood of Teamsters and Fraternal Order of Police.
    June 1997.--Certification of Representative certifies the Fraternal 
Order of Police as exclusive representative of all employees in the 
bargaining unit.
    TBD.--Collective Bargaining Agreement negotiations to begin.
                           accounting system
    Question. You have requested the amount of $100,000 within the line 
item ``other services'' to have the accounting function performed 
through a cross-servicing agreement. Please explain.
    Answer. The accounting function is part of a broader review that 
the Board will undertake within the department. While the USCP has made 
great strides in recent years in operational areas, the board will now 
place renewed emphasis on assuring that the administrative and 
management areas are in compliance with prescribed standards of the 
Comptroller General. We plan to conduct a department-wide survey and 
evaluation of internal accounting and administrative controls for the 
purpose of identifying weaknesses so that they can scheduled and 
assigned for corrective action.
    The accounting function within the department is currently being 
performed on an outdated system which has been in use for over ten 
years. There are several options available to the department, including 
developing our own accounting system. We believe that it may be more 
cost efficient however to be cross-serviced by another agency and we 
have begun discussions with several agencies to determine which may 
meet our requirements.
    In addition, we have included funds for an outside consultant to 
perform a requirements analysis leading to the design of an information 
technology plan which will meet the management needs and reporting 
requirements of the department.
                           physical security
    Question. Can you provide us with a brief overview of activities 
undertaken to date regarding the physical security function for the 
Capitol complex?
    Answer. As the Committee is aware, early in 1995 the USCP and the 
U.S. Secret Service conducted a comprehensive physical security survey. 
In fiscal year 1996, responsibility for installations of physical 
security equipment was transferred to the USCP.
    Since that time, the USCP established a Physical Security Division 
(PSD), appointed a director and hired staff. A five-year budget and 
program plan was developed, approved by the Board and forwarded to the 
Senate and House Appropriation Committees. The Board then directed the 
PSD to provide a comprehensive security implementation plan based on 
the USCP/USSS survey. In December 1996, the USCP engaged the Department 
of the Army, Physical Security Equipment Management Office to assist in 
the development of the implementation plan. This survey was initiated 
in January and will include technical design, equipment selection, 
installation and cost estimates.
    In fiscal year 1997 responsibility for the maintenance of physical 
security was transferred to the USCP. At the time of this transfer, 
there were only 52 on-line accounts on the House side for the Members' 
duress alarm system, which had taken over three years to install. Since 
that time, the USCP has installed 245 additional systems in less than 
six months. Additionally, the Maintenance Section has completed more 
than 1,000 requests for service repairs since October 1, 1996. This is 
double the amount completed in the entire preceding year prior to the 
transfer. We have accomplished this without increase in personnel, 
funding or overtime while expanding coverage to seven days each week.
    Finally, we are nearing the completion of Memorandum of 
Understanding with the Office of the Architect as specified in the 
Conference Report to accompany H.R. 3610, Making Omnibus Consolidated 
Appropriations for Fiscal Year 1997 to delineate the process for 
implementing security projects.
                       library of congress merger
    Question. For several years, there have been discussions and 
studies involving a merger with the police and security of the Library 
of Congress. What is the status of this proposal?
    Answer. In House Report 104-141 on the 1996 Legislative Branch 
Appropriations Bill, the Subcommittee on Legislative Appropriations 
instructed the United States Capitol Police to undertake discussions 
and a study to determine the extent to which the police and security of 
the United States Capitol, the Library of Congress and the United 
States Supreme Court can be combined as a unified operation under a 
single command utilizing common personnel.
    From an administrative perspective, the absorption of the Library 
of Congress Police (LOCP) by the USCP is feasible. If approved, we 
would anticipate entering into a Memorandum of Understanding with the 
LOC, with a projected date of transfer six months thereafter. The MOU 
would address issues regarding retirement, transfers of leave balances 
and training.
    In addition to personnel costs which we anticipate would be covered 
pursuant to an appropriation transfer, we have developed one-time cost 
estimates associated with the transfer.
    There are a variety of important administrative issues that would 
need to be addressed if the merger occurs. Many of these issues will be 
contingent upon specific congressional directives and mandates. Equally 
important is the merger's impact upon the budgets of those entities 
that provide valuable services to the USCP, e.g., Architect of the 
Capitol, and the House and Senate Sergeants at Arms.
                          systems acquisition
    Question. You have indicated that a review will be made of 
administrative and financial areas to replace an antiquated 
infrastructure. What provision is made for the cost of new systems?
    Answer. Included in our request is the amount of $100,000 which is 
dedicated to replacing the current expense control system in the 
accounting and financial management functions. Ideally, this 
replacement system will be attained through a cross-servicing 
arrangement with another agency.
    Secondly, within the overall amounts requested for reimbursement to 
the Senate Sergeant at Arms for computer services, are amounts to 
enable us to begin upgrading workstations, phase in a migration from 
the SCC workstation, and acquire a replacement for the time and 
attendance system.
    The pace and scope of all of the planned improvements will not be 
known until after our review is completed. At that time we will inform 
the committee of our plans and requirements. In the interim, we feel 
that the current request will allow us to move forward in all of these 
areas.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF HON. JUNE E. O'NEILL, DIRECTOR
ACCOMPANIED BY:
        JAMES L. BLUM, DEPUTY DIRECTOR
        GAIL DEL BALZO, GENERAL COUNSEL
        STANLEY L. GREIGG, DIRECTOR, OFFICE OF INTERGOVERNMENTAL 
            RELATIONS
        POLLY E. HODGES, BUDGET AND FINANCE OFFICER
        DAVID M. DELQUADRO, PERSONNEL OFFICER
        MARK G. DESAUTELS, ASSISTANT FOR INTERGOVERNMENTAL RELATIONS
        DANIEL F. ZIMMERMAN, CHIEF, SYSTEMS DEVELOPMENT AND RESEARCH 
            UNIT

                             Budget request

    Senator Bennett. Our next panel is headed by the Honorable 
June O'Neill, the Director of the Congressional Budget Office, 
and we will dispense with the usual formalities and 
congratulations and greetings, because both Senator Dorgan and 
I are conferees of the conference that must convene at 11 
o'clock. I can be a little later than he can. He has a more 
direct interest in what is happening here than I do, so you are 
probably going to get a much lighter going over than you might.

                           summary statement

    Ms. O'Neill. Thank you, Mr. Chairman. I am accompanied by 
Mr. James Blum and the staff that has helped prepare the 
statement. I will be brief. Our budget request for fiscal year 
1998 is for $24,995,000, which allows an increase of 1.9 
percent, or $463,000, over our fiscal year 1997 appropriation.
    The amount of our request is about one-half of the 4 
percent increase that CBO would need to maintain its budget at 
the current services level--that is, taking account of pay and 
benefit increases and other rising costs.
    The requested amount would fund our current staff ceiling 
of 232 full-time equivalent positions, or full-time 
equivalents. But in order to hold our requested increase to 1.9 
percent, we would reduce spending on automated data processing 
[ADP] and on printing and postage by a total of $542,000.
    Although we should be able to maintain our current workload 
with the funds requested here, I would like to point out that 
the law dealing with unfunded mandates as well as the 
Congressional Accountability Act will continue to have a 
significant cost impact on our budget.
    CBO has now had a full year of operation under the Unfunded 
Mandates Act, and the cost of carrying out its responsibilities 
has become clearer. Both our fiscal year 1997 and fiscal year 
1998 budgets are based on the assumption that the required 
level of work on mandates will decline somewhat after the first 
year. But in view of the pace of work, that assumption could be 
optimistic.
    Moreover, a number of legislative proposals have been made 
for expanding the scope of work on mandates, and, of course, 
that could cause a significant diversion of resources from our 
basic work.
    As for the Congressional Accountability Act, CBO used an 
estimated two full-time equivalents in staff and $320,000 to 
assure compliance in fiscal 1996. No additional staff or funds 
were provided for that purpose. For fiscal years 1997 and 1998, 
we estimate that a similar level of effort will be required. 
That cost is also being absorbed. Of course, estimating how 
much it will cost annually to comply with the act beyond 1996 
is extremely difficult.
    Mr. Chairman, given our role in the budget process, we are, 
of course, very aware of Congress' intention to balance the 
budget and downsize the Federal Government, including the 
legislative branch. However, maintaining a strong analytical 
capability in the Congressional Budget Office is essential, I 
believe, to helping achieve those goals.
    Our request is for less than is necessary to maintain our 
budget at its current services level. I think it is a prudent 
budget in which we absorb over 50 percent of our mandatory pay 
and benefit increases by making reductions elsewhere.

                           prepared statement

    We believe that our requested increase of 1.9 percent would 
allow us to serve the Congress at the level it has come to 
expect of us. I would be happy to answer any questions you may 
have right now or in writing and will submit our complete 
prepared testimony for the record.
    [The statement follows:]
                 Prepared Statement of June E. O'Neill
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 1998 budget request for the Congressional 
Budget Office (CBO). The mission of CBO is to provide the Congress with 
the objective, timely, nonpartisan analysis needed for economic and 
budget decisions and the information and estimates required for the 
Congressional budget process. CBO does not make policy recommendations 
but presents the Congress with options and alternatives in a wide range 
of subjects, all of which have economic and budgetary impacts.
    Our fiscal year 1998 request is for $24,995,000, a 1.9 percent 
increase--$463,000--over our fiscal year 1997 appropriation of 
$24,532,000. That requested level would fund 232 full-time-equivalent 
positions (FTE's), our current staff ceiling. No additional staff is 
requested. Our requested increase is about half of the 4 percent 
increase that would be needed to maintain CBO's budget at the fiscal 
year 1997 current-services level. CBO is able to hold its overall 
request to 1.9 percent by cutting back on the number of reports and 
studies to be published in fiscal year 1998, which will lower printing 
and postage costs, and by reducing spending for automated data 
processing (ADP) systems, data, and model development and for ADP 
hardware.
    At the requested level, CBO's fiscal year 1998 budget remains--in 
real terms--below the amount that would be required to restore our real 
resources to their fiscal year 1988 level. In the meanwhile, CBO's 
staff ceiling has been increased by six positions since 1988, and its 
duties expanded by legislation numerous times.
    Over the years, CBO has taken a number of steps to absorb the cuts 
in real resources it has experienced, including holding down salaries 
when turnovers occur; continuing our efforts to reduce administrative 
expenses, especially in the areas of report production, distribution, 
and storage; and, aggressively renegotiating contract terms for ADP and 
other administrative services. We have been aided further in our 
efforts to absorb cuts in real resources over the years by a steady 
decline in the cost of computing power.
    Before discussing our fiscal year 1998 request in more detail, I 
would like to describe for the Committee two major new CBO work efforts 
of the past fiscal year.
                   major new work efforts during 1996
    CBO undertook two new major efforts during the past year. One was 
to develop estimates of the costs of federal mandates imposed on state 
and local governments and on the private sector in new legislative 
proposals. The other was to prepare long-term budget projections to 
show the increased pressures on the federal budget after 2010 that will 
come with the retirement of the baby-boom generation and the aging of 
the U.S. population.
Federal Mandate Cost Statements
    On January 1, 1996, the Unfunded Mandates Reform Act of 1995 (UMRA) 
took effect. The act established new procedures designed to ensure that 
the Congress fully considers the potential effects of unfunded federal 
mandates before imposing them on state, local, and tribal governments 
or the private sector. Among the new procedures, CBO is required to 
provide statements to authorizing committees about whether reported 
bills contain mandates and, if so, their estimated costs.
    In carrying out its new responsibilities under the act last year, 
CBO used an estimated 24 work years of staff effort. CBO's 
appropriation for 1996 provided funds for 13 additional staff 
positions, and we reallocated an additional 11 staff years of effort 
from other work. Originally, we estimated that we would need 25 work 
years of staff effort to carry out our new duties, based on an 
assumption that we would have to prepare 550 intergovernmental and 550 
private-sector mandate analyses.
    In fact, we transmitted to the Congress last year 718 
intergovernmental and 673 private-sector mandate cost statements, using 
about the level of resources expected. Among the proposals analyzed, 69 
contained intergovernmental mandates and 91 included private-sector 
mandates. Of those, 11 intergovernmental and 38 private-sector mandates 
had costs exceeding the thresholds established in the Unfunded Mandates 
Reform Act.
    Earlier this year, CBO completed a report analyzing its first year 
of operation under UMRA titled ``The Experience of the Congressional 
Budget Office During the First Year of the Unfunded Mandates Reform 
Act.'' I would like to provide copies of the report for the Committee's 
information.
Long-Term Budget Projections
    CBO's annual report to the Congress on the economic and budget 
outlook last year included a chapter that looked at the budget through 
the first half of the 21st century and the implications of the 
retirement of the baby-boom generation. Together with CBO's work on 
unfunded mandates, the long-term budget projections constituted a 
second major analytic effort by CBO last year.
    For the past several years, CBO has been preparing 10-year budget 
projections of current laws and policies to serve as a baseline in 
considering the budgetary effects of new policy proposals. A 10-year 
time frame, however, is not sufficient to show the dramatic effects on 
the federal budget of projected long-term demographic changes in the 
U.S. population. To illustrate those future pressures, CBO prepared 
some long-term budget projections to 2050, using a standard model of 
economic growth and the actuarial projections used by Social Security 
and Medicare trustees.
    The longer-term CBO projections showed that the federal deficit 
would begin to mount rapidly after 2010 under current budget policies. 
A sharply rising federal deficit would have adverse consequences for 
interest rates and economic growth, making the budget and economic 
outlook bleaker. The growth in federal spending over the period was 
largely in Medicare and Social Security, and CBO included a special 
chapter in its annual report, ``Reducing the Deficit: Spending and 
Revenue Options'' (August 1996), that discussed various options for 
limiting the long-term growth of outlays for those programs. Because we 
believe that analysis to be significant, this spring we published it as 
a stand-alone report titled ``Long-Term Budgetary Pressures and Policy 
Options'' (March 1997).
Other CBO Work
    As in other years, CBO maintained its normal support of the 
Congressional budget and legislative processes throughout the fiscal 
year, performing cost estimates for hundreds of bills, as well as 
maintaining a steady flow of scorekeeping reports to the Appropriations 
Committees. CBO's divisions published 20 reports in fiscal year 1996, 
and CBO staff members testified 18 times before 11 Congressional 
committees last year, demonstrating the broad range of its analytic 
expertise. Appendix A to this statement provides an overview of CBO's 
work for the Congress under current law in fiscal year 1996.
    Also, I should note that CBO has new responsibilities under the 
Line Item Veto Act, beginning January 1, 1997. Although the work 
required will not be nearly as demanding as that required by UMRA, each 
time the President exercises his authority under the act, CBO is 
required to provide the Budget Committees with an estimate of the 
reductions in budget authority and outlays stemming from the 
President's action. CBO will prepare any additional information that 
the Budget and Appropriations Committees may need to track the effects 
of the new law.
                        fiscal year 1998 request
    As I indicated previously, Mr. Chairman, CBO's fiscal year 1998 
request is for $24,995,000, an increase of 1.9 percent, or $463,000, 
over our fiscal year 1997 appropriation. That request funds our staff 
ceiling of 232 full-time-equivalent positions. No additional positions 
are being requested. Specifically, our request includes:
  --$938,000 in mandatory pay increases, the major components of which 
        are: (a) $424,000 for a projected 2.8 percent employment cost 
        index (ECI) adjustment on January 1, 1998; (b) $295,000 for the 
        annualization of fiscal year 1997 pay raises; and (c) $198,000 
        for merit increases, budgeted at 4 percent of salaries, with 50 
        percent of the cost offset by savings from staff turnover.
  --$67,000 in various price increases, from printing to ADP 
        timesharing;
  --A $334,000 reduction in planned spending for ADP timesharing and 
        systems, data, and model development and for lower printing and 
        postage costs; and
  --A $208,000 reduction in spending for equipment, primarily ADP 
        hardware and software.
    The request is lower than the roughly $25.5 million that would be 
necessary to maintain our budget at the current-services baseline 
level, which would require an increase of 4 percent. To limit our 
request below that level, we have partially offset combined mandatory 
pay and benefit increases and general price increases of $1,005,000 
with reductions in ADP spending and in our printing and postage budget 
amounting to $542,000.
    In our budget, more than 85 percent of the total constitutes 
personnel costs. Of the cost increases CBO faces in fiscal year 1998, 
over 93 percent are mandatory increases associated with pay and 
benefits. CBO has carefully scrubbed other parts of its budget to 
absorb more than half of the increases, cutting ADP spending 12.2 
percent and administrative spending 10.1 percent. At 8.3 percent of 
CBO's budget, ADP spending is at a historic low. Moreover, 
administrative expenses--6.6 percent of the total budget--are well 
below their historic average. As a result, those areas of spending 
cannot be counted on to yield similar savings on an annual basis in the 
future, even though mandatory costs will continue to rise.
    Although CBO should be able to maintain its current workload with 
the funds requested here, it is important to point out that the law 
dealing with unfunded mandates and the Congressional Accountability 
Act, both high priorities for the Congress, will continue to have a 
significant cost impact for our budget.
    CBO now has had a full year of operation under the Unfunded 
Mandates Act, and the costs of carrying out its responsibilities under 
the act are becoming more clear. Expecting that the level of work 
effort will fall somewhat after the first year, both the fiscal year 
1997 and fiscal year 1998 budgets assume seven FTE's and more than 
$600,000 in costs above the base provided by the Congress for our work 
on unfunded mandates. Considering the pace of work on unfunded mandates 
last year, however, even that estimate could prove too low. 
Furthermore, a number of legislative proposals have been made for 
expanding our work duties on mandates, which could cause an even 
greater diversion of our analytic efforts from our basic budget work.
    The number of analytic studies we provided to the Congress last 
year was sharply reduced. Part of the slowdown in the production of 
programmatic analyses was the result of diverting analysts from doing 
in-depth analysis of various budget issues to the more immediate 
requirements of work on unfunded mandates.
    Over the years, CBO's analytic reports produced by our program 
divisions have helped to provide committees with important information 
on legislative options and alternatives to current policies. 
Subsequently, as committees reported legislation incorporating 
alternatives analyzed by CBO, our cost estimates for the proposed 
legislation often relied on the methodologies developed by the program 
divisions. By diverting analysts away from long-term programmatic work 
to attend to unfunded mandates duties, CBO may one day be unable to 
perform policy analysis for committees in a timely fashion during the 
legislative process. Subsequently, that lack of research may have an 
effect on the quality of CBO's cost estimates of bills.
    As for the Congressional Accountability Act, CBO used an estimated 
two FTE's and $320,000 to assure compliance in fiscal year 1996. No 
additional staff or funds were provided for that purpose. For fiscal 
years 1997 and 1998, we estimate that a similar level of effort will be 
required. That cost is also being absorbed. Of course, estimating how 
much it will cost annually to comply with the act beyond 1996 is 
extremely difficult. In addition to the ongoing cost of compliance, 
another possible cost component exists that depends on the number of 
employee disputes and whether any result in lawsuits. A lawsuit would 
not only incur significant legal expenses but also disrupt CBO's work 
while management and administrative staff met with lawyers, provided 
needed documentation, and testified.
    At this point, I would like to discuss two specific and important 
administrative concerns. The first has to do with attracting and 
retaining a high-quality workforce. As we pointed out to the Committee 
last year, the restrictions on compensation that CBO has faced in 
recent years--the same restrictions the Congress itself has faced--have 
already affected our ability to attract and retain highly qualified 
staff. During the last two years, CBO has experienced an unusually high 
turnover among its most skilled staff and managers, who have left to 
take more lucrative positions. If the pay freeze for Members of 
Congress and other senior level positions continues, which is likely, 
it will exact a heavy toll on CBO's managers and senior staff.
    The executive branch, and even some other legislative branch 
agencies, use several options for compensation, such as bonuses and 
locality pay. However, those options are not available to CBO. As a 
result, we are at a serious competitive disadvantage with both the 
private sector and other governmental agencies. CBO is in danger of 
losing employees with years of institutional knowledge--staff members 
who have helped to shape CBO's products and to train new staff members. 
That situation has implications for the quality of CBO's service in the 
future.
    Our second concern has to do with the ADP services that are 
currently being provided to us by House Information Resources (HIR). 
CBO does a sizable amount of computing on HIR's mainframe on a 
reimbursable basis. However, we have recently learned that HIR is 
reviewing a ``Mainframe Computer Retirement'' plan that could have 
serious implications and consequences for the Congressional Budget 
Office. If this service to CBO is terminated without ample notice, it 
will have an adverse effect on our ability to meet Congressional demand 
for CBO's products and even on our ability to operate. To address that 
concern, we intend to explore the ramifications on CBO's budget and 
operations of moving to outside vendors in the event HIR curtails its 
service to CBO.
    Finally, let me update the Committee on CBO's efforts to 
accommodate those interested in receiving our work products in 
electronic format. For a number of years, CBO has maintained a gopher 
site on the Internet. At that site, people can get copies of CBO's 
published reports in electronic format, either in Word Perfect or 
ASCII. In the short time that we have been offering that service, a 
revolution has occurred on the Internet. File transfer protocol sites 
like our gopher site are now obsolete, and Internet users have moved on 
to the graphically oriented and more interactive World Wide Web. CBO, 
which was once out front in terms of the electronic distribution of its 
material, is now trying to catch up.
    Sometime this fiscal year, CBO expects to move the electronic 
distribution of its documents from its gopher site to the World Wide 
Web. Once we have established a web site, we intend to offer not just 
our published documents--which are basically all we currently offer on 
our gopher site--but all of CBO's work products, at least eventually. 
We are closely coordinating our efforts with those who are developing 
the Legislative Information System for the Congress, and CBO's site 
will be fully integrated with that system when both are completed.
                               conclusion
    Mr. Chairman, no agency is more keenly aware than CBO of the 
Congress's intention to balance the budget and downsize the federal 
government, including the legislative branch. However, maintaining a 
strong analytic capability in the Congressional Budget Office is 
essential to achieving those goals. Our request is for less than is 
necessary to maintain our budget at the current-services level. It is a 
prudent budget in which we absorb over 50 percent of our mandatory pay 
and benefit increases with reductions elsewhere. We do believe, 
however, that our requested increase of 1.9 percent would allow us to 
continue to serve the Congress at the level it has come to expect.
                                 ______
                                 
 Appendix A.--Major Responsibilities of the Congressional Budget Office
    The Congressional Budget Office (CBO) was created by the 
Congressional Budget and Impoundment Control Act of 1974 (Public Law 
93-344) and began operations on February 24, 1975, with the appointment 
of Director Alice M. Rivlin. Its mission, then as now, is to provide 
the Congress with economic and budgetary information. Compared with the 
missions of the Congress's other support agencies--the Congressional 
Research Service and the General Accounting Office--CBO's mandate is 
relatively narrow. But its subject matter is extremely broad, 
reflecting the extensive array of activities that the U.S. budget 
covers and the major role the budget plays in the national economy.
    A substantial part of what CBO does is to support the work of the 
two other Congressional institutions created by the 1974 Budget Act: a 
Committee on the Budget in both the House of Representatives and the 
Senate, each with its own staff. Those committees are in charge of the 
process, spelled out in the Budget Act, by which the Congress sets its 
own targets for the federal budget, including the overall levels of 
revenues and spending, the surplus or deficit that results, and the 
distribution of federal spending by broad functional categories. Each 
spring the Congress adopts the result of that process, the 
Congressional budget plan, in the form of a concurrent resolution. The 
resolution imposes an overall framework and discipline on the way 
appropriations, other spending measures, and tax legislation are 
passed.
    The policies and principles that have shaped CBO since its 
inception are key factors in its effectiveness. CBO is a professional, 
nonpartisan staff office; it does not make recommendations on policy. 
This nonpartisan stance has been instrumental in preserving the 
agency's reputation for professionalism and has enhanced the 
credibility of its products. CBO prepares independent analyses and 
estimates relating to the budget and the economy, and it also presents 
options and alternatives for the Congress to consider. It routinely 
discloses the assumptions and methods it uses, which enhances the 
general perception of CBO's products as objective and impartial.
    Some of CBO's activities are statutory tasks; others are carried 
out at the request of Congressional committees. According to the Budget 
Act, CBO must give priority first to requests for services from the 
House and Senate Budget Committees; second, to requests from the two 
Appropriations Committees, the House Committee on Ways and Means, and 
the Senate Committee on Finance; and finally, to requests from all 
other Congressional committees. CBO prepares various types of analyses 
for the Congress, including cost estimates for bills that individual 
Members have introduced or plan to introduce. But committee requests 
always have priority; CBO handles requests from individual Members only 
to the extent that its resources permit.
    CBO's services can be grouped into four categories: helping the 
Congress formulate a budget plan, helping it stay within that plan, 
helping it assess the impact of federal mandates, and helping it 
consider issues related to the budget and to economic policy.
           helping the congress develop a plan for the budget
    The House and Senate Budget Committees prepare the annual 
Congressional budget plan, drawing on the views and estimates of the 
other committees. A major part of CBO's role in this process is to 
prepare an annual report, divided into two volumes. The first volume 
provides economic forecasts and budget projections for a multiyear 
period, currently 10 years. Typically, it also includes a discussion of 
a current economic or budget policy issue, such as the chapter on the 
economic and budgetary implications of balancing the budget in the most 
recent report. The second volume is a collection of spending and 
revenue options for reducing the budget deficit. The current edition of 
this volume--the 18th we have done--was published in March. CBO 
customarily updates its economic and budget projections in mid-August.
Economic Forecasts and Projections
    CBO is the only entity of the legislative branch whose mandate 
includes making economic forecasts and projections. Its forecasts cover 
18 to 24 months (it does not attempt to forecast cyclical fluctuations 
in the economy more than two years ahead) and involve the major 
economic variables--gross domestic product, unemployment, inflation, 
and interest rates. Its ten-year projections of the economy present a 
longer-term view based on trends in the labor force, productivity, and 
saving.
    In preparing its forecast, CBO consults the major econometric 
models and commercial economic forecasting services, as well as the 
expertise of its staff. The models currently available to CBO represent 
a broad range of assumptions about how the economy works; they include 
Data Resources, Inc.; the Macroeconomic Advisers Model; the MSG 
multicountry model, developed by Warwick McKibbin and Jeffrey Sachs; 
and a standard growth model developed at CBO. CBO also relies on the 
advice of a distinguished panel of economic advisers (see Appendix B). 
Usually, CBO's forecasts are fairly close to the Blue Chip consensus of 
private forecasters.
Baseline Budget Projections
    The purpose of CBO's biannual budget projections is to give the 
Congress a baseline for measuring the effects of proposed changes in 
taxing and spending laws. The projections start with the Congress's 
most recent budgetary decisions and show what would happen to the 
federal budget if no new policy decisions were made over the projection 
period. The budget committees use those projections to develop annual 
budget resolutions and directives to other committees. CBO uses them to 
produce cost estimates for proposed legislation and in scorekeeping 
tabulations (described later).
    For revenues and entitlement programs, such as Social Security or 
Medicare, the baseline projections generally assume that current laws 
will continue without change. For discretionary spending, the 
projections are based on the most recently enacted appropriation bills 
or on any statutory spending limits that may be applicable.
    CBO's projections do not represent a forecast of future budgets 
because the Congress makes numerous policy decisions in response to 
changing national needs and economic circumstances. A longer-term 
framework is helpful in making annual budget choices because those 
decisions sometimes have little impact on the budget in the short run 
but significantly influence relative budget priorities over a period of 
several years.
    CBO's capability to do budget projections has enabled the Congress 
to move increasingly in the direction of multiyear budgeting. In the 
past, both budget committees have used CBO's baseline budget 
projections as a starting point for formulating their recommendations 
for the annual budget resolution. CBO's baseline spending projections 
are distributed to the appropriations committees and the authorizing 
committees as background information for preparing their ``views and 
estimates'' reports to the budget committees. The budget committees 
then use the CBO baseline projections in their markup materials for the 
budget resolution to assess how spending and revenues should be altered 
in the future to meet fiscal policy goals and national needs.
Deficit Reduction Options
    The most widely distributed of all CBO publications is the volume 
of deficit reduction options that the agency prepares as part of its 
annual report. The volume discusses various strategies for reducing the 
deficit and offers more than 200 specific spending and revenue options 
for the Congress to consider. Members of Congress, as well as many 
outside groups, use the report to develop deficit reduction proposals 
and to educate the public about the difficult choices that must be 
made. Over the years, this report has become a standard reference for 
developing deficit reduction plans and has been relied on heavily by 
both budget committees in developing the budget resolution each year.
    The policy options included in this report come from many sources, 
and most have been considered by the Congress at some time. In 
accordance with CBO's mandate to provide objective and impartial 
analyses, the discussion of each option presents the cases for and 
against it as fairly as possible. CBO does not endorse the options 
included, nor does exclusion of any proposal imply a recommendation. 
All divisions of the Congressional Budget Office contribute to this 
report.
Analysis of the President's Budget and Other Assistance
    Each year, at the request of the Senate Committee on 
Appropriations, CBO analyzes the President's budget to see how its 
revenue and spending proposals would affect the projections. In the 
analysis, CBO uses its own economic assumptions and estimating 
techniques to recast the budget that the President has proposed and 
submitted to the Congress. To keep those techniques and methods as 
accurate as possible, CBO staff carefully monitor both actual spending 
trends, as reported monthly by the Treasury, and various program data 
series that provide information on recent trends in the use of federal 
benefits and services, the growth in beneficiaries, and other factors 
affecting federal spending. CBO uses those independent methods to 
reestimate the effect of the President's budgetary proposals. In some 
years, those so-called economic and technical reestimates have been 
significant.
    In addition, as the Congress moves toward adopting its annual 
budget resolution, CBO helps the budget committees and other committees 
estimate the effects of alternative budget plans. Frequently, the 
agency is asked to testify before Congressional committees about the 
outlook for the economy and the budget and about other matters related 
to developing the annual budget plan. Finally, the Congressional Budget 
Act of 1974 requires CBO each year to provide the Congress with a 
report on unauthorized appropriations and expiring authorizations. This 
year, that report was filed with the Congress on January 15.
            helping the congress stay within its budget plan
    Once the Congress adopts the annual budget resolution, the budget 
committees take the lead in enforcing its provisions. To help them with 
that work, CBO supplies estimates of the budgetary impact of bills 
reported by the different committees and up-to-date tabulations of the 
status of Congressional actions on legislation affecting the budget. 
CBO also prepares a series of sequestration reports that advise the 
Congress and the Administration on two matters: whether the 
appropriation limits for discretionary spending established by the 
Balanced Budget and Emergency Deficit Control Act of 1985 have been 
exceeded, and whether the enactment of any direct spending or receipt 
legislation has increased the budget deficit.
Cost Estimates for Bills
    CBO is required to develop cost estimates for virtually every bill 
reported by Congressional committees to show how those legislative 
proposals would affect spending or revenues over the next five years. 
For most tax legislation, CBO uses estimates provided by the Joint 
Committee on Taxation, a separate analytic group that works closely 
with the two tax-writing committees. CBO also prepares cost estimates 
for use in drafting bills (especially in the early stages), for 
formulating floor amendments, and for working out the final form of 
legislation in conference committees. To the extent that its resources 
permit, CBO provides estimates of the cost of bills in response to 
requests by individual Members.
    CBO's cost estimates have become an integral part of the 
legislative process, and committees increasingly refer to them at every 
stage of bill drafting. The estimates may also have an impact on the 
final outcome of legislation because they are used to determine whether 
committees are complying with the annual budget resolutions and 
reconciliation instructions.
    The number of such cost estimates varies each year, depending on 
the amount of legislation being considered and reported by legislative 
committees. In 1996, CBO prepared 652 federal cost estimates, as shown 
in Table 1. A large part of CBO's bill costing in certain years has 
been for the House and Senate committees receiving reconciliation 
instructions in the budget resolution. CBO's system for tracking cost 
estimates has treated work on the reconciliation proposals as if they 
were a few large bills. Work on a reconciliation bill alone is often 
equivalent to 100 or more bill cost estimates. That was particularly 
true last year when CBO worked closely with a number of committees in 
evaluating the savings from the large number of options that were 
considered for reforming welfare.

                           TABLE 1.--NUMBER OF FEDERAL COST ESTIMATES PREPARED BY CBO                           
----------------------------------------------------------------------------------------------------------------
                                                   1989    1990    1991    1992    1993    1994    1995    1996 
----------------------------------------------------------------------------------------------------------------
Cost Estimates..................................     628     855     638     733     603     622     517     652
----------------------------------------------------------------------------------------------------------------

    In addition to the cost estimates for bills that the legislative 
committees report, CBO provides the appropriations committees with 
estimates of outlays for all appropriation bills. Those estimates are 
prepared for each appropriation account and are transmitted to the 
staffs of the committees largely in the form of computer tabulations. 
For example, many reports display data on both budget authority and 
outlays in the Comparative Statement of Budget Authority formats that 
the appropriations committees use. CBO's estimates may be critical in 
determining whether the legislation complies with allocations in the 
annual budget resolution and with statutory limits on discretionary 
appropriations.
Scorekeeping
    One of CBO's most important functions is to keep track of all 
spending and revenue legislation considered each year, so that the 
Congress can know whether it is acting within the limits set by the 
annual budget resolutions. CBO provides the budget and appropriations 
committees with frequent tabulations of Congressional action on both 
spending and revenue bills.
    The bulk of CBO's scorekeeping activities involve spending actions. 
The spending side of the federal budget is complex, consisting of more 
than 1,000 separate accounts. Furthermore, the Congress acts each year 
on a large number of individual legislative bills that affect spending, 
including 13 appropriation bills. CBO's scorekeeping system tracks 
Congressional action on all of those bills from the time they are 
reported from committee to their enactment into law. As a result, the 
CBO scorekeeping database for budget authority and outlays is extremely 
complex, and keeping it current represents a major effort. That effort 
is all the more intense now that caps have been placed on discretionary 
appropriations and a pay-as-you-go requirement has been placed on 
mandatory spending and receipts.
    CBO's scorekeeping estimates are derived from its analysis of the 
President's budget, baseline budget projections, and bill cost 
estimates, as well as from the economic assumptions used for the 
concurrent budget resolution. CBO conducts a comprehensive review of 
its scorekeeping estimates at least twice a year to determine how its 
projections fit with actual fiscal activity. It incorporates new 
information provided by the Office of Management and Budget (OMB) and 
other federal agencies and any revised economic assumptions that the 
budget committees may adopt in addition to other relevant data.
    Specially designed computer scorekeeping reports are provided 
weekly--and sometimes daily--to the budget and appropriations 
committees. Frequent letters are also sent to the chairmen of the two 
budget committees to advise them on current budgetary levels. In 
addition, advisory letters have been sent on request to the chairmen of 
the Senate and House Appropriations Committees on the budgetary impact 
of individual appropriation actions, such as a supplemental 
appropriation bill or a continuing resolution. CBO's automated 
scorekeeping database also provides special computer reports to the 
appropriations committees to use in preparing their ``views and 
estimates'' reports due on February 25, and in dividing the allocations 
from the budget resolution among subcommittees.
    CBO also prepares a weekly report on the legislative status of 
selected entitlement legislation and other bills that would directly 
affect budgetary requirements. Similar reports contain information on 
the legislative status of bills providing authorizations for 
appropriations and proposed revisions of the Congressional Budget Act 
of 1974. Copies of those reports are provided to the staffs of the 
appropriations and budget committees of both Houses.
    Revenue scorekeeping reports with bill-by-bill detail are sent 
biweekly, or as needed, to the staffs of the Ways and Means, Finance, 
and Budget Committees. The reports provide five-year estimates of the 
revenue effects of each tax bill in the legislative process and compare 
the cumulative revenue effects of enacted legislation with the targets 
set in the budget resolution. The revenue estimates shown in the 
reports are drawn from CBO cost-estimate letters and are furnished to 
the tax-writing committees when each tax bill is reported.
Sequestration Reports
    Each year, CBO prepares three sequestration reports as part of the 
enforcement procedures specified by the Balanced Budget Act. Those 
reports are advisory and serve only as a benchmark for judging the 
accuracy of similar sequestration calculations made by the Office of 
Management and Budget. Under the law, OMB can trigger the cancellation 
of budgetary resources when the limits on discretionary appropriations 
are breached or when direct spending and receipt legislation increases 
the deficit. Those provisions apply through fiscal year 1998.
    In addition to the sequestration reports, the Balanced Budget Act 
specifies another task: CBO must notify the Congress whenever it or OMB 
projects a recession in the next year (defined as two consecutive 
quarters of less-than-zero real economic growth) or the Department of 
Commerce reports two consecutive quarters of real economic growth of 
less than 1 percent. If the President concurs, the Congress can then 
elect to set aside the statutory appropriation limits and other budget 
enforcement procedures.
              helping the congress assess federal mandates
    To better assess the impact of its laws on state, local, and tribal 
governments and the private sector, the Congress passed the Unfunded 
Mandates Reform Act of 1995. The act amends the Congressional Budget 
Act to require CBO to give authorizing committees a statement about 
whether reported bills contain federal mandates. If the five-year 
direct costs of an intergovernmental or private-sector mandate exceed 
specified thresholds, CBO must provide an estimate of those costs (if 
feasible) and the basis of that estimate.
    CBO's statement must also include an assessment of what funding is 
authorized in the bill to cover the costs of the mandates and, for 
intergovernmental mandates, an estimate of the appropriations needed to 
fund such authorizations for up to 10 years after the mandate is 
effective. When requested, CBO is also required to assist committees by 
preparing studies of legislative proposals containing federal mandates. 
The law took effect January 1, 1996.
    helping the congress consider budget and economic policy issues
    CBO's responsibilities also entail analyzing specific program and 
policy issues that affect the federal budget and the economy. For the 
most part, requests for those analyses come from the chairman or 
ranking minority member of a full committee or subcommittee. The 
leadership of either party in the House or Senate may also request a 
CBO analysis. The analyses cover a variety of federal activities such 
as examining current policies, suggesting other approaches, and 
projecting how the alternatives would affect current programs, the 
federal budget, and the economy. In keeping with its nonpartisan 
mandate, CBO does not offer recommendations on policy in those studies.
    Some studies may take 9 to 12 months, or sometimes longer, to 
complete. Other analyses may be conducted in a much shorter time frame, 
appearing as CBO papers or memorandums. Many CBO publications have 
helped to shape public discussion of the issues they address, not only 
on Capitol Hill but in the nation at large. Over the years, CBO has 
responded to requests for analyses of key program issues from almost 
every committee of both Houses of Congress. The following discussion 
demonstrates the range of issues addressed in the agency's 
publications. Included in the discussion is an illustrative list of 
reports issued by CBO during fiscal year 1996.
U.S. Economic and Fiscal Policy
    CBO has published a number of analyses of macroeconomic issues 
related to economic growth and other topics. Many of those studies are 
based on simulations that use computer models of the economy. The 
following reports were among those completed last fiscal year on 
macroeconomic issues: ``Labor Supply and Taxes'' (January 1996); ``Who 
Pays and When? An Assessment of Generational Accounting'' (November 
1995); and ``CBO's Method for Estimating Potential Output'' (October 
1995).
Federal Taxes
    CBO's analyses of the U.S. tax system have explored the effects of 
taxes on taxpayer behavior and how changes in current tax laws or the 
enactment of new taxes may affect taxpayers and the budget. Reports 
published last fiscal year include: ``Incidence of the Corporate Income 
Tax'' (March 1996); ``Projecting Capital Gains Realizations'' (November 
1995); and ``The Growth of Federal User Charges: An Update'' (October 
1995).
Natural Resources and Commerce
    CBO's policy analyses in the areas of natural resources and 
commerce cover agriculture, energy, the environment, industry and 
trade, transportation, public works infrastructure, and research and 
technology. The range of those efforts in fiscal year 1996 is indicated 
by the studies listed below: ``Emerging Electronic Methods for Making 
Retail Payments'' (July 1996); ``How the Medicaid Rebate on 
Prescription Drugs Affects Pricing in the Pharmaceutical Industry'' 
(December 1995); and ``High-Tech Highways: Intelligent Transportation 
Systems and Policy'' (October 1995).
Health and Human Resources
    A number of CBO studies have examined the rising cost of health 
care in the United States and the expansion of health insurance 
coverage. These studies have dealt with both federal health care 
programs (Medicare and Medicaid) and national health care issues. CBO's 
analyses have also treated other topics within the framework of human 
resources and social services, including education, employment and 
training, housing, and community development. The following reports of 
this type were sent to the Congress last fiscal year: ``An Analysis of 
Alternative Child Support Assurance Programs'' (April 1996); and ``The 
High-Deductible/MSA Option Under Medicare: Exploring the Implications 
of the Balanced Budget Act of 1996'' (March 1996).
National Security
    Military manpower, strategic forces, general-purpose forces, and 
other programs of the Department of Defense are some of the subjects of 
CBO's analyses related to national security. The studies examine the 
costs, other economic effects, and strategic significance of current 
defense programs, proposed legislation, and alternative programs of 
interest to Congressional committees. Publications in fiscal year 1996 
included: ``Bonuses for Nuclear-Trained Officers in the Navy: Current 
Programs and Alternatives'' (September 1996); ``Improving the 
Efficiency of Forward Presence by Aircraft Carriers'' (August 1996); 
``The Cost of Expanding the NATO Alliance'' (March 1996); ``An Analysis 
of U.S. Army Helicopter Programs'' (January 1996); and ``Military Pay 
and the Rewards for Performance'' (December 1995).
Budget Concepts and Processes and General Government
    Periodically, the Congress asks CBO to analyze concepts and 
procedures related to the federal budget--both the process and budget 
accounting--as well as general government and personnel issues. Those 
studies have included the budgetary treatment of credit and insurance 
programs and the risks posed to the federal government by government-
sponsored enterprises. Listed below are similar studies completed in 
1996: ``Changes in Federal Civilian Employment'' (July 1996); 
``Assessing the Public Cost and Benefits of Fannie Mae and Freddie 
Mac'' (May 1996); and ``Mandatory Spending Mechanisms'' (February 
1996).
                                 ______
                                 
                Appendix B.--Panel of Economic Advisers
    Dr. Robert J. Barro, Professor of Economics, Harvard University.
    Dr. Michael Boskin, Professor of Economics, Hoover Institute, 
Stanford University.
    Dr. Barry P. Bosworth, Senior Fellow, The Brookings Institution.
    Dr. Robert Dederick, Economic Consultant, The Northern Trust 
Company.
    Dr. Rudiger Dornbusch, Professor of Economics, Massachusetts 
Institute of Technology.
    Dr. Martin Feldstein, President, National Bureau of Economic 
Research.
    Dr. Robert J. Gordon, Professor of Economics, Northwestern 
University.
    Dr. Lyle E. Gramley, Consulting Economist, Mortgage Bankers 
Association of America.
    Dr. Robert E. Hall, Hoover Institution, Stanford University.
    Dr. Marvin Kosters, Resident Scholar, American Enterprise 
Institute.
    Dr. Anne Krueger, Professor of Economics, Stanford University.
    Dr. N. Gregory Mankiw, Professor of Economics, Harvard University.
    Dr. Allan Meltzer, University Professor, Graduate School for 
Industrial Administration, Carnegie-Mellon University.
    Dr. Rudolph Penner, Director, Economic Studies, KPMG Peat Marwick.
    Dr. James Poterba, Professor of Economics, Massachusetts Institute 
of Technology.
    Dr. Robert Reischauer, Senior Fellow, The Brookings Institution.
    Dr. Sherwin Rosen, Professor of Economics, University of Chicago.
    Dr. Joel Slemrod, Professor of Economics, University of Michigan.
    Dr. John Taylor, Professor of Economics, Stanford University.
    Dr. James Tobin, Sterling Professor Emeritus, Cowles Foundation for 
Research in Economics, Yale University.

                  reductions in ADP and other spending

    Senator Bennett. Thank you very much.
    Let me talk for just a minute about the reduction in 
computer data and processing-related spending. Is this 
reduction because of efficiencies that you are getting as a 
result of computers that you installed in prior years?
    Ms. O'Neill. It is partly that and partly because we have 
been very aggressive in pursuing different contractual 
arrangements and in doing more and more of our work in ways 
that are more parsimonious. In addition, we have been able to 
take advantage of declining computer costs.
    At the same time, we have been trying to expand our public 
service by installing an up-to-date web site, which should be 
in place pretty soon. We hope that will make our work available 
to many, many people who would not have had access to it 
before.
    Senator Bennett. Do you think it will cut costs, and that 
people will be satisfied with the information they get?
    Ms. O'Neill. There may not be an actual dollar savings, 
because the audience will be larger.
    Another way we have saved in the past is by postponing some 
work that would have involved additional outside contracts to 
provide data of one kind or another. We have been able to do 
that. Eventually that comes to an end though.

                  changes in CBO's revenue projections

    Senator Bennett. I would give you an opportunity to put on 
this record what you have said elsewhere. During the budget 
negotiations, an additional $225 billion over 5 years was spent 
as a result of your interim reports. Some people have accused 
you of responding to political pressures where the negotiator 
said, would it not be wonderful if we had this additional 
money. I am not one of those who so accused you, and would give 
you the opportunity now to explain for the record exactly what 
happened.
    Ms. O'Neill. The money was not actually found. It was 
simply not anticipated by us when we prepared our annual 
report.
    Every month we track receipts based on monthly Treasury 
reports, and in addition to that we follow daily accounts of 
what is happening with receipts, particularly in April. We then 
prepare a monthly report for the Budget Committees on our 
findings.
    A month prior to our report in April, we had noted that 
receipts had come in higher than anticipated, and if that was 
extrapolated through the end of the fiscal year, it would 
produce a significantly lower deficit than the $112 billion we 
had been estimating for 1997. Specifically, $10 billion extra 
had come in through March in withheld receipts.
    During the month of April--which is the heaviest tax 
receipt month, understandably--we follow receipts on a daily 
basis. Starting around April 15, money begins coming in from 
the April 15 tax filings. As it turned out, $25 billion more 
came in during the month of April than expected, so added to 
the extra in March, that already brought receipts to $35 
billion above what we had been estimating would come in for 
1997.
    It seemed to us perfectly plausible that an additional $10 
billion would come in over the remaining months of 1997. 
Putting that together gets you to an additional $45 billion.
    That was not a revised projection or forecast or anything. 
That was cash in hand that was above our forecast. We would 
normally have been recording that anyway in our monthly reports 
on the Treasury statements. However, we thought that we had an 
obligation not to be inflexible at that point in time and to 
transmit the information to the Budget Committees--which had 
also been noticing, because news accounts had begun to appear, 
that the Treasury was awash in cash. The Treasury was paying 
off some of the Federal debt, and it was apparent publicly that 
this was going on. Ignoring it did not seem to be at all 
prudent.
    The Budget Committees asked us what we expected the deficit 
for 1997 to be in view of the additional $45 billion, and since 
nothing much had come in different than what we anticipated on 
the outlay side, the extra $45 billion in receipts meant a $45 
billion lower deficit.
    The next question, which is perfectly reasonable, is, What 
effect would this have on future years? We do not revise our 
forecast or projections. We update them in the summer. But we 
met within CBO to discuss what effect we thought this could 
have on future years, and taking into account the reports of 
higher growth than we had originally foreseen, we thought that 
this was not something that would evaporate next year.
    One component would certainly not evaporate, which is that 
the reduced deficit in 1997 would mean reduced interest on the 
debt. That was automatic. It seemed to us that it would be a 
cautious forecast of what the effect would be to say that some 
of this may be temporary and some permanent. From what we knew 
that seemed perfectly logical.
    Therefore, we thought that even if we were projecting 
somewhat lower receipts, there would be offsetting debt service 
that together would reduce the deficit by approximately $45 
billion each year over the next few years.
    This is one of those situations where it is true that the 
timing may have seemed unseemly, but we cannot really worry 
about something like that. I mean, had we not said anything, I 
think that would have been highly damaging to the budget 
negotiations that were going on, because this was something 
that was really large. Rigidity at that point in time did not 
seem to be a good way of dealing with the information.
    Senator Bennett. Thank you. I appreciate that.
    I note the 45 times 5 is 225.
    Ms. O'Neill. That is where the $225 billion comes from, 
yes.

  relationship with the Joint Committee on Taxation and other agencies

    Senator Bennett. The projection of revenues, of course, is 
not made by CBO, as I have learned to my embarrassment, having 
yelled at CBO directors in previous hearings.
    Ms. O'Neill. No; it is a complicated story. We are 
responsible for the projection of revenues for legislation that 
is already passed. We are not responsible for the estimates for 
new legislation, but we do the projections of total revenues.
    Senator Bennett. I see. Well, this is done by the Joint 
Committee on Taxation, and I would just urge you to stay as 
close to them as you can. I am sure you are already doing that, 
but I was surprised, as a businessman, to come here and find 
that there were two agencies involved in that, and that calls 
for the greatest of coordination back and forth.
    Ms. O'Neill. We do work very closely with the Joint 
Committee on Taxation, and we also confer with the Treasury. 
The information on daily receipts comes from the Treasury. I 
would point out that we were not alone in underestimating 
revenues for this year. Actually, OMB's estimate of revenues 
for 1997 was lower than ours, and its estimated deficit 
somewhat higher.

                     Additional committee questions

    Senator Bennett. Thank you very much. We may have some 
additional questions for you in writing.
    We appreciate your coming. We appreciate your stewardship 
in trying to absorb the increased upward pressures by sound 
management practices within the agency so that the amount you 
request from the Congress is as modest as it is.
    Ms. O'Neill. Well, we try.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

                     Additional Committee Questions

    Question. In your testimony before this subcommittee last 
year, you indicated that CBO's fiscal year 1996 appropriation 
provided an increase of $1.1 million and 13 additional FTE's to 
handle the increased workload required by the Unfunded Mandates 
Reform Act. At that time, CBO estimated that the total 
resources CBO would need to devote to fulfilling those 
responsibilities would be $2.2 million and 24 FTE's. What was 
the total amount of resources CBO devoted in fiscal year 1996? 
What do you estimate for fiscal year 1997?
    Answer. In carrying out its new responsibilities under the 
act last year, CBO used an estimated 24 staff-years of effort 
and about $2.3 million--almost double the amount of additional 
resources provided in the appropriation for fiscal year 1996. 
Because we are expecting the amount of work to fall somewhat 
after the first year, both the fiscal year 1997 and fiscal year 
1998 budgets include 20 full-time-equivalent staff-years and 
about $2.1 million for preparing the mandate estimates required 
by the act.
    Question. CBO's ability to continue to contract for use of 
the House Information Resources mainframe computer has been an 
issue over the last few years. Last year you indicated you were 
pursuing other alternatives. In your testimony before the House 
this year you indicated you were going to use savings in the 
contract to study other alternatives. What is the status of 
your investigation into alternatives? What are their cost 
estimates?
    Answer. Over the years we have enjoyed a very good 
relationship with HIR. Given the choice, CBO would prefer to 
continue that association rather than move to another mainframe 
computer. However, should that not be possible, it is important 
that CBO be given enough time to ``migrate'' its applications 
to a new facility.
    Given the uncertainty of this situation, we have held 
preliminary meetings with a firm that specializes in 
converting, integrating, and testing older (so-called 
``legacy'') systems. However, additional discussions with the 
firm, as well as the participation of key CBO staff, will be 
necessary before a contract can be agreed to. Still, we 
anticipate that a contract will be awarded and the work 
completed during this fiscal year.
    Our current agreement with HIR will not expire until the 
end of the fiscal year. By then, we expect to have an inventory 
of all mission-critical systems as well as migration strategies 
and their estimated costs. Those strategies will include 
possibly moving (``rehosting'') and modifying (``re-
architecting'') CBO applications that now reside on the HIR 
mainframe. As a related task, we will ask the vendor as part of 
this contract to analyze all CBO systems (including those on 
the HIR mainframe) for problems that could arise in two years 
when the calendar shifts to the year 2000.

                          subcommittee recess

    Senator Bennett. Thank you. The subcommittee is recessed.
    [Whereupon, at 11:05 a.m., Tuesday, May 20, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                         THURSDAY, JUNE 5, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present: Senators Bennett, Stevens, and Dorgan.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        GEN. DONALD L. SCOTT, RETIRED, DEPUTY LIBRARIAN OF CONGRESS
        WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        RUBENS MEDINA, LAW LIBRARIAN
        JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
        LLOYD A. PAULS, ASSOCIATE LIBRARIAN FOR HUMAN RESOURCES
        LINDA J. WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
        HERBERT S. BECKER, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
        MARYBETH PETERS, REGISTER OF COPYRIGHTS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED
        JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
        KATHY A. WILLIAMS, BUDGET OFFICER
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order.
    This morning we are looking forward to hearing from three 
agencies: the Library of Congress, the Government Printing 
Office, and the General Accounting Office.
    I will comment that under the chairmanship of Senator Mack, 
for whom I worked for the 2 previous years in the last 
Congress, we worked very hard to decrease the spending in all 
three of these agencies. As I said in a previous subcommittee 
meeting, I think we did a pretty good job across the board for 
the legislative branch in bringing down expenses.
    The General Accounting Office in particular was faced with 
the challenge of absorbing a 25-percent budget reduction over 
the past 2 years. We will hear this morning on how these past 
reductions have been handled and how management has been 
conducted in these agencies.
    I am one who believes that once you have a belt tightening 
of this kind, it does not need to go on forever and the 
agencies need to be commended for doing a decent job. For this 
reason I have made it clear that I am not in favor of the 
position expressed by some Members of the House regarding a 
freeze in legislative branch appropriations. Such a freeze 
would indicate that we had not done our job in previous years 
and that some of the out of control activities that had been 
identified have not been brought under control.
    I would like to begin by commending the Library of Congress 
for its cooperation with the General Accounting Office as well 
as private consultants, Booz Allen and Price Waterhouse, in 
conducting a comprehensive review of the operations of the 
Library.
    The Library appears committed to improving the financial 
and management operations and has taken a number of steps which 
should result in cost savings and operating efficiencies. We 
look forward to hearing about those this morning.
    So, Dr. Billington, we welcome you and General Scott to the 
committee. We look forward to hearing from you.
    Senator Dorgan, the ranking member, has joined us.
    Do you have an opening statement, Senator?
    Senator Dorgan. Let me also welcome Dr. Billington and 
General Scott. We appreciate very much the service that you 
give to our country. I deeply admire the institution you serve 
and we are anxious to hear your testimony.
    Senator Bennett. Senator Stevens, do you have any comment 
at this time?
    Senator Stevens. No, thank you.
    Senator Bennett. Then, Dr. Billington, we are happy to hear 
from you.

                  opening statement of dr. billington

    Dr. Billington. Thank you, Mr. Chairman. I have submitted 
my full statement for the record which contains considerable 
detail both on our current operations and on the specifics of 
our request for the 1998 budget. I will also submit a full list 
of witnesses for the record. But I would like especially to 
introduce Gen. Donald L. Scott, the new Deputy Librarian, whom 
you will also be hearing from in just a minute.
    Senator Bennett. Without objection, your full statement 
will appear in the record.
    Dr. Billington. Thank you, sir.
    Mr. Chairman, the Library is like no other agency of the 
legislative branch and in many respects it is unique among 
institutions in the world. It is the world's largest, best 
organized, most accessible repository of knowledge and the most 
diverse, as well, in terms of the kinds of materials and 
languages it covers.
    With the support of the Congress, the Library of Congress 
serves both the national legislature, as well as the libraries, 
scholars, and plain citizens of the Nation. It is a resource 
that will be of increasing, incalculable value in ways we 
cannot even yet fully foresee to all Americans as we move into 
the information age.
    The Library is playing an important role in moving the 
legislative branch into that information age. Thanks to strong 
support from the Congress, the Library was able to rapidly 
develop the THOMAS system for making congressional information 
available online in a searchable form at the start of the 104th 
Congress. We are also working with the House and Senate to 
build an integrated legislative information retrieval system 
online at the start of the 105th.

                                 THOMAS

    THOMAS has already recorded more than 75 million electronic 
transactions, pretty clearly indicating the usefulness and 
appeal of congressional information to the American public.
    Congressional support, supplemented by major funding from 
private philanthropy for our national digital library, has 
enabled the Library to become a world leader in providing high 
quality content for the Internet.
    Congress is delivering back, in effect, increasing amounts 
of the Library's content to the American people.
    We are now recording about 42 million electronic 
transactions a month on all of our data bases, which is four 
times the number in 1993 and is close to 2 million transactions 
every working day.
    Our web site is widely recognized as one of the best.

                 Library's vision for the 21st century

    The Library's vision for the 21st century is to lead the 
Nation in ensuring access to knowledge and information and in 
promoting the Library's creative use for the Congress and for 
the Congress' constituents through the acquisition, 
organization, and dissemination of knowledge and solid 
information.
    Today, the Library faces the daunting, basic challenge of 
effecting a full transition to new, electronic services and 
more efficient electronically enhanced operations while at the 
same time continuing its basic services to Congress and the 
Nation. To maintain its services in the present, in other 
words, the Library must both preserve the past and embrace the 
future.

                             Strategic plan

    The Library has established priorities and carefully worked 
out a strategic plan that extends through the year 2004. The 
two key requirements are, first, a modest, but inescapable, 
capital investment in technology now to build an integrated 
automation system; and second is basic, continuing support from 
the Congress to sustain our traditional work of cataloging, 
collection security, and access to the collections.
    This basic support particularly requires funding mandatory 
pay increases and unavoidable price level increases. Otherwise, 
we face erosion of what we have already done; and make the 
transition, that will eventually have to be made anyway, even 
more costly in the future simply to keep up to date.
    In only 3 years, Mr. Chairman, the year 2000, the Library 
of Congress will mark its bicentenary. This, along with the 
millennium that approaches will put both added burdens and 
added opportunities on the Library, but it will, we think, be 
an occasion to show the Nation and the world that America's 
elected representatives have had the wisdom to create and 
sustain the greatest repository of human knowledge and 
creativity in world history and to make it important not just 
for today's Congress and today's citizens but for future 
generations.
    By funding the Library's 1998 budget request, the Congress 
will enable the Library to head into the 21st century with the 
capacity to make its operations more efficient, to broaden 
vastly its access to its collections, and to provide even 
better service to the Congress and to the American people.

                          prepared statements

    So, Mr. Chairman, I urge the subcommittee to support the 
Library's budget request and I now ask that the Deputy 
Librarian also make a short introductory statement that will 
cover the important areas of management for which he has 
assumed, I think quite extraordinarily, fast control.
    General Scott.
    [The statements follow:]
               Prepared Statement of James H. Billington
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to appear here to discuss the Library of Congress budget 
request for fiscal year 1998.
    With Congressional support and direction, the Library of Congress 
has developed over 197 years a massive collection of more than 111 
million items, cost-effective institutional networks, and a superbly 
knowledgeable staff. It has a potential unmatched by any other 
institution for making knowledge and information accessible to almost 
anyone almost anywhere.
    The Library directly serves not only the Congress but the entire 
nation with the most important commodity of our time: information. It 
is a unique resource of incalculable future value for the United States 
in the Information Age: a time when our society's economic productivity 
is increasingly based on information and individual achievement 
requires ever more life-long learning. The Library of Congress is 
fundamentally different from any other institution in the legislative 
branch of government.
    The Library's mission is to make its resources available and useful 
to the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity for future 
generations. The Library's first priority is to make knowledge 
available and useful to the United States Congress. This primary 
purpose can be realized only if the Library also preserves, secures, 
and sustains its incomparable collections for present and future use. 
These two activities are the top priorities in the Library's overall 
statement of mission and strategic priorities (attachment 1), closely 
followed by the imperative to make the Library's resources maximally 
accessible to the American people. The Library's ability to continue 
meeting these priorities rests on its ability to modernize its 
infrastructure and to advance its use of technology.
    The Library requests $387.6 million (including $30.4 million in 
authority to use receipts) for fiscal year 1998 to support its mission 
and strategic priorities. This is an increase of 7.1 percent over 
fiscal 1997; it includes $14.7 million to fund mandatory pay raises and 
unavoidable price-level increases and $11 million to meet critical 
growing workload increases (net of program decreases). The recent 
budget agreement includes a proposal that would increase the Library's 
mandatory pay costs by another $2 million due to higher agency 
retirement contributions. The additional $2 million in mandatory costs 
is not included in our budget request.
    During the past nearly 200 years, the Congress and the Library 
have, at critical times, taken necessary steps to integrate into 
Library operations the technology that will keep the Library's 
collection useful and relevant to the Congress and the Nation. The 
Library currently faces the fundamental challenge of effecting a full 
transition to the new electronic services and more efficient operations 
required for the Information Age while, at the same time, continuing to 
sustain its basic services. To ensure the Library's future utility to 
the Congress and the Nation, we are requesting this year new funds for: 
(1) a modern electronic Integrated Library System (ILS) that will 
provide inventory control and vastly improve the efficiency of core 
library functions including acquisitions, cataloging, collections 
security, and circulation and will ultimately save money; (2) continued 
implementation of our highest priority security initiatives, including 
additional police to cover newly renovated space and additional staff 
for an expanded reader registration program; (3) a temporary increase 
in additional FTE's and funds to support our staff succession plan to 
help ensure continuity of high-quality congressional and national 
services; (4) a temporary increase of $0.5 million for the Copyright 
Office to maintain registration processing at an acceptable level; and 
(5) the purchase of an additional 10,000 talking book machines to 
ensure the continued availability of the equipment for blind and 
physically handicapped people.
    In this time of budget austerity, the Congress has been extremely 
supportive of the Library of Congress, continuing to increase its 
budget over the past several years. However, the actual number of 
appropriated full-time equivalent (FTE) positions has declined by 435 
or 10 percent since fiscal 1992. The Library's budget has simply not 
increased enough to support the same number of FTE's that were funded 
in fiscal 1992. The Library has so far managed to accomplish its 
mission with fewer staff by: (1) identifying functions and activities 
that may have been desirable in the past but do not support high enough 
priorities to justify their costs in today's budget environment (for 
example, the Library has eliminated less popular reading room hours on 
Sundays and Tuesday and Friday evenings for the Main Reading Room, Law 
Library, and five other reading rooms); and (2) implementing changes in 
its business processes that improve the efficiency of operations (for 
example, the Library re-engineered the Federal Transfer Program, 
dramatically reducing the receipt and processing of millions of surplus 
materials from Federal agencies, thereby eliminating substantial 
handling costs).
    In fiscal 1997, the Library will shift some resources, with 
Congressional approval, to address general management improvements and 
security initiatives recommended in two recent GAO-commissioned reports 
(a management review by Booz-Allen & Hamilton and a financial audit by 
Price Waterhouse LLP). Because the Library did not receive price-level 
increases in fiscal 1997 and must fund several non-payroll priorities 
(e.g., auditor fees) from existing funds, the shift in fiscal 1997 
resources will cause a projected reduction of another 7 FTE's (see 
attachment 3). The Library is working on ways to carry out economy 
measures while addressing key GAO-sponsored recommendations, but it 
does not appear likely that they will provide large-scale financial 
savings in fiscal 1998.
    Since the Library's services are extremely labor intensive (some 70 
percent of our budget is for payroll costs), future economies must come 
primarily from re-engineering our major operations and from investing 
further in automation; both steps will improve the productivity of our 
staff. The Library's fiscal 1998 budget requests an increase of $6.1 
million for automation projects needed to improve internal operations 
and make the collections more accessible. The investment in better 
automation now will greatly improve service and save money in the long-
term. The investment the Congress made during the late 1980's and early 
1990's in the Library's automation program made possible both the rapid 
implementation of THOMAS in 1994 and the first release of a retrieval 
component of the Legislative Information System in January 1997. 
Investments made today may take several years to bear fruit, but will 
produce major productivity and quality improvements in our basic 
library and copyright operations. If we are to stay at the cutting edge 
for the Congress and the nation, we must invest today in three 
automation projects--the Integrated Library System (ILS), the Copyright 
Office Electronic Registration, Recordation and Deposit System (CORDS), 
and the Global Legal Information Network (GLIN).
    These major re-engineering and automation projects must be 
completed if the Library is to be as relevant to the emerging needs of 
the Congress and the Nation as it has been to those of the recent past. 
Funding our fiscal 1998 budget request, including provisions for 
mandatory pay and price-level increases, will enable the Library to 
sustain its basic services while continuing to modernize its operations 
for the future. It would bring the Library's automated systems up to 
the level now being achieved by other major research libraries in 
America. If this request cannot be granted, and we are, as a result, 
required to make further staff cuts before major productivity projects 
are implemented, we would make reductions in accordance with our 
priorities. We would regrettably have to begin fairly rapidly to reduce 
public programs--particularly those which preferentially serve the non-
governmental Washington area such as public reading room hours, 
reference support, and local access to the Library's buildings. We 
would reduce further, if not eliminate altogether, exhibits, 
publications, and other outreach programs.
    It would be tragic to cut back drastically on these traditional 
services on which so many who live in or come to Washington depend--and 
for which Congress has created such exciting new opportunities through 
its glorious restoration of the Thomas Jefferson and John Adams 
buildings. But the damage would be irretrievable if we cut back even 
for a year the basic acquisition and servicing of the collections, and 
it would be inadmissable not to sustain and advance the leadership role 
the Congress has encouraged the Library to take in sharing more of its 
contents with the nation as a whole. Future generations will not 
forgive us if we fail to make electronically accessible via the 
Internet the Library's unique and useful materials at precisely the 
moment when the Library's proven technological capability to provide 
such access is enjoying enthusiastic public--and growing private--
support. In short, we believe that the Congress should sustain its 
fruitful investment in the Library and not let erode the great 
institution it has wisely created and supported for 197 years.
    A brief review of the Library's past and present is essential for 
understanding the Library's priorities for fiscal 1998.
                             early history
    The Library of Congress is a living monument to the remarkable 
wisdom of the Founding Fathers who saw access to an ever-expanding body 
of knowledge as essential to a dynamic democracy. The Library's three 
buildings are named for Thomas Jefferson, John Adams, and James 
Madison. With their support, the Congress established the Library in 
1800 as soon as it moved to the new capital city of Washington and 
established the Joint Committee on the Library as the first Joint 
Committee of the Congress in 1802.
    Jefferson, in particular, took a keen interest in the new 
institution. After the British burned the Capitol and the Library 
during the War of 1812, Congress accepted Jefferson's offer to 
``recommence'' the Library and purchase his multilingual 6,487-volume 
collection (then the finest in America) at a price of $23,940. It 
contained volumes on everything from architecture to geography and the 
sciences. Anticipating the argument that his collection might seem too 
wide-ranging for Congress, Jefferson said that there was ``no subject 
to which a Member of Congress might not have occasion to refer.''
    Jefferson's ideals of a ``universal'' collection and of sharing 
knowledge as widely as possible still guide the Library. With 
Congressional blessing, it has grown to serve the Congress and the 
nation--largely as a result of four milestone laws: (1) the copyright 
law of 1870, which stipulated that two copies of every book, pamphlet, 
map, print, photograph, and piece of music registered for copyright in 
the United States be deposited in the Library; (2) the 1886 
authorization of the first separate Library building that contained 
openly accessible reading rooms and exhibition space for the general 
public; (3) the 1902 law which authorized the Library to sell its 
cataloging records inexpensively to the nation's libraries and thus 
massively help to subsidize the entire American library system; and (4) 
the law in 1931 that established the program in the Library to create 
and supply free library materials to blind and physically handicapped 
readers throughout the country. Congress thus established the basis 
both for the continued growth of the collections and for the extension 
of the Library's services to citizens everywhere.
    Congress created in 1914 the Legislative Reference Service (LRS) as 
a separate entity to provide specialized services to ``Congress and 
committees and Members thereof.'' In 1946, the Congress granted LRS 
permanent status within the Library and directed it to employ 
specialists to cover broad subject areas. Congress renamed the LRS the 
Congressional Research Service (CRS) in 1970 and enhanced its 
analytical capabilities by adding additional staff and emphasizing 
research support to the committees of Congress.
    More recently, Congressional statutes have created the American 
Folklife Center (1976), the American Television and Radio Archives 
(1976), the National Center for the Book (1977), the National Film 
Preservation Board (1988), and the National Film Preservation 
Foundation (1996)--further extending the Library of Congress' national 
role.
                     the library of congress today
    The core of the Library is its incomparable collections--and the 
specialists who interpret and share them. The Library's 111 million 
items cover more than 530 miles of shelf space and include research 
materials in more than 450 languages and almost all media through which 
knowledge and creativity are preserved and communicated.
    The Library has more than 26 million volumes, including 5,700 
volumes printed before the year 1500; 13 million prints, photographs, 
and posters; 4 million maps, old and new; 700,000 reels of film, 
including the earliest movies and television shows; 4 million pieces of 
music; 48 million pages of personal papers and manuscripts, including 
those of Presidents Washington through Coolidge; and hundreds of 
thousands of scientific and government documents.
    New treasures are added each year. Recent acquisitions, to name a 
few, include the collection of Marion S. Carson, the nation's most 
extensive private collection of Americana, which includes the earliest 
photographs ever taken of a human face and of an urban scene, as well 
as more than 10,000 manuscripts, rare books, broadsides, photographs, 
drawings, prints, and other original documents; the personal papers and 
several hundred original drawings of cartoonist, playwright, and 
screenwriter Jules Feiffer; the collection of jazz great Ella 
Fitzgerald, comprising some 10,000 music scores; and important rare 
books such as Antonio de Medina's Viaggio di terra Santa (1590), an 
extremely rare and richly illustrated Italian translation of a Spanish 
pilgrimage to the eastern Mediterranean.
    Every work day the Library's staff takes in approximately 10,000 
new items for its collections, organizes them, catalogs them, and finds 
ways to share them with the Congress and the nation--through on-line 
access across the nation, through in-person access in the Library's 
reading rooms, and through cultural programs that feature the Library's 
collections and reach across the country.
    The Library of Congress programs and activities are funded by four 
salaries and expenses (S&E) appropriations, which support congressional 
services, national library services, copyright administration, and 
library services to blind and physically handicapped people. A separate 
appropriation funds furniture and furnishings. Major services (see 
attachment 2) include providing annually responses to some 500,000 
congressional requests, registering more than 560,000 copyright claims, 
cataloging some 300,000 books and serials, and circulating more than 23 
million audio and braille books and magazines to blind and physically 
handicapped individuals all across America. The Library also now 
processes over one million Internet transactions every day (which 
provide access to the Library's on-line information files that contain 
more than 40 million records).
    The Library has become a world leader in providing high quality 
content for the expanding Internet, and was recently cited by Time 
magazine, among others, as one of the best websites of 1996. The 
Congress--and this Committee in particular--has made it possible for 
the Library to help bring the Legislative Branch into the Information 
Age. We believe that much more can be accomplished by investing further 
in the transforming technology required to exploit this unique national 
resource.
                     the library's planning efforts
    During fiscal 1996, the Library developed a Management Improvement 
Plan (MIP) to focus its efforts on implementing the Library's 
priorities: Provide Support to the U.S. Congress; Preserve, Secure and 
Sustain a Universal Collection; Make the Library's Collections 
Maximally Accessible; and Enhance the Educational Value of the 
Library's Collections.
    The MIP also addressed the useful recommendations contained in two 
reports commissioned by GAO and completed in 1996--a management review 
conducted by Booz-Allen & Hamilton and a financial audit conducted by 
Price Waterhouse LLP. The MIP contains nine parts: plans and programs; 
security (of people, facilities, collections, and data systems); 
management-employee communications; training and development; 
accountability mechanisms; support functions' efficiency and 
responsiveness; streamlined management processes; financial management; 
and broader understanding and appreciation of the Library.
    Using as our guide the Library's statement of mission and strategic 
priorities endorsed by the 104th Congress, we updated our 1993-2000 
strategic plan to take us through the year 2004. The Library's 
challenge, under the 1997-2004 strategic plan, is to sustain past gains 
while becoming a more efficient and effective operation. The Library's 
vision for the 21st century is to ``lead the nation in ensuring access 
to knowledge and information and in promoting its creative use for the 
Congress and its constituents.'' The United States has, and must 
continue to have, the finest national library in the world.
    With that background, I am happy to present the Library's fiscal 
1998 budget request, relating it to our priorities:
Support to the United States Congress
    The first priority of the Library of Congress is, and will remain, 
to serve the information and research needs of the Congress. The 
Congressional Research Service, the Law Library, the Library Services' 
Loan Division, and other elements of the Library of Congress provide a 
cost-effective, shared resource that serves all Committees and Members 
in a nonpartisan manner.
    The fiscal year 1998 budget request seeks funding for 25 additional 
FTE's in the Congressional Research Service as part of a multi-year 
succession plan. By 2006, nearly 52 percent of CRS' staff will be 
eligible to retire. This poses a significant threat to CRS' ability to 
maintain its current analytic and information services unless training 
of replacement staff can begin soon, under the tutelage of the senior 
staff who are eligible for retirement.
    As directed by the Legislative Branch Appropriations Act of 1997, 
the Library and CRS worked with the House, the Senate, and legislative 
agencies to put into production the initial release of a new retrieval 
component of the legislative information system (LIS). The retrieval 
component is based on national standards and is being built on an open 
architecture, which will enable the system to accommodate future 
improvements to data management systems. The purpose of the LIS is to 
improve the efficiency of dissemination of information for the 
legislative branch and to avoid unnecessary duplication of effort. The 
LIS will provide the Congress with far greater on-line access to a 
variety of legislative documentation, including: full-text legislation, 
bill summaries, committee reports, floor schedules, and the 
Congressional Record. The on-line availability of this information will 
make it easier for Members and staff to track bills through the law-
making process, and will also help CRS to do its work in a more cost-
effective and timely manner.
    In addition to the retrieval component of the LIS, the Library has 
participated in a number of discussions and meetings with legislative 
branch staff to support the establishment of a program for the exchange 
of information between legislative branch entities that would over time 
significantly improve information technology planning and evaluation.
    CRS also completed a major initiative during the past year to 
improve on-line delivery of its products and services. All CRS issue 
briefs are now available electronically to congressional offices 
through the CRS home page. This effort is part of a continuing program 
to improve the speed and delivery of CRS products and services by 
providing them to Members and staff on-line. CRS continuously updates, 
refines, and improves the availability of information on the CRS Home 
Page to ensure that we remain responsive to congressional needs.
    For its part, the Law Library is rapidly expanding its 
multinational electronic database called the Global Legal Information 
Network (GLIN) to ensure that the Congress has rapid and reliable 
information on foreign, international, and comparative law. GLIN made 
its debut on the Library's home page in July 1996. Member nations are 
contributing abstracts and full text of laws at the rate of 15 entries 
per day and growing. Fourteen countries have been fully trained to 
participate via the Internet, and the Library projects that GLIN 
membership will soon increase to 15-20 nations. The fiscal year 1998 
budget requests $223,362 and three additional FTE's to support the 
expansion of GLIN. The Library has been funding GLIN so far by 
reallocating existing resources, and NASA has provided support to 
explore and test satellite communications. In addition, international 
agencies (e.g., the World Bank) have provided support to participating 
nations. We project that GLIN will attract at least 50 members by 2002 
and will create an easy-to-use database, allowing faster service to the 
Congress. It should eventually produce savings to the Library's budget 
as other nations begin sharing the costs to acquire, catalog, and make 
accessible international laws.
Preserve, Secure and Sustain a Universal Collection
    The second priority of the Library of Congress is to preserve, 
secure and sustain for the present and future use of the Congress and 
the nation a universal collection of human knowledge, including 
comprehensive records of American history and creativity.
    A universal collection is even more essential today than it was a 
few years ago if the Congress is to meet its legislative and 
representational responsibilities. There are many more countries, 
institutions, and individuals creating important information on more 
subjects, and the Congress and U.S. Government have more complex and 
far-ranging concerns and needs than ever before. To keep America 
competitive and to foster creativity in the Information Age, Americans 
will increasingly have to rely on better and more timely use of 
knowledge. This, in turn, requires continuing access to the many 
languages and to the expanding range of formats in which important 
knowledge is now being generated, recorded, and communicated.
    The Library's unique resources provide an indispensable reservoir 
of information upon which important legislative decisions are made. If 
a democratic society is to be dynamic and productive, access to 
information is not a luxury, it is a necessity.
    The fiscal 1998 budget request supports this priority by funding 
several major items:
    Library Materials.--A price level increase of $1,161,000 is 
necessary to sustain purchasing power at fiscal 1995 levels and to 
recoup fiscal 1996 and 1997 price level increases for books, machine-
readable works, and other materials. Many of these are foreign 
publications--on all subjects--that are purchased from countries with 
high rates of inflation. The amount of material we can afford to 
purchase from appropriated funds has declined seriously--from 930,747 
pieces in fiscal 1992 to 707,695 pieces in fiscal 1996. We cannot 
permit further erosion in these acquisitions--particularly since these 
reductions disproportionately hurt precisely those foreign acquisitions 
which only the Library of Congress makes and which often have growing 
importance for our international competitiveness. We should not risk 
depleting what is, in effect, the nation's strategic information 
reserve. It will have many uses tomorrow that we cannot even imagine 
today.
    Copyright Office.--The fiscal 1998 budget request also supports a 
growing workload increase of five FTE's and $304,179 to continue 
implementation of the Copyright Office's pioneering Electronic 
Registration, Recordation and Deposit System (CORDS). We have reached a 
critical point in the development and implementation of CORDS. The 
Copyright Office has proved during its pilot of 1996 that electronic 
registration and deposit works. Now the CORDS system is being perfected 
through a number of critical test phases with external participants. 
CORDS will both (1) help the Copyright Office streamline its complex 
internal registration, recordation and deposit processes; and (2) 
provide the Library with copies of new copyrighted works in digital 
form for its collections. Re-engineering the Copyright Office's 
registration processes and integrating them with the Library's 
acquisition and cataloging processes is critical to the long-term cost-
effectiveness of operations. Electronic publishing is growing 
exponentially; and the Library must be a leader in testing and 
demonstrating the means to acquire, authenticate, store securely and 
provide authorized access to this vast body of new copyrighted works in 
electronic form. CORDS is a crucial component.
    For many years, the Copyright Office has been steadily increasing 
overall productivity even as its staff has shrunk. In fiscal 1980, a 
staff of 628 FTE's processed 483,000 claims; in 1996, a staff of 471 
FTE's processed 609,000 claims representing more than 700,000 works. At 
the simplest level, the staff in 1996 is 25 percent lower than in 1980, 
yet it processed more than 26 percent more claims. These gains were the 
result of systematically automating various processes and increasing 
the efficiency of manual procedures by eliciting ideas at all levels in 
the Copyright Office.
    More recently, however, the Copyright Office has been able to keep 
up with its irreducible clerical workload only by using overtime and 
additional temporary help. By the end of fiscal 1995, the steady loss 
of trained staff (particularly examiners, whose number fell from 64 to 
49 FTE's in three years, and whose expertise cannot be replaced with 
temporary staff) resulted in growing backlogs. The registration 
processing period has grown alarmingly from a norm of five to seven 
weeks in 1993 to more than 18 weeks now.
    To stem this growing backlog, the Copyright Office requests 
additional funding of $538,953 and 14 FTE's. Fiscal relief can come in 
the future through a legislated ability to increase the fee schedule, 
but a temporary increase for fiscal 1998 is needed to cope with the 
current workload.
    Security.--A fiscal 1998 increase of $1.3 million is requested to 
improve security. A number of needed security improvements have been 
funded by changing the priority for existing resources and by 
reprogramming resources, such as the fiscal 1997 reprogramming of funds 
that has enabled us to hire our new Director of Security. We have made 
major efforts here, as supported by the Congress.
    A key component of the collections security program is the reader 
registration program. Under this program, each researcher using the 
reading rooms is required to provide positive identification. Once such 
identification (photo ID with address) is presented, the Library issues 
a Reader Identification Card to the individual with the person's photo 
and signature, as well as a machine readable card number. Thus, patron 
information is available for management--including the Library's Office 
of the Inspector General, if necessary. The funding requested 
($393,410) will permit the operation of two reader registration 
stations, one in the Thomas Jefferson Building and one in the James 
Madison Building, the buildings in which most of the Library's reading 
rooms are located. The Library anticipates issuing 100,000 Reader 
Identification Cards annually.
    The fiscal 1998 budget proposes $417,035 and 18 FTE's for 
additional police officers. Seven additional police FTE's are needed to 
staff posts in the Library's Thomas Jefferson Building now that it has 
reopened. Funding for three FTE's (and authorization for a total of 11 
additional police FTE's) are also necessary to reduce the present 
police overtime rate. In fiscal year 1996, the Library contracted with 
Computer Sciences Corporation (CSC) to conduct an in-depth physical 
security survey of the Library and review police operations. CSC's 
report indicated that Library police are currently understaffed to 
accomplish their mission and must work excessive overtime which reduces 
their effectiveness. The Library's goal is to reduce police overtime, 
now computed at approximately 26,000 hours per year (roughly 25 percent 
of total scheduled hours), to approximately 10,000 hours (roughly 10 
percent of total scheduled hours). The Library believes a 10 percent 
overtime rate will not compromise the effectiveness and quality of 
performance. Our security requirements have increased since the 
Oklahoma City bombing incident in 1995, but we have not been able to 
increase our police staffing sufficiently to handle these new 
requirements without excessive overtime. Funding for $268,000 in non-
personal increases is also needed to train and uniform the new police, 
to support contract staffing for two new cloakrooms, for installation 
and maintenance of security equipment, and for contract support of some 
non-police functions.
    The copyright system is a major source of acquisitions for the 
Library. The high volume and great variety of materials that come in 
daily to the Library and are temporarily stored in tubs, on book trucks 
and on open shelves while awaiting processing create a point of serious 
vulnerability to untraceable loss. A key need of security is to gain 
item level control at the earliest point of entry into the Library. The 
fiscal 1998 budget requests $242,072 and six FTE's to apply magnetic 
strips and accession labels to all works as soon as they enter the 
Library through copyright.
    We have developed a Library Security Management Plan to integrate 
recommendations from CSC and others into a management level framework 
for phased and prioritized implementation of efficient, cost-effective 
solutions. The Library's highly-qualified new Director of Security will 
oversee the implementation of this plan.
    Integrated Library System (ILS).--Essential to improved security 
and overall process improvements is the Library's request for a $5.6 
million increase to purchase and install an Integrated Library System. 
This initiative builds on our previously-identified need to provide 
inventory control over our collections through the conversion of two 
very large manual files--our shelflist of over 12 million cards and our 
serial record file with cards for almost 900,000 serial titles. These 
files constitute the only comprehensive record of what book and serial 
copies have been added to the Library's collections over the course of 
nearly two hundred years. Information about these materials needs to be 
available to all staff and to public users from any location, not just 
to the relatively few staff with access to the card files.
    An integrated library system is essential for ensuring the security 
of the Library's collections. Currently, there is no Library-wide 
system for recording what we have and where it is. The security of the 
Library's collections depends to a very large degree on our procuring 
an automated system that will allow us to document and to track 
collection materials on a continuing basis from the point they enter 
the Library.
    The time has come when we must begin the systematic and overall 
replacement of our several separate, outmoded computer systems. These 
systems have served us well for over 25 years, and we are fortunate 
that there have been no major breakdowns or failures. But these legacy 
systems are simply not adequate to support us as we move into the 21st 
century. In order to continue re-engineering our business processes, we 
need a single system that integrates all major functional areas, such 
as cataloging, acquisitions, inventory, and circulation. Better 
automation support will enable Library staff to be more productive, 
permitting the Library to deliver existing products and services with a 
smaller workforce. For example, by streamlining cataloging, by 
eliminating inefficient and error-prone re-keying in several areas, by 
reducing duplicate acquisitions, and by minimizing the handling of 
materials, we expect to be able to reallocate substantial resources to 
other critical mission work, such as collection security. We estimate 
that we will be able to reallocate approximately $6 million per year to 
high-priority mission work once the new system is fully in place in six 
years. Overall, systems replacement will result in greatly improved 
service by providing a simple yet powerful public catalog, up-to-date 
information about the status and availability of materials in our 
collections, and easily traversed connections to a wide variety of 
research tools, including the rich resources of the National Digital 
Library.
    Preservation.--On the preservation front, the decay of materials 
printed and written on acidic paper continues to be a serious problem. 
Paper-based books and records are in effect being consumed by ``slow 
fires'' no less deadly than the fast fires that destroyed the Capitol 
and the Library of Congress in 1812. Though printing on more permanent 
alkaline paper is a recent encouraging development, millions of books 
published during the past 150 years on acidic paper bear the seeds of 
their own destruction.
    Since the 1970's, the Congress has supported the Library's national 
leadership in a scientific odyssey to solve the problem of 
deteriorating acidic paper. The objective has been to develop or obtain 
the use of mass deacidification processes to neutralize the acid in 
books and other paper-based materials before they become so brittle 
that the only way of saving the contents is by much more costly 
reformatting, such as microfilming.
    Congress approved our plan two years ago to expend no-year funds 
previously appropriated for mass deacidification development in order 
to work with a private firm to improve the Bookkeeper process and then 
to begin deacidifying books on a limited scale. For the first time 
since we began our search for a mass deacidification process 20 years 
ago, the Library moved beyond research and testing during the past year 
and began deacidifying books from the Library's collections, committing 
ourselves to deacidifying 72,000 books using the Bookkeeper process. We 
successfully treated 25,000 books in fiscal 1996 from the general 
collections, the Law Library, and the Asian Division and expect to 
treat an additional 47,000 books in fiscal 1997. A plan to deacidify 
another 275,000 books and evaluate other processes is pending approval 
of the Committee.
    There is more good news on the preservation front. As a result of 
installing a state-of-the-art audio preservation system to digitize 
audio materials, the Library took a giant step in 1996 toward 
preserving and increasing access to these hitherto little used 
materials in the Library's collections. This system's impressive 
features will allow the Library to preserve and restore at least 80 
percent of its audio collections, including more than 98 percent of the 
audio cylinders, at an unprecedented level of quality, and to undertake 
research essential for the preservation of digital audio data.
    Arrearage Reduction.--Arrearage reduction efforts remain a major 
Library enterprise. Despite steady reductions in staff, we continued 
during fiscal 1996 to reduce the backlog of unprocessed materials--by 
1.5 million items--while remaining current with new receipts. As of 
March 31, 1997, we have achieved a cumulative 50 percent decrease (19.7 
million items) in our backlog since the arrearage reduction project 
began. We are well ahead of our target goals for reducing the books and 
serials arrearage. We will continue to streamline cataloging and 
processing; but arrearage reduction work is unavoidably labor 
intensive, and we have reached the point where any further reductions 
in staff (before the cataloging process is re-engineered), which would 
result from not funding mandatory pay increases, would seriously slow--
and could reverse--the continued success in this major effort.
Make the Library's Collections Maximally Accessible
    The Congress has extended the services of the Library of Congress 
to the nation by providing public access to its rich resources through 
its 20 public reading rooms, through interlibrary loan, through a 
variety of special programs, and most recently through electronic 
access.
    The Congress also established in 1931 a program in the Library of 
Congress that creates and supplies free library materials to blind and 
physically handicapped readers throughout the country. Administered by 
the National Library Service for the Blind and Physically Handicapped, 
this service actually began in 1897 when the new Library of Congress 
building opened with a special reading room for blind patrons. The 
fiscal 1998 budget request includes a growing workload increase of 
$2,500,000 for procurement of audio cassette book machines. 
Approximately 10,000 units will be added to those currently scheduled. 
These machines will permit service without interruption and waiting 
lists.
    In fiscal 1996, the Congress approved a braille centralization 
initiative that had the potential of saving millions of dollars for the 
network of non-Federal libraries but would have cost the Library of 
Congress nearly $700,000 annually. Initially, the Library believed a 
portion of its costs could be absorbed; however, current budgetary 
constraints would unacceptably decrease the production and distribution 
of braille materials, the primary mission of the Library, to support 
this centralization initiative. Therefore, the Library is not 
implementing this centralization project and has encouraged the network 
libraries to pursue this initiative without Federal support.
    The Congress approved and funded the National Digital Library 
program as part of the fiscal 1996 budget. This is a public-private 
partnership to digitize the most important and interesting historical 
Americana materials from the Library for viewing by American citizens, 
in schools, libraries and homes everywhere. The overall goal is to 
digitize, in collaboration with other institutions, millions of 
American history items from the Library of Congress and other 
repositories by the year 2000--the Library's bicentennial. We are 
increasingly working in collaboration with other great American 
repositories with unique materials; and we are on schedule with our 
public-private partnership for raising the $60 million needed over the 
five-year period from 1996 to 2000: $15 million from the Congress and 
$45 million from the private sector. Making these priceless treasures 
of American history accessible to all Americans in their own local 
communities, is central to the Library's goal of enriching education in 
America and widening access to the documentary record of America's 
knowledge and creativity.
    This pathbreaking public-private partnership has so far generated 
the direct contribution by the private sector of $24.5 million, matched 
by the Congressional appropriation of $3 million per year beginning in 
fiscal 1996.
    The Library has seventeen large and unique collections online, 
fascinating archives of American history that have drawn wide public 
acclaim. They attract more than 4 million electronic hits a month. The 
National Digital Library Program was featured at the National 
Educational Summit attended by all state governors in April of 1996 and 
has been cited by Time magazine and many other sources as one of the 
best of all Internet websites.
    To date we have multi-year contracts in place for digitizing more 
than 1.7 million digital items in addition to the more than 300,000 
already archived. We have established a dozen ways to process and 
convert collections materials to digital form and to develop new 
technical standards for storing and sharing these items electronically. 
Operationally, we have built an efficient organization which will work 
to integrate this five-year public-private effort into the internal 
functions of the institution. Our pioneering work in making high 
quality content electronically available in a reliable and user-
friendly format is providing valuable experience for our (and other 
libraries) overall programs of electronic modernization.
    The Library of Congress has historically served not only Congress 
but the nation's libraries, providing leadership in cataloging and the 
development of technical standards. The creation of the catalog record 
and MARC standard, now used world-wide, was the Library's gift to the 
nation. Great economies of scale were possible by these developments, 
saving libraries the cost of duplicative cataloging and enabling the 
easy exchange of information. This role continues unabated in the 
digital era as we play a similar role, often in collaboration with 
other great research libraries, by helping the library and educational 
community gain local access to not just our catalog records but also to 
full documents, musical scores, collections of photographs, and many 
other types of materials which have never before been widely available.
    Standards and best practices will be crucial to the handling of 
electronic materials. Our Copyright Office is creating a system and 
technical architecture that will also handle full documents (digital 
objects), and is working closely with Library Services and the National 
Digital Library Project to develop an infrastructure for the future.
Enhance the Educational Value of the Library's Collections
    Through interpretive and educational programs, the Library shares 
its rich collections of printed books, manuscripts, prints and 
photographs, maps, sound recordings, and films with the nation's 
citizens. The Library's World Wide Web site has been particularly 
useful in reaching its various constituencies, including the general 
public. Electronic exhibits, one of the most popular areas on the Web 
site, permit people who cannot journey to Washington, D.C. to view in 
their own localities materials from the Library's exhibits and to learn 
about their significance in the history of mankind. Electronic exhibits 
are cost-effective--permitting the public everywhere to enjoy and 
benefit from them long after the physical exhibit has been dismantled. 
Library-developed publications are also becoming increasingly available 
on the Web, and active collaboration with publishers has resulted in an 
increased public awareness of the extraordinary and unique materials in 
the collections.
    The Library's interpretive and educational programs are fourth 
priority activities and have thus been made heavily dependent on 
private funding for their operation. Although the demand for more 
exhibits, programs, and publications grows, a combination of gift and 
trust funds, improved operational management, and technological 
opportunities have been and will continue to be relied upon to meet the 
need. The Library's private fund-raising has resulted in generous 
contributions from donors and from the James Madison Council in support 
of exhibits, scholarly programs, and publications. In fiscal 1996, we 
raised $10.6 million in new pledges and non-pledge philanthropic gifts 
with one of the smallest development offices of any major national 
cultural institution.
    In its centennial year of 1997, the Thomas Jefferson Building, 
magnificently restored with the support of the Congress, is now largely 
reopened. Scholars and researchers are able to use exceptional global 
resources in the new European, Asian, and African and Middle Eastern 
Reading Rooms. The Library opened a permanent and privately-funded 
``American Treasures of the Library of Congress'' exhibit on May 1, 
1997. This exhibit enables visitors to see for the first time a wide 
variety of the inspirational original documents of American history 
from the collections. More than 200 objects from the Library's 
incomparable record of America's memory from Thomas Jefferson's rough 
draft of the Declaration of Independence and Benjamin Franklin's 
letters to original musical scores by Gershwin and Jelly Roll Morton to 
Alexander Graham Bell's first sketch of a telephone and the earliest 
copyright deposit moving images from Thomas Edison's laboratory--all 
are on display in the Treasures Gallery. This sweeping exhibition, on 
display in the magnificent Thomas Jefferson Building, re-establishes 
the Library of Congress as a major tourist attraction; and for those 
who cannot visit Washington, an expanded on-line version of 
``Treasures'' is accessible on the Internet.
    In the year 2000, the Library of Congress will celebrate its 
bicentenary. Our 200th birthday provides the opportunity to heighten 
the nation's awareness and utilization of the Library as a major 
resource for the Congress and the American people as we enter the new 
millennium in the midst of the information age. Planning is underway 
for a national celebration with advice and participation from the 
Congress as well as the library, scholarly, and educational 
communities. The National Digital Library Program, through which the 
Library's collections directly reach American citizenry, is a key 
element of the celebration. Preliminary plans include on-site and 
digitized exhibitions on Thomas Jefferson, democracy, and knowledge, 
and on the history of the Library of Congress in American life; an 
illustrated history of the Library; the issuance of a commemorative 
stamp; Congressional authorization of a Bicentennial Advisory 
Commission and a commemorative coin series; national television and 
radio programming; and events at local levels. Most of the funding will 
come from private sources.
                        enabling infrastructure
    The Library's strategic planning process has developed objectives 
for the supporting infrastructure to ensure that the Library is able to 
carry out its mission efficiently in accordance with its priorities. 
The key objectives are motivating and mobilizing human resources, 
efficiently delivering electronic services and using space and 
equipment, and providing modern financial and information systems.
    In December 1996, the U.S. Court of Appeals for the District of 
Columbia approved the final settlement of the Cook class action 
lawsuit, which dates back to 1982. The Library has already put in place 
many of the agreement's provisions, including changing the selection 
process to ensure that it is fair and equitable; training all managers 
and supervisors in diversity awareness; promoting 39 class members; and 
reassigning three others. Working closely with the Departments of 
Justice and Treasury, payments totalling $8.5 million were made to 
class members in April. Above and beyond the implementation of this 
settlement, the Library has a continuing commitment to ensure equal 
opportunity and fairness in all our activities.
                     library buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care of the Library's buildings and grounds, 
which are critical components of the Library's infrastructure. Each 
year, the Library suggests priority capital improvement requirements to 
the AOC, and the AOC is responsible for submitting the budget request. 
The Library Buildings and Grounds budget request for fiscal 1998 totals 
$15,755,000--a $6 million increase from fiscal 1997, primarily for 
capital improvements required to support Library programs.
    Our prime concern has been off-site storage of Library materials at 
Fort Meade, Maryland. The Library has been working closely with the AOC 
on the building design for Storage Module 1, the first of several 
storage modules to be constructed at Fort Meade. The final designs and 
logistics plans will be reviewed within the next few months. 
Construction is expected to begin by the end of 1997. The AOC plans to 
have the facility completed in time for the Library to begin occupancy 
by mid 1999. Additional modules for collections, materials screening/
holding, furniture and equipment storage, and copyright deposits are to 
be constructed and occupied over the next 10 years. We envision a 
continuous building program at Fort Meade to ensure that the Library's 
growing collections remain secure and accessible. Additional funding 
will be needed in the future to support this building program as we 
vacate existing leased storage space in Landover, Maryland.
    Although the Library's plans for Fort Meade originally included 
building a nitrate film processing and storage facility, the Department 
of the Army has indicated that such a facility could not be constructed 
there. As a result, the Library has been exploring other alternatives, 
including seeking private sector donations to fund a major part of a 
facility at another location. The Library has developed a comprehensive 
plan for a new National Audio-Visual Conservation Center and is now 
developing a funding strategy that will likely seek congressional 
authorization for a public-private partnership similar to that which 
has made the National Digital Library program so successful.
                          proposed legislation
    The Library is seeking legislation to allow the Copyright Office to 
set the fees for basic services, to improve the efficiency of the 
copyright arbitration process, to improve financial management 
activities, to support the Library's bicentennial activities, and to 
seek permanent authorization of the American Folklife Center.
    Much of the work that the Copyright Office performs is a service 
for which the public pays a fee. In the past, the ideal ratio was 
thought to be 66 percent funded by fees with the other 34 percent 
funded out of appropriated funds. The latter was considered to be a 
reasonable offset for the value of materials that the Library acquired 
through the copyright system.
    Most copyright fees are set by Congress. From time to time Congress 
raises these fees, usually at the request of the Copyright Office. Each 
time the fees have been raised to reestablish the 2/3 fee-funded goal. 
The most recent increase was in 1991, when the fee was raised to $20.
    In the 104th and now in the 105th Congress, the House of 
Representatives passed legislation that gives the Register the 
authority to set the basic fees, subject to Congressional veto. The 
Senate did not act on this legislative proposal before adjournment of 
the 104th Congress and the legislation is now pending before the Senate 
(S. 506). The legislation would also authorize the Library to pay 
arbitrators involved in the settlement of royalty distribution 
proceedings directly with funds coming from the relevant royalty pool. 
Currently, the parties to an arbitration proceeding pay the 
arbitrators. The fiscal year 1997 budget authorized the use of 
offsetting receipts to pay the arbitrators pending approval of the 
authorizing legislation. We are again requesting the authority to use 
offsetting receipts in the fiscal 1998 budget.
    Early passage of this legislation is critical, since the Copyright 
Office is severely hampered by a lack of staff in several essential 
areas, and the registration and issuance of certificates is 
unacceptably now taking more than 18 weeks.
    The services provided by the Copyright Office are important both to 
copyright owners and to the economy. To provide these services in a 
reasonable time frame will require additional personnel, which in turn 
requires enactment of fee-setting authority early in the 105th 
Congress.
    We believe that this is relatively non-controversial legislation 
that both the majority and minority of the Senate Judiciary Committee 
will support. Because this legislation is essential for the budget, we 
request the help of the Appropriations Committees in expediting its 
consideration.
    Early in the 105th Congress, we will also seek approval, as we have 
for the past several years, of legislation to implement improvements in 
our financial management as recommended by GAO and by recently 
completed management studies. A key element needed to improve our 
financial management practices is a revolving fund to operate fee 
service activities. Particularly urgent is our need for revolving fund 
authorization to continue operating the Library's overseas Cooperative 
Acquisitions Program on the same financial basis as has been done so 
economically for 30 years. The General Accounting Office sent a letter 
to the Library at the end of January which stated that the Library 
could not continue to retain and use all of the funds collected for 
operating costs without clear legislative authority. Without new 
revolving fund authority to operate this Cooperative Acquisitions 
Program, the Library would need to end a cost-effective, widely 
appreciated service which benefits nearly 100 research libraries 
throughout the nation.
    The Library is seeking authorization for an Advisory Commission to 
guide the planning of its bicentennial in the year 2000. The membership 
will be largely Congressional, but will also include private citizens 
and representatives from other branches of government as well as the 
library and educational communities. The Congress of the United States 
created our oldest Federal cultural institution, has sustained and 
improved it over the years, and deserves to receive public credit and 
visibility at this 200th birthday as the greatest library patron of all 
time.
    Finally, the Library continues to work closely with the Board of 
Trustees of the American Folklife Center to pursue permanent 
authorization for the Center, and at a meeting last month, the Board 
adopted draft legislative language which is planned to be introduced in 
Congress later this year.
                                summary
    The Library's proposed fiscal 1998 budget supports the Library's 
mission and priorities. Thanks to the foresight and continuing support 
of the Congress, the Library of Congress has become the nation's 
principal knowledge reserve. The Library's ability to acquire, 
organize, preserve, and make increasingly accessible its unique 
resources is of critical importance to our knowledge-based democracy 
and to legislative policy-making.
    In only three years, the Library of Congress will mark its 
Bicentenary. By funding fully the Library's fiscal 1998 budget request, 
the Congress would prevent further staff reductions and the erosion of 
core programs that have already been reduced as a result of unfunded 
price level increases and other factors. This budget will enable the 
Library to improve internal operations through the use of new 
technology, to tighten the security of its staff and collections, and 
to position the Library to move into the 21st century with sufficient 
state-of-the-art services for the Congress and the Nation in the 
information age.
    For fiscal 1998, we submit a budget request that will enable us to 
continue to make the major contributions to the American people that 
Congress has supported for 197 years through its Library.
                                 ______
                                 
 Attachment 1.--The Mission and Strategic Priorities of the Library of 
                                Congress
                                mission
    The Library's mission is to make resources available and useful to 
the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity for future 
generations.
                               priorities
    The first priority of the Library of Congress is to make knowledge 
and creativity available to the United States Congress.
    The second priority of the Library of Congress is to preserve, 
secure and sustain for the present and future use of the Congress and 
the nation a comprehensive record of American history and creativity, 
and a universal collection of human knowledge.
    The third priority of the Library of Congress is to make its 
collections maximally accessible to (in order of priority): the 
Congress, the U.S. government more broadly, and the thinking and 
creative public.
    The fourth priority is to add interpretive and educational value to 
the basic resources of the Library.

                             ATTACHMENT 2.--LIBRARY OF CONGRESS COMPARISON OF APPROPRIATIONS, STAFF, AND WORKLOAD STATISTICS                            
                                              [For the fiscal years 1992, 1993, 1994, 1995, 1996, and 1997]                                             
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--                                                                 
                                      ------------------------------------------------------------------------------------                     Percent  
                                                                                                                 1997       Change 1992-97     change   
                                           1992          1993          1994          1995          1996        projected                                
--------------------------------------------------------------------------------------------------------------------------------------------------------
Library appropriations--actual.......  $328,170,000  $334,316,000  $330,864,000  $348,230,000  $352,399,000  $361,896,000     +$33,726,000        +10.28
Full-time equivalent [FTE] positions                                                                                                                    
 (appropriated)......................         4,549         4,492         4,163         4,180         4,114         4,107             -442         -9.72
Size of Library collections..........   101,395,257   104,834,652   107,814,587   108,433,370   111,080,666   113,580,666      +12,185,409        +12.02
Workload statistics:                                                                                                                                    
    Unprocessed Library arrearages...    33,576,196    27,456,787    25,431,296    22,491,071    20,970,523    18,900,000      -14,676,196        -43.71
    CRS--requests and services                                                                                                                          
     provided Congress...............       645,000       607,000       536,000       492,000       487,000       500,000         -145,000        -22.50
    Loans of collections to Congress.        48,790        43,876        43,465        36,368        31,026        35,000          -13,790        -28.26
    Copyright claims registered......       606,253       600,000       530,332       609,195       550,422       560,000          -46,253         -7.63
    Copyright inquires...............       430,773       433,700       402,163       500,746       432,397       450,000          +19,227         +4.46
    Services to the blind and                                                                                                                           
     physically handicapped [BPH]--                                                                                                                     
     readership......................       761,300       767,800       777,300       772,100       777,500       782,500          +21,200         +2.78
    BPH:                                                                                                                                                
        Books and magazines; total                                                                                                                      
         circulated..................    21,284,200    21,802,200    22,586,000    22,909,400    23,100,000    23,300,000       +2,015,800         +9.47
        New braille and audio books                                                                                                                     
         and magazines titles........         2,206         2,322         2,327         2,328         2,568         2,309             +103         +4.67
    Print materials cataloged........       266,793       260,957       279,809       276,348       289,509       300,000          +33,207        +12.45
    National coordinated cataloging                                                                                                                     
     operation [NACO]:                                                                                                                                  
        Library of Congress                                                                                                                             
         contribution................       122,861       118,921       114,333       124,911       115,714       115,800           -7,061         -5.75
        Outside contribution.........        61,730        75,794        78,176        96,655       106,182       120,000          +58,270        +94.39
    Exhibits, displays, and                                                                                                                             
     publications (funded by                                                                                                                            
     appropriations).................            35            31            31            27            15            18              -17        -48.57
    Regular tours....................        44,440        27,954        29,952        47,300        47,847        48,000           +3,560         +8.01
    Reference service................     1,326,945     1,306,264     1,198,358     1,145,757     1,129,952     1,200,000         -126,945         -9.57
    Main Reading Room and five other                                                                                                                    
     reading rooms hours per week....            78            69            65            65            65            65              -13        -16.67
    Items circulated.................     2,522,620     2,345,151     2,403,002     2,289,981     2,175,075     2,300,000         -222,600         -8.82
    Preservation treatment--original                                                                                                                    
     format..........................       269,388       304,134       288,111       339,636       274,086       290,000          +20,612         +7.65
    Mainframe computer transactions..    97,372,626   112,491,847   152,095,306   197,216,679   204,297,492   210,000,000     +112,627,374       +115.67
    Machine readable cataloging                                                                                                                         
     [MARC] records..................    23,981,266    24,670,791    25,090,965    26,100,661    26,320,667    27,000,000       +3,018,734        +12.59
    Internet transactions (LOCIS,                                                                                                                       
     MARVEL, worldwide web, and                                                                                                                         
     THOMAS public transactions) \1\.            NA     7,028,995    38,422,986    92,873,807   134,416,660   175,000,000     +167,971,005     +2,389.69
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Comparison based on 1993-97 data.                                                                                                                   
                                                                                                                                                        
NA: Not available.                                                                                                                                      



Attachment 3.--Total Library appropriations--Actual full time equivalent 
(FTE) positions

                                                            Total actual
                                                                   FTE's
Fiscal year:
    1992.......................................................... 4,549
    1993.......................................................... 4,492
    1994.......................................................... 4,163
    1995.......................................................... 4,180
    1996.......................................................... 4,114
    1997 (projected)...........................................\1\ 4,107
    1998 (requested).............................................. 4,203

\1\ Cumulative decrease of 442 FTE's or 9.7 percent from 1992 to 1997.
---------------------------------------------------------------------------
                                 ______
                                 
                 Prepared Statement of Marybeth Peters
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to present the budget request of the Copyright Office for 
fiscal year 1998.
    The Copyright Office's duties and responsibilities include issuing 
certificates of registration and recording statutory licenses and other 
important documents in an accurate, reliable and timely manner and 
creating and maintaining a public record of these actions. 
Additionally, it oversees and administers the copyright arbitration 
royalty panel system (CARP's), provides technical assistance on 
copyright to the Congress and to Executive Branch agencies, provides 
information services to the public and serves as a resource to domestic 
and international copyright communities. Importantly, it supports the 
Library of Congress, and thereby Congress and the nation, by obtaining 
and making available copies of copyrighted works for the Library's 
collections.
    Copyright is one of the shining stars of our economy. Domestically 
and internationally the copyright industries (those who produce and 
distribute computer software, books, music, motion pictures, television 
programming, recordings, and databases) are at the forefront of our 
economy, and copyrighted works are one of our leading exports. The 
copyright industries and those who support them account for almost 6 
percent of our Gross National Product.
    For the past two years you have heard references to the ``national 
information infrastructure,'' the ``information society,'' the 
``information superhighway,'' and the ``global information 
infrastructure.'' All these terms refer to the merging of computer and 
communications technology whereby copyrighted works in digital form 
travel all over the world. Domestically and internationally we are 
adjusting our copyright norms to bring us into the 21st century and to 
ensure copyright owners that their rights will be protected. Two new 
treaties which included ``digital agenda issues'' were concluded in 
Geneva, Switzerland on December 20, 1996. Protection of American 
creativity through copyright protection is critical to our continued 
progress and prosperity. The Copyright Office and the Library of 
Congress play a vital role in all this.
    Timely action by the Copyright Office, and complete, reliable and 
objective records of copyrights showing their authorship, ownership and 
legal status as well as licensing information are essential to 
copyright owners. Many benefits are tied to registration; United States 
copyright owners may not initiate a copyright infringement suit without 
first registering with the Copyright Office or without obtaining the 
Office's refusal to register. Certificates of registration along with 
certified copies of transfers of copyright ownership are relied on not 
only by our courts but by customs officials, foreign courts and various 
rights organizations.
    Despite several setbacks during the past year, the Office managed 
to accomplish much work. We processed approximately 609,000 claims 
representing more than 700,000 works and recorded more than 16,600 
documents containing more than 200,000 titles. Our requests for public 
information rose to 432,000. The Licensing Division collected 
approximately $187 million in royalty fees.
    There were several firsts in 1996.
  --On February 27, 1996, the first claim was received via the Office's 
        Electronic Registration, Recordation and Deposit System 
        (CORDS); the submission came from a graduate student at 
        Carnegie Mellon University who electronically submitted for 
        registration her doctoral thesis in computer science.
  --The first copyright arbitration royalty panel, which dealt with 
        more than $550 million in cable royalties for the years 1990-
        1992, was concluded. The arbitrators delivered their final 
        report in August, followed by the recommendation of the 
        Register of Copyrights to the Librarian of Congress, who issued 
        his decision in October.
  --The first claims to copyright and documents concerning rights came 
        in under the Uruguay Round Agreements Act which restored 
        copyright protection to millions of foreign works on January 1, 
        1996.
    Notwithstanding these and many other accomplishments, the Office 
lost ground in providing essential copyright services, and we are 
currently in a bind.
    In fiscal 1980 with a staff of 628 full time employees (FTE's) we 
processed 483,000 claims; in fiscal 1996 with a staff of 471 FTE's, we 
processed 609,000 claims. Thus, a staff which is reduced by 25 percent, 
processed a 26 percent increase in claims. This is even more 
remarkable, given the direction of the Office to expand its group 
registrations--that is, the use of a single application to encompass 
multiple works at a reduced fee. Group registration is possible for: 
unpublished works that are authored and owned by the same individual; 
serials; daily newspapers; newsletters; databases; and works whose 
copyright protection was restored under the Uruguay Round Agreements 
Act. Group registrations were established to encourage publishers of 
works that the Library needs for its collections to register their 
works immediately after publication, and in certain cases to ease the 
burden on individual creators. The result is that the number of 
registrations decreases but work does not decrease proportionately 
since each individual work in the group must be examined.
    The reality is that today we are confronted with an unacceptable 
backlog. During the past year, we coped with the backlog to some extent 
by using overtime and temporary employees. However, the steady loss of 
trained professional staff (particularly examiners, whose number fell 
from 64 FTE's to 49 FTE's in three years, and whose expertise cannot be 
replaced with temporary staff) resulted in the processing time for 
registration going from the norm at the beginning of 1993 of six weeks, 
to an average of 12 weeks in 1994 and 1995, and then, as a result of 
additional losses in the examining corps, to the current time of 18 
weeks.
    This unacceptable time frame must be reduced; otherwise, the 
copyright system will collapse--copyright owners will not be able to 
pursue infringers in a timely manner and will suffer irreparable harm. 
Furthermore, these excessive delays cause much additional work in the 
form of numerous inquiries about the status of in-process claims.
    To turn the situation around, the Copyright Office is requesting 14 
additional positions ($538,953) to support the processing of claims in 
a reasonable time. This would enable the Office to cope with the 
current work until fiscal relief comes in the form of legislation which 
would allow the Office to adjust fees as needed.
    Let me explain my reference to fee setting legislation. Two years 
ago I recognized that the Office needed additional funding to cover its 
basic services. I sought legislation to allow us to: (1) raise the 
existing fees in any year through a cumulative adjustment based on the 
rise in the consumer price index; and (2) allow us to invest a 
percentage of our prepaid fees in U.S. interest-bearing securities. The 
House passed legislation giving the Office fee setting authority; the 
language of the House bill was incorporated in S. 1961 at the end of 
the legislative session last year. Unfortunately, time ran out and the 
Senate adjourned without taking action on this.
    The House passed similar legislation on March 18, 1997 (H.R. 672). 
Mr. Hatch, chairman of our oversight committee, introduced the same fee 
provisions on March 20, 1997 in S. 506; that bill has cleared all 
committees and is awaiting action by the full Senate. Hopefully, the 
Senate will pass this bill in the near future. However, even if enacted 
within the next two months, the basic fees could not be raised until 
late fiscal 1999 or more likely fiscal 2000 due to the need to conduct 
a fee study, propose a fee schedule and hold hearings on that schedule, 
finalize a schedule to submit to Congress, which has 120 days to review 
the schedule and if it disagrees, reject it.
    Meanwhile, it is important that the Copyright Office not only 
maintain its service, but that it continue to development and implement 
its electronic registration, deposit and recordation system (CORDS). 
This system, which is an essential investment in the future, is 
critical to the Copyright Office and the Library of Congress. It will 
streamline our internal procedures and ultimately lead to major savings 
and improved service. It will provide the Library with the vast array 
of information products that are being created and disseminated in 
digital form.
    With respect to the Copyright Office, the benefits of the system 
are impressive. Today it takes 6 FTE staff members to handle 10,000 
claims annually; with CORDS fully implemented, this will drop to 2.5 
FTE staff members. Even where the full CORDS system is not used, i.e., 
Mixed CORDS, where the application is received electronically and the 
hard copy is sent separately, results in savings. The number of FTE 
staff members needed to handle 10,000 claims in such submissions drops 
to 4.5. Additionally, there are nonpersonal savings such as postage, 
space, printing and supplies, and the processing time for claims 
submitted through CORDS drops dramatically thereby benefitting the 
copyright communities and the public.
    CORDS is at a crucial juncture. During fiscal year 1998, the 
Library and the Copyright Office must take over the operation of CORDS 
from our expert consultant, the Corporation for National Research 
Initiatives. Additionally, CORDS, which uses the latest technology, 
must be integrated with existing automated systems. It must be expanded 
to additional user platforms, and a more powerful database engine is 
needed to handle an increasing volume of transactions.
    Additional development work also is needed to expand the system to 
handle all of the different formats in which works are being 
distributed. At present, the system can only handle text and images; 
but in the future, it must also handle sound recordings and audiovisual 
productions.
    Finally, we must begin to train Copyright Office staff as well as 
copyright owners to use the system. To accomplish these goals, which 
will move this project from the testbed stage to a production system, 
we are requesting five additional technical positions--two program 
analysts and three computer specialists ($304,179), which are essential 
for development and implementation activities.
    Let me now turn to security of the collections. We are asking for 
the authority to hire six mail technicians ($160,072) and to spend 
$82,000 for security targets and accession labels. The Copyright Office 
is the front door for copies that come to the Library's collection 
through the copyright system. It is important that security controls 
are attached to the copies at the earliest possible moment.
    In 1993 the Office, with the assistance of the Collections 
Management Division of Library Services, began targeting hardbound 
books. Approximately 71,000 books are targeted annually.
    The Copyright Office is requesting funding so that targets or 
accession labels can be attached to all items (CD's, videotapes, 
architectural drawings, prints, audio tapes, sheet music, microfilms, 
CD-ROM's, etc.).
    There is one additional matter. The Copyright Office is seeking 
legislation which would allow the Library to directly pay the 
arbitrators in distribution proceedings with funds coming from the 
relevant royalty pool. Currently, parties appearing before a copyright 
arbitration royalty panel must pay the arbitrators themselves. If this 
legislation is enacted, (it is included in the bill allowing the Office 
to set fees), we will need to continue the authority Congress approved 
in fiscal 1997 to expend up to $1.8 million from offsetting collections 
to pay the arbitrators engaged in distribution proceedings in fiscal 
year 1998.
    Thank you, and I welcome your questions which I would be pleased to 
answer now or more fully in writing.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear here today to discuss the fiscal year 1998 budget request for 
the Congressional Research Service.
    As I hope each of you has confirmed in your experience, the 
Congressional Research Service is your organization. The Congress has 
given CRS the task of providing the best information, research, and 
policy analysis, in contexts and formats you can apply directly to each 
stage of lawmaking. You expect our work to be reliable, accurate, 
unbiased, timely, and confidential. You want us to be efficient in how 
we manage and effective in what we do--providing quality products and 
services.
    Our budget request seeks funding to support two major priorities 
that the Service must meet in fiscal year 1998 to carry out its role 
successfully and to continue to fulfill your expectations. First, we 
must sustain the quality, quantity, and scope of work that the Congress 
expects from the Service, including completing the specific activities 
that the Congress directed the Service to undertake in fiscal year 
1997. Second, we must prepare for the potential concentrated loss of a 
large number of CRS professional staff due to retirement.
    To meet these priorities we are requesting a total budget increase 
of $4,189,000 in fiscal year 1998. Three-quarters of this increase, 
$3,051,127, is necessary to provide current services and covers 
mandatory pay and price-level increases. The recent budget agreement 
includes a proposal that would increase CRS's mandatory costs by 
$432,000; these additional costs are not included in the budget request 
before you. We also are asking for $1,137,873 to undertake a major 
initiative to address the second priority--provide a temporary increase 
in staff in order to manage the anticipated retirements of a large 
number of CRS staff and to ensure continuity in our services. The 
request maintains the current proportional funding split of 
approximately 90 percent to staff costs and approximately 10 percent to 
nonpersonals. Our priorities and challenges are outlined below.
our highest priority: sustain the scope and enhance the quality of crs 
                                services
    I would like to review briefly the work we undertook in fiscal year 
1996 that demonstrates our commitment to meeting your needs.
    The Congress called on CRS for information and analysis on 
approximately half a million occasions. In response to these requests, 
we created more than 1,000 new written research products. We delivered 
nearly 2,800 custom, confidential memoranda and gave 2,600 in-person 
briefings and consultations. More than 690,000 copies of our reports 
and issue briefs were distributed to the Congress last year.
    CRS staff provided research and analysis to Members and 
congressional staff on hundreds of legislative issues: on sweeping 
changes in welfare and immigration law, health care legislation, social 
security and retirement, wages and employment, telecommunications 
reform, the line-item veto, taxes, banking and finance reform, the Farm 
Bill and agricultural concerns, environmental issues, juvenile crime, 
and research and development policy. In addition, we covered issues 
related to the defense budget and to U.S. relations with Russia, China, 
and Japan, and monitored the situations in Bosnia and the Middle East.
Strategic Initiatives
    The Congress has undergone significant changes in recent years, and 
to respond CRS has undertaken several important strategic management 
challenges focusing on improving our services. In fiscal year 1996 our 
strategic initiatives produced a number of positive results, on which 
we continue to build.
    Budget and Appropriations Process.--A CRS analysis of Senate 
activity indicated that more than 70 percent of Senate roll call votes 
on the floor in 1996 was devoted to budget-related matters. As budget 
issues have increasingly become the focus of congressional work, CRS 
has enhanced its analysis of budget and appropriations issues and 
delivery of this work to the Congress. For example, new electronic 
formats available on the CRS Home Page have allowed the Service to 
present its analysis of appropriated measures in a dynamic environment 
that leads the user directly from the CRS report to relevant 
congressional and executive branch documents. In mid-March we met with 
the majority and minority staff of the Senate Appropriations Committee 
to discuss how CRS is analyzing and presenting budget and 
appropriations information. In addition to making this information 
available, we continue to analyze the implications of budget and 
appropriation issues as they impact specific policies and programs. 
Ongoing work with our sister agencies, CBO and GAO, seeks to improve 
the exchange of budget information.
    Impact of the High Turnover of Members of Congress.--In responding 
to high turnover in the membership of the Congress, a recurring pattern 
over the past three Congresses (with 39 new Senators coming on board 
since the November 1992 general election), we continued to offer 
assistance tailored to the unique needs of new Members. This assistance 
included organizing new Member seminars and preparing new products on 
public policy issues designed not only to meet the challenges of new 
Members and staff, but also to address the needs of returning Members 
and staff taking on new assignments. This year we intensified our 
efforts for the 105th Congress by scheduling visits to all new Member 
offices to brief Members and congressional staff about the services CRS 
provides. We are honored that the Senate Committee on Rules and 
Administration, in conjunction with the joint leadership, asked CRS to 
conduct the policy sessions for new Senators of the 105th Congress. We 
particularly appreciate the positive comments about the program by 
Chairman Warner, who personally attended a number of the sessions.
    Other Responses to Congressional Needs.--In addition to these 
efforts, we also are working closely with the Congress to apply new 
technology to the work of the legislative branch, to emphasize the 
importance of objectivity and nonpartisanship in CRS products and 
services, to review and improve CRS capabilities concerning the 
devolution of federal programs to the states, and to develop a strategy 
to allocate resources in light of legislative branch budgetary 
constraints.
    I am pleased to report that during the past year these initiatives, 
which drew upon the resident expertise within CRS, have enhanced the 
quality of our congressional services. I am providing for the record my 
report entitled ``CRS Strategic Goals for Meeting Changing Needs of the 
Congress,'' which provides a more detailed account of our work in these 
areas.
Service Improvements
    I also would like to bring you up to date on several other service 
improvements we have been working on for the past few years.
    First, the system we use to record and track inquiries from the 
Congress--the Inquiry Status and Information System (ISIS)--has been 
replaced by a new, networked request system (ISIS 96). This new system 
offers improved capabilities for assigning, monitoring, and responding 
to the high volume of congressional requests CRS receives each day. As 
the original system, which was installed 18 years ago, began to fail, 
it became critical to replace the system with one that will accommodate 
and more efficiently process the large number of congressional requests 
we receive.
    The new ISIS 96 is an integral element in our ability to provide 
timely, efficient responses to your requests and is serving as the 
backbone of our efforts to build an integrated management information 
system. In recognition of the critical nature of the system, I want to 
thank the Library of Congress for its continued support in this 
replacement effort and its cooperation in sustaining the system's 
reliability and ensuring its security.
    Second, the CRS Home Page makes available online exclusively to 
congressional offices all CRS issue briefs and numerous reports, as 
well as other linkages to resources related to the legislative work of 
the Congress. Through our Home Page the Congress has integrated access 
to a wide range of products and information. This service is now 
readily accessible electronically to Members and staff 24 hours a day.
    Third, we continue to improve the timeliness and accessibility of 
the Legislative Alert, our weekly listing of selected CRS products that 
focus on legislative issues expected to receive floor action in the 
Senate or the House. The Legislative Alert now is faxed to all 
congressional offices at the beginning of each week that Congress is in 
session; it is also available on the CRS Home Page. We appreciate the 
support and cooperation of the leadership of both chambers in assisting 
us with timely identification of these legislative issues.
    Fourth, we have been working to enhance information security at 
CRS. Growing reliance on local networks, the World Wide Web, and linked 
systems and documents makes it imperative for CRS to maintain vigilance 
against unauthorized access or manipulation of information. We have 
formed a permanent CRS systems security team to undertake a 
comprehensive assessment of our security needs. This team will conduct 
ongoing monitoring of CRS obligations as technology and intrusion 
capability evolve, coordinate efforts with the Library, and make 
recommendations when incursions or vulnerabilities are detected. We 
give high priority to the task of protecting the information needed to 
serve the Congress and will take the necessary steps to address 
possible risk of unauthorized penetration of stored material and 
transmissions.
Specific Congressional Directives
    CRS also is addressing specific congressional directives outlined 
in the conference report that accompanied the fiscal year 1997 
legislative branch appropriation. In that report the Congress asked CRS 
to coordinate the development of a retrieval capability for an 
electronic Legislative Information System for the Senate. The report 
further directed the Library's Information Technology Services office 
to provide the necessary technical support for that effort.
    Mr. Chairman, I am pleased to report that the initial version of 
this new legislative retrieval system provides the text of bills, the 
text of the Congressional Record and the Congressional Record Index 
since the 103rd Congress; summaries of bills and their status beginning 
with the 104th Congress; committee reports on bills for the 104th and 
105th Congresses; and the full text of all active CRS issue briefs. We 
soon will begin to add summaries of legislation back to the 93rd 
Congress.
    The retrieval system also provides links to floor and committee 
schedules and activities; GAO and CBO reports; connections to other 
Senate and House resources such as the Senate's Webster Home Page and 
the Senate Recording Studio's database of current floor debate; and 
access to copies of historical documents such as the Constitution and 
the Federalist Papers.
    In addition, as a result of a joint project initiated by the Senate 
Rules Committee and directed by the Office of the Secretary, a new 
component of the system soon will provide access to the text of 
amendments within minutes of their being offered on the Senate floor.
    In the fiscal year 1997 appropriations report the Service also was 
asked to contribute to meetings and discussions of the Senate Committee 
on Rules and Administration and the Committee on House Oversight in an 
effort to provide for ``the widest possible exchange of information 
among legislative branch agencies with the long-range goal of improving 
technology planning and evaluation.'' An important part of this effort, 
in which CRS has been an active participant, is to eliminate 
duplication, ensure better integration of data and systems between the 
two chambers, and thereby provide more effective service to the entire 
Congress.
    During the next year we will continue to work toward meeting these 
specific directives. We realize the importance of these projects to the 
work of the Congress, and we welcome the opportunity to assist with 
these efforts.
   our challenge: to prepare for the concentrated loss of crs experts
    Mr. Chairman, it is incumbent on me as the Director of CRS to 
apprise you that within a few years, as a result of the age and service 
profile of CRS personnel, the Service will lose a substantial share of 
its most experienced and valued staff through retirements. More than 20 
percent of current CRS staff will be eligible to retire by the year 
2000; more than 50 percent by 2006. The major historical reason for 
this extraordinary proportion of potential retirees is the consequence 
of the Legislative Reorganization Act of 1970, which expanded the 
capacities of CRS in order to match the analytical ability of the 
legislative branch with that of the executive branch. Another 
circumstance that created the current challenge is that, due to 
budgetary constraints, CRS has been unable to fill many vacancies 
during the past decade. Because of the concentration of senior CRS 
staff who are eligible to retire in the next few years, we consider 
projected retirement losses to be one of the greatest challenges facing 
the Service in the future.
Maintaining Our Information and Research Capability
    Last year we initiated a survey to determine the planned 
retirements and an analysis of implications for our research capacity 
through the year 2006. Such planning is essential if we are to prepare 
adequately for, and manage the impact of, this anticipated loss of CRS 
professional expertise. The survey indicated our projected losses in 
many issue areas, including health policy, social security, tax policy, 
defense budgeting, international trade, constitutional law, crime, 
biomedical policy, environmental issues, agricultural policy, and 
science and technology. The retirees' knowledge of their disciplines, 
their subject expertise, and their legislative experience will be 
exceedingly difficult to replace.
    The succession initiative presented in our fiscal 1998 budget 
request calls for an increase of 60 staff, hired over a three-year 
period; the first year, for example, adds 25 positions. This small 
increase in staffing will be eliminated during the following six years 
through retirements, returning CRS to its present staff size in fiscal 
2006. In addition, this temporary increase is one of a number of 
complementary strategies in our overall plan to minimize the risk to 
our research capacity created by the projected retirements of hundreds 
of senior staff in a short period of time. I emphasize that this 
increase is temporary: it does not represent a permanent expansion of 
the CRS personnel base or of the CRS baseline current services budget.
Effectiveness and Continuity of Service
    We believe that our succession initiative is an effective approach 
to address significant staff loss, while preserving continuity of 
service to the Congress. While part of our planning for the future 
entails detailing staff within CRS to meet temporary shifts in 
congressional priorities and supplementing staff with consultants where 
feasible, we need to build our long-term ability to maintain quality 
service to the Congress. Let me briefly describe the reasons for 
proposing this initiative.
    First, this succession initiative would allow CRS to hire the 
necessary staff in time to develop the breadth and depth of on-the-job 
knowledge about public policy issues needed to replace departing senior 
analysts and specialists, permit new staff to be mentored by those who 
will soon retire, allow us to increase diversity, and enable the new 
staff to more quickly develop familiarity with congressional processes 
and procedures. This multiyear initiative will require significant 
effort to recruit, select, train, and assimilate new staff.
    Today there are few ``apprentice'' staff working with more seasoned 
CRS analysts. This situation is in contrast to practices that prevail 
in many professional settings where generally there is an opportunity 
to develop planned annual additions to the intellectual base--such as 
associates in law firms, residents in medical settings, junior analysts 
in investment banking--where typically there are planned, annual 
additions to the stock of intellectual capital through multiyear 
apprenticeship programs.
    Second, the initiative would allow new staff the time to acquire 
the appropriate mix of capabilities to serve the Congress:
  --Developing a working knowledge of legislative and budget processes 
        as actually practiced.
  --Obtaining experience in examining and presenting issues from an 
        unbiased, public policy perspective.
  --Gaining knowledge of, and ability to take into account and convey, 
        a broad range of views on issues.
  --Developing a working knowledge of specialized subject-area 
        information resources.
  --Establishing contacts with experts in academia, government 
        agencies, and elsewhere.
  --Becoming proficient in using technology to acquire and analyze 
        information and incorporating it in products for the Congress 
        according to prescribed formats and standards.
    In addition, the six CRS-specific qualities that are part of the 
culture of the Service must be developed--objectivity, timeliness, 
accuracy, confidentiality, responsiveness, and resident expertise.
    Third, hiring some staff at the entry level typically brings aboard 
personnel who are familiar with the most recent and advanced 
methodologies and skills being taught or practiced--staff who are able 
to adjust to evolving demands for professional growth and who 
invigorate the institution.
    I want to underscore the importance of continuity of service--or 
the institutional memory, as we often call it--provided by CRS. The 
average tenure of a legislative assistant in the Senate today is 2.8 
years; the average legislative director has been on the job 3.5 years. 
By contrast, our average CRS analyst and information specialist has 
been building expertise at CRS on issues and how they are addressed 
within the legislative framework for 18.5 years. These CRS staff 
provide invaluable expertise, experience, and institutional memory on 
which Members and congressional staff have come to rely.
    I am providing for the record a copy of my report, ``Succession 
Initiative of the Congressional Research Service,'' which provides more 
detail on our succession initiative as well as the skills and expertise 
we seek to maintain.
    Thank you, Mr. Chairman, for allowing me to share with you and the 
other members of this Committee some of our recent accomplishments as 
well as our challenges for the future. We are grateful for the support 
of the Senate Subcommittee on the Legislative Branch in the past, and 
we are committed to working closely with you in the coming years to 
meet the challenges facing both the Congress and the Service.
                                 ______
                                 

Director's Report--Succession Initiative of the Congressional Research 
                          Service, March 1997

                           executive summary
    CRS is requesting funds to finance a succession plan designed to 
sustain its research capacity through the expected retirements of over 
half its staff between now and the year 2006. To responsibly manage 
this expected loss of senior capability, the plan would allow CRS to 
hire 60 additional full-time equivalent (FTE) staff over the next three 
years (25 in fiscal year 1998, 25 in fiscal year 1999, and 10 in fiscal 
year 2000) followed by an equal reduction in staff level during the 
following six years. By 2006 CRS would return to its current level of 
747 full-time equivalent staff positions without any interruption in 
the quality of its support to the Congress.
    By 2006, almost 52 percent of CRS staff will be eligible to retire.
    The overall succession plan would allow CRS to hire 60 additional 
full-time equivalent staff over the next three years to begin a 
replacement cycle designed to minimize the impact of the potential loss 
of nearly 400 staff.
    Funding for the succession plan requested for fiscal year 1998 
would allow CRS to hire 25 additional full-time equivalent employees in 
fiscal year 1998 to begin the replacement cycle set forth in the plan.
    The design of the succession plan is to bring new staff to CRS 
before its experts retire so that their institutional memory on issues, 
their knowledge of the legislative process, and the CRS service 
qualities of confidentiality, objectivity, timeliness, accuracy, and 
responsiveness which they have mastered can be passed on. This plan 
seeks to avoid shortfalls in the level and quality of service to the 
Congress during this period.
    The value of the institutional memory of CRS staff to the Congress 
is suggested by the fact that the average tenure of 18.5 years of CRS 
staff is in marked contrast to that of most congressional staff (e.g., 
less than 2 years for legislative assistant).
    The plan is effective because it allows CRS to hire, train and 
mentor new staff at entry-level salaries.
    This is not an initiative to permanently increase the Service's 
staffing. The succession plan would temporarily adjust the Service's 
FTE's. The proposed initiative anticipates hiring 60 additional FTE's 
over a three year period, with a subsequent net decrease of 60 FTE's 
over the following 6 years. By fiscal year 2006 CRS would return to the 
fiscal year 1997 authorized level of 747 FTE's.
    The Service has determined the highest priority staff needs for 
this initiative and is prepared to undertake a focused recruitment 
effort to expedite the hiring of these additional staff. Some of the 
legislative policy areas where the Service projects the need to act 
quickly are Social Security; Welfare; Transportation; Immigration; 
Crime and Criminal Justice; Agriculture; Military Personnel; Natural 
Resources; and Biomedical Policy.
    The Service will continue to consult with its appropriations and 
oversight committees as this initiative progresses.
    Throughout this effort, CRS will continue to pursue diversity, in 
the racial and ethnic makeup of its future staff, and in experience, 
perspective and skills.
                              introduction
    By 2006, almost 52 percent of CRS' staff will be eligible to 
retire. Unless planning and training of replacement staff can begin 
soon, CRS' ability to maintain services will be threatened. This, in 
turn, could compromise CRS' role as the primary congressional source of 
analysis and evaluation of legislative proposals as well as 
representational assistance.
CRS Risk Assessment
    Background.--The CRS mission and staff were greatly expanded by the 
enactment of the Legislative Reorganization Act of 1970. A large 
percentage of staff hired at that time make up the capacity of the 
Service today. Recognizing this, CRS undertook a methodical two-year 
assessment of the threat posed to its services by the prospect of 
concentrated loss of staff due to retirements. This threat and the work 
CRS had underway to address it were also discussed in the 1996 General 
Accounting Office audit of the Library of Congress conducted by Booz-
Allen and Hamilton. The audit report stated that ``CRS is currently 
conducting planning to sustain its intellectual capital'' which ``can 
alleviate the potential pitfalls and costs of any extreme change in its 
workforce in the future.''
    In order to more clearly define the risk posed, CRS conducted a 
survey of all eligible staff to estimate specific time frames within 
which its staff expected to retire, identify the planned retirements, 
and analyze the implications of those retirements for its research 
capacity through the year 2006. The assessment was conducted in order 
to (1) refine and sharpen the framework CRS uses to identify and 
prepare for congressional priorities over the next decade; (2) identify 
the losses CRS is likely to experience over the next several years in 
specific subject areas and across functional capabilities within CRS; 
and (3) determine what competencies and expertise will be needed during 
that time period to match CRS capacity to congressional needs.
    Findings.--The risk assessment showed that CRS is faced with a 
major threat to its ability to maintain services to the Congress 
resulting from the possibility that over 50 percent of the staff 
(nearly 400 staff) may retire between now and 2006. The policy areas in 
which the Service projects an immediate need include: Social Security; 
Welfare; Transportation; Immigration; Crime and Criminal Justice; 
Agriculture; Military Personnel; Natural Resources; and Biomedical 
Policy.
    The data regarding retirement eligibility, coupled with staff 
projections about when they will actually retire, led to the 
identification of a large number of issue areas where the one or two 
experts in a given policy area could leave at the same time, leaving 
CRS with little or no capacity to provide high-level analysis. 
Fortunately, data show that everyone does not retire on the first day 
of eligibility, but good management necessitates planning for their 
retirement to avoid any major disruption of services.
    Due to budgetary constraints during the past decade, today there 
are few ``apprentice'' staff working with senior CRS analysts. This 
situation is in contrast to practices that prevail in many professional 
settings where typically there are planned annual additions to the 
intellectual base--such as associates in law firms, residents in health 
and medical practices, and junior analysts in investment banking. In 
these fields, regular renewal of the stock of intellectual capital 
occurs through a multi-year apprenticeship program.
    The results of the CRS study of potential retirees and additional 
research and analyses \1\ laid the groundwork for the succession plan 
contained in the fiscal year 1998 budget request.
---------------------------------------------------------------------------
    \1\ Several private sector succession planning initiatives were 
useful in assisting the Service develop its plan. Senior CRS managers 
conducted discussions with Motorola and Proctor & Gamble Company to 
learn about how these companies approach succession planning. 
Additional information and insights were also obtained from researching 
succession planning in such companies as Corning Glass, AT&T, General 
Electric, and K-Mart.
---------------------------------------------------------------------------
CRS Succession Plan
    Introduction.--The anticipated loss of nearly 400 experienced 
staff, coupled with the knowledge that it will take 5-10 years to 
replace the breadth and depth of knowledge about the public policy 
issues resident in top level analysts and specialists, led to this 
proposed multi-year initiative. The initiative anticipates a temporary 
increase in staff by hiring 60 additional FTE's over a three-year 
period, with a subsequent net decrease of 60 FTE's over the following 6 
years. By fiscal year 2006 CRS would return to the fiscal year 1997 
authorized level of 747 FTE's. By fiscal year 1998 CRS will be ready to 
recruit in the highest risk areas, and begin the multi-year effort that 
will sustain essential services to the Congress.
    This initiative would allow CRS to hire and accomplish the most 
effective training of new staff before veteran expertise is lost. 
Hiring at the entry-level typically brings aboard personnel who are 
familiar with the most recent and advanced methodologies and expertise 
being taught or practiced--staff who are able to adjust to evolving 
demands for professional growth and who invigorate the institution. 
Failing to anticipate the need for new expertise usually results in 
discontinuities between the departure of an existing expert and the 
hiring of a new one, and reduces capability while a new staffer is 
acclimating to his or her new CRS role.
    In the meantime, CRS will continue to reassign staff to meet the 
most critical needs, and fill vacancies as they occur. However, the 
inability to provide a period of mentorship by retirees will result in 
gaps in coverage and quality of service while new staff members ``get 
up to speed''.
    The purpose of the succession initiative is not to restore staff 
lost through downsizing in past years nor to restore discontinued 
services.
    Projected Costs.--As noted above, the succession initiative is 
based on a temporary increase in staffing--hiring 60 additional staff 
over a three-year period (twenty-five in fiscal year 1998, twenty-five 
in fiscal year 1999, and ten in fiscal year 2000) followed by a net 
decrease of ten FTE's each year from 2001 to 2006--by 2006 CRS would 
return to the present FTE level of 747.
    The following table summarizes the year-by-year costs in comparison 
with the present base, and also shows the net change from one year to 
the next.

                        CRS SUCCESSION INITIATIVE FTE AND COST PROJECTIONS, YEAR BY YEAR                        
----------------------------------------------------------------------------------------------------------------
                                                              Net change from prior      Net change from fiscal 
                                                                   fiscal year           year 1997 (747 FTE's)  
                        Fiscal year                        -----------------------------------------------------
                                                              FTE's        Dollars       FTE's        Dollars   
----------------------------------------------------------------------------------------------------------------
1998......................................................        +25     +$1,137,873        +25     +$1,137,873
1999......................................................        +25      +1,585,146        +50      +2,723,019
2000......................................................        +10      +1,177,560        +60      +3,900,579
2001......................................................        -10        -121,962        +50      +3,778,617
2002......................................................        -10        -364,210        +40      +3,414,407
2003......................................................        -10        -534,403        +30      +2,880,004
2004......................................................        -10        -787,452        +20      +2,092,552
2005......................................................        -10        -972,059        +10      +1,120,493
2006......................................................        -10      -1,120,493  .........  ..............
----------------------------------------------------------------------------------------------------------------

    In projecting the costs of the initiative, a number of assumptions 
were made. First, it was assumed that the fiscal year 1997 staffing 
level of 747 FTE's will be maintained in each year by full funding of 
mandatory costs--cost of living and locality pay increases, for 
example--which will permit rapid refilling of positions which become 
vacant.
    Second, the plan is based on hiring staff at the entry-level, 
typically at GS-9 or GS-11. It is assumed that these new staff will 
perform successfully and will therefore progress at normal rates 
through promotion plans. This is consistent with the mix of positions 
CRS has maintained for decades. As senior staff leave, their positions 
are usually filled at a lower level, and the new hires promoted as they 
demonstrate work at the next higher grade. At any given moment, we have 
staff at different grade levels, each of whom progresses based on 
performance. The funding in the base assumes that there will be such a 
mix of staff at different stages in their promotion plans.
    Third, the cost projections in the table above include an estimated 
cost of living increase for each year, based on Congressional Budget 
Office estimates at the time the proposal was developed. All costs 
cover both salaries and benefits.
    With regard to benefits, the cost of new employees, who are covered 
by the Federal Employee Retirement System (FERS) in place for all hires 
after 1984, is significantly higher than the benefit rate paid for the 
projected retirees, most of whom are covered under the Civil Service 
Retirement System (CSRS). While the actual benefits will vary for each 
individual depending upon the specific elections with regard to health 
and life insurance and other benefit items, on average the 
Congressional Research Service budget must pay approximately 27.2 
percent for FERS employees compared to the average CSRS employee 
benefit cost of 11.8 percent.
    The following table shows the number of staff eligible to retire 
and the additional full-time equivalent positions requested under the 
initiative for each fiscal year.

 CONGRESSIONAL RESEARCH SERVICE STAFF ELIGIBLE TO RETIRE (CUMULATIVE BY 
          YEAR) AND ADDITIONAL FTE'S REQUESTED UNDER INITIATIVE         
                     [Full-time equivalents (FTE's)]                    
------------------------------------------------------------------------
                                                              Additional
                                                  No. of        FTE's   
                                                eligible to   requested 
                                                  retire      (above 747
                                               (cumulative)   FTE level)
                                                                 \1\    
------------------------------------------------------------------------
Fiscal year:                                                            
    1998.....................................            95           25
    1999.....................................           113           50
    2000.....................................           139           60
    2001.....................................           175           50
    2002.....................................           209           40
    2003.....................................           254           30
    2004.....................................           314           20
    2005.....................................           344           10
    2006.....................................           382  ...........
------------------------------------------------------------------------
\1\ Assumes fiscal 1997 funding will be increased each year to cover    
  mandatory costs, and departing staff will be replaced to maintain an  
  FTE level of 747. The temporary increase in FTE's from 1998 to 2000,  
  with a subsequent reduction of these FTE's (to be completed by 2006), 
  will permit CRS to mentor a small group of replacement staff in a few 
  critical subject areas prior to the retirement of experienced staff.  

    Timing.--The concept of the initiative is to hire entry-level staff 
before senior analysts retire. Allowing staff to overlap accelerates 
the learning process through on-the-job mentoring and allows time for 
the orderly transfer of institutional knowledge of public policy issues 
and of the congressional environment and process--knowledge which makes 
CRS so effective in support of the Congress.
    Based on CRS experience with entry-level analysts, several years of 
on-the-job experience are required for a new analyst to become reliably 
self-sufficient and to work with topics of greater complexity in 
meeting the needs of the Congress.
    A period of overlap, which will be possible only with funding for 
additional positions under the succession initiative, is needed for 
entry-level staff to acquire the knowledge of how Congress and CRS have 
dealt with issues in the past, and of the legislative process. Once the 
first group of retirements takes place--and hopefully their 
replacements will already be here as a consequence of this initiative--
these vacancies will be used to anticipate the next group. Ultimately, 
CRS will replace all of the retirees, but the headstart will allow this 
to occur in an orderly way without disruptions of congressional 
support. The plan to provide a multi-year period of overlap in critical 
subject areas in order to transfer institutional expertise will require 
significant effort to recruit, select and then train and assimilate 
staff into CRS.
    Recruitment.--CRS plans to recruit through a variety of mechanisms, 
with emphasis on a very successful approach used in past years--the 
Graduate Recruit Program. Under this program, CRS has conducted 
intensive recruitment from the graduate public policy schools which are 
found in universities throughout the country. These students represent 
a pool of strong candidates, with good grounding in advanced 
methodological techniques--traits which are necessary to provide 
Congress with a firm foundation for policy decisions. Many Graduate 
Recruits will come for a summer between their 1st and 2nd year. The 
next year, those who are successful will be placed in permanent 
positions. The program provides the opportunity for both CRS and the 
students to assess whether this is the right environment for them; it 
is also an excellent way to attract some of the best students. CRS has 
reached an agreement with its labor union to reinstate the Graduate 
Recruit Program, and is awaiting other required final approvals before 
embarking on this recruitment effort. In addition to Graduate Recruit 
placements, some positions will be filled through the normal posting 
process, or through a Law Recruit Program (a variant of Graduate 
Recruit) designed for law school recruitment.
    It is the CRS practice to pursue the institutional gains derived 
from diversity, in the racial and ethnic makeup of its future staff, 
and in experience, perspective and skills. A critical component of the 
Service's recruitment strategy is to attract professionals who are 
dedicated to public service and who have the greatest potential for 
remaining with the Service over time.
    Alternative Strategies.--The succession initiative is one of a 
number of strategies CRS is already implementing to help maintain its 
research and information capacity. Other strategies include detailing 
and reassigning staff internally, mentoring staff assigned to new 
areas, and using contractors for certain activities.
    As a matter of long-term practice, CRS has reassigned analysts to 
work on issues that require additional support due to immediate 
legislative needs. This past year the Service, with the approval and 
support of its labor organization (CREA), instituted a program that 
allowed for formal ``details''. Under this program the Service 
identifies areas that require temporary assistance as congressional 
priorities shift, notifies staff of the opportunity to provide this 
assistance, and selects from among interested staff to fill this need.
    CRS continues to carefully examine activities to determine which 
are appropriate to contract out and which should be performed with in-
house staff. The Service has successfully used consultants in a variety 
of subject areas to provide written products when in-house staff either 
do not have a specific type of expertise (actuarial services, for 
example), or when they are fully committed and cannot meet 
congressional deadlines without temporary outside assistance.
    The Service expects that contractors will continue to be an 
important resource, but that if it is to fulfill the mission that 
Congress has established, CRS must maintain a shared pool of resident 
policy experts and information specialists.
Unique Attributes Required of CRS Staff
    As a service organization CRS has focused its efforts on six 
service qualities that it must meet if it is successfully to fulfill 
the legislative needs of the Congress. These qualities define not only 
the standards which the organization must meet as it performs its 
mission, but also frame the attributes that are essential for its 
staff, both current and future. As CRS undertakes its succession 
planning and focused recruitment efforts, designed to replenish the 
loss of critical expertise, it must do so bearing in mind the special 
skills and talents requisite to the work it performs.
    It is therefore incumbent upon CRS to ensure the necessary period 
of training and mentoring by resident and seasoned experts in order to 
instill these unique skills in those that are hired and who will be 
responsible for providing the continuity of service that the Congress 
expects.
    The attributes required of CRS analysts are a combination of 
subject specialty training, which may be acquired elsewhere, and in-
house experience developed over time, working in the congressional 
setting with the specific responsibilities of such an analyst. Many of 
these skills are not routinely developed in academic nor in other work 
environments. Acquiring the proper mix of these capabilities requires 
not only talent, but ``time in training'', working along side 
experienced staff who can guide and assist in the learning process.
    These capabilities include, in general:
  --Acquiring working knowledge of legislative and budget procedures as 
        actually practiced.
  --Obtaining experience with examining and presenting issues from an 
        unbiased, public policy perspective.
  --Gaining knowledge of and ability to take account of a broad range 
        of views on issues.
  --Learning to present products and services in the manner and form 
        that best matches the needs of the client.
  --Developing a working knowledge of specialized subject-area 
        information resources.
  --Establishing contacts with experts in academia, government 
        agencies, and elsewhere who have related subject expertise.
  --Becoming proficient in using technology to acquire and analyze 
        information and use it in preparing products for the Congress 
        in prescribed formats and standards.
    In addition, a summary description of the six CRS-specific service 
qualities is provided below, accompanied by a listing of some of the 
skills required to successfully demonstrate these qualities.
                              objectivity
Service Quality
    The hallmark of CRS legislative assistance--that its work is non-
partisan and objective--must never be compromised. The Congress has 
available to it a wide variety of sources for research analysis and 
information. Unlike most of these sources, CRS adheres strictly to a 
policy of providing products and services which can be relied upon to 
be free of policy advocacy or partisan or other bias. This imprimatur 
of objectivity, combined with the other elements of its service 
quality, makes CRS uniquely valuable in the legislative arena. This 
attribute was central to the purposes for which CRS was created and 
remains essential to its future success.
Skills Needed
    Acquiring the skill to present policy issues in an objective, non-
partisan manner devoid of any appearance of advocating a personal or 
institutional viewpoint.
    Learning to remain independent of prevailing paradigms or 
assumptions in order to fairly treat all perspectives.
    Understanding and practicing the requirement that all Member and 
committee clients, regardless of party affiliation, majority or 
minority status, or particular viewpoint receive equal consideration 
and treatment.
    Developing the skill to frame responses in a manner that is clear, 
unambiguous, and minimizes the risk of misinterpretation in an often 
polarized environment.
                               timeliness
Service Quality
    The press of congressional business is such that the importance of 
timeliness as an objective for CRS cannot be overemphasized. Indeed, 
the speed with which CRS responds to client demands is unique among the 
many information resources available to the Congress. In order to 
satisfy expectations, the Service must meet or beat all client 
deadlines for legislative assistance and anticipate and be responsive 
to legislative timetables. CRS can only meet complex needs within a 
reasonable time frame if the Service maintains the requisite expertise. 
But in order to successfully meet those needs CRS must also be adept at 
managing conflicting deadlines through the negotiation process, 
anticipating needs to the extent possible, staying abreast of 
legislative timetables as they develop on specific issues, maintaining 
reasonable turn-around times for requests without specific deadlines, 
and insuring that all delivery methods--both manual and electronic--are 
as swift and predictable as possible.
Skills Needed
    Acquiring the skills to juggle priorities to meet immediate and 
often unanticipated legislative deadlines.
    Developing familiarity with legislative timetables and 
understanding implicit time constraints placed upon staff and Members 
at various stages of the legislative process.
    Fully understanding that information that is late may be of little 
or no value to a congressional client.
    Learning the skill of anticipating the unique needs of 
congressional clients as they work through legislatively active topics 
so that the knowledge base and products necessary to respond to urgent 
needs are available as needed.
    Cultivating a professional demeanor that consistently demonstrates 
the ability to endure pressures and interpersonal tensions natural to a 
fast-paced, high-stakes political environment.
                                accuracy
Service Quality
    CRS' goal is to provide 100 percent factual accuracy. The analysis 
and information CRS presents must be accurate and complete whether it 
originates within CRS or with others. CRS does not shade the 
presentation of information or its analyses to influence outcomes. The 
Service places critical thinking and broad and deep subject knowledge 
on top of solid research when undertaking its work for the Congress. 
CRS products and services on legislative matters must be reliable, 
current, and comprehensive. Analysis and information, in whatever form, 
must be current in relation to the time requested, and written products 
must reflect all relevant information available as of their dates of 
release. CRS products should explicitly state the assumptions, 
methodology, and resources relied upon.
Skills Needed
    Developing the ability to balance the need for timeliness with the 
critical need for accuracy.
    Acquiring the facility to maintain the currency of multiple 
products on a variety of subjects so that they reflect the latest 
developments.
    Becoming adept at the requirement of specifying assumptions, 
methodologies and sources for all analysis and conclusions.
    Developing the ability to make appropriate use of original sources 
while assessing their limitations and attaching appropriate caveats.
                            confidentiality
Service Quality
    The identity of a congressional client from whom the Service 
receives a request, the subject of such request, and the specific 
products and services provided in response, constitute confidential 
information which CRS will not disclose without prior authorization 
from the client. In meeting that obligation, the Service has drawn 
careful distinctions between written products which are advertised as 
available for congressional distribution, and those written 
specifically for an individual client with expectations of 
confidentiality. In the absence of specific authorization to the 
contrary, CRS always presumes a confidential relationship and acts 
accordingly.
Skills Needed
    Becoming familiar with the rules and procedures pertaining to the 
handling and sharing of all congressional information.
    Developing a trust relationship with all congressional clients.
    Becoming facile at working simultaneously for multiple clients with 
different viewpoints on the same or similar subjects without 
compromising confidentiality.
                             responsiveness
Service Quality
    As a support agency working closely with and exclusively for its 
congressional clients, CRS is expected to provide assistance which best 
meets specific congressional needs. Thus, CRS must respond with the 
most useful, legislatively-relevant products and services. The utility 
of CRS services depends upon clarity, brevity, product format, and 
sensitivity to audience expectations and levels of knowledge. To 
achieve the objective of being ``responsive'' the Service must maintain 
close contact with Members and staff generally, as well as with 
specific committee and Member offices. These relationships allow CRS to 
become familiar with the needs expressed by clients (and perhaps more 
importantly, needs which may not be expressed) and the nature of the 
intended use of requested responses. This close relationship also 
facilitates negotiations between clients and CRS staff as to 
appropriate responses.
Skills Needed
    Developing the skills of lucidity and brevity.
    Understanding client needs and the legislative context in which 
they arise.
    Learning the most appropriate way to present information and 
analysis in the manner and form that best meets the needs of the 
clients and is most useful to them.
    Developing the skill to present complex issues in language which is 
easily understood and free of jargon; developing the ability to write 
concisely in the vernacular of the legislative arena and to translate 
the language of specific disciplines into common parlance.
    Becoming skillful at framing the discussion of issues to contribute 
to the likelihood of achieving common ground for legislative 
consideration and debate.
                           resident expertise
Service Quality
    The breadth of knowledge, level of expertise, and legislative 
sensitivity of resident CRS staff are the underpinnings of all support 
the Service provides to the Congress. CRS must provide expert, multi-
disciplinary, and analytical support on all legislative matters before 
Congress. The concept of ``one-stop shopping'' for the Congress is 
critical in a time of wide ranging and complex legislative issues. So 
too, the institutional memory provided by a diverse CRS staff (made up 
of individuals who generally have tenure well beyond that of 
congressional staff) is of great value in dealing with recurring 
substantive and procedural legislative issues. CRS integration of 
knowledge from a variety of disciplines, such as law, economics, the 
social sciences, political science and international relations, as well 
as science, technology, natural resources, and library and information 
sciences provides the Congress with a unique source for analyses of the 
multi-faceted issues before it. This multi-disciplinary staff enhances 
CRS' ability to anticipate legislative issues and to provide creative, 
interdisciplinary analyses. This knowledge base must be maintained and 
nurtured to assure that the quality of service is not compromised.
Skills Needed
    Learning to apply academic training and experience in the context 
of lawmaking.
    Developing expertise in legislative procedures and legislative 
branch organization which cannot be acquired elsewhere.
    Applying subject knowledge in an interdisciplinary context, working 
closely with CRS experts covering virtually all public policy areas.
    Acquiring experience over time which becomes invaluable 
institutional memory that can be used to assist Members and staff on 
matters and precedents that pre-date their tenure in the Congress.
    Learning how to remain constantly vigilant to new methodologies, 
programs, and research designs that could be applied to analytical 
research.
    Adapting to information and research technologies available to CRS 
and the Congress and utilizing those technologies to best serve the 
client.
                               conclusion
    The past 25 years of experience suggests that it takes at least 
five years for an entry-level analyst to develop subject expertise and 
knowledge of the legislative environment sufficient to handle complex 
issues in the way a senior analyst can. Brief examination of the CRS 
service qualities reinforces this need to anticipate and prepare for 
internal staff turnover. New analysts can make this transition more 
easily if mentored for a few years by senior staff--in this way the 
previous legislative efforts become part of the knowledge base and 
improve analysis of each issue. If the Service waits until all of the 
retirement-eligible leave before replacing them, it will lose the 
opportunity for such mentoring and will reduce its analytical capacity 
in a large number of critical areas during the period that new staff 
are developing expertise.
    The average tenure of a legislative assistant in the Congress today 
is less than 2 years. The average Legislative Director has only been on 
the job for less than 3 years. Congress cannot obtain the analysis it 
needs, set against the knowledge of what Congress has done in the past 
and an in-depth understanding of the legislative process, unless it 
develops and has continuing access to a shared staff.
    As discussed above it is clear that it takes years for a staff 
member to develop the breadth and depth of expertise Congress needs to 
provide close support on complex public policy issues. This expertise 
develops from basic subject expertise (which new staff have) combined 
with knowledge of how Congress has addressed issues in the past, and 
from an in-depth understanding of the legislative process which takes 
years to acquire.
    The succession initiative is one of a number of strategies CRS is 
already implementing, including detailing and reassigning staff 
internally, increasing mentoring, and using volunteers for certain 
activities. These measures, while important in providing continuity, 
cannot in themselves remedy the cumulative expected loss of 
institutional memory and capability created by anticipated staff 
retirements.
    The purpose of the initiative described here is to provide a multi-
year mentoring and development period for new staff to be trained by 
retiring staff. In this way, CRS hopes to manage the transition 
smoothly, and maintain its current analytic capacity.
                                 ______
                                 

 Director's Report--CRS Strategic Goals for Meeting Changing Needs of 
                      the Congress, December 1996

                  accomplishments and work-in-progress
                               memorandum
                    Congressional Research Service,
                                       Library of Congress,
                                                 December 27, 1996.
TO: All CRS Staff.
FROM: Daniel P. Mulhollan, Director Congressional Research Service.
SUBJECT: Report on work toward CRS strategic goals.

    One year ago, in December 1995, I convened senior CRS managers for 
a two-day session to examine evolving changes in the character and the 
work of the Congress and to identify goals and initiatives for assuring 
that CRS would continue to strengthen its support for the Congress by 
anticipating and meeting its changing needs. At this focused and highly 
productive session we identified six significant, strategic goals for 
CRS and a number of specific actions for achieving these goals.
    The six strategic goals for enhancing CRS service to the Congress 
are (1) improving our ability to meet information needs as the Congress 
addresses public policy issues increasingly through the budget and 
appropriations process; (2) making creative and effective use of 
technology to improve our services and internal work processes; (3) 
strengthening our effectiveness in providing objective support to the 
Congress during a time of increased political and ideological 
polarization; (4) positioning ourselves to meet increasing needs for 
research and analysis regarding state and local developments; (5) 
developing a framework for decision-making about resource allocation in 
an environment of constrained budgets; and (6) providing support 
specifically designed for new Members and staff as they assume their 
duties, as well as for returning Members and staff taking on new 
assignments.
    Over the last year, support for achieving these goals has come from 
all quarters of CRS. Approximately 150 CRS employees, representing all 
divisions and offices, volunteered to serve on six goal-oriented teams. 
These team members, in turn, consulted widely throughout the Service to 
gather information, to solicit suggestions, and try out new ideas. They 
conferred with many individuals and consulted larger groups, including 
conducting consultative management meetings in each division.
    I am pleased to report that all specific actions identified by 
senior managers in support of the six strategic goals have received 
effective, conscientious attention. Most of the originally specified 
actions, and some additional tasks identified by teams while pursuing 
their work, have been completed. Other actions, by their nature, 
require and are receiving continuing attention. Those relating to the 
sixth goal, serving needs arising from increased congressional turn-
over, are being pursued in the context of the arrival of the 105th 
Congress.
    Because the six strategic goals derive directly from the needs of 
the Congress and because we have made significant progress toward 
achieving these goals, I have highlighted these accomplishments before 
our appropriations and oversight committees and in discussions with 
individual Members. Uniformly, congressional reactions have been 
favorable.
    As a direct result of work on the six strategic goals, CRS has 
already experienced important improvements in its service to the 
Congress and can look forward to further significant gains. These gains 
come from establishing or refining organizational arrangements and 
responsibilities in such areas as technology policies, budget and 
appropriations coverage, and sharing of Federal/State resources across 
LC/CRS organizational lines. They come from reviewing and improving CRS 
policies and procedures including clarifying and emphasizing 
objectivity standards, developing criteria for allocating resources, 
and setting performance objectives for the evolving Legislative 
Information System. They also come from a number of more specific 
actions such as adopting WordPerfect 7.0 as the next generation word 
processing package for CRS and initiating appropriate application 
tests, enhancing the CRS Home Page, including information resource 
pages, and being selected by both the House and the Senate to provide 
the official public policy orientation for new Members.
    This report summarizes accomplishments and work-in-progress for 
each of the goal-oriented teams. I want to thank each of you for your 
direct and indirect support of this process. Our work has been both 
productive and effective with highly constructive results. We have 
accomplished many goals we set for ourselves. These accomplishments are 
reflective of the thoughtful, creative, and analytical staff of CRS. I 
thank you all for the time and energy you continue to devote to ensure 
that CRS remains a unique and highly valued resource to the Congress.
                           budget focus team
    The Budget Focus Team has enhanced CRS capacity to meet the 
analytical and information needs of the Congress as it addresses public 
policy issues increasingly through the budget and appropriation 
process. The team reviewed the manner in which the entire Service 
addresses budget and appropriations-related issues. This team worked in 
concert with a pre-existing team (the Appropriations Team). Beginning 
with fiscal year 1996, the Director's Office worked with an 
interdivisional team whose members became authors of reports analyzing 
the major issues inherent in each appropriation bill. Their efforts, 
coupled with those of the Budget Focus Team, addressed seven specific 
goals and identified additional actions, as specified below.
Goal:
    Evaluate adequacy of CRS coverage of budget issues, identify high 
priority areas and whether client needs are met.
Accomplishments:
    CRS will continue the practice begun in fiscal year 1996 of 
analyzing the issues arising from each of the 13 appropriations bills 
and preparing an overview of all bills.
    CRS will report on all significant budget developments; budget-
related products will be regularly updated; and budget products will be 
easily identifiable.
    CRS will continue to develop products covering the four basic 
components of the budget process: the President's budget, the budget 
resolution, appropriations, and reconciliation. Specific products to 
analyze supplementals, rescissions, and continuing resolutions will be 
created as needed for significant bills when it is determined that a 
product is required.
Work in Progress:
    Starting with the 105th Congress, CRS will enhance coverage and 
analysis of policy issues that are addressed in the budget and 
appropriations process. For example: (1) products covering major non-
budget policy issues, but with large potential budget implications, 
will contain an analysis of these implications; (2) on a case-by-case 
basis, mentors will be assigned by management to work closely with 
analysts newly assigned to budget-related issues; and (3) all CRS 
products on policies or programs will cover the implications of the 
budget or appropriations whenever these implications figure 
significantly in policy formulation or program change.
Goal:
    Address the knowledge base of CRS staff on budget issues, determine 
training needs, and design an introductory budget course for CRS staff. 
Evaluate adequacy of resources to support budget-related projects.
Accomplishments:
    Examined the current level of budget related training and 
recommended three levels of training: beginning, advanced and 
specialized.
    Designed a two-day intensive introductory class on the 
appropriations process. Classes were held for Appropriations Team and 
Budget Team members and other CRS staff in October and November of 1996 
(28 staff members attended). Additional classes will be held in 
January, with priority given to Budget Team and Appropriations Team 
members. The Congressional Reference Division conducted a course on 
budget documents and information sources for members of the 
Appropriations Team.
    Developed the capability within the Library Services Division to 
acquire, organize, and distribute both paper and electronic budget and 
appropriation materials to divisions and analysts.
Goal:
    Determine the role of CRS in the budget arena vis-a-vis CBO and 
GAO. Assess adequacy of relationships of CRS staff with staff of CBO, 
GAO and OMB and agency budget and program personnel.
Work in Progress:
    Compared functions of CRS, CBO and GAO in the budget arena. The 
team found uneven but generally good working relationships with GAO and 
CBO. Several activities are under way to improve the relationship and 
exchange of information among CRS, CBO, and GAO, including (1) the 
Associate Director for Research will review methods of gaining easier 
access to CBO and OMB computer runs of budget-related material and ways 
of facilitating access to some other CBO material, including scoring of 
appropriations and other budget bills; and (2) division-level 
management will identify ways to improve communications between CBO and 
CRS.
Goal:
    Assess adequacy of relationships between CRS staff and staff of 
authorizing, appropriations, and budget committees.
Accomplishments:
    Appropriations reports listed specific analysts responsible for 
issues covered in the report.
Work in Progress:
    Continue to develop closer relationships with the staffs of the 
appropriations subcommittees.
Goal:
    Evaluate the efficiency and effectiveness of the management and 
coordination of budget related projects.
Work in Progress:
    Recommended that senior management adopt a clear and consistent 
policy involving increased attention to budget products. Coordination 
of ongoing work across division and office lines in CRS would be 
facilitated by a team approach working within the existing 
organizational framework. The team advocated creating an ``Advisory 
Group on the Budget'' to coordinate, advise, and consult with the 
Associate Director for Research on issues related to budget-related 
products and services. For the fiscal year 1998 budget cycle, 
coordinators of the appropriations team will play this role in 
consultation with the Deputy Director.
    The Appropriations Team will continue under the direction of the 
Deputy Director to lead the Service coverage of budget and 
appropriation issues.
                            technology team
    The Technology Team sought to make the most creative and effective 
use of technology in improving CRS services to the Congress and also 
CRS internal work processes. The team addressed three specific goals 
and recommended a number of additional actions.
Goal:
    Take a snapshot of current electronic infrastructure, including 
hardware, software, internal and external data bases, staffing for 
technical support, and training.
Accomplishments:
    Interviewed and gathered documentation from CRS offices and 
divisions to provide a comprehensive view of the current electronic 
infrastructure of CRS.
    Constructed charts outlining the baseline technological 
infrastructure of CRS and specifying hardware and software capability 
supporting the major functions and activities of CRS.
    Gathered additional information consisting of inventories of CD-
ROM's in CRS and of audio-visual equipment and descriptions of 
electronic activities of the Automation Office teams, the Electronic 
Research Products Office, the Bill Digest Section, and the Library 
Services Division.
Goal:
    Elicit initial staff input on development of a comprehensive and 
integrated legislative information system.
Accomplishments:
    With the CRS Automation Office, conducted a series of six meetings 
to which all CRS staff were invited. Staff suggestions included 51 
types of data to be considered for inclusion in a Legislative 
Information System (LIS) and 35 suggested functional attributes for the 
system.
    Worked to ensure that suggestions incorporated in the design and 
construction of the LIS, as its development progresses incrementally, 
provides CRS staff with accessible resources for meeting the needs of 
the Congress.
Goal:
    Examine the current process for determining division and CRS-wide 
technology needs.
Accomplishments:
    Developed an understanding of current processes for determining 
technology needs and formulated recommendations for improving those 
processes by providing a structure that accommodates change while 
taking into account effects on and needs of users.
    Planning under way to form a CRS-wide technology policy group that 
will consult with technology users, recommend CRS technology 
priorities, disseminate relevant technology information, and review and 
approve implementation plans for new projects. Previously established 
special-focus groups such as the CRS Web Policy Group and the CD-ROM 
Policy Group are to be subgroups of the larger CRS-wide group.
    Modified the CRS staff Home Page to provide information about 
automation training opportunities and user tips such as the ``Database 
News,'' the ``CRD Searcher'' and similar aids.
    Developed a pilot program in the CRS Automation Office for 
improving troubleshooting support throughout CRS.
    Installed Windows 95 as the new operating system for CRS.
    Selected the next generation word-processing program for CRS, 
WordPerfect 7.0, and began efforts to simplify and streamline 
production processes as an integral part of introducing this software. 
An interdivisional team is now doing preliminary testing.
    Helped design professionally moderated focus group sessions with 
congressional staff, conducted by Westat, to explore congressional 
experiences with CRS electronic services. Six focus groups met. The 
average number of congressional staff participating was eight. 
Proposals arising from these sessions are now being considered: 
availability of all CRS products on-line, development of electronic 
ordering capability, enhancement of search features, and creation of a 
less complex, more readily accessible Home Page design. Suggestions 
were also offered for new services for the Home Page.
Work in Progress:
    The Technology Team is exploring additional actions for achieving 
objectives set for the team.
  --Establish and attain technology competencies throughout CRS, 
        appropriate for specific jobs and functions.
  --Enhance technology support by developing the necessary skills for 
        the requisite number of staff and determine the extent to which 
        technology support staff should be centrally located and 
        supervised or be dispersed throughout CRS.
  --Initiate a pilot study to examine the feasibility of establishing a 
        CRS-wide approach to purchasing or subscribing to electronic 
        resources. Planned implementation includes capabilities such as 
        on-line databases, CD-ROM's and specialized software to ensure 
        consideration of evolving choices of electronic resources, 
        compatibility with existing systems, accommodation of needs for 
        paper-based resources, accessibility wherever needed throughout 
        CRS, and minimum costs to CRS.
  --Examine alternatives for enhancing electronic production and 
        delivery of CRS products and congressional use of electronic 
        delivery systems.
                       decreasing resources team
    The Decreasing Resources Team developed a framework for making 
decisions about resource allocations and resource use in an environment 
of constrained budgets in order to continue to place the highest 
priority on the legislative needs of the Congress. Subteams completed 
several tasks, including service-wide consultative management meetings 
to elicit staff perceptions and ideas for improving CRS products and 
services and supporting systems.
Goal:
    Generate processes, criteria, requirements that must be met when 
any additional resources are sought (personnel and non-personals).
Accomplishment:
    Developed selected factors or criteria for divisions and offices to 
address in seeking additional personnel and postings. These criteria 
were used to select fiscal year 1996 postings. Criteria included 
ability to move staff or work to meet changing demands, definition of 
the scope of the recruitment effort, diversity and upward mobility 
goals, and overall budget impact. The purpose of the exercise was to 
focus on the implications of hiring decisions, the necessity of linking 
hiring with legislative needs, and alternatives to hiring within a 
division or CRS as a whole.
Goal:
    Examine the bases used to determine current allocation of non-
personals.
Accomplishments:
    Examined the allocation of non-personal resources and recommended 
changes in the process of making allocations to divisions and offices. 
Recommended modifications include a reexamination of built-in costs of 
database and print subscriptions and development of a new, easily 
understandable sub-allotment process at the beginning of each fiscal 
year. Opportunities will be provided for divisions and offices to seek 
changes in allocations throughout the year as needs arise.
    Reviewed CRS database and subscription budgets to determine the 
most efficient ways to utilize these increasingly important resources 
throughout CRS (See Technology Team section).
Goal:
    Determine guidelines for division and office authority for final 
decision making on already allocated resources.
Accomplishment:
    Reviewed and endorsed the current system for final decision making 
on the disbursement of allocated resources.
Goal:
    Elicit staff input to (1) develop a high-priority list of work 
processes for streamlining within each division or office; (2) identify 
five or more products, services or activities, within each division and 
within CRS, for potential elimination, transfer to the Library, or 
restructuring; and (3) create an environment, among managers and staff, 
conducive to moving staff and work within and between divisions and 
offices to improve subject-area coverage and service to Congress.
Work in Progress:
    In May 1996 began to elicit ideas on opportunities for efficiencies 
within CRS and to identify products, services, or activities that might 
be eliminated, transferred to the Library, or restructured. The Deputy 
Director and the Associate Director for Finance and Administration 
conducted discussions with staff in each division and office to gather 
suggestions throughout the Service.
    Continue to track the many specific and useful suggestions being 
discussed by individual divisions or offices responsible for specific 
programs or services as well as discussions that are part of current 
CRS efforts to anticipate increased staff retirements.
    Encourage consideration by Division Chiefs of a list of 
alternatives to explore shifting staff and work to high priority 
subjects. An independent effort to provide staff details for up to one 
year, based on an agreement with CREA, provided the kind of flexibility 
contemplated by this task.
Goal:
    Reexamine the need for time accounting.
    No modifications were determined to be immediately necessary, but 
examination of the issue continues.
Goal:
    Brainstorm options to ensure uniform application of performance 
evaluation standards.
Work in Progress:
    Continue to examine options that will foster a clearer 
understanding of performance standards and methods and ensure that all 
divisions and offices are applying them consistently. This examination 
continues efforts initiated in 1995 to encourage Division Chief and 
manager participation in promotion reviews outside their divisions or 
offices.
Goal:
    Identify the impact of ISIS 96 on work processes and make necessary 
adjustments.
Accomplishment:
    Established a service-wide group of coordinators to ensure that the 
components of the first release of ISIS 96 meets CRS needs. A new team 
has been established to ensure subsequent releases consider service-
wide and individual division and office needs.
Goal:
    Complete senior level managerial performance evaluation revisions 
and seek Library adoption.
Work in Progress:
    The Director submitted to the Library in late December 1995 a set 
of recommendations to Library of Congress regulations governing senior-
level managerial performance. CRS will continue to work with the 
Library in refining and improving these regulations.
Goal:
    Distribute to RPC materials on LCR and contract performance 
provisions.
Accomplishment:
    In March 1996 the Office of Policy Compliance completed and 
distributed to supervisors a CRS Supervisor's Manual providing clear 
guidance on the meaning and application of Library resolutions as well 
as collective contractual bargaining provisions relating to staff 
performance.
                  objectivity and nonpartisanship team
    The Objectivity and Nonpartisanship Team looked at ways to preserve 
and strengthen CRS effectiveness in providing objective support to the 
Congress and ensure inclusion of the broadest possible range of diverse 
viewpoints in the work of the Service. This team anticipates that the 
environment in which the Congress acts will continue to be polarized 
along political and ideological lines. The team's work focused on four 
specific goals.
Goal:
    Consider and modify (if necessary) guidelines for policy review to 
reflect diverse viewpoints.
Accomplishments:
    Reviewed and refined CRS procedures, guidelines, and practices 
relating to achieving objectivity and nonpartisanship in CRS products 
and services.
    Compiled a set of current CRS guidelines, LC regulations, and other 
documentation concerning objectivity and nonpartisanship as an aid to 
understanding policy and practices concerning balance and objectivity. 
The compilation was distributed to all CRS staff in December 1996.
Goal:
    Reexamine CRS disclaimers.
Accomplishment:
    Reviewed statements on the CRS Home Page and drafted statements 
about CRS nonpartisanship and disclaimers regarding non-CRS resources 
appearing on CRS products and services.
Goal:
    Review acquisitions and data base resources to ensure diverse 
viewpoints.
Work in Progress:
    Worked with divisions to review and assess the ideological balance 
of public policy literature including the Public Policy Literature 
File. Resulting recommendations for changes in coverage are being 
implemented.
Goal:
    Hold consultative management meetings in each division to discuss 
the need to recognize diverse view points and to provide opportunities 
to discuss related problems and issues.
Work in Progress:
    Began scheduling for staff meetings in each division to provide the 
opportunity to consider objectivity and nonpartisanship issues in the 
context of the new Congress.
                       federal-state shifts team
    The Federal-State Shifts Team addressed increasing congressional 
needs for research and analysis regarding state and local developments 
as the Congress shifts responsibilities for many programs from the 
federal government to the state level. The team developed four specific 
goals and identified additional actions.
Goal:
    Determine congressional needs for CRS assistance relating to 
program and policy shifts occurring between federal and state 
governments.
Accomplishments:
    Built on the assumption that the congressional need for CRS 
information and analysis concerning federal-state policy issues will 
continue to grow. Such congressional interests reflect a long-term 
devolution of responsibility and authority and the fact that states are 
and will continue to serve as laboratories for innovations in many 
policy areas.
Goal:
    Assess the extent to which CRS is currently supporting Congress on 
federal-state policy issues.
Accomplishments:
    Conducted an internal survey of 78 CRS analysts, librarians, and 
other staff who work on federal-state issues. The survey found that CRS 
currently devotes substantial resources to providing information and 
analysis to Congress on federal-state issues. All divisions have 
responsibility for issues in these areas.
    Collected information from all CRS divisions about the types of 
requests from Congress for information and analysis at the substate 
geographic level and CRS's ability to answer them. This information is 
currently being analyzed.
    Completed a checklist of CRS products on federal-state issues and 
issued the product on November 29, 1996 (96-964 L).
    Began preparation of a new issue brief on federal-state issues that 
may be part of an info pack on the subject.
Goal:
    Identify problems related to availability, collection, and use of 
information concerning federal-state policy issues.
Work in Progress:
    Actively seek a replacement source for information issued by the 
now-terminated Advisory Commission on Intergovernmental Relations 
(ACIR), particularly the report ``Significant Features of Fiscal 
Federalism.'' The Rockefeller Institute of Government is planning to 
publish both volume 1 (the survey of state budget and tax laws) and 
volume 2 (the repackaging of Census of Governments data) in May 1997. 
CRS will explore these and other possible alternative sources.
    Work with Library staff to address access to archived government 
electronic resources.
    Develop recommendations on how to respond to decisions by executive 
branch statistical agencies pertaining to the availability and utility 
of information; monitoring changing availability and formats of 
products; improving accessibility of electronic products to CRS staff; 
and preserving present data for the future.
    Monitor a pilot study now under way to assess state materials 
received by the Library's Exchange and Gift Division State Documents 
Unit and to determine the value of this material to CRS and the impact 
its integration would have on CRS.
    Begin to assess the usefulness of commercial on-line systems, such 
as State Track and Legislate's state regulation files.
Goal:
    Identify CRS staff and resource requirements to support Congress on 
federal-state policy issues.
Accomplishments:
    Determined that CRS needs to improve interdivisional and staff 
communications, develop better ways to communicate with Congress about 
the work of the Service in this area, and establish better databases 
and models to facilitate manipulation of large data sets on federal-
state developments.
    Obtained a prototype version of the Catalog of Federal Domestic 
Assistance (CFDA) in an electronic database format from Westat. The 
CFDA electronic database will be integrated into the Education and 
Public Welfare Division's pilot Program Information Explorer (PIE) to 
be tested in early 1997. It will allow analysts to locate statutory and 
administrative information on federal programs and link this to federal 
budget data.
Work in Progress:
    Create an internal CRS federal-state issues Home Page to serve as a 
vehicle for providing and sharing information within CRS about federal-
state issues and the availability of materials relating to these 
issues. This Home Page will list new reports by CRS and others that 
focus entirely or in part on the federal-state-local system and 
relationships. After this staff Home Page is operational (expected 
early in 1997) information can be made available to congressional 
offices.
    Monitor a pilot project involving the CRS welfare reform team and 
Lotus Notes, a Groupware application, to facilitate communication and 
the sharing of information resources regarding federal-state issues.
                      congressional turnover team
    This team identified ways to prepare CRS to meet congressional 
needs in an environment increasingly marked by high congressional 
turnover. Much of the team's work is assigned to subteams that have 
been or will be established to complete specific actions or groups of 
actions. Work began in August with a series of focus groups designed to 
elicit information on CRS services and continues with efforts focused 
on programs for the 105th Congress.
Goal:
    Conduct a focus group review of CRS support for new Members and 
staff.
Accomplishments:
    The social science research firm, Westat, conducted five focus 
groups with professional staff from 104th Congress new Member offices 
(one focus group with new Senate offices and four with House offices). 
Elicited congressional staff perceptions on what services CRS provides, 
how well CRS meets their needs, how available and objective CRS staff 
are, and whether or not CRS responds appropriately to sensitive 
matters.
    Identified through these focus groups characteristics of CRS that 
are especially valued by Congress: ready response, institutional 
knowledge, coverage on legislative matters, nonpartisan information, 
complement to committees as information source, and a supplement to 
office staff.
    Gathered suggestions to enhance CRS services. The suggestions 
ranged from creation of a legislative hotline to increased outreach, 
better tracking of information requests, and more electronic services. 
Focus group suggestions are being examined more fully by the team and 
by the Director's Office.
Goal:
    Prepare for the 105th Congress by (a) reviewing and revising 
orientation materials, programs (seminars, open house, etc.), and 
correspondence, (b) planning policy issues coverage including products 
and seminars, (c) organizing new Member seminars, (d) conducting in-
person outreach (e.g. office visits), (e) supporting congressional 
sponsored programs for new Members, (f) exploring additional support 
targeted at new Members/staff, and (g) developing systematic monitoring 
and data collection of CRS experience with new Members.
Accomplishments:
            Orientation Materials
    Produced a new 12-minute introductory videotape on CRS, which will 
be distributed to Member offices and will be shown at CRS regular 
weekly briefings on services.
    Redesigned CRS printed orientation materials for the 105th Congress 
to more carefully target and tailor products. A subteam created two new 
brochures, ``Services to Members'' and ``Services to Congress,'' the 
latter designed for staff; two new rolodex cards (one for Members); and 
a wallet size card for Members with key CRS telephone numbers. The team 
also created a portfolio describing CRS services with fact sheets on 
CRS assistance and on each function within congressional offices.
    Sent all Members-elect a letter several days after the election 
describing CRS services; will send a letter to each Member office's 
administrative assistant and legislative director describing CRS 
services and offering in-person briefings on CRS.
            Seminars and Programs
    Received congressional endorsement to provide the official public 
policy orientation for new Members of the House and Senate. This task 
included a one-day policy seminar at the Library for Senators-elect on 
December 5. Five Senators-elect attended. A three-day program for new 
House Members will be held in Williamsburg on January 22-24. Both 
programs received support from the bipartisan leadership of the House 
and Senate.
    Initiated review of current seminars and programs that will be 
provided directly the first few months of the First Session of the 
105th Congress, including the budget seminar series.
            Reports and Other Services
    Issued the CRS Report, ``105th Congress: Key Issues and Early 
Agenda'' (97-1 F), on December 3, 1996.
    Installed a Members-only telephone line to facilitate access to CRS 
analysts and services.
    Created a Guide to the Legislative Process on the CRS Home Page.
            Evaluating Programs
    Review CRS efforts to prepare for the 105th Congress and develop 
management systems to collect and evaluate relevant information and 
report findings.
Goal:
    Evaluate committee liaison effort and recommend options for the 
future.
Work in Progress:
    Create a subteam to address how CRS can best ensure effective, on-
going liaison with the committees of the 105th Congress.
                 appendix--strategic goals team members
                           budget focus team

                   Donald Kiefer (ECON), Team Leader

Michael Anderson (CRD)
Patricia Ayers (CRD)
John Blodgett (ENR)
Stephen Daggett (FAND)
Michael Davey (SPR)
John Fischer (ECON)
Sharon Gressle (GOV)
Paul Irwin (EPW)
Jean Jones (ENR)
Nancy Jones (ALD)
Robert Kirk (LSD)
Janet Kline (EPW)
Martin Lee (ENR)
Paul Rothberg (SPR)
Mallary Stouffer (RSH/ERPO)
Patricia Wertman (ECON)
Philip Winters (ECON)
                      appropriations coordinators

                     Angela Evans (DO), Team Leader

Michael Anderson (CRD)
Carl Behrens (ENR)
Suzanne Cavanagh (GOV)
Ralph Chite (ENR)
Stephen Daggett (FAND)
Michael Davey (SPR)
Paul Dwyer (GOV)
John Fischer (ECON)
Alfred R. Greenwood (ENR)
Marc Humphries (ENR)
Paul Irwin (EPW)
Nancy Jones (ALD)
Janet Kline (EPW)
Robert Kirk (LSD)
Edward Knight (ECON)
Sylvia Morrison (ECON)
Nonna Noto (ECON)
Larry Nowels (FAND)
Barbara Schwemle (GOV)
George Siehl (FAND)
Sandy Streeter (GOV)
Susan Vanhorenbeck (ECON)
Philip Winters (ECON)
                            technology team

               Jane Bortnick Griffith (SPR), Team Leader

Richard Ehlke (ALD)
Susan Finsen (FIN)
Peggy Garvin (CRD)
Jeffrey Griffith (RSH)
Steven Hildreth (FAND)
James Jackson (ECON)
Michael Koempel (GOV)
John Moore (ENR)
Richard Rimkunas (EPW)
Stephanie Williams (LSD)
                       decreasing resources team

                  Richard Ehlke (ALD), Co-Team Leader

                 Michael Koempel (GOV), Co-Team Leader

Time Accounting
  Roger White (ECON)
  
Consultative Management Meetings
  Angela Evans (DO)
  Susan Finsen (FIN)
  Lynne McCay (CRD)
  Donna Scheeder (CRD)
  
Performance Standards
  Charlotte Preece (FAND)
  Jay Hadlock (CRD)
  Donald Kiefer (ECON)
  Bessie Alkisswani (FIN)
  James Richardson (LSD)
  Jean Jones (ENR)
  Clay Wellborn (GOV)
  Sharon House (EPW)
  Lennard Kruger (SPR)
  Karen Lewis (ALD)
  Douglas Warshof (POL)
LCR and Contract Performance
  Douglas Warshof (POL)
  Hugh Elsbree (POL)
  Marie Anderson (FIN)
  Joseph Broderick (POL)
  Gloria Hines (FIN)
  
Nonpersonals
  Research Policy Council
  
Personnel Resources
  Research Policy Council
  
Senior Level Managerial Performance
  Hugh Elsbree (POL)
  James Richardson (LSD)
  Douglas Warshof (POL)
  
  
  
  
                  objectivity and nonpartisanship team

                     John Moore (ENR), Team Leader

Pat Ayers (CRD)
Bill Cox (ECON)
Mark Eddy (GOV)
Hugh Elsbree (POL)
James Robinson (POL)
Irene Stith-Coleman (SPR)
Kris Vajs (LSD)
                       federal-state shifts team

                   P. Royal Shipp (EPW), Team Leader

Keith Bea (GOV)
Eugene Boyd (GOV)
Thomas Carr (ALD)
Claudia Copeland (ENR)
Kathleen Doddridge (CRD)
Thomas Gabe (EPW)
Peggy Garvin (CRD)
Robert Goldich (FAND)
David Huckabee (GOV)
Gerald Mayer (ECON)
Nonna Noto (ECON)
James Riehl (CRD)
Tangela Roe (LSD)
Alix Salinas (LSD)
Wendy Schacht (SPR)
Margot Schenet (EPW)
Clay Wellborn (GOV)
Jennifer Williams (GOV)
                      congressional turnover team

                   Janet Kline (EPW), Co-Team Leader

                Charlotte Preece (FAND), Co-Team Leader

                           Orientation Video

Robert Bamberger (ENR)
John Blodgett (ENR)
Linda Cox (RSH/SB)
Gary Levine (RSH/AV)
Robert Nickel (RSH/AV)

                         Orientation Materials

John Blodgett (ENR)
Robert Newlen (RSH/IQ)
Karen Wirt (RSH)

                              Senate Fair

Mildred Amer (GOV)
Keith Bea (GOV)
Chandell Butler (DO)
Vanessa Cieslak (CRD)
Michael Davey (SPR)
Susan David (RSH/AU)
Mark Eddy (GOV)
Carl Ek (FAND)
Kelly Garcia (RSH/SB)
Kevin Greeley (ALD)
Amy Johnson (DO)
Frederick Kaiser (GOV)
Robert Keith (GOV)
John Kelley (RSH/AU)
Lynne Kennedy (CRD)
Fran Larkins (CRD)
Jennifer Manning (CRD)
Clyde Mark (FAND)
Lynne McCay (CRD)
Robert Newlen (RSH/IQ)
JoAnne O'Bryant (GOV)
Dylan Perkins (RSH/IQ)
Jill Roberts (RSH/SB)
Barbara Salazar (CRD)
Karen Spar (EPW)
Rita Tehan (CRD)
Lorraine Tong (GOV)

                              105th Report

Karen Alderson (LSD)
Jean Bowers (LSD)
Ted Burch (LSD)
Felix Chin (LSD)
Lisa Dove (LSD)
Kerry Dumbaugh (FAND)
Susan Fletcher (ENR)
Sharon Gressle (GOV)
Robert Howe (LSD)
Paul Irwin (EPW)
Nancy Jones (ALD)
Robert Kirk (LSD)
Lennard Kruger (SPR)
Valentin Leskovsek (LSD)
Terrence Lisbeth (FAND)
Bonnie Mangan (LSD)
Tangela Roe (LSD)
Alix Salinas (LSD)
Margot Schenet (EPW)
Sherry Shapiro (LSD)
Edith Sutterlin (LSD)
Jack Taylor (ECON)
George Walser (LSD)
Karen Wirt (RSH)
Amy Woolf (FAND)

                     Management Information System

Robert Bury (RSH/AU)
Janine D'Addario (DO)
Edward Ecklund (RSH/AU)
Richard Huang (RSH/AU)
Ernestine Wang (RSH/AU)
Brenda Wesner (RSH/ISIS)

                                  PPI

Claudia Copeland (ENR)
Michael Davey (SPR)

                                Letters

Chandell Butler (DO)
Janine D'Addario (DO)
Amy Johnson (DO)
Michael Koempel (GOV)
Rosslyn Richardson (DO)

                          Westat Focus Groups

Walter Albano (LSD)
Bette Alberts (RSH/SB)
Marie Anderson (FIN)
Jane Bortnick Griffith (SPR)
Lizanne Dinoto (RSH/IQ)
Pamela Dragovich (CRD)
Mary Geraghty (RSH/IQ)
Penny Heavner (FIN)
Evelyn Howard (RSH/SB)
Lynne Kennedy (CRD)
Janet Kline (EPW)
DeMarie Lawrence (RSH/ERPO)
Patricia Raap (SPR)
Jill Roberts (RSH/SB)
Kent Ronhovde (RSH)
Mary Smith (EPW)
Karen Wirt (RSH)

                          New Member Seminars

Vee Burke (EPW)
Joseph Cantor (GOV)
William Cooper (ECON)
Claudia Copeland (ENR)
Linda Cox (RSH/SB)
William Cox (ECON)
Janine D'Addario (DO)
Stephen Daggett (FAND)
Susan David (RSH/AU)
Charles Doyle (ALD)
Susan Finsen (FIN)
Paul Gallis (FAND)
Kelly Garcia (RSH/SB)
Peggy Garvin (CRD)
Jane Gravelle (ECON)
Penny Heavner (FIN)
George Holliday (ECON)
Nancy Jones (ALD)
Robert Keith (GOV)
John Kelley (RSH/AU)
Donald Kiefer (ECON)
Janet Kline (EPW)
Michael Koempel (GOV)
David Koitz (EPW)
Lynne McCay (CRD)
Jennifer Manning (CRD)
John Moore (ENR)
Raphael Perl (FAND)
Charlotte Preece (FAND)
Richard Price (EPW)
Jill Roberts (RSH/SB)
Paul Rundquist (GOV)
Denis Steven Rutkus (GOV)
Wendy Schacht (SPR)
Judith Schneider (GOV)
P. Royal Shipp (EPW)
Stanley Sloan (FAND)
James Stedman (EPW)
Robert Sutter (FAND)
David Teasley (GOV)
Joyce Vialet (EPW)
Ruth Wasem (EPW)
Stephanie Williams (LSD)
                                 ______
                                 
                                 The Librarian of Congress,
                                     Washington, DC, July 23, 1997.
The Honorable Robert F. Bennett,
Chairman, Subcommittee on the Legislative Branch, Committee on 
        Appropriations, United States Senate, S-125, The Capitol, 
        Washington, DC.
    Dear Senator Bennett: On behalf of all the Library's staff, I want 
to thank you for your leadership and support of the Library in the 
Senate Legislative Branch bill. By a wonderful coincidence, the news of 
the Senate levels arrived at the Library just as we began a briefing 
for all of the Library's managers and supervisors about the Library's 
updated five-year strategic plan.
    I enclose a copy of the plan for your perusal. It sets out both 
clear goals and challenges for all of us at the Library. Our principal 
challenge is to sustain past gains while becoming a more efficient and 
effective operation. The Senate appropriations bill for the Library 
recognizes the importance of the Library's workforce, supports critical 
areas of technological innovation, and provides additional needed 
support for security of the Library's collections, data, and workforce.
    We are grateful for both your personal support and your leadership 
on the Committee on behalf of the Library and the entire Legislative 
Branch.
            Sincerely,
                                       James H. Billington,
                                         The Librarian of Congress.

             Library of Congress Strategic Plan (1997-2004)

                 letter from the librarian of congress
    With Congressional support and direction, the Library of Congress 
has developed over 196 years a massive collection of more than 111 
million items, cost-effective institutional networks, and a superbly 
knowledgeable staff. It directly serves not only the Congress, but the 
entire nation with the most important commodity of our time--
information.
    At a time when our collective economic productivity is increasingly 
based on information and our creative use of individual freedom 
requires more lifelong learning, the Library of Congress has become 
increasingly important to the country as a unique resource. Because of 
its past stewardship and thanks to current technology, the Library can 
be tapped not only by the Congress and people in the Washington 
metropolitan area but by schools, libraries, and the private sector 
everywhere.
    Our National Digital Library effort--providing remote electronic 
access to the multimedia Americana collections here and in other great 
repositories--has already begun to revolutionize local public access to 
information and to spur increased interest in learning. Access to this 
great information bank is expected to stimulate and inspire young and 
old, and to increase the interest in and demand for libraries, books, 
and reading.
    The future of all the Library's efforts depends on solid gains in 
the Library's core activities: serving the Congress efficiently; 
acquiring, organizing, protecting, and preserving a universal 
collection; reducing arrearages on schedule; and making the Library's 
newly renovated facilities increasingly useful and hospitable to the 
Congress, scholars, and researchers.
    Our staff has made great gains under the 1993-2000 strategic plan: 
the National Digital Library effort is ahead of schedule; our 
arrearages have been significantly reduced; the Library's historic 
Jefferson Building is re-opening in April; the secondary storage plan 
and the book preservation efforts have borne fruit; the financial 
system is being modernized; collections security has vastly improved; 
and technological progress is well beyond what we imagined when we 
created the 1993-2000 plan. We fell short in some areas, particularly 
those related to performance accountability and infrastructure support, 
and must act decisively to address these issues; we remain accountable 
to the Congress and the people.
    As we adjust our strategic plan, we seek to strengthen and preserve 
our primary asset, a diverse workforce--renewing it with fresh talent 
that is both developed within the Library and recruited from outside. 
We will work smarter with staff who are well trained, motivated, and 
strongly supported in carrying out the Library's mission in the 
Information Age. We will embrace change--stressing quality, 
productivity, and tangible results in all phases of our work.
    I am confident that we can and will do what is necessary.

                                       James H. Billington,
                                         The Librarian of Congress.
                              introduction
    The opportunities for the Library of Congress to make major 
contributions to the Congress and the nation are greater now than ever: 
to provide services to the Congress as it faces increasingly complex 
issues; to continue to acquire, organize, preserve, secure and sustain 
our collections; to make our collections more accessible, both online 
and off, to the country's schools, libraries, and the private sector; 
and to make our renovated facilities a true center of scholarly 
productivity and creativity.
    In coordination with the Congress, we have re-examined our 
management operations to improve our services and to identify 
priorities critical to our future success. Out of these efforts, we 
must strengthen accountability. To realize that end we have designed a 
Management Improvement Plan with specific tasks, timetables, and goals. 
We will continue to evaluate our operations and our services 
critically.
    We believe that the Library's greatest strength is the knowledge 
and expertise of its workforce, which, despite job losses, has 
preserved a widespread devotion to excellence and to the service of the 
Congress and the nation. In the end, the talents and dedication of a 
diverse Library staff will enable the Library to achieve and sustain 
its leadership role in the 21st century.
    Another great strength of the Library is its standing, not only as 
the world's greatest repository of recorded knowledge, but also more 
recently as a leader in the new age of digital information, through our 
National Digital Library Program.
    The Library's challenge, under the 1997-2004 strategic plan, is to 
sustain past gains while becoming a more efficient and effective 
operation. We will do this by using mission and strategic priorities to 
identify funding and resource requirements. We will also identify 
specific objectives and action items to use as performance measures.
    Our strategic plan maps the changes that will ensure that the 
Library--the research and information arm of the national legislature 
and the world's foremost storehouse of knowledge--continues its worthy 
tradition of collecting, preserving, sharing, and fostering creativity 
and learning in support of the Congress, the public and the democratic 
ideal. In so doing, the Library of Congress, in cooperation with other 
strong institutions, will strive to spark a renaissance in learning.
                      vision for the 21st century
    The Library leads the nation in ensuring access to knowledge and 
information and in promoting its creative use for the Congress and its 
constituents.
                                 values
              the eight values of the library of congress
    Service.--Best possible service to our constituents.
    Quality.--Highest quality in every aspect of our activities.
    Effectiveness.--Resources applied in direct support of our mission.
    Innovation.--New and creative methods to improve our services.
    Fairness.--Fairness and respect in our treatment of all staff and 
users.
    Participation.--Widespread staff involvement in planning, 
implementing, and improving our activities.
    Communication.--Clear and consistent communication with staff and 
constituents.
    Excellence.--Encouragement and support of staff excellence.
                                mission
    The Library's mission is to make its resources available and useful 
to the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity for future 
generations.
                               priorities
    The first priority of the Library of Congress is to make knowledge 
and creativity available to the United States Congress.
    The Congress is the lawmaking body of the United States. As the 
repository of a universal collection of human knowledge and the 
creative work of the American people, the Library has the primary 
mission to make this material available and to identify, analyze and 
synthesize the information it contains to make it useful to the 
lawmakers who are the elected representatives of the American people.
    The second priority of the Library of Congress is to acquire, 
organize, preserve, secure and sustain for the present and future use 
of the Congress and the nation:
  --A comprehensive record of American history and creativity. The 
        record of American history and creativity has to be maintained 
        in order both to protect intellectual property rights (a 
        constitutional mandate statutorily exercised by the Copyright 
        Office) and to preserve the record of the past for the sake of 
        future creativity (the constitutional mandate ``to promote the 
        Progress of Science and useful Arts'').
  --A universal collection of human knowledge.\1\ A collection that 
        includes all languages and formats is essential to meet the 
        present and potential needs of the Congress (the statutory work 
        of the Congressional Research Service) and of the government 
        more broadly (Law Library, Federal Research Division, general 
        reference services).
---------------------------------------------------------------------------
    \1\ Except for technical agriculture and clinical medicine, which 
are covered by the National Agricultural Library and the National 
Library of Medicine respectively.
---------------------------------------------------------------------------
      All other services and activities of the Library of Congress 
        support the core mission of maintaining and continuing to build 
        on the world's greatest treasury of recorded human knowledge.
    The collections must continue to be comprehensive in order to keep 
pace with the rapid proliferation of information. The Library of 
Congress is the only library in the world that collects universally. If 
this time-honored tradition were diminished, the present functioning 
and future creativity of both the Federal government and the American 
free enterprise system would suffer.
    The third priority of the Library of Congress is to make its 
collections maximally accessible to (in order of priority): the 
Congress; the U.S. government more broadly; and the public.
    It is unprecedented in human history--yet uniquely American--to 
offer open public access to an institution that at the same time serves 
in many ways as the working library of a government and a de facto 
national library.
    The unifying purpose of providing the public with essential library 
services, such as cataloging and reference help, is to extend as much 
access to useful information as possible to each of these three 
constituencies. The National Digital Library is dramatically broadening 
public access by making the most interesting and important documents of 
American history and culture remotely available electronically for 
local schools, libraries, businesses, and homes across America.
    The unique and ambitious mandate that the Congress has given its 
Library during the past two centuries is a stunningly original 
expression of a broader American democratic ideal. For a democracy to 
be dynamic and self-correcting, its governing institutions must be not 
only continuously accountable to the people but also solidly based on a 
body of knowledge that is both constantly expanding and available 
equally to those who legislate and to those who elect the legislators.
    Equal access to knowledge for both governors and governed, rich and 
poor, represents an essential minimal form of empowerment in a 
pluralistic democracy, and has found expression in our system of public 
libraries and public schools. The Congress has assigned to the Library 
a series of centralized national functions that are essential to the 
health of these local institutions: setting bibliographic standards, 
providing subsidized cataloging, storing the records and artifacts of 
the copyrighted creativity of America, and creating and delivering 
nationwide free reading materials for blind and physically handicapped 
persons.
    The Congress has now recognized that, in an age in which 
information is increasingly communicated and stored in electronic form, 
the Library should provide remote access electronically to key 
materials. For the general public, the Congress has endorsed the 
creation of a National Digital Library Program through a private-public 
partnership that will create high-quality content in electronic form 
and thereby provide remote access to the most interesting and 
educationally valuable core of the Library's Americana collections. 
Schools, libraries, businesses, and homes will have access to important 
historical material in their own localities--together with the same 
freedom readers have always had within public reading rooms to 
interpret, rearrange, and use the material for their own individual 
needs.
    The fourth priority is to add interpretive and educational value to 
the basic resources of the Library in order to enhance the quality of 
the creative work and intellectual activity derived from these 
resources, and to highlight the importance of the Library's 
contributions to the nation's well-being and future progress.
    Implicit in the broad and international inclusiveness of the 
Library's clientele (both here and elsewhere) is another ideal of 
American democracy: the desire to promote the free exchange of ideas.
    There are three essential aspects to this priority that are 
uniquely available through the Library of Congress: greater use by the 
Congress, government officials, and the private sector of the vast 
special (i.e., non-book) and foreign language collections that are 
often unique to the Library and that have generally been underused 
resources; greater use of the Library's Capitol Hill facilities by 
scholars for the kind of interdisciplinary, cross-cultural, 
multimedial, multilingual, and synthetic writing that is important to 
Congressional deliberation and national policy-making, but inadequately 
encouraged by either academic specialists, special interest groups, or 
advocacy-oriented think tanks; and greater use by the general public 
through programs that stimulate interest, increase knowledge, and 
encourage more citizens to use the collections in more varied ways both 
on-site and electronically.
    The Library staff will increase its role as knowledge navigators by 
helping more people find appropriate materials in a swelling sea of 
unsorted information and pointing them to services and resources unique 
to the Library of Congress. This requires not merely more development 
and retraining of staff than the Library has previously been able to 
do, but also facilitating in new ways more extensive and systematic use 
by researchers of the distinctive materials that only the Library of 
Congress has. Programs for the general public, such as exhibits or 
publications, must demonstrate the value and usefulness of the 
collections.
Enabling infrastructure
    To accomplish its mission and support the Library's four 
priorities, the Library must have an efficient and effective 
infrastructure with five key components:
  --The mobilization and motivation of human resources in all parts and 
        at all levels of the Library.
      There are four important elements within this category: 
        recruiting, assessing, rewarding and holding accountable 
        employees on the basis of objective evaluations of knowledge, 
        skills and performance; training, developing and, where needed, 
        retooling the workforce to perform new functions in new ways; 
        promoting fairness, equal opportunity, and respect for 
        diversity at all levels and in all parts of the Library; and 
        fostering communication by using early and frequent 
        consultation to promote innovation and increase participation 
        in decision-making and in implementing change.
  --The provision and delivery of electronic services in order to serve 
        the departments of the Library in the execution of the 
        Library's mission and priorities with speed, quality, and 
        economy.
  --The allocation and use of space and equipment in order: to preserve 
        and make accessible the artifactual collections; and to 
        maximize the efficiency, productivity and wellbeing of the 
        staff.
  --The operation of modern financial and information systems to 
        facilitate decisionmaking and ensure accountability.
  --The operation of effective security systems that ensure adequate 
        access and at the same time provide maximum protection for the 
        staff and patrons, facilities, data, and collections.
                         operating assumptions
    Congressional Support.--Library of Congress managers will work with 
the Congress to secure appropriate financial and legislative support.
    Library Management.--Library Management will make timely decisions 
consistent with and in support of the Library's mission and priorities.
    The Library's Infrastructure.--The Library's infrastructure will be 
strong, responsive and activist. Human resources support will be 
provided in a timely and efficient manner; current technology and 
technology training support will be available on a timely basis; 
technology forecasting will be fully integrated into the Library's 
planning; space planning and the execution of plans will be 
streamlined; financial information will be readily available to all who 
need it; and improved security systems will be in place.
    Library Leadership.--Relying on its incomparable collections, the 
Library will continue taking a leading role in facilitating the 
information revolution, creativity, and research--ensuring that 21st 
century Americans will have a well developed, sophisticated and 
increasingly global supply of information.
    Copyright Office.--The Copyright Office, a major source of Library 
of Congress collections, will remain an integral part of the Library, 
and it will begin providing copyright deposits in digital form for LC's 
selection and collections.
    Emerging Technologies.--The Library of Congress will keep pace with 
the new technologies to enable it to remain a leader in the field of 
librarianship and the delivery of information and to ensure that its 
collections are developed qualitatively in support of its mission.
    Public-Private Partnerships.--The Library will rely on support from 
a broad range of public-private partnerships and coalitions, both 
nationally and internationally, to build and maintain the National 
Digital Library Program and other Library programs. The transition to a 
national digital library requires the Library to launch an enormous 
cooperative effort with the American library community and to establish 
a global digital library coalition to which many libraries and other 
institutions contribute. The Library will establish policies that 
encourage such partnerships.
    Fundraising.--The Library will continue to seek public-private 
funding to support its outreach programs.
    Quantity of information.--Far more information will be generated in 
more ways, more places, and more formats than in the past.
    Congressional needs.--The knowledge/informational needs of the 
Congress and the government will be more complex and extensive than 
ever before.
                       strategic plan objectives
    Priority I.--To make knowledge and creativity available to the 
United States Congress.
Strategic Plan Objectives:
    To fulfill all Congressional mandates so well that the Congress 
confidently continues to rely upon the Library to meet those needs;
    To meet or exceed needs and expectations of the Congress for 
legislative research, analysis and information services at a level of 
sustained excellence; and
    To assure that the Congress is fully cognizant of the services and 
resources of the Library of Congress, and has ready and reliable access 
to them.
    Priority II.--To acquire, organize, preserve, secure, and sustain 
for the present and future use of the Congress and the Nation a 
comprehensive record of American history and creativity and a universal 
collection of human knowledge.
Strategic Plan Objectives:
    To develop and maintain the Library's universal collections in all 
formats and languages, acquiring them through copyright, gift, 
exchange, purchase, and transfer, in the most timely and cost-effective 
manner to support the Library's mission;
    To ensure that the Library's collections, both physical and 
electronic, are appropriately secure;
    To achieve arrearage reduction goals;
    To provide innovative and effective bibliographic, intellectual, 
and physical control that is appropriate, timely, and of high quality 
for all of the Library's collections;
    To ensure the preservation of the Library's collections for current 
and future use, using appropriate preservation treatment and 
technologies;
    To lead the development, maintenance, and dissemination (both 
nationally and internationally) of standards needed for: effective 
electronic interchange of documents and bibliographic data; 
preservation; and the theory and practice of cataloging; and
    To organize, sustain and make more usable the record of American 
creativity through copyright registration, deposit, and recordation 
systems.
    Priority III.--To make the Library's collections maximally 
accessible to the Congress, the U.S. government more broadly, and the 
public.
Strategic Plan Objectives:
    To lead in the area of electronic outreach by contributing to a 
national digital library that provides both broad access to the 
Library's collections and links to other significant, publicly 
available information, regardless of its location and format;
    To make the Library's collections available both nationally and 
internationally through use of digital technology, lending, and 
document delivery;
    To provide high-quality service to users accessing the Library by 
telephone, correspondence, and electronic means;
    To sustain high-quality service to users of the Library's reading 
rooms, research areas, and collections;
    To broaden awareness and use of the Library's special and foreign-
language collections and reading rooms;
    To sustain and improve high-quality service to blind and physically 
handicapped patrons; and
    To develop a plan to continue the National Digital Library Program 
beyond the year 2000.
    Priority IV.--To add interpretive and educational value to the 
basic resources of the Library in order to enhance the quality of the 
creative work and intellectual activity derived from these resources, 
and to highlight the importance of the Library to the nation's well-
being and future progress.
Strategic Plan Objectives:
    To foster creative scholarship in the Library's unique collections 
including foreign-language and special-format materials;
    To promote awareness of the Library and fuller and more varied use 
of its resources through national and international copyright services, 
exhibits, concerts, publications, associations, conferences, colloquia, 
and other interpretive programs.
    Enabling infrastructure.--To accomplish its mission the Library 
must have an efficient and effective infrastructure.
Strategic Plan Objectives:
            Financial Services
    To provide financial services (budget, accounting, disbursal and 
travel) to its clients and to conduct program activities, allocate 
resources, and ensure accountability; and
    To improve the Library's financial and legal framework, policies 
and procedures.
            Human Resources
    To provide human resources leadership in service to the Library's 
internal constituency;
    To formulate and put in place a comprehensive personnel program 
that will significantly improve timeliness, efficiency and 
responsiveness to client needs; and
    To promote equal employment opportunity at the Library of Congress 
and facilitate resolutions of disputes fairly and quickly.
            Security
    To ensure the security of Library staff, visitors, facilities, 
collections, and other assets.
            Support Services
    To promote occupational health and safety and to provide a healthy, 
safe environment for staff and visitors;
    To provide facility management, space, and interior design support;
    To provide procurement and logistic support; and
    To provide records management, mail distribution, printing, and 
transportation services.
            Technology
    To align the Library's current information technology resources 
with its overall priorities and develop technological architecture that 
will support the Library's objectives;
    To improve information technology customer satisfaction; and
    To establish and enforce information technology standards that will 
ensure compatibility of information technology systems.
                the library of congress in the year 2004
    We designed our strategic priorities and objectives (1997-2004) to 
lead the Library into the 21st century and to promote cooperation with 
and support for our constituencies. When we accomplish our objectives, 
the Library, because of its staff and vast and comprehensive 
collections, will be a major component of a worldwide information 
network. Modern storage and retrieval systems will be in place, and our 
integrated information system will support sustained, high-quality 
service to the Congress, visitors, readers, the Copyright Office, and 
the core functions and services of the Library. Our efficiency and 
communication will be greatly improved; our staff, visitors, 
collections, and facilities will be protected; and we will serve as a 
security model for the nation's libraries.
    Focused training, education, advancement, and redeployment of our 
diverse staff and aggressive recruitment of high-quality talent will 
enable us to fill the gap left by retirements. The resulting well-
motivated and gifted staff will harness the latest technology to 
provide service in the most creative and efficient way.
    The promise of the magnificently restored Thomas Jefferson Building 
will be fulfilled; and the Jefferson Building will be the site of 
distinguished exhibitions, seminars, educational conferences, and 
altogether new forms of scholarly communication. Scholars, researchers, 
and students will, more than ever before in the Library's 200-year 
existence, be able to mine the Library's unique collections and to make 
connections across barriers of language, medium, and discipline that 
will make the Library the most vibrant center of intellectual activity 
in the world.
    The electronic outreach the Library will be making in every 
Congressional district will significantly contribute to educational 
renewal and to a fresh, mature appreciation of the richness and 
diversity of our common American heritages. The model of the National 
Digital Library will have helped stimulate a number of other national 
public-private undertakings that will take advantage of much more of 
the Library's immense basic resources as well as of the special skills 
of CRS, the Law Library and the Copyright Office to increase the 
creativity, productivity, and international competitiveness of the 
United States.
                             moving forward
    Using the Government Performance and Results Act (GPRA) as a guide, 
the Library organized the strategic planning process into two parts. 
Part one identified the mission, priorities, values, and expectations 
to take us into the 21st century. Each service unit and support area 
identified its role in accomplishing the mission, priorities, and 
objectives. From these individual plans, the Library produced a single 
unified strategic plan that will drive the planning, programming, and 
budget process into the future.
    In part two of the planning process, each service unit and support 
area will develop specific action items to accomplish agreed-upon 
priorities and objectives. Each action item will be assigned to a 
service unit(s) or individual(s) and be subject to periodic review. The 
items will also be used in developing performance plans.
    In November 1996, the Library created a Planning, Management, and 
Evaluation Directorate (PMED) to monitor the plan's implementation. 
PMED and the Financial Services Directorate (FSD) will work jointly 
with the Deputy Librarian to synchronize and monitor the planning, 
programming, and budgeting process.
    Following the completion of part two, the staff will create the 
Library's Five-Year Resource Program, which will translate the plan 
into affordable programs. The first year of the Five-Year Resource 
Program will become the basis for subsequent budget requests.

                   opening statement of general scott

    Senator Bennett. General Scott, we welcome you.
    General Scott. Thank you, Mr. Chairman and members of the 
committee. I thank you for this opportunity to appear with Dr. 
Billington to present the Library's 1998 budget.
    Last September, Dr. Billington appointed me as the Deputy 
Librarian responsible for the day-to-day operations of the 
Library of Congress, which is a great national institution. In 
my 7 months at the Library, I have found that all of the staff 
have a strong will to succeed and that they are receptive to 
new ideas.

                        Facilitative leadership

    In that time, I introduced a 3-day workshop, called 
Facilitative Leadership. All of the 557 managers and 
supervisors have to date completed the workshop. What they 
learned from the training was a better understanding of how to 
get more people involved in the decisionmaking process, pushing 
down accountability and responsibility.
    This has been an exciting 7 months for me and we do face 
many challenges. Some of the challenges I speak of I will 
highlight in my statement.

                      Management improvement plan

    We have developed a plan that encompasses the findings of 
the GAO and the other audit agencies over the past few years. 
This improvement plan has specific goals and timetables for 
individual managers to improve performance in areas critical to 
library operation--in collection security, in financial 
management, in human resources, and in other key areas. We are 
making progress in fiscal year 1997.
    With your support, we can make even greater progress in 
fiscal year 1998 and beyond.
    These current management improvement efforts are all part 
of our long-range strategic plan which also calls for new 
automation systems across the Library to allow us to work 
smarter and faster with fewer resources.
    This is why in our 1998 budget request we have asked you to 
make a 5-year commitment to an integrated automated system for 
basic operations within the Library. Nearly every other major 
American research library, including Brigham Young University, 
has converted to modern, commercially available, integrated 
systems.
    Within this past year, these new commercial systems have 
shown that they are now capable of handling a library the size 
of the Library of Congress.

                        Automated system charts

    I have four charts that I would like to use to show you 
what we have done as far as our automated system goes, how it 
is outmoded, what we desire, and then the costs spread over the 
next 4 years. You do have these charts in your packet, but I 
can hold them up and speak to the issues.
    Currently, we have a system that resembles more of a 
smokestack function than it does an integrated function. That 
means that we do all of the Library's functions a function at a 
time.
    We have 2,000 employees who must rely on this inadequate 
system at a tremendous cost of time, duplication of effort, and 
the upkeep of outmoded technology.
    As you see on your left, we have actually five large, 
separate systems and many smaller systems that support the 
Library's manual functions. Now again, these do not share data. 
We do some of the inventory and some of the data by hand, which 
makes it slow and cumbersome, and we have a lot of paper that 
we have to file and store.

                         new Integrated system

    All of this impairs not only our operations but it also 
impairs collection security. So we want to replace the old 
systems with a single, integrated system to support all of the 
functions, such as acquisition, such as collection, 
circulation, and certainly security and related activities.
    So the new integrated system that we are asking for will 
allow for centralizing control and security while streamlining 
the workflow and helping to reduce and eliminate maintenance 
costs.
    As an example of how the current system is slow and time 
consuming, you can see on your left [indicating] that if you 
were to request a book and the item was not where it was 
supposed to be, it could take up to 20 steps to locate that 
item. Under the new system, that could be reduced to four 
steps. Thus, as you can see, it would be a tremendous boon to 
inventory and knowing where the collections are.

                       cost for Integrated system

    This chart shows that we are asking you for $5.6 million in 
1998 and another $9 million that would be spread over 5 years 
to complete this project. Now all of these costs will include 
the hardware, the software, the training, and the data 
conversion that is necessary to do this. The new system will 
enable us to redirect some labor to other critical areas--
circulation, arrearage, backlog, and you can see that we would 
not expect to have that redirecting group of staff until about 
the year 2000.
    Putting this in would help us to meet the increased demands 
on the Library's operations.
    In addition to the automation, we also are asking that our 
near-term goals and requirements be considered by you. We 
depend on your funding $14.7 million in mandatory wage and 
price increases, which is the largest single item in our 
budget.

                        reduction in Work force

    We are keenly aware of the competition for resources and 
that Congress has given the Library very considerable 
treatment. Despite the committee's best efforts, however, we 
know we now have little flexibility left to absorb such costs. 
During the last 5 years, we have had a net reduction in our 
work force of 435 FTE's, many of them highly skilled 
professionals. Without congressional funding for these 
mandatories, we would be forced to cut another 178 positions. 
That could mean a tangible erosion in services, services that 
no other institution provides.

                         Talking book machines

    It is also important that we ask you to give consideration 
to our request for $2.5 million to acquire 10,000 additional 
talking book machines. These machines will allow the Library 
services for 750,000 blind and physically handicapped Americans 
in every State to continue without interruption.
    Again, we need your continuing investment in the future of 
the Library, in our people, and in our technology. That would 
enable us to do more than serve the Congress and the Nation 
with fewer staff.
    Thank you for this opportunity. Dr. Billington and I are 
now available for your questions.

                   questions on ILS investment chart

    Senator Bennett. Thank you very much.
    Can we go back to your fourth chart there?
    General Scott. Yes, sir.
    Senator Bennett. As I understand it, the red bars are the 
investment in the present system and they come down by the year 
2004 to virtually nothing.
    General Scott. The red bar is the investment for the new 
system, what we estimate the new system would cost. It's for us 
to put in the new system.
    Senator Bennett. OK. Then I don't understand it properly. 
That's why I am asking the question.
    So the red bars are the investment in the new system. Then 
what are the green bars?
    General Scott. The green bar would show that we estimate by 
the year 2000, as a result of this investment in this new 
system, that we would recoup about $3.4 million in productivity 
to reallocate to other necessary needed functions, such as the 
arrearage and collections security.
    Senator Bennett. I am glad to have that because I had 
understood that the red bar is what you are paying for the 
present system and that will come down to zero, and the green 
bar as what you are investing in the new system and the amount 
of money we have to pay as the combination of the two bars.
    General Scott. No.
    Senator Bennett. I get it now that the green bar should 
actually be below the line as a saving.
    General Scott. The red bar is what it will take for us to 
put in the new system.
    Senator Bennett. But the green bar is the saving?
    General Scott. The green bar would be the savings.
    Senator Bennett. Not an expenditure?
    General Scott. Not an expenditure.
    Senator Stevens. If it is reinvestment, you are really 
using the people that you are freeing up by the modernization 
in other aspects and you will not have to hire new people. But 
it is a reallocation of manpower more than it is money as I 
understand it.
    General Scott. Yes, sir; that is correct.
    Senator Bennett. OK. I am glad to get that clarification.

                        Electronic transactions

    You say that you've got four times the hits on your home 
page than you had in 1993. Did I understand that correctly?
    Dr. Billington. Yes; well, that is total electronic 
transactions.
    Senator Bennett. Total electronic transactions. OK.
    Has there been a corresponding or any kind of measurable 
decrease in transactions that are not electronic that would 
indicate there is any kind of shift away from traditional ways 
of accessing the Library toward the electronic? Or could you 
say that has all been incremental?
    Dr. Billington. It is practically all incremental because 
there has been very little change in the basic amount. We get 
more than 1 million inquiries every year from around the 
country and that has stayed fairly constant. These are the 
traditional reference methods, with people telephoning in or 
making use of the Library. There has not been a dramatic change 
in interlibrary loans which we do free. Other libraries charge 
for it.
    So this electronic access is largely additive. It is very 
exciting because it means a whole new universe is coming in to 
use Congress' Library that has never really had access to it 
before. It shows that the largest single component in those 42 
million a month is for the THOMAS system, which shows an 
interest in the functions of the Congress. But the national 
digital library, the digitization of the core things in 
American history for educational purposes is rapidly rising in 
its usage, too.
    Exhibits are also widely used. All of the Library's major 
exhibits in the last, I guess, 4 years now have been put 
online. They get greater usage all the time, classroom usage--
and so forth.
    So there is a very well spread and rapidly developing thing 
here. That is all incremental. Almost all of it is incremental, 
added usage of the Library.

                               Year 2000

    Senator Bennett. In one of my other assignments, I am 
focusing on the challenges and costs of dealing with the year 
2000 problem as it affects computers.
    General Scott, as you look forward, are you going to have 
some year 2000 programming problems? How much are they going to 
cost to fix if they are there? Or are you free of that 
situation?
    General Scott. Yes, sir; we are not free of the year 2000 
problem. We have started to examine the magnitude of the 
problem and we have made some assessment that if we are 
fortunate enough to get the ILS going, that will help us 
resolve the year 2000 problem. If not, then we still will have 
a year 2000 problem and we are still looking at the effort it 
is going to take to resolve it without an ILS. But I don't have 
a price tag that I can give you right now.
    Senator Bennett. Do you have any kind of estimate? It is 
not going to be in this bill. Is it going to be in a 
supplemental or in next year's bill?
    General Scott. I would like to defer that to Herb Becker or 
I could give that to you for the record, sir.
    Senator Bennett. Fine. Thank you.
    [The information follows:]
                                 The Librarian of Congress,
                                     Washington, DC, June 25, 1997.
Honorable Ted Stevens,
Chairman, Committee on Appropriations, United States Senate, S-128, 
        Capitol, Washington, DC.
    Dear Mr. Chairman: I am pleased to provide the following responses 
to the several questions you raised in our recent Senate Appropriations 
hearing. We appreciate and share your concerns, and we are focussing 
significant resources on these important matters.
Federal Communications Commission ruling on universal access
    While interested parties have already convened major efforts to 
educate potential beneficiaries, much is still unknown about the impact 
on the Library of this May 7, 1997, ruling. The Universal Service Fund, 
which could make up to $2.25 billion available annually, will require 
an organizational structure and procedures which are not anticipated 
until calendar 1998. Some 65 percent of the K-12 schools are already 
wired to the Internet,\1\ and the Library's National Digital Library 
(NDL) is already being utilized by a large number of schools. The 
Library's NDL is providing well-organized and rich content on American 
history and culture that is of broad interest to teachers, students and 
parents. The Library has been working with teachers for several years 
specifically to develop materials useful to them. However, the Library 
does not see technology training as an appropriate part of our mission.
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics survey, February 1997.
---------------------------------------------------------------------------
    We are continuing to select from those items of broadest interest 
and importance for the educational community, which is one component of 
Secretary Riley's 1996 National Long-Range Plan for Educational 
Technology. The Library will work in consultation with the Department 
of Education on other elements of the plan as appropriate, but we see 
our function as being limited to the historical library mission of 
making quality content more widely accessible.
    The Library's own cumulative growth over the last two years, as 
judged by ``hits'' or electronic transactions recorded on our website, 
has doubled each year since 1995. This growth mirrors the increase in 
Internet users. Our current systems planning and investments are 
predicated on this pattern of continuing growth. With the universal 
service initiative, we will continue to monitor its impact closely and 
revise our planning and resource requirements accordingly. As I stated 
at the hearing, providing continuing access to our collections is not 
nearly so costly as the one-time investment needed to digitize a wide 
variety of different, often multi-media, formats from the Library's 
collections that we are including in the NDL.
Impact of the Year 2000
    Using a model similar to the GAO Year 2000 Conversion Model, the 
Library is assessing the impact of the year 2000 on our automated 
systems. Our financial, personnel, reader registration and other 
commercially-supported systems will be compliant. Our office automation 
systems will be migrated to newer office systems and will be 
implemented with Year 2000 compliant software. Our telecommunication 
(data/voice) systems have been assessed and are already compliant. 
Copyright systems will be migrated to new software and hardware systems 
which will be Year 2000 compliant. We have identified specific 
replacement systems for each retrieval application, such as those in 
the CRS SCORPIO system, which will be in place for Year 2000 operation.
    The Integrated Library System (ILS) requested in fiscal year 1998 
is indispensable to making the Library's major bibliographic and 
inventory controls Year 2000 compliant. Our ILS request-for-proposal 
provides that the new system comply with Year 2000 requirements that 
the Senate has identified and endorsed. The most substantive support 
the Congress can provide the Library to address the year 2000 problem 
is to fund fully the 1998 ILS initiative.
    We will insure that all other automation systems being replaced are 
delivered with the capacity to manage this problem.
Computer Security
    In response to the recent incident where CRS Issue Briefs were 
compromised, we have thoroughly analyzed the events that allowed 
unauthorized access. This specific incident happened because of an 
application programming problem. That problem has been resolved. As a 
standard practice, we report all automation system ``Incidents'' to the 
National Computer Emergency Response Task Force (CERT) which tracks 
trends and patterns in computer abuses. We have recently cooperated in 
a pilot program with the National Institute of Standards (NIST) to 
design an incident-handling system. In addition, with contractor's 
assistance, we have recently completed a risk assessment of our 
computer center, and with the help of KPMG, we recently completed an 
Internet security scan. We are using this information and the 
identification of high-risk vulnerabilities in these two studies to 
draft a plan for systems security by the end of July 1997. Preliminary 
plans suggest that we will need an additional $400,000 in the near 
future for computer security upgrades. We will provide the Committee 
with possible additional needs for the longer term and our over-all 
program for systems security after our plan is completed.
    We have implemented improved back-up and recovery procedures 
through data-vaulting in a cooperative arrangement where we share space 
in our computer center with the House for its back-up storage 
equipment, and the House reciprocates. Our workstations are configured 
with standardized communications software to mitigate against computer 
viruses and abuses. AT&T provides the Library with a monthly audit of 
``attacks'' against our telecommunications systems. The Library will 
continue to participate in legislative branch initiatives to refine 
CAPNET security.
Authority to Deter and Respond to Computer System Breaches
    All legislative branch information technology offices should have 
standardized measures to respond, through legal prosecution, to 
computer security breaches. The Library will participate in any 
procedural or statutory review that seeks appropriate standardization 
within the legislative branch.
    We look forward to continuing this discussion with you and the 
committee, as well as our colleagues on the Hill. We will, of course, 
provide more detail or answer any further questions you may have. Thank 
you again for your continued interest in, and support of, the Library. 
I have forwarded a copy of this letter to Senator Bennett and to 
Senator Dorgan. Merely,
            Sincerely,
                                       James H. Billington,
                                         The Librarian of Congress.

                 money raised through private Donations

    Senator Bennett. Senator Dorgan.
    Senator Dorgan. Dr. Billington, I wanted to ask you a 
question about the amount of money that you have raised. You 
have raised some private donations to the goal of digitizing 
millions of Library of Congress items and developing a digital 
library project. As I understand it, you have a private 
donation goal of about $45 million.
    Dr. Billington. Yes, sir.
    Senator Dorgan. And you have raised about one-half of that. 
I want to ask two questions about that.

           coordination of LOC's digital project with others

    One, how is the Library coordinating its work on the 
digital project with other libraries to prevent duplication of 
effort?
    Dr. Billington. First of all, we have taken the lead in 
forming with 15 other major institutions a federation, a 
digital library federation, in order to coordinate. We have 
been working with them on standards, on setting standards, and 
storage protocols. The Library in 1902 assumed for the print 
culture the major burden of cataloging, which we still assume, 
which is an enormous and invisible subsidy to the library 
system of America, as it costs more to catalog a book than to 
buy it. Likewise, what we are doing in the digital universe is 
we are coordinating with the major repositories in this 
federation.
    Second of all, we have raised some private money 
specifically for other institutions, one of which was North 
Dakota State University, which was a successful competitor in 
our Ameritech competition. Incidentally, the Library does not 
pick the winners. We do not want to be in the business of 
playing God in this respect. But we had some outside panels 
that are very capable here. This competition stimulated 
tremendous interest.
    We had hundreds, well dozens, of interesting applications 
from all around. There were 10 winners. We will have two more 
of these competitions. It is money that we raise, not for the 
Library, but to bring in others so that this is a genuine 
national digital collection, even beyond the collections of the 
Library of Congress.
    So we have taken the lead. We have developed a kind of 
archival protocol which, at the request of the other 
institutions, we are maintaining and keeping up so that there 
is a central reference point on this. The work we are doing 
with the national digital library is setting, I think, 
standards of searchability and standards of indexing that we 
are, more or less, coordinating continually with other 
institutions. So I think this is developing rapidly as a 
cooperative undertaking.

                      cost of Digitizing materials

    Providing online access is exciting because it means that 
we are assuming, I think, a doubling of Internet traffic every 
year. So we are already in our planning--while it is going to 
take some upgrading in capacity to deal with--it will not take 
as much as you would think. The real expense is digitizing 
materials. That is $60 million, $45 million of which comes from 
the private sector, is going to do. We are going to digitize 5 
million items by the year 2000.
    We have about 350,000 already digitized for which we are 
getting 5.5 million transactions a month directly, and that has 
only begun. We have 1.7 million items in the pipeline. We have 
well over one-half now of the private money raised and we are 
hopeful that we will be able to raise the rest. There is a lot 
of interest in this and there is also an interest in developing 
exciting cooperative projects, which we are discussing with a 
number of people.

                      LOC's network relationships

    What you are really seeing emerge is a new type of library 
that is going to be available everywhere. You won't even have 
to go to the library to get this material. It involves all 
kinds of network relationships.
    The Library is trying to enter in and play a facilitative 
role, as General Scott has told us about. Facilitative 
leadership does not mean you do it all yourself; rather, you 
facilitate others to participate. So we already have now 10 
other institutions who are digitizing their material with money 
that we have raised for them.
    There will be two more competitions. In addition, a lot of 
people have been stimulated because of entering this 
competition to think of digitizing their material. So it is a 
very exciting cooperative operation.

                  Storage as a possible future expense

    One of the possible future expenses, of course, is the 
question of storage. We think that is going to be a distributed 
activity. It is important that people not only get their 
collections on the Internet but that they have a stored backup. 
But we think that is something that other institutions will be 
able to do, but requires maintenance.
    So the burden of central storage is not going to be nearly 
as great, we do not think, as the heavy startup burden. It is 
the same thing with the integrated library system. For the year 
2000 problem, it is going to be much easier to deal with that 
if we have an integrated library system and we do not have to 
make the adjustments on each of these smokestack systems we 
presently have.
    That is another reason for moving ahead with that.

                   Grant from the Kellogg Foundation

    We think this is very exciting. It is going to involve some 
added expense and there will be some unforeseen problems. But 
these are being talked about in a cooperative spirit among the 
major institutions. We are also involved, incidentally, in 
determining what gets into the digital library--that is the 
core of the Americana--we are involving teachers. We have a $3 
million grant from the Kellogg Foundation which we have just 
completed and we are hoping to devote some of that $60 million 
to sort of seeding, to getting some of the top notch teachers 
around the country to advise what it is people really want and, 
indeed, to establish protocols of how you could use this for 
teaching purposes.
    We are not trying to prescribe a course on American 
history. We are just simply trying to make accessible to the 
electronic age what the Congress did just a century ago by 
opening up public reading rooms and making its Library 
accessible to the public who could get to Washington. We are 
now trying to take the best of it, the most interesting and 
important parts of it, those items of wide interest, make them 
available to the general public, but particularly to the 
schools and libraries in the electronic environment.
    So we are not really delivering products. We are not going 
to get engaged in all of that commercial activity. The market 
will take care of that.

                        expense in Digitization

    The fundamental expense is the problem of digitization 
itself, which is extremely labor intensive when you are dealing 
with the wide variety of formats and materials that we have. 
While the price may come down to some extent, that is still 
going to be a big expense.
    But in other areas, the rapid development of technology and 
the improvement in the competitive atmosphere which is 
developing gives promise that, while there will be increasing 
expenses so that you do not buy yourself into obsolescence, 
there will also be offsetting economies as the market drives 
this forward.

                      Fort Meade storage facility

    Senator Dorgan. May I ask one additional question about the 
plans that you have for Fort Meade and the additional record 
storage? You were talking about 1999 in your statement.
    Would you describe your long-term plans that provide for 
expansion beyond that? If so, what are they?
    General Scott. Yes; we do. If it is all right, I would like 
to ask Linda Washington to come forward and explain that if it 
is all right with you.
    Senator Dorgan. Yes; and just briefly, please.

                       First book storage module

    Ms. Washington. We are planning this now. We have 
coordinated with the Architect of the Capitol the utilization 
of the Fort Meade facility and we are planning to have our 
first book storage module ready in mid-1999. Thereafter, we 
will have another storage module every 2 years. So we do have a 
5-year plan for utilization of the Fort Meade facility for book 
storage and for storage of other material as well.
    Dr. Billington. I think we expect to break ground, do we 
not, by the end of this year, the Architect of the Capitol, on 
the first of these?
    Ms. Washington. Correct.
    Senator Dorgan. Thank you.
    Senator Bennett. Senator Stevens.

               hooking schools to LOC information systems

    Senator Stevens. Dr. Billington, you and I had an informal 
discussion yesterday, and Senator Dorgan is on the Commerce 
Committee, too. We were informed about the rapid acceleration 
of hooking up the schools of the United States to the 
information systems of the country, if not the world.
    Basically, that means hooking them up to you. I want to 
make sure that we have the funding now to handle that rapid 
expansion of demand when it comes about. Were you there, 
Senator, when they talked about the President's program to 
utilize funds from the universal service concept to hook up all 
of the schools of the United States? We are not talking about 
just simple access. It means, I understand, a substantial 
increase in the total number of classrooms that will be capable 
of teaching children totally on computer.
    Now what that does, in my mind, is say that you have to be 
ready for that. Will you be ready for it?
    Dr. Billington. Well, I think we will be ready to do our 
part in that, which will be substantial. But as I already 
indicated in my answer to the previous question, the way this 
is developing--the way it has to develop--is in a cooperative 
network environment. So I do not think all of the burden will 
fall on us, but a very substantial amount will.
    Our present planning assumes, as I say, a doubling of our 
web site activity every year to the end of the century. I think 
that is a realistic projection. It is impossible to give you 
precise figures on this, but I would assume that for constant 
service, related equipment, and updating in order to keep up 
with demand, it will cost us perhaps $200,000 a year more. But 
we don't foresee, you know, major breakdowns. We don't foresee 
that there is going to be some wild escalation of prices. But 
there are a lot of uncertainties in all of this.

                         Upgrading the systems

    I think that we have begun already, for instance, technical 
planning to upgrade the speed of our Internet connection. We 
are currently installing increased server capacity, and 
planning for the acquisition of more. We will soon be 
implementing a high speed backbone network within our computer 
center.
    All of these are within plans, those actions that are in 
our current equipment/software based budget, and assume that 
the technology budget will not be either cut directly by the 
Congress or indirectly by allocating technology funds to other 
programs inside the Library.

                             Budget impact

    We see three major impacts, budget impacts, resulting from 
an increasingly digital world and the digital conversion of 
conventional materials. That is the most predictably expensive 
thing. We have front loaded a big effort to get these 5 million 
items in NDL so that we can really make a major impact early on 
in the educational life of the country. Also we are finding 
that the experience we are getting is of great value to others 
and to ourselves, and, with the national digital library, to 
our other efforts. But that is the big expense because it is so 
labor intensive.

                        additional Storage media

    Second, additional storage media will be necessary for 
these digital collections and data bases. We do not see 
ourselves assuming the storage burden for everybody else, as 
other players come into it, because that will be a distributed 
cost, and the network costs in general are going to be 
distributed costs.

                          Software development

    The third expense is software development and maintenance 
of necessary applications to organize, store, and provide 
retrieval to the growing volume of digital information. That is 
a much harder need to estimate.
    But the real answer to your question is that this is a 
major continuing adventure, really, and we are out there in the 
frontier.
    I do not think, though, at least we do not presently 
foresee, that even this highly accelerated and increased usage 
is going to cause major, additional expenditures or a very 
serious breakdown.
    Senator Stevens. Do you have anyone that is acting as 
liaison with the administration's program to understand the 
demand that is coming from their activities?
    Dr. Billington. I think we have several committees. I would 
refer this to Herb Becker who would be the best person to 
respond to that as the head of our information technology 
services area.

               concerns for school hookup to the Internet

    Senator Stevens. It is a simple question. Is there anyone 
working with the administration to understand the scope of the 
demands that will come on the Library as a result of the 
initiative to hook up all of the schools to the Internet?
    Mr. Becker. I should say that we are monitoring very 
closely what the administration's program is. There are a 
number of organizations that include people from the Federal 
Government as well as the library and university community, 
like the Coalition for Network Information, which track what is 
going on, which have briefings and seminars and invite 
administration leaders to talk about their plans.
    There are a number of techniques for keeping up with what 
is going on. There is a group that is part of the information 
infrastructure task force, an applications group of which I am 
the Library's member. We used to have formal meetings. Now we 
communicate mostly by e-mail over the network. So we are aware 
of the administration's goals that way.
    I should also say that we, at the Library, in the 
technology area, have continuing meetings with the 
telecommunications industry who are involved in making these 
infrastructure investments across the country to find out the 
progress and the speed with which this is all happening.

                   Federal Communications Commission

    Senator Stevens. Well, I urge you to get together with FCC 
and understand what they are doing because they have decided 
now to use a fund that is available. It won't be the private 
sector directly. But the private sectors contribute to this 
fund. That fund will be dedicated to this one, sole objective, 
and their objective is to have it done by the year 2000. If 
they have it done by the year 2000 and you are not ready for 
that onslaught, we are going to face substantial costs which we 
might be able to handle on an incremental basis now much 
easier.
    So I think you ought to find out about this. It is not 
going to be an evolutionary thing with industry coming in and 
hooking up as they want. The cable people thought they would do 
it over a period of 10 years. The telephone people thought it 
would be 10, 12, or 15 years. This plan now is to have it done 
by the year 2000--2\1/2\ years away. It is going to happen and 
it is going to happen with the use of this universal service 
fund.
    I am not going to belabor this but I think it is going to 
bring you a wave that is a sunami in terms of the impact on the 
demand for information services and you are the keystone of 
that.

                   concerns on the Year 2000 problem

    I will just leave it there, Mr. Chairman. But on the year 
2000 problem that the chairman mentioned, I looked into that 
substantially when I was chairman of the Governmental Affairs 
Committee. My conclusion was that if institutions were 
modernizing their computer systems and integrating the new 
computers within the system, it was a fairly simple matter to 
handle the year 2000 problem which, basically, was that the 
numbers would run out at the year 2000 and you could not 
compute beyond 2000.
    The new computers did not have that impediment built in. I 
guess their limit is the year 3000, which we don't need to 
worry about yet, right? [Laughter.]

                   funding to avoid Year 2000 problem

    Have you looked to see how much--and you have sort of 
answered the chairman's question? Is there any additional 
funding you need now to avoid having a year 2000 problem?
    General Scott. I would like to take a crack at that. We 
don't know exactly what we will need right now as far as money 
goes.
    Herb, would you say it would be another 4 or 5 months 
before you complete all of your assessments?
    Mr. Becker. Yes; that's true.
    We have a great variety of systems in the Library. Some of 
them are being modernized and a solution to the year 2000 
problem is exactly what you have said, Senator. It goes away 
with the replacement system.
    Some of the systems are supported by commercial vendors and 
they are developing new software. Our financial management 
system is supported by AMS and the next release of that system, 
which we will implement early in 1998, will be year 2000 
compliant. So there are a variety of solutions.
    One area where we have the biggest challenge is in what we 
refer to as our legacy systems that support the direct library 
activities for which we are proposing a replacement. The ILS 
would replace those and modernize that whole environment and 
deal effectively with the year 2000 problem.
    Senator Stevens. I discussed the matter with Arnold 
Penzias, who was the head of Bell Labs and now he has his own 
company. He examined it for the Bell system and came to the 
conclusion that it is manageable for those who are modernizing. 
It is not manageable for those who are not in a modernization 
program.
    So I think if you have it in the forefront of your mind as 
you modernize, we should not have any unforeseen demands for 
money in the year 1999, which is what we would look at. Right?
    We can be assured that in 1999 we are not suddenly going to 
wake up and find out we need hundreds of millions of dollars to 
replace systems now, are we?
    General Scott. We do not foresee that. And, of course, as I 
said, a lot of what we are counting on is getting this new, 
integrated system.
    Dr. Billington. I think the integrated library system will 
do precisely what you say. It will give us a central system 
that, in itself, will be modernized, rather than a lot of 
inefficient and expensive submodernizations of other systems. 
So if we can assume that we are going to be going ahead with 
that, we will have a cost of this conversion that will be much 
less and that we will try to compute for you in the next few 
months when our internal study is done.
    Senator Stevens. I am using more than my share of time but 
I do have one last question, Jim, before I have to leave.
    Dr. Billington. Yes, sir.

                          Digitizing materials

    Senator Stevens. It is this. You are digitizing new 
acquisitions immediately, right?
    Dr. Billington. No.
    Mr. Becker. No.
    Senator Stevens. You are not? How do you determine whether 
you digitize, then, in terms of new acquisitions?
    Dr. Billington. We are not basically digitizing new 
acquisitions. We are digitizing the most interesting and 
important elements of past Americana for the national digital 
library, our digital project. We will shortly be receiving a 
great number of collection items in digital form. We already 
have a public catalog and we are receiving digital materials.
    Senator Stevens. Let me back up. One of the reasons you get 
books is that we have a requirement about providing copies to 
the Library of Congress. Should we change the law to make sure 
that any books that are digital and that do have the digital 
capability, are filed with you in both ways, both as printed 
and digitized material?
    You don't need to answer that now. You can answer it later.
    [Clerk's note.--The information is provided in the 
committee questions for the record.]

                      Fort Meade storage facility

    Senator Stevens. The thing I am getting at right now is 
this. With your digitized material, you are going to store the 
stuff that has been digitized.
    Dr. Billington. Yes, sir.
    Senator Stevens. Is that what the Fort Meade facility is?
    Dr. Billington. Well, no, that is not what Fort Meade is 
for. Fort Meade is for basically storing the large, archival 
items, books, and other materials.

                     security plan for LOC systems

    Senator Stevens. I don't know that the authorizing 
committee has looked at the security plan. Has it looked at the 
security plan?
    Dr. Billington. At which security plan?
    Senator Stevens. Security for your systems, both those that 
are computerized and the storage as far as materials are 
concerned. You do have a new security plan?
    Dr. Billington. Yes; we do.
    Senator Stevens. Has that been approved by the authorizing 
committees?
    General Scott. It has not been approved. We have had 
preliminary discussions with the authorizing committee staff 
about review of the plan when completed.
    Senator Stevens. I would like to make sure that it is and 
that there is a determination made that the existing law is 
adequate to give you the authority that you need to protect the 
security of these systems, particularly those that are totally 
computerized and digitized.

                             System viruses

    Some of the things I am hearing now concern a new 
generation of viruses that can be entered into a system as 
large as yours. Are we adequately protected?
    Dr. Billington. We have a committee looking into that. We 
corrected a recent element that was of concern to CRS. That has 
been taken care of.
    We have a committee that is looking into this very 
thoroughly; this is an important area that we will have some 
firm policies on that we will present to the committees.
    Senator Stevens. The Department of Defense has some very 
specific legislative protection and the capability to really 
retaliate very quickly on anybody who gets involved in this. 
You ought to have at least equal to that if you are the 
information center of this Congress and of the Federal 
Government. So I want to make sure you take it to the 
legislative committee.
    Thank you very much, Mr. Chairman.

                                Security

    Senator Bennett. Thank you. That was one of my questions as 
well, the question of security.
    I have a list of questions that I will submit for the 
record and you can respond to them in writing. But I want to 
underscore what Chairman Stevens said about the issue of 
security.
    General Scott. Right. And, as Dr. Billington said, we do 
have a committee. We have corrected the recent incident in 
which someone had misfiled some legislative information which 
caused someone to have access to it.
    But we are in the process now of identifying what needs to 
be done and how much it would cost to make sure that we have 
the necessary software and procedures to harden it up.
    Senator Bennett. Senator Dorgan, do you have any further 
questions?
    Senator Dorgan. No, thank you.
    Dr. Billington. I would just like to say, Mr. Chairman, on 
this other issue, that we will also take a hard look at the 
administration plan to wire schools and libraries and what its 
implications are. So I assume it will be useful to get back and 
answer both Senator Stevens' concern and the subcommittee's 
concern.
    Nobody really knows and one isn't even entirely sure, as I 
understand it, of all of the implications of the plan to get 
the schools wired up. But we will try to get you an indication 
of the study, do a special study on this problem and get it to 
you some time in the next few months.

                     Additional committee questions

    Senator Bennett. Fine. Thank you very much. We appreciate 
your being here and look forward to receiving answers to some 
of our written questions.
    If there is nothing further, thank you and we will go on to 
the Government Printing Office.
    Dr. Billington. Thank you, Mr. Chairman.
    General Scott. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
                     Additional Committee Questions
                            financial audit
    Question. The Library recently received a clean opinion on their 
financial statements. Were there any material weaknesses or reportable 
conditions associated with the audit, if so, please explain.
    Answer. The 1996 financial statement audit report represents a 
major achievement for the Library as a result of receiving a ``clean'' 
opinion on the financial statements, but it also reiterates that more 
work is needed to address all of the Library's internal control issues. 
The independent accounting firm, KPMG Peat Marwick, identified one 
material weakness and seven reportable conditions.
    The accounting firm made 43 recommendations to address the need for 
internal control improvements. Most of the recommendations relate to 
conditions found during the 1995 audit that require more time to 
implement. For example, eleven out of the 43 recommendations (26 
percent) pertain to improving the safeguarding of the Library's 
collections--a long-term task. The one material internal control 
weakness addresses the security practices over information technology 
systems. The Library has already taken steps to improve these security 
practices (e.g., requiring that the Computer Security Officer sign off 
on the separation clearance forms), and the Library is taking 
additional steps to implement the recommendations.
    The 1996 audit found two new reportable internal control 
conditions--year 2000 compliant software changes were needed and that 
the Inspector General's oversight functions were limited. The Library 
is taking steps to address both of these findings.
                            internal control
    Question. What has the Library done over the last year to safeguard 
its assets? Does the Library believe that it now has the internal 
controls in place to adequately safeguard the collections?
    Answer. Over the last year the Library has implemented the 
following measures to improve safeguarding of the collections: improved 
and modernized cages and vaults holding high value collections; 
increased locking of work places in selected areas; updated 
instructions and procedures for administration of stack passes and key 
cards; enhanced key control by completing an inventory of 5,000 keys 
and documenting procedures for key control; imposed restrictions on 
bringing personal items into selected reading rooms (patrons must use 
cloak rooms and lockers for personal belongings); installed 
electronically controlled access system in book storage areas on 
Capitol Hill; inserted anti-theft strips in nearly 1 million additional 
volumes, bringing the total number of volumes thus protected to over 5 
million; and completed installation of closed-circuit video 
surveillance cameras and other electronic security systems in newly-
reopened areas (reading rooms and stacks) of the Jefferson and Adams 
Buildings.
    Also in the past year, the Library began the multi-year task of 
assessing risk to the collections (the Heritage Assets), of identifying 
actions and practices to mitigate those risks that have not yet been 
addressed, and of implementing those recommended actions and practices. 
In addition, it is developing a methodology to review those internal 
controls annually, as part of the annual audit process. A task force 
comprising representatives from all parts of the Library that have 
permanent or temporary custodial responsibility for the collections is 
working with an outside auditing firm to develop a systematic risk 
assessment of the Heritage Assets (something that has never been done 
by a comparable institution and for which there is no existing model). 
The task force has completed a full risk assessment of one collection 
area (Geography and Map) and has moved on now to do the Copyright 
Office.
    While great progress has been achieved, the Library does not yet 
have adequate internal controls in place for the over 112 million items 
which comprise the Heritage Assets. Of the four major areas of 
control--inventory, bibliographical, preservation, and physical 
security--the area of greatest vulnerability, inventory, cannot 
properly be controlled until the full implementation of the ILS, for 
which the Library has requested funds in fiscal year 1998. 
Bibliographical controls are addressed by the Library's Arrearage 
Reduction Plan, which continues to be implemented according to 
schedule. The single most important initiative for preservation control 
is the building and proper outfitting of environmentally controlled 
storage modules at Ft. Meade, for which funds have also been requested.
                           title 44 proposal
    Question. How will the proposed Title 44 revisions affect the 
Library's collections and its budget?
    Answer. The draft proposal's treatment of the Library is unclear. 
Specific Title 44 changes would await subsequent legislation.
    Several likely changes to Title 44 contemplated by the proposal 
would be detrimental to Library service to Congress, and to its 
collections and programs. Examples:
  --the possible end to the Library' statutory guarantee of 
        Congressional and other federal publications would greatly 
        hamper the Library's ability to serve the Congress. When 
        Congressional documents were discontinued through the fiscal 
        year 1996 appropriations process, the Library found it 
        necessary to obligate more than $150,000/year to purchase the 
        minimum necessary to fulfill Congress' research needs. This 
        means, for example, that the Law Library has had to reduce its 
        acquisitions of other legal materials by $1 for each dollar 
        spent on the purchase of Congressional documents. It would cost 
        upwards of $1,000,000 to purchase all federal publications, and 
        the Library would need additional resources to identify and 
        request federal documents needed for Congressional research, 
        for exchange purposes and for the collections.
  --the proposed elimination of cooperative publications, and 
        vulnerability of our employees to personal civil liability for 
        engaging in cooperative publishing activities, would 
        effectively end private publications, based on the Library's 
        collections, that are now produced under contractual 
        arrangements that benefit the Library as well as the public.
  --the implied repeal of the current copyright protection against 
        unauthorized foreign distribution of government publications 
        would end the Library's ability to license foreign distribution 
        of cataloging and other products.
                         capitol visitor center
    Question. The Library recently testified before the House 
Subcommittee on Public Buildings and Economic Development regarding the 
Capitol Visitor Center. What costs does the Library anticipate it will 
occur on a one-time basis and on a yearly basis if it is connected to 
the Visitor Center as currently included in the Architect of the 
Capitol's plan?
    Answer. The means of financing for the construction of the proposed 
Capitol Visitor Center has not been determined. H.R. 20 envisions 
totally private funding for Center construction. The cost of 
constructing the Library-requested auditorium and ancillary viewing 
rooms are estimated to be approximately $10 million. The costs of 
constructing a tunnel between the Center and the Thomas Jefferson 
Building which would allow for the easiest movement of people and 
materials is estimated at about $5 million with an additional $3 to $5 
million needed for interior modifications to the Jefferson Building.
    Once the Center is constructed, the Library of Congress will 
participate by (1) providing unique materials from our collections for 
the Center's exhibits on the history and role of Congress, and (2) by 
showing items from our audio and visual collections in the auditorium 
and other smaller viewing/listening rooms.
    It is difficult to estimate resource requirements at this time 
because the Center's exhibition and program cycles have not been mapped 
out. We expect that we can do a fair amount of program participation 
from existing resources. For large projects, such as major exhibitions 
or programs in the auditorium, we would require additional resources, 
which we expect would be primarily from private funding.
                              staff level
    Question. In response to a question previously submitted, CRS 
responded that it was not able to determine whether there had been an 
increase as projected in requests from offices regarding the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996. If that 
is the case, how does CRS determine staff levels for specific analytic 
expertise areas?
    Answer. CRS division chiefs are responsible for identifying the 
expertise they need to cover Congress' legislative agenda. They do so 
through a variety of mechanisms, including assessment of issues or 
policies which will have certain or likely congressional action in the 
next Congress, evaluation of the expertise available in CRS, appraisal 
of the current and expected workload of subject area specialists, and 
identification of ways in which staff on board can be developed to 
facilitate shifts in subject coverage. While these assessments and 
projections are integral to day-to-day management of the research 
activities in each subject division, there are also periodic formal 
CRS-wide reviews.
    These reviews, led by the Director, assure that hiring, 
reassignment, and detail, and other resource allocation decisions are 
made in the context of the legislative agenda and Service-wide needs.
    After assessing critical work needs, managers submit to the 
Director requests for staff resources and include information and 
analysis as part of the request, including: (1) How does the requested 
position help achieve the CRS' mission (e.g. new initiative, 
maintaining workload); (2) What are alternative ways of providing the 
service (details from other areas, reassignments, contracts, etc.); (3) 
What is the relationship to our current or expected workload; (4) What 
is the relationship to existing or anticipated shortage of expertise, 
including the impact of projected retirements; (5) What is the 
relationship to legislatively active subject areas and what is the 
likelihood of the subject area staying on the legislative agenda; (6) 
How would the position contribute to coverage of other related issues; 
(7) What are the immediate and future costs of the additional resource; 
(8) What are the current division and Service-wide capacities to 
support the legislative agenda in the subject area; (9) What measures 
has the division already taken to address the need; and (10) What is 
the appropriate scope of recruitment and what is the likely impact on 
diversity and upward mobility objectives.
    All of these requests are discussed at a Research Policy Council 
meeting, a weekly meeting held with the division chiefs, associate 
directors, deputy director and the director. Other managers ask 
questions and make suggestions about the request, and there is an 
effort to reach consensus about the highest priorities. After this 
meeting the director decides on the highest priorities that can be 
addressed within current budget restrictions.
                        security management plan
    Question. Has the Library completed its security management plan 
and has it been presented to the authorizing committees?
    Answer. The Library has completed a preliminary security management 
plan. The plan has been reviewed by the new Director of Security, and 
he is now making enhancements to it. The enhancements being made to the 
preliminary plan are adding specific security actions and timetables, 
and establishing milestones. The final plan will serve as the guiding 
document for all our security efforts, including collections security, 
physical security, information security and personnel security.
    Finalization of the plan for presentation to the Library's 
authorizing committees is being given top priority by the Director of 
Security.
                       congressional publications
    Question. What items and approximately how much does the Library 
pay to the Government Printing Office to secure government documents 
for its work and collections?
    Answer. The Library is currently spending approximately $210,000 to 
acquire Congressional publications needed for its collections, 
international exchange, and use by Congressional Research Service (CRS) 
staff. These publications include hearings, committee prints, the 
Congressional Record, Statutes at Large, House and Senate journals, the 
Economic Report of the President, the Budget, Statistical Abstracts, 
and other documents.
                      management improvement plan
    Question. One of the Management Improvement Plan recommendations 
last year was for the Library to establish a position of Chief 
Information Officer. Why has the Library's Executive Committee deferred 
its decision to establish the position?
    Answer. Deputy Librarian of Congress Donald L. Scott was appointed 
to his position in October of 1996 and charged with managing the day-
to-day operations of the Library. General Scott required a six month 
period to learn, review, and assess the structure, personnel, 
operations, and present and future challenges of the Library's 
Information Technology Services directorate. The Deputy has concluded 
that ITS is a one-of-a-kind unit whose main operations are composed of 
a mix of internally-developed and commercially-procured automated 
systems. A great number of those legacy systems are in dire need of 
replacement with an integrated, off-the-shelf vendor's system. Given 
the challenges facing ITS, the Deputy Librarian concurs with the 
external recommendation to establish a CIO position and will recommend 
to the Executive Committee that the Library proceed with the 
establishment and filling of this position beginning in July 1997.
                            police overtime
    Question. The Library plans on reducing the amount of overtime 
worked by its police force to 10 percent and hire additional police to 
provide necessary coverage. What is the cost savings estimated for 
fiscal year 1998 due to the hiring of additional police?
    Answer. No cost savings are estimated because a new police FTE 
costs more than equivalent overtime hours. A police person's assignable 
(regular) work hours total 1,445 out of a total 2,087 payable hours a 
year (non-assignable hours include leave and training time). In 
addition, employee benefits (approximately 27.6 percent of total base 
salary) do not increase for overtime hours. Therefore, one new police 
FTE that costs $45,930 (including benefits) is equivalent to 1,445 
overtime hours that cost $37,382. The Library is planning to reduce 
excessive overtime to improve the effectiveness and quality of police 
performance, but this effort will not decrease costs.
                   fiscal year 1998 budget priorities
    Question. What are the Library's priorities in its fiscal year 1998 
budget?
    Answer. The two highest priorities are mandatory pay and price 
level increases totalling $14.7 million. These increases are needed to 
maintain current services. Without funding for mandatory pay increases 
($10.7 million), the Library would need to cut 178 positions, which is 
on top of the 435 FTE's lost since 1992--a cumulative cut of 13.6 
percent since 1992. A price level increase is necessary to sustain our 
purchasing power for goods and services including books, machine-
readable works, and other materials. The amount of material we can 
afford to purchase from appropriated funds has declined seriously--from 
930,747 pieces in fiscal 1992 to 707,695 pieces in fiscal 1996. We must 
not permit further erosion in these acquisitions--particularly since 
these reductions disproportionately hurt precisely those foreign 
acquisitions which only the Library of Congress makes and which often 
have growing importance for our international competitiveness. We 
should not risk depleting what is, in effect, the nation's strategic 
information reserve. It will have many uses tomorrow that we cannot 
even imagine today.
    The next two highest priorities would be the Integrated Library 
System ($5.6 million) and security. Investing in technology would 
enable the Library to re-engineer its major business process and 
improve productivity. The new system would also improve collections 
security. The Library is requesting $685,035 to hire additional police 
officers and to fund various contract security initiatives. Additional 
security funds are needed to handle the reopening of the Jefferson 
building including staffing new police posts and installing security 
equipment. Further, additional security funds are requested for two 
reader registration stations ($393,410) and for inserting detection 
targets into items received by the Copyright Office ($242,072).
                            ils installation
    Question. How many FTE's will be saved once ILS is completely 
installed?
    Answer. The Library expects that current staffing levels will be 
maintained through the year 2000, which will be the first year in which 
the Integrated Library System (ILS) will have been fully implemented. 
Major efficiencies will begin to be realized in 2001. During the first 
few years we will need all existing staff to get the ILS up and 
running.
    From 2001-2005, the workforce is anticipated to be reduced 
significantly through attrition. Therefore, once the ILS has been 
installed and staff have been trained, we will need to reallocate the 
majority of the positions eliminated by the ILS to a variety of 
critical tasks that have long been understaffed, such as arrearage 
reduction, collections inventory, and security.
    Our initial estimates indicate 120 FTE could be reinvested in 
crucial areas for arrearage reduction, collection security, and 
inventory control when the ILS is completely installed and fully 
operational by year 4 (2003). It must be emphasized that these 
projections are very preliminary. Until the ILS has been chosen and 
installed and staff have become familiar with the capabilities of the 
new system--a prerequisite for the redesign of many Library Services' 
business processes--the projections will remain rough estimates.
                             loc collection
    Question. Would it be helpful for the Library to receive its 
collection in both a hard copy and in digital form?
    Answer. At present, the Library is working from the hypothesis that 
some kinds of works should be deposited in hard copy only, some in 
digital form only, and some in both formats. Currently when a work is 
published in CD-ROM format and hard copy, copyright regulations require 
that the CD-ROM version be deposited. However, it is most often the 
case that the CD-ROM and hard copy editions of a work are sufficiently 
different from each other that they must be registered and deposited 
separately.
    A new Copyright Office initiative--CORDS (Copyright Office 
Electronic Registration, Recordation and Deposit System)--that will 
become operational in 1998 will allow digital works to be submitted 
through the Internet using public key/private encryption technology. 
The system is in a test phase with Carnegie Mellon, Stanford University 
and MIT Press as participants. In 1998 the types of works that will be 
submitted electronically are technical reports, electronic journals and 
newsletters, books, dissertations, and home pages and websites. From 
1999-2004 the Copyright Office will systematically incorporate 
additional categories of materials, working closely with CRS and 
Library reading room staff to determine which formats best serve user 
needs. If we determine that we need both hard copy and digital versions 
of identical works, the Copyright Office has authority under Title 17 
to amend its deposit regulations to require deposit of one copy of each 
edition. The Law Library under its Global Legal Information Network 
(GLIN) Project is currently receiving both a hard copy and a digitized 
format of some countries' official gazettes. This procedure will 
continue until preservation standards are established to replace hard 
copies completely. The ultimate goal is to acquire only a digitized 
format for primary sources of laws.
                      management improvement plan
    Question. According to the MIP, the Library's Executive Committee 
was to review on March 2, 1997 its previous decision not to establish a 
Chief Information Officer position to provide leadership in technology 
across the organization. What did the Executive Committee decide?
    Answer. The Library's Executive Committee has deferred its decision 
on establishing a Chief Information Officer position.
    Question. Which senior Library official will have oversight 
responsibility for the purchase and implementation of the Integrated 
Library System (ILS), if approved by Congress, which the Library 
estimates will cost more than $40 million and require training of more 
than half the Library's staff?
    Answer. If funds are appropriated by the Congress for the purchase 
and implementation of the Integrated Library System, Deputy Librarian 
Donald Scott will serve as the source selection authority for the ILS 
procurement. Barbara Tillett will serve as ILS project manager.
                    streamlined management processes
    Question. Who are the members of the Executive Committee and the 
Senior Management Reporting Group, and what are their separate roles 
and responsibilities?
    Answer. The Library's Executive Committee (EC) is the primary 
decision- and policy-making body for the institution. Its members are 
responsible for the achievement of the Library's mission and its 
priority work. The EC is also responsible for assuring that all key 
issues are identified and addressed in a timely fashion. The head of 
each of the Library's seven service units serves on the EC. When there 
is lack of consensus on an issue, the committee presents options and 
viewpoints to the Librarian or the Deputy Librarian for his decision.
    Members of the Executive Committee are as follows:
      James H. Billington, Librarian of Congress
      Donald L. Scott, Deputy Librarian of Congress (chair)
      Jo Ann Jenkins, Chief of Staff/Senior Advisor for Diversity
      Rubens Medina, Law Librarian
      Daniel P. Mulhollan, Director, Congressional Research Service
    Marybeth Peters, Register of Copyright/Associate Librarian for 
            Copyright Services
      Winston Tabb, Associate Librarian for Library Services
    The following directors of the primary service functions within the 
institution rotate serving as the infrastructure representative at 
Executive Committee meetings. They are considered voting members in 
terms of decision-making.
      Herbert Becker, Director, Information Technology Services
      Kenneth Lopez, Director of Security
      Lloyd Pauls, Associate Librarian for Human Resources Services
      Linda Washington, Director, Integrated Support Services
      John Webster, Director, Financial Services
    The Senior Management Reporting Group (SMRG), consisting of the 
primary senior level managers, is the main managerial mechanism for 
imparting critical information within the institution. The group's 
weekly meetings are the forum in which the Executive Committee 
communicates decisions, goals, and assignments. SMRG members are 
responsible for sharing information on their individual areas of 
responsibility, as well as bringing forward issues requiring 
deliberation, coordination, or other action; congressional concerns are 
given particular priority.
    Members of the SMRG are as follows:
      James H. Billington, Librarian of Congress
      Donald L. Scott, Deputy Librarian of Congress (chair)
      Herbert S. Becker, Director, Information Technology Services
      Peter Braestrup, Senior Editor and Director of Communications
      Jill D. Brett, Public Affairs Officer
      Jo Ann Jenkins, Chief of Staff
      Lana Jones, Acting General Counsel
      Kenneth Lopez, Director of Security
      Rubens Medina, Law Librarian of Congress
      Daniel P. Mulhollan, Director, Congressional Research Service
      Geraldine M. Otremba, Director, Congressional Relations Office
      Lloyd Pauls, Associate Librarian for Human Resources Services
    Marybeth Peters, Register of Copyrights/Associate Librarian for 
            Copyright Services
      John W. Rensbarger, Inspector General
      Winston Tabb, Associate Librarian for Library Services
      Linda J. Washington, Director, Integrated Support Services
      John D. Webster, Director, Financial Services
      Andre Carl Whisenton, Director, Dispute Resolution Center
      Harry Yee, Chief, Labor Management Relations Office
                          building compliance
    Question. In February before the House Legislative Branch 
Appropriations subcommittee, the Office of Compliance testified that 
there were conformance problems, particularly electrical safety issues, 
with the Library buildings. At the time, no estimates had been prepared 
on the cost to bring the buildings into compliance. What has the 
Library done to address the compliance problems? Have any cost 
estimates been prepared? Will this impact the Library's fiscal year 
1998 budget?
    Answer. Electrical safety problems identified in Library of 
Congress Buildings by the General Counsel, Office of Compliance, report 
of June 28, 1996, ``Report on Initial Inspections of Facilities for 
Compliance With Occupational Safety and Health Standards Under Section 
215,'' are not the responsibility of the Library.
    All electrical safety problems identified were in spaces under the 
control of the Architect of the Capitol (AOC). These spaces included 
mechanical equipment rooms, elevator equipment rooms, AOC shops, etc. 
Consequently, the Library has made no cost estimates for correction of 
the problems. Since this area of action falls under the jurisdiction of 
the AOC, there will be no impact on the Library's fiscal year 1998 
budget.
                    congressional accountability act
    Question. At the time of the 1997 Senate appropriations hearing, 
the Office of Compliance was preparing a study regarding the 
comprehensiveness and effectiveness of various laws affecting the 
Library of Congress as well as other legislative branch agencies. What 
was the outcome of the study?
    Answer. The study, presented to the Congress on December 31, 1996, 
did not make any recommendations, stating that any recommendations this 
early in the life of the implementation of the Act would be 
``premature.'' Rather, the study describes how the legislative branch 
entities enforce the rights and protections under the statutes they 
studied and concluded that, ``* * * overall, the rights, protections, 
procedures and relief afforded to employees at the GAO, the GPO and the 
Library * * * are, in general, comprehensive and effective when 
compared to those afforded other legislative branch employees covered 
under the [Congressional Accountability Act].''
    While not offering legislative remedies, the study did note some 
areas where there are discrepancies between the letter and spirit of 
the CAA and the administration of workplace-related laws at the 
Library. The study made several references to the fact that Library of 
Congress employees, uniquely within the federal government, have no 
appeal to an administrative body independent from, and external to, the 
head of the agency, with respect to fair employment and other claims.
    In the absence of a legislative proposal from the Office of 
Compliance, the Library will be seeking needed legislative changes 
through its authorizing committees. These changes include: (1) creation 
of an avenue to seek administrative relief in fair employment cases 
through the Office of Compliance, as noted above; (2) technical changes 
needed in the implementation by the Library of the Family and Medical 
Leave Act; (3) placing the Library under the Americans with 
Disabilities Act-public access procedures outlined for the Capitol 
complex under the CAA; and (4) placing the Library under the labor-
management relations provisions of the CAA.
                            financial audit
    Question. At the Senate Rules Committee hearing on March 20, 1997, 
Dr. Billington stated that KPMG had been contracted to do the Library's 
external audit and the audit report was due at the end of March. The 
Library has been given a final copy of the report. Do you concur with 
the findings? Please summarize them and provide the Committee with a 
copy of the final report when it is completed.
    Answer. The Library's consolidated financial statement report for 
fiscal 1996 was issued on April 30, 1997, and a copy was sent to the 
Committee. The independent accounting firm, KPMG Peat Marwick, gave the 
Library an unqualified ``clean'' opinion on the financial statements 
and made 43 recommendations for improvements. The Library concurs with 
38 and partially concurs with 5.
    The 43 recommendations address the one material internal control 
weakness and seven reportable internal control conditions found by the 
auditors. Most of the recommendations relate to conditions found during 
the 1995 audit that require more time to implement. For example, eleven 
out of the 43 recommendations (26 percent) pertain to improving the 
safeguarding of the Library's collections--a long-term task. The one 
material internal control weakness addresses the security practices 
over information technology systems. The Library has already taken 
steps to improve these security practices (e.g., requiring that the 
Computer Security Officer sign off on the separation clearance forms), 
and the Library is taking additional steps to implement the 
recommendations.
    The 1996 audit found two new reportable internal control 
conditions--year 2000 compliant software changes were needed and that 
the Inspector General's oversight functions were limited. The Library 
is taking steps to address both of these findings.
    Consistent with the 1995 audit report, the 1996 audit report again 
found that the Library had two areas of noncompliance with laws and 
regulations--operating gift revolving funds beyond the scope of 
authority and retaining certain money from the Cooperative Acquisition 
Program. The Library continues to request legislation to correct both 
of these issues.
    In summary, the 1996 audit report represents a major achievement 
for the Library as a result of receiving a ``clean'' opinion on the 
financial statements, but it also reiterates that more work is needed 
to address all of the Library's internal control issues.
                      management improvement plan
    Question. According to the Library's Management Improvement Plan 
(MIP), the Executive Committee has had under consideration since June 
1996 the elevation of a Chief Financial Officer's position to focus 
attention on improving the Library's financial systems and controls. 
When does the Executive Committee expect to make a decision on this 
Booz Allen recommendation?
    Answer. The Director of Financial Services is the Library's Chief 
Financial Officer responsible for budget, accounting, financial 
systems, and disbursing activities. As evidenced by the unqualified 
audit opinion on our fiscal 1996 financial statements, the Library has 
improved its financial systems and controls.
                           library technology
    Question. When was the ILS Request for Comment issued? What is the 
closing date?
    Answer. The Request for Comment (RFC) was issued by the Library on 
December 3, 1996. The 60-day comment period ended on February 3, 1997. 
All nine vendors who responded to the RFC indicated their intent to 
respond to the Request for Proposal.
    Question. What is the estimated cost of staff training for the ILS? 
Is it included in the $24,030,000 of earmarked existing resources? If 
not, does the Library expect to commit other existing resources to 
cover training costs?
    Answer. The estimated cost of staff training related to the ILS is 
$5,939,605. All of these costs are included in the $24,030,000 figure 
with the exception of $64,992, which is requested for fiscal year 1999 
to pay the selected vendor to ``train the trainers.''
                     unprocessed library arrearages
    Question. From 1992 to 1997 the arrearages were reduced by 43.71 
percent. What is the projected date for eliminating the remaining 
arrearages?
    Answer. If current staffing levels remain steady, the Library plans 
to (1) eliminate the print and map arrearages by December 2000 and (2) 
reduce the remaining arrearages 80 percent by December 2005.
                  systematic training and development
    Question. According to the Booz-Allen management review, their 
assessment of training and development capability revealed a strong 
need for leadership-management training for all three levels of 
management.
    When do you estimate training in leadership and management 
developed under the approved continuum concept will begin for: (1) 
first-line managers; (2) middle management; and (3) senior management?
    Answer. We have just concluded a comprehensive three-day 
Facilitative Leadership Training Program for all Library managers and 
supervisors. The program was designed to enhance management skills and 
abilities, particularly those which help build more productive 
relationships and achieve more focused results.
                       accountability mechanisms
    Question. To ensure standard applications of the performance 
appraisal across the Library, an audit is now being conducted of the 
performance appraisal process for bargaining unit employees. The 
objective is to make certain they are being conducted in accordance 
with applicable collective bargaining agreements.
    What is the estimated completion date of the audit? Please provide 
the Committee with the findings of the completed audit.
    Answer. We expect to complete the audit no later than December 31, 
1997, and we will provide the Committee with a report of our audit 
findings.
            support functions' efficiency and responsiveness
    Question. As a way of developing increased communications between 
labor and management, the Library facilitated a meeting held with the 
Executive Committee, Chief of Labor Relations, ALHR, three union 
presidents, and two FLRA representatives. Tentative agreements 
subsequently were reached with unions on final regulations implementing 
the Americans with Disabilities Act, the Family Medical Leave Act, and 
the Family Friendly Leave Act. In addition, they reached an agreement 
on new fitness for duty procedures for bargaining unit staff.
    Have the tentative agreements since been finalized? If so, have 
they been implemented? Has the agreement on fitness for duty procedures 
been implemented? If not, what is the estimated date for 
implementation?
    Answer. Bargaining has been completed and new Library regulations 
issued implementing Americans with Disabilities Act, Family Medical 
Leave Act, and Family Friendly Leave Act. In addition, bargaining has 
been completed on new fitness-for-duty medical examination procedures, 
and the new regulation will be issued shortly.
                         accident compensation
    Question. Included in the 1998 budget request (Salaries--
Mandatory--Accident Compensation) are funds to cover $1,034,867 in 
accident compensation for 1996. The Library's FTE level for that year 
was 4,114. What was the cost of the Library's accident compensation for 
each fiscal year 1992 through fiscal year 1996?
    Answer. The cost of the Library's accident compensation for fiscal 
year 1992 through fiscal year 1996 was as follows:

Fiscal year:
    1992......................................................  $889,219
    1993...................................................... 1,012,541
    1994...................................................... 1,030,782
    1995......................................................   940,521
    1996...................................................... 1,034,867

    Question. What is the norm for an agency with a staff level of 
approximately 4,000?
    Answer. We consulted with the Department of Labor to determine the 
norm for an agency with a staff level of approximately 4,000. Their 
closest comparative figure was the Small Business Administration which 
had an fiscal year 1996 accident compensation cost of $2,500,000 for a 
staff of 4,800.
                            security report
    Question. Computer Sciences Corporation issued its report assessing 
the physical security of the Library of Congress on August 25, 1995. In 
Dr. Billington's March 20, 1997, statement for the Senate Rules 
Committee hearing, he states that the Library Security Management Plan 
is in place. Does it incorporate all the recommendations of the 
Computer Sciences Corporation report? If not, which ones are not 
included and why?
    Answer. Regarding the recommendations of the Computer Sciences 
Corporation (CSC) report, the following is noted:
  --The Security Management Plan was not intended to incorporate all 
        the recommendations of the CSC report.
  --The majority of the over 800 CSC recommendations are being tracked 
        separately from the Plan.
  --Tracking the implementation of CSC report recommendations is best 
        accomplished by a separate process due to the detailed and/or 
        technical nature of the many recommendations.
  --Only those CSC report recommendations dealing with broad security 
        program management matters such as structure and policy are 
        included in the Plan.
    The new Director of Security, who joined the Library this past 
February, has reviewed the Security Management Plan and is in the 
process of adding enhancements. The Plan will be continuously updated 
to reflect changes in threat conditions, risk factors and security 
technology.
                      management improvement plan
    Question. Security of People, Facilities, Collections, and Data 
Systems. March 31, 1997 is the estimated completion date for the risk 
assessment for the Library collections using reports from Computer 
Sciences Corporation and other consultants, plus broad input from 
within the Library. Is it completed? Please provide the Committee with 
a copy of the report.
    Answer. The risk assessment for the Library collections is not 
completed. Library Services, with the assistance provided by the firm 
of KPMG Peat Marwick, is leading an Internal Control Review Task Force 
with the charge of preparing a risk assessment of the Library's 
collections. The March 31, 1997, estimated completion date shown in the 
Library's Management Improvement Plan, underestimated the work required 
to prepare a comprehensive risk assessment. The risk assessment, when 
completed, will be comprised of a series of individual assessments 
covering the major collections divisions. Preparation of the 
collections risk assessment is expected to extend beyond this year 
because it is a complex and time consuming undertaking. The task force 
is focusing initially on completing a risk assessment for one division, 
Geography and Map (G&M). Once the task force has completed the G&M 
model, estimated to be by July 31, 1997, other collections divisions 
will prepare their respective risk assessments. Risk assessment results 
will be incorporated into the Library's Security Management Plan.
                            library security
    Question. As referenced earlier, in fiscal year 1996, the Library 
contracted with Computer Sciences Corporation to conduct a 
comprehensive survey of collections security and police operations. As 
part of its findings, the report indicated that Library police are 
currently understaffed. The Library's goal is to reduce police overtime 
(roughly 25 percent of total scheduled hours) to 10 percent of total 
scheduled hours. Funds to achieve the goal are included in the 
Library's 1998 budget request. What is the Capitol Police's percentage 
of overtime and what do they consider an acceptable norm.
    Answer. From discussions with the Capitol Police it was determined 
that their percentage of overtime approximates the Library's overtime 
goal of 10 percent of total scheduled hours which they consider an 
acceptable norm.
                       revolving fund legislation
    Question. With regard to the finding of the GAO General Counsel 
concerning the Cooperative Acquisition Program, Dr. Billington recently 
notified the Committee that: ``Absent proper statutory authorization to 
operate the program under a revolving fund, the Library must 
reluctantly cease operating the Cooperative Acquisitions Program by 
October 1, 1997.''
    This Committee recently approved the reprogramming of funds to 
temporarily keep alive this program. What is the current status of your 
legislative proposal?
    Answer. The Library submitted draft legislation to Senate Rules and 
House Oversight; Senate Rules held an oversight hearing in March and 
the Library was asked to submit additional information. House Oversight 
also has the draft and we have met with staff counsel to discuss it but 
no action is scheduled at this time.
                              crs workload
    Question. A comparison of the Library's fiscal year 1997 and fiscal 
year 1998 Budget Requests shows the following regarding Workload 
Statistics for CRS Requests and Services Provided Congress:

----------------------------------------------------------------------------------------------------------------
                                                                             Fiscal year--                      
                                                     -----------------------------------------------------------
             Fiscal year budget request                                                                  1996   
                                                         1992        1993        1994        1995      estimate/
                                                        actual      actual      actual      actual      actual  
----------------------------------------------------------------------------------------------------------------
1997................................................     644,668     615,913     593,000     592,731  \1\ 593,00
                                                                                                               0
1998................................................     645,000     607,000     536,000     492,000     487,000
Variance (1998-97)..................................        +332      -8,913     -57,000    -100,731    -106,000
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.                                                                                                   

    Why are there variances in actual workload statistics for fiscal 
years 1992 through 1995?
    Answer. For fiscal year 1992 the difference in numbers reported 
results from rounding. For fiscal years 1993-1996, workload statistics 
previously reported in the fiscal 1997 request were revised to exclude 
some data on client use of automated services. CRS recently discovered 
a programming error in capturing Internet electronic access for House 
offices and committees, and the decision was made to exclude these 
questionable data from reported workload. Therefore, statistics from 
1993 through 1996 were revised to eliminate the questionable data. 
Statistics for access to files via modem or hard-wired terminals in the 
House, and all access from the Senate were found to be valid. The 
client access data now include only Senate and House access of SCORPIO 
databases via modem, Senate Internet access, and calls to the CRS Stats 
Line.
    Fiscal 1996 data do include initial client access to the CRS 
Homepage on the World-Wide Web. This method of counting access is 
extremely conservative, as it does not record retrieval of documents or 
complex and lengthy searches. We are continuing to evaluate how we 
should count electronic services, which is an increasing method of 
delivering our products to congressional clients, and will very likely 
revise the methodology as we gain more experience with the new delivery 
electronic delivery systems.
    Question. Based on the fiscal year 1998 budget request, for fiscal 
year 1992 through fiscal year 1996 there was a cumulative reduction of 
-24.49 percent in CRS Requests and Services Provided Congress. What is 
the basis for the projected increase of 13,000 in fiscal year 1997?
    Answer. The projection was made last fall, before the legislative 
agenda and timetable for the 105th Congress was known. CRS projected a 
slight increase based on historical experience which shows that in some 
past Congresses, the first session workload for research and analysis 
requests was higher than in the second session.
    At this time we are tentatively projecting a fiscal year total of 
between 485,000 and 495,000. This guesstimate is based on data trends 
for the 105th through the end of March, coupled with actual experience 
during the last quarter of the 104th 2d session. Actual numbers will 
vary if the legislative agenda changes significantly as a result of 
national or world events.
    Question. Mr. Mulhollan's statement before the House appropriations 
hearing on February 12, 1997, included the following: ``With the 
overall reduction of CRS, committee staff, and staff of other 
legislative branch resources, we developed a strategy to respond to 
these losses and ensure that we avoid unnecessary duplication of effort 
with the committees and legislative branch support offices. We 
formulated and implemented a decision-making process within CRS for 
resource allocation which ensures that we continue to devote our 
resources to the highest priority work that supports the legislative 
needs of the Congress.'' When was the new process implemented? Are 
there plans to evaluate its effectiveness? If so, please describe, and 
include a time table.
    Answer. The purpose of the new resource allocation process, which 
was initially implemented in fiscal 1996 and revised in January 1997, 
is to assure that hiring, reassignment, and detail, and other resource 
allocation decisions are made in the context of the legislative agenda 
and Service-wide needs.
    CRS managers use a standard format when requesting additional staff 
or consultant services, and address specific criteria including an 
assessment of (1) the division and Service-wide capacity to support the 
legislative agenda in the subject area; (2) measures the division has 
already taken to address the need; (3) whether staff could be 
reassigned within the division or from elsewhere in the Service to meet 
the workload needs; (4) the impact of any projected retirements on 
research capacity; (5) appropriate scope of recruitment; (6) the impact 
on diversity and upward mobility objectives; (7) infrastructure 
requirements; (8) whether the need is most appropriately met through 
staffing or through consultant services; and (9) the short and long 
term budget impacts of the request. Decisions are made by the Director 
after periodic submissions--expected to be quarterly--and after 
discussion in the Research Policy Council, which consists of the 
Director, the Deputy Director, the Associate Directors and the Division 
Chiefs.
    The resource allocation process also included an examination of the 
distribution of non-personal resources, particularly database and print 
subscriptions. The Research Policy Council agreed on a simplified 
process and appropriate factors for making division and office 
suballotments at the beginning of each fiscal year. The process 
provides mechanisms to reduce or increase division allocations as needs 
arise.
    Evaluation of the process is ongoing; with each use, the Research 
Policy Council improves information gathering and changes are made 
accordingly.
                             crs personnel
    Question. CRS is requesting funds to hire 60 additional FTE's over 
the next three years (25 in fiscal year 1998, 25 in 1999, and 10 in 
fiscal year 2000). During the subsequent six years they plan to return 
to their current service level of 747 FTE's. At the February 12, 1997, 
House appropriations hearing, Dr. Billington stated that the Library 
had a very low turnover rate--about 3.7 annual rate for several years.
    For each fiscal year from 1992 through 1996, what percentage of CRS 
staff was eligible to retire? For each of those years, what percentage 
of those eligible did retire?
    Answer.

------------------------------------------------------------------------
                                                            Percent of  
                                            Percent of      retirement  
                                             permanent     eligibles who
                                          staff eligible  retired during
                                           to retire (as   the year (as 
                                             of 9/30)        of 9/30)   
------------------------------------------------------------------------
1992....................................             5.6             4.7
1993....................................             9.2             4.4
1994 \1\................................            10.9            31.2
1995....................................            10.3             5.6
1996....................................            11.1            10.5
------------------------------------------------------------------------
\1\ Retirement incentives of up to $25,000 were offered during fiscal   
  1994.                                                                 

    Question. CRS has conducted a survey to determine the planned 
retirements of eligible CRS staff in future years. According to the 
survey results, for each fiscal year from 1997 through 2000, what 
percentage of eligible CRS staff plan to retire?
    Answer. The retirement survey asked CRS staff, on a voluntary 
basis, to estimate, as accurately as possible, retirement plans based 
on current expectations. Each staff member who would be eligible to 
retire through 2006 was asked to identify the time interval (a two-year 
span) most likely to correspond with current retirement plans. Nearly 
93 percent of staff eligible to retire by 2006 responded to the survey. 
The raw results are provided below. We are now assessing the impact of 
these retirements on the overall capacity of the Service to maintain 
analytic expertise in the areas we believe critical to serving Members 
and committees in the coming years.

----------------------------------------------------------------------------------------------------------------
                                                                       Total        Percent of      Percent of  
                                                                    retirements   eligible staff  eligible staff
                                                                   projected by      likely to       likely to  
        Time period considered most likely for retirement         staff (through  retire in each  retire in each
                                                                    survey) for     time period     time period 
                                                                    time period   (year by year)   (cumulative) 
----------------------------------------------------------------------------------------------------------------
1997-1998.......................................................              21             5.5             5.5
1999-2000.......................................................              36             9.4            14.9
2001-2002.......................................................              41            11.0            25.9
2003-2004.......................................................              50            13.1            39.0
2005-2006.......................................................              90            22.8            61.8
2007 and beyond.................................................             116            31.1            92.9
                                                                 -----------------------------------------------
      Subtotal..................................................             354            92.9  ..............
No Response.....................................................              27             7.1  ..............
                                                                 -----------------------------------------------
      Total.....................................................             381             100  ..............
----------------------------------------------------------------------------------------------------------------

                          federal-state shifts
    Question. During the 1997 Senate appropriations hearing, the 
Library made reference to increasing congressional needs for research 
and analysis regarding state and local government developments as the 
Congress considers shifting responsibilities for many programs and 
policies from the federal government to the state level. Has there been 
an increase in requests from senatorial offices regarding the impact of 
the Personal Responsibility and Work Opportunity Reconciliation Act of 
1996 (Public Law 104-193) on state and local governments? If so, how 
significant? Please provide a general description of the types of 
information CRS has developed to respond to this need.
    Answer. We are now developing the capacity to analyze requests on 
specific issues, but cannot yet do so. Therefore, we do not currently 
have data on the actual number of requests by Senate offices for the 
specific issues associated with this legislation. However, we do have 
distribution data to the whole Congress for the reports we have 
prepared on these issues, which are elaborated below. Since August 1996 
CRS provided 7,041 copies of these reports to congressional clients 
through the Product Distribution Center.
    To answer congressional inquiries on the new federal-state funding 
and policy relationships and on state-specific information, we have 
developed a number of products on the issues associated with the 
Personal Responsibility and Work Opportunity Reconciliation Act of 
1996. At an overview level, we prepared a report which summarizes state 
Temporary Assistance for Needy Families (TANF) programs--CRS Report 97-
380 (Welfare reform: State Programs Under the Block Grant for Temporary 
Assistance for Needy Families).
    To answer questions about the new state block grant TANF, the CRS 
welfare team developed an integrated data base about state TANF plans 
and pre-TANF reforms that states are continuing under waivers. The 
plans show that some states are delegating more authority to local 
units of government. The data base enables us to provide details about 
more than 70 elements of TANF programs, state by state.
    In addition, specific reports provide information about aspects of 
the reform law, such as Alien Eligibility for Benefits Under the New 
Welfare and Immigration Law (CRS Report 96-617), the provisions 
affecting Native Americans, Indian Tribes and the New Welfare Law (CRS 
Report 97-86), Child Care for Low-Income Families: Federal Programs and 
Welfare Reform (CRS Report 96-780), and New Welfare Reform and 
Subsidized Public Sector Jobs (CRS Report 97-360).
    To answer questions about state funding, we have compiled data 
comparing TANF grants and child care funding with funds provided under 
old law, state-by-state. This has included projections of some 
supplemental TANF funds for states with above-average population growth 
and below-average federal funding per poor person. A memorandum 
entitled Grants to the States for Temporary Assistance for Needy 
Families and Child Care provides state-by-state funding levels under 
the new TANF and child care block grants.
    An issue brief--Welfare Reform (IB93034) analyzes continuing 
issues, such as proposals to continue benefits for legal immigrants 
here when the law was enacted, the dispute over application of federal 
(and state) labor laws to welfare recipients in ``workfare'' programs; 
whether generous work exemption provisions of existing state waivers 
can override TANF's work participation rules; what state spending will 
count toward the requirement that state maintain 75 percent of their 
historic spending level; the authority for states to administer TANF 
through private, religious or charitable organizations; the President's 
budget proposals related to the new law (extra spending of $22.5 
billion over 5 years), and what role, if any, the federal government 
should play in creating and/or subsidizing jobs for TANF recipients.
    A number of reports have been written to (1) provide a side-by-side 
comparison of TANF with the replaced programs of Aid to Families with 
Dependent Children (AFDC) and Job Opportunities and Basic Skills 
Training (JOBS) (New Welfare Law: Comparison of the New Block Grant 
Program with Aid to Families With Dependent Children, CRS Report 96-
720); (2) summarize the omnibus welfare law (New Welfare Law: the 
Personal Responsibility and Work Opportunity Reconciliation Act of 
1996, CRS Report 96-687); (3) describe new SSI rules for children 
(Supplemental Security Income (SSI) for Children: New Rules, CRS Report 
97-340), (4) discuss Child Support Enforcement: New Reforms and 
Potential Issues (CRS Report 97-408), and (5) present new AFDC program 
rules (Aid to Families With Dependent Children (AFDC): Program Benefit 
Rules, July 1, 1996 CRS Report 97-188).
                    copyright office processing time
    Question. In fiscal 1996, the processing time went from nine weeks 
to 14 weeks. What was the percentage of staff reduction for fiscal 
1996?
    Answer. The number of staff in fiscal year 1996 declined 1.1 
percent from 506 to 500, continuing the loss of trained professionals. 
Since the end of fiscal 1996, processing time for the bulk of routine 
claims has claimed steadily to 18 weeks before a certificate is issued. 
CORDS will enable the Copyright Office to process claims with far fewer 
staff. However, in fiscal 1998 the percentage of CORDS claims will be 
very low, and the savings will not be apparent until fiscal 2000. In 
the meantime the Office will need the additional FTE's to hire 
examiners and catalogers lost over the past few years to restore 
processing time to acceptable levels.
                copyright office retirement eligibility
    Question. What is the Copyright Office staff retirement eligibility 
rate for 1997 and 1998? Please provide similar retirement eligibility 
data for the Copyright Office that you did for the CRS.
    Answer. The eligibility rate in fiscal 1997 is 9 percent and 11 
percent in fiscal 1998. The Chart shows the cumulative eligibility rate 
through the year 2006, with a total eligibility of 42 percent.
                            copyright cords
    Question. Contingent on (1) enactment of legislation that permits 
the setting of higher fees; and (2) increased processing of claims 
under the CORDS system, when do you estimate the Copyright Office could 
reduce its fiscal year 1998 request for 502 FTE's and by how much?
    Answer. Legislation that would permit the Copyright Office to set 
higher fees has passed the House and is now before the Senate. Once 
enacted, the legislation will require the Office to conduct a study 
followed by administrative hearings to establish a new fee schedule 
consistent with the objectives of the U.S. copyright system. Then 
Congress has a 120-day period in which to disapprove the recommended 
fee schedule. Therefore, we do not believe a fee increase could be 
implemented before fiscal 1999. A fee increase could permit a reduction 
in the net appropriation, but reduction in staff would only occur if 
the workload declined.
    CORDS will not enable the Office to reduce the 502 FTE's requested 
in fiscal 1998. However, CORDS will enable the Office to avoid future 
increases in staff costs by accommodating an increasing workload and by 
processing claims more efficiently and in less time without adding as 
many new FTE's. We estimate that the workload will increase to 635,000 
by the year 2000, of which 50,000 will be processed under CORDS, while 
the remaining 585,000 would still have to be processed using current 
manual procedures.
                      management improvement plan
    Question. In June 1996 the Library issued a Management Improvement 
Plan (MIP-96) which was aimed at addressing many of the findings and 
recommendations contained in the Booz-Allen and Price Waterhouse 
reviews. It also included items related to the findings of the report 
by the Computer Sciences Corporation regarding physical security of the 
Library. An updated plan (MIP-97) was issued in February 1997.
    MIP-97.--Sec. 1 Updated Library Plans and Programs Phase II of the 
development of a Strategic Plan calls for the service units to identify 
the key tasks necessary to accomplish the goals and identify 
performance indicators, responsible authorities, resource requirements 
and time frames needed for completion of each objective. The target 
completion date for Phase II was March 31, 1997.
    Is Phase II of the Strategic Plan completed? Please provide the 
Committee with a copy of the completed Phase II report.
    Answer. The first draft of Phase II has been completed. At the 
present, the areas of Library that constitute the infrastructure (Human 
Resources, Financial Services, Integrated Support Services, and 
Information Technology Services) are modifying their own operational 
plans in order to support the infrastructure needs of the service 
units. Phase II will be finalized after the strategic planning 
committee reviews all the plans and prioritizes the enabling 
infrastructure's action items based on the available resources. We 
anticipate this action to be complete by the end of this fiscal year.

                    additional submitted statements

    [Clerk's note.--The subcommittee has received statements 
from the Association of Research Libraries and the American 
Association of Law Libraries which will be inserted in the 
record at this point.]
    [The statements follow:]
      Prepared Statement of the Association of Research Libraries
    On behalf of the Association of Research Libraries, the American 
Library Association, the American Association of Law Libraries and the 
Special Libraries Association, we urge the Subcommittee to support the 
fiscal year 1998 budget request of the Library of Congress.
    Last year, in landmark telecommunications legislation, Congress 
recognized that libraries are primary points of access for the public 
to participate in the information age. Libraries and librarians have 
embraced this challenge with enthusiasm. Since many Federal Depository 
Libraries are housed in academic and public libraries and libraries of 
all types that utilize the resources of the Library of Congress, some 
statistics regarding connections to the World Wide Web (WWW) are 
important. In academic institutions: 83 percent of doctorate granting 
institutions provide access to the World Wide Web; 67 percent of 
Master's degree granting institutions provide access to WWW; and it is 
important to note that access to the Internet outside the Library in 
these institutions is extremely high, 95 percent and 76 percent 
respectively. 44.4 percent of public libraries in the United States 
were connected to the Internet in 1996 and it is anticipated that 60 
percent will be connected by the end of 1997. Although only 23.7 
percent of public libraries offer full WWW access to the public, the 
discounted rates now being implemented by the Federal Communications 
Commission are expected to increase this percentage rapidly. All of 
these efforts are undertaken with an appreciation of the importance of 
ensuring citizens with access to needed information resources as well 
as necessary skills to fully participate in the information age.
    The Library of Congress has invested in many technological efforts 
to promote access to a diverse array of information resources to the 
public throughout the United States. Programs and activities such as 
the Library's digitized American Memory collections, the National 
Library for the Blind and Physically Handicapped, those relating to 
preservation and cataloging, and electronic information services such 
as the Global Legal Information Network (GLIN), all serve 
constituencies throughout the Nation. These and other programs of the 
Library merit the Subcommittee's continued support.
    For the last several years, there has been a rather significant 
transformation in how information is created, managed, used, accessed, 
and preserved. Libraries are at the forefront of this change and it has 
required and will continue to require, investments in infrastructure--
technological and human resources. The Library of Congress fiscal year 
1998 budget request of $387.6 million (including the authority to 
obligate $30.4 million in receipts) positions the Library to realize 
the benefits of the digital networked environment while ensuring that 
important programs and services are maintained. This request would fund 
mandatory increases, provide the necessary continuity for many 
programs, and target selected strategic technological activities such 
as the Integrated Library System (ILS) and the Global Legal Information 
Network (GLIN).
    Five LC programs are the focus of our interests: Services for the 
Blind and Physically Handicapped; Electronic Initiatives; American 
Folklife Center; Arrearage Reduction and Cooperative Cataloging; and 
Collection Security.
National Library Service for the Blind and Physically Handicapped
    The National Library Service for the Blind and Physically 
Handicapped (NLS) is a critically important service to the Nation. This 
national library service provides recorded and Braille materials to 
777,000 blind and physically handicapped persons and is accomplished 
via a cooperative network of 142 regional, subregional libraries 
(state, regional, and public libraries throughout the nation) and two 
multi-state centers that circulate these resources to eligible 
borrowers by postage-free mail. Some 23 million items are borrowed 
annually. The network of libraries also serves as distribution points 
for specialized playback equipment and accessories. We support the 
request for $2.5 million for the purchase of cassette book machines to 
ensure the availability of these machines for the blind and physically 
handicapped individuals.
Electronic Initiatives
    There has been progress in achieving the goal of building a 
networked-based, distributed program of access to library collections 
throughout the country, and indeed the world. Recent investments in 
digital initiatives indicate the need for: many years of sustained 
support with a particular focus on technological, economic, and human 
resource issues; changes in how libraries select and collect resources, 
and how these collections are managed; and greater understanding of how 
users access these resources.
Integrated Library System
    Since the late 1970's, research libraries have invested in systems 
which permit the integrated processing of records. Such systems or 
integrated library system(s) (ILS), are in fact, fundamental building 
blocks of digital libraries and electronic initiatives in libraries 
throughout the United States. Research libraries have instituted such 
systems to achieve greater efficiencies and productivity and 
importantly, to better serve the user community. An ILS can integrate 
key library functions including acquisitions, cataloging, inventory 
control, serials management, circulation, binding and preservation, 
searching of the library's holdings, management statistics, and more. 
The experience of Yale University Library is illustrative of the 
efficiencies gained in research libraries through the adoption of more 
effective automated systems. The Yale University Library realized a 70 
percent increase in cataloging throughput per full time equivalent 
(FTE) over the past 10 years, from 762 to 1,325 titles per FTE per 
year.
    The Library's request for $6.1 million for automation projects 
would include first year funding for an ILS, the Global Legal 
Information Network (GLIN), and more. This request does not reflect the 
necessary reprogramming of funds within the Library to move to an 
integrated model. Such reprogramming is critical to the success of an 
ILS and would not be unique to the Library of Congress. The Library 
will benefit from the ``lessons learned'' by other research libraries 
as ILS is now the dominate model in the community.
Digital Libraries
    A variety and diversity of collaborative projects are underway to 
explore the potential of digital libraries. Given the number of 
institutions, collections, and differing constituencies that must be 
served, there is a need for many models. A number of collaborative 
projects and programs are exploring these models with an array of 
public and private partners. The Library is participating in many of 
these projects. One unique and valuable digital library effort at the 
Library is the Global Legal Information Network (GLIN), an automation 
project that began production in the spring of 1995. Under the 
leadership of the Law Library of Congress, the de facto national law 
library serving the needs of members of Congress and the American 
people, GLIN is an international cooperative program in which 
participating nations share the work of indexing and abstracting each 
Nation's Official Gazette in exchange for electronic access to the laws 
of other nations. GLIN is an on-going effort that improves upon 
traditional acquisitions methods to provide ready electronic access to 
valuable legal sources of information. Its timely and ready access to 
the laws and regulations of other countries enables the Law Library to 
better serve Congress and its constituents. Eleven member countries 
currently participate in GLIN, and membership is expected to nearly 
double in the coming year. We fully support all efforts by the Library 
of Congress to expand GLIN to its full capability, and request the 
Subcommittee's approval of the Library's appropriations request for 
this valuable project for fiscal year 1998.
    The Library is also participating in the National Digital Library 
Federation. The Federation is a cooperative program among 16 public and 
academic institutions. The Library's National Digital Library (NDL) 
program focuses on American history and culture, adding an important 
dimension to the work of the Federation and to the building of global 
digital libraries. In 1996, NDL vastly increased the number of 
collections on the WWW. There are more than 350,000 digital files 
available with 1,700,000 digital files in production or under contract 
for digitization. We applaud the Subcommittee for its support of the 
Library's digitization efforts and believe that this support provides 
leverage to the digital library efforts underway in libraries 
throughout the Nation.
    Finally, the Library is engaged in a collaborative effort between 
ARL and the Association of American Universities. These associations 
are pursuing a networked-based distributed program for coordinated 
development for foreign acquisitions of research materials. Three pilot 
projects are underway for materials that originate in Latin America, 
Japan, and Germany. The Library of Congress has taken a leadership role 
in the German pilot project, the cornerstone of which is building the 
collections and electronic infrastructure to improve access to and 
delivery of German research resources. This is but one example of the 
Library's leadership in the acquisition of foreign research resources. 
The overseas offices service libraries throughout the United States, 
thus assisting in the building of these collections.
    Recently the General Accounting Office noted that the Library of 
Congress does not have the full legal authority to retain direct and 
indirect funds from approximately 100 participating research libraries 
throughout the United States. Our Associations welcome the opportunity 
to work with the members of the Subcommittee to clarify the Library's 
authority to continue this collaborative relationship that is both cost 
effective to the Congress and participating libraries. Continued 
investment in these initiatives will enable the Library, with other 
partners, to build digital libraries that will greatly enhance the 
education, research, and life-long learning opportunities for the 
public.
American Folklife Center
    The American Folklife Center and its Archive of Folk Culture are 
uniquely qualified to collect and preserve the sound recordings, 
photographs, histories, and traditions that document the threads that 
make up our distinctly American society. The Center plays a key role in 
preserving and presenting American Folklife to the Nation. ALA, ARL, 
AALL, and SLA support the request for $966,5000 for this important 
program and were actively engaged in the recent two-year 
reauthorization. The Associations support continued authorization of 
the Center.
Arrearage Reduction and Cooperative Cataloging
    The Library of Congress, in collaboration with others in the 
library community, continues to reduce the volume of unprocessed 
materials. The Library was able to reduce the arrearages this year by 
1.5 million items; a reduction of 47.2 percent since 1989. Cooperative 
programs with others in the library community, and in particular, the 
utilization of cataloging copy from other institutions has continued 
and indeed has increased this past year. The Program for Cooperative 
Cataloging is illustrative of collaborative efforts. 213 libraries are 
participating in the Program and contributed 14,173 bibliographic 
records, 97,964 name authorities, 8,074 series authorities, 2,026 
subject authorities, and 780 classification numbers. With the 
introduction of the ILS, even greater productivity and efficiencies 
should be realized.
Collection Security
    The Library requested several evaluations regarding the security of 
the collections to ensure that these unique resources are secure. The 
Library is in the process of implementing many of the consultants' 
recommendations including implementing a Reader Registration System, 
installation of anti-theft gates in the Library's reading rooms, and 
more. As in past years, the library community supports the Library's 
request for additional funding to improve the security of the 
collections. Funding security measures is yet one more important facet 
in making the resources of the Library publicly available. The 
successful integration of the ILS within the Library will also 
significantly enhance other security related measures.
    ARL, ALA, AALL, and SLA look forward to working with members of the 
Subcommittee and we appreciate your continuing support for the Library 
and its programs that seek to provide public access to the Library's 
varied and unique resources.
                                 ______
                                 
                       organizational biographies
    The American Association of Law Libraries (AALL).--The American 
Association of Law Libraries is a nonprofit educational organization 
with over 5,000 members nationwide. Our members respond to the legal 
and governmental information needs of legislators, judges, and other 
public officials at all levels of government, corporations and small 
businesses, law professors and students, attorneys, and members of the 
general public.
    The American Library Association (ALA).--The American Library 
Association is a nonprofit educational organization of 58,000 
librarians, library educators, information specialists, library 
trustees, and friends of libraries representing public, school, 
academic, state, and specialized libraries dedicated to the improvement 
of library and information services. A new five-year initiative, ALA 
Goal 2000, aims to have ALA and librarianship be as closely associated 
with the public's right to a free and open information society--
intellectual participation--as it is with the idea of intellectual 
freedom.
    The Association of Research Libraries (ARL).--The Association of 
Research Libraries is a not-for-profit organization representing 120 
research libraries in the United States and Canada. Its mission is to 
identify and influence forces affecting the future of research 
libraries in the process of scholarly communication. ARL programs and 
services promote equitable access to, and effective use of, recorded 
knowledge in support of teaching, research, scholarship, and community 
service.
    The Special Libraries Association (SLA).--The Special Libraries 
Association is an international professional association serving more 
than 14,000 members of the information profession, including special 
librarians, information managers, brokers, and consultants. The 
Association has 56 regional/state chapters in the U.S., Canada, Europe, 
and the Arabian Gulf States and 28 divisions representing subject 
interests or specializations. Special libraries/information centers can 
be found in organizations with specialized or focused information 
needs, such as corporations, law firms, news organizations, government 
agencies, associations, colleges, museums, and hospitals.
                                 ______
                                 
         Letter From the American Association of Law Libraries
                                     Washington, DC, June 12, 1997.
Honorable Robert F. Bennett,
Chair, Subcommittee on Legislative Branch, Senate Committee on 
        Appropriations, S-125 Capitol, Washington, DC.
    Dear Mr. Chairman: On behalf of the American Association of Law 
Libraries, the American Library Association, the Association of 
Research Libraries and the Special Libraries Association, we urge the 
Committee to support fully the fiscal year 1998 budget request of 
$30,477,000 for the Superintendent of Documents Salaries and Expenses 
appropriation. We believe that this amount is necessary to maintain the 
Federal Depository Library Program, through which citizens have no-fee 
access to government information, as it moves towards a more electronic 
program. This appropriation request was made by the Public Printer at 
the June 5, 1997 hearing on the Government Printing Office. We ask that 
this letter be added to the public record of that hearing.
Transition to a More Electronic Federal Depository Library Program
    Recognizing the need to centralize government printing and to 
establish a mechanism to provide our Nation's citizens with no-fee 
access to Federal government information, Congress passed the Printing 
Act of 1895 that created the Federal Depository Library Program (FDLP) 
within the Government Printing Office. The FDLP has evolved over more 
than one hundred years to become today one of the most effective and 
successful partnerships between the Federal government and the American 
people. The goals of the FDLP are based on principles that Congress and 
the library community have long affirmed as being essential to our 
democratic society. These principles were most recently expressed in 
the Government Printing Office's Study to Determine Measures Necessary 
for a Successful Transition to a More Electronic Federal Depository 
Library Program (June 1996). This study was conducted at the request of 
the conference committee on the Fiscal Year 1996 Legislative Branch 
Appropriations Act.
    We urge this Subcommittee to reaffirm these important principles 
and to support their implementation through adequate funding for the 
FDLP:
    Principle 1: The Public Has the Right of Access to Government 
Information.
    Principle 2: The Government Has an Obligation to Disseminate and 
Provide Broad Public Access to its Information.
    Principle 3: The Government Has an Obligation to Guarantee the 
Authenticity and Integrity of its Information.
    Principle 4: The Government Has an Obligation to Preserve Its 
Information.
    Principle 5: Government Information Created or Compiled by 
Government Employees or at Government Expense Should Remain in the 
Public Domain.
    The public's access to government information and the future 
success of the FDLP will only be achieved if the government, as creator 
and disseminator of information, staunchly upholds these principles.
    Under the direction of the Public Printer, the GPO Study was 
successful in analyzing many of the complex issues regarding the 
government's use of electronic information dissemination technologies. 
Attached to this statement is a letter from our associations to the 
Public Printer reiterating the continuing concerns of the library 
community during the transition years to a more electronic-based FDLP. 
Our two most critical concerns are the public's ability to locate 
information in a distributed electronic environment and the fundamental 
need to guarantee that electronic government information will be 
permanently accessible.
    We believe that, as the average user requires assistance in 
navigating through the complex layers of technology and the confusing 
maze of government to find the information they require, the role of 
depository libraries and librarians is more important than ever before. 
These libraries willingly invest substantial funds to provide highly 
trained staff, adequate space, costly equipment, and Internet 
connections so that the public has equitable, ready, efficient and no-
fee access to government information in both print and electronic 
formats.
    Your constituents, whose tax dollars fund the collection and 
dissemination of information from agencies in all three branches of 
government, use the resources of their local depository library daily 
to access needed information. The results of GPO's most recent Biennial 
Survey are startling. In 1995, an estimated 189,000 to 237,000 users 
each week were provided expert service in locating and using depository 
materials at the 1,370 partner libraries. These numbers represent 
people from all walks of life and all levels of experience and 
technical sophistication. Without the local resources and services 
provided at depository libraries, these requests for government 
information would go unmet.
Fiscal Year 1996 Enhancements to GPO Access Commendable
    GPO is to be commended for the steady progress in moving towards a 
more electronic FDLP. The development of the GPO Access system in terms 
of both increased public use and the growing number of electronic 
information products that are now available is laudable. With the 
passage of the GPO Electronic Information Access Enhancement Act of 
1993 (Public Law 103-40), Congress sought to develop an access point to 
information from all three branches of government. In December 1995, we 
applauded the decision of the Public Printer to provide free public 
access to all GPO Access products and services. As a result of that 
decision and the addition of many new titles to the system, recent 
monthly usage statistics are dramatic. In March 1997, over 4 million 
documents were downloaded from GPO Access.
    GPO has added many new electronic online products that provide 
timely and important information to your constituents. GPO Access 
continues to grow and currently includes 48 titles from all three 
branches of government in more than 70 databases. Some recent additions 
include the Congressional Pictorial Directory; the Annotated 
Constitution; the Code of Federal Regulations; historical Supreme Court 
opinions from the U.S. Air Force's Federal Legal Information Through 
Electronic (FLITE) file; and the Commerce Business Daily. These 
databases exemplify GPO's commitment to the continued development of 
GPO Access to meet the government information needs of the public.
    Another example of this commitment is the development in fiscal 
year 1996 of the Superintendent of Documents (SuDoc) Web site (http://
www.access.gpo.gov/su__docs). With the rapid and pervasive growth of 
electronic government information, one of the greatest challenges for 
users is simply identifying and locating the database or source that 
they need. GPO's SuDoc Web site provides centralized bibliographic 
access to government resources in all formats through the online 
Monthly Catalog. Another valuable finding tool, GPO's electronic 
Pathway Indexer, links users to information resources at over 1,274 
other federal agency Web sites and indexes over 112,000 pages. In 
addition, GPO maintains a centralized database that allows users to 
search through the Government Information Locator Service (GILS) 
records of twenty-six federal agencies. These finding tools are 
essential services in a distributed electronic environment.
GPO Fiscal Year 1998 Budget Request Essential
    To ensure the continued transition to a more electronic FDLP and 
continued improvement of GPO Access to meet the government information 
needs of the public, we urge the Subcommittee to fully support the 
Public Printer's fiscal year 1998 appropriations request of $30,477,000 
for the Superintendent of Documents Salaries and Expenses, of which 
$25,886,000 will maintain the FDLP. While some may view the move to 
electronic information as a means of cutting government costs, no data 
exists to support this assertion. In fact, the opposite is likely to be 
true particularly during the transition period.
    Congress and agencies are channeling substantial funds into 
developing information resource systems that take advantage of new 
technologies. It is equally important, however, that the channels of 
public access to government information remain open, efficient, and 
technologically relevant. Libraries and your constituents are doing 
their part by investing in technologies to assist them in accessing 
electronic information. Congress and the Federal government must 
continue to invest in systems and services like GPO Access that provide 
the public with government information. It is essential that GPO 
receive adequate funding for its many electronic initiatives so that 
the substantial progress of the past year continues.
Erosion of Federal Government Information from the Public Domain
    One of the most serious concerns of the library community is that 
government entities, pressured by growing fiscal constraints or a 
failure to understand their full responsibilities under Title 44, 
circumvent the letter and spirit of the law. Unfortunately, librarians 
have long found it necessarily to track down missing or fugitive 
documents for your constituents. Now librarians and users are 
increasingly frustrated by the steady removal of important government 
resources from the public domain. The information needs of the American 
public are not served when agencies move to contract with private 
publishers and fail to supply these resources to the Superintendent of 
Documents for distribution to depository libraries. Furthermore, wide 
access and use of publicly-funded information is substantially impaired 
when licensing agreements prevent or curtail redissemination. To 
copyright or restrict distribution and use of government information is 
anathema to the principles of access that we uphold.
    The historical record of key government titles is also jeopardized 
by the discontinuation of print formats in favor of electronic 
distribution only. We have long recommended that format decisions 
should be based on the value and usability of the materials, and not 
solely on cost concerns. As directed by the Fiscal Year 1997 
Legislative Branch Appropriations Act, the distribution of two of the 
most important historically-significant Congressional titles, the U.S. 
Congressional Serial Set and the bound Congressional Record, has been 
severely cut. ALA and AALL have formally expressed concern with the 
impact of this decision on long-term public access.
    The Serial Set will be limited to only one depository library in 
each state. The bound Congressional Record, previously limited to only 
one copy per state, has been eliminated altogether. In neither case has 
a proven, comprehensive, permanent electronic replacement been 
developed that ensures long-term public access with the ability to 
migrate from one technological platform to another. We consider these 
titles among the core documents of our democracy and vital to the 
public's right to know. Electronic formats such as CD-ROM at this time 
fail to meet the necessary standards to ensure permanent long-term 
access and preservation, nor are they the official, authoritative 
versions (see attached AALL Resolution and Scientific American 
article). We welcome the opportunity to work with the Subcommittee on a 
timetable to guarantee that these core Congressional materials are 
usable, effective, permanently accessible, archivable and 
authoritative.
Revision to Title 44 Needed Now
    The GPO Study provides a necessary framework to assist Congress in 
analyzing some of the very complex technical and policy issues that 
must be addressed as revisions to Title 44 are debated. Despite 
provisions of the Paperwork Reduction Act of 1995 and OMB Circular A-
130, electronic information is not systematically made available to 
depository libraries. We strongly urge members of the 105th Congress to 
implement necessary changes to Title 44 so that there is no longer any 
doubt that the definition of government information extends to 
electronic resources. In addition, Congress must also continue its 
oversight of the FDLP and develop incentives to assure that all 
entities of the Federal government comply with the law.
    There are complex implementation challenges and significant costs 
ahead, particularly in terms of preservation and permanent public 
access of electronic information. Valuable government information 
resources, made available through agency Web sites, disappear daily. If 
these are not systematically captured for permanent, continuous public 
access, the information is useless to the American public. Any 
revisions to Title 44 must establish a systematic and comprehensive 
means for ensuring the preservation and permanent public access of 
government information. In the print world, this role has been uniquely 
filled by regional depository libraries. Their collections, located in 
every state, guarantee that the public will have ongoing and long-term 
access to publications from all agencies in the federal government. In 
the electronic environment, however, no equivalent system exists. 
Publishing agencies are not equipped to permanently maintain online 
access to electronic data, nor is it in their mission to do so. Nor is 
it within the mission or scope of the National Archives to provide the 
general public with ready and reliable access to this information on an 
ongoing basis.
    Libraries play an important part in providing the public with 
access to online services, and some libraries may have a role in 
electronically storing and maintaining databases in cooperation with 
publishing entities. But in the absence of a coordinated national 
program to systematically capture, preserve, and maintain ongoing 
access to electronic government data, important information is lost 
everyday as files come and go from agency web sites and computer 
servers. GPO has taken a lead in investigating partnership 
opportunities with agencies and libraries to develop models for 
permanent public access. These efforts must be supported with 
appropriations and based in statute on the government's affirmative 
responsibility to preserve and provide long-term public access to its 
information.
    Mr. Chairman, we are in the process of working with Congress to 
draft revisions to Title 44 that will guarantee that new technologies 
realize the potential of the information age by improving public access 
to government information. Our associations consider the problems of 
access to government information so pressing that in January we formed 
an Inter-Association Working Group on Government Information Policy. 
This group has identified the key issues that need to be addressed by 
legislation. Our Goals for Revising U.S.C. Title 44 to Enhance Public 
Access to Federal Government Information are attached.
    In addition, we have recently transmitted to members of the Joint 
Committee on Printing a legislative proposal from the library community 
to amend Chapter 19, Title 44. This draft bill, the ``Federal 
Information Access Act of 1997,'' meets our goals to improve the 
public's ability to access and use government information, paid for by 
their tax dollars, in all formats. We will be pleased to share the 
progress of this important endeavor with this Subcommittee. We thank 
you for your continued strong support for the Federal Depository 
Library Program and for this opportunity to enter our statement into 
the record of your recent hearing.
            Sincerely,
                                   Robert L. Oakley,
    Washington Affairs Representative, American Association of Law 
                                                         Libraries.
                                   Carol C. Henderson,
           Executive Director--Washington Office, American Library 
                                                       Association.
                                   Prudence S. Adler,
   Assistant Executive Director, Association of Research Libraries.
                                   David R. Bender,
                 Executive Director, Special Libraries Association.
                                 ______
                                 

                              Attachment 1

                                                    April 26, 1996.
Michael F. DiMario,
Public Printer, U.S. Government Printing Office, 732 N. Capitol Street, 
        N.W., Washington, D.C. 20401.
    Dear Mr. DiMario: Thank you for this opportunity to respond to the 
recently released Report to the Congress: ``Study to Identify Measures 
Necessary for a Successful Transition to a More Electronic Federal 
Depository Library Program.'' We are responding to your request to 
submit written comments based on the oral remarks delivered at last 
week's joint meeting between members of the Working Group and the 
Advisors. Our comments today reflect the views of the members of the 
American Association of Law Libraries, the American Library 
Association, the Association of Research Libraries and the Special 
Libraries Association.
    We are pleased that our associations, which represent more than 
75,000 professionals in public, academic and special libraries 
throughout the country, were included in an advisory capacity during 
the lengthy study process. We commend the Government Printing Office 
for carrying out this legislatively-mandated study in a manner that 
considered the views of all three branches of the government, the 
library community and the private sector. It is especially noteworthy 
that members of the Working Group consisted of representatives from key 
agencies, including the National Archives and Records Administration 
(NARA), as well as many Congressional staff. It is hoped that one 
outcome of this collaborative approach will be improved understanding 
by all stakeholders of the serious issues of concern to libraries and 
other users of government information as the transition to a more 
electronic Federal Depository Library Program (FDLP) proceeds.
    The FDLP has existed for one hundred and thirty-nine years as a 
very successful partnership program between the federal government, 
libraries and the public. This partnership must become even stronger in 
the future in order that the move to a more electronic program succeeds 
in reaching its goal: that is, the use of new technologies to expand 
the public's access to government information. We are pleased with the 
draft report's principles for federal government information, including 
the publics right to know and the government's responsibility to 
disseminate and provide broad and permanent access to its information. 
The well-articulated goals for an electronic FDLP, as noted in the 
draft report, must be realized to ensure that these important 
principles are achieved.
    It is especially gratifying that many of the comments and concerns 
addressed in our previous joint letter to you regarding the Transition 
Plan were incorporated into the draft report. We do wish to offer some 
additional general comments on the draft study as there continue to be 
many areas of serious concern and importance to our members.
    Time frame.--We are pleased that the draft report offers a more 
realistic and technologically feasible five to seven year time frame 
for the transition. The Transition Chronology proposed in the strategic 
plan better reflects the nations technological infrastructure: the 
ability of agencies to create and provide access to information 
electronically; and the capabilities of libraries and users to 
effectively utilize such information. We will urge members of the 
Congressional authorizing and appropriating committees to support this 
more realistic time frame so that no barriers develop during the 
transitional years that would reduce the public's access to government 
information.
    Viability of print.--We are pleased that the draft study recognizes 
the continued viability of a variety of formats, including print, to 
meet user needs. Format decisions should be based on usage on the needs 
of the user community, and also on an agency's own dissemination 
requirements. While electronic information offers many advantages to 
paper, including timeliness, the ability to perform full-text searches 
and to manipulate data, certain types of materials will continue to be 
more efficiently created, disseminated and used in paper format.
    Another problematic area regarding format decisions concerns fee-
based products and services; namely, when an agency stops production of 
a title in print and moves it into a fee-based online service. One 
example of this is that depository libraries have in the past been able 
to select the FBIS and JPRS reports in print formats but these are now 
available online through paid subscriptions to the new World News 
Connection service of the National Technical Information Service 
(NTIS). It is planned that by the end of this year these important 
materials while available only online while the printed and microfiche 
reports will be phased out. Valuable materials that have traditionally 
been available to depositories will no longer be included in the 
program since NTIS does not offer no-fee access to the World News 
Connection for depository libraries.
    Redundancy and diversity.--We are pleased that the draft study 
recognizes the principles of redundancy and diversity as articulated in 
NCLIS Principle #5: The Federal Government Should Ensure a Wide 
Diversity of Sources of Access, Private as Well as Governmental, to 
Public Information. Redundancy--in access, in formats, and in 
preservation--is both a necessity and an advantage. It provides a 
safeguard in case of overloaded systems, natural or man-made disasters, 
and even government shutdowns.
    It is the government's affirmative obligation to ensure permanent 
access to the information that it produces. In the electronic 
environment diverse and multiple partners are needed to promote and 
ensure access and preservation to government information long after its 
initial creation and dissemination. At the same time a diversity of 
other public, private and not-for-profit sources is critical to 
ensuring that information remains available in useful and convenient 
ways.
    Centralization.--We are pleased that the draft study recognizes the 
need for coordination and centralization to meet the goals of the FDLP. 
The program in a distributed electronic environment requires 
coordination to bring all participants together on issues of: (1) 
standardization and guidelines to ensure ease of locating information 
and guarantees of long-term access; (2) no-fee access to all government 
information, including fee-based products and services; and (3) 
usability. The complexities of these issues, particularly when many 
agencies are creating their own web sites, seems to be underestimated 
in the draft report. We commend GPO ACCESS as the legislatively-
mandated centralized point of entry to electronic government 
information and the GPO locator service that assists the public in 
finding information across diverse government entities. Users must have 
timely and comprehensive funding aids to the growing vast universe of 
electronic government information, and centralized coordination is the 
most efficient means.
    In addition to the above general comments on the draft study, we 
firmly believe that the study's goal of ensuring broader public access 
through electronic means will not be achieved unless the following 
concerns are addressed. While details of the draft study and the 
strategic plan remain to be worked out, these issues are critical to 
the transition's success. We hope also that the collaborative approach 
which GPO brought to the study itself will be maintained so that all 
interested and involved partners, including our associations, may 
continue to participate in the process.
    More data needed.--We remain very concerned that although some 
useful information was gathered during the study process, neither the 
draft report, the models developed as part of the task force reports, 
nor the strategic plan are based on substantive data regarding costs to 
and capabilities of the government, libraries or the public to produce, 
access and use predominately electronic information. We believe that a 
technical scan is necessary and we will urge Congress to approve 
funding for the Technical Implementation Assistance which the report 
proposes.
    No-fee access.--We strongly support the study's first goal 
statement which ensures that the public has equitable, no-fee local 
access to government information through depository libraries. The 
draft study addresses this issue by suggesting that reimbursement to 
agencies for fee-based services could come from the Superintendent of 
Documents. There are no assurances, however, that there will be 
continued adequate funding to support the transition plan. 
Consequently, we are concerned that government information for which 
agencies must recover costs, particularly fee-based products and 
services, will become a new generation of fugitive information.
    Long-term permanent access and preservation.--The draft report 
acknowledges that issues relating to long-term access and preservation 
of electronic government information require new relationships, indeed 
new strategies between all stakeholders: GPO, agencies, NARA and 
participating libraries. Yet the draft fails to identify what these 
strategies may entail and the responsibilities for each partner. Long-
term access and preservation issues are critical to the success of the 
FDLP: thus it is crucial that additional information regarding these 
activities be provided.
    In addition, the draft report includes the recommendation that GPO 
will assume new responsibilities in the archival arena. Through many 
years of maintaining preservation and archival programs and 
collections, libraries have learned that these efforts require 
significant investments in technological solutions (e.g. 
deacidification and digitization pilots), personnel, and facilities. To 
be successful in undertaking new preservation and archiving 
responsibilities, GPO will need to provide additional detail regarding 
how such tasks will be accomplished. We suggest that a comprehensive 
study be undertaken among all partners to guarantee permanent long-term 
access and preservation. For example, it is not clear how and when GPO 
would support the ``periodic review and refreshing of data to different 
mediums.''
    The issues of long-term permanent access and preservation are 
central to the transition to a more electronic program and thus we are 
especially concerned that the draft study offers no specifics, no data, 
no costs and no assurances. We reaffirm that these critical issues are 
the responsibility of the government and that they must be 
comprehensively addressed before the transition plan is implemented. 
The questions are very basic ones: first, how do we assure that 
electronic information will be available and usable next month, next 
year, or in twenty-five, fifty, or even a hundred years from now; and 
second, who will be responsible for ensuring long-term permanent 
access. In shifting long-term access from depository libraries to the 
government, as the draft study suggests, we must be assured that 
funding will remain adequate so that the government can refresh and 
migrate information. Otherwise, our national historical records will 
disappear into a black hole and the advantages of electronic 
information will be nullified.
    Copyright-like restrictions.--Principle 5 states that Government 
information created or compiled at Government expense or by Government 
employees as part of their official duties, regardless of the format in 
which it is published, is in the public domain. We strongly affirm this 
principle and note that some agencies are imposing copyright-like 
restrictions on electronic information. Worrisome patterns are already 
being proposed; for example, in the case of agency restricting the 
downloading of information or its electronic re-transmission. This is 
an egregious barrier not only to the publics current and long term 
access to information but also to innovative and creative forces in the 
private sector to develop enhanced products and services. Further, 
regarding the proposal of the National Technical Information Service, 
libraries can neither restrict nor control users from placing 
electronic information on the Internet.
    Fee-based products and services.--In order to fulfill the goals of 
an enhanced FDLP program, it is vital that materials not currently in 
the program, such as those created by self-supporting agencies who are 
by law required to recover their costs, be included. While the draft 
report proposes models through which these materials would enter the 
program, the key question is, of course, who is going to pay. GPO 
suggests that the Superintendent of Documents would reimburse agencies 
for the cost of including these products and services in the program. 
However, there are no guarantees that Congress would assure the 
necessary funding.
    This issue addresses the troubling question of cost recovery and 
quasi-business corporations. Regarding the NTIS proposal for example, 
it is very troubling that libraries would be asked to become watchdogs 
to ensure that these electronic materials do not leak out into the 
public domain. We are also concerned that these or similar restrictions 
could potentially be used by agencies for access to services for which 
users have paid subscriptions. A strong affirmation on redistribution 
without copyright-like restrictions for agency cost-recovery programs 
is imperative.
    Role and responsibilities of program libraries.--We are concerned 
that since all depository libraries will soon be required to have 
Internet access and since, according to the plan, most government 
information will be available in electronic format, even the smallest 
program library will by default become a ``regional'' for electronic 
government information. Requiring all libraries to fulfill the regional 
depository libraries' statutory responsibilities of access and service 
will place undue burdens on selectives. In order to prevent this 
occurrence, more flexibility must be built into the program that allows 
libraries to provide access to electronic information in a manner they 
can accommodate. We must all acknowledge the tremendous value of 
program libraries and it is important to provide incentives for their 
continued participation in the program.
    Conclusion.--These comments on the draft study and the strategic 
plan supplement our oral comments delivered at last week's joint 
Working Group and Advisors meeting. We will submit additional comments 
on the draft study and particularly on some of the specific Task Force 
Reports within the next few weeks. In particular, we are troubled that 
some proposed alternative models in several of the Task Force Reports 
may not be wholly in accord with the study's affirmed principles and 
goals and thus are very problematic to our members.
    We are especially pleased to see the new draft language of the 
definitions in Chapter 19, Title 44 that acknowledge that electronic 
information is explicitly defined in the law as being a key component 
of the FDLP. It is crucial that Chapter 19 be amended to reflect these 
changes in definitions and the broader scope of the FDLP to assure that 
the goals for a more electronic program are achieved.
    We believe that funding for the technology grants will provide seed 
money for small selective libraries which otherwise would be unable to 
provide access to electronic products and services to members of their 
local communities. One-time technology grants are a step in the right 
direction although they may not be sufficient since technology itself 
changes so rapidly as do user needs. To strengthen the justification 
for these technology grants we suggest that GPO determine the number of 
libraries that would be unable to provide access to the expanding array 
of electronic FDLP materials without these start-up grants.
    We would like to make the following recommendations: (1) that the 
substantial progress and inter-agency dialog achieved throughout the 
past year continue; (2) that GPO and agencies work together to 
determine consistency regarding format and standards; and (3) that the 
Working Group model continue with Information Resource Management 
representatives from GPO the Library of Congress, the Office of 
Management and Budget, and the Administrative Office of the United 
States Courts as well as the library community and users.
    We remain concerned that the draft study lacks clear incentives for 
agencies to participate in the program, particularly when their budgets 
are being cut. We also firmly believe that means of oversight and 
compliance must be provided in a meaningful and effective way. Our 
associations, representing the broader library community, are willing 
to work with you to supplement and strengthen the study by offering 
additional information in the following areas: the capabilities of and 
impact on libraries and users; the role and responsibilities of 
regional and selective depository libraries; and the troublesome 
questions of oversight and compliance. Thank you very much for this 
opportunity to comment on the draft report.
            Sincerely,
                                   Robert L. Oakley,
    Washington Affairs Representative, American Association of Law 
                                                         Libraries.
                                   Carol C. Henderson,
           Executive Director--Washington Office, American Library 
                                                       Association.
                                   Prudence S. Adler,
   Assistant Executive Director, Association of Research Libraries.
                                   David R. Bender,
                 Executive Director, Special Libraries Association.
                                 ______
                                 

Attachment 2.--Resolution on the U.S. Congressional Serial Set and the 
                       Bound Congressional Record

    WHEREAS, The U.S. Congressional Serial Set and the bound 
Congressional Record together comprise a significant portion of the 
official historical record of Congress; and
    WHEREAS, The U.S. Congressional Serial Set has been produced since 
1813 in a bound, numbered edition, and includes Senate and House 
documents, congressional committee reports, presidential and other 
executive publications, treaty materials, and selected reports of 
nongovernmental organizations; and
    WHEREAS, The bound Congressional Record has been produced since 
1873 as the official record of the proceedings and debates of Congress 
in a uniform, numbered edition, superseding its predecessors, the 
Annals of Congress (1789-1824), the Register of Debates (1824-1837), 
and the Congressional Globe (1833-1873); and
    WHEREAS, The U.S. Congressional Serial Set and the bound 
Congressional Record are important historical materials for the legal 
and research communities, particularly for the compilation of 
legislative histories needed to determine legislative intent in 
interpreting federal statutes; and
    WHEREAS, The U.S. Congressional Serial Set and the bound 
Congressional Record have been available through the Federal Depository 
Library Program, providing ready no-fee access to the official version 
of these important titles in nearly every Congressional district; and
    WHEREAS, The U.S. Congressional Serial Set and the print bound 
Congressional Record, as official, authoritative records of the 
deliberations of Congress, are produced on acid free permanent paper to 
ensure their preservation for future research and scholarship; and
    WHEREAS, The production and dissemination of these historically-
significant titles in microfiche, CD-ROM or other electronic formats do 
not at this time meet required standards to ensure permanent long-term 
access and preservation, nor are they the official, authoritative 
versions; now, therefore, be it resolved that
    RESOLVED, The American Association of Law Libraries urge Congress 
to continue to fund the production of the U.S. Congressional Serial Set 
and the bound Congressional Record in the permanent, print versions 
required for long-term access and preservation; and be it further
    RESOLVED, That the American Association of Law Libraries urge 
Congress to recognize the historical significance of these print titles 
as the official record of their deliberations, and to guarantee their 
continued no-fee availability to the American public through local 
depository libraries; and be it further
    RESOLVED, That the American Association of Law Libraries transmit a 
copy of this resolution to Members of the House and Senate Legislative 
Appropriations Subcommittees, to other appropriate congressional 
committees, and to the Public Printer.
    Endorsed by the A.A.L.L. Executive Board, July 19, 1996.
                                 ______
                                 

                              Attachment 3

               [From the Scientific American, Jan. 1995]

              Ensuring the Longevity of Digital Documents

                          (By Jeff Rothenberg)
    The digital medium is replacing paper in a dramatic record-keeping 
revolution. But such documents may be lost unless we act now.
    The year is 2045, and my grandchildren (as yet unborn) are 
exploring the attic of my house (as yet unbought). They find a letter 
dated 1995 and a CD-ROM. The letter says the disk contains a document 
that provides the key to obtaining my fortune (as yet unearned). My 
grandchildren are understandably excited, but they have never before 
seen a CD--except in old movies. Even if they can find a suitable disk 
drive, how will they run the software necessary to interpret what is on 
the disk? How can they read my obsolete digital document?
    This imaginary scenario reveals some fundamental problems with 
digital documents. Without the explanatory letter, my grandchildren 
would have no reason to think the disk in my attic was worth 
deciphering. The letter possesses the enviable quality of being 
readable with no machinery, tools or special knowledge beyond that of 
English. Because digital information can be copied and recopied 
perfectly, it is often extolled for its supposed longevity. The truth, 
however, is that because of changing hardware and software, only the 
letter will be immediately intelligible 50 years from now.
    Information technology is revolutionizing our concept of record 
keeping in an upheaval as great as the introduction of printing, if not 
of writing itself. The current generation of digital records has unique 
historical significance. Yet these documents are far more fragile than 
paper, placing the chronicle of our entire period in jeopardy.
    My concern is not unjustified. There have already been several 
potential disasters. A 1990 House of Representatives report describes 
the narrow escape of the 1960 U.S. Census data. The tabulations were 
originally stored on tapes that became obsolete faster than expected as 
revised recording formats supplanted existing ones (although most of 
the information was successfully transferred to newer media). The 
report notes other close calls as well, involving tapes of the 
Department of Health and Human Services; files from the National 
Commission on Marijuana and Drug Abuse, the Public Land Law Review 
Commission and other agencies; the Combat Area Casualty file containing 
P.O.W. and M.I.A. records for the Vietnam War; and herbicide 
information needed to analyze the impact of Agent Orange. Scientific 
data are in similar jeopardy, as irreplaceable records of numerous 
experiments conducted by the National Aeronautics and Space 
Administration and other organizations age into oblivion.
    So far the undisputed losses are few. But the significance of many 
digital documents--those we consider too unimportant to archive--may 
become apparent only long after they become unreadable. Unfortunately, 
many of the traditional methods developed for archiving printed matter 
are not applicable to electronic files. The content and historical 
value of thousands of records, databases and personal documents may be 
irretrievably lost to future generations if we do not take steps to 
preserve them now.
                         from here to eternity
    Although digital information is theoretically invulnerable to the 
ravages of time, the physical media on which it is stored are far from 
eternal. If the optical CD in my attic were a magnetic disk, attempting 
to read it would probably be futile. Stray magnetic fields, oxidation 
and material decay can easily erase such disks. The contents of most 
digital media evaporate long before words written on high-quality 
paper. They often become unusably obsolete even sooner, as media are 
superseded by new, incompatible formats--how many readers remember 
eight-inch floppy disks? It is only slightly facetious to say that 
digital information lasts forever--or five years, whichever comes 
first.
    Yet neither the physical fragility of digital media nor their 
lemminglike tendency toward obsolescence constitutes the worst of my 
grandchildren's problems. My progeny must not only extract the content 
of the disk but must also interpret it correctly. To understand their 
predicament, we need to examine the nature of digital storage. Digital 
information can be saved on any medium that is able to represent the 
binary digits (``bits'') 0 and 1. We will call an intended, meaningful 
sequence of bits, with no intervening spaces, punctuation or 
formatting, a bit stream.
    Retrieving a bit stream requires a hardware device, such as a disk 
drive, and special circuitry for reading the physical representation of 
the bits from the medium. Accessing the device from a given computer 
also requires a ``driver'' program. After the bit stream is retrieved, 
it must still be interpreted. This task is not straightforward, because 
a given bit stream can represent almost anything--from a sequence of 
integers to an array of dots in a pointillist-style image.
    Furthermore, interpreting a bit stream depends on understanding its 
implicit structure, which cannot explicitly be represented in the 
stream. A bit stream that represents a sequence of alphabetic 
characters may consist of fixed-length chunks (``bytes''), each 
representing a code for a single character. For instance, in one 
current scheme, the eight bits 01110001 stand for the letter q. To 
extract the bytes from the bit stream, thereby ``parsing'' the stream 
into its components, we must know the length of a byte.
    One way to convey the length is to encode a ``key'' at the 
beginning of the bit stream. But this key must itself be represented by 
a byte of some length. A reader therefore needs another key to 
understand the first one. Computer scientists call the solution to such 
a recursive problem a ``bootstrap'' (from the fanciful image of pulling 
oneself up by the bootstraps). In this case, a bootstrap must provide 
some context, which humans can read, that explains how to interpret the 
digital storage medium. For my grandchildren, the letter accompanying 
the disk serves this role.
    After a bit stream is correctly parsed, we face another recursive 
problem. A byte can represent a number or an alphabetic character 
according to a code. To interpret such bytes, therefore, we need to 
know their coding scheme. But if we try to identify this scheme by 
inserting a code identifier in the bit stream itself, we will need 
another code identifier to interpret the first one. Again, human-
readable context must serve as a bootstrap.
    Even more problematic, bit streams may also contain complex cross-
referencing information. The stream is often stored as a collection, or 
file, of bits that contains logically related but physically separate 
elements. These elements are linked to one another by internal 
references, which consist of pointers to other elements or of patterns 
to be matched. (Printed documents exhibit similar schemes, in which 
page numbers serve as pointers.)
                       interpreting a bit stream
    Suppose my grandchildren manage to read the bit stream from the CD-
ROM. Only then will they face their real challenge: interpreting the 
information embedded in the bit stream. Most files contain information 
that is meaningful solely to the software that created them. Word-
processing files embed format instructions describing typography, 
layout and structure (titles, chapters and so on). Spreadsheet files 
embed formulas relating their cells. So-called hypermedia files contain 
information identifying and linking text, graphics, sound and temporal 
data.
    For convenience, we call such embedded information--and all other 
aspects of a bit stream's representation, including byte length, 
character code and structure--the encoding of a document file. These 
files are essentially programs: instructions and data that can be 
interpreted only by appropriate software. A file is not a document in 
its own right--it merely describes a document that comes into existence 
when the file is interpreted by the program that produced it. Without 
this program (or equivalent software), the document is a cryptic 
hostage of its own encoding.
    Trial-and-error might decode the intended text if the document is a 
simple sequence of characters. But if it is complex, such a brute-force 
approach is unlikely to succeed. The meaning of a file is not inherent 
in the bits themselves, any more than the meaning of this sentence is 
inherent in its words. To understand any document, we must know what 
its content signifies in the language of its intended reader. 
Unfortunately, the intended reader of a document file is a program. 
Documents such as multimedia presentations are impossible to read 
without appropriate software: unlike printed words, they cannot just be 
``held up to the light.''
    Is it necessary to run the specific program that created a 
document? In some cases, similar software may at least partially be 
able to interpret the file. Still, it is naive to think that the 
encoding of any document--however natural it seems to us--will remain 
readable by future software for very long. Information technology 
continually creates new schemes, which often abandon their predecessors 
instead of subsuming them.
    A good example of this phenomenon occurs in word processing. Most 
such programs allow writers to save their work as simple text, using 
the current seven-bit American Standard Code for Information 
Interchange (or ASCII). Such text would be relatively easy to decode in 
the future if seven-bit ASCII remains the text standard of choice. Yet 
ASCII is by no means the only popular text standard, and there are 
proposals to extend it to a 16-bit code (to encompass non-English 
alphabets). Future readers may therefore not be able to guess the 
correct text standard. To complicate matters, authors rarely save their 
work as pure text. As Avra Michelson, then at the National Archives, 
and I pointed out in 1992, authors often format digital documents quite 
early in the writing process and add figures and footnotes to provide 
more readable and complete drafts.
    If ``reading'' a document means simply extracting its content--
without its original form--then we may not need to run the original 
software. But content can be lost in subtle ways. Translating word-
processing formats, for instance, often displaces or eliminates 
headings, captions or footnotes. Is this merely a loss of structure, or 
does it impinge on content? If we transform a spreadsheet into a table, 
deleting the formulas that relate the table's entries to one another, 
have we affected content? Suppose the CD in my attic contains a 
treasure map depicted by the visual patterns of word and line spacings 
in my original digital version of this article. Because these patterns 
are artifacts of the formatting algorithms of my software, they will be 
visible only when the digital version is viewed using my original 
program. If we need to view a complex document as its author viewed it, 
we have little choice but to run the software that generated it.
    What chance will my grandchildren have of finding that software 50 
years from now? If I include a copy of the program on the CD, they must 
still find the operating system software that allows the program to run 
on some computer. Storing a copy of the operating system on the CD may 
help, but the computer hardware required to run it will have long since 
become obsolete. What kind of digital Rosetta Stone can I leave to 
provide the key to understanding the contents of my disk?
                             migrating bits
    To prevent digital documents from being lost, we must first 
preserve their bit streams. That means copying the bits onto new forms 
of media to ensure their accessibility. The approach is analogous to 
preserving text, which must be transcribed periodically. Both 
activities require ongoing effort: future access depends on an unbroken 
chain of such migrations frequent enough to prevent media from becoming 
physically unreadable or obsolete before they are copied. A single 
break in this chain renders digital information inaccessible, short of 
heroic effort. Given the current lack of permanence of media and the 
rate at which their forms evolve, migration may need to be as frequent 
as once every few years. Conservative estimates suggest that data on 
digital magnetic tape should be copied once a year to guarantee that 
none of the information is lost. (Analog tapes may remain playable for 
many years because they record more robust signals that degrade more 
gradually.)
    In the long run, we might be able to develop long-lived storage 
media, which would make migration less urgent. At the moment, media 
with increased longevity are not on the horizon. Nevertheless, the cost 
of migration may eventually force the development of such products, 
overriding our appetite for improved performance.
    An ancient text can be preserved either by translating it into a 
modern language or by copying it in its original dialect. Translation 
is attractive because it avoids the need to retain knowledge of the 
text's original language, yet few scholars would praise their 
predecessors for taking this approach. Not only does translation lose 
information, it also makes it impossible to determine what information 
has been lost, because the original is discarded. (In extreme cases, 
translation can completely undermine content: imagine blindly 
translating both languages in a bilingual dictionary into a third 
language.) Conversely, copying text in its original language (saving 
the bit stream) guarantees that nothing will be lost. Of course, this 
approach assumes that knowledge of the original language is retained.
    Archivists have identified two analogous strategies for preserving 
digital documents. The first is to translate them into standard forms 
that are independent of any computer system. The second approach is to 
extend the longevity of computer systems and their original software to 
keep documents readable. Unfortunately, both strategies have serious 
shortcomings.
    On the surface, it appears preferable to translate digital 
documents into standard forms that would remain readable in the future, 
obviating the need to run obsolete software. Proponents of this 
approach offer the relational database (introduced in the 1970's by 
E.F. Codd, now at Codd & Date, Inc., in San Jose, Calif.) as a 
paradigmatic example. Such a database consists of tables representing 
relations among entities. A database of employees might contain a table 
having columns for employee names and their departments. A second table 
in the database might have department names in its first column, 
department sizes in its second column and the name of the department 
head in a third. The relational model defines a set of formal 
operations that make it possible to combine the relations in these 
tables--for example, to find the name of an employee's department head.
    Because all relational database systems implement this same 
underlying model, any such database can in principle be translated into 
a standard tabular form acceptable to any other system. Files 
represented this way could be copied to new media as necessary, and the 
standard would ensure readability forever.
                          flaws of translation
    Regrettably, this approach is flawed in two fundamental ways. 
First, relational databases are less standardized than they appear. 
Commercial relational database systems distinguish themselves from one 
another by offering features that extend the relational model in 
nonstandard ways. Moreover, the limitations of such databases are 
already leading to the adoption of new models. The tables in a 
relational database cannot transparently show structure. That is, the 
database could not immediately make it clear that a corporation 
consisted of one headquarters, five national offices, 25 divisions and 
100 departments. Various object-oriented database models (which can 
represent structure directly) are evolving to satisfy this need. Such 
rapid evolution is neither accidental nor undesirable. It is the 
hallmark of information technology.
    Furthermore, far from being a representative example, relational 
databases are practically unique. No other type of digital document has 
nearly so formal a basis for standardization. Word processors, graphics 
programs, spreadsheets and hypermedia programs each create far more 
varied documents. The incompatibility of word-processing files 
exemplifies this problem. It did not arise simply because companies 
were trying to distinguish their products in the marketplace. Rather it 
is a direct outgrowth of the technology's tendency to adapt itself to 
the emerging needs of users.
    As yet, no common application is ready to be standardized. We do 
not have an accepted, formal understanding of the ways that humans 
manipulate information. It is therefore premature to attempt to 
enumerate the most important kinds of digital applications, let alone 
to circumscribe their capabilities through standards. Forcing users to 
accept the limitations imposed by such standards or restricting all 
digital documents to contain nothing but text as a lowest common 
denominator would be futile. The information revolution derives its 
momentum precisely from the attraction of new capabilities. Defining 
long-term standards for digital documents may become feasible when 
information science rests on a more formal foundation, but such 
standards do not yet offer a solution.
    Translating a document into successive short-term standards offers 
false hope. Successive translation avoids the need for ultimate 
standards, but each translation introduces new losses. Would a modern 
version of Homer's ``Iliad'' have the same literary impact if it had 
been translated through a series of intermediate languages rather than 
from the earliest surviving texts in ancient Greek? In theory, 
translating a document through a sequence of standards should enable 
scholars to reconstruct the original document. Yet that requires each 
translation to be reversible without loss, which is rarely the case.
    Finally, translation suffers from a fatal flaw. Unlike English and 
ancient Greek, whose expressive power and semantics are roughly 
equivalent, digital documents are evolving so rapidly that shifts in 
the forms of documents must inevitably arise. New forms do not 
necessarily subsume their predecessors or provide compatibility with 
previous formats. Old documents cannot always be translated into 
unprecedented forms in meaningful ways, and translating a current file 
back into a previous form is frequently impossible. For example, many 
older, hierarchical databases were completely redesigned to fit the 
relational model, just as relational databases are now being 
restructured to fit emerging object-oriented models. Shifts of this 
kind make it difficult or meaningless to translate old documents into 
new standard forms.
    The alternative to translating a digital document is to view it by 
using the program that produced it. In theory, we might not actually 
have to run this software. If we could describe its behavior in a way 
that does not depend on any particular computer system, future 
generations could re-create the behavior of the software and thereby 
read the document. But information science cannot yet describe the 
behavior of software in sufficient depth for this approach to work, nor 
is it likely to be able to do so in the near future. To replicate the 
behavior of a program, there is currently little choice but to run it.
    For this reason, we must save the programs that generate our 
digital documents, as well as all the system software required to run 
those programs. Although this task is monumental, it is theoretically 
feasible. Authors often include an appropriate application program and 
operating system to help recipients read a digital document. Some 
applications and system software may remain ubiquitous, so that authors 
would need only to refer readers to those programs. Free, public-domain 
software is already widely available on the Internet. Moreover, when 
proprietary programs become obsolete, their copyright restrictions may 
expire, making them available to future users.
    How can we provide the hardware to run antiquated systems and 
application software? A number of specialized museums and ``retro-
computing'' clubs are attempting to maintain computers in working 
condition after they become obsolete. Despite a certain undeniable 
charm born of its technological bravado, this method is ultimately 
futile. The cost of repairing or replacing worn out components (and 
retaining the expertise to do so) must inevitably outweigh the demand 
for any outmoded computer.
    Fortunately, software engineers can write programs called 
emulators, which mimic the behavior of hardware. Assuming that 
computers will become far more powerful than they are today, they 
should be able to emulate obsolete systems on demand. The main drawback 
of emulation is that it requires detailed specifications for the 
outdated hardware. To be readable for posterity, these specifications 
must be saved in a digital form independent of any particular software, 
to prevent having to emulate one system to read the specifications 
needed to emulate another.
                         saving bits of history
    If digital documents and their programs are to be saved, their 
migration must not modify their bit streams, because programs and their 
files can be corrupted by the slightest change. If such changes are 
unavoidable, they must be reversible without loss. Moreover, one must 
record enough detail about each transformation to allow reconstruction 
of the original encoding of the bit stream. Although bit streams can be 
designed to be immune to any expected change, future migration may 
introduce unexpected alterations. For example, aggressive data 
compression may convert a bit stream into an approximation of itself, 
precluding a precise reconstruction of the original. Similarly, 
encryption makes it impossible to recover an original bit stream 
without the decryption key.
    Ideally, bit streams should be sealed in virtual envelopes: the 
contents would be preserved verbatim, and contextual information 
associated with each envelope would describe those contents and their 
transformation history. This information must itself be stored 
digitally (to ensure its survival), but it must be encoded in a form 
that humans can read more simply than they can the bit stream itself, 
so that it can serve as a bootstrap. Therefore, we must adopt bootstrap 
standards for encoding contextual information; a simple, text-only 
standard should suffice. Whenever a bit stream is copied to new media, 
its associated context may be translated into an updated bootstrap 
standard. (Irreversible translation would be acceptable here, because 
only the semantic content of the original context need be retained.) 
These standards can also be used to encode the hardware specifications 
needed to construct emulators.
    Where does this leave my grandchildren? If they are fortunate, 
their CD may still be readable by some existing disk drive, or they may 
be resourceful enough to construct one, using information in my letter. 
If I include all the relevant software on the disk, along with 
complete, easily decoded specifications for the required hardware, they 
should be able to generate an emulator to run the original software 
that will display my document. I wish them luck.
                                 ______
                                 

  Attachment 4.--Goals for Revising U.S.C. Title 44 to Enhance Public 
                Access to Federal Government Information

    developed by the inter-association working group on government 
                      information policy--may 1997
    Congress currently is examining ways to improve public access to 
government information and public accountability of government entities 
through revisions to Title 44 of the United States Code and other 
applicable statutes. We affirm that any changes to Title 44, the 
Federal Depository Library Program (FDLP), or federal government 
information policies must incorporate the following fundamental 
principles and goals of public access.
GOAL 1: The law must broaden, strengthen, and enhance public access to 
        all forms of government information.
            PRINCIPLES:
    The public has the right to access the information produced by 
their government. All government information in all formats should be 
published initially by the government and be made available, with no 
restrictions, to the public through libraries.
    To foster an informed citizenry capable of fully participating in 
our democratic process and provide for economic development, the public 
must be ensured easy and equitable access to federal government 
information from the legislative, executive, and judicial branches at 
no cost to the citizen.
    To guarantee the availability of its information, the government 
should disseminate it in usable formats to the public, libraries, and 
other information providers and provide timely, equitable, effective, 
no-fee public access to its information through depository libraries.
    Government information created or compiled by government or 
contractor employees or at government expense must remain in the public 
domain with no copyright-like restrictions. The public's access to 
government information must not be denied or impeded by exclusive 
arrangements that apply copyright-like restrictions on the use or 
redissemination of government information. Republication of government 
information is the right of all citizens, and no obstacles should be 
placed in the way of that right.
            AREAS OF REFORM:
    Legislation must guarantee the public's fundamental right to 
government information. Providing for the dissemination of and access 
to government information is an affirmative responsibility of every 
entity of the federal government. The definition of ``government 
information'' under Title 44 should include information from all 
government agencies, military agencies, independent regulatory 
agencies, government corporations, government-controlled corporations, 
and other establishments in the executive, legislative, or judicial 
branches of the federal government, as well as information created, 
compiled, or published under government contract.
    Legislation must provide for the availability or dissemination of 
information in the most appropriate format(s). The format of 
dissemination must take into account the use of the information and the 
reliability of the format over time. Legislation should provide for 
multiple formats for some types of government information to meet 
users' needs and ensure the integrity, long-term preservation and 
permanent public access to the information.
    The definition of ``government information'' to be made available 
to the public and included in the depository program must include all 
information, regardless of form or format, which is created or compiled 
by employees of a component of the government, or at government 
expense, or as required by law, except that which is required for 
official use only, is for strictly administrative or operational 
purposes having no public interest or educational value, or is 
classified for reasons of national security.
    Legislation must clarify the definition of ``government 
information'' to explicitly include electronic information products and 
services. The definition of government information must include the 
broadest possible array of publicly funded information of public 
interest or educational value and should not be limited only to those 
materials originally intended for public dissemination (e.g., sales 
publications, brochures).
    Legislation must specify that agency information products and 
services, including those developed under a fee-based mandate or 
statute, must be made available to the public at no fee through 
depository libraries. Legislation should ensure that access to 
government information is not hindered by exclusive arrangements that 
apply copyright-like restrictions on use or redissemination of 
government information.
    Legislation must ensure that, regardless of any other agreements or 
mandates, government information created or compiled at taxpayer 
expense must be made available to the public at no fee through 
depository libraries. This includes: government information accessible 
only through government contracts with private commercial services; 
cooperative publications, or government information created, compiled, 
or disseminated through contracts, cooperative research and development 
agreements, or other formal arrangements.
GOAL 2: The law must strengthen the role of the Superintendent of 
        Documents and the Federal Depository Library Program in 
        providing public access to government information.
            PRINCIPLES:
    The government must provide a strong, centralized, coordinated, and 
managed program that provides for the acquisition, bibliographic 
control, dissemination, and long-term public access of government 
information at no cost to the public through depository libraries.
    To facilitate broad public access to electronic government 
information, the government must develop, adopt, and utilize 
government-wide standards for the production, dissemination, and access 
to government information in electronic formats.
            AREAS OF REFORM:
    Legislation should strengthen the Federal Depository Library 
Program, the Superintendent of Documents Sales Program, and the GPO 
Access online service as essential mechanisms for ensuring public 
access to government information. [To reflect the impact of electronic 
technologies on public access, the name of the FDLP should be changed 
to the ``Federal Depository Library and Public Access Program.'']
    The law must unequivocally state that electronic information be 
made publicly available and included in the FDLP.
    Library services included in the FDLP must span the entire life-
cycle of government information (creation, dissemination, access, use, 
preservation, and evaluation) and include: cataloging and bibliographic 
control; administration of access to online electronic information 
products; distribution of physical publications and tangible electronic 
products; preservation and permanent public access; development of 
standards; training; feedback and participation in the design and 
evaluation of government information products and services; and other 
services that enhance public access to government information. These 
services must be centrally coordinated to facilitate public access and 
to meet most effectively the needs of libraries and the public.
    Legislation must provide the statutory basis for appropriations for 
broad public access to government information. This includes the 
distribution of physical publications to depository libraries at no 
charge, and to all others at no more than the incremental cost of 
printing and distribution. Likewise, electronic access to government 
information should be provided at no fee to the broadest possible 
audience; in cases where access fees are required, no-fee access must 
be guaranteed to the public through depository libraries. Adequate 
appropriations to the FDLP must be included to provide depository 
libraries with copies of publications and access to online databases. 
The Superintendent of Documents should be empowered to reimburse 
publishing agencies at the incremental rate for replicating depository 
copies of tangible products. Appropriations must cover the costs of 
producing and disseminating products through the FDLP as well as any 
costs for software licenses that accompany electronic products.
    Legislation must make it clear that regardless of any other legal 
or administrative requirements, government information must be made 
accessible to the public through the FDLP; specifically, an agency's 
mandate to recover costs does not relieve it from fulfilling its 
depository obligations under Title 44.
    Legislation must provide for a centrally managed procurement and 
production system for government information products and services. 
Such a system should facilitate the identification of information 
products for inclusion in the FDLP. It is essential also that the 
system provide for appropriate penalties and enforcement power to 
ensure agencies' compliance with their FDLP obligations under Title 44.
    Legislation must require that each branch of government develop a 
standardized system to describe their electronic information products 
and services at the database level (e.g., GILS/Government Information 
Locator Service) in consultation with the national libraries and the 
judicial branch libraries. These records should provide interactive 
links to online databases and information resources.
    Legislation should provide for the utilization of advisory 
council(s) that include members from all three branches of government, 
librarians, and the public.
GOAL 3: The law must establish the affirmative responsibility of the 
        federal government to preserve and provide permanent public 
        access to its information, and to ensure the authenticity of 
        government information.
            PRINCIPLES:
    The government has an affirmative obligation to guarantee: the 
preservation of government information to ensure its availability for 
future generations; permanent public access to government information; 
and authenticity and integrity of its information to ensure that it is 
``official.''
            AREAS OF REFORM:
    Legislation must provide for the central coordination of permanent 
public access to government information. The federal government, 
including the Superintendent of Documents working in cooperation with 
the federal agencies, the National Archives and Records Administration, 
the Library of Congress and other national libraries, depository 
libraries, and other library partners, must be responsible for 
establishing and maintaining a system of permanent public access to all 
formats of government information. Implementation of this should 
include a distributed system that provides for adequate redundancy and 
is based on official/contractual agreements between partners. The 
Superintendent of Documents should be responsible for coordinating and 
overseeing the formal contracts and interagency agreements that ensure 
the preservation and permanent public access to government information.
    Legislation must account for the public's need to be assured that 
the information that the government provides is authentic. Policies and 
practices should provide for ``official'' versions of government 
information on which the public can rely in conducting its business and 
affairs.
GOAL 4: The law must resolve the constitutional or inter-branch issues 
        regarding the oversight and administration of the life-cycle of 
        government information (creation, acquisition, production, 
        bibliographic control, dissemination, and permanent public 
        access) to establish clear accountability and facilitate public 
        access to government information from the legislative, 
        executive, and judicial branches.
            PRINCIPLES:
    Congress must continue to provide effective oversight in a manner 
that will ensure that the executive, legislative, and judicial branches 
of government comply with the principles of public access.
            AREAS OF REFORM:
    Legislation must provide for strong congressional oversight of 
government information policies and practices and the power to effect 
government-wide standards that facilitate public access. Legislation 
should underscore the important role of Congress in providing public 
access to government information. As the branch of government closest 
to the people, Congress must ensure local access to federal government 
information nationwide.
    Legislation must provide enforceable compliance mechanisms for 
procurement and production systems. Enforcement authority should be 
established encompassing all three branches of government to ensure 
compliance with the public access and dissemination requirements of the 
law.
    Legislation must include incentives for agencies and libraries to 
participate in the depository program. Statutory authority should be 
provided to ensure agency participation in programs designed to 
facilitate and provide public access to government information.
     document of the inter-association working group on government 
                           information policy
    The Inter-Association Working Group on Government Information 
Policy is a cooperative team of representatives from several major 
library associations working to enhance public access to government 
information through the revision of U.S.C. Title 44. Together, these 
associations represent more than 80,000 librarians, information 
specialists, library trustees, libraries, and others interested in 
library issues.
    For more information, please contact: Francis Buckley, IAWG Chair; 
Director, Shaker Heights Public Library, 216/991-2030 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="badcc8dbd4d9d3c994d8cfd9d1d6dfc3fac9d2cad694d6d3d894d5d294cfc994">[email&#160;protected]</a>
    Mary Alice Baish, American Association of Law Libraries, 202/662-
9200 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbd9dad2c8d3fbd7dacc95dcded4c9dcdecfd4ccd595dedfce95">[email&#160;protected]</a>
    Anne Heanue, American Library Association, 202/628-8410 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9a9a93bb9a979a8c9a8893d594899cd5">[email&#160;protected]</a>
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL F. DiMARIO, PUBLIC PRINTER
ACCOMPANIED BY:
        WAYNE P. KELLEY, SUPERINTENDENT OF DOCUMENTS
        WILLIAM M. GUY, BUDGET OFFICER
        CHARLES C. COOK, SUPERINTENDENT, CONGRESSIONAL PRINTING 
            MANAGEMENT DIVISION

                       introduction of Associates

    Senator Bennett. For this next panel we welcome Michael 
DiMario, the Public Printer, and he is accompanied by Wayne 
Kelley, the Superintendent of Documents from the Government 
Printing Office.
    I have no opening statement.
    Senator Dorgan, do you?
    Senator Dorgan. Nor do I, Mr. Chairman.
    Senator Bennett. Fine. We will go directly to our 
testimony.
    Mr. DiMario. Thank you, Mr. Chairman. Also with me is Mr. 
Bill Guy, who is our budget officer.
    Senator Bennett. I'm sorry. I apologize. I was not looking 
in this direction.
    Mr. DiMario. Mr. Guy sits to my left. We also have Mr. 
Charles Cook, who is the head of our Congressional Printing 
Management Division, who is in the audience but is available to 
us.
    Senator Bennett. Thank you.
    Mr. DiMario. In the interest of time, I will briefly 
summarize my prepared statement which has been submitted for 
the record.
    Senator Bennett. Without objection, it shall be included in 
the record.

                       Public Printer's statement

    Mr. DiMario. Mr. Chairman, I deeply appreciate the time you 
took from your busy schedule recently to visit GPO and observe 
our operations. We look forward to working with you through the 
subcommittee. We also invite other members of the subcommittee 
to come down and visit, to see our operation, because I think 
that is an important aspect of understanding what we do.
    For fiscal year 1998 we are requesting a total of $114.5 
million for those programs requiring annual appropriations 
directly to GPO. This includes $84 million for the 
congressional printing and binding appropriation and $30.5 
million for the salaries and expense appropriation for the 
Superintendent of Documents.
    The total amount we are requesting is an increase of $3.8 
million, or 3.4 percent, over the funding approved in fiscal 
year 1997.
    For congressional printing, we are seeking $2.4 million 
more than was approved this year due to workload increases 
anticipated for the second session of the 105th Congress as 
well as cost increases due to employee pay and expenses for 
supplies, utilities, and maintenance.
    For the Superintendent of Documents salaries and expenses 
appropriation, we are requesting $1.4 million more to fund 
unavoidable cost increases as well as the continued 
transformation of the Depository Library Program to an 
electronic basis.
    My prepared statement includes information on GPO's mission 
and programs to assist you in your review of our appropriations 
request.
    I specifically want to direct your attention to the fact 
that our use of electronic printing and information 
technologies over the past two decades has generated 
substantial savings for Congress and the taxpayers while 
improving public access to congressional and other Government 
information.
    Twenty years ago, our congressional printing budget was the 
equivalent of $209.5 million in today's dollars. Today our 
budget request is for $84 million, a reduction of nearly two-
thirds. That reduction was achieved primarily through our 
utilization of successive generations of electronic printing 
and information technologies to serve Congress.
    A major outcome of the productivity improvements generated 
by these technologies has been an ability to downsize our 
operation significantly. Since the mid-1970's, our work force 
has been reduced by more than 55 percent, from over 8,200 
employees to the current 3,626 employees.
    We are continuing to manage downsizing to achieve savings 
without interrupting critical services to Congress and the 
public. Our use of electronic technologies means that Congress 
can achieve improved information services for its own use and 
for public access. The GPO infrastructure supporting Congress 
is capable of receiving congressional data in electronic format 
in order to reduce production costs. Already we are receiving 
more than 60 percent of Congressional Record copy from the 
Senate in electronic format.
    We provide the necessary standardization of congressional 
information products as well as the systems for widespread 
public dissemination of this important information. We are 
prepared to assist the Senate and the House in electronically 
disseminating committee materials and we have a pilot program 
for online access to committee hearings.
    Our GPO Access online service currently averages more than 
4 million document downloads per month. Now we measure this 
differently than the Library of Congress does. They are 
measuring hits on their system. We are measuring actual 
downloads of documents. So that is an important distinction. 
GPO Access provides widespread public access to congressional 
and other Government documents.
    We are successfully moving our Depository Library Program 
toward a predominantly electronic basis as originally directed 
by this subcommittee. Altogether, GPO's systems and services 
are dedicated to supporting Congress' move to increase 
utilization of electronic formats. We have the resources and 
experience to help make the cyber-Congress a reality.

                           prepared statement

    Mr. Chairman, this concludes my opening remarks. I would be 
pleased to answer any questions the subcommittee may have. And 
I would submit my formal statement for the record.
    [The statement follows:]
                Prepared Statement of Michael F. DiMario
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to present the funding requirements of the Government 
Printing Office (GPO) for fiscal year 1998. In addition to our funding 
request, I am also providing additional information on GPO's mission 
and programs.
                fiscal year 1998 appropriations request
    For fiscal year 1998, we are requesting $114.5 million for those 
programs that require annual appropriations directly to GPO. This is an 
increase of $3.8 million, or 3.4 percent, over the funding approved for 
fiscal year 1997. However, it is also $1.2 million, or 2.6 percent, 
less than the amounts appropriated 5 years ago. The request includes 
$84 million for the Congressional Printing and Binding Appropriation 
and $30.5 million for the Salaries and Expenses Appropriation of the 
Superintendent of Documents. The increase is due primarily to general 
price level increases, although for congressional printing there are 
also workload increases in various product categories that are typical 
for a second session of Congress.
                       gpo's appropriated funding
    Unlike the other agencies that come before this Subcommittee, only 
a small part of our annual budget is appropriated directly to GPO. Our 
budget instead is financed through a businesslike revolving fund, which 
is reimbursed by payments from customer agencies, sales to the public, 
and transfers from our appropriated funds. For fiscal year 1996, the 
total operating expenses charged against our budget were $835.4 
million. Appropriated funds from Congress provided $113.7 million of 
this amount, or 13.6 percent. They included $82.4 million for 
Congressional Printing and Binding and $31.1 million for the Salaries 
and Expenses of the Superintendent of Documents. All other GPO 
activities were financed through the revolving fund by customer agency 
payments and revenues from sales to the public. Each year, in addition 
to our appropriations request, we request congressional authorization 
for operation of the revolving fund.
    The Congressional Printing and Binding Appropriation is critical to 
the maintenance and operation of our inplant printing capacity, which 
is structured to serve Congress's printing needs. The appropriation 
covers the costs of congressional printing, such as the Congressional 
Record, bills, reports, hearings, documents, and other products. Each 
year, a substantial volume of this work is requisitioned by Congress. 
In fiscal year 1996, nearly 2 billion copy pages of congressional 
products were produced at an average cost of about 4 cents per page, 
inclusive of all prepress (database preparation) work, printing, 
binding, and delivery.
    The majority of the Superintendent of Documents Salaries and 
Expenses Appropriation is for the Federal Depository Library Program 
(FDLP). While some of the funding for this program is for salaries and 
expenses, the majority is for printing and distributing publications 
(including publications in CD-ROM and online formats) to depository 
libraries. As long as Federal publications meet the requirements for 
depository distribution established by law, the copies must be 
distributed. In this sense, the volume of this work is controlled by 
the publishing activities of Federal agencies and Congress.
            congressional printing and binding appropriation
    Our request of $84 million for the Congressional Printing and 
Binding Appropriation is an increase of $2.4 million, or 2.9 percent, 
over the amount approved for fiscal year 1997. However, it is $5.6 
million, or 6.2 percent, less than the amount appropriated 5 years ago, 
without adjusting for inflation. Of the total request, $21.2 million, 
or 25 percent, is for the Congressional Record, including the Index and 
the permanent edition. Hearings constitute the second largest component 
of our request, totaling $17.1 million, or 20 percent. Legislative 
bills together total $11 million, or 13 percent.
    Estimated Requirements and Workload.--Based on historical data, in 
the second session we expect to see increases in certain categories of 
work, such as Congressional Record pages, but decreases in other 
categories, such as hearings. Overall operating costs are anticipated 
to increase marginally due to the increased cost of employee pay and 
benefits, utilities, maintenance, materials, and supplies. We will 
continue to work to offset these increased costs with savings from 
technological improvements and adjusting staffing requirements.
    The most significant price level changes anticipated are for the 
production of the Congressional Record, where due to cost decreases 
associated with improved production processes and the increased 
submission of Record text electronically from Congress, we anticipate a 
3.5 percent reduction in costs for data preparation. In most other 
product categories, we anticipate marginal price increases to recover 
the cost of current services, although most of the increases are at or 
below the rate of inflation. Altogether, price changes account for 
approximately $.7 million of the requested $2.4 million increase.
    We anticipate workload volume increases during the second session 
for Congressional Record pages, committee reports, business and 
committee calendars, bills, document envelopes and franks, and 
documents. We anticipate workload reductions for committee prints, 
hearings, miscellaneous publications (since there will be no printing 
of the Congressional Directory and other publications in the second 
session), miscellaneous printing and binding (such as letterheads and 
envelopes), and details to Congress based on trends for reduced 
requirements.
             study on privatizing the congressional record
    In the House report accompanying the Congressional Printing and 
Binding Appropriation for fiscal year 1997 (H. Rpt. 104-657), we were 
required to conduct a study, using independent outside experts, to 
determine if opportunities exist for outsourcing the Congressional 
Record and the Federal Register. This requirement was based on the 
rationale, as provided in the report, that ``the Congressional Record 
and the Federal Register workloads are somewhat predictable and 
sufficiently routine so that it may be possible that one or both 
products can be outsourced'' (pp. 28-29). The report also directed us 
to consider the option of converting to a two-shift operation in GPO's 
printing plant.
    The Chairman of the JCP has suggested that anticipated reforms to 
Title 44 may diminish the need for such a study at this time, and that 
the rapid evolution of technology may impact the need for this study. I 
concur. Technology initiatives in both the Senate and the House may 
result in changes to the operations for the production of the 
Congressional Record. It may not be possible at this time to accurately 
project all of the technology developments and procedural changes that 
might result from these plans.
    In addition, the basic premise behind the requested study--that the 
workloads for the Record and the Register are ``somewhat predictable 
and sufficiently routine''--is not wholly accurate. As I have testified 
many times, these workloads are in fact far from predictable and 
routine; the Record one night may be 20 pages long, and the next night 
400 pages, necessitating daily workload scheduling and production 
changes. These variances are at the heart of the reason why the Record 
and the Register are produced in GPO, and not contracted out. I believe 
what the study is likely to conclude is this very point, at a 
potentially significant expense to the taxpayers.
                  salaries and expenses appropriation
    Our request of $30.5 million for the Salaries and Expenses 
Appropriation of the Superintendent of Documents is an increase of $1.4 
million, or 4.8 percent, over the amount approved for fiscal year 1997. 
The increase is primarily due to price level increases and pay raises 
and related costs. Of the total request, $25.9 million, or 85 percent, 
is for the FDLP; $3.6 million, or 12 percent, is for the Cataloging and 
Indexing Program; $555,000, or 2 percent, is for International 
Exchange; and $486,000, or 1 percent, is for distribution of 
publications to recipients required by law.
    Estimated Requirements and Workload.--Price level changes and cost 
increases due to pay raises and related expenses represent $858,000, or 
about 62 percent, of the requested increase of $1.4 million. The 
majority of this amount, $631,000, is for price level changes 
calculated at the assumed rate of inflation for the year (2.7 percent). 
The remaining $526,000, or 38 percent, of the requested increase is for 
program changes related to workload, including improvements to GPO 
Access in order to continue the transition of the FDLP to an electronic 
basis. We are projecting a decreased number of paper copies distributed 
to depositories, staffing reductions due to increased efficiencies, and 
other program cost reductions.
                  gpo's mission in the information age
    An abiding commitment to public access to Government information is 
deeply rooted in our system of Government. GPO is one of the most 
visible demonstrations of that commitment. For more than a century, our 
mission under the public printing and documents statutes of Title 44 of 
the U.S. Code has been to fulfill the needs of the Federal Government 
for information products and distribute those products to the public. 
Formerly, our mission was accomplished through the production and 
procurement of traditional printing technologies. However, a generation 
ago we began migrating our processes to electronic technologies, and in 
1993 Congress amended Title 44 with the GPO Electronic Information 
Access Enhancement Act (Public Law 103-40) to require us to disseminate 
Government information products online. This Act is the basis of GPO 
Access, our Internet information service.
    Today, GPO is dedicated to producing, procuring, and disseminating 
Government information products in a wide range of formats. In GPO the 
Government has a unique asset that combines a comprehensive range of 
conventional production and electronic processing services, procurement 
facilitation, and multi-format dissemination capabilities to support 
the information life cycle needs of Congress, Federal agencies, and the 
public.
    We provide printed and electronic information products and services 
to Congress and Federal agencies through inplant processes and the 
purchase of information products from the private sector. In fact, we 
buy approximately 75 percent of all information products requisitioned 
from us in one of the Government's most successful procurement 
programs. We disseminate Government information through a low-priced 
sales program and to Federal depository libraries nationwide where the 
information may be used by the public free of charge. We also 
disseminate a growing volume of information via the Internet. We 
catalog and index Government information products, and we distribute 
them on behalf of other Federal agencies. Information on all of our 
programs and services, as well as access to a large and growing range 
of Government information, is available through our home page on the 
World Wide Web, at http://www.gpo.gov.
    We conduct all of our services in a non-partisan, service-oriented 
environment that emphasizes the primacy of the customer's requirements 
for timeliness, quality, security, and economy, and we are committed to 
achieving the greatest access and equity in information dissemination 
whether through printed publications, CD-ROM, or online. At the bottom 
line, our programs reduce the need for duplicative and costly 
production facilities throughout the Government, achieve significant 
taxpayer savings through a centralized procurement system, and enhance 
public access to Government information.
                            gpo and congress
    GPO was originally established to provide Congress with immediate, 
reliable service in a work environment under its direct control. That 
mission continues today. We produce the daily and permanent editions of 
the Congressional Record, bills, committee and business calendars, 
hearings, committee reports, committee prints, documents, stationery, 
and a wide variety of other products that are essential to the 
legislative process in Congress. We produce this work in our central 
office facility on North Capitol Street in Washington, DC, through the 
creation and storage of electronic databases of publications for 
printing and dissemination, as well as the provision of CD-ROM, online 
access, and print-on-demand services. All of this work is funded 
through an annual appropriation for Congressional Printing and Binding.
    Our Congressional Printing Management Division (CPMD) serves as 
GPO's liaison with the Congress for printing and information product 
needs. CPMD staff provide assistance to Members and officials of 
Congress as well as committees and support staffs regarding the 
printing and electronic availability of congressional information 
products. The CPMD is also responsible for managing approximately 59 
GPO employees detailed to congressional committees and offices to 
assist with printing requirements. To ensure the timely delivery of 
printed materials, there are 19 congressional receiving clerks, who are 
part of the CPMD staff, assigned to congressional buildings. In 
addition, the CPMD coordinates and maintains distribution lists for all 
agency requests for congressional products.
    Support for the Cyber-Congress.--We have built a core capability 
for electronic information and communications services to support 
Congress's information needs. Today, our state-of-the-art electronic 
systems are characterized by a complex of direct electronic linkages 
via CAPNET to a variety of congressional offices on Capitol Hill for 
data interchange. Once considered only the by-product of the print 
production process, digitized electronic databases of congressional 
information are now the primary product: they are the databases from 
which the official versions of documents are produced in print, CD-ROM, 
and online access formats and made available to the public through GPO 
Access, as well as other systems such as the Library of Congress's 
THOMAS information system.
    Our electronic systems and staff expertise position us to continue 
supporting the development of the cyber-Congress, including the 
proposed Legislative Information System for the Senate and a comparable 
House Document Management System. We are committed to supporting 
Congress's effort to provide more committee materials online to the 
public.
    More than 60 percent of Congressional Record files from the Senate 
are currently submitted electronically. We are currently working with 
the Senate Appropriations Committee to provide online dissemination of 
appropriations hearings. We operate a print-on-demand system in the 
Senate Document Room that has reduced the requirement for printing 
extra copies of legislative products, eliminating the need for storage 
space and providing for effective future distribution. This system, and 
another print-on-demand system located at our central office facility, 
are both networked to congressional databases resident at GPO.
    Advantages from Electronic Support.--Our electronic systems provide 
a standardized system for use by both Houses of Congress, resulting in 
compatibility of production processes and uniformity in the resulting 
products. They provide for the interchangeable use of databases to 
produce different congressional publications, generating significant 
savings. Our systems are a centralized resource where production and 
dissemination equipment and staffing can be concentrated, yielding 
significant economies of scale. Finally, they facilitate both 
production and dissemination. Databases prepared for printing are 
easily converted into databases suitable for CD-ROM distribution and 
for online dissemination via the Internet to libraries, schools, 
offices, and homes nationwide and around the world.
    Savings from the Use of Technology.--Productivity increases 
resulting from technology have enabled us to make substantial 
reductions in staffing requirements while continuing to improve 
services for Congress. In the mid-1970's, on the threshold of our 
conversion to electronic photocomposition, we employed more than 8,200 
persons. Today, we have 3,626 employees on board, fewer than at any 
time in this century. In the past 4 years our staffing has been reduced 
by 25 percent. The reduction was accomplished while at the same time 
modernizing and improving our services.
    Electronic technologies have significantly reduced the cost, in 
real economic terms, of congressional publications. In fiscal year 
1978, the appropriation for Congressional Printing and Binding was 
$84.6 million, the equivalent in today's dollars of $209.5 million. By 
comparison, our approved funding for fiscal year 1997 is $81.7 million, 
a reduction of nearly two-thirds in real economic terms. This has 
yielded a savings to the taxpayer of well over $100 million per year. 
The vast majority of the reduction is due to productivity improvements 
and staffing reductions made possible through the use of improved 
technology.
                        gpo and federal agencies
    GPO's Printing Procurement Program.--Approximately 75 percent of 
the printing and information products requisitioned from GPO are 
procured from the private sector. GPO historically has retained for 
inplant production only work which cannot be procured on a controlled, 
timely, and cost-effective basis. The vast majority of the work 
procured from the private sector is for Federal agencies in the 
executive branch. We provide procurement services through our central 
office facility and through a network of 20 regional and satellite 
procurement offices nationwide. All work for Federal agencies is paid 
for by the agencies themselves. The payments are processed through 
GPO's revolving fund.
    Our printing procurement program saves a significant amount of 
money for the taxpayers. The program operates on a highly competitive 
basis, driving prices down. Approximately 10,000 firms--or about a 
quarter of the nationwide printing industry, representing nearly 
200,000 employees--are registered on GPO's Master Bid List according to 
their equipment, staffing, and production capabilities. About 3,500 of 
these firms do business with us on a regular basis, ensuring intense 
competition for Government printing and information product contracts.
    By consolidating the Government's specialized printing procurement 
skills and resources in GPO, agencies save money in their printing 
programs. Moreover, agencies achieve savings without giving up 
essential controls when they work through us. Most of our printing 
procurements are conducted through direct deal term contracts, 
permitting agencies to place their printing orders directly with the 
contractor. Our centralized program utilizes a service infrastructure 
that allows agencies to directly control the vast majority of their 
printing needs from the point of origination. Electronic versions of 
printing procurement bid solicitations are now accessible from the 
Internet via GPO's World Wide Web home page.
    CD-ROM Services.--Since 1988 we have been a leading Government 
producer of CD-ROM technology, providing agencies with a complete range 
of CD-ROM production services. We have received the annual CD-ROM Award 
from the Special Interest Group for CD-ROM Applications and Technology 
(SIGCAT), the largest CD-ROM user group in the world, in recognition of 
the CD-ROM services we provide. The General Accounting Office has cited 
our CD-ROM program as one of the most cost-effective in the Government, 
specifically noting that GPO's CD-ROM products are among the least 
expensive for users.
    World Wide Web Services.--For the World Wide Web, we provide 
database development services, mounting on our servers, database 
maintenance, access based on agency needs, promotion of the service, 
training, and user support. GPO Access features a unique service in 
making most databases available not only in ASCII format but in 
Portable Document Format (PDF), which provides a searchable database 
that exactly replicates the printed product.
    The New Commerce Business Daily.--We recently entered into an 
alliance with the Department of Commerce in the development of a new 
Commerce Business Daily (CBD). The new CBD has made it easier and more 
timely for agencies to electronically submit notices for inclusion in 
CBD, significantly reduced the cost per notice for these submissions 
(from $18.00 to $5.00), allowed for the continuation of a billing and 
reporting process for these charges, provided support to both agencies 
and users of the CBD, reduced the time necessary to typeset and compose 
the printed version, and enhanced the delivery of the final copy to the 
printing contractor for the production of the daily printed issues. It 
has also enabled commercial value-added providers who offer CBD 
products to receive the daily CBD information much faster, in an 
enhanced format, and at a 20 percent reduction in cost. On April 21, 
1997, our CBD partnership with the Commerce Department was the 
recipient of a ``Hammer Award'' from the National Performance Review.
    Inplant Services.--In addition to procuring printing for Federal 
agencies, GPO produces work in our central office plant and regional 
printing plant in Denver. A significant portion of the agency work 
produced inplant is associated with the Federal Register, and includes 
the List of Sections Affected and the Code of Federal Regulations. 
Other work includes U.S. passports, postal cards, the U.S. Budget, and 
other jobs that are performed by GPO due to concerns for cost, 
timeliness, and control over sensitive Government information.
    The continued need for GPO's regional printing plants has declined. 
In response, we have closed plants in Chicago, Seattle, San Francisco, 
and New York, and previously a separate printing and reproduction 
facility at the Washington, DC, Navy Yard was consolidated with GPO's 
central office facility. A facility in Alaska, transferred from the 
GSA, has also been closed. The remaining plant in Denver continues to 
satisfy regional production and security printing needs.
                   gpo and information dissemination
    The Printing Act of 1895, which is the basis for the public 
printing and documents statutes of Title 44 of the U.S. Code, relocated 
the Superintendent of Documents function from the Interior Department 
to GPO. By linking the authority for the distribution of documents with 
GPO's printing operations, Congress created an effective system for 
ensuring comprehensive public access to the publications produced by 
the Government. As the success of GPO Access demonstrates, this linkage 
continues to be an effective means for the development and 
dissemination of electronic databases in the Information Age.
    The information dissemination programs of GPO's Superintendent of 
Documents include the distribution of publications to approximately 
1,400 Federal depository libraries nationwide, cataloging and indexing, 
distribution to recipients designated by law, and distribution to 
foreign libraries designated by the Library of Congress which in turn 
agree to send copies of their official publications to the Library 
pursuant to international treaty. These programs are funded by the 
annual Salaries and Expenses Appropriation of the Superintendent of 
Documents.
    The Superintendent of Documents also operates a nationwide sales 
program. This program, the Government's single largest information 
dissemination network, operates 24 bookstores in major metropolitan 
areas around the U.S. as well as an extensive order service equipped to 
receive mail, phone, fax, and Internet-based orders for publications 
nationwide and worldwide. This program is funded entirely by revenues 
earned on sales of publications. The Superintendent of Documents also 
distributes publications for Federal agencies which reimburse us for 
comprehensive warehousing and dissemination services. Altogether, we 
distribute about 100 million copies of Government publications per year 
through these programs (not including information made available 
online).
    GPO Access.--GPO Access provides free access to more than 70 
Federal databases, including the Congressional Record, the Federal 
Register, the Commerce Business Daily, Supreme Court opinions, 
congressional bills and reports, and other publications, as well as 
Government Information Locator Service (GILS) records for a growing 
number of Federal agencies. The first online service of its kind 
established by Congress, GPO Access allows users to locate a wide 
variety of electronic products available via the Internet and to order 
Government publications online. GPO Access is the only Government 
online service providing access to a wide range of information from all 
three branches of the Federal Government, and the only service 
providing official access to this important Government information. In 
April 1997, retrievals topped 4.5 million. During peak usage periods 
there are more than 15,000 GPO Access sessions per hour.
    GPO Access has drawn praise from a variety of sources, including 
the library community (which gave GPO Access the 1995 James Madison 
Award), the Federal technology community, the legal community, and 
others. In December 1996, in a guest column in Roll Call, 
representatives of the Congressional Accountability Project and the 
Heritage Foundation together called GPO Access ``an enormous success.'' 
In January 1997, OMB Watch released a report on Government Information 
Locator Services which noted that ``GPO Access has become the largest 
single location for GILS services and records in the Federal 
Government,'' and that ``GPO should be seen as an example to agencies 
that are struggling with their GILS implementation.''
                   federal depository library program
    Principles.--The dissemination of Government information to 
libraries for the use of the public began in 1813, making the FDLP 
America's oldest ``freedom of information'' program. From its 
beginning, the FDLP has been built on several underlying principles:
  --A well-informed citizenry, cognizant of the policies and activities 
        of its representative Government, is essential to the proper 
        functioning of democracy.
  --The public has a right to Government information which has been 
        prepared and published at public expense.
  --The Government has an obligation to ensure the availability of, and 
        access to, public information at no cost to the user.
  --The publications provided through the FDLP are a permanent and 
        official source of Government information.
  --The public, participating libraries, and the Government all benefit 
        from the efficiencies afforded by a centralized distribution 
        system, such as the FDLP, which ensures the wide availability 
        of Government publications at no charge to the user.
    Statutory Requirements.--Libraries are designated as depositories 
by Senators and Representatives as well as by law. Under the law, we 
send the libraries copies of all Government publications processed 
through GPO that are not purely of an administrative nature, 
cooperatively sponsored, or classified for reasons of national 
security. These copies are paid for by the annual Salaries and Expenses 
Appropriation of the Superintendent of Documents. If Federal agencies 
themselves produce publications that belong in the FDLP, they are 
required by law to pay for the production and distribution of those 
copies sent to the depositories. In return for receiving Government 
information products at no cost, the libraries must make them available 
to the public without charge and provide appropriate assistance to 
users.
    The majority of the depository libraries are selective depositories 
which tailor their Government publications acquisitions to local needs, 
choosing from among 7,000 organizational and series categories. Fifty-
three libraries, or roughly one per State (depending on size and 
resources, some States have no regionals while others have more than 
one), are regional depositories that receive every publication 
distributed by the FDLP. They are required to retain permanently every 
Government publication they receive.
    Users.--Based on 1995 data, we estimate that 750,000 to 950,000 
persons use FDLP information each month. A 1989 study estimated a 
minimum of 670,000 depository users per month in academic and public 
libraries.
    Workload.--In fiscal year 1996, nearly 16.4 million copies of about 
57,000 titles were distributed to depository libraries in paper and 
microfiche. In addition, we distributed 639 titles in tangible 
electronic formats, mostly CD-ROM. All GPO Access databases and 
services are available to depository users. Our locator services point 
to an additional 971 agency titles, and there are 1,148 Monthly Catalog 
records hot-linked to agency Internet sites.
    Library Participation.--There are now 1,372 depository libraries, 
including the 53 regionals. Of these, 55 percent are academic 
libraries, making the FDLP a major component of the Nation's education 
and research programs. Another 20 percent are public libraries, 11 
percent are law school libraries, 6 percent are State libraries, 5 
percent are Federal agency libraries, and the remaining 3 percent are 
special libraries. All Federal depositories are now expected to offer 
public users access to computer work stations with a graphical user 
interface, CD-ROM capability, Internet connections, and the ability to 
access Government information via the World Wide Web. However, there 
are still some depositories which cannot fully handle all electronic 
Government information offerings.
    Continuing Justification for the FDLP.--The FDLP will continue to 
be needed even as Federal agencies put more information on the 
Internet. The FDLP, funded out of legislative branch appropriations, is 
the means by which Congress asserts its historical role in keeping the 
American public informed about the activities of the Government.
    Depository libraries have developed skills and collections based on 
the needs of their local constituents. This affords the public a local 
setting in which they can use Government information at no charge, 
regardless of whether they own or can operate a computer, and be 
assisted by trained Government information professionals.
    As authorized by Public Law 103-40, GPO creates a variety of 
electronic ``Pathway'' locator services, which enable users to identify 
and connect to agency electronic resources. Since these activities are 
funded by the FDLP appropriation, the locator services sponsored by the 
FDLP may be used at no cost by the public. Within our suite of locator 
services, the Monthly Catalog on the Web is unique in how it locates 
both physical items in depository libraries and agency products on the 
Internet.
    The FDLP is the vehicle which provides permanent public access to 
Government information. Copies of physical items are permanently held 
for public use in the regional depository libraries. GPO, acting in 
partnership with other Program stakeholders, including the National 
Archives and Records Administration and libraries which elect to 
participate, is leading an effort to ensure that agency Internet 
products are permanently retained and made accessible to the public.
    It will be many years, if ever, before all Government information 
is available electronically. In the meantime, it is essential to have a 
single program which is charged with acquiring and distributing the 
vast array of printed products which the Government produces. Neither 
libraries nor the public would be well served by having to contact 
scores of individual agencies for the information they need.
    Fugitive Documents.--Many publications produced by the Government 
fail to be included in the FDLP. Documents that belong in the Program, 
but which are excluded, are known as fugitive documents. Their absence 
from depository library collections impairs effective public access to 
Government information. While many studies of the fugitive document 
problem have been conducted, the exact number of publications that are 
not in the FDLP has been difficult to isolate. Sometimes administrative 
errors are made by GPO in document selection and distribution. Most 
commonly, however, documents become fugitives from the Program due to 
their production outside of GPO, such as in agency printing plants. 
There is also a growing number of fugitive documents due to increased 
agency use of electronic systems to produce and disseminate their own 
documents.
    Although no study has resulted in a definitive answer, we estimate 
that more than 50 percent of all tangible Government information 
products are not being made available to the FDLP. Of these, we 
estimate that there are about 55,000 scientific and technical documents 
and reports which are neither printed through GPO nor furnished by the 
issuing agencies to the FDLP as required by law. The issuing agencies 
do, however, provide either a printed copy or an electronic image file 
of each of these documents to the National Technical Information 
Service (NTIS) of the Department of Commerce.
    In fiscal year 1996, NTIS took in about 160,000 scientific, 
technical, and business-related titles, most but not all of which were 
published by the Government. We estimate that about 70 percent, or 
112,000, of NTIS's total intake belongs in the FDLP. Compared with the 
57,000 titles in the FDLP in fiscal year 1996, this leaves about 55,000 
fugitive titles which should have been provided to GPO by publishing 
agencies, had they fully complied with Title 44 requirements.
    In addition, there is an unknown number of fugitives which are 
primarily general, public interest materials produced by agencies other 
than through GPO. It is virtually impossible to estimate the total 
number of these titles, but they may well number in the thousands and 
include such publications as decisions of the Federal district courts 
and courts of appeals, Federal Election Commission financial disclosure 
statements, and reports produced by the Library of Congress's 
Congressional Research Service.
    Recently, four major factors have contributed to increasing losses 
of key general interest publications for the FDLP: (1) electronic 
information dissemination via agency web sites without notification to 
the FDLP; (2) decreasing compliance with statutory requirements for 
agencies to print through GPO or to provide copies of publications not 
printed through GPO to the FDLP; (3) the increasing trend for agencies 
to establish exclusive arrangements with private sector entities that 
place copyright or copyright-like restrictions on the products involved 
in such agreements; and (4) increasing use by agencies of language in 
44 U.S.C. 1903 that permits publications to be excluded from the FDLP 
if they are ``so-called cooperative publications which must necessarily 
be sold in order to be self-sustaining.''
    Fugitive documents defeat the purpose of the FDLP and undermine the 
public's ability to access information critical to their lives. 
Historically, the FDLP has relied heavily on the ability of the Program 
to automatically obtain material as it is produced or procured through 
GPO. With the growing emphasis on electronic dissemination, and 
decreasing compliance with statutory requirements for agencies to use 
GPO, identifying and obtaining information for the FDLP is becoming 
increasingly difficult.
    FDLP Compliance Issues.--When an agency uses GPO for production or 
procurement of a publication (defined in section 1901 as 
``informational matter which is published as an individual document at 
Government expense, or as required by law''), GPO ensures that 
distribution is made through our own processes. If a publication is 
produced elsewhere than GPO, the publishing agency is required to 
supply the requisite number of copies to GPO, at its own expense, for 
dissemination to depositories.
    GPO is confronted with two kinds of compliance issues today. First, 
a number of Federal agencies are seeking new methods of printing 
information gathered at public expense. These methods do not involve 
GPO and, as a result, they impede or prevent effective public access to 
critical Government information. I have reported previously to Congress 
on several such instances, including such publications as Big Emerging 
Markets, U.S. Export Administration Regulations, and U.S. Industrial 
Outlook.
    Other efforts are ongoing by agencies that often involve allowing 
third parties to copyright the information or impose copyright-like 
restrictions on it. The result is that the information does not get 
produced or procured through GPO, and the agencies do not provide 
copies to GPO for distribution to depositories.
    A recent example of this is the Journal of the National Cancer 
Institute. For many years the National Cancer Institute (NCI) procured 
its Journal (JNCI), a major publication devoted to cancer research, 
through GPO and it was distributed to depository libraries. In January 
1997, however, the NCI notified GPO that it had signed a Cooperative 
Research and Development Agreement (CRDA) with Oxford University Press, 
under which ``the name of the publication will be retained, and Oxford 
will assume all responsibility for printing the Journal and will hold 
copyright to the Journal's content''. According to the letter received 
by GPO, the JNCI ``has been privatized, and effective January 1, 1997, 
ownership of the Journal will be transferred from the National Cancer 
Institute to Oxford University Press-USA, Inc.'' The letter also stated 
that ``[b]ecause the Journal is no longer a publication of the U.S. 
Government, copies of the Journal and JNCI Monographs will not be 
provided to the Depository Library Program nor will sales copies be 
available at the GPO bookstore.'' At the time of this notification, GPO 
was receiving 827 copies of each issue of JNCI for distribution to 
depository libraries. We have no further information on the terms and 
conditions of the CRDA between NCI and Oxford University Press because 
the NCI's legal counsel has informed us that the details of the CRDA 
are not public information.
    The second compliance issue involves publications in electronic 
formats. Several agencies have taken the position that Title 44 does 
not apply to Government information in electronic formats. OMB's 
Circular No. A-130, ``Management of Federal Information Resources,'' 
requires agencies to cooperate with GPO for print publications, but 
only ``encourages'' cooperation for publications in electronic formats 
and provides agencies with a rationale for exempting electronic 
information products from the FDLP based on cost.
    An example of this is our recent experience with the NTIS Order Now 
CD-ROM. NTIS recently converted its printed sales catalog to a 
quarterly CD-ROM subscription called Order Now. NTIS did not procure 
this product through GPO. Although NTIS makes this catalog available 
online on a no-fee basis to depository libraries, the online product 
does not include the two years' worth of abstracts and indexes 
available on the CD-ROM. This makes the CD-ROM more complete and useful 
than either the online or former printed products. NTIS expressed a 
willingness to make the CD-ROM available as a benefit to the public and 
as a promotional tool for their sales program, provided GPO pays the 
retrieval software licensing fees. After due consideration, it was 
decided that the Superintendent of Documents could not pay these fees, 
and that since the CD-ROM was not procured through GPO, NTIS was 
obligated to provide copies to the FDLP under section 1903 of Title 44. 
In a letter to the Staff Director of the JCP concerning this matter, 
NTIS made the statement that ``[a]t no time did we consider this to be 
a question of compliance with Title 44,'' apparently based on the fact 
that the publication in question is electronic rather than print. 
However, without the NTIS Order Now CD-ROM, it will be more expensive 
for depository libraries to locate and purchase scientific and 
technical documents. More broadly, such attempts to evade the 
requirements of Title 44 represent a serious challenge to free public 
access to Government information through the FDLP.
    We believe that the spirit and intent of the law since the FDLP's 
founding in 1813 has been to make information produced at taxpayer 
expense available to the public through depository libraries regardless 
of format. In a 1990 opinion, GPO's General Counsel stated, ``[i]t is 
our opinion that Congress did not intend to carve a distinction based 
upon the technology employed to disseminate the Government publication 
and that Title 44 U.S.C. Sec. 1903 governs regardless of whether the 
publication is in the traditional ink-on-paper format or some new 
medium.'' Congress itself created GPO Access in large part to provide 
for online dissemination of Government information to depositories. 
While we make every effort to work closely with agencies to ensure the 
inclusion of their information products in the FDLP in all formats, the 
continuing agency practice of not providing electronic products to the 
FDLP is creating gaps in information availability to the public.
    Transitioning the FDLP to a More Electronic Basis.--In spite of the 
contention that electronic information products are not required to be 
included in the FDLP, Congress has encouraged us to transition the 
Program to a more electronic basis. The Legislative Branch 
Appropriations Act for Fiscal Year 1996 required GPO to conduct a study 
to identify measures necessary for a successful transition to a more 
electronic FDLP. In response to direction from Congress for broad 
consultation, GPO formed a group comprising representatives from GPO, 
the JCP, the Senate and House Appropriations Committees, the Senate 
Rules and Administration Committee, the House Oversight Committee, the 
House Government Reform and Oversight Committee, OMB, the Congressional 
Research Service of the Library of Congress, the National Archives and 
Records Administration, Federal publishing agencies, the Administrative 
Office of the U.S. Courts, the depository library community, and 
others. The final report, titled ``Study to Identify Measures Necessary 
for a Successful Transition to a More Electronic Federal Depository 
Library Program,'' was submitted to Congress in June 1996.
    Study Conclusions.--Two major conclusions emerged from the study. 
The first was strong support for retaining the authority for a broad-
based public information program in the legislative branch. High value 
was placed on the presence of the FDLP in every congressional district 
to directly serve the public in local library settings.
    There was also strong support for having a single entity in the 
Superintendent of Documents to coordinate library-related information 
dissemination activities. The depository library community has 
consistently affirmed the utility and cost-effectiveness of a ``one 
stop shopping'' approach to acquiring Government information. The study 
participants agreed that it is not only possible but desirable to 
increase the dissemination of electronic information to depository 
libraries within the overall structure of current law and program 
operations, and that having a central entity to assist libraries and 
the public in accessing electronic Government information in a 
distributed environment is more vital now than ever.
    Strategic Plan.--The Strategic Plan included in the final Study 
Report proposes a gradual transition during the period fiscal year 
1996-2001. Under the plan, the FDLP will provide official Government 
information products in a variety of formats to depository libraries. 
Incorporating electronic Government information into the FDLP will 
augment the traditional distribution of tangible products with 
connections to Government electronic information services such as 
Internet sites. Electronic information will be accessible to the public 
directly or through depository libraries from a system of Government 
electronic information services administered by GPO, other Government 
agencies, or institutions acting as agents for the Government. The FDLP 
will identify and connect users to electronic information services of 
other agencies or, when appropriate, obtain electronic source files 
from agencies for mounting on GPO Access. Tangible Government 
information products will be distributed to libraries, including CD-
ROM's, diskettes, paper, or microfiche, as appropriate to the needs of 
users and intended usage.
    The FDLP will ensure that electronic Government information 
products are maintained for permanent public access, in the same spirit 
in which regional depositories provide permanent access to print 
products. Effective public use of Government information, especially in 
the less-structured environment of the Internet, also depends on the 
ability of users to identify and locate the desired information. 
Through continuation of its cataloging services, and the development of 
``Pathway'' information locator services, the FDLP will meet this need.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement, and I would be pleased to answer any questions you 
may have.

                          Financial management

    Senator Bennett. Thank you very much. We on the committee 
want to commend the GPO for your ongoing efforts to improve 
financial management operations. We understand you now produce 
financial statements that can be audited and that for years you 
have received a clean opinion on those statements.
    Mr. DiMario. Yes, sir.
    Senator Bennett. Further, you have committed yourself to 
comply with the goals and objectives of the Legislative Branch 
Financial Managers Council, and that includes adopting the 
Federal Government's accounting and internal control financial 
system standards. That will help us in our goal to get 
auditable statements, consolidated financial statements for the 
entire legislative branch. It is a continuing source of 
amazement and frustration to me, coming from the business 
community to Government, to discover that there are no 
auditable financial statements in many areas of Congress.
    We hope to continue our good working relationship with you 
and in conjunction with the Joint Committee on Printing, your 
authorizing committee, to see if we can find other ways to 
further refine the internal operations.

                           Year 2000 problem

    You were here in the room and heard our conversation about 
the year 2000 problem with the Library of Congress. As Chairman 
Stevens said, the year 2000 problem basically divides the old 
computer people with programs written in Cobol from the new 
computer people. The new computer people say it's no problem at 
all, we can fix it in a matter of an hour or so. But the old 
computer people say hundreds of millions of dollars and 2 years 
is not enough.
    How many of your computer systems are Cobol dependent and, 
therefore, subject to panic? Do you anticipate any specific 
dollar figure to remedy this?
    Mr. DiMario. At this point in time, we are in the process 
of working on the problem. We have compiled an inventory of 
computer applications which will be affected by the turn of the 
century. Some of our applications and data bases have been 
identified for total replacement while others will be or are 
being modified to accommodate the date problem.
    GPO has acquired two off-the-shelf software packages to 
facilitate the changes and these packages have worked well with 
Cobol applications. However, we are still looking for a good 
package that will assist us in identifying changes to many of 
our older Cobol ALC programs, and natural programming code of 
Software AG's ADABASE data base management system, that need to 
be changed.
    We are doing all of that. But we are also changing the way 
we do business internally. We are planning to implement a 
client server environment utilizing Oracle and NT tools, and we 
are designing relational tables and populating them under 
Oracle and NT. As this effort progresses, we are moving toward 
data warehousing for the entire GPO.
    So at this point in time, we do not foresee major year 2000 
dollar impacts, but we are attempting to do it incrementally 
before that point in time so that we avoid those kinds of 
problems.
    Senator Bennett. How much money in the fiscal year 1998 
budget request is tied to this problem, the year 2000 problem?
    Mr. Guy. Our budget request is for the services that we 
provide to Congress, largely. Our other operations are funded 
through reimbursements from the agencies that we support and 
from sales to the public. So we would be recovering costs tied 
to the year 2000 problem indirectly through our overhead 
charges, which are allocated to all activities.
    Senator Bennett. But you don't have a single number in the 
budget for that?
    Mr. DiMario. No, sir.
    What we have is an appropriation request for congressional 
printing and binding. We are in the process currently and have 
acquired a specific server to accommodate the legislative 
branch, but we are absorbing those costs within the existing 
congressional printing and binding funding.

                         Revolving fund losses

    Senator Bennett. Your workload has been declining in recent 
years. You have been continually incurring losses--$21.8 
million in fiscal year 1994, $3 million in fiscal year 1995, 
$16.9 million in fiscal year 1996, and you are projecting 
losses for 1997. Do you have any plans to avoid losses in 1998?
    Mr. DiMario. We are continuing to reduce our costs and to 
attempt to avoid losses in that way. But the losses are 
generated largely because we do not have all the work flowing 
into the office that we had anticipated in a given time.
    As an example, we anticipated for this particular session 
of Congress a greater amount of work coming to us from Congress 
than we have received.
    Senator Bennett. Do we solve your problem by staying in 
later at night and giving bigger speeches?
    Mr. DiMario. Yes; to some degree. [Laughter.]
    Senator Bennett. But that may be self-defeating.
    Mr. DiMario. The funding that we request is based on our 
anticipated workload.
    Under our system of charges and accounting, if we do not 
have the work, then we will show a loss. What that means is 
that we will fund the activities in GPO not through the 
appropriation but through retained earnings that we have from 
previous years. That becomes a subsidy.
    So it is not a loss in the sense of going beyond an 
appropriation or something of that sort. We are actually under 
the appropriation and we have come back and accommodated that 
at the end of certain fiscal years by adjusting reimbursements 
to actual cost.
    With respect to fiscal year 1996, I might point out that of 
the $16.9 million that was the loss shown, $10 million of that 
was in our sales program. Mr. Kelley, being well aware of that 
problem, has attempted through a new planning structure to 
relieve that situation. We believe we will be in a break-even 
situation or slightly profitable one within the sales program 
by the implementation of this program. To a large degree, it 
focuses on controlling inventory. We have had excess inventory 
and we are trying to reduce the inventory, and we are trying a 
new procedure to accommodate that.
    Wayne may want to add to this.
    Senator Dorgan. If I may ask you, what kind of retainer 
exists that you can call upon? You indicated that when you 
exercise an operating loss, you can call upon some retained 
earnings.
    I'm sorry to interrupt, Mr. Chairman.
    Senator Bennett. Not at all.
    Mr. DiMario. We operate through a revolving fund, and when 
we have work, we have to reimburse the revolving fund based on 
the work that we do. The revolving fund over a period of time, 
40 years, had built up a reserve.
    Senator Dorgan. How much of that reserve now exists? I 
guess that was my question.
    Mr. Guy. The retained earnings is $85 million. That is used 
for several purposes. It is used for working capital, 
primarily, to fund the operation of the Government Printing 
Office. We have revenues of about $850 million a year and we 
need a certain amount of working capital because we produce the 
work, provide the services, and then we get paid.
    So most of that is tied up and necessary for the operation.

                           Billing practices

    Senator Bennett. I just have one further question relating 
to your response to Senator Dorgan.
    Under current practice, you have up to 3 years in which to 
bill for work. I found that a little surprising, that you can 
work until 3 years later to send a bill.
    Do you have a reason for this long billing period and does 
anybody complain about it?
    Just help me understand that, please.
    Mr. DiMario. There are complaints and we are attempting to 
deal with that issue by working out firm pricing arrangements 
with the agencies.
    But as a general rule, when agencies come to us or the 
Congress comes, if we are procuring work--and we procure about 
75 percent of our work--in the end we are dependent on knowing 
what that specific contract calls for.
    Senator Bennett. When you say you are procuring your work, 
what does that mean?
    Mr. DiMario. We buy the work through private sector 
contracts. We enter into contracts with contractors around the 
United States.
    Senator Bennett. My verb for that would be that we 
subcontract, not that we procure.
    Mr. DiMario. Yes, sir; we subcontract. If we were in the 
private sector, that is precisely what we would call it. We are 
subcontracting to these individuals and we are acting as a 
contractor to the agencies.
    Senator Bennett. OK.
    Mr. DiMario. In this process, we are dependent on the 
contractors providing invoices to us for their work under the 
contracts that are let. We, in turn, have to pay those 
contractors who may go back and forth.
    As a general rule, we do not bill the agency until the 
contractor is paid. We have started the practice--and it is 
totally within the law--because we have come to be cash short 
at times in this revolving fund, of advance billing the 
agencies. This provides us the money up front for the product 
that we are going to provide that we are billing for.
    That is accommodating the situation to a large degree. But 
there has been this past history of not billing for a 
substantial period of time. We have worked actively with our 
largest customer, the Department of Defense, to work on an 
acceptable structure in that regard.
    Do you have anything to add to that?
    Mr. Guy. Well, most of the work is billed promptly.
    Mr. DiMario. Right.
    Mr. Guy. Some of the jobs do take a while to complete and 
in some cases we will bill in advance. In other cases, we will 
wait until the job is actually delivered to the customer before 
giving the customer a final bill.
    Senator Bennett. Do you have any further questions?
    Senator Dorgan. Nothing further. Thank you.
    Senator Bennett. Thank you very much.
    Mr. DiMario. Thank you, Mr. Chairman.

                     Additional committee questions

    Senator Bennett. We appreciate your coming in. We 
appreciate all the hard work you do.
    Mr. DiMario. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
           revolving fund/gpo year end losses/printing rates
    Question. Section 309 of Title 44 requires that the revolving fund 
be reimbursed for the full cost of services. The GPO revolving fund has 
sustained losses since fiscal year 1991. For fiscal year 1994 through 
fiscal year 1996, the losses were:

GPO Revolving Fund

                        [In millions of dollars]

                                                            Surplus/loss

Fiscal year 1994 actual.......................................     -21.8
Fiscal year 1995 actual.......................................      -3.0
Fiscal year 1996 actual....................................... \1\ -16.9
Fiscal year 1997 est..........................................         ?

\1\ Increase in printing rates went into effect in May 1996.

    The fiscal year 1996 revolving fund sustained a loss of $16.9 
million, more than five times the fiscal year 1995 loss of $3 million. 
How much of the losses for 1994, 1995, and 1996 are generated by 
congressional printing, executive branch work, and judicial branch 
work? What steps has GPO taken to prevent similar losses in fiscal year 
1997?
    Answer. The estimated distribution of the losses follows:

----------------------------------------------------------------------------------------------------------------
                                                                      1994             1995            1996     
----------------------------------------------------------------------------------------------------------------
Legislative Branch:                                                                                             
    Congressional Printing and Binding........................     ($8,500,000)     ($3,000,000)  ..............
    Other Legislative Branch Agencies.........................      (1,478,730)        (235,208)      ($614,046)
                                                               -------------------------------------------------
      Subtotal, Legislative Branch............................      (9,978,730)      (3,235,208)       (614,046)
                                                               =================================================
Judicial Branch...............................................         (86,893)         (14,071)        (33,175)
Executive Branch..............................................     (18,158,377)      (2,988,721)     (7,015,779)
                                                               -------------------------------------------------
      Subtotal Printing and Binding...........................     (28,224,000)      (6,238,000)     (7,663,000)
                                                               =================================================
SuDocs........................................................       6,450,000        3,213,000      (9,248,000)
                                                               -------------------------------------------------
      Total...................................................     (21,774,000)      (3,025,000)    (16,911,000)
----------------------------------------------------------------------------------------------------------------

    Printing and Binding revolving fund losses were allocated to the 
branches of government indirectly based on the proportion of total work 
billed to each. These losses were the result of several factors. The 
primary cause of the under recovery in Printing and Binding was that 
rates were frozen since 1990. While cost savings were being achieved 
through reductions in the workforce and other measures, significant 
cost increases had to be absorbed, such as pay raises and supplier 
price increases. Workloads also decreased.
    Section 309(b) of Title 44 requires that the revolving fund be 
reimbursed for the cost of all services and supplies furnished. In a 
letter to the Public Printer, dated April 16, 1996, Chairman Thomas 
indicated that the Joint Committee on Printing (JCP) expects the Public 
Printer to comply with the provisions of section 309.
    Unliquidated obligations, totaling $6.2 million, reimbursed the 
fund for the full cost of Congressional work in fiscal year 1996. Since 
rates were not adjusted until May of 1996, the full cost of executive 
agency work could not be recovered from them because they did not 
obligate the necessary amounts through requisitions. During fiscal year 
1994 and fiscal year 1995, CP&B appropriation accounts also incurred 
costs which significantly exceeded reimbursements to the fund. The 
unliquidated obligations, totaling $11.5 million, were reimbursed to 
the fund during fiscal year 1997. In addition, $1.3 million was 
reimbursed to the fund during fiscal year 1997 from S&E appropriation 
accounts for under recovered cost during fiscal year 1994-1996. Losses 
which were not reimbursed have been financed through reductions in 
retained earnings in the revolving fund.
    In order to prevent similar losses in fiscal year 1997, GPO is 
reducing staffing levels, investing in technology, and managing rates. 
However, many factors affecting workload and operating costs are beyond 
the control of GPO. Unless workload increases substantially and GPO is 
able to serve a larger share of the Government's printing requirements, 
it may not be possible to avoid losses in fiscal year 1997.
    Question. At the beginning of fiscal year 1997, what was the GPO 
estimate of the revolving fund revenues and expenses? Was it revised at 
the end of the second quarter? If so, what were the adjusted estimates?
    Answer. At the beginning of fiscal year 1997, GPO budgeted revenue 
of $843 million and total expenses of $840 million. Through the first 
half of fiscal year 1997, revenue totaled $403 million and expenses 
totaled $408 million. This compares to total revenue of $443 million 
and expenses of $453 million for the first six months of fiscal year 
1996. Based on experience to date, revenue is now expected to fall 
significantly short of the budgeted level. Workload volume has fallen 
short of projections.
    Question. Does GPO now estimate the revolving fund will sustain a 
loss for fiscal year 1997? If so, how much of a loss?
    Answer. In order for losses to be avoided, workloads will have to 
increase significantly. GPO cannot control the level of work requested 
by customers. If workloads do not increase substantially, price 
increases will be necessary. Congressional workloads are expected to 
increase substantially for the remainder of the year. Agency workloads 
will largely depend on compliance with the requirement to procure 
printing through GPO. A significant volume of publications that were 
previously printed through GPO and sold through the Superintendent of 
Documents Sales Program are being diverted to other agencies, such as 
NTIS, UNICOR, GSA and DAPS, or being ``privatized''.
                   depository library transition plan
    Question. By the end of fiscal year 1998 (assuming funding at or 
near the fiscal year 1996 level), GPO plans to provide about 50 percent 
of FDLP information electronically. In his Senate testimony last year 
on the fiscal year 1997 budget request and in his House testimony this 
February on the fiscal year 1998 budget request, Mr. DiMario made the 
following statement: ``Significant progress toward a more electronic 
FDLP can be made by the end of fiscal year 1998 with essentially flat 
funding. For the out years, fiscal year 1999 and beyond, there are too 
many variables involved to accurately project program funding 
requirements at this time.''
    In the GPO Budget Justification for fiscal year 1998 on page III-6 
for 2h (Workload--Misc. Services), it states that the increase 
($1,141,000) represents additional expenses needed to transfer the 
Federal Depository Library Program to an electronic format. Does GPO 
consider this essentially flat funding?
    Answer. The request is essentially flat compared to the amount 
requested for fiscal year 1997, and compared to fiscal year 1996 and 
fiscal year 1995 appropriations. The fiscal year 1998 request of 
$30,477,000 is $350,000 less than what was initially requested for 
fiscal year 1997; however, it is $1.4 million more than what was 
approved for fiscal year 1997. The request is essentially flat compared 
to the $30.3 million appropriated for fiscal year 1996, and the $31.6 
million appropriated for fiscal year 1995 (net of a $600,000 
rescission). These numbers have not been adjusted for inflation.
    As the program transitions from ink-paper to electronic formats, 
the workload mix is changing. This will cause some object classes, like 
``Other Services,'' to increase and others, like printing, to decrease. 
A major portion of the fiscal year 1998 funding request is for ``Other 
Services'' in support of the transition to a more electronic Federal 
Depository Library Program, including source data file acquisition, 
preparation, and loading of agency databases into the GPO Access 
system.
    Question. When will GPO be able to project program funding 
requirements for fiscal year 1999, fiscal year 2000 and fiscal year 
2001?
    Answer. GPO will submit funding requests for the Federal Depository 
Library Program for fiscal year 1999 to the Congress in December 1997. 
We anticipate an overall S&E funding request in the $30 million range 
for fiscal year 1999. However, in this period of rapid change there are 
too many variables, such as the initiatives to amend 44 U.S.C., changes 
in agency printing practices, technological developments, and the like, 
to allow any early projections for the fiscal year 2000 and fiscal year 
2001 requests to be more than purely speculative.
    Question. All Federal depositories are now expected to offer public 
users access to computer work stations with a graphical user interface, 
CD-ROM capability, Internet connections, and the ability to access 
Government information via the World Wide Web. However, as of 1995 
nearly 25 percent of the depository libraries lacked Internet access 
for public patrons.
    What is the status of this directive? Have there been any new 
developments or changes in its implementation?
    Answer. For fiscal year 1997, House Report 104-657 provided a 
$50,000 reduction in the Salaries and Expenses Appropriation and a 
$1,050,000 reduction in the Congressional Printing and Binding 
Appropriation by converting the Bound Congressional Record to CD-ROM. 
The Report also directed GPO to produce and distribute the permanent 
Congressional Record at the direction of the Joint Committee on 
Printing. Accordingly, correspondence was sent to the Chairman, JCP on 
March 28, 1997, asking for the distribution requirements of the Record 
both in CD-ROM and paper. We have not yet received a response.
    GPO has been advised of very serious concerns within the depository 
library community about the discontinuation of the paper format bound 
Congressional Record in the Federal Depository Library Program (FDLP). 
Depository librarians view the bound Congressional Record as an 
essential reference resource which should be maintained in the FDLP in 
paper format. There are also legitimate questions about the permanency 
of the CD-ROM format, from an archival medial standpoint, as well as 
issues concerning computer hardware and software obsolescence. The 
depository library community considers the permanent Congressional 
Record one of the core documents of our democracy, one which should, at 
a minimum, be preserved in paper format for the free use of the public 
in at least one library in every state.
           house clerk's proposed document management system
    Question. In Mr. DiMario's testimony on February 11, 1997, before 
the House Legislative Subcommittee, he voiced several serious concerns 
about this plan. During his appearance, Mr. DiMario was advised to 
contact the House Clerk and request a meeting since the two of them had 
not previously discussed the earlier report or the Clerk's proposed 
Document Management Plan.
    Has Mr. DiMario met with the House Clerk yet? If so, what was the 
outcome?
    Answer. Yes, Mr. DiMario recently had a cordial meeting with the 
House Clerk to discuss the House's proposed document management system. 
A new channel of communications has been opened. The Public Printer 
pledged support for the Clerk's efforts. Over the past three decades, 
GPO has built a core capability for electronic information and 
communications services to support Congress' information needs. Today, 
GPO has state-of-the-art electronic systems characterized by a complex 
of direct electronic linkages via CAPNET to a variety of congressional 
offices on Capitol Hill for data interchange. Once considered only the 
by-product of the print production process, digitized electronic 
databases of congressional information are now the primary product: 
they are the databases from which the official versions of documents 
are produced in print, CD-ROM, and online access formats made available 
to the public through GPO Access as well as other systems such as the 
Library of Congress's THOMAS information system.
              upcoming rules committee hearing on title 44
    Question. The Rules Committee has scheduled hearings on Title 44 
U.S.C. for April 24 and April 30, 1997. The focus of the hearings will 
be the reform of Title 44 U.S.C. and the implementation of means to 
assure that the American public retains access to information created 
by the Federal Government at taxpayer expense.
    Has GPO, or any other group, conducted a study or review to 
determine why GPO customers are seeking alternative printing options 
which has resulted in GPO's reduced customer base. For example, when 
was the last evaluation conducted of customer satisfaction with the GPO 
work product in terms of timeliness, quality, security, and economy in 
printing?
    Answer. The vast majority of GPO's customers are not actively 
seeking alternative printing options. Misunderstanding resulting from 
statements in the National Performance Review, which referred to GPO as 
a ``monopoly'', and a controversial opinion by the Justice Department's 
Office of Legal Council, which characterized GPO as having ``extensive 
control'' over executive branch printing, have created an ambiguous 
environment regarding administration policy and direction. This has 
encouraged agencies to seek alternatives.
    There has been misinformation generated over the last couple of 
years by groups such as the National Technical Information Service 
(NTIS) and the General Services Administration (GSA) regarding Title 44 
and the value of the services that GPO provides. This, and claims that 
these groups can provide better prices and a less restrictive printing 
environment, has resulted in much uncertainty and confusion, which has 
caused some customers to question the need to come to GPO. Some 
publications previously printed and sold through GPO have been diverted 
to other agencies.
    There has been an increasing tendency for some agencies to attempt 
to benefit financially from the value of the information they create at 
taxpayer expense, through such means as copyright-like restrictions. 
There has been a tendency for certain agencies to occasionally 
overbuild in-house printing capacity; and, to contract independently 
for printing, at higher cost. GPO's centralized printing procurement 
contracts allow the government to aggregate demand, promote broad 
competition, and obtain the best prices. GPO also offers performance 
control and other support services that would be too expensive for each 
agency to duplicate.
    The last survey of customer satisfaction was performed by GPO's 
Office of the Inspector General in 1995. A comprehensive survey of 
GPO's performance, including timeliness, quality, and economy was sent 
to 111 of GPO's Executive Branch agency customers. The IG's final 
report, ``Results of the Office of Inspector General Survey of Customer 
Satisfaction in the Executive Branch,'' was issued in August 1995. 
During the survey period, the customer agencies rated GPO's service and 
performance to be satisfactory or better. Results from interviews 
conducted with GPO's ten largest billing Executive Branch agencies 
indicated that, despite some areas of concern, GPO performs a valuable 
service for them. The GPO entities involved have taken actions to 
investigate and improve these problem areas.
    In 1994, Customer Services surveyed customers to solicit feedback 
regarding the success of GPO's efforts to improve total operations and 
to measure how its customers perceived the quality of service they were 
receiving. Surveys were distributed each quarter to approximately one-
fourth of the customer base, comprising a mix of large, medium, and 
small customers (as determined by the most recent year-end billings).
    The surveys were compiled and analyzed each quarter. Although the 
results of each survey indicated general overall satisfaction, any 
problem areas indicated were examined and brought to the attention of 
the applicable GPO area. Quarterly survey results were then compared to 
gauge the success of overall efforts to improve service. The results of 
each survey were provided to upper management and applicable Customer 
Services personnel.
    Because of discussions with OMB, the possible rewriting of Title 
44, and the comprehensive nature of the IG's 1995 survey, we have 
refrained from taking any additional formal customer satisfaction 
surveys at this time. While we continue to monitor customer 
satisfaction on a daily basis, we will resume the formal surveys when 
appropriate. A GAO survey of Federal Agencies in 1987 found that the 
vast majority of agencies were satisfied with GPO services.
    GPO's workload has declined largely because agency printing budgets 
have been seriously impacted by reductions in appropriations. There has 
been a shift in format from paper to electronics. This has resulted in 
a substantial decrease in both the number and size of orders. GPO's 
printing procurement and information dissemination programs continue to 
offer the best value and fulfill important public policy goals.
                        gpo 1998 budget request
    Question. For fiscal year 1998 GPO is requesting $114.5 million for 
those programs that require annual appropriations directly to GPO. This 
is an increase of $3.8 million, or 3.4 percent, over the funding 
approved for fiscal year 1997. The request includes $84 million for the 
Congressional Printing and Binding Appropriation and $30.5 million for 
the Salaries and Expenses Appropriation of the Superintendent of 
Documents. According to GPO, the increase is due primarily to general 
price level increases, although for congressional printing there are 
also workload increases in various product categories that GPO states 
are typical for a second session of Congress.
    The following budget items show significant changes to the budget 
base.
  --GPO projects more than a 16.7 percent increase in the number of 
        copies of the Daily Record over the 1997 level.
  --GPO projects a 50 percent increase in the number of copies of 
        Business and Committee Calendars.
  --GPO projects a 23.2 percent increase in the number of Committee 
        Reports.
    For the Daily Record, the Business and Committee Calendars, and 
Committee Reports, what was the percentage increase in production for 
the second session over the first for the 101st, 102nd, 103rd and 104th 
Congresses?
    Answer. The percentage increase in the Second Session production 
(pages) over the the First Session production for each Congress is 
shown in the following table:

------------------------------------------------------------------------
                                               Congress                 
                             -------------------------------------------
                                101st       102d       103d      104th  
------------------------------------------------------------------------
Daily Record................       26.3       14.6       25.0       24.1
Business and Committee                                                  
 Calendars..................       43.2      101.8       52.6       50.9
Committee Reports...........       11.8       50.5       22.6       38.6
------------------------------------------------------------------------

                               personnel
    Question. GPO has an FTE limitation in its appropriations language. 
For the past two years it has been stated in terms of an end-of-the-
year staff on board level. For fiscal year 1997 the target is 3,600. 
GPO projects it will be at 3,550 by the end of fiscal year 1998. During 
Mr. DiMario's testimony this February before the House Legislative 
Appropriations Subcommittee, he stated that GPO currently had 3,674 on 
board.
    What is your current on board staff level? Do you still expect to 
reach a level of 3,600 on board by September 30, 1997?
    Answer. As of April 30, 1997, the total on board level was 3,645 
employees and the rate of FTE utilization was 3,578 for the month of 
April. The appropriations language refers to FTE's (Full Time 
Equivalent) employment at the end of the fiscal year. FTE's are 
normally less than on board employment because some employees take 
leave without pay and some employees work part-time. Only paid 
employment is counted in FTE's. GPO expects to comply with the ceiling 
established by the appropriations language and, based on April data, is 
already below that level.
    Question. At a previous Joint Committee on Printing hearing in 
1995, several questions were asked about GPO supervisory staff levels. 
At the time, Mr. DiMario stated that regarding senior level super 
grades, in 1992 there were 32 and in 1995 there were 22 (a 31.3 percent 
reduction). However, in the fiscal year 1998 Budget Justification (page 
V-3), a Summary of Employees by Organization indicates the following:

------------------------------------------------------------------------
                                                               Percent  
           Organization             1993 Staff   1996 Staff    Decrease 
------------------------------------------------------------------------
Executive Offices................          102          102  ...........
Office of Administration.........          843          690          -18
Procurement Services.............          775          588          -24
Production Services..............        1,921        1,500          -22
Customer Services................          232          200          -14
Superintendent of Documents......          912          719          -21
                                  --------------------------------------
      Grand Total................        4,785        3,799          -21
------------------------------------------------------------------------

    How can both of these statistics be accurate?
    Answer. The above table does not identify the number of senior 
level employees at GPO, but rather is a summary of total employees by 
organization at the end of each fiscal year. The numbers stated by the 
Public Printer at the hearing were accurate. As of April 21, 1997, 
there were 19 senior level employees on board.
    Question. Not all of the segments at GPO have shared the burden of 
downsizing, and those which did, did not share the burden equally. 
Please explain.
    Answer. The Executive Offices for fiscal year 1996 includes 10 
employees returning from OWCP (Office Workers Compensation Program) and 
who have light duty assignments in various office throughout GPO. In 
fiscal year 1993, employees on this category were not reported in the 
Executive Offices total, but instead were included in the organizations 
to which they were assigned for duty.
                          energy conservation
    Question. Last year GPO proposed legislative language to achieve 
energy conservation as part of the Fiscal Year 1997 Legislative Branch 
Appropriations Act. The language was not acted on by Congress.
    Please briefly describe last year's efforts, and the current status 
of this legislation.
    Answer. GPO requested authority to enter into contracts for energy 
conservation services with performance guarantees. These services are 
estimated to have a potential annual savings of $500,000. The savings 
would be used to replace inefficient and worn out air conditioning 
equipment, which is environmentally unsafe, and to upgrade necessary 
electrical equipment. The Architect of the Capitol was provided this 
authority when it was included in the National Energy Conservation 
Policy Act (42 U.S.C. 8287) by Public Law 103-211, dated February 12, 
1994; but, GPO was not included.
    In the last session of Congress, the necessary language was passed 
by the Senate, but was not included in the House-passed version. The 
provision was deleted in conference. GPO was asked to work through the 
House Commerce Committee on the amendment. GPO has been working with 
staff of the Commerce Committee on the request.
         privatizing the congressional record/federal register
    Question. In the House report accompanying GPO's Congressional 
Printing and Binding Appropriation for fiscal year 1997 (H. Rpt. 104-
657, pp. 28-29), GPO is required to conduct a study, using independent 
outside experts, to determine if opportunities exist for outsourcing 
the Congressional Record and the Federal Register. According to Mr. 
DiMario's testimony before the House subcommittee last February, GPO 
recently posted a notice in the Commerce Business Daily.
    When do you expect to award the contract and what is the estimated 
completion date?
    Answer. GPO does not have the authority to procure consulting 
services in excess of $50,000 without the approval of the Joint 
Committee on Printing (JCP), based on a resolution passed by the JCP in 
1987. GPO estimates that the cost of the study could be as much as 
$600,000. In order to comply with House Report 104-663, GPO wrote to 
the Chairman of the JCP requesting approval for the procurement, but 
approval has not been given.
                          by-law distribution
    Question. About 2,190 copies of the Congressional Record are 
distributed without charge to recipients designated by Senators.
    Please provide a copy of the Senate distribution list.
    Answer. The list has been provided to the committee.
         pilot project for online access to committee hearings
    Question. GPO is currently piloting a system for providing online 
access to congressional hearings that will assist House committees in 
fulfilling the recent House rules change requiring online dissemination 
of committee materials.
    Please provide additional information on this project as well as 
the feasibility, benefits and drawbacks of it being adapted to Senate 
Appropriations Committee hearings.
    Answer. A small pilot was initiated in January 1997, involving GPO, 
House Committee on Government Reform and Oversight, House Committee on 
Science, and the Senate Appropriations Committee. Its purpose was to 
explore the feasibility/cost-effectiveness of providing complete 
hearings and committee prints online via GPO Access. The advantage was 
sought to include even submitted material in encapsulated PostScript 
(EPS), to enable citing the online Portable Document Format (PDF) 
version as a facsimile of the official printed version. GPO believes 
that the preferable approach would be for congressional leadership to 
stipulate (with GPO's assistance/participation), standardized data 
structures for submission of data to be included in these publications. 
Such an approach would result in all data being searchable and 
reproducible in a variety of formats. The pilot procedures have already 
been successfully employed and could be continued to make critical 
publications available electronically on an interim basis. The 
procedures necessitate scanning images to arrive at EPS versions that 
sometimes require inordinate amounts of computer disk space and tend to 
exceed some committees' present computer configurations. The pilot is 
expected to determine whether these functions would be performed by 
committees, by GPO, or a combination of both, while providing a basis 
for cost analysis.
    In addition to this pilot, World Wide Web (WWW) ``home pages'' have 
been incorporated into GPO Access for all House and Senate committees. 
These WWW pages facilitate listings of, and access to, all publications 
processed by the committees through GPO. These pages also include 
extracts from appropriate congressional publications which provide 
access to committees' membership, jurisdiction, and rules of procedure. 
The Uniform Resource Locators (URL's) for these pages can be used by 
committee WWW sites to minimize unnecessary and duplicative processing 
of publication data. Further development of GPO Access was undertaken 
at the request of the Senate Committee on Rules and Administration to 
permit remote WWW sites to link directly to documents resident on GPO's 
servers. The software has been developed and GPO is in the process of 
incorporating unique identifiers within each resident document to 
facilitate its use. A WWW page (http://www.access.gpo.gov/getdoc.htm) 
is under development to explain how to establish links. This page 
describes the HTML coding necessary to link directly to documents 
resident on GPO's WAIS Servers. HTML code from these pages can be 
copied to remote web sites (such as the House or Senate), to allow 
direct linking to all documents resident on GPO's WAIS servers. Two 
different CGI scripting interfaces are described: (1) a text link, (2) 
a graphic button. External sites desiring to link to a specific 
document on GPO's servers may choose either of the two interfaces. This 
method can be used for linking to both text and PDF documents within 
multi-document databases as well as linking to text and PDF versions of 
single-document databases.
               gpo long-range planning for the year 2000
    Question. In the GPO 1998 budget request, long-range planning for 
increased printing requests for the year 2000 is not addressed. Such an 
increase is likely in view of the fact that in 1989 the Bicentennial 
Commission ordered 3.7 million pocket-sized copies of the Constitution.
    Please describe any long-range planning which GPO has done 
regarding: (a) printing increases due to the year 2000, (b) conversion 
of computer systems for the year 2000.
    Answer. Regarding printing increases, GPO has requested input from 
Congressional offices. As the Government printer, GPO does not usually 
suggest to the Congress or Agencies what to print. The printer's role 
is to respond to requisitions for printing from the customer source. 
The printer must maintain up-to-date technology which will enable, or 
facilitate economic creation of the desired product. The GPO does 
maintain up-to-date technology or the ability to procure printing 
related commodities providing for economy of scale. GPO's long-range 
planning includes provisions for the continued improvement in the 
performance of our mission.
    Some ideas for printing for the year 2000 would include vehicles 
which could provide for the reproduction and/or creation of some first 
class, high quality, printed products as described below:
  --Produce two special ``Year 2000 Calendar'', one for the House and 
        another for the Senate, as had been printed until a few years 
        ago.
  --Produce an edition of ``The `Capitol'--Year 2000'' which could 
        commemorate the ending of one century and the beginning of 
        another century. This publication is usually printed as a 
        Senate Document.
  --``The Constitution of the United States of America'' and ``Our 
        Flag'' are two other examples of publications which could be 
        provided with a ``Year 2000'' theme. These publications could 
        have wide distribution and would surely provide the recipient 
        with a sense of pride in our Government.
  --The ``Biographical Directory'', ``History of the Committee on Ways 
        and Means'', ``Guide to Former Members Papers, 1789-1987'', 
        ``Bicentennial Publications on House Record'', ``Research Guide 
        to Members Papers at Archives'', ``The U.S. Capitol--a Self 
        Guided Tour'', ``History of the House'', ``Establishment of the 
        House'', and ``Senate Bicentennial Minutes'' are other 
        publications which could be suitably designed for a Year 2000 
        commemoration. These publications and other similar 
        publications were printed to commemorate the Bicentennial of 
        the Congress.
  --Another suggestion is to prepare an electronic data base of the 
        ``Serial Set'' material (House and Senate Documents and 
        Reports) for the past century. This would provide legacy data 
        for on-line research for centuries to come.
    GPO has completed a year 2000 impact assessment on mission critical 
systems. We have compiled an inventory of computer applications which 
will be affected by the turn of the century. Some of our applications 
and databases have been identified for total replacement while others 
will be, or are being, modified to accommodate the date problem. GPO 
has acquired two off-the-shelf software packages to facilitate the 
changes. These packages have worked well with COBOL applications. 
However, we are still looking for a good package that will assist us in 
identifying changes to many of our older COBOL/ALC programs and Natural 
Programming code of the Software AG's ADABASE Database Management 
System that need to be changed. GPO is planning to implement a client/
server environment utilizing ORACLE and NT tools. We are designing 
relational tables and populating them under ORACLE/NT. As this effort 
progresses, it will set up a Data Warehouse for the entire GPO and 
thereby reduce the Year 2000 modification effort for the report 
producing and end-user data access programs. Our goal is to complete 
this effort well in advance and test all modifications before year 
1999. Additionally, we plan to upgrade our mainframe operating system 
from IBM MVS/XA to MVS/ESA, which will be critical to effectively 
transition to the year 2000.
             government performance and results act [grpa]
    Question. Is GPO covered by the GPRA? Please describe any steps GPO 
has taken to comply with the Act?
    Answer. For purposes of the GPRA, ``the term `agency' means an 
Executive agency under Section 105 * * *''. Section 105 of Title 5, 
United States Code, defines the term ``executive agency'' as ``an 
Executive department, a Government corporation, and an independent 
establishment.'' Since GPO does not fall within any of the above 
categories or definitions, we must conclude that it is not subject to 
the provisions of the GPRA.
    Last year, a strategic plan on the Federal Depository Library 
Program was included in the final Study Report, covering the period 
fiscal year 1996-2001. In 1993, GPO developed a comprehensive strategic 
plan, but this has not been updated. GPO has testified frequently 
before various committees of Congress on strategic issues facing the 
agency, most recently in relation to proposals for Title 44 reform. GPO 
has developed performance objectives for priority areas and includes 
them in the annual report.
    Question. In response to questions previously submitted regarding 
the year 2000 computer problem, GPO stated that they have purchased two 
off-the-shelf software packages, they are looking for a third package 
for older equipment, and anticipate completing all testing by fiscal 
year 1999. How much money does GPO expect to spend in fiscal year 1998 
to fix the year 2000 problem?
    Answer. GPO expects to spend about $1 million in fiscal year 1998 
to fix the year 2000 problem. This includes upgrading the mainframe 
computer, certain application programs, and modifications to software.
    Question. The workload at GPO has been declining in recent years. 
At the same time, GPO has been continually incurring losses--$21.8 
million in fiscal year 1994, $3 million in fiscal year 1995, and $16.9 
million in fiscal year 1996 ($7 million if losses from the 
Superintendent of Documents is excluded.) What is GPO projecting for 
losses in fiscal year 1997? Excluding the Superintendent of Documents 
program, how does GPO plan to avoid losses in fiscal year 1998?
    Answer. Losses in fiscal year 1997 through May total $5.9 million, 
primarily in the Materials Handling Operations and Printing 
Procurement. These losses are due to a reduced workload in the Plant 
and a reduction in the volume of work procured for certain agencies, 
such as Treasury and the Postal Service. A reduction in paper prices 
has been a significant factor in losses because GPO is reimbursed 
partially through surcharges based on the cost of paper. GPO's 
objective is to break-even for the remainder of the year, but actual 
results will depend largely on adequate workload levels and a reversal 
of some of the adverse trends cited above. Upcoming Congressional 
recesses could result in temporary workload reductions. Demand is not 
falling in a uniform, predictable manner, but rather fluctuates in a 
general downward trend. In order to avoid losses, controllable costs 
will continue to be reduced. Investments in technology will enable 
continued attrition while allowing services to be improved. Major 
technology investments are the Integrated Processing System in 
Documents, an information network in Printing Procurement, and the 
computer-to-plate system in the Plant. We are expanding electronic 
means and services. Improved compliance by Executive agencies with 
title 44 requirements to utilize GPO programs would increase revenue, 
reduce government-wide costs, and increase the availability of 
government information to the public.
    Question. Under current law and practice, GPO has up to three years 
in which to bill for work. What is the reason for this long billing 
period and what would be required for GPO to be able to bill for work 
within the year the work was performed?
    Answer. GPO generally bills for work after it is completed and 
actual costs are known. Often, jobs are not ready to print at the time 
of requisition, usually because the customer requires additional pre-
press work such as revisions. An example is congressional committee 
hearings where the final production of the hearing record may take 
several months, perhaps overlapping fiscal years. Sometimes commercial 
printers do not bill GPO promptly for the work they perform, which 
delays GPO's billing process.
    The major goals of any change in billing procedure should be to 
reduce administrative cost, simplification, and control. GPO can 
advance-bill an estimated amount, rather than the actual cost, before 
the work is completed. The amount billed would be intended to reimburse 
the complete cost of a job, regardless of when the work is required and 
performed. GPO can work with congressional committees and offices to 
speed up the billing process for their products. The alternative to 
close out all congressional jobs every year, regardless of their 
status, and to reissue new requisitions for uncompleted work annually, 
would impose significant administrative costs on GPO and Congress.
    GPO has made a number of improvements to alleviate the delayed 
billing problem by use of deposit accounts, credit cards, firm pricing, 
and automating some of the billing functions using personal computers. 
Congressional rider billings to agencies are now being processed daily 
rather than after all of the orders for the year are complete. For 
commercially procured work, where billings are not received from the 
printing contractors, GPO estimates the job costs and bills the 
ordering agencies approximately six months after the scheduled delivery 
date. We have also implemented a firm pricing policy which establishes 
the amount to be billed when the order is received. Agencies can 
request that GPO provide a firm price so they can obligate the proper 
amount of money. We honor all firm price quotes regardless of actual 
cost.
    GPO has been encouraging agencies to use the VISA IMPAC credit card 
as a method of payment for printing and binding orders. GPO began 
accepting credit card payments from agencies in May 1994 and the dollar 
volume has steadily increased to about $300,000 per month. Use of the 
credit card coupled with a firm price from GPO reduces the billing and 
collecting cycle time to one day.
    Another payment option that GPO offers is a GPO Deposit Account. 
Under this option, the customer agency deposits an amount of money with 
GPO and places printing and binding orders against these funds. GPO 
reduces the Deposit Account by the cost of the orders and sends the 
ordering agency a statement at the end of each month which includes a 
detailed listing of the print jobs and their actual cost and the 
deposit account balance at the end of the month.
    GPO has been able to offer these new streamlined payment options by 
automating many of the functions involved in the billing and accounting 
processes. The major goal of these initiatives is to reduce the 
accounting staff and paperwork at GPO and throughout the rest of the 
Federal Government, while improving the accuracy and timeliness of 
accounting information. GPO can work with Congress to utilize these 
initiatives to speed up the billing process for congressional products.
    Question. GPO estimated that there was a $9.2 million deficit in 
fiscal year 1996 for the Superintendent of Documents account. Please 
explain why there was a loss and provide details surrounding the 
program GPO plans to implement to avoid future losses in this program.
    Answer. The shutdowns of Federal Government operations during the 
budget impasse and the Government closure in Washington, DC, due to 
inclement weather negatively impacted order and sales activity for 
fiscal year 1996, leading to unanticipated revenue declines. While the 
Sales Program was not closed during the second Government budget 
shutdown, many of our customers nationwide mistakenly believed it was. 
The January 1996 snow storm caused the entire region to shutdown for 
four days, including GPO's telephone order system in Washington, DC, 
and publications shipping facility in Laurel, MD.
    In the latter half of the year a concerted effort was made to 
remove from the inventory all publications considered unsalable, 
resulting in a high unsalable publications expense in fiscal year 1996. 
Several steps aimed at preventing a future build up of unsaleable or 
surplus publications have been taken. These include the establishment 
of new product ordering guidelines and the formation of a team to 
review product requisitions.
    Since the beginning of fiscal year 1997, the sales program has 
taken steps to improve sales and decrease expenses. Sales revenue has 
increased from last year. Several of these projects have already 
resulted in changes that have been fully implemented. Others are 
expected to take longer to implement and produce results.
    Question. In previously submitted questions GPO stated that it 
estimates congressional workloads to increase substantially for the 
remainder of the year. How do you estimate your workload levels?
    Answer. Workload levels are estimated by analyzing the level of 
demand for each category or classification of work for previous years. 
GPO considers such factors as first session year of a Congress; second 
session year of a Congress; Presidential election years; first year of 
Presidential term; second year, etc. Consideration is also given for 
known atypical circumstances. Congressional workload during the first 
quarter of fiscal year 1997 was very low by historical standards. 
Therefore, a return to a more normal workload level was expected to 
result in increased workload. We have seen a significant increase in 
workload over the past several months in some areas.
    Question. In testimony before the Rules Committee this year, it was 
stated that the ``reserves'' are at a critically low level. What is 
considered ``critically low'' and what are the problems associated with 
such a ``low'' level.
    Answer. The minimum acceptable cash balance is $15 million. When 
cash drops to that level, the Comptroller implements GPO's cash 
management plan which requires issuance of partial billings and advance 
billings to GPO's customers. These actions cause processing of 
additional GPO invoices by our customers and in extreme cases could 
cause us to delay paying suppliers until cash is restored to an 
acceptable level.
    GPO spends an average of $3.6 million per day for normal operating 
expenses and plans to spend more than $8 million during the remainder 
of fiscal year 1997 for capital improvements. If cash falls below the 
$15 million minimum, certain expenditures may have to be deferred until 
such time as the cash balance is increased.
    Question. A previous question asked if the revolving fund revenues 
and expenses were revised at the end of the second quarter, and if so, 
what were the adjusted estimates? Your response did not address these 
questions. Was the revolving fund estimate revised at the end of the 
second quarter of fiscal year 1997, and if so what are the revised 
estimates? Based on these revisions, will GPO break even this year? If 
not what further steps is GPO planning to take to break even?
    Answer. At the beginning of fiscal year 1997, GPO budgeted revenue 
of $843 million and total expenses of $840 million, with a net surplus 
of $3 million. These amounts have been included on the Monthly 
Financial Estimates and JCP Financial Package throughout fiscal year 
1997. However, during the second quarter we reassessed the GPO's 
revolving fund financial operations and revised the year-end fiscal 
year 1997 projection from a $3 million surplus to a $.3 million 
surplus. Actual financial results of operations through May of fiscal 
year 1997 are a loss of $5.9 million. These losses are due to reduced 
workload in the Plant, a reduction in the volume of work procured, and 
reduced paper prices. GPO achieved a small net income in the month of 
May and the objective is to break-even for the remainder of the year. 
Actual results will depend largely on adequate workload levels. We are 
continuing to attrit the workforce in an effort to balance this major 
controllable cost with anticipated revenues. GPO management will 
continue to monitor the workload and revenues in the final quarter to 
determine whether additional financial cost control measures become 
necessary.
    Question. In response to a previous question, you state that 
workloads will have to be increased significantly in order for GPO to 
avoid losses. Are there not other steps GPO can take to avoid these 
losses?
    Answer. Financial results are very closely correlated with changes 
in workload levels. Apart from efforts to increase workload, customer 
service, and enhanced services, GPO is reducing costs and investing to 
become more efficient. GPO has achieved significant reductions in 
employment and overtime over the past four years, and continued cost 
reduction is planned. Planned investments focus on the use of 
information and communications technology.
    Question. Does your response to a previous question suggest that 
GPO plans to do more work in-house than it originally planned?
    Answer. Based on experience to date, GPO does not expect in-house 
workload to exceed the level planned, but does expect an increase in 
the remainder of the year over the first four months.
    Question. How will that affect the agency's printing procurement 
program?
    Answer. The increase in plant workload is expected from increased 
customer requirements for core products generally performed in-house, 
not from diverting work usually procured.
    Question. How does the Government Printing Office forecast its 
revenues and expenses? Are they based solely on the previous year's 
level of activity, or is there some other more reliable measurement 
upon which GPO bases its estimates?
    Answer. Revenue, in particular, cannot be forecast with reliability 
because of the many uncontrollable and unpredictable factors involved. 
The following factors are considered in forecasting revenue and 
expense, many of which are largely qualitative in nature:
  --Past trends in workload, including cyclical patterns.
  --The impact of information technology on workload mix.
  --Known or anticipated changes in workload planned by customers.
  --Initiatives that might impact on compliance with title 44.
  --Activities of competing agencies, such as DAPS and NTIS.
  --Economic factors, such as paper prices, and rate adjustments.
  --The impact of capital investments.
  --Projected workforce level.
  --Cost factors, such as wage agreements and supplier price increases.
    Question. It has been suggested that agencies be required to 
prepare an annual printing plan as part of their budget submission. 
Would GPO find this a helpful tool for its internal programming 
purposes? What other uses could GPO find for such a plan? Please 
provide the committee with an outline of the question which should be 
asked in such a planning tool.
    Answer. This would help GPO planning. GPO could assist OMB in the 
technical evaluation of these plans. They could provide information to 
aid the process of determining whether to establish, maintain or expand 
internal capacity or to rely on commercial sources through GPO's 
printing procurement program. GPO can be a resource for availability 
and estimated cost information to aid in this decision making process. 
The following information would be useful:
    How do you estimate prospective printing costs?
  --How are cost saving options considered, including optional 
        production methods, papers, trim sizes, and new technologies?
  --Do you utilize the expertise of the Government Printing Office?
    If your plan includes in-house production,
  --How are costs determined?
  --Do demands fluctuate?
  --How do you balance capacity with demand?
  --How are costs compared with what is available from the private 
        sector?
  --Is the private sector able to provide required service levels? At 
        what cost? How is this determined?
  --Did you utilize the expertise of the Government Printing Office?
  --How do you plan to take advantage of new technologies?
    The Superintendent of Documents would find annual agency printing 
plans a useful tool in tracking down fugitive publications for 
distribution to the Depository Libraries. The Sales Program would find 
these plans helpful in alerting us in advance to new products, changes 
in publication scheduling for recurring products, and the discontinuing 
of existing products. This would be particularly useful for planning 
sales promotions and in forecasting anticipated customer demand. The 
following information would be helpful, if included in the plan:
  --Title of publication or subscription.
  --Expected date of publication.
  --Is publication for in-house use only? If not, what is the Target 
        market for that product?
  --Expected size and binding type if printed.
  --If not printed, then expected alternative format.
  --Planned distribution method; free, Internet only, sales by agency, 
        sales by GPO, Depository Library program, distribution by other 
        second party in government or private industry.
  --Is product to be co-produced and distributed with a private 
        company?
  --Will agency do any advertising prior to making the publication 
        available for distribution?
  --Is publication required to be produced by law?
  --Is publication of public interest or educational value?
    Question. You have forwarded to the Joint Committee on Printing a 
proposal to acquire computer to plate technology. What is benefit of 
that technology?
    Answer. The two major benefits of computer-to-plate technology are: 
(1) the GPO will be able to continue to significantly reduce its 
workforce in areas of the plant directly involved in the printing 
processes; and (2) GPO will retain the capability of delivering a 
comparable volume of quality print products to Congress at reduced 
labor costs, without diminishing its ability to produce electronic 
products. Potential labor cost reductions and the large volume of time-
critical work which can be processed with fewer GPO personnel resources 
insures the cost-effectiveness of this equipment.
    Other benefits:
  --Establish networked, high-speed, fully-automated platemaking 
        capabilities, saving both labor and materials.
  --Greatly reduce the need for negatives and manual imposition, 
        thereby eliminating redundant images of the same data, as well 
        as several steps in the production process.
  --Greatly reduce film and chemical disposal/recycling and 
        environmental concerns.
  --Greatly reduce film and plate handling and the corresponding 
        damage/spoilage.
  --Greatly reduce film contact problems due to the elimination of 
        film.
  --Improve scheduling as well as increase productivity.
  --Create electronic storage of imposition where none previously 
        existed.
    Question. What cost savings do you anticipate with its 
implementation?
    Answer. The estimated annual savings of two-thirds of the staffing 
will be accomplished over a period of three years. It is assumed that 
about one-third of the savings will be achieved in the first year; two-
thirds in the second year; and a full $7,345,000 in the third year. The 
reason that the savings are so large is that in order to make a plate 
GPO must first create negatives and then use them to make a plate. The 
direct to plate system eliminates the need to make a negative and also 
streamlines the plate making process. The operating and maintenance 
cost of some current equipment will be saved, and total space 
requirements will be reduced, as cameras and processors are surplused.
    Recognizing that the savings will be achieved gradually, it still 
makes good sense to proceed with procurement to gain the benefits in 
the production process. The revolving fund has enough cash to purchase 
the direct to plate systems which are estimated to cost $1,625,000. The 
cost of the equipment will be capitalized and appear on GPO's statement 
of financial position as a fixed asset. The equipment will be 
depreciated over a 5 year period which will generate depreciation 
expense of $325,000 per year ($1,625,000/5 = $325,000) which will 
appear on the statement of income and expense each year for five years.
    Question. How long will it take for those savings to be realized?
    Answer. The system will pay for itself in about one and one-half 
years. Labor cost reductions will begin in the first year and will be 
fully accomplished within three years of installing the new technology. 
The reduction in labor will be accomplished through normal attrition, 
retraining, and voluntary reassignments.
    Question. Is there a specific volume of work which must be 
maintained in order for this technology to be cost effective?
    Answer. A specific volume of work would have to be maintained 
during the short pay back period to insure that acquisition of the 
technology was cost-effective. However, since computer-to-plate (CTP) 
requires only a bare minimum of employees, cost effectiveness is 
assured. The large volume of agency work being processed provides 
additional assurance.
    Question. Are there other technological changes which must occur 
before this technology is effective or useful (e.g. Should the House 
and Senate be electronically transmitting all their proceedings to GPO 
in an identical language before this technology can be useful)?
    Answer. This has no bearing on whether GPO's employment of CTP 
technology would be useful or cost effective. No other technological 
changes are necessary to make GPO's employment of CTP technology useful 
and cost effective.
    Question. If so, would it not be more practical for other steps to 
be taken before the JCP approves your request?
    Answer. JCP approval of the pending request will permit continued 
attrition of the workforce presently assigned to these activities and 
materially reduce labor costs, without adversely impacting the 
capability to process a comparable volume of work.
    Question. The Joint Committee on Printing has asked the House 
Appropriations Committee to reconsider its request that GPO undertake a 
study to determine what Congressional printing needs could be 
outsourced. This request was made in light of current review of Title 
44 and other policy considerations currently affecting GPO. If the 
request to fund the acquisition of computer to plate technology is 
approved, will that lock GPO and the Congress into a situation where 
economically it will be impractical or impossible to consider 
outsourcing Congressional printing needs in the future?
    Answer. Although the CTP request before the JCP has a 5-year 
depreciation period, the system will pay for itself through savings in 
a much shorter period of time. Additionally, a large volume of 
Executive Branch publications are expected to be processed utilizing 
this same CTP equipment. Whether the work is outsourced or continues to 
be produced by GPO, any CTP expenditures would be completely recovered 
by the time such outsource contracts can be fully implemented.
                       GENERAL ACCOUNTING OFFICE

STATEMENT OF JAMES F. HINCHMAN, ACTING COMPTROLLER 
            GENERAL OF THE UNITED STATES
ACCOMPANIED BY:
        J. DEXTER PEACH, ASSISTANT COMPTROLLER GENERAL FOR PLANNING AND 
            REPORTING
        JOAN M. DODARO, ASSISTANT COMPTROLLER GENERAL FOR OPERATIONS
        RICHARD L. BROWN, CONTROLLER

                       introduction of Associates

    Senator Bennett. We will now go to the General Accounting 
Office.
    We welcome the General Accounting Office. I am not sure I 
have the right names here. I do not want to repeat my gaffe of 
last time.
    We have James Hinchman, who is the Acting Comptroller 
General of the United States, and he is accompanied by Mr. 
Dexter Peach, Assistant Comptroller General for Planning and 
Reporting; Ms. Joan Dodaro, Assistant Comptroller General for 
Operations; and Mr. Richard Brown, Controller.
    Thank you. We commend GAO for its ability to handle a 25-
percent reduction in your budget over the past 2 years. I 
understand that that kind of downsizing can be painful. But in 
my visits with you, I have found you willing to accept it and 
implement it without complaint. That is kind of rare around 
here. We want to make it clear that it does not go unnoticed 
and unappreciated.
    You have maintained the number of products you produce, 
increased the timeliness of your jobs, and reduced the job 
duration and cost while absorbing that 25-percent cut. So it is 
appropriate that you are the watchdog of Congress. If you have 
been able to do it yourself now, go out and get them to do 
likewise, whoever the them may be in the circumstance.
    We look forward to your testimony.
    Senator Dorgan, do you have an opening statement for this 
group?
    Senator Dorgan. Mr. Chairman, I only want to observe that 
the GAO in my judgment does really outstanding work. The work 
that they have done for me and others and for the committees on 
which I have served has really been extraordinary work. I have 
felt a great regret in the past several years where on a number 
of occasions the GAO, I think, was unfairly victimized by 
statements by some in Congress--not many, but by a few. I think 
it unfairly characterized GAO's work.
    My own impression is that this watchdog agency provides the 
kind of service to Congress that we cannot get elsewhere. We 
spend through the Appropriations Committee well over $1 
trillion, over $1.5 trillion a year, and the ability to call on 
an agency like the GAO to evaluate how is this money spent, 
what the taxpayer gets for this expenditure is critical.
    I am not convinced that we did the right thing in making 
the kind of sizable cuts that were made. But the climate here I 
guess required that that be done. I just would express regret 
at some statements that have been made over the last several 
years which I felt were not fair.
    The GAO may be like every other agency. It may have its 
failings as well. It may be that I am not aware of these. But 
my own experience has been a first rate experience with this 
organization and I hope very much that we can find the 
resources to continue the GAO as the premier watchdog agency, 
that all of us can have confidence in and that we can continue 
to trust due to your important work.
    So, Mr. Chairman, thank you very much.
    Senator Bennett. Thank you.
    Mr. Hinchman.
    Mr. Hinchman. Thank you, Mr. Chairman. I have a prepared 
statement, and with your permission, I would like to summarize 
it briefly this morning, if that is acceptable.
    Senator Bennett. You have not only our permission but our 
encouragement.
    Mr. Hinchman. Thank you, Senator. I ask that my statement 
be put in the record.
    Senator Bennett. Without objection.

                        highlights of statement

    Mr. Hinchman. I only want to make two very brief points. 
First, I believe we are accountable to you for our stewardship 
of the taxpayers' dollars that you give us. I want to say a 
couple of words about this year's appropriation.
    As you pointed out, we are completing a downsizing of the 
agency primarily due to a 25-percent funding reduction over 2 
fiscal years. We are now below 3,500 staff. That is the lowest 
level since before World War II. It represents a one-third 
decrease from the 5,300 level where we were in 1992.
    I think we have downsized successfully and maintained our 
productivity and our contribution to the work of the Congress.
    We now have in place a spending plan for this year which is 
consistent with the 25-percent funding reduction, and we will 
successfully complete the downsizing this year within the 
funding which has been provided.
    The initial indications are that this year's performance 
will be equal to last year's, and that we will be able to 
maintain the productivity to which we have been committed in 
order to support the oversight and legislative agenda of 
Congress.
    So, overall, I think our report to you about our 
stewardship is a positive one. Our downsizing has been 
difficult, but successful, both in terms of reducing 
expenditures and in terms of maintaining institutional 
capability and level of service to the Congress.
    My second point is just a brief word about our 1998 
request. Having completed that downsizing, our goal now is to 
stabilize the agency and normalize its operations at the new, 
reduced level of staffing. For that purpose, we have asked for 
an increase over this year's funding.
    The most important part of that request is for our 
mandatory cost increases--those increases we cannot control. 
Essentially, those are statutorily mandated pay adjustments and 
statutorily and regulatorily mandated increases in the 
contributions that we make for employer retirement plans and 
employee life and health insurance plans.
    We know that resources continue to be limited and that you 
face difficult budget decisions. We are striving to be prudent 
stewards of our resources. But if we are to stabilize the 
agency and normalize its operations, we do need the resources 
to meet these uncontrollable cost increases.

                           prepared statement

    I think those are the two points that we have to make 
today. With that, let me stop, and any of us would be happy to 
answer any questions that you may have.
    [The statement follows:]
                Prepared Statement of James F. Hinchman
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to testify on GAO's fiscal year 1998 budget request. GAO has 
undergone major changes over the last few years, including significant 
cutbacks in people and resources. Our budget request for 1998 reflects 
needs that have resulted from some of those changes.
    The General Accounting Office was created to help ensure that 
taxpayers' dollars are wisely spent. We seek to fulfill this mission by 
encouraging honest, efficient management and full accountability 
throughout the federal government. We serve U.S. interests by providing 
Congress, other policymakers, and the public with accurate information, 
unbiased analyses, and objective recommendations on the use of public 
resources.
    The issues we examine span the breadth of national and 
international concerns, including health care, financial management and 
accountability, law enforcement and banking, information technology, 
national security, energy and the environment, aviation security, 
defense procurement, education and employment, transportation, tax 
administration, income security, housing, international relations and 
trade, and many others.
    About 78 percent of GAO's work during fiscal year 1996 was done at 
the request of Congress. GAO is required by law (Public Law 67-13) to 
do work requested by congressional committees and assigns equal status 
to requests from committee chairs and ranking minority members. More 
and more in recent years, congressional legislation has mandated GAO 
audits and evaluations, and to the extent possible within resource 
constraints, GAO also responds to requests from individual members. 
Finally, GAO undertakes assignments independently in accordance with 
its basic legislative responsibilities.
    While audits and evaluations are the most visible aspects of GAO's 
work and absorb the largest share of its resources, GAO has other 
important functions. We prescribe accounting standards for the entire 
federal government, in conjunction with the Office of Management and 
Budget and the Department of the Treasury, and issue generally accepted 
government auditing standards for all levels of government entities. We 
also issue legal decisions on matters involving government revenues and 
expenditures, such as protests against the award of federal government 
contracts.
            fiscal year 1996 accomplishments and highlights
    During the past year, we marked two important milestones. We bid 
farewell to Charles A. Bowsher, who retired as Comptroller General at 
the end of his 15-year term on September 30, and celebrated our 75th 
anniversary of service to Congress and the nation.
    GAO is proud of its long tradition of service to Congress, the 
contributions it has made toward improving federal government 
operations, and congressional actions based on GAO recommendations. In 
fiscal year 1996, GAO provided Congress and federal agencies with 
recommendations for measurable financial benefits and management 
improvements and with numerous testimonies, audit and evaluation 
products, and legal opinions.
    As a result of GAO's recommendations and audit findings, the 
legislative and executive branches took actions with financial benefits 
of over $17 billion. These actions included budget reductions, costs 
avoided, appropriation deferrals, and revenue enhancements that are 
directly attributable to or were significantly influenced by GAO's 
work.
    Further, we made other recommendations and documented audit 
findings that resulted in or contributed to improvements in the 
effectiveness and efficiency of government operations and services. 
Although these improvements cannot always be quantified in monetary 
terms, their impact is significant because they lead to a better-run, 
more streamlined government. Past experience shows that about 70 
percent of our key recommendations are implemented within 4 years, 
through the passage of implementing legislation and agencies' 
corrective actions.
    In all, we produced 1,306 audit and evaluation products. These 
products include 908 reports to Congress and agency officials, 217 
formal congressional briefings, and 181 congressional testimonies 
delivered by 68 GAO executives before 85 congressional committees and 
subcommittees. We also provided 29 statements for the record to 
congressional committees and subcommittees and produced 3,041 legal 
decisions.
        actions taken to absorb the 25-percent budget reduction
    As you are aware, our budget was reduced in fiscal years 1996 and 
1997 by a total of 25 percent from the 1995 level. Since employee 
compensation constitutes about 80 percent of our budget dollars, most 
of the actions taken to manage the budget reductions necessitated a 
loss of people. Today, as a result of those reductions, GAO's staffing 
is at its lowest level since before World War II.
    To manage the reduction in staff, we continued the hiring freeze 
which has been in place since 1992, obtained Congress' permission to 
pay ``buyouts'' to employees willing to leave voluntarily, and offered 
early-out retirement to eligible staff. Several hundred staff were also 
involuntarily separated as a result of the closure of three field 
offices and the elimination of many administrative, technical, and 
support positions, mostly at headquarters. In addition, GAO transferred 
its claims function to the executive branch. At the end of fiscal year 
1996, we had about 3,500 staff on board, which amounted to a 35-percent 
workforce reduction since fiscal 1992.
    In addition to reducing staff, we also substantially reduced 
funding in other areas. For example:
  --Promotions and awards were frozen during the last 2 years, and GAO 
        has not funded bonuses since fiscal year 1992.
  --We reduced the amount budgeted for office rent by over $11 million 
        through the closure of offices and the consolidation of local 
        audit sites and offices at our headquarters building.
  --We reduced funding for travel, training, subscriptions, supplies, 
        and equipment by almost 40 percent.
  --We have reduced funding for information management technology by 38 
        percent since fiscal year 1995 and have deferred most of our 
        capital investment.
    In all, funding reductions already taken at GAO will total over $1 
billion over the next 5 years.
                    fiscal year 1998 budget request
    Having worked hard to successfully implement this 25 percent 
reduction in our appropriations in fiscal years 1996 and 1997, we 
believe an increase in our funding is essential in fiscal year 1998 if 
we are to stabilize our organization and maintain our capacity to serve 
Congress effectively. We are therefore asking that the Subcommittee 
consider a fiscal year 1998 budget of $368,828,000 to support our staff 
of 3,500 people and an full-time equivalent staff level of 3,450. The 
increase included in this request is for five purposes: mandatory pay 
and benefits increases; price-level increases to cover the higher costs 
of transportation, printing, supplies, personnel services, and other 
essential mission support goods and services; pay-related costs for 
promotions and employee recognition, which we have foregone in recent 
years; information technology upgrades; and maintenance and repair of 
GAO's headquarters building.
    Mandatory pay and benefit increases are the most important piece of 
our request. Without the funding to cover uncontrollable costs such as 
locality pay, cost of living, and personnel benefits increases, we will 
have to reduce our staff level even further. The people who work at GAO 
are our most valuable resource, and a further reduction in staff will 
hamper our ability to maintain our current level of operations.
    It is also important to offset other uncontrollable inflationary 
increases, such as the higher cost of travel and transportation, 
printing, and supplies. Without the funding to cover these costs, 
further funding reductions will be necessary, impairing our capacity to 
function effectively.
    In addition, funding for promotions and employee recognition will 
help us to retain and recruit the talent needed to continue our support 
of Congress. We are losing many of our key people to executive branch 
agencies and professional firms offering pay incentives, such as 
promotions, bonuses, and awards, that GAO has been unable to offer for 
several years.
    Investment in our information technology program is needed to 
replace older and nearly obsolete computer equipment and software, as 
well as to upgrade our systems to support GAO's new reengineered job 
processes. While the network and data collection software applications 
are in place and fully operational, we need to upgrade workstations, 
software, applications, and network operating system hardware and 
software. We need these upgrades to ensure continued efficient 
operation and to maximize the productivity gains that information 
technology makes possible.
    Finally, the GAO building, built in the early 1950's, continually 
requires maintenance and repair to ensure a safe, healthy, and 
efficient work environment for our people.
                           concluding remarks
    For over 75 years, GAO has assisted the Congress in carrying out 
its legislative and oversight responsibilities, shifting its focus and 
updating its operations to accommodate changing congressional needs. 
Through the results of our work in many diverse areas, GAO has given 
Congress a high rate of return on its investment, in which Congress can 
take justifiable pride. Each year, GAO's goal is to identify at least 
$10 billion in financial benefits. Although this amount fluctuates from 
year to year, between fiscal year 1992 and 1996, financial benefits 
totaled over $103 billion, or nearly $50 for every dollar appropriated 
for GAO.
    We recognize, Mr. Chairman, that resources are limited throughout 
government. GAO is committed to holding down costs wherever possible, 
as our record demonstrates, and we have sought to be prudent in our 
budget submission. However, if GAO is to maintain its long tradition of 
service to Congress, the agency needs the resources necessary to 
maintain a strong and effective organization. This includes the funds 
necessary to pay for mandatory increases in people-related costs and 
increases in the prices of the goods and services we buy. We also need 
to address those capital investment and facility maintenance needs that 
should not be deferred.
    This concludes my statement. We would be happy to answer any 
questions the Members of the Subcommittee may have.

                        GAO building usage study

    Senator Bennett. Thank you.
    I would like to talk about your building. I understand from 
my visit there that you have one floor that presumably you 
won't need.
    Mr. Hinchman. That's correct.
    Senator Bennett. Also you have an asbestos removal problem 
on that floor. Does it make sense for you to do an internal 
study of yourself on this and report back to the House and 
Senate as to whether or not you will eventually need that 
space, or the alternative of having a tenant move in there and 
charge the tenant for the cost of the asbestos removal and the 
renovation? Or have you already come to a determination as to 
which way you think you ought to go?
    Mr. Hinchman. I think we ought to do the study and report 
back to you.
    Obviously, the original plan for the renovation of the 
building was developed at a time when we were a larger agency. 
As you correctly point out, it is now clear that we will not 
need one floor of the facility, and I think it is appropriate 
for us to examine all of the alternatives for the use of that 
floor and to report to you. I think we can do that in a 
relatively brief period of time.

                    Consolidated financial statement

    Senator Bennett. OK. Under the Chief Financial Officers 
Act, the CFO Act, you have been very involved. Do you have any 
summary you can give the committee on your experience with this 
act and how you are fulfilling your responsibilities? Any 
general observations about how it is working?
    Mr. Hinchman. The goal of the Chief Financial Officers Act, 
as you are aware, Mr. Chairman, is to get the financial 
management and reporting of the Federal Government in order. I 
think that basically means bringing to it the discipline that 
has characterized financial management and reporting in the 
private sector, and in State and local government, for that 
matter, for decades.
    In order to carry out that responsibility, we are pursuing 
three major initiatives. First, we are working with OMB and 
Treasury to develop standards for financial management and for 
accounting and auditing of those financial systems. Second, we 
are working with the inspector general community and OMB to 
develop a comprehensive plan for auditing those financial 
reports. That is going to take a large effort, not only by us 
but by the inspector general community and by private 
accountants as well, working under contract for the inspectors 
general. Then, finally, we are doing some of the most important 
agency audits ourselves. We are currently auditing major 
components of the Treasury Department, for example, and major 
financial management issues in Defense.
    Hopefully, out of all of that will come a consolidated 
financial statement for the United States next spring. I think 
everyone is committed to that goal, and we will be required to 
render an opinion on that statement.
    I think that will be an important milestone. I don't know 
what that opinion is going to say. But I do know that we will 
have made enormous progress toward the goal of providing the 
kind of accountability for our financial resources that we 
expect of private companies in this country and that the market 
demands of State and local government.

                            Biennial budgets

    Senator Bennett. I was very impressed by the testimony of 
Mr. Raines before the Governmental Affairs Committee. He 
addressed this issue. The subject was the question of a 2-year 
budget. He said if you give me a 2-year budget, I can then put 
the ``M'' into ``OMB.'' Right now I do nothing but the ``B.''
    Coming from the private sector, as he does, he said that 
the idea of an annual close of books is terrifying to many of 
these agencies. Where I come from, you want a monthly close, 
which is just beyond conception. [Laughter.]
    Mr. Hinchman. Yes.
    Senator Bennett. I was enormously impressed with him. Based 
on that brief experience, I am telling people he is the most 
impressive Director of OMB of either party that I have ever 
seen. I am delighted to hear you say that you are working 
closely in that effort.
    Mr. Hinchman. Yes; and with him and with Mr. Koskinen, his 
deputy for management.
    Senator Bennett. Senator Dorgan.

               process for selecting Comptroller General

    Senator Dorgan. Mr. Hinchman, you have been serving as the 
Acting Comptroller General since September of last year.
    Mr. Hinchman. Yes, sir; since September 30.
    Senator Dorgan. Is the process underway to find a permanent 
successor to Mr. Bowsher? Can you describe where we are in that 
process?
    Mr. Hinchman. Under the statute, a commission composed of 
10 congressional leaders is responsible for developing a list 
of individuals to recommend to the President for the 
Comptroller General position. That commission is composed of 
the President pro tempore of the Senate, the Speaker of the 
House, the majority and minority leader of each House and the 
chair and ranking minority member of our two oversight 
committees, Governmental Affairs in this body and Government 
Reform and Oversight in the other body.
    From that list, the President either selects a name or 
sends the list back for further names. Once he has found a 
person he finds acceptable, he then nominates that person who 
then goes through a full confirmation process before the 
Senate.
    The commission has not yet met. However, there have been 
discussions among both members of the commission and their 
staffs, laying the groundwork for that process.
    Senator Dorgan. I guess you probably cannot answer this, 
but it is bizarre to me that 9 months after Mr. Bowsher left, 
the commission established to, at least, recommend names has 
not even met.
    Mr. Hinchman. I leave it to the members of the commission 
to decide what their schedule is.
    Senator Dorgan. I did not really expect you to answer that 
question.
    Mr. Hinchman. I have spent the last 6 months throughout our 
agency talking about our responsibilities during this interim 
period. I think we see ourselves, all 3,500 of us, as trustees, 
stewards accountable to this committee and to others for our 
management of this agency over this interim period. We leave it 
to you to decide when it is time for us to have a new 
Comptroller General and who that new Comptroller General should 
be.
    Senator Dorgan. That was very diplomatic. [Laughter.]

               need for Congressional commission to meet

    It seems to me, though, Mr. Chairman, that we ought to 
begin to stimulate and agitate. The leadership of an agency, of 
any agency, is important. I am not suggesting that there is not 
now leadership. But establishing a permanent solution for 
leadership is very important.
    It appears to me that there has been a dropping of the ball 
here if, after 9 months, we do not even have a commission 
meeting and making some recommendations.
    I don't know what the reason for that might be. But maybe 
you and I should look into this.
    Senator Bennett. I don't know, either. But I agree with you 
completely. I understand that in this circumstance, the statute 
says the old Comptroller General cannot serve until his 
successor is in place. He serves for--is it 15 years?
    Mr. Hinchman. Yes, sir.
    Senator Bennett. The 15 years is up and then he is gone. So 
you don't have here the circumstance that you have elsewhere 
where the person can hang around until his successor is in 
place.
    I am as appalled as you are and agree with you that we 
probably ought to start stimulating our respective leaders.
    Senator Dorgan. Perhaps we could agitate with a joint 
letter indicating that this commission which, apparently, 
exists should meet and should make recommendations. I think 
there should be a goal here established of, at least, by 1 year 
after Mr. Bowsher has left that a leader be selected for the 
GAO.
    I don't have other questions. Again, I appreciate the work 
of the General Accounting Office. I will continue, as a Member 
of Congress, to call on you and rely on the services that you 
provide for us. We appreciate very much your work.
    Mr. Hinchman. Thank you, sir.

                           Year 2000 problem

    Senator Bennett. We will have some other questions that we 
will submit to you in writing.
    So that we have a degree of continuity through this whole 
hearing this morning, let me ask you about the year 2000 
problem and how you are prepared to deal with it and if you 
have any money in this 1998 request for that.
    Mr. Hinchman. We have included within our strategic plan 
for information and resource management a solution to the year 
2000 problem. We are addressing that problem, both by making 
the changes that we need to make in software which we expect to 
continue to have in use by the time we reach 2000, and by 
assuring that software which we acquire for replacement 
purposes between now and then does not include that problem.
    I feel comfortable that we have that problem under control.
    We are also, by the way, doing an extensive amount of work 
in assisting executive branch agencies in addressing that 
problem as well, and have a large body of work underway to 
identify where that problem exists and how it can be solved.

                     Additional committee questions

    Senator Bennett. Thank you very much for coming in. Thank 
you for all you do.
    I share Senator Dorgan's admiration for the work product 
you produce.
    Mr. Hinchman. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. What is the status of your downsizing efforts?
    Answer. In fiscal year 1997 GAO completed its downsizing efforts, 
which began in fiscal year 1992 with a GAO-wide hiring freeze. Since 
fiscal year 1992, we have dropped from about 5,325 to about 3,500 
staff--a reduction of approximately 34 percent. To accomplish this 
reduction of more than a third of our staff, we conducted two voluntary 
separation incentive programs involving buyouts and early outs; closed 
12 field offices and 2 overseas locations; reduced administrative, 
professional and support staff through a reduction-in-force (RIF); and 
transferred the claims adjudication function and staff to the executive 
branch.
    In anticipation of becoming a smaller organization, we began in 
1995 to re-design our job processes, with a goal of producing quality 
work more quickly and at lower cost. This was a project we had been 
working towards for several years. The budget climate provided added 
incentives to continue to assess how we do our work and how we can get 
it done employing fewer and fewer resources.
    Our production shows that we are clearly doing more with less--our 
staff is working harder and more efficiently, and we are taking 
advantage of available technology. After completing the downsizing, we 
believe that our diminished resources are better aligned (headquarters 
issue areas and regional core groups) and better balanced (support 
staff versus mission staff).
    Because of the downsizing, we have been able to bring all our staff 
back from audit sites and temporary space into the main GAO building 
without having to complete asbestos removal and renovation of all seven 
floors of the GAO building.
    Our fiscal year 1998 budget request reflects funds needed to 
stabilize the agency and return to ``normal'' operations. A first step 
to returning to normal was to reinstate human resource systems that had 
been frozen or otherwise stopped in recent years. We lifted a 5-year 
hiring freeze, and have added a few staff to fill critical specialized 
vacancies. We also had a limited round of promotions, ending a 2-year 
freeze.
    We need to continue to upgrade technology (workstations, software 
applications, and network system hardware) to allow staff to maximize 
the productivity gains that information technology makes possible.
    We also need to complete work on abating and renovating the GAO 
building to make it a more positive work environment for our staff.
    In addition, we have requested funding to reinstate our employee 
awards and recognition system, which we have not used since 1992, and 
to implement a revised incentive awards program, dormant for several 
years. If we are able to accomplish these initiatives, we may be able 
to stem the tide of key people leaving GAO for positions with executive 
branch agencies and professional firms offering these incentives.
    Question. Last year the committee recommended that GAO produce an 
assessment of its downsizing experience, including lessons learned and 
recommendations that could be helpful in other downsizing situations. 
Please summarize that assessment.
    Answer. As GAO experienced its downsizing, we learned several 
lessons that might prove useful to other agencies facing similar 
circumstances. Of primary importance was advance knowledge and 
foresight regarding the nature and extent of pending reductions which 
allowed GAO to plan actions to maintain productivity and efficiency, 
and to take advantage of emerging technological capabilities, while we 
reduced personnel and operating costs. We believe it is vital to make 
necessary decisions quickly and decisively and ensure they are 
communicated to affected staff. Once downsizing actions are complete, 
it is important to stabilize the organization and return to normal 
operations as quickly as possible. A discussion of our experiences were 
included in a letter, dated May 16, 1997, to the Chairman, Committee on 
Appropriations, Subcommittee on the Legislative Branch, United States 
Senate.
                       letter from joan m. dodaro
Assistant Comptroller General of the United States,
                                 General Accounting Office,
                                    Washington, D.C., May 16, 1997.
The Honorable Robert F. Bennett,
Chairman, Subcommittee on the Legislative Branch, Committee on 
        Appropriations, United States Senate.
    Dear Mr. Chairman: During our 1997 Senate appropriations hearings, 
the Committee recommended that GAO produce an assessment of our 
downsizing experience, including lessons learned and recommendations 
for similar or different procedures in different situations. This 
letter responds to that request.
    As you know, in July 1995, the Committee committed to reducing GAO 
funding by 25 percent from fiscal year 1995 levels by the beginning of 
fiscal year 1997, a period of about 14 months. We were fortunate that 
the Congress allowed us to spread the cuts over two fiscal years, and 
that we were given the authority to develop new reduction-in-force 
(RIF) regulations allowing us to minimize disruption to our operations.
    To operate under this reduced budget, we had to lower our staff 
level from about 4,350 to 3,500 staff. This was successfully 
accomplished (as of September 30, 1996, GAO had 3,492 staff on board) 
through an early out/buyout program, the transfer of our claims 
function to other agencies, the closure of three field offices, a RIF 
of support staff, and normal attrition. To meet our staffing objective 
while maintaining a high level of productivity, we re-engineered our 
work processes and enhanced our use of technology. This enabled us to 
successfully perform our mission responsibilities while adjusting to a 
dramatically smaller workforce. As we implemented these changes, we 
learned several lessons that might prove useful to other agencies 
facing similar circumstances.
Anticipate Change
    By the early 1990's, it was becoming clear that budgetary restraint 
was necessary. After discussion with our Appropriations Committees, and 
facing an uncertain financial future, we began to take steps to reduce 
both personnel and operating costs. To reduce personnel costs, we 
initiated a hiring freeze (begun in 1992); conducted an ``early-out/
buyout'' program (1993) during which about 400 staff left voluntarily; 
and closed 8 field office locations (1993). To reduce other operating 
costs, we introduced videoconferencing GAO-wide (1993) which reduced 
travel costs; and subsequently connected all GAO offices agency-wide 
computer network and voice message telephone system, reducing the need 
for some support functions and staff.
    All these steps were taken or underway prior to the 25 percent 
budget reduction. Had we waited until the 25 percent cuts were 
finalized, our position during the ensuing reductions would have been 
much more difficult, requiring a much larger involuntary reduction-in-
force. Accordingly, it might be wise for agencies to anticipate 
reductions and take cost-cutting steps before they are mandated.
Move Quickly and Decisively
    In June 1995, the Comptroller General appointed a high level team 
of managers to assess the impact of potential funding reductions, and 
to recommend how to downsize the agency. The team was given a short 
deadline, reporting back in late July. On August 7, 1995, the 
Comptroller General adopted the recommendations, which included closing 
three additional field offices, offering buyouts and early outs as 
approved by Congress, and a RIF of support staff. These recommendations 
were sudden, dramatic, and quite sobering.
    At the same time, the Comptroller General issued a memo to all 
staff outlining the downsizing steps that would follow. The memo also 
established time periods for each activity and assigned responsibility 
for carrying out the recommended tasks. Throughout late 1995 and all of 
1996, this timetable was adhered to scrupulously. Management 
decisiveness and determination was an important ingredient in 
efficiently and effectively implementing a painful set of decisions 
which cost hundreds of effective and productive staff their jobs.
Ensure Constant, Effective Communication
    In the year leading up to the major downsizing announcement, GAO 
had attempted to keep employees informed about events in Congress that 
could affect the agency, especially its funding levels. The normal 
means were used: staff meetings, memoranda, electronic mail, and video 
conferences. Unfortunately, in the midst of congressional budget 
deliberations, and before Congress had finalized our funding level, 
misinformation and rumors often outnumbered facts.
    Once the downsizing plan was announced, an extensive agency-wide 
communications strategy was established to communicate the truth. 
Initially, the focus was on the recommendations of the downsizing team, 
especially to those in the most adversely affected units. The Senior 
Executive Service (SES) core was educated on the plan to help them 
effectively address staff concerns. Numerous meetings and briefings 
were held so that all staff could learn about the downsizing firsthand 
from the implementing managers and ask questions as it moved forward. 
In addition, the team that was established to develop new RIF 
regulations held a first round of briefings for all interested staff to 
learn of their concerns and then a second round to describe proposed 
regulations and obtain staff comments on them.
    Technology was a big asset in communicating quickly and efficiently 
all personnel. Important information, including draft RIF rules was 
posted on the agency-wide computer network, making it immediately 
available, unfiltered, to everyone. Similarly, telephone voice mail 
served us well in communicating efficiently.
Ensure Personnel Records and RIF Rules are Up-to-date
    Key components in a RIF include the RIF rules, staff position 
descriptions, employee appraisal scores, and other employee information 
such as veteran's status and employment dates. For agencies 
anticipating a RIF, it is imperative that RIF regulations and employee 
data are up-to-date and accurate. It is also important to insure that 
the information is verified well in advance of the RIF, and that last 
minute changes to position descriptions or job assignments are not 
made. Inaccurate employee records, or assignment changes increase the 
mistrust in an already negative atmosphere, and can lead to legal 
challenges.
Educate Managers About RIF Ramifications
    A RIF is traumatic not only to the affected staff, but also to the 
managers who deliver the bad news. The way managers deal with RIFed 
staff can affect the implementation of the RIF. GAO briefed the 
managers in the units where the RIF's were to occur on what was going 
to happen. Our Office of Counselling and Career Development briefed 
these managers on what reactions to expect from employees, and 
distributed a handbook suggesting ways to handle emotional reactions 
and potential security issues. The handbook also contained numerous 
questions typically asked by staff facing a RIF, and suggested 
responses to various situations. We believe that preparing our managers 
in this way contributed to the relative lack of problems in our RIF.
Provide Assistance to Affected Staff
    The most difficult aspect of downsizing was the traumatic affect it 
had on hundreds of individuals who had served GAO well over the years. 
The agency contacted each RIFed employee and offered them a full range 
of services, including counseling, job search and development, resume 
assistance, outplacement, and other services to staff affected by the 
downsizing decisions, both in headquarters and the closing field 
offices. The services started shortly after the August announcement was 
made, and continued until about three months after the last 
involuntarily separated staff had left the agency. Most of the eligible 
staff took advantage of the services. Information available to us 
indicate that the services helped many former staff members make a 
successful transition to other employment.
    In addition to outplacement and career counselling services, GAO 
provided detailed information to staff on severance pay and retirement 
benefits that would accrue to those who were RIFed or left 
voluntarily--information vital to helping them choose the best option 
for them.
    Providing such information and services is obviously important for 
the people whose lives have been disrupted by job loss. It is also 
important to those who remain to know that their colleagues are 
receiving assistance.
Return Human Resource Functions to Normal as Soon as Possible
    Anticipating reduced funding levels, GAO took numerous steps 
outlined above. In addition, we eliminated our pay-for-performance 
system bonuses in 1993, and froze promotions and reassignments in 1995 
and 1996. In essence, several of our human resource functions were 
temporarily suspended. We believe it is necessary for the morale of the 
remaining staff to return human resource functions to normal operation 
as quickly as possible after the RIF. In GAO's case, in March we 
promoted evaluators for the first time in 2\1/2\ years, and have begun 
hiring a limited number of specialists and technical experts to replace 
attritions.
    GAO has emerged from a dramatic reduction ready and able to provide 
quality service to the Congress. We have taken steps to further 
streamline our job management processes to allow us to be more 
responsive to the Congress and to maintain our productivity. Smaller 
than at any time since World War II, we have been able to retain the 
integrity and efficacy of the agency, as we look forward to future 
challenges.
            Sincerely,
                                            Joan M. Dodaro,
                      Assistant Comptroller General for Operations.

    Question. Over the past few years the GAO has been making large 
investments in technology. How much has GAO spent on Information 
Technology since fiscal year 1996?
    Answer. Our information technology budget funds a variety of 
services, under lying agency operations, including mainframe computing 
services for administrative systems, local and long distance voice 
communications, video conferencing services, network customer support, 
and maintenance and support for hardware and software. In fiscal year 
1996, GAO spent $24.7 million on information technology (IT). The 
current estimate for fiscal year 1997 IT spending is $21 million.
    Since fiscal year 1996, GAO has spent very little on IT 
investments, deferring most technology investments because of budget 
limitations. We have restricted our investments to critical hardware 
and software purchases to support GAO's network and improve network 
management and labor support for (1) upgrades to the data collection 
and analysis application and (2) preparatory efforts to convert our 
network operating system to Novell's Netware 4.x, our desktop operating 
system to Windows 95, and applications suite to Office 97, replacing 
our existing, but obsolete, installed base of software (e.g., 
WordPerfect 5.2, which is no longer supported by the vendor).
    Investments in earlier fiscal years (specifically, dating back to 
fiscal year 1992), allowed GAO to implement a wide area computer 
network linking staff throughout the agency; integrate video-
conferencing and voice mail into its operations; implement an automated 
data collection and analysis application streamlining routine audit 
assignment tasks and providing greater access to GAO workpapers; 
reengineer the audit process to streamline the way work is done and 
ensure consistent high quality products; and publish and distribute GAO 
reports electronically on the Internet. Because this technology was in 
place, GAO was able to reduce the average cost of jobs, increase the 
percentage of products delivered on time, improve product quality, and 
increase measurable financial benefits resulting from GAO's audit 
findings and recommendations--despite significant budget and staffing 
reductions.
    Question. What is GAO requesting in the fiscal year 1998 budget for 
technology?
    Answer. GAO is requesting $5.1 million for crucial investments 
needed to operate and maintain GAO's technology base. The increase 
would be targeted primarily to (1) replacements of and/or improvements 
to aging microcomputer workstations and network hardware (such as 
servers, routers and storage devices), (2) completion of efforts to 
migrate GAO to Windows 95 and MS Office 97, and (3) initial design 
efforts to migrate some of GAO's administrative systems from costly 
mainframe systems to a client/server environment. The investments are 
necessary for GAO to ensure efficient operation and maximize 
productivity gains and timeliness made possible through technology--and 
to continue to be responsive to congressional information needs.
    Question. Has video conferencing saved enough travel money to 
offset its costs?
    Answer. GAO has installed video conferencing in headquarters and 
all its field offices and has a pilot on desktop video in Seattle, 
Portland, Richland, and Sacramento. GAO uses video conferencing in 
carrying out mission work and for training and other administrative 
activities. In terms of mission work, video conferencing has allowed 
dispersed workgroups in headquarters and field offices to conduct 
meetings--focusing on key decision points in an audit assignment, 
coordination between audit sites, and development and review of 
briefing documents and draft reports without the need to travel. In 
addition, GAO has used video conferencing to coordinate with other 
government agencies and the Congress. GAO has also used video 
conferencing for training and found the approach both timely and 
effective. And, GAO uses video conferencing for management and 
administrative matters, such as staff meetings, when it is cost 
effective to do so.
    GAO has conducted two assessments of its videoconferencing program. 
The assessments found videoconferencing an effective means of helping 
GAO accomplish its mission and identified benefits, including 
significant savings in travel costs and time. Participants in the 
assessment reported that video conferencing was typically as effective 
as traveling to meet ``in person.'' Participants also reported 
extensive non-quantifiable benefits that enhance product quality and/or 
reduce cycle time. They include having key decision makers present at 
the same time, enabling developmental staff and specialists to be 
present, making decisions in a more timely manner, improving 
coordination and teamwork between sites, avoiding potential rework, and 
providing more timely training. Our assessment report covering fiscal 
1993 noted that GAO avoided 650 days of travel time and approximately 
$400,000 of travel expenses during that period. While these figures 
have not been updated, given the increased usage of video conferencing 
and increased costs to travel, the dollar savings should be even 
greater. (Current agency-wide operating costs--which include 
maintenance, technical support, as well as recurring and usage charges 
for telecommunications services--are $750,000.)
    Question. Much of GAO's work is done at the request of the 
Congress--either by statute or individual request. Of the total number 
of jobs completed last year, how many were statutorily required and how 
many were requested by Members or Committees?
    Answer. During fiscal year 1996, GAO issued 1,306 audit and 
evaluation products. Of these products, 1,139 or 87 percent were 
requested by committees or members of Congress (1,021), or mandated 
(118). The remaining 167 or 13 percent resulted from important, self-
initiated work undertaken as part of GAO's basic legislative 
responsibilities.
    During fiscal year 1996, 78 percent of GAO's available audit 
resources were spent on work requested by the Congress and 22 percent 
on self-initiated work.
    Question. Once a request is made, does GAO make a determination as 
to what jobs should be done and what jobs should not be done?
    Answer. The source of a request for GAO work is a major factor in 
determining what jobs should be done. In this regard, GAO is required 
by law to respond to legislative mandates and to undertake work 
requested by congressional committees. As a matter of policy, GAO 
assigns priority to requests from both committee chairs and ranking 
minority members. Requests from individual Members are undertaken to 
the extent resources are available. GAO also undertakes important self-
initiated work. The ability to pursue such issues that auditors or 
investigators uncover in the course of their work is essential to the 
maintenance of generally accepted standards of independence and 
impartiality. Such self-initiated work has been instrumental in 
alerting the Congress to emerging problem areas ranging from the 
identification of growing problems in the thrift industry in the mid-
1980's to more recent work highlighting the need for management reforms 
in federal programs especially susceptible to waste, fraud, abuse, and 
mismanagement.
    GAO's planning process also guides decisions on which assignments 
to pursue. GAO has developed an agency-wide strategic plan that 
emphasizes several broad areas of importance to guide the work of the 
entire agency for the next two or three years. In addition, each of 
GAO's issue areas prepares multi-year strategic plans after consulting 
with congressional staff (both majority and minority) agency, academic, 
industry, and other experts to identify important national issues. 
Decisions on assignments included in these plans are influenced by such 
factors as the extent of congressional interest, the possibility for 
cost savings, and the potential for significantly improving government 
programs.
    Question. Do you inform requesters of the cost of their request 
before the work is performed?
    Answer. GAO has reengineered its job management process using best 
practices found in the public and private sectors to increase its 
efficiency and to enhance its ability to produce timely, high quality 
products at reduced cost. For congressional requesters, the new process 
means greater focus on them and a more business-like working 
relationship. Requesters receive a prompt response and GAO meets with 
them early in the process to reach agreement on the scope, approach, 
and associated resource implications of completing requested work. GAO 
follows up the meeting with a written commitment to deliver its work 
within agreed-upon timeframes.
    Using its new job management process, GAO has substantially reduced 
an assignment's average and median duration and cost, while increasing 
significantly its ability to meet the date it commits to for producing 
a product. For example, the median duration of a GAO assignment in 
fiscal year 1996 has decreased by 18 percent when compared to fiscal 
year 1995 and 47 percent when compared to fiscal year 1994. Similarly, 
the median cost of a GAO assignment has decreased by 19 percent and 40 
percent, respectively. GAO expects further improvements in these 
efficiency measures as more of its jobs go through, and benefit from, 
the redesigned process.
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
    Question. Please specify the consequences if GAO received no 
additional funding or a funding reduction in fiscal year 1998.
    Answer. Faced with the twenty-five percent funding reduction over 
fiscal years 1996 and 1997, GAO developed a plan in concert with 
Congress to reduce agency staffing to 3,500. To achieve this reduction, 
we maintained the hiring freeze imposed in 1992, managed an early 
retirement program, offered separation incentives to staff willing to 
retire or leave GAO, closed several field offices, transferred 
functions and staff to the Executive Branch, and conducted a reduction-
in-force for administrative and support staff. During this time we also 
reengineered our work processes and benefited from technology 
enhancements made in prior years, thus helping us maintain productivity 
as we downsized.
    This plan was executed with the understanding that at the end of 
the 2-year period, we would stabilize at 3,500, promote and reward 
staff, undertake necessary technology improvements and become a 
smaller, more stable organization. The downsizing plan did not allow 
for reductions below the 25 percent level. To absorb mandatory pay 
increases and uncontrollable price increases or further, unplanned 
reductions would seriously affect our ability to maintain our current 
workload and meet the needs of our congressional customers.
Zero Additional Funding
    In considering the various funding scenarios, it is important to 
realize that, to stay even, GAO's fiscal year 1998 budget would need to 
be increased by about $18 million just to fund mandatory increases in 
personnel and other uncontrollable costs such as pay raises and the 
anticipated, January congressionally-approved increase in agency 
retirement contributions.
    Because of these mandatory increases, level funding would seriously 
impact GAO's ability to serve the Congress. GAO would lose much of what 
remains of its flexibility in undertaking assignments for congressional 
committees. In many issue areas, we would likely be forced to extend 
waiting times before we could begin assignments and we would find it 
difficult to respond to requests for rapid turn-around evaluations.
    On the personnel side, level funding would mean that GAO could only 
support a staffing level somewhat under 3,300--more than 200 full-time 
equivalent staff below our authorized level. GAO would maintain the 
hiring freeze imposed in 1992, and continue the freeze on awards and 
recognition programs imposed in fiscal year 1993. We would be unable to 
correct the skills imbalance in specialized areas created through 
continued downsizing. Funding for technology would be limited to a 
maintenance level, while not allowing needed upgrades to keep pace with 
technological capabilities widely available in the private sector and 
other agencies of the government. Additional reductions will be imposed 
in all program areas, which affect staff morale and our ability to 
maintain productivity levels, and our need to retain qualified, 
motivated staff.
A Funding Reduction
    A funding reduction would begin to erode GAO's ability to carry out 
its statutory responsibility to serve the committees of Congress. 
Serious imbalances in GAO staff resulting from such a reduction would 
make our ability to undertake assignments problematic; some assignments 
would have to be refused for lack of expertise or lack of personnel to 
carry them out, and waiting times would increase. More specifically, 
further staff erosion, combined with an inability to replace lost staff 
expertise in technical areas like information management technology and 
accounting would place GAO's mandated financial audit work as well as 
work on high risk information systems at risk.
    A funding reduction in fiscal year 1998 would necessitate 
reductions in GAO's staffing level. The continued hiring freeze, our 
inability to promote and reward good staff, and the necessary budget 
cutbacks in technology, training, and travel would almost certainly 
have a significant negative effect on staff morale. The likely outcome 
would be increased attrition of our most skilled staff and further 
serious delays in getting the agency back to normal operations.
    Question. GAO is required by law to respond to legislative mandates 
and to undertake work requested by congressional committees and the 
majority of its resources are devoted to these purposes. GAO also has 
authority to conduct self-initiated work as part of its basic 
legislative responsibilities.
    Why is it important for GAO to be able to conduct some work on a 
self-initiated basis?
    What benefits have resulted from GAO's self-initiated work in prior 
years?
    Answer. Over the past several years, the proportion of GAO's 
resources spent at the specific request of the Congress has ranged from 
70 to 80 percent of available audit resources. The remaining audit 
resources are devoted to important, self-initiated work undertaken as 
part of GAO's basic legislative responsibilities. Specifically, during 
fiscal year 1996, 78 percent of GAO's available audit resources were 
spent on work requested by the Congress and 22 percent on self-
initiated work. Although there is no congressional sponsor at the start 
of GAO's self-initiated work, the majority of this work is ultimately 
addressed to congressional committees because of their interest and 
legislative or oversight responsibilities.
    Self-initiated work is essential to any audit organization. The 
ability to pursue issues that auditors or investigators uncover in the 
course of their work is essential to the maintenance of generally 
accepted standards of independence and impartiality. Self-initiated 
work undertaken by GAO has been instrumental in alerting the Congress 
to emerging problem areas and has provided information and analysis on 
some of the most pressing matters faced by the Congress such as the 
growing problems in the thrift industry in the mid-1980's, the more 
recent gaps and weaknesses in the regulation, accounting, and 
management of derivative products, and serious financial management 
systems and information problems across government. Every year, this 
work leads to significant financial benefits and improvements in the 
efficiency and effectiveness of government operations.
    Question. The Health Insurance Portability and Accountability Act 
(better known as Kassebaum/Kennedy) enacted last August requires that 
GAO contract for a comprehensive study of the effects of Medical 
Savings Accounts (MSA's), both on the individual and small group health 
insurance markets. GAO is to report to Congress not later than January 
1, 1999.
    What is the nature of the study, and what is its status?
    Answer. The Health Insurance Portability and Accountability Act 
(Public Law 104-191) requires that GAO contract with an organization 
with expertise in health economics, health insurance markets, and 
actuarial science to conduct a comprehensive study regarding the 
effects of medical savings accounts in the small group market on: (1) 
selection, including adverse selection, (2) health costs, including any 
impact on premiums of individuals with comprehensive coverage, (3) use 
of preventive care, (4) consumer choice, (5) the scope of coverage of 
high deductible plans purchased in conjunction with such accounts and, 
(6) other relevant items.
    In order to provide the best possible information to Congress about 
MSA's, we designed a study that consists of 4 parts: A study of 
insurers; A study of MSA enrollees; A study of financial institutions; 
and A study of small employers.
    In February 1997, we issued a Request of Proposal to firms having 
the competence and necessary experience to perform this complex work. 
In early April, we completed the proposal evaluation process and 
qualified four firms to bid on task orders to perform this work; these 
firms are well-known for their experience in the conduct of large scale 
health insurance-related surveys and analyses.
    We also completed and awarded the first two of what we anticipate 
as at least six task orders. At this time, work is underway on the 
survey of insurers, and the design of the survey of MSA enrollees. We 
expect to provide Congress preliminary information on the MSA insurance 
market in the fall of 1997.
    Question. Downsizing an organization the size of GAO can be a very 
complex management task. People don't always leave from the places that 
are most beneficial. Are your people able to move effectively from one 
area of expertise to another, or are you finding some areas where 
expertise is becoming very thin? If you are not able to hire for 
another year, and in fact have to reduce staff even more, will there be 
some functions critical to GAO's mission that will not be able to 
operate?
    Answer. The closure of three regional offices as well as many 
suboffices, the elimination of one headquarter's division, the 
retirement of many experienced staff, and the reduction-in-force of 
almost thirty percent of our support staff have resulted in many staff 
reassignments throughout the agency. However, one of the impacts of the 
downsizing has been the disproportionate loss of employees who are 
skilled in technical areas. For example, we have reassigned staff from 
other parts of the organization into technical positions such as 
accountants, financial systems specialists and information systems 
analysts wherever possible, but we have not been able to compensate for 
the loss of capability experienced in these critical disciplines over 
the past four years. It has now reached the point where we must hire 
some additional staff with the right skills from outside GAO if we are 
to meet our responsibilities under the Chief Financial Officers Act and 
properly support Congressional efforts to reform the government's 
financial and information management systems. We also need to begin to 
develop a strategy for hiring other technical experts in certain areas 
where we have critical staff shortages, such as statistics and health 
care. Although this re-balancing effort will take some time, it is 
essential that we begin this fiscal year.
    If GAO maintained the hiring freeze imposed in 1992, we would be 
unable to correct the skills imbalance in specialized areas created 
through continued downsizing. Further funding reductions would begin to 
erode GAO's ability to carry out its statutory responsibility to serve 
the committees of Congress. Serious imbalances in GAO staff resulting 
from a further funding reduction would make our ability to undertake 
assignments problematic; some assignments would have to be refused for 
lack of expertise or lack of personnel to carry them out, and waiting 
times would increase. More specifically, further staff erosion, 
combined with an inability to replace lost staff expertise in technical 
areas like information management technology and accounting would place 
GAO's mandated financial audit work as well as work on high risk 
information systems at risk.
                       NONDEPARTMENTAL WITNESSES

STATEMENTS OF:
        JANET S. ZARGORN, CHAIR, AMERICAN BAR ASSOCIATION STANDING 
            COMMITTEE ON THE LAW LIBRARY OF CONGRESS
        HON. BILL ORTON, FORMER U.S. REPRESENTATIVE FROM UTAH

    Senator Bennett. I understand there is one additional 
witness. Senator Dorgan has to leave, but I am happy to welcome 
an old friend.
    We welcome Janet Zargorn from the American Bar Association, 
accompanied by former Congressman Bill Orton, who is always 
welcome.
    We understand you have an issue you want to raise with the 
committee regarding the Library of Congress and we will be 
happy to receive whatever you have to tell us.
    Ms. Zargorn. Thank you. I am the chair of the American Bar 
Association Standing Committee on the Law Library of Congress. 
On behalf of the ABA I want to thank you, Mr. Chairman, for 
allowing me to make this very brief remark.
    The Standing Committee on the Law Library of Congress was 
created 60 years ago to support the Law Library of Congress' 
goal and mission. It is an institution which we believe is the 
preeminent legal resource in the entire world.
    I know you have already heard their appropriation request 
this morning from Dr. Billington. So I will summarize my 
remarks.
    We believe that the Law Library of Congress is one of the 
critical institutions in preserving American democracy and that 
the Library of Congress and the Law Library in particular serve 
Congress as its research arm in many ways. But it also serves 
the public. Right now, it is engaged in a very unusual 
challenge, which is trying to help many of the emerging nations 
and countries of the world to access their own statutes and 
regulations and, in fact, use the U.S. democratic process and 
our legislative process as a role model.
    I am a law librarian, so as a law librarian, I can say that 
I think, as we sit on the edge of the digital century, it is 
critical to cost effective research, but certainly to 
increasing access to information that we use technology. I 
think that the Law Library of Congress through its global legal 
information network has really assumed a leadership role. I am 
very proud of it.
    We at the American Bar Association are doing what we can to 
help support them. We don't think there is any more powerful 
statement that America can make than actually showing the rest 
of the world that our citizens and our Congress have free and 
open access to all of our laws, our statutes, our regulations, 
our legal cases and briefs, and by, in a very nonthreatening 
way, helping them to do the same for their citizens.
    While we understand at the bar that you have a lot of 
demands for very scarce appropriation dollars, I think the Law 
Library has done a very good job in using the dollars that they 
have had. They have cut costs to the maximum. But at this 
moment in time, we hope that the committee will consider their 
request favorably for their appropriation because we think they 
need to preserve both their American law collection as well as 
to move forward on automation so that we will have the ability 
to export this technology and our unparalleled legal resources 
as a model for the rule of law throughout the world.
    I would like to ask the committee's indulgence and ask that 
Bill Orton be allowed to speak for a moment.
    Senator Bennett. Of course.

                           prepared statement

    Ms. Zargorn. We are very honored that he had agreed to join 
me on the committee and to help me with my work in behalf of 
the Law Library. He will become a formal member of the 
committee in August.
    [The statement follows:]

                 Prepared Statement of Janet S. Zagorin

    Mr. Chairman and Members of the Subcommittee, the American 
Bar Association (ABA) appreciates the opportunity to present 
testimony on the fiscal year 1998 Legislative Appropriations 
budget. My name is Janet S. Zagorin. I am Chair of the American 
Bar Association (ABA) Standing Committee on the Law Library of 
Congress. This testimony is being submitted on behalf of the 
ABA at the request of N. Lee Cooper, President of the 
Association.
    In my non-volunteer life, I am a law librarian. I am 
currently the Director of Practice Development of the New York-
based law firm of Stroock & Stroock & Lavan LLP. I appreciate 
the opportunity to testify on behalf of the ABA in support of 
the budget request of the Library of Congress and its Law 
Library.
    With over 348,000 members, the ABA is the world's largest 
professional organization. Due in large part to a sophisticated 
volunteer network, the ABA has been able to play a crucial role 
in ensuring that our government is committed to leadership in 
the development and maintenance of a first-rate library. It is 
our hope that the Library of Congress and its Law Library 
continue to receive adequate funding.
    The ABA has given special focus to the Law Library of 
Congress through its Standing Committee on the Law Library of 
Congress, which was created in 1932 because the Association was 
committed to its growth as the nation's principal repository of 
legal literature and sources. And we have watched in awe as 
that collection has become one of the most prestigious and 
comprehensive legal collections in the world. It is an archive 
of the best that the world's legal minds have produced, and 
also a living resource that reflects our vision of democracy 
and promotion of the rule of law throughout the world. As 
Americans consider the globalization of our economy, the spread 
of democracy, and the advancement of fundamental freedoms and 
human rights, Congress' commitment to the Law Library of 
Congress becomes more imperative.
    The Library of Congress has requested $387.6 million for 
fiscal year 1998 (which includes $30.4 million in authority to 
use receipts), a net increase of $25.7 million or 7.1 percent 
over its current budget. More than half of this request, or 
$14.7 million, is needed for mandatory pay and unavoidable 
price increases for goods and services. Since 1993, the Library 
has been forced to absorb many such increases and now, as it 
prepares for 1998 and beyond, there is no flexibility left to 
absorb these costs. These kinds of cuts adversely affect every 
department of the Library, including its Law Library. While we 
appreciate Congress' continued interest and support for the 
Library of Congress during these austere fiscal times, we urge 
you to prevent further erosion of its workforce and resources.
    Of the remaining $12.3 million in the requested increase, 
$6.1 million is targeted for automation projects that will 
improve the Library's efficiency and effectiveness both in 
internal operations and in public access to the collections. 
One such project is the Global Legal Information Network 
(GLIN), developed and directed by the Law Library.
    GLIN is an innovative effort involving government partners 
throughout the world who share via the Internet the full text 
of their nation's laws and regulations. It performs the dual 
function of expediting the Law Library's research services to 
Congress as well as promoting international communication, 
exchange, and comprehension of legal information.
    As the Library of Congress continues to meet new 
technological demands, its challenge to remain a leader in 
serving the Congress and the nation, without adequate 
resources, becomes more difficult. While economic realities are 
forcing our major public institutions to be more competitive, 
current technology is simultaneously providing opportunities to 
be cost-effective. GLIN, as part of the entire digital effort 
of the Library of Congress, reflects the Law Library's efforts 
toward that end. Moreover GLIN, a true multinational database, 
enables the Law Library of Congress to enhance its leadership 
role in providing expertise on matters of interest to Congress 
and the nation.
    Although the Congress is the priority client of the Library 
of Congress and its Law Library, I know that you will agree 
that this important institution renders a great deal of 
valuable service to the nation. That service should be 
supported by the Congress because it enhances the lives of all 
of us. Given the challenges of today's world and the great 
resources of the Library, it should be made more--not less--
accessible.
    I know that you are facing many difficult choices as you 
search for savings in the Legislative Branch budget, but I hope 
that you will spare our nation's Library in that search. As it 
has in recent years, the Library has requested only the vital 
essentials and a modest increase to continue to meet the 
demands of its strategic plan and a rapidly changing world. Its 
Law Library, likewise, must be able to continue to maintain its 
role as a global legal information center.
    Faced with the necessity of developing a leading presence 
in the electronic age while maintaining its preeminent legal 
collection, the Library of Congress must have adequate funding 
to continue to serve our nation's law makers, the legal 
community, and the public. We believe that proper funding is 
vitally important to ensure the integrity of the Law Library's 
collections and the services dependent upon them.
    Finally, as we celebrate the valiant restoration and 
reopening of the Thomas Jefferson Building, we are reminded 
that the Library of Congress is a tremendous source of pride 
for the nation and a true symbol of its founding ideals. At a 
time when nations all over the world are questioning their 
leaders, their systems of justice, and their very foundations, 
it is imperative that we support the primary institution that 
preserves the knowledge and ideas that sustain us as a 
community and a nation.
    Mr. Chairman and Members of the Subcommittee, the American 
Bar Association appreciates your courtesy in allowing me to 
appear before you today. We hope that you will look most 
favorably upon the budget request of the Library of Congress 
and its Law Library.

    Senator Bennett. You are always welcome, Bill.
    Mr. Orton. Thank you. I have a request of the committee 
before giving testimony.
    As you know, having been away from the Congress for less 
than 1 year, I am under restrictions for postemployment 
activities in contact with Congress. I don't believe that my 
support of an appropriation for the Library of Congress 
violates that, but I have received an opinion from the House 
Ethics Committee that there is an exception for sworn testimony 
before committees of Congress. So I would request, if you 
could, to swear me in so that I could meet that exception and 
there would be no question about my appearance here.
    Senator Bennett. We will be happy to do that. I am 
interested because sometimes we have suggested to witnesses 
that they be sworn, and they take exception to that. They 
resent that.
    You will just have to trust my memory.
    Raise your right arm. Do you swear that the testimony you 
shall give before this committee shall be the truth, so help 
you God?
    Mr. Orton. I swear.
    Senator Bennett. Thank you. You are now appropriately 
protected.
    Mr. Orton. Thank you. [Laughter.]
    It is a pleasure and I will be very brief. I did not submit 
prepared testimony.
    I support the testimony of the American Bar Association's 
standing committee. I just want to make the point that, as a 
former Member of Congress, while I was in Congress, recognizing 
that the principal purpose of the Library of Congress is to 
support Congress and provide for the needs of Congress, I had 
an opportunity on many occasions to use the Library's services. 
I know that they are not only the preeminent law library but 
the employees there are striving to do the very best job for 
the least dollar that they possibly can do. And having served 
on the Budget Committee in the House, and I know you have 
served in the Senate, it is my impression that we have cut more 
than the fat out of the Library of Congress.
    They have had to assume expenses, the normal increasing 
expenses as a result of inflation, and so on, out of other 
portions of their budget, and there is just no more room left 
to take any more.
    They are requesting an increase and, as they move to 
digital operation so that they can go online with all of the 
various services which will have tremendous cost savings to the 
Congress as well as the public, it does cost money to do that. 
And particularly, since I am here in specific support of the 
Law Library of Congress, as they are developing the global 
legal information network, GLIN, as part of their digital 
process, it is costly to do this. But it is extremely 
beneficial.
    I served on the Foreign Affairs Committee and also 
independently with the Center for Strategic International 
Studies, CSIS, as a member of the St. Petersburg Commission, 
and on that commission I know that in Russia, as I have met in 
meetings with them, we have, as the commission--I know that the 
Nation of Russia has relied upon the information from the 
Library of Congress and the Law Library of Congress as they are 
trying to develop their statutes so that they will be able to 
fully interface their open market society with the Western 
countries, including the United States.
    So it is an area where we can't afford to be foolish in our 
cuts, simply to cut money and balance the budget. There has 
been no stronger supporter of a balanced budget in Congress 
than myself. But I also believe I am one of the strongest 
supporters of the Library of Congress and I am here to support 
their full request for the increase that they have put in as a 
line item increase.
    I would encourage you, if at all possible, to include that 
in your appropriation.
    Senator Bennett. Thank you very much.
    As I said in my opening comments at the beginning of the 
hearing and certainly including the Library of Congress, as a 
member of this subcommittee, working with Chairman Mack when 
there was a change in control, we did work hard to reduce 
legislative branch appropriations in the 104th Congress, and we 
feel pretty good about what we accomplished.
    Having accomplished that, I am not sympathetic to the 
demand that is coming out of the House that we now freeze at 
those levels. I think a freeze implies that we did not exercise 
our stewardship in the 104th Congress. I think we did, and 
appropriate increases relating to mandatory pay increases and 
appropriate inflation now make sense from the base level that 
we laid down.
    So I am sympathetic to what you are saying here and wanted 
you to know, in case you had not picked up that earlier comment 
on my part, that this subcommittee, speaking not only for 
myself but for the other members of the subcommittee with whom 
I have had obvious conversations, is not disposed to go along 
with the House call for a freeze.

                          subcommittee recess

    Your testimony is very helpful. We will pay close heed to 
it.
    Mr. Orton. Thank you.
    Ms. Zargorn. Thank you very much for your time.
    Senator Bennett. Thank you for coming in.
    The subcommittee is recessed.
    [Whereupon, at 11:38 a.m., Thursday, June 5, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                         TUESDAY, JUNE 10, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room S-128, the 
Capitol, Hon. Robert F. Bennett (chairman) presiding.
    Present: Senators Bennett and Dorgan.

                          OFFICE OF COMPLIANCE

STATEMENTS OF:
        GLEN NAGER, CHAIRMAN OF THE BOARD
        RICKY SILBERMAN, EXECUTIVE DIRECTOR
ACCOMPANIED BY:
        DENNIS DUFFY, GENERAL COUNSEL
        JAMES STEPHENS, DEPUTY EXECUTIVE DIRECTOR FOR THE HOUSE
        PAM TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
        BETH HUGHES-BROWN, BUDGET OFFICER

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order.
    This morning we are scheduled to hear testimony from the 
Office of Compliance, the Secretary of the Senate, the Sergeant 
at Arms, and the Architect of the Capitol in their budget 
requests for 1998. We will start with the Office of Compliance. 
We have as witnesses, Mr. Glen Nager, Chairman of the Board, 
and Ms. Ricky Silberman, Executive Director.
    I want to commend the Office of Compliance for carefully 
reviewing their budget and keeping their budget request not 
only within bounds of inflation, but they actually have a 0.3-
percent reduction from their fiscal year 1997 level.
    That is the good news in statistical terms. The bad news in 
overall terms is it is only $9,000. Folks who would love to 
spend that elsewhere will find that that is relatively small, 
but nonetheless you start out with a small budget and any kind 
of reduction is much appreciated.
    Mr. Nager, we will go with you.

            statement of Chairman of the Board of Directors

    Mr. Nager. Thank you very much, Mr. Chairman. It is 
obviously an honor for me to be here. Today marks the first 
time that the Office has appeared before this committee and it 
is the first time I have had an opportunity to appear before 
you.
    As a private citizen for most of my life, and as a public 
servant for a small portion of it now in this part-time 
position, it is a special honor to be here before you today.
    The Office of Compliance was established by the 
Congressional Accountability Act as an independent office 
within the legislative branch. It has a Board of Directors of 
private citizens who are experienced in the labor and 
employment laws made applicable to Congress by the 
Congressional Accountability Act.
    As Chair of the Board, my first responsibility was to 
appoint the four officers who would serve on a full-time basis 
and provide the full-time management for the Office. We have 
assembled that team and I think it is a remarkable team that 
has done remarkable work in the first 2 years, including work 
with respect to the budget to try to keep this as lean an 
agency as we can and still perform the required statutory 
functions.
    If the chairman would allow me the honor, I would like to 
introduce these officers to you.
    Senator Bennett. We would be delighted.
    Mr. Nager. The Executive Director is Mrs. Ricky Silberman. 
Sitting behind me starting with my right is Mr. Dennis Duffy 
who is the General Counsel of the Office, Beth Hughes-Brown who 
is our Budget Officer, and then behind me is Mr. Jim Stephens 
who is the Deputy Executive Director for the House of 
Representatives, and Pam Talkin who is the Deputy Executive 
Director for the Senate.
    During our first 2 years as a Board, we have devoted the 
bulk of our time to putting out the regulations required for 
each of the laws that the Congressional Accountability Act 
applied to the legislative branch. The Office has implemented 
mediation and counseling programs designed to facilitate 
compliance with those regulations and the underlying laws. As 
of December 31, 1996, all of the regulations that the 
Congressional Accountability Act asked the Board to promulgate, 
have been promulgated and either have been approved by the 
Congress, or are awaiting approval by the Congress.
    With that initial phase completed, the Board now is turning 
to its other principal task which is the adjudication of cases 
that have been filed and have not, unfortunately, been resolved 
in the mediation and counseling processes that precede Board 
consideration.
    The bulk of the Office's activities, though, are in the 
mediation, counseling, and case processing areas, and these 
operations are under the direction and responsibility of the 
Executive Director--including identifying the funding needs of 
the Office. So, if I might, I would like to turn to Ms. 
Silberman to discuss the operations of the Office and our 
budget request.
    Thank you for the opportunity to appear before you.
    Senator Bennett. Thank you, sir.

                  testimony of the Executive Director

    Ms. Silberman.
    Ms. Silberman. Mr. Chairman, it is a pleasure for me to be 
here and to thank you and the committee and its staff, 
particularly Christine Ciccone, for your guidance and support. 
Getting this fledgling agency started has been no small task, 
but we are now 2 years into it. The chairman described us as 
lean. I hope we are not lean and mean, but we try to be lean 
and tough and fair.
    The Congressional Accountability Act of 1995 applied for 
the first time 11 employment and labor laws to the legislative 
branch and created the Office of Compliance, an independent 
agency with a unique structure and responsibilities, to 
implement, administer, and enforce the CAA. Today I would like 
to very briefly summarize how the work of the Office and the 
Board has been organized in order to fulfill the important 
promises of this landmark legislation, and why we come before 
you today with the budget request that we do.
    Under the CAA, the Board, composed of five experienced 
labor and employment lawyers appointed by the bipartisan 
leadership of both Houses who serve on a part-time basis, has 
responsibility for promulgating regulations, conducting 
statutorily mandated studies and reports, and considering 
adjudicative appeals arising from complaints filed under the 
CAA, as well as other specifically designated decisions.
    Operational responsibilities are assigned to the four 
statutory appointees whom Chairman Nager introduced. We are 
appointed by the Chair with the Board's approval. As the 
Executive Director, I am the statutory chief operating officer 
of the Office, and the Deputy Directors for the Senate and the 
House have their own statutory roles. With the General Counsel, 
together we are responsible for, among other things, the 
alternative dispute resolution and adjudicative systems, the 
education and information function, which is enormously 
important, the liaison function with the Senate and House, and 
for developing recommendations to the Board for substantive 
regulations.
    Additionally, the CAA assigns responsibility to the 
Executive Director for promulgating procedural regulations, and 
to the General Counsel for the inspection and prosecutorial 
functions arising under OSHA and ADA and the investigation and 
prosecution of unfair labor practices under the labor-
management relations section of the CAA.
    Thus, the Congress has assigned certain responsibilities to 
the Board, certain responsibilities to the Executive Director, 
and certain responsibilities to the General Counsel. One of the 
great challenges that we have had in organizing and staffing 
the Office has been to keep those functions and 
responsibilities separate which, by statute and principles of 
constitutional and administrative law, must be separate, while 
at the same time maintaining the flexibility to get the job 
done with as few full-time staff as possible.
    Although the Office is operating with far fewer people than 
we originally thought necessary to fulfill the mandates of the 
CAA, we have with this small, lean, full-time staff promulgated 
hundreds of pages of regulations, researched and written 
reports and studies, developed and disseminated voluminous 
educational materials, and I am proud to say have met every 
statutory obligation imposed by the CAA in a timely manner. I 
think that is because we recruited and hired staff who not only 
have the requisite qualifications but also the talent and 
versatility to perform the various functions mandated under the 
CAA.
    I should add here that the decision to out-source mediators 
and hearing officers was based on principles of both separation 
and cost effectiveness, as well as the necessity of having 
their great experience and wide-ranging expertise available to 
us on an as-needed basis.

           Alternative dispute resolution and case processing

    I want to take just a couple of minutes to describe the 
Office's core function which is what we are spending a lot of 
the money that you are giving us on, and that is the 
alternative dispute resolution and case processing system which 
is predicated on the notion that an informed, regulated 
community, and early resolution of disputes is best for 
everyone, that is, both employees and employers.
    Thus, the system is designed to be front-loaded with 
information and counseling so that disputes can be resolved as 
early as possible. To that end, the Office provides information 
on the rights and responsibilities under the CAA with 
briefings, printed materials, brochures, posters, factsheets, 
manuals, a web site which has been used as a model for other 
agencies, a 24-hour automated telephone information response 
system and trained counselors who answer questions and give 
advice informally. The formal process begins with counseling, 
followed by mediation, both of which are prerequisites to 
filing a complaint under the CAA either in Federal court or in 
the Office of Compliance.
    Strict confidentiality is maintained during both counseling 
and mediation, and that is mandated under the statute. The 
Congress made very clear that that is something that they felt 
was very important, and that is something that we have sought 
to maintain, and have, in fact, maintained.
    Our adjudicatory process consists of a hearing in which an 
independent hearing officer ascertains the facts, applies the 
law, and renders a written decision which can then be appealed 
to the Board. The requirements of confidentiality of 
independent experienced mediators and adjudicators as well as 
the availability of the same remedies as provided in Federal 
court ensure the essential perception and reality of the 
credibility, neutrality, and fairness of our processes.
    Our written testimony describes these functions and 
accomplishments in detail, and I thought you might be 
interested in a very brief snapshot of how well the alternative 
dispute resolution and adjudication systems, the core functions 
of the Office, are working. They went into effect on January 
23, 1996.
    Between January 23, 1996, when the act went into effect and 
May 31, 1997, the Office has received over 2,400 calls and 
visits from employees and employing offices requesting 
information. The vast majority of the employees making 
inquiries did not find it necessary to go further in the 
process. In fact, as of May 31, only 184 formal requests for 
processing, which is the way the actual complaint is started, 
were filed and many of these were resolved satisfactorily very 
early in the process. Following the counseling period, there 
have been 138 requests for mediation and 85 cases have been 
closed or settled during the counseling and mediation period. 
We still have 59 cases in which that period is ongoing, so we 
cannot draw conclusions about these cases yet.
    The bottom line is that in the 17 months since the act went 
into effect, 15 complaints have been filed with the Office, 
five hearings have been held, and the decisions of the hearing 
officers in those cases are now being appealed to our Board. I 
think it is significant that of the 184 formal requests for 
counseling, only two legislative branch employees have filed 
cases in Federal district court.
    In the 18 short months since this Office came into 
existence, much has been accomplished. We have endeavored to 
fulfill our statutory mandate faithfully, effectively, and in a 
cost-efficient manner. Although we come before you today better 
able to assess our experience and project from that experience 
our future needs, of course, there remains the uncertainty that 
is a concomitant of sailing in unchartered waters--which is 
what we have been doing from the beginning. But at this point I 
think it is fair to say that the processes are working 
extremely well. This speaks not only to the good work of the 
Office but more importantly to the commitment of Congress to 
the important principles of the Congressional Accountability 
Act.

                           prepared statement

    The Chairman and I are here to answer your questions, and I 
thank you very much for the opportunity to be here today.
    [The statement follows:]
                 Prepared Statement of Ricky Silberman
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the budget request of the Office of Compliance (Office) for 
fiscal year 1998. The Office of Compliance, an independent office 
within the legislative branch of the Federal Government, is authorized 
by the Congressional Accountability Act of 1995 (CAA) to apply the 
rights and protections of eleven labor and employment laws to covered 
employees of the legislative branch. The Office is charged with 
implementing and enforcing the provisions of the CAA, providing 
education and information regarding the provisions, and administering a 
neutral dispute resolution and adjudication process for claims arising 
under the Act.
    To carry out these functions, the Office is requesting $2,600,000 
for fiscal year 1998, a decrease of $9,000 from the Office's fiscal 
year 1997 appropriation, with no increase in staff, based on an 
analysis of the agency's actual expenditures during its first year of 
operations. The request includes: funding for 19 full-time equivalent 
positions (FTE's); funding for a 3 percent cost of living increase for 
salaries; a reduction of 20 percent in personnel benefits; and a 23 
percent reduction in other services, primarily for hearing officers, 
mediators, and court reporting services.
    This request is based on two assumptions: that the Office of 
Compliance will remain co-located with the Library of Congress, and 
that the Office's caseload will remain at roughly its current level. 
Additional funding and staffing will be requested should either of 
these assumptions prove erroneous.
    Additionally, sections 210 and 215 of the CAA, which mandate 
investigations and allow for hearings with regard to both the public 
services and accommodations provisions of the Americans with 
Disabilities Act and the Occupational Safety and Health Act, went into 
effect on January 1, 1997. Although the Office is requesting the same 
number of FTE positions as in fiscal year 1997, we cannot predict how 
the major new ADA and OSHA functions will affect staffing requirements. 
Finally, pursuant to section 230 of the CAA, we submitted a study to 
Congress on December 30, 1996, on the application of the employment and 
labor laws incorporated in the CAA to the General Accounting Office, 
the Government Printing Office, and the Library of Congress. Should 
Congress decide that GPO, GAO and/or the Library of Congress should be 
covered under all of the provisions of the CAA, additional funding and 
staffing will be requested for the Office of Compliance.
         office of compliance's authority and responsibilities
    The Congressional Accountability Act of 1995 (CAA) established an 
independent Office of Compliance (``Office'') in the federal 
legislative branch. In addition to the five-member Board of Directors 
who serve on a part-time basis, the CAA establishes four statutory 
officers: the Executive Director, the Deputy Executive Directors for 
the House and Senate, and the General Counsel.
    Under the CAA, the Office is charged with establishing and 
administering alternative dispute resolution procedures, including 
adjudicative hearings and appeals for covered legislative branch 
employees. The CAA requires the Office's Executive Director, subject to 
Board approval, to adopt rules governing the procedures of the Office, 
and requires the Board to adopt substantive regulations for 
implementation of the CAA.
    The Office is also charged with providing education and information 
to Members of Congress, other employing offices, and employees of the 
legislative branch. Additionally, the Office of the General Counsel is 
charged with enforcement of the sections of the CAA dealing with unfair 
labor practices, safety and health, and disability access. This 
includes investigation and prosecution of claims under these sections, 
and periodic inspections to ensure compliance with health and safety, 
as well as disability access requirements.
    In general, the CAA applies the rights and protections of eleven 
labor and employment statutes to covered employees within the 
legislative branch: the Fair Labor Standards Act of 1938, Title VII of 
the Civil Rights Act of 1964, the Americans with Disabilities Act of 
1990, the Age Discrimination in Employment Act of 1967, the Family and 
Medical Leave Act of 1993, the Occupational Safety and Health Act of 
1970, chapter 71 of title 5 of the U.S. Code (relating to Federal 
service labor-management relations), the Employee Polygraph Protection 
Act of 1988, the Worker Adjustment and Retraining Notification Act, the 
Rehabilitation Act of 1973, and chapter 43 of title 38 of the U.S. Code 
(relating to veterans' employment and reemployment).
    On January 23, 1996, key provisions of the law took effect, 
covering the House of Representatives, the Senate, the Capitol Guide 
Service, the Capitol Police, the Congressional Budget Office, the 
Office of the Architect of the Capitol, the Office of the Attending 
Physician, the Office of Compliance, and their employees. On October 1, 
1996, section 220, the labor management section of the CAA took effect, 
as did the OSHA and ADA sections on January 1, 1997.
    Before discussing our request in detail, the following describes 
the primary functions and processes of the Office, highlighting our 
major accomplishments of fiscal year 1996 and noting the changes we 
anticipate in the upcoming fiscal years.
                       dispute resolution process
Information, Counseling, and Mediation
    The Office provides covered employees in the legislative branch 
with a neutral, confidential, and efficient process for resolving 
disputes relating to employment rights and protections. Employees and 
employing offices may, at any time, seek informal advice and 
information on the procedures of the Office and the rights, 
protections, and responsibilities afforded under the CAA. The Office 
responds to all inquiries on a confidential basis, and tracks both the 
number and the nature of the inquiries.
    Under the CAA, employees must request counseling and mediation 
under the auspices of the Office of Compliance before filing a formal 
complaint. If the employee's concerns are not resolved during the 30-
day counseling period and the employee requests mediation in a timely 
manner, the Office provides neutral, trained mediators to assist the 
parties in resolving the dispute. The period for mediation is generally 
30 days, but may be extended at the request of the parties. Pursuant to 
section 416 of the CAA, all counseling and mediation is confidential.
Adjudication
    After counseling and mediation, if the dispute remains unresolved, 
the employee may choose either to pursue the claim through the 
adjudicative hearing process under the auspices of the Office, or file 
suit in Federal District Court. An employee who elects the adjudicative 
procedures of the Office must file a formal complaint with the Office. 
The Executive Director appoints an independent Hearing Officer to 
consider the case and render a written decision, which may be appealed 
to the Office's Board of Directors. The Board of Directors issues 
written decisions, which may then be appealed to the U.S. Court of 
Appeals for the Federal Circuit. The administrative hearing process 
offers speedier resolution and confidentiality, while offering the same 
remedies as civil action.
    Since January 23, 1996, when the CAA's dispute resolution process 
went into effect, a total of 2,420 requests for information were made 
to the Office directly, or to the Office's information line. In fiscal 
year 1996, a total of 61 formal counseling requests were filed. Of 
these, 23 were resolved during, or were not pursued past, this early 
stage of the alternative dispute resolution (ADR) process. Twenty-five 
requests for mediation were received in fiscal year 1996. Two hearings 
were held, involving nine complainants.
    In the first eight months of fiscal year 1997, a total of 123 
formal counseling requests were filed. A total of 113 requests for 
mediation have been received thus far in fiscal year 1997, some 
resulting from cases initiated in fiscal year 1996. Sixty-two cases 
were either resolved during, or not pursued past, the counseling and 
mediation stages of the ADR process. Three hearings have been held, and 
two more are scheduled.
    Although we are still working with limited statistics, the data 
demonstrate the effectiveness of the ADR process provided under the 
CAA. Because sufficient information is provided on an informal basis, 
the vast majority of potential claims never reach the counseling stage. 
Other claims are resolved in counseling, and thus do not require 
mediation. Mediation has been most effective in resolving many cases 
either through settlement, or by providing the employees with 
information that satisfies them that further proceedings are not 
warranted. Complaints have been filed in only a very few of our cases, 
necessitating hearings after the mediation stage. The ADR system is 
working as Congress envisioned.
    The Office has developed a computerized case-tracking system in 
order to meet statutory time frames, efficiently manage and report to 
Congress as mandated.
          inspections, technical assistance and investigations
Occupational Safety and Health
    Pursuant to section 215 of the CAA, the Office of the General 
Counsel (OGC) conducts regular periodic inspections--at least once each 
Congress--of all facilities in which employees covered by the CAA work. 
On the basis of these inspections, the OGC reports on compliance with 
the provisions of section 5 of the Occupational Safety and Health Act 
of 1970, as applied by section 215 of the CAA. The OGC also assists the 
Office of the Architect of the Capitol and other covered entities, by 
arranging for inspections and other technical assistance at their 
request.
    In fiscal year 1996, the OGC completed the initial inspection of 
all facilities of the House of Representatives, the Senate, the Capitol 
Guide Service, the Capitol Police, the Congressional Budget Office, the 
Office of the Architect of the Capitol, the Office of the Attending 
Physician, the Office of Compliance, the Library of Congress, and the 
General Accounting Office, between January and June of 1996. The report 
submitted to the 104th Congress detailed findings on almost 20 million 
square feet inspected. I am pleased to transmit with this testimony a 
copy of this report (which was printed and bound by the Government 
Printing Office, as were the other attached reports).
    Effective January 1, 1997, under section 215 of the CAA, the 
General Counsel is responsible for receiving and processing requests 
for inspections, and for inspecting and investigating facilities and 
issuing citations regarding violations of occupational safety and 
health standards.
Public Accommodations under the Americans with Disabilities Act
    Pursuant to section 210 of the CAA, the Office of the General 
Counsel conducts regular periodic inspections--at least once each 
Congress--of all facilities in which employees covered by the CAA work. 
On the basis of these inspections, the OGC reports on compliance with 
the rights and protections against discrimination in the provision of 
public services and accommodations established by the Americans with 
Disabilities Act, as applied to covered facilities by section 210 of 
the CAA. The OGC also assists the Office of the Architect of the 
Capitol and other covered entities by arranging for inspections and 
other technical assistance at their request.
    Between January and June, 1996, the OGC completed the initial 
inspection of the House of Representatives, the Senate, the Capitol 
Guide Service, the Capitol Police, the Congressional Budget Office, the 
Office of the Architect of the Capitol (including the Senate Restaurant 
and the Botanic Garden), the Office of the Attending Physician, and the 
Office of Compliance, and submitted a report on the findings to the 
104th Congress. A copy of the report is transmitted with this 
testimony.
    Effective January 1, 1997, the General Counsel is authorized by 
section 210 of the CAA to receive complaints of alleged violations of 
the public accommodation provisions of the Americans with Disabilities 
Act. He is to investigate such charges and, if warranted, issue and 
prosecute complaints against any entity responsible for correcting the 
alleged violation.
Labor-Management Relations
    Effective October 1, 1996, the Office has carried out the Board's 
investigative authorities under section 220(c)(1) of the CAA, involving 
issues concerning the appropriateness of units for labor organization 
representation, the duty to bargain, and exceptions to arbitrators' 
awards. Since that time, three representation petitions have been 
filed, two pre-election investigatory hearings have been held, and two 
elections have been conducted.
    The General Counsel is responsible for receiving and investigating 
allegations of unfair labor practices filed under section 220 of the 
CAA, and for filing and prosecuting complaints of unfair labor 
practices with the Office.
    The Office of the General Counsel has received a total of 188 
requests for information and/or technical assistance since July 1, 
1996, under sections 210, 215, and 220. Most of these have been 
regarding the OSHA and ADA provisions of the CAA. Eight requests for 
inspection have been filed under section 215 (safety and health), and 
five unfair labor practices charges have been filed under section 220.
                       education and information
    The CAA mandates an ongoing education and information effort by the 
Office. The Office provides to Congress, other employing offices of the 
legislative branch, and covered employees information on the laws 
applied by the CAA, the Office of Compliance, and its procedures for 
dispute resolution and adjudication of claims, as well as any other 
information the Office deems necessary.
    During fiscal year 1996, a 330-page reference manual was 
distributed to approximately 600 employing offices that included 
summaries of the eleven laws applied by the CAA, a question and answer 
section for each law, and a complete set of the Office's procedural and 
substantive rules, updates, and other materials. Periodic updates to 
the manual are distributed to all employing offices throughout the 
year. In addition, a poster providing information on the eleven laws 
applied by the CAA, the Office's address, and phone numbers was 
distributed to all employing offices; an informational brochure 
containing brief summaries of the eight laws applied by the CAA on 
January 23, 1996, employee rights and protections, and the procedures 
of the Office was mailed to the residences of the 26,000 employees 
covered by the CAA. Briefings were presented by the Office to employing 
office staff to provide information and guidance on the CAA; the 
sessions were videotaped for use in district offices and for loan to 
new employing offices; and introductory briefings on the CAA were 
conducted for covered employees. The first quarterly newsletter, The 
CAA News, containing updated information on the CAA was mailed in 
October to the residences of the 20,000 employees covered by the CAA.
    A world wide web site was developed and implemented for 
disseminating Office of Compliance information via the Internet. The 
web site (www.compliance.gov), is maintained on a GPO server and is 
accessible via GPO's ACCESS system; it is updated on an ongoing basis. 
An interactive telephone information line was established which directs 
callers to recorded information, or to an Office staff member who can 
discuss claims and provide resource referrals, and keeps statistics on 
how many calls are received by category. The CAA also requires the 
Office to publish statistics on the use of the Office by covered 
employees. We anticipate publishing the first such report based on 
statistics for the year ending June 30, 1997, and annually thereafter.
                           regulation writing
    The CAA requires the Executive Director, subject to Board approval, 
to adopt rules governing the procedures of the Office. The CAA further 
requires the Board to adopt, subject to Congressional approval, 
substantive regulations implementing provisions of the Fair Labor 
Standards Act, the Family and Medical Leave Act, the Employee Polygraph 
Protection Act, the Worker Adjustment and Retraining Notification Act, 
Titles II and III of the Americans with Disabilities Act, the 
Occupational Safety and Health Act, and the Federal Service Labor-
Management Relations Statute, as applied by the CAA.
    During fiscal year 1996, the Office reviewed thousands of pages of 
executive branch regulations, solicited comments and consulted 
extensively with interested parties in developing substantive 
regulations and procedures. Comprehensive procedural rules for the 
Office were developed, published for comment, and adopted and issued on 
December 22, 1995. The substantive regulations implementing the Fair 
Labor Standards Act, the Family and Medical Leave Act, the Employee 
Polygraph Protection Act, and the Worker Adjustment and Retraining 
Notification Act, as applied by the CAA, became effective on January 
23, 1996. The regulations for the implementation of the three remaining 
laws made applicable, i.e., OSHA, Titles II and III of the ADA, and the 
Federal Service Labor-Management Relations Statute, were developed, 
published for comment, and adopted by the Board between February and 
December 1996. The procedural rules were then amended to provide for 
implementation of sections 210, 215 and 220.
                          studies and reports
    The CAA mandates several studies to be completed during fiscal year 
1996 and 1997. Under section 230 of the CAA (2 U.S.C. Sec. 1371), the 
Administrative Conference of the United States (ACUS) was required to 
undertake a study on the application of the rights, protections, and 
procedures under the eleven employment and labor laws in the CAA to the 
General Accounting Office, the Government Printing Office, and the 
Library of Congress and their employees. Pursuant to section 309 of the 
Legislative Branch Appropriations Act for Fiscal Year 1996, the Board 
was made responsible for this study, which was presented to Congress on 
December 30, 1996.
    Section 102(b)(2) of the CAA required the Board to submit a report 
to Congress on the applicability to the legislative branch of 
employment laws, beginning on December 31, 1996, and every two years 
after that. The report was submitted to Congress on December 30, 1996.
    Sections 210(f)(2) and 215(e)(2) of the CAA required the General 
Counsel of the Office to submit, at least once every Congress, a report 
to Congress and the Office of the Architect of the Capitol containing 
the results of the periodic inspections required by the CAA. These 
studies, discussed in the Inspections, Technical Assistance, and 
Investigations section above, must also outline the steps necessary to 
remedy a violation, describe the consequences of each violation, and 
estimate the cost and time needed to correct the violation. The initial 
section 210 and section 215 studies were presented to Congress on June 
28, 1996.
    Much of the research for and writing of the section 102(b) and 
section 230 studies were completed in fiscal year 1996. For the section 
230 study, the Office conducted outreach and collected data from the 
three instrumentalities, as well as other interested parties. For the 
section 102(b) study, all new and existing legislation was surveyed, 
including regulations relating to the terms and conditions of 
employment of employees and access to public services and 
accommodations. Reports on both studies may be found on the Office's 
home page (http://www.compliance.gov), and I am pleased to present a 
copy of each to you with this testimony.
    The Board has approved an interim section 102(b) study on those 
sections of the CAA laws not specifically incorporated into the CAA. We 
anticipate the publication of this interim study early in fiscal year 
1998. In addition, as noted, section 102(b) of the CAA mandates the 
examination of all new and existing legislation on a biannual basis. 
The second full 102(b) study will be conducted during fiscal year 1998, 
and the report will be issued in early fiscal year 1999.
               administrative and financial improvements
Accomplishments in fiscal year 1996
    Early in fiscal year 1996, the Office occupied a small suite of 
offices in the Adams building of the Library of Congress on a temporary 
basis. It was expanded with considerable assistance from the Library 
and its staff in January of this year.
    The Office developed a budget and accounting system that complies 
with Generally Accepted Accounting Principles, tracks expenditures by 
primary process or function, complies with appropriations law, and, 
voluntarily, with FAR guidelines. The new system was implemented on 
October 1, 1996. The Office also implemented the Debt Collection 
Improvement Act of 1996, which required all new vendors to be paid via 
electronic fund transfer (EFT) effective on July 26, 1996. Although 
requiring that existing vendors be paid via EFT is not mandatory until 
January 1, 1999, the Office has already achieved upwards of 85 percent 
compliance with this requirement. The Office also prepared and 
submitted its first President's and Legislative Branch budgets and 
justifications.
    With considerable help from Library of Congress financial, budget, 
and personnel staff, we planned for and effected a change in the agency 
that provides administrative support--from GSA to the LOC. The Library 
now provides disbursement and budget support, obligations and voucher 
processing, and payroll services through the National Finance Center. 
The Office has on-line access to both the Library's Federal Financial 
System and Reports Management System, for purposes of producing reports 
and analyzing budget status.
    The Office developed and installed a completely internal Local Area 
Network (LAN). The primary consideration in the design of the LAN was 
strict compliance with section 416 of the CAA, which requires 
confidentiality in most of our processes; therefore, its design allows 
for no external physical connectivity. The e-mail, word processing, 
spreadsheet, and other software used by Office staff reside on the LAN. 
The cabling for the network was provided and installed by the Library 
of Congress and the Architect of the Capitol. The majority of the 
equipment was obtained from the Office of Technology Assessment.
    In order to ensure consistency with statutory time frames, 
efficiently manage and report to Congress as mandated, the Office's 
computerized case-tracking system has been developed and also resides 
on the LAN, in test mode. The system is both flexible and highly 
secure, also in accordance with the confidentiality requirements of 
section 416 the CAA, allowing even Office staff to access data only on 
a ``need-to-know'' basis.
    The Office implemented a phone system, voice mail system, and the 
world wide web site and interactive information line discussed in 
Education and Information above. The Office has Internet access, access 
to Westlaw on-line legal information services, and access to the 
Architect of the Capitol via e-mail, and we are linked to the Library 
of Congress's Federal Financial Services on-line system, all of which 
are via stand-alone computer (not connected to the LAN). The Office 
also developed and implemented a disaster recovery system for its 
confidential data. All files are backed up regularly on magnetic tape, 
and stored off-site.
    The Office established a small internal library of legal 
publications. For other publications, the Office relies on the 
collections of the Library of Congress.
                        fiscal year 1998 request
    The Office of Compliance's fiscal year 1998 budget request of 
$2,600,000 reflects a $9,000 (-0.3 percent) decrease from the fiscal 
year 1997 appropriation of $2,609,000. The request is predicated on two 
assumptions--that the Office will remain housed within the Library of 
Congress, and that the current workload will remain fairly constant.
    Since its inception, the Office has been located in the Adams 
building of the Library of Congress. Pursuant to an agreement with the 
Library, the space was expanded to accommodate our initial operations. 
On this basis, no additional funding for moving expenses, rent, 
utilities, or system and phone wiring has been included in this 
request. If the Office is required to relocate in fiscal year 1998, 
additional funding will be sought in a supplemental request.
    Although the Office is requesting the same number of FTE positions 
as in fiscal year 1997, we should again note that the CAA has not been 
in effect long enough to accurately predict future needs. It is 
similarly difficult to predict how the added responsibility of the ADA 
and OSHA functions will affect staffing requirements. In addition, on 
December 30, we submitted a study to Congress on the application of the 
employment and labor laws incorporated in the CAA to the General 
Accounting Office, the Government Printing Office, and the Library of 
Congress. Should Congress decide that GPO, GAO and/or the LOC should be 
covered under the CAA, additional funding and staffing will be needed 
for the Office of Compliance.
    Similarly with respect to projected costs for mediators, hearing 
officers, and court reporters, this budget request was extrapolated 
from fiscal year 1996 actual data that represented only two months of 
hearings and five months of mediations. Moreover, the Office's new 
functions under sections 210 and 215 of the CAA will include 
investigations and hearings with regard to both the public services and 
accommodations provisions of the ADA, and OSHA, and the labor 
management sections of the CAA. These functions could increase the need 
for mediation and hearing-related services.
    Costs for employee benefits are expected to be approximately 
$88,000 less in fiscal year 1998 than had been projected for fiscal 
year 1997. Our fiscal year 1997 request had been based on the average 
benefits ratio experienced by other agencies which did not turn out to 
be an accurate predictor.
    We continue to hire permanent full-time staff who are capable of 
performing the range of functions for which the Office has 
responsibility. Thus, we are requesting a total of $35,000 for the 
services of temporary employees, who will be needed to fill in on a 
targeted basis.
    Based on fiscal year 1996 actual expenditures, increases in 
postage, courier services, long distance data communications, and 
office supplies are requested, as is an increase in printing and 
reproduction, necessitated by the numbers of publications required to 
fulfill our statutory mandate for education and information. We are 
also requesting a $14,000 increase in equipment over the fiscal year 
1997 request.
    The Office is requesting a total increase of $10,000 for cost-
reimbursable services specified in our interagency agreement (IAG) with 
the Library of Congress, including copying, manual labor, and graphics 
design.
    No specific amount is requested for the Awards and Settlements 
appropriation, as the Office can predict neither the numbers nor 
amounts of awards in advance. In the first eight months of fiscal year 
1997, the Executive Director approved disbursements of a total of 
$36,429 to five complainants.
                               conclusion
    In the less than two years since this Office came into existence 
much has been accomplished. We have endeavored to fulfill our statutory 
mandate faithfully, effectively, and in a cost efficient manner. 
Although we come before you today better able to assess our experience 
and to project from that experience our future needs, of course there 
remains the uncertainty that is a concomitant of sailing in uncharted 
waters. But at this point, it is fair to say that the processes are 
working extremely well. This speaks not only to the good work of the 
Office, but, more importantly, to the commitment of Congress to the 
important principles of the Congressional Accountability Act.

    Senator Bennett. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, my regrets for being late. I 
have been involved in some meetings on the disaster bill which 
is obviously consuming the interests of my constituents and me 
and that has delayed me. I apologize.
    Senator Bennett. More than understandable.
    Senator Dorgan. I do not have any questions at the moment, 
but I appreciate very much the testimony and the good work of 
the witnesses.
    Senator Bennett. I do not have any serious questions that 
we need to spend a lot of time on. We will submit some 
questions in writing that we would ask you to respond to.

                      space in Library of Congress

    I understand you are housed in space within the Library of 
Congress and that there are a number of items in your budget 
that go to reimburse the Library. Could you briefly summarize 
what those are and give us your view as to what the future may 
hold in terms of where your offices might be and what that 
might do to future expenses?
    Ms. Silberman. Right now we have an administrative support 
services contract with the Library of Congress. We felt that 
that was the most cost-efficient way to get such things done as 
payroll and disbursements, because we are contiguous. They have 
given us very, very good service in these things. We switched 
from GSA to the Library of Congress.
    With respect to our space, it is kind of an awkward 
question, Mr. Chairman. We are very happy in the space. We do 
not know how happy they are to have us continue to be in that 
space.
    Senator Bennett. If it is nice space, they want it back. 
[Laughter.]
    Ms. Silberman. Well, I am sure that is true. Like with 
everything else on Capitol Hill, space is the most difficult 
issue, and I have to tell you that when I came up here after 11 
years with the EEOC in the executive branch, I had absolutely 
no idea that the first 5 months of my tenure would be consumed 
by finding this homeless agency some space. I will not go into 
that story now. It is not really for public consumption.
    At any rate, suffice to say that we are happy where we are. 
We understand that there are certain questions that need to be 
explored with our landlord. We do not think we are probably the 
best people to explore those questions, but if we have to move, 
there is no doubt that that will mean added costs for us which 
we did not factor into this budget request. The balance of 
interests with respect to how those costs are best allocated is 
not something we can speak to.
    What we wanted was space that was close to the constituents 
so that if people needed information and help, they could come 
to us easily, that was relatively secure in terms of the 
confidentiality requirements--and the Library has done a 
wonderful job in helping us to make that happen--and that was 
most cost efficient. We have done that now.

                     Additional committee questions

    Senator Bennett. OK, fine. Thank you very much for coming 
in. Our best wishes to you. It sounds from your testimony that 
your primary emphasis is on prevention not adjudication. I wish 
I had the same feeling about many of your sister efforts in the 
private world where the gotcha mentality seems to reign and 
they are not so interested in preventing things from happening 
or helping people understand. I commend you for that and look 
forward to visiting with you next time.
    Ms. Silberman. Thank you so much.
    Senator Bennett. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. The Office of Compliance determined that generally the 
rights of employees at GPO, LOC and GAO were comprehensive and 
effective. However, the Office did note that some gaps exist--what are 
these gaps?
    Answer. The study under section 230 of the CAA evaluated the rights 
and protections at the instrumentalities by making comparisons with the 
rights and protections under the CAA. Following this methodology, the 
study identified the following gaps:
    Substantive rights.--Employees at GPO are not covered under the 
Worker Adjustment and Retraining Notification Act or the Employee 
Polygraph Protection Act of 1988.
    Adequacy of administrative processes.--LOC employees have no right 
of appeal to the EEOC or to any other administrative body external to, 
and independent from, the Library when the Librarian of Congress denies 
a complaint of employment discrimination. Nor can a Library employee 
appeal to an outside agency when the Library takes action against the 
employee in violation of the Family and Medical Leave Act. GPO is not 
subject to the investigatory or enforcement authority of any outside 
agency in the occupational safety and health area. Nor can a GPO 
employee apply to an outside regulatory agency if the Public Printer 
denies the employee's complaint of discrimination on the basis of 
disability, or if the employee wishes to enforce rights under the 
Uniformed Services Employment and Reemployment Rights Act.
    Adequacy of judicial processes and relief.--Employees at GPO, like 
most federal civil service employees, do not have a private right of 
action for violations of the Family and Medical Leave Act or the 
Uniformed Services Employment and Reemployment Rights Act. Furthermore, 
while GAO and Library employees have been granted a private right of 
action under the Family and Medical Leave Act, they may not be entitled 
to a jury trial, because courts ordinarily do not provide jury trials 
in cases against the federal government without express statutory 
authority, and no statute expressly authorizes jury trials in cases 
brought under the Family and Medical Leave Act. For similar reasons, 
jury trials may be unavailable to employees of all three 
instrumentalities in cases under the Age Discrimination in Employment 
Act, the Fair Labor Standards Act, and the Equal Pay Act. Employees of 
the three instrumentalities, like most federal civil service employees, 
are also not entitled to recover compensatory damages under 42 U.S.C. 
Sec.  1981 or liquidated damages under the Age Discrimination in 
Employment Act. Finally, while GAO employees may have their 
discrimination complaints adjudicated administratively, and may then 
obtain judicial review in a court of appeals, a judicial decision has 
left some uncertainty as to whether GAO employees may pursue a 
discrimination complaint as a civil action.
    Adoption of substantive regulations.--In issuing an order to 
establish its labor-management program, GAO exercised discretion under 
the General Accounting Office Personnel Act to establish limits on 
appropriate bargaining units and on the scope of bargaining that are 
more restrictive than the provisions of the Federal Service Labor-
Management Relations statute, 5 U.S.C. chapter 71, as made applicable 
by the CAA.
    Question. Are there instances in which GAO, GPO, or LOC are 
governed by laws enforced by executive branch agencies, and in other 
instances where the same agency has the law enforced by a legislative 
branch agency, i.e.: the Office of Compliance?
    Answer. The situation described in the question is present at GAO 
and LOC, but not at GPO. With respect to GAO and LOC, certain laws are 
enforced by executive branch agencies (i.e., executive branch agencies 
may impose regulations, hear and decide employee complaints, conduct 
investigations, and/or take enforcement actions), while other laws are 
enforced by the Office of Compliance. With respect to GPO, some laws 
are enforced by executive branch agencies, but no laws are enforced by 
the Office of Compliance with respect to GPO. Furthermore, some laws 
are to be implemented by the three instrumentalities themselves, 
without enforcement by either an executive branch agency or the Office 
of Compliance.
    The following chart lists the laws made applicable to Congress by 
the CAA, and identifies where executive branch agencies enforce these 
laws with respect to GAO, GPO, and LOC, where the Office of Compliance 
enforces the laws, and where neither an executive branch agency nor the 
Office of Compliance enforces the laws.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                        Executive branch or legislative branch agencies that enforce the law with respect to--                                  
 Laws made applicable to Congress by -----------------------------------------------------------------------------------------------------------------------------------------------------------
               the CAA                                        GAO                                                 GPO                                                 LOC                       
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Employment discrimination laws......  Regulatory authority is exercised by the            EEOC, except that, under the Americans with         Regulatory authority is exercised by the Librarian
                                       Comptroller General and the GAO Personnel Appeals   Disabilities Act, regulatory authority is           of Congress.                                     
                                       Board (PAB).                                        exercised by the Public Printer.                                                                     
Fair Labor Standards Act............  Office of Personnel Management (OPM)..............  OPM...............................................  Department of Labor. Also, OPM may hear some      
                                                                                                                                               employee claims.                                 
Family and Medical Leave Act........  OPM until 12/30/97. Beginning on 12/30/97, under    OPM. Also, the Merit Systems Protection Board       OPM until 12/30/97. Beginning on 12/30/97, under  
                                       an amendment made by the CAA, regulatory            (MSPB) may hear some employee claims.               an amendment made by the CAA, regulatory         
                                       authority will be exercised by the Comptroller                                                          authority will be exercised by the Librarian of  
                                       General. The PAB may hear some employee claims.                                                         Congress.                                        
Occupational Safety and Health Act..  Office of Compliance, beginning on 12/30/97. (Now,  The law is to be implemented by GPO. Also, reports  Office of Compliance, beginning on 12/30/97. (Now,
                                       reports must be filed with the Labor Department.).  must be filed with the Labor Department.            reports must be filed with the Labor             
                                                                                                                                               Department.).                                    
Federal Service Labor-Management      Regulatory authority is exercised by the            Federal Labor Relations Authority.................  Federal Labor Relations Authority.                
 Relations Statute.                    Comptroller General and the PAB.                                                                                                                         
Worker Adjustment and Retraining      Office of Compliance, beginning on 12/30/97.......  Law does not apply................................  Office of Compliance, beginning on 12/30/97.      
 Notification Act.                                                                                                                                                                              
Uniformed Services Employment and     Office of Compliance, beginning on 12/30/97. (Now,  The law is to be implemented by GPO. (Also, the     Office of Compliance, beginning on 12/30/97. (Now,
 Reemployment Rights Act.              OPM, Labor Department, Office of Special Counsel,   Labor Department may investigate and seek           the Labor Department may investigate and seek    
                                       MSPB.).                                             compliance by informal means.).                     compliance by informal means.).                  
Employee Polygraph Protection Act...  Office of Compliance, beginning on 12/30/97.......  Law does not apply................................  Office of Compliance, beginning on 12/30/97.      
Public access provisions of the       Regulatory authority is exercised by the            Regulatory authority is exercised by the Public     Regulatory authority is exercised by the Librarian
 Americans with Disabilities Act.      Comptroller General. Additional administrative      Printer. Additional administrative remedies and     of Congress. Additional administrative remedies  
                                       remedies and procedures become effective on 12/30/  procedures become effective on 12/30/97 under an    and procedures become effective on 12/30/97 under
                                       97 under an amendment made by the CAA, but the      amendment made by the CAA, but the Public Printer   an amendment made by the CAA, but the Librarian  
                                       Comptroller General remains responsible for         remains responsible for implementation.             of Congress remains responsible for              
                                       implementation.                                                                                         implementation.                                  
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Furthermore, at all three instrumentalities, certain civil service 
laws outside the scope of the CAA are enforced by executive branch 
agencies. For example, the Office of Personnel Management (OPM) 
enforces laws on position classification and grading with respect to 
GPO and LOC. OPM, the Office of Special Counsel, and the Merit Systems 
Protection Board also enforce laws on prohibited personnel practices, 
adverse actions, and RIF's with respect to GPO. OPM's regulations on 
premium pay and on flexible and compressed work schedules apply to GAO, 
and OPM's regulations on benefits and annual and sick leave apply to 
all three instrumentalities.
                              U.S. SENATE

                 Office of the Secretary of the Senate

STATEMENT OF HON. GARY SISCO, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        SHARON ZELASKA, ASSISTANT SECRETARY OF THE SENATE
        STUART BALDERSON, FINANCIAL CLERK OF THE SENATE
        LOUISE CAMPANALE, SPECIAL ASSISTANT, FINANCIAL MANAGEMENT 
            INFORMATION SYSTEM AND LEGISLATIVE INFORMATION SYSTEM

                            opening remarks

    Senator Bennett. The next panel will be the Secretary of 
the Senate. We will have the Honorable Gary Sisco. Gary, I ask 
you to introduce whomever you have with you.
    Mr. Sisco, we want to welcome you before the committee. 
This is your first time testifying as Secretary of the Senate.
    The Office of the Secretary has been actively pursuing two 
large projects: Implementation of the financial management 
system and the legislative information system.
    Mr. Sisco. That is correct.
    Senator Bennett. We look forward to hearing about your 
progress in these areas and whatever other information you wish 
to share with us.
    Senator Dorgan, do you have any opening remarks?
    Senator Dorgan. No; I welcome Mr. Sisco and appreciate the 
service he is giving the Senate. We have great cooperation from 
his office, and since this is his first appearance, we are here 
to say welcome and we are anxious to hear your testimony.

                       introduction of Associates

    Mr. Sisco. Thank you. Mr. Chairman and Senator Dorgan, I do 
thank you for the invitation to appear before the committee 
today to present the fiscal year 1998 budget request for the 
Office of the Secretary. This is a short summary which should 
run only 10 to 12 minutes, and the longer statement has been 
submitted previously in writing.
    This is my first appearance before the committee, and it is 
an honor and a pleasure to have served as the Secretary of the 
Senate since October. I look forward to working with this 
committee and each Senator and the full Senate in the future.
    With me this morning are three people whom I want to 
introduce: Sharon Zelaska, who is the Assistant Secretary, who 
supervises the day-to-day administration of the Secretary's 
office, and by law she would perform most of my duties in the 
event of my absence. She came to the Senate in February, 
bringing two decades of experience in the Congress and in the 
executive branch of Government.
    Also here is someone familiar to you, Stuart Balderson, the 
Financial Clerk of the Senate. He has submitted to you a 
separate report concerning the overall budget of the Senate and 
the requests there. My testimony this morning will be limited 
to the Secretary's office itself.
    Also here with me this morning is Louise Campanale. Ms. 
Campanale, who comes to us from one of the major big six 
national accounting and consulting firms and who has an M.B.A. 
in accounting with a lot of experience, has joined the office 
as a special assistant to me for financial and legislative 
systems development to make sure we move these two systems 
along.
    In addition to Sharon, Stuart, and Louise, there are other 
people here, and there are more than 200 capable and dedicated 
staff who make up the departments of the Secretary's office. I 
just want to go on record that I think their contributions have 
been highly valued. They have been easy to work with and they 
are essential for us to continue to perform the constitutional 
responsibilities of the Senate.
    As Secretary, I serve as the Senate's chief legislative, 
administrative, and financial officer. My responsibilities are 
established variously in statutes, in rules, resolutions, and 
precedents of the Senate, and in direction from the Senate 
leadership and the committees, of course. But all of our 
responsibilities have a common focus and that is to enable or 
assist the Senate in fulfilling its role within our 
constitutional form of Government.
    In this statement this morning, though, my main emphasis is 
where we are now and where we are going in the future with your 
support and the support of the Senate.

                  proposed Budget for fiscal year 1998

    I have proposed a budget for the Office of the Secretary 
for fiscal year 1998 of $14,942,000, of which 89.1 percent, or 
about $13,431,000 is for salaries and $1,511,000 is for 
expenses. Compared to last year, there is a freeze on expenses 
and the salary request is a 5.64-percent increase.
    This increase includes $342,000 for cost-of-living 
allowances, $75,000 for potential overtime as we take on these 
new responsibilities, $150,000 for new positions, and $150,000 
for merit-based salary increases. There is no increase, as I 
said, for the total expenses, but there are some realignments 
based on past spending patterns and some increases that are 
narrowly focused to bring us into target with what we want to 
do today and looking forward.
    Broadly stated, the priorities that I am operating under 
and that are driving the budget are, first, to preserve the 
best and improve the rest of our current legislative, 
administrative, and financial services to the Senate.
    Second, to implement, under strategic planning--working 
very closely with the Rules Committee and the Sergeant at 
Arms--in the areas of improved financial management and 
legislative information management.
    Third, to achieve our vision--the Senate and the House 
vision--for the Capitol visitor center.
    I think the budget request being presented is sensitive to 
the demand of the leadership of the Senate, the Appropriations 
Committee, and the American public that Government become more 
efficient. But, we did not put it together with the emphasis on 
cutting for cuts' sake. We exist to serve the Senate.
    In 1995 to 1996, the Secretary's office absorbed a 
reduction across the board of 12 percent. For the current 
fiscal year, 1997, my predecessor requested what was 
essentially a freeze of the 1996 budget, and since 1995 we have 
taken on significant new responsibilities without any 
significant new funding, and we have got two major initiatives 
coming up.
    For these reasons and others, I am not looking for cuts, as 
I said, for the sake of cuts, but wherever I can, I am going to 
save dollars and make us more efficient. For example, after my 
arrival in October, at the end of 1996, we consolidated the 
Office of Printing Services with the Document Room, resulting 
in a new Printing and Document Services Division, and we had 
some significant salary and office space savings by that 
consolidation and it made sense at the time.

                           Strategic planning

    Strategic planning was initiated under the direction of the 
Committee on Rules and Administration long before I came to the 
Senate, but since I have been here, I have been active in the 
process and I am fully committed to it, as are the leaders and 
the Sergeant at Arms.
    Through strategic planning, the Senate has directed us to 
take on infrastructure and operational issues that have been 
pending before, as well as to assume some new important 
responsibilities. Where the Senate has asked that we undertake 
large scale projects, new or reallocated resources will be 
needed.
    Strategic planning has focused at the outset on four major 
operational and technological areas. Two we have mentioned--the 
financial management and legislative information systems--are 
the focus right now. Two others are human resources management 
and procurement reform.

                Financial management information system

    On financial management, I am renaming FMS-II as FMIS. It 
is a new day. I am not superstitious, but I think it is time to 
rename it and move on.
    The objective of the financial management information 
system, or FMIS, is to develop and implement an obligation- and 
accrual-based financial management system that will provide for 
accounting and tracking and reporting and analysis of our 
financial information, which can produce an auditable 
consolidated financial statement for the entire Senate. FMIS 
will benefit all the Senate offices and the committees and 
everyone who works here by allowing all of us to control and 
track expenditures of their individual accounts.
    FMIS will replace, by October 1, 1999, several obsolete 
systems, including the Disbursing Office's general ledger 
system, which now operates on a cash basis rather than an 
accrual basis, and the Sergeant at Arms' accounting system for 
payables, which is isolated from the Disbursing Office system. 
The installation of a new general ledger system also will 
resolve--prior to it being a problem for us--the year 2000 
problem. Within the same timeframe, the Disbursing Office's 
payroll system will be made year 2000 compliant. So, that would 
not be a problem for us.
    As you are already aware, the old FMS-II experienced 
significant delays from its outset. In 1995 you appropriated $7 
million for the system, and the 1997 act extended availability 
of those funds through the year 2000. Candidly, when I took 
office last October, little progress had been made and only 
$200,000 had been spent.
    I have a handful of top priorities. FMIS is the No. 1 
priority and I plan on catching it up to implementation as we 
move forward.

                     Legislative information system

    The legislative information system, or LIS, like FMIS is a 
comprehensive Senate-wide information system that has long been 
needed. The Senate continues to rely on the information system 
that has been dated from the 1970's. Last year the Legislative 
Branch Appropriations Act mandated that we do it and that we 
implement it.
    The Legislative Branch Appropriations Act of 1997, as I 
said, directs the Secretary to develop and implement LIS under 
the oversight of the Committee on Rules and Administration. We 
are committed through the strategic planning and just through 
day-to-day management to have it online as soon as possible but 
no later than December 31, 1999. It will be a system that will 
be about preparing, storing, retrieving, and tracking and 
distributing legislative information to each Senate office and 
each committee, and each other interested person who is tied to 
the system, through their own personal computers on their own 
desks.
    An early phase of LIS became available as of last week. We 
have installed the amendment capture distribution system, the 
new equipment and software allowing the bill clerks to scan the 
floor amendments in the Chamber as they come to the desk. The 
clerks add the amendment numbers. They will add the bill 
numbers. They will add who the sponsor is, and then they will 
electronically scan that and it will enter the system. Then 
Senators and staff can view it from their own personal 
computers.
    The chairman and ranking member of the Rules Committee 
announced that about 10 days ago and we have a followup letter 
that went out yesterday on that particular phase of the 
legislative information system. Through the testing that we 
have done, we have had really good feedback from some Member 
offices. I think maybe it was in your office, Senator Dorgan.
    The legislative information system will begin with the 
floor functions, but it has significant potential for many 
other additional kinds of information that can be added once we 
get it installed. It can be designed to provide ready access 
effectively to anything that may aid a Senator in being 
knowledgeable to create informed public policy.
    As you know, no funds have been provided specifically for 
LIS to this date. I was given authority--the Secretary was--
last year to extend surplus funds from FMS-II subject to the 
committee's approval. I have not made a request to date but 
will need to do so unless we receive the $5 million for LIS 
that is in the supplemental appropriations bill. If that 
passes, we will not be requesting any more money for LIS. If it 
does not, we will ask for transfers over from the financial 
management money that was allocated previously.
    At this point, the system cost is subject to a number of 
variables that we will flesh out during the strategic planning 
process and that we are evaluating. For example, the system 
implementation that we originally planned to be done by Senate 
staff might instead be more effectively done by an outside 
contractor. We are looking at those things.

                             Senate library

    I will touch on the Senate library. In 1994 the 
Appropriations Committee provided full funding for the 
relocation of the Senate library in the amount of $4,900,000.
    Our intent remains the same, which is to create a state-of-
the-art library facility in space that is more conveniently 
located to Senators' and committee offices. The Rules Committee 
has designated space in the Russell Building, which I found 
would be quite sufficient, right next to the CRS offices that 
are over there now. The Architect of the Capitol is at present 
doing asbestos removal from that space, and it is in the 
planning process. So, we will come with a new plan for that. I 
think it will be in Russell. We propose that it would be in 
Russell, as opposed to the more elaborate $4.9 million plan, 
and that will keep the volumes that are needed in the Capitol 
in the Capitol, but the others will be in the Russell Building 
in redesigned space there. I think we can do that with less 
money than has been approved.

                          Personnel management

    One other area that I want to note is personnel management. 
In terms of the internal personnel management of the 
Secretary's office in 1997, I think we have got a particularly 
important personnel challenge in the future.
    During 1996, as you know, the Secretary's office introduced 
its first job classification and compensation system through 
the Hay Group, and new market salary ranges were established 
for specific positions. In light of the requirements of the 
Congressional Accountability Act, it was absolutely necessary 
for that to have been done. But there remain questions as to 
how certain jobs in the Secretary's office which do not have 
any direct counterpart in the executive branch or in private 
industry could be compared.
    This committee in its report last year commended the 
efforts but noted that certain positions with little 
comparability to private sector occupations are essential to 
the Senate's constitutional responsibilities.
    The Hay system, we found, is useful in organizations with 
one-of-a-kind jobs, but I do not think it gave enough weight to 
the institutional knowledge of the Senate that is required in 
certain positions here. Therefore, since October I have 
exercised my discretion to modify the Hay system and to make 
adjustments for some positions, recognizing institutional 
knowledge and some other unique circumstances, and I would plan 
under good management to continue to do so in the future.
    Further, we will begin adjusting salaries for specific 
positions in the Secretary's office and awarding increases to 
specific employees on a merit basis. Though the new system is 
still under study--and I should receive it by the end of this 
month, the end of June--its essential feature will be to link 
future salary increases to merit, productivity, skill, service, 
or other factors that are measurable and that demonstrate the 
value of that employee to the Secretary's office and to the 
full Senate.

                          Succession planning

    The positions within our office that depend on 
institutional knowledge and experience present us with a major 
challenge for the future. We have people in these key 
positions, and particularly within the legislative departments, 
but not exclusively there, who are or will be eligible to 
retire in the near future. Positions with duties in the 
Chamber, as well as some others, can require 4 to 8 years of 
on-the-job training to master--at the clerk's desk in the 
Chamber, for example. We need to plan now to maintain the 
constitutionally essential functions that these departments 
perform.
    I went into that in more detail in the full statement, but 
basically there are five or six people here in key positions, 
in the Chamber or otherwise in the Senate and the Secretary's 
office, that are critical, but who are eligible for retirement 
now or who could retire in 1 year or 2. In some cases there is 
a gap because no people have been brought in underneath for on-
the-job training to move up over time.
    So, accordingly, I am beginning a process to plan for 
succession into these essential positions in future years with 
no disruption in any critical function, looking first from 
within the Secretary's office itself and hiring from the 
inside. But this might require us, or probably will require us, 
to identify a number of prospective new hires who are highly 
qualified, possibly with experience in a related field, who are 
able to commit to a career in the Senate or for a long-term 
basis as they learn how to meet the professional standards that 
these individual positions require. Not this year, but our 
future budget for salaries will take that into account. The 
1999 budget will take that into account.

                        Capitol visitors center

    Last and quickly, the Capitol visitors center. November 17, 
1800, was the date that Congress met in the Capitol for the 
first time. So, for nearly 200 years the Capitol has stood as 
the world's greatest visible symbol of representative democracy 
for people coming here from within the country--our citizens--
and for others from around the world.
    At the request of the leaders and the Rules Committee, I 
have at least temporarily taken the lead in preparing a Senate 
bill that would authorize construction and fundraising for a 
Capitol visitors center. We have had a series of meetings with 
the Architect of the Capitol on various issues, with the Senate 
historian and curator, with the Sergeant at Arms and with the 
House Clerk and the Sergeant at Arms of the House to consider 
educational components, and also--a big, big point, I think--
the security component of the new Capitol visitors center and 
what that could do for us there.
    I believe that the hard construction costs can be raised 
without the use of taxpayers' funds, other than the front-end 
funding to allow the project to begin. Further, the visitor 
center will not impact my budget directly, even though key 
staff, myself, and others within the Secretary's office will 
need to make some major contributions of our time.
    We have got $24 million, or just in excess of $24 million, 
in privately raised money now in the existing Capitol 
preservation fund, and there is little doubt in my opinion, and 
the opinion of others that I talk with, that this money can be 
raised to build the Capitol visitors center from private 
sources and that the fundraising effort would be successful in 
doing that. If, however, sufficient funds for the project are 
authorized and set aside and appropriated at the outset, to be 
used as needed to draw against whatever money we have now or 
that we raise privately, then the visitor center can be begun 
without delay and built within the targeted completion date of 
November 2000. Even though that is aggressive, it will be a 
nice thing to open on the 200th anniversary of the moving of 
the Government here from Philadelphia. It would let the 
Architect go ahead and let construction contracts and proceed 
while we raise the money. While the appropriated funds can be 
drawn, they would be repaid or offset as we raise money.
    So, I am preparing that with everyone's input on the Senate 
side, and am looking to the leadership of the Senate and the 
House to pass that as soon as we can. I am personally committed 
to it and my staff and I will assist in every way that we 
possibly can.

                          prepared statements

    So, that took a little longer than I hoped for, but that 
completes my statement and I am, of course, available for 
questions.
    [The statement follows:]

                    Prepared Statement of Gary Sisco

                             budget summary

                  OFFICE OF THE SECRETARY OF THE SENATE                 
------------------------------------------------------------------------
                                                    Amount       Percent
------------------------------------------------------------------------
Fiscal year 1997 budget:                                                
    Payroll Budget............................     $12,714,000      89.4
    Operating Expense Budget..................       1,511,000      10.6
                                               -------------------------
      Total...................................      14,225,000     100.0
                                               =========================
Suggested fiscal year 1998 Budget request:                              
    Payroll Budget............................      13,431,000      89.9
    Operating Expense Budget..................       1,511,000      10.1
                                               -------------------------
      Total...................................      14,942,000     100.0
------------------------------------------------------------------------


                                        EXPENSES--OFFICE OF THE SECRETARY                                       
----------------------------------------------------------------------------------------------------------------
                                                                      Amount                                    
                                                                     available        Budget                    
                              Item                                  fiscal year      estimate       Difference  
                                                                    1997 Public     fiscal year                 
                                                                   Law  104-107        1998                     
----------------------------------------------------------------------------------------------------------------
Historical office:                                                                                              
    Books and documents.........................................          $2,500          $2,500  ..............
    Photographic supplies.......................................           7,000           7,000  ..............
Library:                                                                                                        
    Online information services.................................          47,000          47,000  ..............
    Microform publications......................................          31,000          35,000         +$4,000
    Books.......................................................          12,000          12,000  ..............
    Subscriptions...............................................          20,000          20,000  ..............
    Standing orders.............................................          20,000          20,000  ..............
    CD-ROM......................................................           4,000           4,000  ..............
    Audio/visual materials......................................             500             500  ..............
Office of Conservation and Preservation.........................           3,000           5,000          +2,000
    Book preservation...........................................           5,000           5,000  ..............
    Office of Public Records (Public Law 92-342)................           8,000          10,000          +2,000
Travel and registration fees (Public Law 94-59).................          12,000          60,000         +48,000
Consultants (not more than two) (Public Law 95-26)..............          25,000          75,000         +50,000
Legal reference volumes and dictionaries (Senators' offices)                                                    
 (Public Law 92-51).............................................          80,000          90,000         +10,000
Contractual legal and administrative services and miscellaneous                                                 
 expenses.......................................................         295,000         270,000         -25,000
Disbursing office: Payroll forms, notary fees, supplies, and                                                    
 insurance......................................................          29,000          15,000         -14,000
Orientation and training (Public Law 95-94).....................          10,000          10,000  ..............
Newspapers......................................................          25,000          25,000  ..............
Senate service awards (S. Res. 21, Sept. 10, 1965)..............          23,000          23,000  ..............
Postage.........................................................           1,000           1,000  ..............
Education of Senate pages (Public Law 98-51 and Public Law 98-                                                  
 125) (S. Res. 184, July 29, 1983)..............................          58,000          58,000  ..............
Stationery......................................................          50,000          50,000  ..............
Senate Commission on Art (Public Law 100-696, Nov. 18, 1988)....          28,000          33,000          +5,000
Representation expenses (Public Law 100-71, July 11, 1987)......          30,000          50,000         +20,000
Office of Captioning Services (Public Law 101-163, Nov. 21,                                                     
 1989)..........................................................         235,000         163,000         -72,000
Senate Chief Counsel for Employment.............................         450,000         420,000         -30,000
                                                                 -----------------------------------------------
      Total.....................................................       1,511,000       1,511,000  ..............
----------------------------------------------------------------------------------------------------------------

                        legislative departments
Bill Clerk
    The Bill Clerk records official actions of the Senate, keeps an 
authoritative historical record of Senate business, enters daily 
legislative activities and votes into the automated legislative status 
system, and assigns numbers to all bills and resolutions.
    Legislative activity.--The legislative materials processed by the 
Bill Clerk during the last two Congresses are included in the following 
comparative chart.

                           LEGISLATIVE SUMMARY                          
------------------------------------------------------------------------
                                          104th Congress  103rd Congress
------------------------------------------------------------------------
Days in Session.........................             343             291
Hours in Session........................       2,875"/55       2,513"/15
Measures Passed.........................             822             938
Measures Reported.......................             509             608
Roll Call Votes.........................             919             724
Senate Bills............................           2,199           2,569
Senate Joint Resolutions................              65             232
Senate Concurrent Resolutions...........              74              80
Senate Resolutions......................             324             294
Quorum Calls............................               5               8
Amendments Submitted....................           5,439           2,655
House Bills.............................             472             498
House Joint Resolutions.................              31              54
House Concurrent Resolutions............              68              80
Senate Reports..........................             398             433
Roll Call Votes.........................             919             724
------------------------------------------------------------------------

    As indicated, the volume of legislative materials processed by the 
Bill Clerk during the 104th Congress was 76 percent higher than during 
the 103rd Congress, a result largely due to a substantial rise in the 
number of amendments submitted and roll call votes recorded, despite a 
general decline in the number of bills introduced over the past six 
years.
    Relations with GPO.--Although relations with GPO's Congressional 
Desk remained good, the work product was affected by the retirement of 
experienced printers, coupled with cutbacks in overall staff. The 
record on specific GPO printings for the 1996 calendar year is 
summarized below:
  --Star Prints.--The number of Star Prints authorized was down to 13, 
        continuing a three-year trend in such printings.
  --``Bates List''.--Overnight rush printing was ordered on 34 
        occasions.
  --``Committee Discharges'': The Secretary discontinued printing of 
        ``committee discharge'' bills, saving approximately $200,000 
        during the 104th Congress.
    Projects.--Two significant projects occupied the Bill Clerk in 
``spare'' moments during the 104th Congress:
  --LEGIS 2000: The system used by the Bill Clerk for entry of status 
        information is being reviewed and will be incorporated into the 
        Legislative Information System (LIS).
  --Amendment Scanning: After a year of discussion, the scanning of 
        proposed amendments will be a reality as of June, 1997. The 
        effect this may have on our workload is unclear; current plans 
        are to incorporate this additional work into the Bill Clerk's 
        daily routine.
Daily Digest
    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest, 
and are published in the Congressional Record.
    Chamber Activity.--The Senate was in session a total of 132 days, 
for a total of 1,036 hours and 45 minutes. There were 2 quorum calls 
and 306 recorded votes.
    Committee Activity.--Senate committees held 522 hearings and 184 
business meetings (total 736), contrasted with 795 hearings and 227 
business meetings (total 1,022), during the 2nd Session of the 103rd 
Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and entered in the 
LEGIS hearings file. Meeting outcomes are also published by the Daily 
Digest in the Congressional Record each day.
    Government Printing Office.--Continuing a practice in preceding 
Congresses, the Daily Digest office discusses with the Government 
Printing Office problems encountered with the printing of the Daily 
Digest section. Corrections or transcript errors have become very 
infrequent.

                   HEARING/BUSINESS MEETING STATS-1996                  
------------------------------------------------------------------------
                                                     Business           
                                          Hearings   meetings    Totals 
------------------------------------------------------------------------
January................................         14          3         17
February...............................         43          8         51
March..................................        122         32        154
April..................................         59         19         78
May....................................         89         23        112
June...................................         76         34        110
July...................................         67         27         94
August.................................          7          7         14
September..............................         60         29         89
October................................         10          2         12
November...............................          3  .........          3
December...............................          2  .........          2
                                        --------------------------------
      Totals...........................        552        184        736
------------------------------------------------------------------------


                   HEARING/BUSINESS MEETING STATS-1994                  
------------------------------------------------------------------------
                                                     Business           
                                          Hearings   meetings    Totals 
------------------------------------------------------------------------
January................................         18          2         20
February...............................        100         25        125
March..................................        161         26        187
April..................................         99         17        116
May....................................        133         26        159
June...................................         86         49        135
July...................................         67         26         93
August.................................         50         21         71
September..............................         52         22         74
October................................         22         13         35
November...............................          2  .........          2
December...............................          5  .........          5
                                        --------------------------------
      Totals...........................        795        227      1,022
------------------------------------------------------------------------

Enrolling Clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House, as applicable.
    During 1996, 54 enrolled bills (transmitted to the President) and 
11 concurrent resolutions (transmitted to the Archives) were prepared, 
printed, proofread, corrected and printed on parchment.
    A total of 476 additional pieces of legislation were enacted or 
agreed to by the Senate, requiring processing and printing from this 
office.
Executive Clerk
    The Executive Clerk prepares a record of actions taken by the 
Senate in executive session (proceedings on nominations and treaties) 
which is published as the Executive Journal at the end of each session 
of Congress. A daily Executive Calendar is prepared when nominations, 
treaties, or resolutions are pending.
    Nominations.--During the second session of the 104th Congress, 
there were 523 nomination messages sent to the Senate by the President, 
transmitting 26,211 nominations to positions requiring Senate 
confirmation. There were 11 messages withdrawing nominations previously 
sent to the Senate during the first and second sessions. Of the total 
nominations transmitted, 223 were for civilian positions other than 
lists in the Foreign Service, Coast Guard, National Oceanic and 
Atmospheric Administration and Public Health Service. In addition, 
there were 1,558 nominees in the ``civilian list'' categories named 
above. Military nominations received this session totaled 24,430 (6,213 
in the Air Force, 8,720 in the Army, 7,165 in the Navy and 2,332 in the 
Marine Corps). The Senate confirmed 33,176 nominations this session. A 
total of 748 nominations were returned to the President pursuant to the 
provisions of paragraph 6 of Senate Rule XXXI at the sine die 
adjournment of the 104th Congress.
    Treaties.--Fourteen treaties were transmitted to the Senate by the 
President during the second session of the 104th Congress for its 
advice and consent to ratification, which were ordered printed as 
treaty documents for the use of the Senate (Treaty Docs. 104-23 through 
104-36).
    The Senate gave its advice and consent to twenty-eight treaties--
ten without reservation and eighteen with various conditions, 
declarations, understandings or provisos.
    Executive Reports and Roll Call Votes.--Twenty-five executive 
reports relating to treaties were ordered printed for the use of the 
Senate during the second session of the 104th Congress (Executive 
Repts. 104-11 through 104-36).
    The Senate conducted four roll call votes in executive session, 
three on or in relation to nominations and one on the START II treaty.
    Operations of the Executive Clerk.--This office was contacted early 
last year with concerns about the military serial numbers (i.e., Social 
Security numbers) appearing in the Congressional Record as part of the 
nomination process. Since the Record is available on the Internet there 
was apprehension about the possible fraudulent use of names and social 
security numbers. At the suggestion of this office, and with the 
agreement of all four branches of the Armed Forces, only the last four 
digits will be used, thereby eliminating any foreseeable problems in 
the future.
    In an effort to modernize the publication of the Executive Journal 
it was decided to obtain a desktop publishing system. This required the 
acquisition of new computer hardware in December, which delayed 
publication of the 1996 Executive Journal.
Journal Clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal that is in effect the 
index of legislative action. The Senate Journal is published each 
calendar year.
    Publication of Senate Journal.--The 1996 Senate Journal was 
completed on December 18, 1996. The Journal totaled 882 pages 
representing 132 days of Senate session. This compared with a total of 
1,244 pages for 1995, representing 211 days of Senate session. The fall 
break gave us a chance to ``catch up'' since 1994 was the first year we 
type-set the Journal ``in-house''.
Legislative Clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. This office prepares the Senate Calendar 
of Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into that measure any amendments that may be 
agreed to. This office retains custody of official messages received 
from the House of Representatives and conference reports awaiting 
action by the Senate. In addition, this office is responsible for 
verifying the accuracy of that information entered into the LEGIS 
system by the various offices of the Secretary.
    Summary of Activity.--The second session of the 104th Congress was 
typical for a presidential election year. The Senate completed its 
legislative business as early as possible before the elections and 
adjourned on October 3, 1996. During 1996, the Senate was in session 
132 days, over 1,000 hours and conducted 306 roll call votes. There 
were 260 measures reported from committees, 476 total measures passed 
and there were 267 items remaining on the Calendar at the time of 
adjournment. In addition, there were over 2,300 amendments submitted.
Official Reporters of Debates
    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The Chief 
Reporter functions as editor-in-chief of the Senate portion of the 
Record, and the Coordinator of the Congressional Record functions as 
technical production manager of the Senate portion of the Record.
    Electronic Submission.--The Reporters continued the practice of 
having all spoken words of floor proceedings transcribed by this office 
sent to GPO over the fiber optic system. Although this system has not 
decreased the workload of this office, it should result in substantial 
cost savings in the preparation of the Record by GPO, in that they no 
longer have to rekeyboard the transcript prepared by this office.
    Additionally we are encouraging Senate offices to submit electronic 
versions of Record statements as well via the Senate's cc-mail system. 
The extra steps within this office of processing and formatting to 
conform with Record style will continue, however. At this point it 
should be noted that this processing of electronic files would not be 
possible without the continued cooperation of GPO in providing this 
office with a detailee. The current GPO detailee provides immeasurable 
contribution by entirely processing the electronic transcript files for 
shipment to GPO; this frees the Chief Reporter and Coordinator of the 
Congressional Record to, among other things, request of offices a data 
version to accompany the printed statement when none is provided, and 
to deal with the resulting heavy volume.
    Morning Business.--The Morning Business section experienced a 
marked increase in items processed for the Congressional Record; the 
statistics reflect a 140 percent increase in Executive Communications 
due to the passage of Public Law 104-121 (The Contract with America 
Advancement Act of 1996) which requires that every regulation be sent 
to the Congress for review. Further, concurrent resolutions were up 100 
percent; amendments were up 74.7 percent; President's Messages were up 
67.6 percent; resolutions were up 57.3 percent; joint resolutions, up 
44.4 percent; petitions, up 40.4 percent; and bills up 39.7 percent.
    Cost Savings.--During 1996, the office adhered very strictly to 
policies preventing duplicate printing of amendments offered during 
debate. In January 1996, a 10-page maximum was established for an 
amendment to be printed in the body of the Record at the time the 
amendment is offered. (During the prior year the limit was 15 pages.) 
Amendments in excess of 10 pages are referenced at the time of offer 
and printed one time only in the Morning Business portion of the Record 
under ``Amendments Submitted.'' This policy has produced substantial 
cost savings. Vigorous enforcement of the provisions of paragraph 13 of 
the Laws and Rules for Publication of the Record, the ``two-page 
rule'', entailed many telephone calls and trips to the floor, informing 
staff and Senators of the procedure necessary to have extraneous 
materials printed in the Record that exceed the two-page limit, but has 
resulted in substantial savings.
Parliamentarian
    The Parliamentarian advises the Chair, Senators and their staff, 
committee staff, House members and their staffs, and administration 
officials on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and provisions of 
public law affecting the proceedings of the Senate.
    The Parliamentarian's office advises the Chair, Senators and their 
staff and committee staff, as well as House members and their staffs, 
administration officials, the media and members of the general public 
on all matters requiring an interpretation of the Standing Rules or 
precedents of the Senate, unanimous consent agreements, or provisions 
of public law affecting the proceedings of the Senate. The office is 
responsible for the referral of all legislation introduced in the 
Senate, all legislation received from the House, and all communications 
received from the Executive Branch. The office works extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular drafts of legislation, and evaluates the 
jurisdictional effect of proposed modifications in drafting.
    The atmosphere that surrounded the parliamentary process in 1996 
resulted in an unprecedented number of questions that the 
Parliamentarian's office was asked to resolve. These questions often 
required hours of meetings with competing groups of staff. At every 
stage of the budget cycle, this office was called upon to arbitrate 
large numbers of budget-related questions. The Byrd Rule on extraneous 
matter in reconciliation bills led to intensive analysis. Concern about 
the budget deficit promises to keep the budget process (with all of its 
parliamentary complexity) in the forefront of the legislative agenda.
Printing and Document Services
    Printing and Document Services documents Senate printing expenses 
and functions as GPO liaison to schedule and/or distribute Senate bills 
and reports to the Chamber, Senate staff, and the public; provides page 
counts of Senate hearings to commercial reporting companies, orders and 
tracks all paper and envelopes provided the Senate, provides general 
printing services for Senate offices, and assures that Senate printing 
is in compliance with Title 44, U.S. Code, as it relates to Senate 
documents, hearings, committee prints, and other official publications.
    Background.--In February 1996, the Office Services staff were 
merged into the Office of Printing Services. In December 1996, Printing 
Services was merged with the Document Room, forming the new Office of 
Printing and Document Services. From an administrative standpoint, the 
responsibility for printing and/or distribution of most of the Senate's 
official Title 44 printing is now housed within one office. The 
coordination of all Senate documents, hearings, committee prints, and 
miscellaneous publications between the Senate and GPO is our 
responsibility, as is the distribution of Senate and House legislation. 
Additionally, virtually all Senate blank paper, letterhead, and 
envelopes are ordered through this office.
    The merger and move from the Capitol into the Hart building also 
made eminent sense from a practical standpoint. The office is closer to 
its ``customers,'' in that ninety-five per cent of the offices served 
are located in the Senate office buildings. This provides better access 
for Senate staff, and more timely deliveries to Senate offices.
    Total Publications.--During the second session of the 104th 
Congress, 504 publications (hearings, committee prints, Senate 
documents, Senate Publications) were printed. This compares with 657 
publications printed during the second session of the 103rd Congress, 
or a decrease of about 23 percent.
    Hearings Transcripts and Billing Verifications.--Billing 
Verifications are the vehicle by which reporting companies request 
payment from a committee for their transcription services.

----------------------------------------------------------------------------------------------------------------
                                                                                                     Increase/  
                                                                       1995            1996          decrease   
                                                                                                     (percent)  
----------------------------------------------------------------------------------------------------------------
Billing verifications...........................................           1,195             782             -35
Transcribed pages...............................................         210,839          66,188             -32
Average pages/committee.........................................          10,039           2,545             -25
Transcribed pages cost..........................................        $690,336        $440,875             -36
Average cost/committee..........................................         $32,873         $16,957             -48
----------------------------------------------------------------------------------------------------------------

    Paper, Letterhead, and Envelopes.--Printing and Document Services 
provides and maintains an accounting of blank paper, letterheads, and 
envelopes for all Senate offices. The total blank sheets and 
letterheads ordered in 1996 were about 72.5 million sheets, a decrease 
of almost 58 million sheets compared to 1995. Envelope use continued to 
decline. In 1996, the Senate used about 7.6 million envelopes, compared 
to about 12 million in 1995.
    Service Center.--In September 1995, at the direction of the Rules 
Committee and the Joint Committee on Printing, the Secretary's Office 
undertook responsibility for management of the GPO/JCP Service Center. 
The Service Center (now located in SH-B-07) is staffed by experienced 
GPO printing specialists who provide Senate committees and the 
Secretary's Office with complete publishing services for hearings, 
committee prints, and preparation of the Congressional Record. Services 
include keyboarding, proofreading, scanning, and composition.
    During 1996, the Service Center assisted 14 committees with the 
preparation of 116 hearings, committee prints, and Senate documents 
including the Tribute to Reverend Halverson, and the Tributes to 
Senator Dole.
    Congressional Record.--Total approximate cost to produce the Record 
was $13.1 million. Based upon the percentage of content and 
distribution quantities, the proportional Senate cost was $5.9 million, 
the House cost was $6.8 million, and all other recipients $412,400. Per 
copy cost is about $8.57 (Record costs are based upon GPO estimated 
appropriation costs, not including costs to produce the Record Index or 
microfiche copies).
    Legislation.--The office captures data regarding all printed 
versions of all measures considered in the Senate. Beginning in the 
105th Congress, it will capture House measures as well. For brevity, 
the following information is summarized by major category of 
legislation, such as Senate bills. Each category includes the 
successive versions in which all measures were printed during their 
legislative cycle (such as a Senate bill which is introduced, placed on 
the Calendar, read the second time, read the third time and passed), 
including Star Prints. Information relating to specific versions of all 
legislation is available. The following table is for the second session 
of the 104th Congress.

----------------------------------------------------------------------------------------------------------------
                                                                             Number of                          
                              Measure                                Count     pages    Senate cost   Total cost
----------------------------------------------------------------------------------------------------------------
Senate Bills......................................................      859     22,851   $1,500,000   $2,200,000
Senate Reports....................................................      199      8,404      600,000      825,000
Senate Resolution.................................................      136        710       45,500       64,000
Senate Joint Resolution...........................................       22      1,044       75,400      101,800
Senate Concurrent Resolution......................................       41        540       42,600       47,400
House Bills (in Senate)...........................................      328     11,440      528,200    1,050,000
House Joint Resolution............................................       17         86        3,600        7,800
House Concurrent Resolution.......................................       41        218       14,800       19,900
House Conference Report...........................................       34      9,004      800,300      907,500
Treaties/Executive Reports........................................       33      1,765      149,400      152,900
Public Laws.......................................................      236      5,044      400,000      450,200
                                                                   ---------------------------------------------
      Totals......................................................    1,946     61,106    4,200,000    5,800,000
----------------------------------------------------------------------------------------------------------------

    Document Services.--The Document Services section coordinates 
requests for printed legislation and miscellaneous publications with 
other departments within the Secretary's Office, Senate committees, and 
the Government Printing Office, to ensure the most current version of 
all material is available, and that sufficient quantities are in 
storage to meet projected demand.
    The primary responsibility of this section is to provide services 
to the Senate. However, it also serves the general public, the press, 
and other government agencies. Requests for material are received at 
the walk-in counter, through the mail, by FAX, and recorded messages. 
Recorded messages and FAX messages operate twenty-four hours a day, and 
are filled the same day they are received, as are mail requests.
    Summary of Annual Statistics.--The following chart summarizes 
activities and trends in Document Services from 1987 through 1996.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent over
 Calendar year/Congress/session     Calls     Percent      Mail     Walk-in     Staff      Total      previous  
                                   received    change    requests   requests   requests   requests      year    
----------------------------------------------------------------------------------------------------------------
1988: 100/2nd...................    107,871     20,579    104,000     79,163        N/A    203,742        N/A   
1989: 101/1st...................    114,580     24,415    103,540     85,488        N/A    213,443         +5   
1990: 101/2nd...................    154,497     23,322    105,823     96,330        N/A    225,475         +6   
1991: 102/1st...................    158,714     29,301    112,700     94,503        N/A    236,504         +5   
1992: 102/2nd...................    144,478     21,634    187,790     64,543        N/A    273,967        +16   
1993: 103/1st...................    135,035     23,679    143,468     64,752        N/A    231,899        -15   
1994: 103/2nd...................    128,463     20,460    128,314     54,919      4,934    203,693        -12   
1995: 104/1st...................    134,062     22,704    112,463     45,466     10,182    180,633        -11   
1996: 104/2nd...................    110,742     15,140    136,352     35,479      8,043    186,971         +4   
----------------------------------------------------------------------------------------------------------------


                                                  DOCUTECH DATA                                                 
----------------------------------------------------------------------------------------------------------------
                                                                     Original     Printed     Cost              
                                                Count   Run length    pages        pages      each    Total cost
----------------------------------------------------------------------------------------------------------------
1995:                                                                                                           
    Totals..................................   1,042      93,136     31,682     1,800,000     $0.39   $36,459   
    Daily average...........................       5.5       490        167         9,583       N/A       191.89
1996:                                                                                                           
    Totals..................................     762      43,710     43,478     3,200,000      1.46    63,727   
    Daily average...........................       4.6       342        225.4      12,784       N/A       255.86
Agencies printing--1995:                                                                                        
    Totals..................................      81     237,265      9,908     2,400,000       .20    47,227   
    Daily average...........................       1.5     4,313.9      180.1      42,931.1     N/A       858.68
Agencies printing--1996:                                                                                        
    Totals..................................     284     302,625     84,852     5,100,000       .34   101,834   
    Daily average...........................       1.8     1,800        527        31,622       N/A       632.51
----------------------------------------------------------------------------------------------------------------

Captioning Services
    The Office of Captioning Services provides real-time captioning of 
televised Senate floor debates for hearing-impaired persons. The office 
also provides the unofficial transcripts available to offices on the 
Senate Intranet.
    Real-time captioning refers to the live electronic subtitling of 
the audio portion of a television program by specially trained court 
reporters utilizing computers and specialized translation software. The 
Office of Captioning Services was established in 1991 to provide access 
to Senate debates to the hearing impaired in conjunction with passage 
of the Americans with Disabilities Act. The captioning text is also 
provided to Senate offices on the intranet. The office provides other 
captioning services for the Senate and Senators upon request.
    Technology Update.--Real-time captioning software upgrades during 
1996 provided stability and reliability and additional functionality. 
Upgraded broadcast router display panels in each of our two control 
rooms improved our ability to monitor our work product, systems status 
and activity in the Chamber. Quality is advanced through continuous 
tracking of translation data and weekly peer reviews.
                         administrative offices
Disbursing Office
    The Disbursing Office compiles Senate budget estimates for 
presentation to the Committee on Appropriations, maintains and 
disburses all Senate appropriated funds and all Senate payrolls, 
interprets and carries out all matters related to budgeting, 
appropriations, compensation, payroll deductions, retirement, life and 
health insurance, and other employee benefits authorized for members 
and staff.
    Front Counter--Administrative and Financial Services.--The Front 
Counter is the main service area of all general Senate business and 
financial activity. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to insure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. All new Senate employees (permanent and temporary) who 
will be working in the Capitol Hill Senate offices are administered the 
required oath of office and personnel affidavit and provided verbal and 
written detailed information regarding their pay and benefits. Numerous 
inquiries are handled daily, ranging from pay, benefits, taxes, Senate 
laws and regulations, in our commitment to provide the highest degree 
of customer service.
    The Front Counter issued approximately 1,500 cash advances for 
official Senate travel; received more than 25,000 checks from Senate 
entities; administered oath and personnel affidavits to more than 3,000 
new Senate staff; maintained brochures for 28 Federal health carriers, 
and distributed approximately 2,500 brochures to staff during the 
annual FEHB open season.
    Payroll Section.--The Payroll Section maintains the Payroll/
Personnel System and is responsible for the following: processing, 
verifying and warehousing all payroll information submitted to the 
Disbursing Office by Senators for their personal staff, by Chairmen for 
their committee staff, and by other elected officials for their staff; 
issuing salary payments; processing overtime payments; maintaining the 
Automated Clearing House (ACH) Fedline facilities for the normal 
transmittal of payroll deposits to the Federal Reserve; distributing 
the appropriate payroll expenditure and allowance reports to the 
individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Section and transmitting the 
proper Thrift Savings Plan (TSP) information to the National Finance 
Center, while maintaining earnings records for distribution to the 
Social Security Administration, and maintaining employees' taxable 
earnings records for their W-2 statements, which are prepared by this 
section.
    In 1996, the Payroll Section designed a new Payroll Information 
Notice (PIN) and new W-2 mailer. The new PIN forms are cheaper to 
produce and mail, and are more informative, and qualify for U.S. Postal 
Service mailing discounts. The combined savings to the Senate from both 
forms are more than $20,000 annually.
    Employee Benefits Section.--The Employee Benefits section 
administers Senate employees' health and life insurance and retirement 
programs for the Senate. The section's work includes research and 
verification of prior Senate or other federal service for new 
appointees. The section prepares these forms for payroll input and 
after they are returned, verifies the accuracy of the information when 
the Official Personnel Folder is received. Employment verifications for 
loans, the Bar, the Federal Bureau of Investigation, the Department of 
Defense, and for outside insurance are completed. Unemployment claim 
forms are completed, and employees are counseled. Department of Labor 
billings for unemployment paid to Senate employees are checked and 
submitted by voucher to the Accounting Section to be paid. Designations 
of Beneficiaries for life insurance, retirement, and for unpaid 
compensation are filed and checked by the section.
    Seminars were held for outgoing and incoming Members' staffs, as 
well as Committees facing reorganization. Information disseminated 
included retirement, health and life insurance, unemployment, and 
Ramspeck privileges.
    Since 16 Members left office, the section's work in the end of 1996 
included approximately 700 new appointments; 700 termination packets, 
counseling and processing, retirement planning and processing, and 
providing records to other agencies hiring former Senate employees. 
Since most of the Members leaving were long term Members who were 
retiring, our retirement caseload set a new record (250 retirement 
cases).
    Audit Section.--The Audit Section is responsible for auditing 
vouchers, answering questions regarding voucher preparation, monitoring 
payments related to contracts, training new Office Managers and Chief 
Clerks in Senate financial practices, training Office Managers in the 
use of the Senate Office Accounting System (SOAS), and producing the 
Report of the Secretary of the Senate. The Section also maintains the 
Senate's central vendor file (MODA) and monitors the Fund Advance 
Tracking System (FATS) by ensuring that advances are charged correctly, 
vouchers repaying such advances are entered, and balances adjusted for 
reuse of the advance funds.
    The Audit Section received and audited approximately 82,200 
vouchers in 1996. This is a 7 percent decrease from 1995. These include 
vouchers from: Senators' Offices--51,200 vouchers (62 percent of all 
vouchers) of which 22,650 (28 percent of all vouchers) were for travel; 
Sergeant at Arms--14,700 (18 percent of all vouchers); Stationery & 
Gift Shop--7,500 (9 percent of all vouchers); and Others--8,800 (11 
percent of all vouchers).
    Training sessions were conducted for 28 new Office Managers/Chief 
Clerks and 25 SOAS users.
    Accounting Section.--The Accounting Section compiles the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations, and ensures adherence to appropriation 
limitations established by the Legislative Branch Appropriations Act, 
and Title 2 of the United States Code. The Accounting Section 
accomplishes its control of appropriation limitations through the 
maintenance of the general ledger of the Senate.
    Monthly financial reporting requirements to the Department of the 
Treasury include a Statement of Accountability that details all 
increases and decreases to the Accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also reported to the 
Department of the Treasury on a monthly basis is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of every penny 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of Treasury on a monthly and annual basis. The annual 
reconciliation of the Treasury Combined Statement is also used in the 
reporting to the Office of Management and Budget as part of the 
submission of the annual operating budget of the Senate.
    The Accounting Section also transmits all Federal tax payments on a 
monthly basis for Federal, Social Security and Medicare taxes withheld 
from payroll expenditures as well as the Senate's matching contribution 
for Social Security and Medicare to the Federal Reserve Bank. The 
Section also performs quarterly reporting to the Internal Revenue 
Service and annual reporting and reconciliation with the IRS and the 
Social Security Administration. Payments for Senate employee 
withholding for state income taxes are reported and paid on a quarterly 
basis to each state with applicable state income taxes withheld. 
Monthly reconciliations are performed with the National Finance Center 
regarding the Senate's employee withholding and agency matching 
contributions for the Thrift Savings Plan. All employee withholdings 
and agency contributions for life and health insurance, and federal 
retirement programs are transmitted to the Office of Personnel 
Management on a monthly basis. Any adjustment to employee contributions 
to any of the health, life and retirement plans from previous 
accounting periods are also processed by the Accounting Section.
    Internally, the Accounting Section prepares and transmits ledger 
statements monthly to all Member offices and all other offices showing 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. On a 
semiannual basis all committee ledgers are reconciled with the 
Accounting Section records, and the results are reported to the 
Committee on Rules and Administration. Also, on a semiannual basis, the 
Accounting Section prepares necessary reports and information to be 
included in the Report of the Secretary of the Senate. On a monthly and 
semiannual basis, a complete reconciliation of the Senate payroll is 
performed.
    Currently, more than 9,000 active ledger accounts are tracked daily 
through the Disbursing Office Voucher Entry System (DOVES). All voucher 
reimbursement payments, checks written, deposit and adjustment entries 
are processed in this system. While routine maintenance and 
enhancements to the DOVES system continue, the primary focus is to 
prepare for the replacement of the Senate general ledger system. The 
Senate currently operates on a cash basis accounting system. With the 
implementation of the new general ledger system (FMS-II) there will be 
a conversion to an accrual and obligation-basis accounting system.
Office of Human Resources
    The Office of Human Resources implements and coordinates human 
resources policies, procedures, and programs for the Office of the 
Secretary of the Senate including hiring; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; job 
advertisements and postings; employee handbooks and manuals; employee 
relations; and organizational planning and development.
    Several key personnel programs were developed and implemented 
during 1996, with a primary goal of ensuring consistency and equity 
throughout the organization and complying with the requirements of the 
Congressional Accountability Act.
    Job Classification and Compensation System.--The Office of the 
Secretary's first job classification and compensation system was 
implemented in June 1996. This new system was a joint endeavor between 
an Office of the Secretary Steering Committee and a Project Team 
comprised of the Office's Director of Human Resources and Hay 
Management Consultants (or the Hay Group). The team used Hay's point 
factor job evaluation system to evaluate the content of each job within 
the Office. Widely recognized as the most advanced and effective way to 
determine equitable compensation, the Hay Method is used to establish 
consistent relationships, expressed in precise points, for jobs within 
and between organizations. These points were then compared with 
compensation data from Hay's National Survey of All Organizations, 
market rates were determined, and salary ranges were established. These 
salary ranges--representing the continuum along which each employee can 
expect to progress based upon merit, or quality of performance--were 
provided to each employee. Now, in addition to ensuring compensation 
equity throughout the Office of the Secretary, employees have greater 
visibility into job worth and pay and greater individual control over 
future compensation decisions and career development.
    Employee Handbook.--The Office's Employee Handbook underwent a 
major revision on October 1, 1996, to incorporate policy stemming from 
the Congressional Accountability Act and, where appropriate, to clarify 
or strengthen some earlier provisions. Major changes include (1) rules 
governing the acceptance of gifts, including foreign gift rules and 
travel; (2) mass mailing reporting requirements; (3) the public law and 
Office policy on employment of relatives; (4) Office compensation 
practices, including the overtime provisions of the Congressional 
Accountability Act, new employee pay classifications, and time and 
attendance reporting; and (5) leave policy, including a new ``leave 
year,'' carryover provisions, and a Family and Medical Leave Act (FMLA) 
Reserve account.
    Time and Attendance System.--In order to accurately report time 
worked, the Office developed a new time sheet, appointed time keepers 
for each department, and conducted training for time keepers and/or 
department heads. This system allows time to be maintained, calculated, 
and reported on the employee's personal computer and cumulative data to 
be maintained and tracked for major time-off categories and for extra 
time worked.
Library
    The Senate Library is a legislative and general reference library 
which provides both traditional and computerized information services 
and cataloging and maintains a comprehensive collection of 
congressional, governmental and other publications for the use of 
Senate offices and the press.
    Information Services.--Information Services was established as a 
function from the merger of two previously separate functions, 
Legislative Tracking and Reference Services. This merger was in 
response to changing patterns of client demand for library services. 
Reference requests for the period 1989 through 1995 increased (75 
percent) while the number of legislative tracking requests declined (38 
percent) during the same period. The decline in legislative tracking 
requests was due to the availability of online access to the 
information in Senator's offices. This anticipated shift allowed the 
Library to focus resources on the research needs of the Senate.
    Technical Services.--Organizational changes, including reassignment 
of work flow, modification of tasks, and revisions of position titles 
and job descriptions, were undertaken to facilitate the final stage of 
a three-year process to fully implement the Library's integrated 
library system (DataTrek). Centralization of the acquisitions, 
cataloging and circulation functions on DataTrek has resulted in the 
closing of two separate in-house databases as well as the mainframe-
based SLCC database, formerly maintained by the Senate Computer Center. 
These changes have redirected resources toward providing quicker and 
more efficient access to collection resources, thereby allowing Library 
staff to respond more effectively to Senate requests. Anticipated 
vendor-developed software will allow direct access to our catalog by 
Senate offices via the Senate Intranet.
    Acquisitions.--The reality of flat and reduced budgets for the past 
three fiscal years, coupled with the rising cost of publications, 
resulted in a reduction in the overall number of books, standing 
orders, subscriptions and microform titles purchased. In 1996, the 
number of congressional documents also declined from the previous year, 
due in part to an increased effort by committees to hold down printing 
costs, which resulted in fewer documents printed. The decline in books 
and congressional materials was offset by an increase in the number of 
executive branch publications received cost-free through the Depository 
Library Program administered by the Government Printing Office. 
Consequently, acquisitions of all types of material increased 9 percent 
over the pervious year.
    Cataloging.--The number of bibliographic records added to the 
library catalog in 1996 was 5,800 an increase of 26 percent over the 
previous year. This was the result of a concerted effort to complete 
the retrospective cataloging of executive branch publications. In 
addition, 26,000 item records were created, each containing the barcode 
and other information needed to permit the borrowing of these materials 
by Senate staff.
    Conservation and Preservation.--The Office of Conservation and 
Preservation provided valuable assistance by funding a cleaning project 
in the Library's space located in the basement of the Adams Building of 
the Library of Congress. This cleaning, which had last been done about 
ten years ago, is necessary for the long-term preservation of Senate 
materials. In addition, the OCP repaired and cleaned numerous 19th and 
early 20th-century volumes in order to permit their use by Senate 
staff.
    Public Relations.--Library personnel participated in 30 orientation 
seminars sponsored jointly by the Secretary of the Senate and the 
Sergeant at Arms. These seminars are the primary means to inform Senate 
staff of services available through the Library. The Library launched 
its homepage on the Senate Intranet in March 1996. On September 24, 
1996, the Library hosted a reception to celebrate the 125th anniversary 
year of the establishment of the Senate Library in 1871. Senators 
Thurmond, Hatfield, Byrd, Cochran, Simon and Robb were in attendance 
along with an estimated 350 patrons, colleagues and friends of the 
Library.
    Library Relocation.--In December 1995, the plan to relocate the 
Senate Library was placed on hold pending a review by the Senate 
Committee on Rules and Administration. In October 1996, the Secretary 
of the Senate requested that the Library explore options to move staff 
and portions of the collection to designated space in the basement of 
the Russell Senate Office Building. A new proposal was submitted in 
November 1996.
Office of the Senate Chief Counsel for Employment
    The Office of Senate Chief Counsel for Employment is a non-partisan 
office established at the direction of the Leadership in 1993, after 
enactment of the Government Employees Rights Act, which established a 
hearing process for allegations of employment discrimination in the 
Senate followed by court review. With enactment of the Congressional 
Accountability Act of 1995, which brings the Senate under 11 federal 
laws regulating the employer-employee relationship in the private 
sector, the Office provides legal advice and representation to Senate 
employing offices in all areas of employment law.
    Background.--The Office of the Senate Chief Counsel For Employment 
(``SCCE'') is a non-partisan office formed in 1993 at the direction of 
the Leadership. It is charged with providing legal advice and 
representation of Senate offices in all areas of employment law. 
Collectively, the office's attorneys have more than 55 years of 
experience at major national law firms representing clients in 
employment litigation and labor law matters.
    Pursuant to the Congressional Accountability Act (CAA), each Senate 
office is a separate employer; the Senate as a body cannot be sued 
under that law. Accordingly, each of the 180 offices of the Senate is 
an individual client of the SCCE, and each office maintains an 
attorney/client relationship with the SCCE.
    Compliance with the Congressional Accountability Act.--Most 
provisions of the CAA became effective in January 1996. A primary 
responsibility of the SCCE is to advise Senate management about their 
obligations under the CAA, and the number of requests the SCCE received 
for legal consultation in 1996 was more than twice the number in 1995.
    The SCCE advised Senate offices about the CAA and assisted them in 
complying with it through four principal means: addressing the 
Senators, giving large group seminars for AA's and office managers, 
providing legal advice to offices on an individual basis, and preparing 
and distributing written information. Specifically, the SCCE did the 
following:
  --Spoke to Senators at 4 policy lunches (2 Republican and 2 
        Democratic) to advise them of their legal obligations under the 
        CAA;
  --Gave a 90-minute orientation speech to Senators-elect regarding 
        employment and labor laws;
  --Presented 14 large group seminars (75-200 attendees) to 
        Administrative Assistants, Chiefs of Staff, Office Managers, 
        Staff Directors and/or Chief Clerks regarding employment laws 
        and the implementation of the CAA;
  --Met individually with 98 of the Members' offices, at their 
        requests, to advise them about how to comply with the CAA while 
        minimizing costs;
  --Responded to more than 1,850 telephone requests from Members' 
        offices for information/advice about employment law matters. 
        Most of these requests required at least one face-to-face 
        meeting with the office's Chief of Staff and/or Office Manager;
  --Prepared sample employee handbooks and other forms for offices' use 
        in complying with the CAA, including a sample employee 
        handbook, employee performance evaluations, a sample time 
        sheet, sample job descriptions, exempt/non-exempt 
        questionnaire, etc.; these were prepared and provided in both 
        hard copy and on disk;
  --Prepared and distributed to all Senate offices a management guide 
        pertaining to the Occupational Safety and Health Act;
  --Prepared a several-hundred page manual for Senators-elect entitled 
        ``Management's Rights and Obligations'' under the CAA; and
  --Prepared and distributed a manual for all Senate offices to inform 
        them of their obligations under the CAA.
    Defense of Senate Offices in the Federal Court and at Hearings.--
The second major activity of the SCCE in 1996 was defending Senate 
offices in federal court and at hearings involving alleged violations 
of employment laws. The SCCE defended Senate offices in 15 such cases, 
under the CAA and the predecessor Government Employees Rights Act. 
These cases were brought against Members' offices (both sides of the 
aisle), the Sergeant at Arms, and the Secretary of the Senate. The SCCE 
either won or successfully negotiated a resolution to 13 of the 15 
cases with the remaining two cases still pending.
    In other instances, the SCCE negotiated and prepared separation/
termination agreements for Senate offices. These involved situations 
where a Senate office learned, either directly from the employee or 
indirectly, that the employee was considering initiating a case against 
the employing office. Working with the employee and/or his/her 
attorney, the SCCE successfully resolved the matter.
    Representation of Capitol Police in Union Organizing Drive.--The 
SCCE has assisted the General Counsel for the Capitol Police in his 
representation of the Capitol Police Board in the unionization of the 
Capitol Police.
    Advising the Senate about CAA Regulations.--A fourth major activity 
of the SCCE in 1996 was to advise the Senate about the CAA regulations 
proposed by the Office of Compliance.
Office of Conservation and Preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Responsibilities of the office 
include deacidification, phased conservation for books and documents, 
collection surveys, and contingency planning for disaster response and 
recovery.
    Leadership.--For more than twenty years, this office has bound a 
copy of Washington's Farewell Address for the annual Washington's 
Farewell Address ceremony. In 1996, the volume was bound for and read 
by Senator Daniel K. Akaka.
    Seven marbled paper slipcases were fabricated for the book, The 
United States Capitol: Photographs by Fred J. Maroon, and were 
presented to visiting dignitaries.
    Three hundred seventy-two items were matted and framed, including 
resolutions, photographs, letters and photographic compilations.
    At the direction of the Secretary of the Senate, and through the 
Office of Interparliamentary Services, fifteen photo albums 
illustrating a congressional trip to Canada and Southeast Alaska were 
embossed with Senator's names.
    At the request of the Secretary of the Senate's Office, four books 
titled, The Senate 1789-1989, were embossed and presented to the French 
National Assembly on behalf of the United States Senate.
    Senate Library.--In 1996, conservation treatments were completed 
for 276 volumes. 374 books were prepared and sent from the Senate 
Library to the Government Printing Office (GPO) for binding.
    In consultation with the Senate Librarian, monies from the 1994 
Book Preservation Fund (established for the preservation of the Senate 
Library books) funded cleaning of books housed in the Senate Library 
vault located at the Library of Congress, Adams Building.
    Office of the Senate Curator.--The office assisted the Office of 
the Senate Curator in the preparation and installation of two exhibits. 
As in past years, the office again repaired, matted and framed a 
quantity of graphics for display in various areas of the Senate wing of 
the Capitol.
    Historical Office.--At the request of the Senate Historian, our 
office bound thirteen volumes of the circa 1940 Acceptance of the 
Statue of Huey P. Long for Senator Russell B. Long.
    Miscellaneous Projects.--We continue to utilize our spray 
deacidification system, encapsulator, and dry mounting press. This year 
we deacidified 153 items, encapsulated 145 items, and dry mounted 115 
items.
    At the request of the Chairman of the Appropriations Committee, 
Senator Hatfield, four books about the Vietnam War were bound in 
leather for presentation.
    At the request of Senator Kerrey of Nebraska, we bound two leather 
books, and matted and framed one item with Senator's signatures for 
Senator Exon's retirement from the United States Senate.
    At the request of the Democratic Policy Committee, ninety-eight 
folders were embossed with the name of each of the committee members.
    The office continued conservation treatment of Appropriation Bills 
from 1877 to 1943. We completed twelve books, last year, with seventy-
eight books remaining for conservation treatment. These books are part 
of the Appropriations Committee collection.
Office of Senate Security
    The Office of Senate Security was established in 1987 by Senate 
Resolution 243 (100th Congress, First Session). The office is 
responsible for the administration of classified information, 
personnel, communications and computer security programs in Senate 
offices and committees. Under the policy direction of the Leadership, 
it serves as the Senate's liaison to the Executive Branch in matters 
relating to the security of classified information in the Senate.
    Personnel Security.--OSS initiated requests for personnel security 
clearances on 165 Senate employees during 1996. OSS conducted or hosted 
81 security briefings for Senate staff. An OSS Web Page was developed 
to facilitate the dissemination of security information to Senate 
offices.
    Counterintelligence.--OSS conducted, with the FBI, a review of the 
foreign intelligence threat to the Senate, and the OSS Director 
attended a foreign counterintelligence course taught by the FBI.
    Document Control.--2,563 classified documents were processed 
through OSS' automated document control system. 3,418 classified 
documents, no longer required for the conduct of official Senate 
business, were destroyed. Secure storage of classified material in the 
OSS vault was provided for 120 Senators, committees and support 
offices. This arrangement keeps to a minimum the number of different 
storage areas throughout the Capitol and Senate office buildings, 
thereby affording classified material greater security.
    Secure Meeting Facilities.--OSS secure conference facilities were 
utilized on 704 occasions during 1996. 340 hearings/meetings/briefings 
were conducted in OSS' three conference rooms. In addition, OSS 
provided to Senators and staff secure telephones, secure computers, a 
secure facsimile machine, and secure areas for reading classified 
material on 364 occasions.
    Technical Surveillance Countermeasures.--At the request of the 
Department of Defense, the Deputy Director presented classes on TSCM 
techniques at the Interagency Training Center (ITC). The ITC is the 
Intelligence Community TSCM training facility.
    Automation Projects.--A new local area network was installed during 
1996. The new network includes hardware and software for all office 
applications, including a new classified document control system. Two 
PolicyNet terminals were installed at OSS, to provide Senate employees 
access to a classified, interagency computer network. PolicyNet 
provides on-line access to intelligence reporting and analysis, permits 
secure video conferencing, and facilitates multimedia presentations.
    Classified Document Imaging System.--The processing and storage of 
classified material for the Senate is one of the most important tasks 
performed by the office. OSS receives approximately 2,200 classified 
documents from 98 different departments, agencies and commercial 
sources yearly. The office maintains about 3,400 classified documents 
consisting of 103,000 pages for 106 Senate offices.
    The current archive space for classified documents is reaching 
critical mass. The physical aspects of OSS data storage needs to be 
reduced. Migrating these documents into electronic form exponentially 
reduces the documents into a set of very manageable compact disks. This 
would eliminate the physical document as the media for long term 
storage of Senate classified material.
    A system analysis will be conducted to identify the appropriate 
hardware and software to accommodate the new function. As OSS recently 
upgraded the office local area network, the new network should be able 
to accommodate additional hardware and software to implement a document 
imaging system.
Senate Stationery Room
    The Stationery Room provides stationery and other office supplies 
for Senators committees, and offices of the Senate. At the request of 
Senate offices, stationery items not carried by the store can be 
obtained through special order.

Fiscal year 1996 statistical operations

Gross sales.............................................      $2,961,635
Sales transactions......................................          88,367
Generated purchase orders...............................          58,584
Vouchers processed......................................           6,785
Metro fare media sold...................................           5,547

    For fiscal year 1996, gross sales were down by $275,593 though the 
number of sales transactions increased by 25,955.
    The Stationery Room customer base consists of approximately 242 
offices and or other legislative organizations which are located in 
nine buildings, many of which have multiple locations. In addition to 
offices' official requirements, the Stationery Room also accommodates 
staff members' personal purchases.
    The Stationery Room carries approximately 1,250 items in inventory, 
supplied by 200 vendors throughout the United States.
    Stationery Room personnel spent considerable time during 1996 
preparing, planning and coordinating activities associated with 
election of 15 new Senators and their entry into the Senate community.
Interparliamentary Services
    Interparliamentary Services is responsible for administrative, 
financial, and protocol functions for all Interparliamentary 
conferences in which the Senate participates by statute: the North 
Atlantic Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; and Interparliamentary 
Union. It also handles arrangements for special delegations authorized 
by the Leadership and for other Senate delegations.
    The Office of Interparliamentary Services has completed its 
fifteenth year of operation as a department of the Secretary of the 
Senate. IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested to other Senate 
delegations.
    The statutory interparliamentary conferences are: North Atlantic 
Assembly; Mexico-United States Interparliamentary Group; Canada-United 
States Interparliamentary Group; and Interparliamentary Union.
    Known by many in the Senate as the ``protocol office'', 
Interparliamentary Services maintains regular contact with the Office 
of the Chief of Protocol, Department of State, and with foreign Embassy 
officials. Official foreign visitors are frequently received in this 
office and assistance is given to individuals as well as to groups by 
the IPS staff. The staff continues to work closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, IPS is frequently consulted 
by individual Senators' offices on a broad range of protocol questions. 
Occasional questions come from state officials or the general public 
regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors pursuant to Section 2 of H.R. 1827-33 are 
maintained in the Office of Interparliamentary Services.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to Delegation 
trips, IPS provided assistance to eight individual foreign trips. Also, 
Senators and staff authorized by Committees for foreign travel continue 
to call upon this office for assistance with passports, visas, travel 
arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate.
    In May, the 37th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Southeast Alaska. Arrangements for 
this successful event were handled by the IPS staff.
    Planning is underway for the 36th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group which will be held in 1997. Also, in 1997, 
advance work, including site inspection, will be undertaken for the 
38th Annual Canada-U.S. Interparliamentary Group Meeting and the 1999 
British-American Parliamentary Group Meeting, both to be held in the 
United States.
    In 1996, IPS moved its office from S-414A of The Capitol to SH-808.
               interparliamentary services--trips in 1996
    March 31-April 9--Codel Hatfield: Costa Rica, Brazil, and Chile. 
(Senators Hatfield, Pell, Simpson, Heflin, and Murkowski).
    April 3-12--Codel Daschle: Hungary, Serbia, Bosnia, Albania, 
Macedonia, Slovenia, and Croatia. (Senators Daschle, Hatch and Reid).
    April 15-19--Interparliamentary Union--Spring Meeting. Chairman: 
Senator Burns. (No Senators attended).
    May 3-5--Mexico-U.S. Interparliamentary Group--Zacatecas, Mexico. 
Chairman: Senator Hutchison. Vice Chairman: Senator Dodd. (Senators 
Hutchison, Murkowski, Brown, and Coverdell).
    May 10-14--Canada-U.S. Interparliamentary Group--Southeast Alaska. 
Chairman: Senator Murkowski. Vice Chairman: Senator Murray. (Senators 
Murkowski, Chafee, Pryor, Grassley, Gorton, Jeffords, Mack, Burns, 
Bennett, Inhofe, DeWine, and Grams).
    May 16-20--North Atlantic Assembly--Spring Meeting. Vouliagmeni, 
Athens, Greece. Chairman: Senator Roth. Vice Chairman: Senator Heflin. 
(Senators Roth, Heflin and Akaka).
    June 29-July 8--Codel Cochran: Indonesia, Vietnam, and Hong Kong. 
(Senator Cochran).
    September 16-21--Interparliamentary Union--Fall Meeting--Beijing, 
China. Chairman: Senator Burns. (No Senators attended).
    November 8-17--Codel Daschle: Japan, Vietnam, China, Hong Kong and 
Taiwan. (Senators Daschle, Glenn, Leahy, Dorgan and Kempthorne).
    November 16-21--North Atlantic Assembly--Fall Meeting--Paris, 
France/London, England. Chairman: Senator Roth. Vice Chairman: Senator 
Heflin. (Senators Roth, Heflin, Hollings, Sarbanes, Hatch, Warner, 
Grassley, Specter, Murkowski, Breaux, Mikulski, Akaka and Bennett).
     interparliamentary services: official foreign visitors in 1996
    January 22--Members of Parliament of South Africa (11)
    January 31--Delegation of Russian Officials (5)
    January 31--North Atlantic Assembly Defense & Security Committee 
(19)
    February 8--Standing Committee of the Nordic Council (9)
    February 13--Members of Parliament of Ukraine, Romania, and Slovak 
Republic (18)
    February 13--Congressional Scholars from Brazil (2)
    February 29--Secretary General and Members of Parliament of Romania 
(4)
    March 12--Members of Parliament of Belarus (12)
    March 29--His Royal Highness The Duke of York (1)
    May 7--Members of Parliament of Ukraine (5)
    May 8--His Excellency Dr. Janez Drnovsek, Prime Minister of the 
Republic of Slovenia (3)
    May 23--Ms. Sue-chung Chang, Section Chief, National Assembly of 
Taiwan (1)
    June 20--His Excellency Mangala Samaraweera, Minister of Posts and 
Telecommunications of Sri Lanka (6)
    June 26--His Excellency Lennart Meri, President of the Republic of 
Estonia His Excellency Algirdas Mykolas Brazauskas, President of the 
Republic of Lithuania His Excellency Guntis Ulmanis, President of the 
Republic of Latvia (12)
    June 27--Mr. Ming-chuan Chen, Council for Economic Planning and 
Development of Taiwan (1)
    July 9--Delegation of Parliamentarians from Russia, Ukraine, 
Belarus, Kazakhstan, Georgia, and Uzbekistan (14)
    July 10--Delegation from National People's Congress of China (4)
    July 10--Delegation of European Parliament Members (16)
    July 25--Delegation from Chamber of Deputies and Senate of Romania 
(3)
    July 25--Members of Parliament of South Africa (4)
    July 29--North Atlantic Assembly Bureau Meeting (10)
    July 31--His Excellency Mohammed Hosni Mubarak, President of the 
Arab Republic of Egypt (6)
    September 19--His Excellency Dan Meridor, Minister of Finance of 
Israel (5)
    September 23--Mr. Roman Romanovich, Deputy Secretary of the Russian 
Federation Council (1)
    September 27--Her Excellency Wu Yi, Minister of Foreign Trade and 
Economic Cooperation, People's Republic of China (10)
    October 4--Members of Parliament of Bangladesh (10)
    October 9--Members of Parliament and Government Officials from 
France (12)
    November 15--Members of Parliament of Uzbekistan (3)
Senate Gift Shop
    The Senate Gift Shop provides for the sale of United States Senate 
memorabilia and gift items to the general public, Senators and their 
staff, and foreign visitors in accordance with Public Law 102-392, 
October 6, 1992.
    The Senate Gift Shop completed its first full year of operation 
supporting two locations. The main store opened in October 1992 in Room 
180 of the Russell Senate Office Building, and the second, a sales 
counter, opened in November 1995, in the Capitol Building across from 
the Appointment Desk.
    The Gift Shop provides unique, Senate-specific mementos for sale at 
convenient locations. Sales have dramatically increased in the last 
twelve months and, for the first time, exceeded $1,000,000 for a fiscal 
year. As in previous years, the Gift Shop will be introducing a number 
of new products in 1997.
    The continued sales growth makes it necessary to consider 
increasing and improving the warehousing and mail order areas that are 
now available.
    The Gift Shop is currently working with the Stationery Room on 
separating and upgrading the current computer system that is now a 
shared unit. We are considering several different methods of achieving 
this and will take into consideration growth projections and the 
potential future needs of both the Gift Shop and the Stationery Room.
Office of Public Records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate under the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports. The office 
provides for public inspection, review, and reproduction of these 
documents.
    Byrd Amendment.--The final filings under the Byrd Amendment (a 
filing obligation repealed by the Lobbying Disclosure Act of 1995) 
generated submissions from 36 Federal agencies totaling 141 reports 
with 276 pages.
    Federal Election Campaign Act.--The Act required Senate candidates 
running for election in 1996 to file quarterly, pre-election and post 
election reports in an election year. Candidates running for election 
in a year other than 1996 filed semi-annual reports. Filings totaled 
6,791 documents containing 95,584 pages.
    Federal Regulation of Lobbying Act.--This law was repealed 
effective January 1, 1996. From October 1995 through January 1996, 
9,205 reports totaling 56,599 pages were filed, processed and made 
available to the public.
    Lobbying Disclosure Act of 1995.--The Lobbying Disclosure Act of 
1995 superseded the Federal Regulation of Lobbying Act effective 
January 1, 1996. The goals we established and met were: (1) to develop 
forms and informational material for outreach to the filing community; 
(2) to determine the scope and nature of automation for the resulting 
filings; (3) to review the filings for accuracy and completeness; and 
(4) to provide the appropriate context for the information to the 
public and press examining the reports. As of September 30, 1996, 3,557 
registrants represented 8,188 clients and employed 11,702 individuals 
who met the statutory definition of ``lobbyist.'' The lobbying 
documents were microfilmed and indexed into a temporary data base 
pending the development of an automated data base system to include 
imaging (for paper copies received) and electronic components. The 
Public Records staff has reviewed the filings and is notifying those 
whose forms are incomplete.
    Public Financial Disclosure.--A total of 2,821 reports and 
amendments were filed containing 16,089 pages. There were 484 requests 
to review or receive copies of the documents.
    Senate Rule 35 (Gift Rule).--On January 1, 1996, the revised Senate 
Rule 35 took effect as a result of passage of S. Res. 158 on July 28, 
1995. The Rule contained four new filing requirements for Senators and 
Senate staff. The office received over 1400 reports totaling 1560 pages 
during fiscal year 1996.
    Registration of Mass Mailing.--Senators file mass mailings 
registrations quarterly. The number of pages filed were 781.
    Public Inquiries.--From October, 1995, through September, 1996, the 
Public Records office staff assisted more than 2,700 individuals 
seeking information from reports filed with the office. This figure 
does not include telephone assistance. A total of 115,217 photocopies 
were sold in the period.
    Automation Activities.--During 1996, Public Financial Disclosure 
reports were scanned using optical imaging technology. Due to passage 
of the Lobbying Disclosure Act, the lobbying function will be converted 
from microfilming to optical imaging (for paper reports) before the 
Federal Election Campaign Act application. The office has been working 
to develop an automated data base that is able to accept non-paper 
transmissions (electronic filing) as well as paper filings.
Senate Historical Office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,700 former 
senators. It edits for publication historically significant transcripts 
and minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with retired senior Senate staff.
    Vice Presidents of the United States, 1789-1993.--Working with 
Senator Mark Hatfield, the Historical Office completed a series of 44 
chapter-length essays tracing the career of each Vice President through 
1993. The Government Printing Office published the resulting 700-page 
book in April 1997.
    Fiftieth-Anniversary Histories of the Republican and Democratic 
Policy Committees.--In cooperation with the Senate Republican Policy 
Committee, the Office completed an 80-page narrative history of that 
organization for publication in mid-1997. Work also advanced on a 
companion volume detailing the first half-century of the Democratic 
Policy Committee.
    Minutes of the Republican and Democratic Party Conferences, 1903-
1964.--The Office is editing for publication the official minutes of 
each party conference, dating from the start of the twentieth century 
through the mid-1960's. Democratic Conference minutes are ready, 
subject to Conference review. Work is proceeding on a companion volume 
for the Republican Conference.
    Documentary History of the United States Senate.--The Historical 
Office is currently at work on two volumes in this ongoing project 
designed to bring together fundamental sources illuminating development 
of the Senate's constitutional powers and institutional prerogatives. 
Volume One deals with the impeachment process; Volume Two details the 
evolution of the Senate's rules.
    Biographical Guides.--The Historical Office continued to maintain 
and update its large biographical databases, including the Biographical 
Directory of the United States Congress, 1774 to present (Senate 
entries), Senators of the United States: A Historical Bibliography, and 
Guide to Research Collections of Former United States Senators, 1789 to 
present.
    Oral History Program.--During the year, the Office conducted oral 
history interviews with the following former Senate officials: 
Secretary of the Senate Kelly Johnston, Senate Legal Counsel Michael 
Davidson, Enrolling Clerk Brian Hallen, Democratic Secretary C. Abbott 
Saffold, and Charles Caldwell, a staff member of former Senator Ralph 
Yarborough (D-TX).
    On-line Reference Service.--In March the Office began providing on-
line reference assistance to Senate offices and the public via the 
Internet. The Office offers information on the Senate's history and 
practices, and biographical and bibliographical information on former 
members.
    Senate Chronology.--The Office began a chronology outlining 
significant events in the Senate's institutional history. This work, 
currently comprising 1,200 entries, is approximately half-way to the 
point where it can be considered reasonably comprehensive.
    Senators' Office Records Management and Disposition Assistance.--
The 104th Congress saw sixteen senators depart. The Office provided 
extensive assistance to these closing offices.
    Committee Records Management and Disposition Assistance.--By year's 
end, the Office had processed 1,700 cubic feet of committee records for 
transfer to the National Archives.
    Educational Outreach: Historical Information for the Senate Home 
Page.--Beginning with September, the Office produced a home-page 
feature entitled ``This Month in Senate History.'' The entries for each 
month highlight approximately twenty institutionally significant events 
that have occurred during that month throughout more than 200 years of 
Senate history. The Office also participated in the construction of a 
``Quick Time Virtual Reality Tour of the Senate.''
    Advisory Committee on the Records of Congress.--The Historical 
Office provides staff support to this eleven-member permanent 
committee, which meets twice a year to advise Congress on the 
management and preservation of its records.
    Photographic Collection.--The Office maintains a collection of 
approximately 30,000 still pictures that includes photographs and 
illustrations of most former senators, as well as news photographs, 
editorial cartoons, pictures of committees in session, and related 
images documenting Senate history. The Office provided photographic 
reference assistance to congressional offices, scholars, journalists, 
and publishing houses, and furnished photographic images to individual 
requestors. The photo historian instituted a system ensuring coverage 
of the contemporary Senate by photographing each committee while in 
session, collecting formal portraits of each incumbent Senator, and 
identifying and capturing significant Senate events.
Office of the Senate Curator
    The Office of Senate Curator, under the direction of the Senate 
Commission on Art, administers the museum programs of the Senate for 
the Capitol and Senate office buildings. The Curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings, and exercises supervisory responsibility for those 
chambers in the Capitol under the jurisdiction of the Senate Commission 
on Art. All records of research and documentation related to these 
areas of responsibility are available for use by members' offices, the 
media, scholars, and the public. With the establishment of the United 
States Capitol Preservation Commission, the Senate Commission on Art 
became the designated recipient of objects with Senate association 
received by the Preservation Commission.
    Exhibitions and Publications.--The Curator's office maintained an 
active exhibition program, installing four new exhibits in the Senate 
wing of the Capitol, including a major presentation on ``Isaac Bassett: 
The Venerable Doorkeeper, 1832-1895.'' An exhibit panel for the 
painting The Battle of Lake Erie was developed, as part of a continuing 
effort to provide educational information to visitors. In addition, the 
office installed the second in a series of interactive exhibitions.
    In the area of publications, the office redesigned and reprinted 
the small booklet on the Lyndon Baines Johnson Room (S-211), and the 
brochures The United States Capitol and Congress and Postmarked 
Washington D.C.: Visitors to the Capitol, and finalized printing of the 
publication on the Dedication and Unveiling of the Statue of Richard 
Brevard Russell, Jr.
    Historic Chambers.--The Curator's staff continued to maintain the 
Old Senate and Old Supreme Court Chambers, coordinating periodic use of 
both rooms for special occasions. Along with general care and 
maintenance, other concerns included reconditioning two historic clocks 
and repair of water damage to the Old Senate Chamber ceiling. Work was 
completed on a permanent ramp in the Old Senate Chamber, which meets 
ADA compliance for historic structures.
    Collections: Acquisitions and Management.--A number of significant 
works and documents were donated to the Senate collection, including a 
portrait of Senator Hattie Caraway (D-AR), the full-length painting of 
Senator Mike Mansfield (D-MT), a portrait of Senator Lee Slater Overman 
(D-NC), the ``Isaac Bassett Papers,'' and objects from the 
Smithsonian's Warshaw Collection of Political Memorabilia. A major 
collection of 68 drawings detailing the filming of the movie Advise and 
Consent was obtained for the collection, and the Curator's office 
acquired 111 19th century prints.
    In the area of collections management, the staff processed incoming 
and outgoing loans for the Senate leadership, continued to loan and 
monitor the approximately 280 reproduction prints in offices under the 
jurisdiction of the Secretary of the Senate, assisted several Senator's 
offices with loans, and continued to research and catalogue the 
extensive Clifford and Jim Berryman political cartoon holdings.
    Conservation and Restoration.--The office completed the first phase 
of the reorganization and reinterpretation of the vice presidential 
bust collection, had professionally cleaned and conserved the 20 vice 
presidential busts in the Senate Chamber, and began conservation on the 
frame for the painting The Electoral Commission and the frame and 
painting Leiv Eiriksson Discovers America.
    Collaborations, Educational Programs, Events.--The staff continued 
to assist the seminar program under the Secretary of the Senate and the 
Senate Sergeant at Arms by presenting three new lectures to Senate 
staff. The office collaborated with the Senate Historical office in a 
new educational venture with C-SPAN, presenting short historical 
programs, narrated by a Senator or Senate officer, highlighting some 
aspect of the Senate's history or art.
    Automation.--The office worked closely with the Senate Computer 
Center to expand the Curator's homepage on the internet and develop a 
virtual tour of the Capitol using QTVR technology.
    Plans for 1997.--Conservation concerns continue to be a priority, 
with plans to conserve several major paintings in the Senate 
collection. Two new exhibits are scheduled, along with explanatory 
labels for several works of art. Publications planned include booklets 
on the history of the Foreign Relations Committee Room, the Presidents 
Room, and the Vice President's Room. Editing and fact-checking of the 
Guide to Senate Fine Arts is scheduled, as is work on the second volume 
highlighting the Senate's collection of prints. A comprehensive 
disaster preparedness, management, and response plan will be developed 
for the Senate collection.
Senate Page School
    The Senate Page School provides for the education of Senate pages 
pursuant to Public Law 98-51, Public Law 98-125 and Senate Resolution 
184, July 29, 1983.
    Summary of Accomplishments.--The Senate recess this past fall 
provided the Page School with the opportunity to offer additional 
instructional time during the months of October-December. Normally, 
school is conducted between the hours of 6:15-9:45 A.M. For the three 
months of recess, school was conducted from 7:15-11:15 A.M. 
Additionally, school was in session on average an additional half day a 
week. School also met on three Saturdays during the fall 1996 semester.
    Field trips were taken to various historic sites, government 
buildings, museums, and theatrical performances. Speakers included 
college and military representatives. Dr. Ogilvie, Chaplain of the 
Senate, Kelly Johnston, then Secretary of the Senate, and Bob Dove, 
Senate Parliamentarian, shared information about their work in the 
Senate.
    New equipment and software were purchased and installed. Six 
computers for student use were installed in the math classroom to 
accommodate the math curriculum. CyberPatrol, a software package which 
allows regulated access to the Internet was ordered and a CD tower 
which will allow for further networking has been delivered. A color 
printer has also been delivered.
    A new precalculus text, a replacement physics text, and an updated 
American history text were purchased. An advanced composition test was 
also selected and purchased, as well as a workbook for all English 
classes.
    A PSAT preparation course was offered this fall to interested pages 
and the PSAT was administered on the national testing date. Foreign 
language tutors worked with students in the areas of French, Latin, 
Spanish, and German. The Page School staff remained the same as in the 
previous year. The four teachers taught a combination of eleven courses 
this year. All faculty attended ``The Critical Thinking Workshop''; the 
science teacher participated in the Space Policy Institute workshop 
conducted at George Washington University; the English instructor 
attended a workshop entitled ``Developing Writing and Thinking Skills 
Across the Curriculum,'' and was selected to participate in a summer 
offering at the Holocaust Museum; the social studies instructor 
attended the 1996 History Forum in Williamsburg, Virginia last fall.
    Summary of Plans.--Students will complete their semester 
curriculum. Needs of the incoming students will determine the second 
semester schedule. Supervised study exists for pages attending Page 
School less than a semester. Extended day schedules, tutoring by 
teachers on an as-needed basis, and individualized small group 
instruction will continue. These various strategies will provide for 
the delivery of the curriculum.
    Foreign language tutors will accommodate the needs of the incoming 
pages. Field trips to Williamsburg and Baltimore are planned for the 
second semester. The focus is on historic and political significance as 
well as architecture. College visits are incorporated where possible as 
a critical component of the junior year curriculum.
    The self-study phase of the accreditation process by the Middle 
States Association of Colleges and Schools will be completed by the 
staff. Plans to host the accreditation visitors will be finalized, and, 
hopefully, the visit will take place spring 1997.
    Staff development opportunities will be explored. A review will be 
conducted in all subjects to determine which, if any, textbooks need to 
be replaced. Software will be reviewed and new requests will be 
investigated. The Windows scheduling component of the records 
management system will be installed.
Information Systems Department
    The staff of the Department of Information Systems provide 
technical and user support for the Office of the Secretary of the 
Senate. Information Systems staff also work closely with the Government 
Printing Office (GPO), the Senate Computer Center (SCC), and the Senate 
Office of Telecommunications (Telecom) on technical issues and joint 
projects. The Department provides technical and user support for the 
ten computer systems in the Office of the Secretary of the Senate (five 
Novell LAN's; three Windows NT LAN's; a retail computer system in the 
Stationery Room; and a FileNet imaging system in the Office of Public 
Records).
    Improvements to the Secretary's LAN's.--The Senate chose Windows NT 
as the standard network operating system several years ago and the 
Secretary's Office will use Senate-supported systems whenever possible. 
Every new system installed in 1996 was a Windows NT system, and 
additional conversions from Novell to Windows NT are planned. This may 
allow the Office of the Secretary to rely on the Senate Computer Center 
and I-Net for some system support.
    The Secretary's Novell LAN supports approximately 175 users in the 
Capitol and the Senate Hart Buildings. The LAN operating system was 
upgraded, new servers were installed in October, and all 386 PC's were 
replaced with new Pentium computers.
    Telecom and the Secretary's IS staff worked together this year to 
migrate the Office of the Secretary from the older technology of 
accessing the mainframe via coax cabling and controllers to accessing 
it via IP and the fiber optic cabling backbone now in place. Also the 
Secretary's network cable configuration was upgraded to switched 
ethernet.
    Several technology resources were made available for use by all 
Secretary staff: laptop computers and portable printers; a high-end 
scanner; a low-end color printer; Lexis/Nexis and Westlaw commercial 
information services; and Internet e-mail and World Wide Web access.
    Several departments have had repetitive tasks automated using the 
macro scripting language in Word Perfect. When a new version of 
WordPerfect is installed, all the macros must be updated and re-coded. 
These scripts should be written in a programming language independent 
of any application. Microsoft Visual Basic 4.0 and Delphi were 
purchased and computer staff will begin recreating WordPerfect macros 
in Visual Basic when feasible.
    For a variety of reasons several Departments have their own 
computer systems. In most cases the separate systems hold unique 
applications. In some cases, separate LAN's were set up for security 
reasons.
    The Official Reporters' and Captioners' LAN.--The Official 
Reporters and Captioners have a separate Novell server. They use 
specialized software called Computer Aided Transcription (CAT) for 
translating their steno code into English. The Xscribe CAT software was 
upgraded to the newer version. Also in 1996 we upgraded the Novell LAN 
operating system and installed a new server and, to support their heavy 
printing needs, a high-end printer was purchased and installed.
    The Senate Gift Shop's LAN (in two separate locations).--At the 
request of GAO, for security reasons, the Gift Shop LAN cannot be 
connected to the Secretary's LAN or to the Senate Fiber Network (SFN). 
The Gift Shop LAN houses their inventory and transaction records. Plans 
are underway to set up some workstations in the Gift Shop that would be 
connected only to the Secretary's LAN to provide cc:mail and internet 
access.
    The Page School's LAN.--The Page School currently has a Novell LAN, 
but a Windows NT LAN will be installed in the near future. Users 
include the administrative staff, teachers, and students. 
Administrative staff use the Blackbaud program for students records and 
grades. These records are confidential. In 1996 Internet access and e-
mail was provided to students and staff and CyberPatrol, a software 
package which regulates access to the Internet was installed to prevent 
access to unacceptable sites. A CD tower was purchased and will be 
installed in early 1997.
    The Office of Senate Security's LAN.--The Office of Senate Security 
inventories and tracks all classified information that comes into the 
Senate. In the Fall of 1996 their system was completely upgraded from a 
Novell system to a new Windows NT LAN with top-of-the-line equipment 
and a new Document Management System was purchased. For security 
reasons, the computer systems in Senate Security cannot be connected to 
any other system in the Senate so two PC's connected to the Secretary's 
LAN (and not to their LAN) have been installed so that staff can have 
access to cc:mail and the internet.
    The Senate Disbursing Office LAN.--In 1996 the Disbursing Office 
installed a Windows NT LAN in Disbursing for desktop applications, and 
attempted to install a server to run DOVES, the general ledger. The 
office automation upgrade was fine, but the upgrade of the DOVE's 
server caused data to be corrupted and after almost two-weeks of 
attempts to salvage the upgrade the Disbursing Office had to roll-back 
to their original system. Thus, the Disbursing Office still maintains 
one separate 3-Com LAN for DOVES.
    The Office of Public Records (OPR).--OPR uses FileNet, a UNIX-based 
document management and imaging system, for maintaining public records 
such as lobbying forms; campaign finance reports; and financial 
disclosure reports. PC's are available to the public for searching, 
viewing, and printing these documents. The FileNet workflow system 
includes scanning the original document into the database, inputting 
some data regarding the document, and then microfilming it for archival 
purposes. In 1996 we installed a unique, high-end, Kodak 990D scanner 
that handles the dual functions of digitizing images and microfilming 
documents.
    When the Lobbying Disclosure Act was signed into law, a system to 
capture only the minimum identifying data on each report filed was 
created. A complete database system for lobbying is being developed.
    A working group has been established to tackle the many issues 
currently facing OPR, including: upgrading the System Hardware and the 
FileNet; finishing applications for on-site public access to the 
records; and developing a system for remote public access via the 
internet.
    One staff member of the Department has been assigned to OPR as 
full-time Systems Administrator, and the Senate Computer Center has 
assigned a full-time programmer to write an application to allow the 
public access to various filings, including: Financial Disclosure 
Reports, Campaign Finance Reports, and Lobbying Reports. Currently only 
the Financial Disclosure part of the application is finished. 
Development continues on the other modules.
Senate-wide information technology projects authorized by the Secretary
    The Strategic Planning Process Initiative.--The strategic planning 
project was initiated by the Rules Committee in early January 1996. The 
first meeting set up a structure for the project. A management team, 
consisting of the Secretary of the Senate, the Sergeant at Arms, and 
the Chairman and Ranking Member of the Rules Committee (or their 
representatives). A Working Group of representatives of these offices 
began meeting and identified several items which we felt were 
significant and should be looked at during this process, including: an 
integrated legislative information system; an integrated financial 
management system; internet services; desktop strategies (technology at 
each person's workstation); security; constituent mail systems; 
customer service and support; video conferencing; and infrastructure. 
Advisory groups studied each issue and produced final reports.
    Consultants with an expertise in strategic planning have been hired 
to formalize the strategic planning process in the Senate.
    The Senate Legislative Information System Initiative.--The 
Legislative Information System (LIS) initiative will automate the 
preparation of legislative information moving closer to a paperless 
process and provide comprehensive search mechanisms for helping users 
access the information they need without having to know where that 
information is stored. Legislative information is currently created and 
maintained by several different offices in the legislative branch, and 
official information (legislative information that has reached the 
Floor) is not available online until the next day.
    Other legislative branch agencies are currently redesigning their 
legislative information systems. With proper cooperation and 
communication among the legislative branch agencies we can develop 
systems that work together, without unnecessary duplication, and that 
meet everyone's needs. To achieve our objectives, this project will 
require a sustained, multi-year effort by the Senate, in coordination 
with the House, and supported by the legislative branch support 
agencies.
    The 1996 Legislative Branch Appropriations Act required the LOC to 
undertake a study and submit a plan for developing a single, integrated 
legislative information system. The goal was the development of a 
system that would reduce duplication and at the same time improve the 
quality of the legislative information available to the entire 
Congress. In 1996 we successfully worked with the appropriators to have 
the authority and funding for this project addressed in statute (see 
Title I, Sec. 8 of the 1997 Legislative Branch Appropriation Act).
    Designing the System.--The Senate, through a standard RFP 
procurement process, contracted with KPMG/Peat Marwick to provide a 
design concept for the Legislative Information System, and at the 
option of the Senate, to draft a detailed requirements document for 
inclusion in a solicitation should the Senate decide to proceed with 
the actual development of the System. Specifically, KPMG performed the 
following functions:
    Developed of an overall, high-level, design concept:
  --Conducted an operational analysis of the existing legislative rules 
        and procedures;
  --Analyzed and assessed the needs of the potential users of the 
        System;
  --Analyzed and recommended potential system designs and architectures 
        to capture information from document creation and that include 
        workflow and tracking capabilities;
  --Analyzed existing applications for potential integration into the 
        new system and recommended development of new internal 
        applications, where needed;
  --Identified aspects of the existing legislative process which are 
        not subject to automation; and
  --Explored the benefit and feasibility of integrating existing 
        commercial legislative and news services into the Legislative 
        Information System.
    Developed an overall program plan:
  --The final deliverable by KPMG was an overall implementation plan 
        based upon the design concept approved by the Senate. This 
        program plan included a project schedule; identified resources 
        required to develop the System; and established a multi-year 
        project budget with a detailed breakdown of first-year 
        expenditures. KPMG finished their study and provided the 
        program plan on January 24th. The Secretary of the Senate, the 
        Sergeant at Arms, and the Staff Directors of the Rules 
        Committee met and accepted the final report.
    A Program Office, staffed by KPMG and Senate staff, was established 
in early 1997 and a project manager was hired. The program office and 
project manager will set up a management structure for the remainder of 
the LIS project; detail the scheduling and staffing for six 
subprojects; manage and track the projects through their completion; 
produce a detailed RFP for publication; and provide oversight on the 
development of the LIS system.
    Full Text Amendment Scanning Project.--KPMG developed functional 
requirements for an amendment scanning system. They recommended using a 
document management system similar to what might be used in the larger 
LIS system. Based on KPMG's design, the SCC developed the amendment 
scanning system in two months. The Bill Clerks receive the xeroxed copy 
of the amendment and scan it in within minutes of its introduction on 
the Floor. The amendment number, bill number, and sponsor are added to 
the record and the amendment is available for viewing by all Senate 
staff with a browser and Acrobat Reader. A pilot test is underway and 
in a few weeks it will be released to the full Senate.
    The Senate/House SGML Data Standards Initiative.--The Secretary of 
the Senate and the Clerk of the House are working together to establish 
a standard for data exchange. That standard will be the Standard 
General Markup Language (SGML). Each Legislative Branch agency was 
surveyed about their ongoing SGML projects. We contracted with The 
Mulberry Group, to analyze agency survey responses and make 
recommendations as to our next step. Based on the findings of the 
Mulberry report and negotiations between the Clerk and Secretary, the 
next step is to begin work on developing a SGML DTD (an agreed upon 
structure) for Bills. A Committee of representatives from the Senate 
(including staff from the Secretary, the SAA, and the Legislative 
Counsel), House, Library, and GPO will work together on this project.
    Internet Technologies: The Senate WWW Home Page.--The Senate World 
Wide Web (WWW) Home Page was one year old on October 20, 1996. The Page 
had been averaging 50,000 hits a day and that number rose to about 
70,000 per day in September 1996. The Secretary's Office is responsible 
for the legislative and institutional content of the Home Page.
    The Financial Management System (FMS-II) Project.--This project 
will take the Senate from a cash-based to an obligation-based 
accounting system. It will provide online data entry of purchase and 
voucher information, and storage and retrieval of scanned images of 
supporting documentation for viewing side-by-side with voucher data. 
The Secretary has hired a high-level Project Manager to run this 
project.
    As a first step in the ``paperless'' bill paying process envisioned 
under the FMS-II project, the project team, in previous years, 
developed the Senate Office Accounting System (SOAS), a Paradox-for-
DOS-based standalone system, used by Senate offices to prepare vouchers 
and track office accounts. This system eased the administrative burdens 
of bill paying for Office Managers and introduced the concepts of 
obligation-based accounting to the Senate. During 1996, the project 
team continued to enhance SOAS, provide ``follow-up'' training for new 
users, troubleshoot hardware and software problems, and write 
procedures for using the system.
    The project team arranged access to SOAS for departing Senators so 
that vouchers can be prepared for invoices received after the Senator's 
term expires. SOAS records were copied from each Senator's office 
requesting it, and were copied to either a PC in the Disbursing Office 
available by appointment to Office Managers from these offices, or to 
the PC of a former Office Manager who accepts a job in a new Senator's 
office. Although requested, the project team did not copy data to the 
personal PC's of any former Office Managers.
    A first version of the Senate Time and Attendance Reporting System 
(STAR) was virtually completed by January 1996. This system was 
developed before the governing regulations were issued by the Office of 
Compliance. The initial version had a standard Monday-Sunday workweek. 
Deployment was halted when it became apparent that users needed a 
system that provided for variable workweeks. Incorporating such 
flexibility required a near total rewrite of the system that was 
completed only near the end of 1996. The new version not only allows 
offices to have different workweeks, but allows offices to establish 
different workweeks for each employee. The new version of the system 
has been in operation in two pilot offices since June 1996 while it was 
under development. In December 1996 it was deployed to three additional 
pilot offices. These offices have had some suggestions for change and 
enhancement that are being incorporated as it is deployed further. The 
system will be provided to additional pilot offices during the Spring 
of 1997.
    During 1996, the Request for Proposals that was issued in 1995 for 
the central accounting system, which will be the core of the overall 
new Senate Financial Management System, was canceled and a different 
solicitation--a Letter of Interest--was issued to the seven vendors 
with such products on the GSA Schedule. Responses were received from 
five companies. Evaluations were put on hold pending the Secretary's 
employment of a high-level Project Manager.
    During the year, a Memorandum of Understanding was entered into 
with the Department of the Treasury, Financial Management Service, 
Center for Applied Financial Management for assistance in evaluating 
proposals and in installing and implementing the new system.
    Advisory Committee on the Records of Congress.--An eleven-member 
permanent committee, established by Public Law 101-59, meets twice a 
year to advise Congress and the Archivist of the United States on the 
management and preservation of the records of Congress. Its Senate-
related membership includes appointees of the Majority and Minority 
Leaders, the Secretary of the Senate, and the Senate Historian.
    A Task Force on the Impact of Technology on Archival Documentation 
of Congress will compile an inventory of major computer systems in use 
in the Senate and the House of Representatives, identify permanently 
valuable information, and make recommendations for data migration and 
preservation. The Task Force in conjunction with representatives of the 
Clerk of the House is in the process of identifying all types of 
electronic data in the Secretary's office that need to be archived. A 
draft report is due to the full committee in June.
                                 ______
                                 
                  Biographical Sketch of Gary L. Sisco
    Gary L. Sisco was elected and sworn in as Secretary of the Senate 
on October 1, 1996. Born and raised in Bolivar, Tennessee, he was 
educated at the University of Mississippi, where in 1967 he earned a 
bachelor of science degree in civil engineering, and The George 
Washington University, where in 1970 he earned a master of science 
degree in administration.
    Secretary Sisco served in the United States Army from 1968 to 1970. 
In 1970, he rejoined IBM's Memphis, Tennessee, Data Processing 
Division, where he had been employed prior to entering military 
service. A year later, he joined the staff of Senator Howard H. Baker, 
Jr. (TN). He left Senator Howard Baker's staff as executive assistant 
in 1973, when Lamar Alexander appointed him manager for his 1974 
campaign for governor of Tennessee. Mr. Sisco then served, from 1975 to 
1977 as administrative assistant to U.S. Congressman Robin Beard (TN).
    From 1977 until 1996, Mr. Sisco was in the real estate investment 
business in Nashville, Tennessee. Secretary Sisco is married and has 
three children.
                                 ______
                                 
               Prepared Statement of Stuart F. Balderson
    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 1998.
    Mr. Chairman, the fiscal year 1998 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
Fiscal Year 1998. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$522,751,000, which reflect an increase of $39,156,000, or 8.10 percent 
over the amount appropriated for fiscal year 1997 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 1997 are $483,595,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 1998 are divided into three 
major categories as follows:

Senate Items............................................     $83,847,000
Contingent Expense Items................................     394,928,000
Joint Items of the Senate...............................      43,976,000

    Specifically, Mr. Chairman, the increase for fiscal year 1998 over 
the fiscal year 1997 enacted levels is a result of: (1) $15,989,000 
increase in the budget estimate for Senators' Official Personnel and 
Office Expense Account to fully fund the allowances which are under-
funded as a result of the consolidation of population categories, 
increases in the populations of various states, and the increase in the 
Legislative Assistance Allowance authorized in the Legislative Branch 
Appropriations Act, 1993; (2) $5,034,000 for the anticipated 2.8 
percent cost of living increase for fiscal year 1998, and the 
annualization costs of the fiscal year 1997 cost of living adjustment; 
(3) $3,737,000 for personnel adjustments other than the cost of living, 
attributable primarily to Expenses of Inquiries and Investigations, and 
to the Capitol Police, including $141,000 for Capitol Police 
comparability increases; (4) $210,000 for estimated overtime costs, 
excluding Capitol Police; (5) $3,453,500 increase in agency 
contributions applicable to the cost of living adjustments and other 
personnel increase requests; (6) $10,732,500 increase in non-payroll 
expense requests, attributable primarily to the Office of the Sergeant 
at Arms and Doorkeeper.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 1998.

    Senator Bennett. Thank you. You anticipated a number of the 
questions that I was intending to ask. We appreciate that and 
we appreciate your service.

                        Hearing tracking service

    Let me stray a little bit to ask you a question you are 
probably not prepared for, so you might want to think about it. 
But in the legislative information service, think about how 
difficult it would be to add a tracking service of hearings so 
that someone could call in--someone being not only the public, 
but more particularly perhaps a Senator's office--and say what 
hearings are scheduled on x number of days and what conflicts 
exist between Senators. You could track that Senator Dorgan, 
for example, had this hearing coinciding with a Democratic 
leadership meeting that is taking place simultaneously and he 
has to shuttle back and forth between the two of them. A 
chairman of a subcommittee could access and realize that if 
this hearing were scheduled at 10 o'clock, the members of the 
subcommittee would run into these kinds of conflicts. If the 
hearing were at 11 o'clock, they would be alleviated somewhat 
and so on.
    Do you have a view as to how tough that would be to 
implement?
    Mr. Sisco. My view is that that would be fairly simple to 
implement, to design, and incorporate into it. I think the key 
to that would be having everyone participate and actually input 
their own schedules where there would be good information in 
it.
    We have retained KPMG Peat Marwick to do a design document 
with all the requirements for LIS, and this and anything else 
that you would want we can put in there and see what would be 
required to do it. But my take is that that would be an 
excellent thing to do and would be easy to do.
    Senator Bennett. I would appreciate your doing a little 
work on that.
    As I go around to my fellow Senators in my assignment from 
Senator Lott to talk about ways in which the Senate can be 
restructured to make it more efficient, I find other Senators 
list this as one of their most serious complaints. Their 
schedules are constantly conflicting. I realize you probably 
cannot train committee chairs to ever pay any attention to 
anybody's initiatives but their own, but if this service were 
available and some kind of moral suasion out of the leader's 
office could be brought to bear on committee and subcommittee 
chairs to get them to check with this and try to make their 
schedule a little more compatible to the circumstances of the 
committee members, we might begin to move in the direction that 
people would like us to move around here.
    I would appreciate it if you would give that some thought, 
and then at some point we might visit again about it.
    Mr. Sisco. I will.
    Senator Bennett. Some quick housekeeping questions. When 
your office receives a voucher, how long does it take before 
the vendor is paid?
    Mr. Sisco. When I got here, it was 6 to 7 weeks. There were 
five or six positions in the Disbursing Office that were not 
filled and they were short-handed. We addressed that. Stuart 
Balderson and his people have done an excellent job. We have 
added some people and without raising unrealistic expectations, 
we are now down below 2 weeks.
    The first goal was to pay our bills within 30 days, which 
ought to be done with no problem. Second, to make sure that we 
pay them on time. Third, to get discounts, and just move them 
up on a responsive basis.
    Right now I am informed that we are under 2 weeks and that 
is what we plan to continue to do. If anyone in the room knows 
anything to the contrary, I would like for them to see Stuart 
and me afterward.
    Senator Bennett. OK, very good.
    Are the amount of discounts available for prompt payment a 
significant amount of money? Are we talking about--what 
percentage if the bill is paid within 10 days?
    Mr. Sisco. I have not personally looked at that. I was 
going on the assumption that with the funds there and with the 
obligation there, that once we got caught up and we were 
looking at the financial system, that whatever money there is 
there for prompt payment or for discount, that we ought to get 
it.
    Senator Bennett. Prior to your coming, the office began to 
look into cost savings that could be generated by consolidating 
the Office of the Stenographers and the Hearing Impaired 
Transcribers. Do you have any information on where that study 
is or what became of it?
    Mr. Sisco. Senator Bennett, I have read that study and it 
probably has some merit just from an organizational standpoint 
or an efficiency standpoint. But candidly, it is not a high 
priority of mine--it has not been and it is not right now--with 
everything else that we have got going. It is something that I 
will continue to review, but again the critical thing there, I 
think, is service--getting the information from the floor and 
getting it transcribed timely and accurately and getting it in 
written form. But I do not have a plan for that right now.
    Senator Bennett. OK, thank you very much.
    As I say, I think you covered the other questions in your 
statement. If we decide you did not, we will send you a 
question or two in writing. But we appreciate your being here 
and we appreciate your service to the Senate.
    Mr. Sisco. Thank you, Mr. Chairman.
             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. GREGORY S. CASEY, SERGEANT AT ARMS
ACCOMPANIED BY:
        LORETTA SYMMS, DEPUTY SERGEANT AT ARMS
        LARRY HARRIS, ADMINISTRATIVE ASSISTANT
        CHRISTOPHER DEY, CHIEF FINANCIAL OFFICER
        DUANE RAVENBERG, HEAD OF TELECOMMUNICATIONS

                       introduction of Associates

    Senator Bennett. We now go to the Sergeant at Arms' office, 
and I understand in the proper tradition of the modern Senate, 
the Sergeant at Arms has some charts. [Laughter.]
    Mr. Casey. You would expect nothing less, would you?
    Senator Bennett. We cannot have a debate on the floor of 
the Senate without a bunch of charts.
    Mr. Casey. I have some props too.
    Senator Bennett. OK, very good.
    For the record, Greg Casey is the Sergeant at Arms and he 
is accompanied by Ms. Loretta Symms, the Deputy Sergeant at 
Arms, and Mr. Larry Harris, the Administrative Assistant. Mr. 
Casey, we are happy to have you here and look forward to seeing 
your charts and watching your visual aids.
    Mr. Casey. I hope I do not disappoint you, Mr. Chairman, 
with the charts.
    I would like to introduce one other individual joining me 
at the table, the Chief Financial Officer for the Sergeant at 
Arms, Mr. Christopher Dey.
    Senator Bennett. Mr. Dey, we welcome you as well.

                           summary statement

    Mr. Casey. Thank you, Mr. Chairman. I am Greg Casey, the 
34th Sergeant at Arms and the Doorkeeper of the Senate, and it 
is an honor for me to be with you today. I am familiar with all 
the staff sitting along the back wall and compliment the 
chairman on having such competent individuals with him.
    Mr. Chairman, when the majority leader told me he was going 
to make me the Sergeant at Arms, he gave me a very clear two-
part mandate. The first was to make sure that the financial 
operations of the Sergeant at Arms were properly run. The 
second was to look at the management functions to make sure 
that we could increase the service to the Senators in a cost-
efficient manner.
    With the help of retired Senator Hank Brown, we put 
together a skilled evaluation team that built on an audit that 
was done of the Sergeant at Arms in 1994. The evaluation team 
concluded that we did, in fact, have the necessary financial 
tools in place to ensure that we are running in a proper 
fashion.
    That evaluation team also told us, however, that we needed 
to get on with the massive restructuring of the Sergeant at 
Arms' office.
    As part of the study for that evaluation team, I had this 
organizational chart prepared. This chart represents the 
current operations of the Sergeant at Arms. As you can see, it 
is a vertically oriented conglomerate of nonintegrated 
functions. This is not an organization. It is a group of 
organizations that have been strung together over the last 20 
years or so.
    In it, more than 25 separate managers reported directly to 
the Sergeant at Arms, and in this nominal chain of command, as 
many as 70 employees were not accounted for. Duplication of 
effort was common. Consistency in compensation, evaluation, and 
performance measurement did not exist. What little planning and 
communication existed between these various departments served 
only the interests of the individual units. There was little 
concern for the organization as a whole or for the Senate as a 
customer.
    In this format, Member offices were subjected to four 
separate inventories by four separate departments. Under this 
format, we had one SAA department developing a technology that 
was totally inconsistent with the technological standard being 
developed in another Sergeant at Arms' department.
    In this structure, printers are procured and maintained by 
the computer center, copiers procured and maintained by the 
service department, and fax machines procured and maintained by 
telecommunications. I am sure there are many in this room who 
have a single machine in their house that performs all three of 
those functions.
    I think it should be obvious that advances in technology 
and the passage of time have erased whatever reason we had to 
build this kind of a stovepipe structure.
    To improve our productivity, Mr. Chairman, we needed to do 
more than nibble at the edges of change in this organization. 
We needed to do some profound, systemic reengineering.
    Interestingly enough, this is not the first time that the 
Senate of the United States has come to exactly that same 
conclusion. This is the commission report on the operations of 
the Senate, 1976-77. It was an exhaustive study of how the 
Senate does business. Included in that is an extensive study of 
administrative operations, including our own.
    Here is the conclusion. ``The administrative structure of 
the Senate is antiquated, fragmented, and lacking clear lines 
of authority and responsibility.''
    Among its recommendations was that, ``The administration of 
the Senate services needs to be reorganized within a unified 
modern management structure with clear lines of authority and 
responsibility.''
    Unfortunately, the structure that was so maligned in this 
report 20 years ago is essentially the same structure I just 
showed you on the chart.
    Now, in 1995 the Senate Rules Committee contracted with 
Performance Engineering Corp. They gave them the charge to come 
back with a review of the Senate's information technology 
infrastructure. This is that report. In short they said--and I 
quote--``The Sergeant at Arms should develop a new 
organizational structure.'' The report gave us a list of things 
that we should probably pursue in order to implement that new 
organization. Unfortunately, that report went largely unheeded.
    Now, the need for changing the way we do business as a 
Government and a Senate is not new. Congress recently passed 
several laws that require Federal agencies to adopt strategic 
planning and performance measurements, such as the Clinger-
Cohen Act, the CFO Act, the Government Performance and Results 
Act, among others.
    I even have a quote from Vice President Al Gore's 
``National Performance Review'' talking about the need for 
dynamic change.
    There is also a great deal that we do in the Sergeant at 
Arms and the Senate as a whole, Mr. Chairman, that simply must 
be changed because the Congressional Accountability Act makes 
us change it.
    Mr. Chairman, I think it was clear from the get-go that the 
Sergeant at Arms' office needed to change the way we did 
business, and we are.
    Our vision for the future is this. I think you can see from 
this chart that we have really sort of changed our approach. In 
the organization that we are building, we focus on improved 
service quality, increased efficiency, maximum responsiveness 
to clearly identifiable customer bases within the confines of 
available resources. While this is still very much a work in 
progress, you can see that this is a totally different model--
this is a horizontally integrated model--than the one that you 
just saw. We can focus on planning, product development 
delivery, customer service, and quality assurance. We do this 
with a Sergeant at Arms institutionwide approach rather than a 
unit-by-unit one, recognizing that we have a clearly 
identifiable customer base and that is who we need to serve.
    One of the differences between what we are creating and 
what we were before is that all of our engineers will be in the 
technical operations division, whereas now we have engineers 
spread all over our operation working on piecemeal bits of 
technological answers to problems that people bring to our 
attention. We are going to put our engineers in one place and 
say that your job is to develop a technological vision for the 
future of the Senate. That is what we are going to do there.
    Also, we have gathered together a centralized customer 
support program, and so for the first time, there will be one 
person who is going to be the central point of contact for 
every office in the Senate helping to develop answers to 
questions that Senate offices may have before they become 
problems. We are going to do that over here in the customer 
relations program.
    We have developed an office operations division. Anybody 
who works in an office knows it is very difficult to know who 
you call when you have a problem. We have all experienced that. 
Instead of trying to educate all the offices as to whom that 
may be, we are developing a 228-HELP line so that all you have 
to know is to call 228-HELP. When you get that line, we will be 
able to give you the answer that you need.
    Mr. Chairman, moving from where we are now, where we have 
been for two decades, to this new organization is going to be a 
challenge. We have started it step by step in a logical 
fashion. It is going to take us some time. The challenge is not 
only making the reorganization work, but that we are not going 
to be allowed to miss a step in performing those services under 
the old organization as we get there.
    I have some interesting statistics in how our workload has 
also gone up considerably that I will give you near the end of 
the presentation.
    Even so, I think we have taken some logical first steps, 
but there are far too many for me to go into them all here. 
Time does not allow us to do that unless, of course, you ask me 
to do that. But I would like to give you just a few examples.
    We have created a Capitol division, and within the Capitol 
division, which basically takes care of the Capitol and the 
historical functions of the Sergeant at Arms, we have the 
Doorkeeper. The Doorkeepers are one of the oldest parts of the 
Sergeant at Arms' operation. As it is one of the most 
historical changes to the Sergeant at Arms, we decided to start 
there in implementing our management philosophy.
    We reengineered their operations. We trained them. We set 
down some standards. We have invested in our Doorkeeper corps. 
As a result, we believe that we get a far more professional 
Doorkeeper corps providing far better service, and we have done 
this while also reducing the FTE's in the Doorkeepers by 20 
percent.
    As we proceed, we are going to analyze each element in the 
Sergeant at Arms' office in the same way, applying the same 
kind of management philosophy, analyzing each position and each 
responsibility as we go, hopefully, with similar results. We 
are going to find out that we are going to have to do things a 
lot better. We are also discovering that we are going to have 
to do things a lot differently.
    A case in point is long distance billing. We went before a 
bipartisan meeting of office managers, and they complained 
about the huge amount of paperwork that goes along with long 
distance billing. We did some investigating and found that we 
were spending $1 for every 90 cents we collected. It did not 
make a whole lot of sense, so we simply eliminated the charge-
back provision.
    But I think nothing is more indicative of the kind of 
change we are talking about than what we are proposing to do 
with support for State offices. Currently we have an arbitrary 
set of numbers that restricts State offices to a particular 
square footage, along with some artificial barriers on the kind 
of equipment that you can use in those offices.
    Now, the Sergeant at Arms' office provides every State 
office that you have with furniture and equipment at no cost to 
those individual offices, whether you have 5 offices or 10 
offices. We are on the line to have to support those offices.
    That did not make any sense to us. In the age of increased 
communication, it makes sense that your offices and others are 
going to put more of their resources in their home States where 
both the services are delivered and where the voters are. 
Rather than trying to artificially restrict the expenses for 
those offices arbitrarily, which is 40 percent of our expense 
budget, providing for those State offices, we came up with the 
solution that we offered to the Rules Committee. The Rules 
Committee has granted permission for us to move ahead with 
developing the following program.
    We will give each Senator a budget, much the same as we do 
with the computer budget, and say that, you can do this how you 
see fit, allowing you to develop the kind of offices that you 
want, the kind that best meet your constituent philosophies. We 
believe in the long run this is not only going to be a better 
solution for the Senators, but it is going to be a better 
solution for the taxpayers as well.
    We also created a project management tracking system. This 
is the first time this has ever been used here in the Senate. 
What it gives you, the oversight committees, is the ability to 
look at the way we are spending money in the Sergeant at Arms' 
office, to know what the purpose is, to know how much money we 
have spent, and to know whether we are on target or not. It 
gives us, the managers, the same information so that we, at a 
glance, can know what we are doing, how we are doing it, and 
whether or not we are keeping up with where we are supposed to 
be. This good management practice has been incorporated into 
quarterly reports, the first of which your office should have 
already received.
    Now, the beauty of this is twofold. No. 1, this is going to 
give you a report on major expenditures, the projects and 
initiatives in the Sergeant at Arms' office, without regard to 
the organization. This particular project deals with enterprise 
management. It will be the same project in the new organization 
as it was in the old organization.
    Additionally, we think this is going to be important for us 
as we move away from product development into more project and 
contract management for the future.
    As I alluded to earlier, the human resource management part 
of the Sergeant at Arms' operation has not served the Senate 
very well. If we are to demand more from our employees, we must 
be prepared to provide our employees with the tools they need 
to improve and the incentives required to award that 
improvement.
    To that end, we have hired a top-notch human resource 
professional and we have begun an extensive management training 
program. We now have a standard system on pay outlines Sergeant 
at Arms-wide, something we did not have before. We just 
finished training 120 front-line managers in the Sergeant at 
Arms' operations on how to perform on a consistent basis our 
personnel evaluations, as well as ADA training and FMLA 
training.
    Yesterday we awarded a job classification and salary range 
study, much the same as what the Secretary's office had done 
last year.
    We have instituted an employee awards program and already 
presented five merit awards in the first 6 months of this year. 
We are planning other programs that will award performance and 
help us retain the kind of skilled and technical professionals 
we are going to need in the new millennium.
    Other near-term efforts include a career path program 
within the Sergeant at Arms' operations, family/friendly leave 
programs, and the institution of individual technical training.
    The recent flooding in the Midwest also highlighted some 
problems that we had. We need to be rapid and flexible in 
supporting affected Members' offices when they are faced with 
such disasters. We found that we not only needed to change our 
own regulations and the way we respond to Members' needs, but 
we had to get some changes made in Federal law. With your help 
and the help of Senator Dorgan, those technical corrections 
were in the disaster supplemental that got vetoed, but I am 
confident that those technical corrections will make it into 
law.
    Senator Bennett. I doubt that those were the reasons for 
the veto.
    Mr. Casey. Good, glad to hear that. [Laughter.]
    That makes me feel better.
    But I think the point there is that we need to be far more 
capable in our response to the needs of our Members, and I 
think what we have put together is a program to do just that.
    As the Senate's primary contracting officer, our General 
Counsel has implemented progressive contract management 
techniques. These have resulted in significant savings to the 
Senate and the taxpayer. This check is a check that we 
presented to the majority leader and Senator Warner in April. 
It basically represents our share or the taxpayers' share of 
the proceeds that came about from what is known as a 
gainsharing practice. This practice creates financial 
incentives for both the contractor and for the client to 
increase productivity. We received national attention and kudos 
from all across the country for our efforts in this area, and 
our General Counsel deserves congratulations for that effort. 
We hope this will be the first of many such aggressive contract 
renegotiations.
    We also did some renegotiations which I did not mention 
earlier with regard to telecommunications and our 
telecommunications department was able to generate significant 
savings there as well.

                                      OFFICE OF THE SERGEANT AT ARMS AND DOORKEEPER FISCAL YEAR 1998 BUDGET REQUEST                                     
                                                         [In millions of dollars by fiscal year]                                                        
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Current organization                              Proposed organization             
                     Description                     ---------------------------------------------------------------------------------------------------
                                                        1997      1998      1999      2000      2001      1997      1998      1999      2000      2001  
--------------------------------------------------------------------------------------------------------------------------------------------------------
Operations and maintenance..........................      95.3      95.2     102.6     106.1     109.3      95.3      95.2      95.2      95.2      95.2
Capital expenditures................................       4.6      18.1      17.0      13.1      14.4       4.6      18.1      17.0      13.1      14.4
                                                     ---------------------------------------------------------------------------------------------------
      Total budget..................................      99.9     113.3     119.6     119.2     123.7      99.9     113.3     112.2     108.3     109.6
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Now, unfortunately, Mr. Chairman, the budget request which 
you have been given for fiscal year 1998 was prepared prior to 
the implementation of this reorganization. It neither reflects 
the cost savings we anticipate through better management, nor 
the organizational groupings under which we will soon be 
operating.
    Even so, we developed this budget last fall integrating our 
new operation philosophy. We divided our budget into operations 
and maintenance and strategic initiatives, or capital budget.
    Our prepared budget request for fiscal year 1998 is $113 
million, an increase of $13 million over 1997, or 13 percent.

    ----------------------------------------------------------------

       OFFICE OF THE SERGEANT AT ARMS AND DOORKEEPER FISCAL YEAR 1998 BUDGET REQUEST--CAPITAL EXPENDITURES      
                                     [In millions of dollars by fiscal year]                                    
----------------------------------------------------------------------------------------------------------------
                          Description                             1997      1998      1999      2000      2001  
----------------------------------------------------------------------------------------------------------------
Telecom infrastructure........................................  ........       2.0       4.0       2.8       2.4
Telecom network upgrades......................................       1.7      11.0       7.2       6.5       8.5
Year 2000 compliance..........................................  ........        .8       1.0        .4        .1
Financial systems.............................................       1.3       1.5       2.0       1.0       1.1
LEGIS reengineering...........................................       1.2       1.7       1.7       1.8       1.8
Other.........................................................        .5       1.1       1.1        .6        .6
                                                               -------------------------------------------------
      Total capital expenditures..............................       4.7      18.1      17.1      13.1      14.4
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

    Our ongoing operations and maintenance budget is 
essentially flat at $95 million. That reflects the nominal 
reduction in FTE's that we anticipated last fall when we began 
this reorganization. Virtually all of the increases are the 
result of easily identifiable capital expenditures for 
strategic initiatives, infrastructure, and capital 
improvements. They aggregate a total of $18 million in 1998, an 
increase of $13 million.
    As you can see, they are mainly in the area of telecom 
infrastructure, finishing up work in the Russell, and moving 
into the Dirksen Building, as well as wiring, and providing 
network telecoms for State office operations. This was 
identified as a need because we had a lot of offices whose 
systems were too slow, and I think you are probably aware of 
exactly what we are talking about.
    There is a series of longer-term options that we can go 
into, but you can see that it is clearly identifiable where 
that money is to be spent.
    In 1998 we have a request on salaries of $35.1 million. 
That is a 3-percent increase over 1997 and essentially reflects 
the cost of living.
    Now, Mr. Chairman, I will go out on a limb here. Had we 
been able to prepare our budget submission today and its 
outward projections subsequent to the completion of our 
reorganization, it would have reflected the reduction in FTE's 
and O&M which is now being realized. Even some of the increases 
in capital expenditures we believe would be moderated, as the 
ongoing information technology strategic planning in which we 
are now engaged adds a discipline to technological improvements 
that currently does not exist.
    It would have looked more like this, had we been able to 
prepare the chart. The difference is rather striking. In 2001, 
the budget we had originally prepared was $123.1 million. This 
one was $109.6 million.
    Now, obviously this is based on some preliminary 
information. We have to finish this kind of a budget analysis 
of the new organization when that organization is completed 
before we can submit that to you as the plan for where we 
really want to go.
    As indicated earlier, we were able to significantly reduce 
the FTE requirements for our doorkeeper operation by 
implementing some sound management philosophy. Although it is 
premature to forecast year-end figures right now, the Sergeant 
at Arms' organization is currently running 50 to 80 FTE's below 
what we had anticipated, and we are currently $3 to $5 million 
below projections on salaries.
    I would remind you that with some of these savings, we are 
going to ask for reprogramming which will be necessary to 
offset the deferred organizational infrastructure that I 
referenced earlier, in particular, the human resource aspects 
of it.
    Now, what this does not include or this organization does 
not include is the product of the ongoing strategic planning 
that is being led by the Rules Committee in conjunction with 
the Sergeant at Arms and the Secretary of the Senate. There 
will be probably some suggestions for major changes and some 
major cost shifts between these offices or inclusions that are 
not reflected here.
    Again, Mr. Chairman, I am honored to be here today. I am 
also very proud of the dedicated men and women who serve the 
Senate in the Office of the Sergeant at Arms. As you can see, 
we have embarked on a fairly aggressive program, and as we move 
forward to address these challenges, I could not ask for a 
finer group of people with which to work, and in that regard, I 
am truly blessed. I would like for them to raise their hands, 
my crew who are here.
    [A show of hands.]

                           prepared statement

    Mr. Casey. This is truly a fairly remarkable group of 
people, Mr. Chairman, and I am blessed to have them working 
with me.
    I look forward to working with you and Senator Dorgan, and 
I would be glad to answer any questions that you may have.
    [The statement follows:]
              Prepared Statement of Hon. Gregory S. Casey
    Thank you Mr. Chairman. I'm Greg Casey. On six September of 1996, 
the Senate elected me the 34th Sergeant At Arms and Doorkeeper. It is 
an honor for me to appear before you today.
    Mr. Chairman, when the Majority Leader told me he was going to 
nominate me for this position, the Leader gave me a clear two part 
mandate. First, evaluate the financial operations to insure their 
propriety. Second, evaluate and manage the operations in such a way as 
to increase service to the Senate in the most efficient and productive 
manner possible.
    Retired United States Senator Hank Brown graciously agreed to help 
lead a skilled evaluation team to assist in this effort. Building on a 
General Accounting Office audit done in 1994, the team concluded in 
their January 1997 report: ``* * * we concur with the GAO and believe 
that the Sergeant at Arms financial operations have the necessary 
internal controls in place to insure proper financial management.''
    They also emphasized the critical need to begin strategic planning 
and reorganize and reengineer the operations of the Sergeant at Arms.
    As part of this evaluation, I had prepared this organizational 
chart of the current operations of the Sergeant At Arms. As you can 
see, it is a vertically oriented conglomerate of non-integrated 
functions.
    More than 25 separate managers report directly to the Sergeant At 
Arms and more than 70 employees worked outside this chain of command.
    Duplication of effort was common, consistency in compensation, 
evaluation and performance measurements was not.
    What little planning and communication existed between departments, 
served the interests of each unit and not the organization as a whole 
or its customers.
    In this format, member offices are subjected to four separate 
inventories by four separate departments; one each for 
telecommunications, computer and general office equipment and one for 
furniture.
    One SAA department was developing a product that was inconsistent 
with the technical operating standards being developed by another 
department.
    In this structure, printers are procured and maintained by the 
Computer Center, copiers by the Service Department, and fax machines by 
Telecommunications Department. At home I have one machine that can do 
all three things.
    Clearly, technology and time has erased the lines of distinction 
that existed in the creation of this stovepipe structure. To improve 
our productivity we need to do more than nibble at the edges of change, 
we need to make systemic changes in the way we do business.
    Interestingly, we found this wasn't the first time that conclusion 
had been reached. ``The Commission on the Operation of the Senate; 
1976-1977'' was an exhaustive review of Senate operations to include 
the administrative operations of the Sergeant At Arms itself. It found:

          ``The administrative structure of the Senate is antiquated, 
        fragmented, and lacking in clear lines of authority and 
        responsibility.
          Summary of Recommendations.--The administration of the Senate 
        services should be reorganized within a unified modern 
        management structure having clear lines of authority and 
        responsibility.'' (Commission on the Operation of the Senate, 
        1976-1977)

    Unfortunately, the organizational structure of the Sergeant at Arms 
maligned in this 20 year old report is essentially the same as the 
current structure I just described.
    In 1995, the Performance Engineering Corporation was contracted to 
perform a review of the Senate's Information Technology Infrastructure. 
They concluded that the ``Sergeant at Arms should develop a new 
organizational structure * * *'' and went on to suggest on how to 
proceed. That report went largely unheeded.
    The need for changing the way we do business is not new to 
government or the Senate. Congress recently required that all federal 
agencies adopt strategic planning, performance measurements, and employ 
best business practices in their operations. These laws include the 
Clinger-Cohen Act, the CFO Act, Government Performance and Results Act, 
among others.
    Quoting from Vice President Al Gore's ``National Performance 
Review'',

          ``The idea of reengineering * * * is critical. We don't want 
        to automate the old, worn processes of government. Information 
        Technology was and is the great enabler for reinvention. It 
        allows us to rethink, in fundamental ways, how people work and 
        how we serve our customers.''

    In addition Mr. Chairman, there is simply much that we do here that 
the Congressional Accountability Act requires us to change.
    Mr. Chairman, I think what must be done is clear. The Sergeant at 
Arms office must change the way it does business and we are. We are 
rethinking how we work and serve our customers, changing and improving 
outdated processes, implementing performance measurements for our 
employees, contractors and the organization as a whole.
    Our vision for the future organizational structure is this (chart). 
It is a single, integrated organization focused on improved service 
quality, increased efficiency and maximum responsiveness to customer 
needs within the limits of available resources.
    While this is still a ``work in progress'', you can see how 
different this model is. In this model, planning, product development 
and delivery, customer service and quality assurance are emphasized 
enterprise wide, not unit by unit.
    We've gathered the dispersed engineering resources into a single 
unit, focused not on piecemeal solutions to individual problems but on 
proactive long term, Senate wide technology solutions.
    For the first time, we'll have centralized customer support to 
provide each Senate office with one point of contact for all Sergeant 
at Arms services.
    We intend to provide one-stop ``228-HELP'' line for all services, 
similar to systems now in use by Fortune 100 companies. We are in the 
field as we speak identifying and evaluating such systems.
    Mr. Chairman, moving from the old to the new isn't going to happen 
overnight. In addition to the challenges of our reorganization, we 
still have to perform our ongoing operations. This requires that the 
timing of our reorganization effort be measured and thoughtful. One 
step at a time.
    Even so, we have already taken many steps forward.
    Within the nearly completed Capitol Division we've concentrated 
activities and services critical to the operations of the Capitol 
Building and Senate Floor. It's under the direct responsibility of the 
Deputy Sergeant at Arms, Loretta Symms.
    In this division you'll find the Doorkeepers, whose charge of 
maintaining order and decorum on the Senate floor is the most 
historical duty within my operation. It is here we have tested our 
management philosophy; planning, reorganizing and reengineering, 
training and investment. As a result, we believe we provide a higher 
level of more professional service with a twenty percent reduction in 
FTE's.
    As we proceed, we intend to analyze each and every service we 
provide applying similar best business practice techniques to increase 
productivity. This will not only involve doing what we do better but 
wholesale changes in the way we do business.
    One area where that becomes most obvious is in the support of 
member's state offices. As you know, approximately forty percent of the 
Sergeant At Arm's expense budget is spent in support of state offices 
and it goes up every year. Currently, state office support is based on 
a square footage allotments and some artificial restrictions on 
computers and office equipment.
    Now, although state operations are limited by square footage, the 
Sergeant at Arms provides each state office with furniture and 
equipment it may or may not need because it comes at no cost to the 
individual offices. It's wasteful and unresponsive.
    Instead of providing services under this confusing allocation 
scheme, the Rules Committee has granted our request to develop a new 
process that gives Senate offices the responsibility and flexibility to 
meet their own needs and constituent services philosophies. Under our 
new approach, each Senator will be provided a state office budget to be 
used as the individual Senator sees fit within broad guidelines. We 
think this will result in a more cost effective arrangement for both 
the members and the taxpayer.
    A bi-partisan group of office managers asked if anything could be 
done to reduce the paperwork associated with telecommunication billing. 
We found we were spending a dollar to collect ninety-five cents. We 
eliminated the charge back process.
    We will soon adopt the use of government Credit Cards for the 
procurement of small purchases, something the federal government has 
already adopted because it reduces administrative costs.
    We developed the Technology Review Panel to increase the 
communication and consistency in technical standards, and eliminate 
duplication and/or conflict of effort.
    We created a Project Management tracking system to give the 
oversight committees and us sound business information on the progress 
and status of our expenditures and operations. The first of these 
quarterly reports has already been submitted to the committee.
    The current report reflects our current structure and budget. As we 
proceed with our reorganization and strategic planning efforts, you 
will see changes in priorities and respective resources. However, the 
project reporting will allow the committee to be fully and regularly 
informed as to our progress. This will become more important as we 
moves toward more project and contract management and less internal 
product development.
    As mentioned earlier, Sergeant At Arms Human Resource Management 
has not served the Senate well. If we are to demand more from our 
employees, we must be prepared to provide them with the tools they need 
to improve and the incentives required to reward improvement.
    To that end, we have hired a top notch Human Resource professional 
and begun an extensive management training program. We have 
standardized a system wide pay outline and just finished training 120 
front line Sergeant At Arms managers on how to perform personnel 
evaluations.
    A job classification and salary range study contract is about to be 
awarded.
    We have instituted an employee awards programs and given away at 
least five merit awards in the first six months and have other programs 
that will reward performance and help us retain skilled technical 
professionals.
    Additional near term efforts include a career path program, more 
family friendly leave programs and individual technical training.
    The recent flooding in the Midwest highlighted the need for more 
rapid and flexible support to affected member's state office 
operations. We found we needed to change not only our internal 
regulations, but a federal statute delayed our ability to respond. 
Thanks to your leadership, Mr. Chairman, and the ranking member, 
Senator Dorgan, we were able to have a technical correction to the law 
included in the recent disaster supplemental.
    As the Senate's primary contracting officer, the General Council 
for the Sergeant At Arms has implemented progressive contract 
management techniques that resulted in substantial savings to the 
Senate and the taxpayer. This ``gain sharing'' practice creates 
financial incentives for both the contractor and the client to increase 
productivity and has received national attention. This check was 
presented to the Majority Leader and Senator Warner in April.
    Unfortunately, Mr. Chairman, the budget request for fiscal year 
1998 you are considering today was prepared prior to the reorganization 
we have been discussing. It neither reflects the cost savings we 
anticipate through better management nor the organizational groupings 
we will soon be operating under.
    Even so, Mr. Chairman, we developed this budget to reflect our new 
operational philosophy, dividing it into the categories of Operations 
and Maintenance and Strategic Initiatives.
    Our prepared budget request for fiscal year 1998 is $113 million, 
an increase of $13 million over 1997.
    Our ongoing O&M budget is flat, at $95 million. It also reflects 
the nominal reduction in FTE's we anticipated last fall would result 
from our reorganization effort. Virtually all of the increase is the 
result of easily identifiable capital expenditures for strategic 
initiatives, infrastructure and capital improvements, which aggregate 
$18 million in 1998, an increase of $13 million from 1997.
    The 1998 request of $35.1 million for salaries itself is a 3 
percent increase over the current year and essentially represents the 
cost-of-living increase.
    Mr. Chairman, had we been able to prepare this budget submission 
and its out year projections subsequent to the completion of our 
reorganization, it would have reflected the reduction in FTE's and O&M 
budget now being realized. Even some of the increases in the capital 
expenditures would be moderated as the ongoing Information technology 
strategic planning effort begins to introduce a discipline on 
technology improvements that currently does not exist.
    It would have looked more like this chart, which actually indicates 
reduced budgets in the out years. This is based on some very 
preliminary results from the reorganization to date.
    As indicated earlier, we were able to significantly reduce the FTE 
requirements of the Doorkeeper operation by implementing our management 
philosophy. Although it is premature to forecast year end figures at 
this point, the Sergeant At Arms organization is currently running 50 
to 80 FTE's below projection and $3 to $5 million below projection on 
salaries. Some of those savings, however, will be required to offset 
the deferred organizational infrastructure that needs to be rebuilt.
    Additionally, the Senate-wide strategic planning effort lead by the 
Rules and Administration Committee may also have an effect on our 
current year budget.
    Again, I am honored to appear before the committee and appreciate 
the time you have allowed. I am very proud of the dedicated men and 
women who serve the Senate in the Office of the Sergeant at Arms. As we 
move forward to address the staggering challenges that face us in the 
coming months, I could not ask for a finer group of people with which 
to be affiliated. In that, I am truly blessed.
    I look forward to working with you, Mr. Chairman, and Senator 
Dorgan, and look forward to your continued leadership and support.
    Mr. Chairman, this concludes my prepared statement and I would be 
happy to answer any questions the committee may have.
                                 ______
                                 
              Biographical Sketch of Hon. Gregory S. Casey
    Gregory S. Casey was elected the 34th Sergeant at Arms and 
Doorkeeper of the United States Senate on September 6, 1996. As such, 
he is the chief law enforcement and protocol officer of the United 
States Senate, and the principal administrator of most of the support 
services provided to Senators and their staffs.
    Prior to his election as an officer of the Senate, he served six 
years as Chief of Staff for U.S. Senator Larry Craig of Idaho, where he 
managed every aspect of the Senator's operation in Washington, D.C., 
and Idaho.
    Four years prior, Mr. Casey was the President and CEO of the Idaho 
Association of Commerce and Industry (IACI), an organization 
representing the business interests of more than 65 percent of the 
total commerce conducted in the state of Idaho. As IACI President, he 
was Idaho business' chief spokesman.
    During that time, he also served as an officer or member of the 
board of several organizations including the Idaho Council on Economic 
Education, The Idaho Foundation for Free Enterprise, The Boise Futures 
Foundation, Buy Idaho and Idaho Business Week and, in 1989, he was 
elected to the six member Executive Committee of the National Council 
of State Manufacturing Associations.
    From 1981 until 1986, Mr. Casey served on Congressman Larry Craig's 
Washington, D.C. staff, in positions ranging from Staff Assistant, 
Legislative Director, to Administrative Assistant and Chief of Staff. 
He was also active in various campaign organizations. During this 
period, he served as Vice President of the House Administrative 
Assistants Association and as Director of the Congressional Leaders 
United for a Balanced Budget (CLUBB) organization.
    Previous to joining Mr. Craig, he was Vice President and General 
Manager of Pioneer Title Company of Ada and Canyon Counties and prior 
to that, the Executive Vice President of the Homebuilders Association 
of South West Idaho. He has served on the board of directors for 
several civic organizations including the YMCA and The American Legion 
Boys State.
    Mr. Casey is a graduate of the University of Idaho with a degree in 
Political Science and has completed graduate programs in Legislative 
Affairs through the Library of Congress.
    Mr. Casey is a fifth generation Idaho native and is married to the 
former Julia Laky of Boise, Idaho. They have a son, Greg Junior.

                         Overlapping management

    Senator Bennett. Thank you very much, and I commend you on 
your presentation and, more importantly, on the tremendous 
amount of work that has gone on behind it and gone on in an 
effort to bring us to this point.
    I will make a general comment which you may want to respond 
to later, but will not have to here. Again, wearing my hat from 
the majority leader as chair of the task force to talk about 
ways in which the Senate can be made more efficient, I would 
like you to think about, if you have not already, those 
portions of overlapping management between the Sergeant at Arms 
and the Secretary of the Senate.
    I think we have two excellent officers in those positions, 
yourself as Sergeant at Arms and Mr. Sisco as Secretary of the 
Senate, and the traditional kinds of turf battles that one runs 
into and expects in the Federal Government probably can be 
minimized with the quality of leadership that you and Mr. Sisco 
provide.
    Have you ever sat down in a quiet room with him, put your 
feet on the ottoman, looked at the ceiling, and said, why are 
there two offices and where is a really clear line of 
demarcation? Because a lot of what you do I think he might do. 
A lot of what he does you might do. I think the two offices 
started out with no overlapping functions, and as they have 
grown over the centuries, overlapping functions have been 
created by the previous holders of these two offices who did 
fight turf battles.
    Mr. Casey. I have heard that. [Laughter.]
    Senator Bennett. As I say, I will not expect a detailed 
response from you now, but as you are going through your 
reinvention and reengineering activities, it must occur to you 
that there are some functions you might just spin off 
altogether in your organizational chart and say to Mr. Sisco, 
here, you can do this more efficiently than we can. There may 
be some things that he could spin off to you. Maybe at some 
future point, perhaps long after I am here, you who are both 
younger than I, might say there will just be a single office, 
whatever it is called, that provides all of the management and 
support for the Senate.
    Do you have any quick reaction to that? And if you do not, 
I will understand that, but I want to get you thinking in those 
terms.
    Mr. Casey. Anybody who has ever heard me talk about this 
before, I usually have a chapter in the book. Christine is over 
there laughing. She knows. I have a chapter in this book I can 
read you about that very thing, if you want.
    Senator Bennett. And I can read the book.
    Mr. Casey. The Secretary and I have sat in a room, not 
asking why the two of us are here. There are very distinct 
reasons there is a Secretary and there is a Sergeant at Arms 
and there are roles that these people should play. Over the 
years, as this book correctly points out, things have been 
added to both our jobs and not added in maybe as logical a 
fashion as it should.
    We have sat down with the Rules Committee and are engaged 
in a strategic planning process right now, and part of the 
questions that we are asking ourselves is should this go here 
or should this go there. So, it is an extremely difficult thing 
to sort through.
    But yes, Gary Sisco and the Rules Committee staff and I and 
also the Architect have had exactly those conversations.
    Senator Bennett. Yes; you have to include the Architect in 
that.
    Mr. Casey. We are having those conversations in the hopes 
that we can give you some solid things. In fact, I have tried 
to get Gary to take a couple things already. [Laughter.]
    So, we have already had those discussions and we will 
continue to have those discussions. I think you are absolutely 
right. There is a feeling that the two of us have that we are 
here in a short tenure and our job is to serve the institution 
and not to build our own empires. So, I am very confident we 
will be able to give you some good news, Mr. Chairman, while 
you are still the chairman.
    Senator Bennett. Thank you. I am confident I will be 
chairman for a little while.

                            Customer service

    A relatively minor item but it is always the minor items 
that rise up and bite you in terms of your customer service.
    Mr. Harris. He reminds us every day about that.
    Mr. Casey. I remind him every day of that.
    Senator Bennett. Where is the phone book?
    Mr. Ravenberg. Senator, the phone book is in the final 
stages of proofreading right now. There has been a tremendous 
amount of changes that occurred, as you well know, in the past 
year and that has caused us some delay. We expect to get that 
to GPO by the end of this week.
    Mr. Casey. Thank you, Mr. Chairman, for asking that 
question. [Laughter.]
    May I just emphasize, I have been asking exactly the same 
question.
    Senator Bennett. OK, well, in the overall scheme of what 
you put up on your chart here, it is a very minor item. In 
terms of the day-to-day operation----
    Mr. Casey. I learned from my friends in the police 
department, if you take care of the little things, the big 
things will take of themselves. We are sorry that it has taken 
us so long.
    Senator Bennett. Senators are used to having an interim 
phone book sometime in March, and I will not tell you how to do 
your business, but it might not be a bad idea for you to think 
about even a mimeographed copy, something, more quickly than 
the major phone book.
    Also on the list of minor things, but high visibility, 
particularly with some of our friends in the press, talk about 
the consolidation of the barber shop and the beauty salon and 
how much you think this will save and where it is.
    Mr. Casey. We asked the Rules Committee to allow us to 
proceed with a two-part program. Part one was to consolidate 
the two operations into one, to have that consolidated 
operation submit to us a plan that closed the gap between what 
they bring into the rollover funds and what they cost us in 
actual expenditure.
    I put together a task force to make that evaluation, hoping 
they would come back with a very clear one-two-three step 
process. The task force came back with a split decision.
    So, by the end of this month, I have asked the two managers 
in charge to put together a plan that consolidates those two 
operations and closes the gap. I want a fundamental glide path 
plan that closes the gap between what it costs us and what we 
have in those rollover funds, to include increasing prices if 
that is what is necessary, reducing staffing if that is what is 
necessary, doing advertising if that is what is necessary, or 
extending their hours. That should be to me by the end of this 
month.
    If we cannot come up with a plan that does that--and the 
Rules Committee has given me the OK--I will go back to the 
Rules Committee and ask to exercise the second alternative 
which would be to outsource.
    Senator Bennett. You may have discussed this in detail in 
your presentation, but let us highlight it. We understand you 
intend to request a transfer of $5 million from salaries to 
contingent expenses. Did you cover that?
    Mr. Casey. I do not know that I quantified the number that 
we will intend to transfer, but that is essentially correct.
    Senator Bennett. And that was to get increased flexibility 
into each individual Senator's office? That was part of that 
particular approach?
    Mr. Casey. No; I do not think we are going to ask for a 
transfer of funds for that.
    We are going to, hopefully, be able to convert some of the 
moneys that we are saving in our management into other 
infrastructure developments like some of our human resource 
programs. The other moneys that we are talking about on 
strategic initiatives are asked for in this budget here.
    Senator Bennett. So, the transfer----
    Mr. Casey. Would be from salaries to expenses.
    Senator Bennett. OK. Does this mean that in future years, 
the salary base will go down by $5 million?
    Mr. Casey. I believe we are going to be able to continue to 
see a reduction in the FTE's required to meet our operations. 
What we are finding is that we simply have redundancy in so 
many of our functions. I cannot tell you right now, Mr. 
Chairman, how far that is going to go down because we are 
implementing. At the same time we are reducing and analyzing 
the old ways of doing business, we are adding some new ones.
    I do not know how much the 228-HELP line is going to 
require. We have folks within our institution right now who do 
that, but they do it unit by unit. Can I save by bringing them 
together in one unit or is it going to require the same amount 
of personnel? So, I am not able to answer that question until 
we get this thing fully implemented.

                     Full-time equivalent positions

    Senator Bennett. Well, in fiscal year 1999, your FTE's 
start going back up again. They come down by six in fiscal year 
1998. In 1999 they go up a little bit. In 2000, well, you are 
kind of level in there.
    Mr. Casey. I do not believe our FTE's will go above 800.
    Senator Bennett. So, this is your best estimate but you are 
hoping to get to 800 and stay there.
    Mr. Casey. We are now probably at 775 or below.
    If you are asking me what I think is going to happen--and 
it looks like the trends are that way--our O&M will be flat, 
our FTE's will begin a gradual decline. Our infrastructure 
capital expenditures will spike in 1998 and 1999 and begin to 
level out. I believe with that spike that we put forward on our 
capital expenditures, I will be able to continue the O&M and 
the FTE trend line down.
    I believe that we are going to continue to see a decline in 
our FTE's and probably get down to around maybe 100 less than 
the FTE's we show on the chart. That is the difference between 
the chart I had to give you based on the old organization last 
fall and this new one that we are working on.
    I have not finished the total reorganization, so I cannot 
give you this kind of a book. When that is done, we will get 
that to you as soon as we can.
    Senator Bennett. Well, that, of course is every manager's 
dream of what happens with your capital expenditures, that you 
get a very substantial return on the investment later on in 
terms of a more efficient operation.
    Mr. Casey. We can point to where we have redundant services 
now as to where we can get a significant savings, but we have 
not implemented it yet. So, it is projection so far.
    Senator Bennett. Again, I commend you for what you are 
doing. This is the kind of presentation that I hear on those 
very rare occasions where I am allowed to return to my former 
life in private industry and have a management team come in and 
make a presentation to the board. This is a first-class effort.
    Mr. Casey. Thank you, sir.
    Senator Bennett. I commend you and all the happy people 
that accompany you. [Laughter.]
    Mr. Casey. Thank you, Mr. Chairman.
    Senator Bennett. If there are no further comments from any 
witness, I have no further questions. Thank you.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
ACCOMPANIED BY STUART PREGNALL, BUDGET OFFICER/DIRECTOR OF FINANCIAL 
            SERVICES

                   opening remarks of Senator Bennett

    Senator Bennett. We will now hear from the final panel, the 
Honorable Alan Hantman, Architect of the Capitol. Our final 
panel this morning consists of the Honorable Alan Hantman, 
Architect of the Capitol, and Mr. Hantman is accompanied by 
Stuart Pregnall, the Budget Officer and Director of Financial 
Services, and others from the Architect of the Capitol, which 
we expect you, Mr. Hantman, to introduce if they are called 
upon.
    Not to be outdone by the Sergeant at Arms, Mr. Hantman is 
appropriately accompanied by charts and graphs. We appreciate 
your being here. This is the first time, we must note for the 
record, that Mr. Hantman has testified before this committee. 
We welcome you in that circumstance and look forward not only 
to hearing from you today but for a long time to come.
    We understand the Office of the Architect has been working 
on upgrading its financial management system. Mr. Pregnall, 
that is undoubtedly why you are here, to report on the progress 
of that. We, of course, have particular interests in 
projections of capital costs necessary to maintain the 
buildings which house Congress and congressional functions, 
even some functions that have been assigned to Congress for 
reasons that may be a little obscure this far from the time 
that it was actually done.
    So, Mr. Hantman, we again welcome you not only to the 
committee but to your office formally and look forward to your 
testimony.

                           summary statement

    Mr. Hantman. Thank you very much, Mr. Chairman, and good 
morning to you and all assembled.
    As you know, I officially assumed my duties on February 3, 
some 4 months ago, and as you can appreciate, the process of 
mastering the complexities of my new position might take a bit 
longer than that. But in these 4 months, my first priority has 
been preparing for this series of budget presentations. I 
forget if this is my seventh or eighth in the 4 months so far.
    As you are well aware and as I am learning, the role of the 
office is complex and multifaceted. It can fairly accurately be 
summarized by stating that the core mission of the AOC is to 
provide for the Congress, on a bicameral, nonpartisan basis, 
expertise and advice relating to preserving the physical 
environment and operating the infrastructure supporting the 
Congress. Implicit in this mission is to me the assumption that 
in providing this expertise and advice, that I am part of a 
congressional team that shares the same goals of preserving the 
physical environment and operating the infrastructure 
supporting the Congress in a responsible and cost-effective 
manner.
    I welcome the opportunity of working with the members of 
this committee, of discussing the issues at hand, and of 
developing solutions that serve the Congress well.
    As you know, the AOC appropriations request for the fiscal 
year 1998 was prepared under the stewardship of William Ensign. 
It is that budget request that I present to you today and I 
present it to you in the context of the first 5-year capital 
budget ever prepared by this agency. I fully concur with Mr. 
Ensign's statement that there is a need to provide the Congress 
with a 5-year capital improvement budget to assist the Congress 
in making the wisest and best informed financial judgments 
based on a formal evaluation of future cost implications and 
with the assurance that we have undertaken a rigorous 
examination of related needs.
    I applaud Mr. Ensign for having initiated the systematic, 
agencywide planning effort which has also included in-depth 
involvement of all of the agency's clients. On the Senate side, 
this included the Sergeant at Arms and the Secretary of the 
Senate.
    The projects included in this budget, therefore, include 
all the needs that have been identified to date. I have 
evaluated these needs, reviewed the priority levels assigned to 
them, and assessed their budgetary implications.
    Before I address the budget, however, it might be helpful 
if I shared some of my thoughts and findings to date regarding 
this agency and its performance as I currently see it.

                    Condition of the physical plant

    With respect to the quality and condition of the physical 
plant, for a facility that is as heavily used as the Capitol, 
for a complex of older buildings such as this, it is in 
surprisingly good shape. The condition of the physical plant is 
directly tied to the institutional knowledge, the skill levels, 
and the dedication of the work force. This is a major reason 
that significant segments of our infrastructure have held up 
this well, despite having outlived its normal life expectancy. 
It has been patched and repatched and held together until there 
is finally material failure.
    We have a little show and tell over here. If you just pick 
up that finial over there. This is from the Library of 
Congress. We are still doing work, as you can see from the 
scaffolding up on the Library of Congress. This indicates that 
our sheet metal workers have been up there on many occasions 
patching and repatching, sealing and resealing, until finally 
the joints are giving way and there is just no way to support 
the integrity of any of these decorative or waterproofing 
pieces.
    We have many other pieces in our little box of show and 
tell over there. There is a section of copper which is really 
the status of the existing roof. Again, it shows the 
deterioration of the material itself which over time has been 
patched and repatched. The sealant is no longer holding. In 
fact, that is why we are redoing the entire dome.
    We have situations like this throughout the Capitol, 
including the Capitol dome itself.
    This, as you can see, is a pipe. We have lots of these 
throughout the Capitol, pipes that are totally occluded, very 
little room to go through, rusting out in major pieces. We have 
vent lines and drain lines that are totally sealed and not 
functioning at all throughout all of our major buildings.
    This, believe it or not, sir, is what is left of a valve, 
totally gone. It used to look something like this, but over 
time--we talked about water just before the session started--
the chlorine and the minerals in the water in Washington, DC, 
tend to leach out zinc and other minerals and metals. It causes 
premature failure of sprinkler heads and lots of systems 
throughout the Capitol. So, we really have to look at ways to 
try to preclean the water, make sure this does not happen 
again, and constantly monitor elements that, in fact, should 
have much longer life expectancies than they do here on Capitol 
Hill.
    We have a team of sheet metal workers working on the 
Capitol roof, patching as necessary. Many other systems have 
outlived their useful life, have been patched up, and now 
require replacement. Good maintenance alone cannot solve these 
problems.

                   training needs of AOC supervisors

    As far as staff supervision is concerned, there are many 
aspects to this. Projects get done and in most instances they 
seem to get done well. But too many supervisors and foremen 
have little or no supervisory training, and they have 
difficulty working effectively with their subordinates. Much 
training needs to be done in this area.

                   Construction management employees

    An issue that also needs to be resolved is the temporary 
employees in our construction management division. They have 
been temporary for 10 or 20 years right now. There are some 
very capable people there and their status needs to be 
resolved. I will be coming back to you at a later date with 
further thoughts on this and other issues.

                          AOC management needs

    As far as management systems are concerned, they are not at 
all uniform across the campus, nor are they as professional as 
they need to be. Existing policies and procedures need to be 
reexamined and standardized. The human resources department has 
deteriorated over the last several years, along with our 
piping. It has been a major source of discontent for AOC 
employees.
    A new human resources director, Hector Suarez, who is with 
us here today was hired 2 months ago. Hector, are you here? OK.
    He is determining how best to rebuild the department and 
bring it into the 21st century and he will be filling several 
HR vacancies we currently have with strong and needed additions 
to the department.

                     Outsourcing and privatization

    With respect to outsourcing and privatization, this issue 
is wound up with the status of changes that have already been 
made or are currently contemplated, as well as with other 
outstanding issues that have yet to be resolved. I have no 
interest in continuing past policies and procedures that 
negatively impact the performance of this agency.
    That is why I have taken a show-me attitude toward the 
Arthur Andersen study that was completed in the last quarter of 
1996. Arthur Andersen was commissioned to develop a methodology 
to enable the AOC to calculate in-house costs and consider 
qualitative factors such as unique workplace characteristics, 
compare this information equitably with the private sector. 
They then analyzed the results of this comparative methodology 
and provided the AOC with recommendations on whether to 
privatize or reengineer various segments of its function.
    But the Arthur Andersen study is just one piece of the AOC 
equation, and as such it needs to become part of an overall 
strategic plan for the future of this agency rather than as a 
blueprint in and of itself.
    In the past 4 months, I have had interviews with many 
people. I have met one on one with approximately 40 of the key 
people in the agency, had group meetings with virtually all AOC 
employees, including shop workers, Power Plant employees, 
restaurant workers, night custodial employees, operating 
engineers, and so on. I brought two people with me to these 
group meetings: Art McIntye, our Inspector General, to deal 
with issues of fraud, waste, and abuse, and Kathy Gause, our 
EEO Director, to deal with issues concerning the Compliance 
Board and fair labor practices. Both of these people are 
generally well trusted by our employees.
    We often met first with line workers and then separately 
with the supervisory staff so that neither group would be 
inhibited in sharing their perspectives on how we could work 
more effectively on problem areas in general and in opening a 
dialog with management.
    I often found the level of frustration and discontent to be 
high. Employees have been in limbo for more than 2 years, ever 
since George White retired and when he was ill before that, and 
they are very concerned about privatization issues.
    I learned much from this series of meetings. This 
information, when coupled with the Arthur Andersen report, 
provides two major elements of the information necessary to 
allow this agency to make informed decisions and 
recommendations.
    The third component will be provided directly by AOC 
customers. We are reaching out to a cross section of Members of 
Congress and their staffs who interact with AOC employees to 
ask how we are doing on a wide range of interface areas, to ask 
if the level of service needs to be improved, or if, in fact, 
we can live with vacuuming carpets and dusting every other day 
instead of every day, or if we can save money on the scope of 
services that we are currently providing, whether they should 
be provided internally or by outside contractors, what security 
concerns might there be. All of these issues need to be 
addressed and understood from our clients' perspective.

               AOC and Sergeants at Arms responsibilities

    We are also meeting with both the Sergeants at Arms to 
review the services we each provide to see if there can be some 
consolidation of overlapping responsibilities. There is 
confusion on what does respond and report to the Sergeants at 
Arms or to the AOC, for instance, with respect to cleaning. The 
Sergeant at Arms cleans the Senate portion of the Capitol 
Building. The AOC cleans the rest of the Capitol Building and 
all of the Senate office buildings. Does this make sense? Do we 
need to consolidate?

                         AOC consolidation plan

    We are also investigating the possible centralization of 
shop staff used by each major superintendent's jurisdiction. We 
intend to leave day-to-day quick response capabilities with 
each superintendent, but perhaps preventative maintenance 
forces might be centralized or privatized if that is found to 
be effective and efficient.
    Our goal is to reshape this agency to become as efficient 
as possible while still providing a level of service required 
by our customers and at levels that are appropriate to the 
Capitol. We are currently in transition and union issues may 
impact how we operate going forward.

                          AOC project request

    The above, Mr. Chairman, was all background to the critical 
issue of the 1998 budget. My overall assessment is that that 
budget prepared by my predecessor is basically valid. I have 
examined each of the 132 projects with the responsible 
designers and consultants. A file has been prepared on each to 
justify the need and the priority, and these are some of the 
examples of them. Some we have talked about already such as the 
Dirksen renovation, the $34 million project, and the rationale 
and the necessity for it. We have an entire report in here, and 
as we talked about on our walk-through, the necessity for that 
project.
    There is a project on plumbing renovations in the Capitol 
Building, some photographs of piping in the Capitol Building on 
the Senate side and the condition that it currently is in. 
Clearly if we find sections like that, we replace it, but we 
have an ongoing budget that needs to address these type of 
issues. So, $400,000 on an annual basis going forward for a 
total of some $2 million is what we are estimating at this 
point for that project.
    Other projects, minor ones. Replace the fire pump in the 
Russell Senate Office Building. It is a wonderful looking piece 
of equipment, but it no longer provides the power to deal with 
the sprinkler systems and the fire standpipe systems that we 
need. The pressure cannot be developed in this. So, that is a 
$75,000 piece of work.
    We have a carton back here with every one of the 132 
projects. We can review each of them with anybody who would 
care to do so.
    This is the Senate call system. It has diodes and tubes and 
things that are clearly outdated. They no longer respond. You 
cannot get replacement parts for them any longer. So, we are 
looking for design money to be able to look at alternative 
systems and develop a full budget for ultimate replacement of 
those systems.
    We could go on and on. Here is deterioration of the Capitol 
itself, columns that are deteriorating on the west front. We 
are requesting funding to take a look at the deterioration and 
what we need to do on the columns, the column capitals, in the 
Capitol Building itself and other buildings.
    The issue here is a good part of our budget really deals 
with studies and design issues that we want to get into so that 
we can come back to you more intelligently and say, OK, these 
are our studies, these are the results, this is what we want to 
do as a result of those studies, and these are the real dollars 
that we need going forward.
    Since it would be helpful if the individual budget numbers 
that we are presenting to you were understood in the context of 
past and projected future budgets, I prepared a series of 
charts to help illustrate these relationships. I believe they 
are important because they deal not only with the proposed 1998 
budget, but also with the budget pattern of the last 5 years 
and the 5-year master plan as well. If I may direct your 
attention to the charts, Jack Boertlein, our assistant in the 
budget department, will assist in the presentation.

                 Operating budget and capital projects

    The first chart has two components to it. Operations is 
shown in blue and capital projects are shown in red. Please 
note that the operating budget has held fairly steady since 
1993. It went from $137 million in 1993 to $148 million in 1995 
to a requested $147 million for 1998. Increasing utility costs 
are a part of this. Mandated raises are also part of this. The 
growth over time--COLA increases and raises and all have been 
absorbed basically by decreases in staff sizes and other 
efficiencies.
    The 1998 operating budget represents a 6-percent increase 
over 1997 and it is a worst case scenario. Clearly our mandate 
is to explore ways to achieve greater efficiencies through 
appropriate means such as privatizing, outsourcing, 
consolidating, achieving better utility rates, et cetera. The 
operating budget will be decreasing as we bring these 
recommendations to you through the year.
    The capital budget in red has, however, been steadily 
decreasing, from $32.8 million in 1993 to $27.9 million in 
1995, to one-half that amount or $14.4 million in 1997. In my 
view this is no way to effectively preserve an aging 
infrastructure such as ours.
    In 1998, the first year of the 5-year plan, it proposes an 
increase to $54 million. I have examined the appropriateness 
and priority of many of these projects, made some 
modifications, and reprioritized them as we just discussed, but 
let us discuss the breakdown of this 1998 budget itself.
    The next chart shows two main categories: operating on the 
left and capital costs on the right. Operating costs represent 
73 percent of the budget, 46 percent of that for pay and 
benefits. We will be evaluating those, as I indicated, going 
forward.
    Utilities make up 15 percent of the budget, and we believe 
there are savings there as well, including administrative 
measures such as suggesting to people they shut lights off when 
they leave the room.
    The capital budget represents 27 percent and it is divided 
into client-initiated projects, AOC-initiated projects, and 
cyclical maintenance projects. I will talk more about this in a 
moment.
    The next chart that we have here illustrates the 16 percent 
FTE staff reduction over the last 5 years, from 2,407 people in 
1992 to 2,034 FTE's in 1997. This again is a worst case 
scenario for 1997-98. I do not yet have a complete answer to 
whether the 16-percent reduction indicates that there was a lot 
of fat in the agency--and there may still be more fat to cut--
or whether the agency is as lean and mean as it really can be 
at this point in time. I am working with my managers to analyze 
their current staffing levels with an eye toward achieving 
greater efficiencies.
    As a point of information, cuts in many other Federal 
agencies over the same time period have been below the 16-
percent level that we have achieved to date.

                      Cyclical reinvestment budget

    Let us go back to the capital budget, if we can. The green 
bars represent the level of cyclical reinvestment as a part of 
the overall capital budget. The yellow represents new 
facilities, new projects. Here you can clearly see the pattern 
of actual decreasing reinvestment in our buildings and 
infrastructure from 1993 through 1997, and the proposed 
increases from 1998 onward. You can also clearly see the 
magnitude of new projects in the master plan shown in yellow. 
Many of these projects are related to the Library of Congress 
and their proposed facilities out at Fort Meade, or film 
storage, things of that nature.
    It is reasonable to ask how does anyone know how much to 
reinvest in a complex such as ours. We can clearly look project 
by project to see what needs to be done, each project approved 
on its own merits, and that is clearly what we intend to do. 
But what is a reasonable benchmark to measure total budgets 
against?
    The next chart attempts to show this, to put it in some 
kind of a perspective.
    Back in 1991-92, three university campuses were contacted 
to discuss their cyclical reinvestment budgets. Basically we 
have a campus here. What type of complex of buildings is more 
appropriate for us to benchmark against? The campuses were in 
Illinois, Michigan, and Stanford. They average 1.7 percent of 
the value of their buildings and infrastructure each year, the 
replacement value basically. The replacement value for our 
Capitol complex of some 13 million square feet was estimated at 
that time to exceed $3 billion. At 1.7 percent per year, that 
would be over $50 million in an annual reinvestment.
    Another check on this 1.7 percent is the IRS depreciation 
allowance for commercial properties. They currently allow 40 
years for full properties. That would imply a 2.5-percent per 
year depreciation level, or conversely a reinvestment. Clearly 
for equipment, they allow 15 years, which is certainly less 
than the 40-year building depreciation as well.
    What this graph attempts to do is plot a $50 million annual 
investment level in blue--and that is accelerated at 3 percent 
escalation per year--and measure that against the 1993 to 1997 
actual reinvestment costs that we have spent, showing $14.4 
million in 1997 as the low point. The dotted red line plots the 
proposed reinvestment portion of the 5-year master plan with 
$54 million in 1998 and goes on from there.
    Clearly what we see is if the $50 million is anywhere close 
to correct, over the last 5 years, we should have invested $250 
million in our infrastructure. We basically invested $100 
million and are digging ourselves into a hole which the next 
few years, hopefully, will help solve and realistically relate 
to.
    The following chart lists additional corroborating 
benchmarks related to this 1.7 number. The top of the chart, 
our current replacement value in 1997-98 is $3.6 billion. The 
first benchmark relates to the 1.7 percent we discussed. Army 
Corps of Engineers talks about 1.75 percent as a budget 
objective. University Federal research cost recovery, the OMB 
A-21, calls for a 2-percent replacement value or reinvestment. 
Conservative commercial depreciation we talked about at 40 
years, 2.5 percent. National Research Council of the Academy of 
Sciences has a low of 1.5 and a high of 3 percent. Our 1998 
proposed budget numbers relate to 1.4 percent of the estimated 
replacement value at this point in time.

                   Capitol complex replacement value

    Senator Bennett. Let me interrupt you----
    Mr. Hantman. Please.
    Senator Bennett [continuing]. And I apologize for that--
long enough to ask how you calculated the replacement value. Is 
that on a per square foot basis?
    Mr. Hantman. We took the actual construction costs of each 
building, each component of Capitol Hill, and brought it 
forward--what is it--CPI--we used?
    Mr. Pregnall. We used the Consumer Price Index for those 
projects that began before the building construction cost index 
was established. I think the BCI was established in the early 
1900's. Before that time we used the CPI.
    Senator Bennett. But you did not say x number of square 
feet at current building costs of so much per square foot----
    Mr. Pregnall. No; we did not.
    Senator Bennett [continuing]. And it would cost us to 
replace this in the market x amount.
    Mr. Hantman. We did not do that. Clearly we are talking 
about unique individual buildings here.
    Senator Bennett. I understand that, but how difficult would 
it be to make that calculation simply as a ballpark----
    Mr. Hantman. If we wanted to take 13 million square feet 
and take current costs of commercial office buildings--it 
certainly would not be the quality of what we are talking 
about.

                 benchmark for Monumental construction

    Senator Bennett. You could not replace it with that kind of 
construction. The citizenry would not allow it. But there is, I 
am sure, a benchmark for monumental construction. Maybe the 
Ronald Reagan Building is considered monumental construction.
    Mr. Hantman. This is true.
    Mr. Pregnall. The difficulty with that type calculation is 
that does not take into consideration architectural and 
artistic finishes such as you have in this room. How would you 
calculate the cost of recreating this room? That would not be 
included in a square foot cost calculation.
    Mr. Hantman. We could look at the Ronald Reagan Building 
and see what those costs were and talk about 13 million square 
feet.
    Senator Bennett. I think the committee would be well served 
by having a ballpark understanding of what it would be, and 
understand that we are sophisticated enough to realize that we 
are not talking about putting up an IBM headquarters on this 
campus. Again, the citizenry would demand that the National 
Capitol, if it were to be replaced, would be replaced in a 
monumental form and the cost of doing that would clearly be 
higher than the cost of an ordinary office building no matter 
how nice. But $3.6 billion is a big enough figure that I think 
you ought to have some justification for it other than just the 
one benchmark method of arriving at it.
    Mr. Hantman. Fine. We will get back to you on that then, 
Mr. Chairman.
    Senator Bennett. Thank you. I apologize for interrupting.
    Mr. Hantman. No problem. No problem at all.
    As a point of information, several weeks ago we had a 
contingent from Australia come in, basically the folks who 
built, designed, and run their Federal office buildings in 
Canberra, less than 10 years old. They allocate on a flat sum 
basis 1 percent of replacement value even for a building 
complex that young. That is just a normal appropriation on an 
annual basis.

                      Cyclical maintenance project

    Perhaps the next chart. This pie chart shows the 1998 
cyclical maintenance projects in red. It shows $21 million for 
some 57 projects. This includes restoration of the Senate 
legislative garage, plumbing renovations for the Russell 
Building, repair of failed waterproofing over ST-71, 
rehabilitation of the Capitol dome. It also includes the USBG 
Conservatory, the $8 million, in that number right now.
    The AOC-initiated improvements are in green, and they 
amount to some $24 million for 50 projects. That includes ADA 
requirements, HVAC, electrical, telecom, sprinkler renovations 
in the Dirksen Building, electrical telecom systems in the 
Russell Building as examples.
    The blue indicates client-initiated projects, some 23 of 
them for $6.9 million. Infrastructure for security 
installations, mail room renovations in the Dirksen Building, 
centralized control room in the Senate recording studio, et 
cetera.
    Senator Bennett. When you say client-initiated, you mean--
--
    Mr. Hantman. Others have asked us to do that.
    Senator Bennett [continuing]. The Secretary of the Senate 
and the Sergeant at Arms?
    Mr. Hantman. Yes, Mr. Chairman, that is correct.
    Senator Bennett. Thank you.
    Mr. Hantman. Now, for our clients' new projects, the yellow 
over there, these are also requested by clients, but these are 
new as opposed to renovation or restoration projects. The K-9 
facility at D.C. Village, copyright deposit facility at Fort 
Meade, et cetera.

                         Reprioritized projects

    One thing that I have done to Mr. Ensign's breakdown, which 
is indicated by this pie chart, is to reprioritize them. I 
think the next chart clearly indicates the way we restudied 
this bundle of projects, starting with life safety up at the 
top at 12 percent of the budget. These are projects related to 
fire protection, air quality, employee, and visitor safety. It 
includes installation of sprinkler systems, fire pump upgrades, 
chiller plant replacement, things of that nature. If we only 
got $6.2 million those would be the projects we would put it 
toward.
    The next two headings we might switch. ADA could come next 
or security could come next, either way. The projects under ADA 
are related to improvements of building and facility access for 
the handicaped, restroom modifications, elimination of 
barriers, some $2 million, or 4 percent of the budget.
    Security has 11 projects, $3.5 million. Projects related to 
the protection of Members, staff, visitors, and property, 
replacement of the north and south drive delta barriers on the 
Capitol Grounds, replacement of the security planters, Library 
of Congress upgrade of security systems, things of this nature 
are in that security category.
    The next major category represents 27 percent of the 
budget. This is cyclical maintenance, eight projects at $14.4 
million. These include projects that will increase building 
system functionality while replacing deteriorated or outdated 
systems. These include electrical and telecommunication system 
renovations in the Cannon Building, replacement of legislative 
call system and clocks throughout the complex, sound system 
replacements, committee and hearing rooms. I think Cannon is on 
the other side of the complex. We are talking about Russell 
here.
    Botanic Garden Conservatory is shown here also, some $8 
million or so for that complex.
    Cyclical maintenance is the rest, 22 percent of it, some 49 
projects at $12 million. Now, cyclical maintenance projects are 
those that will replace deteriorated or outdated systems with 
no significant increase in functionality. This is your pointing 
and caulking of facades. It is changing roofs, nothing 
improves. It is just the basic core needs. The Capitol dome is 
a part of that, garage floor repairs. It does not gain us 
anything, but they are things that need to be done.
    Let me review the other categories fairly quickly. 
Technology management systems provide the AOC with more 
efficient and effective operations. This includes computer-
aided facility management, integrated management system we will 
be talking about, implementation of AOC-net, CAD data base, et 
cetera.
    The next is improvement projects for the AOC, some $1.2 
million, installation of lighting systems, extend the chilled 
water lines to the Conservatory, rotunda lighting upgrade, 
things of that nature.
    And the last is some $4.3 million for client improvements, 
conceptional facilities master plan for the police, completion 
of the K-9 facility, screening/holding facility, et cetera.
    So, this kind of breaks it down, and the next chart just 
summarizes that, talking about the total AOC budget in the 
bottom chart of some $43 million versus the $53 million dealing 
only with Senate and joint activities.

                     Five-year capital budget plan

    If I could move on to our last chart, it shows the 5-year 
capital budget. Now, this last chart plots the breakdown of 
cyclical and new projects for the 5-year master plan. It shows 
cyclical maintenance in blue, AOC new projects in yellow, and 
client projects in green.
    Senator Bennett. If I may, the cyclical maintenance is both 
improvement and stability maintenance.
    Mr. Hantman. Basically yes.
    Senator Bennett. In your previous chart you had those 
divided but those two numbers are joined for the blue number 
here. Is that correct?
    Mr. Hantman. Well, we have new projects over here.
    Senator Bennett. Go back to your pie chart.
    Mr. Hantman. OK.
    Senator Bennett. This is what I am trying to correlate. You 
have got improvement cyclical maintenance at 27 percent on the 
pie chart, and cyclical maintenance at 22 percent.
    Mr. Hantman. Correct.
    Senator Bennett. Those two numbers are combined in the blue 
bar on the bar chart. Is that correct?
    Mr. Hantman. That is correct.
    Senator Bennett. OK, that is all I wanted to clarify.
    Mr. Hantman. I have reviewed these projects in depth, I 
validated their need, and I have reprioritized as we have 
discussed.
    There will continue to be changes over the 5-year period, 
including schedule shifts, adjustments to reflect some of the 
concerns raised by members of this committee, possible changes 
that may come out of meetings with the Sergeant at Arms, the 
Secretary of the Senate as we review areas of responsibility 
and possible overlaps in service. The 5-year capital budget 
will be reviewed, revised, and updated each year to allow the 
Congress to maintain a broad overview of ongoing needs.

                             Visitor center

    Outside the scope of this budget, of course, is a project 
called the visitor center project which is proposed to be built 
with private funds. There are no dollars in our budget for that 
at this point in time.
    I have met with the design team. We have begun reviewing 
the scope of the center and the functions proposed within. 
Reviewing the nature of the exhibits that might potentially be 
designed is really the critical path in any visitor center 
project. A group of 30 to 35 or so from both Houses of Congress 
visited the Newseum a couple of weeks back. I think it is in 
Arlington.
    Senator Bennett. Yes.
    Mr. Hantman. What we found, from talking with the people 
who ran that project, the people who designed the exhibits, 
that of the $48 million cost for the total project, one-half 
was for capital projects. The other one-half, some $24 or $25 
million, was for the exhibits themselves. That turned out to be 
the critical path that took them some 4 or 5 years to resolve.
    The wealth of information that we have to draw on that will 
describe our democratic processes, going back to the foundation 
of our Nation, is mind-boggling. The concept of winnowing that 
down to something that everybody can agree on that deserves to 
be in a confined space and be shown to the public and be 
accessible to the public is going to be a real challenge. I see 
that as being the critical path. Certainly the Sergeant at Arms 
and the Secretary of the Senate have offered and are very much 
involved in this process as well.

                           prepared statement

    That is pretty much the presentation, Mr. Chairman. I would 
welcome any questions. We can review in detail individual 
projects, total projects, where we are going, or any specific 
issues you might want to raise.
    [The statement follows:]
                 Prepared Statement of Alan M. Hantman
    Mr. Chairman, I am Alan Hantman, Architect of the Capitol. Under 
provisions of Public Law 101-163, enacted November 21, 1989, I was 
named the primary candidate of three candidates sent to the President 
for consideration by the bipartisan, bicameral Architect of the Capitol 
search commission. I have been greatly honored by the faith the 
commission placed in me through their recommendation, by the 
President's formal nomination, and by the subsequent confirmation by 
the Senate. I officially assumed my duties on February 3rd of this 
year. As you can appreciate, the process of mastering the complexities 
of my new position will take a little time. In this process, however, 
one of my first priorities has been reviewing the fiscal year 1998 
budget which was prepared by my predecessor.
           role of the office of the architect of the capitol
    Mr. Chairman, I would like to take a brief moment to describe 
broadly the present role of the agency. The Office of the Architect of 
the Capitol (AOC) is the agency responsible for the structural and 
mechanical care, maintenance, cleaning, and operation of the buildings 
and facilities supporting the Congress, including the Capitol Power 
Plant. This responsibility extends to the Botanic Garden, the 
structural and mechanical care and maintenance of the Library of 
Congress Buildings and grounds, as well as the Supreme Court Building 
and grounds. The office also undertakes the design and construction of 
new facilities and alteration of existing facilities.
    The core mission of the AOC is to provide for the Congress, on a 
bicameral and non-partisan basis, expertise and advice relating to 
preserving the physical environment and operating the infrastructure 
supporting the Congress. In so doing, the AOC utilizes staff and 
consultant architectural, engineering and professional expertise to 
provide the Congress with appropriate, timely and cost effective 
recommendations. The AOC also manages trade and service personnel who 
are charged with ensuring that the building systems operate efficiently 
and reliably in support of Congressional activities. The AOC also 
administers a wide variety of contracts for building and design 
services.
    Critical to achieving this mission is the institutional knowledge 
that has accrued in the agency. The value of the long term role of the 
Architect as an advocate for the physical environment was recognized by 
the Congress when it established a ten year renewable term for the 
Architect. Such an advocacy role is no less appropriate for the core 
professional and trades staff. The merit of maintaining a long-term 
view for preserving and protecting the historical environment is self-
evident. To the credit of the agency, Congressional activities have 
never been interrupted by failure of any major building system.
    It goes without saying that many of the Congressional buildings are 
national treasures and require intimate knowledge and significant 
forethought for their preservation. The U.S. Capitol, which is ``the 
people's building,'' for example, is a unique combination of National 
capitol, museum, office building, meeting center, ceremonial site, and 
tourist attraction. The building's systems are required to support all 
of these activities, and its architectural design, decorative arts and 
historical significance must all be carefully considered before 
undertaking any work or implementing any changes to the building.
    Another benefit of the neutral, bicameral role of the AOC is the 
ability to provide technical and professional coordination in 
connection with ``joint'' activities. Over the years, the role of the 
office has broadened as a result. There are now functions and 
activities, such as the shuttle service and telecommunications, as well 
as Inaugural and Rotunda ceremonies, conducted or supported by the AOC, 
that are often not recognized as being within the scope of the office's 
professional, architectural and engineering roles, yet the Congress has 
acknowledged the merit of the AOC's neutral, bicameral coordination 
capacity.
    For over 200 years, an officer discharging the role of the 
Architect of the Capitol has provided to the Congress credible 
expertise on these matters. During this time, the ongoing and ever-
changing institution of the Congress has been served by an agency that 
has responded to changing Congressional needs.
    Mr. Chairman, I wish to assure you that I am reviewing our 
operations and will be preparing suggestions for improving service 
delivery, quality responsiveness to the Congress, and cost 
effectiveness. During this process, I will involve the Superintendents 
of the Senate Office Buildings and the Capitol Building as their roles 
and functions pertain to supporting the needs of the Senate. If this 
means proposing changes in the role of the agency or how it relates to 
other Congressional entities, I will bring these suggestions to the 
appropriate oversight bodies for consideration. I will of course keep 
this Subcommittee informed of any suggestions that may affect Senate 
funding and operations.
        background information--fiscal year 1997 budget request
    As I have stated, the AOC appropriations request for fiscal year 
1998 was prepared under the stewardship of William Ensign who assumed 
the position of Acting Architect of the Capitol upon the retirement of 
George M. White on November 21, 1995. In his presentation last year 
before this Subcommittee for the fiscal year 1997 appropriation 
request, Mr. Ensign, in recognition of the need for immediate budget 
restraint, brought forward a budget of $152,363,000, which represented 
a $6,088,000 reduction, or four percent less than the fiscal year 1996 
appropriation of $158,451,000. This was partially achieved through a 
five percent, 108 full time equivalent (FTE) staff reduction, bringing 
the total FTE count down to 2,043. This resulted in an overall staff 
reduction over the prior five years of more than 15 percent, a 
reduction that was generally mirrored by the reduction in Senate staff. 
Of particular interest to this Committee, the funding request for 
Senate and Joint activities was reduced to $120,773,000, a $4,677,000 
reduction.

----------------------------------------------------------------------------------------------------------------
                                                           Fiscal year    Reduction     Reduction    Fiscal year
                                                           1996 budget     amount        percent     1997 budget
----------------------------------------------------------------------------------------------------------------
AOC.....................................................  $158,451,000    $6,088,000             4  $152,363,000
Senate and Joint Activities.............................  $125,450,000    $4,677,000             4  $120,773,000
FTE total...............................................         2,151           108             5         2,043
----------------------------------------------------------------------------------------------------------------

    In requesting these reductions, Mr. Ensign stated that it was ``* * 
* important to recognize that the requested reductions will necessitate 
deferring many needed improvements to Legislative Branch facilities. 
Many cyclical maintenance programs will also be deferred.'' He further 
stated ``* * * that this one year hiatus would give the agency an 
opportunity to conduct comprehensive agency-wide planning and 
coordination of cyclical maintenance projects and building system 
enhancements in a thorough systematic and programmed manner.''
    Mr. Ensign also had prepared an ``Architect of the Capitol 
Efficiency Initiative'' in response to 1996 direction from both the 
House and Senate ``* * * to develop proposals for downsizing, 
streamlining and privatizing various activities and report back to 
Congress in the fiscal year 1997 budget cycle.'' This initiative 
outlined eleven goals aimed at improved service delivery at reduced 
costs. While I have been briefed on the details of these goals, I have 
not had time to learn enough about the existing organization and its 
strengths and weaknesses, to adequately explore the range of options 
relative to staffing profiles, or to assess the validity of the 
specific goals that were presented. This office is now actively 
proceeding to investigate the existing organization in the context of 
overall Congressional support services.
    There are two major components to this budget request: an Operating 
Budget and a Capital Budget, as described below. The total budget that 
I bring to this Committee today amounts to $201,294,000, comprised of 
$147,323,000 for operating costs and $53,971,000 for capital costs. 
That amount, adjusted to reduce the House items, totals $161,891,000, 
of which $117,841,000 is for operating costs and $44,050,000 is for 
capital costs.
                   fiscal year 1998 operating budget
    Increases in the costs that comprise the operating budget--that is, 
those costs that support operations and maintenance, including 
salaries, are relatively small, in the range of six percent overall. 
The requested increase compares to several years of gradual declines in 
dollars appropriated for operating the Capitol complex. In fiscal year 
1995, for example, the operating budget totaled $148,277,000. This 
fiscal year we are operating with an appropriation level of 
$138,964,000, a 6.3 percent decrease from fiscal year 1995, not 
adjusted for inflation.
    The requested increase for fiscal year 1998 falls into several 
categories. Nearly two thirds of the operating increase is due to 
mandated pay costs and the government's share of benefits costs. Nearly 
ten percent relates to increased utility costs for the Capitol complex. 
An agency-wide uniform program is being proposed, which accounts for 
six percent of the increase. And the Librarian of Congress has 
requested that this agency increase the level of support and services 
in the three Library Buildings, and that cost increase accounts for 
five percent of the increase.
    The following table indicates these increases by appropriation.

----------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 1997     Fiscal year 1998           Change       
                                                        budget              estimate      ----------------------
                   Base costs                   ------------------------------------------                      
                                                  FTE      Dollars     FTE      Dollars       Dollars    Percent
----------------------------------------------------------------------------------------------------------------
Capitol Buildings: Operating Budget............    394    29,059,000    394    31,234,000    +2,175,000     7.5 
Capitol Grounds: Operating Budget..............     77     4,770,000     77     5,008,000      +238,000     5.0 
Senate Office Buildings: Operating Budget......    609    36,010,000    609    37,063,000    +1,053,000     2.9 
Capitol Power Plant: Operating Budget..........     99    30,749,000     99    31,876,000    +1,127,000     3.7 
Library Buildings and Grounds: Operating Budget    146     8,343,000    146     9,450,000    +1,107,000    13.3 
Botanic Garden: Operating Budget...............     51     2,902,000     51     3,210,000      +308,000    10.6 
----------------------------------------------------------------------------------------------------------------

    Of particular interest is the operations of the Senate Restaurants. 
I am reviewing these functions and will be making recommendations to 
the Committee on Rules and Administration.
               fiscal year 1998 five year capital budget
    The fiscal year 1998 capital budget request I present to you today 
was prepared under William Ensign's stewardship and flows from the 
first five-year capital budget prepared by this agency. This five-year 
budget is grounded in a comprehensive and systematic agency-wide 
planning effort with in-depth involvement by all of the agency's 
clients. On the House side, these included the Sergeant at Arms, the 
Chief Administrative Officer and the Clerk of the House. On the Senate 
side these included the Sergeant at Arms and the Secretary of the 
Senate. The U.S. Capitol Police provided a detailed outline of their 
needs, and the Librarian of Congress was also extensively involved. A 
total of 205 capital projects have been identified for the five year 
period, requiring a total funding level of $353,516,000.
    While within the relatively short time I have held this office I 
clearly cannot be fully conversant with all the details on each of 
these projects, I have spent many hours reviewing all 205 projects. The 
reviews have included examining the scope, estimates, and priorities of 
the projects and visiting project sites. As a result of these reviews, 
I have concluded that the requested projects are needed and by-in-large 
the costs estimated are accurate, but in several cases may actually be 
somewhat conservative. I have categorized the projects into nine areas, 
reordered the priorities for some of the projects and, to provide more 
detail to the appropriations committees, I have subpriortized the 
projects.
    I fully concur with Mr. Ensign's statement that there is a need to 
provide the Congress with a five-year capital improvement budget to 
assist the Congress in making the wisest and best informed financial 
judgments ``* * * based on a formal evaluation of future cost 
implications and with the assurance that we have undertaken a rigorous 
examination of related needs.''
    The projects included in this budget, therefore, reflect all the 
needs that have been identified to date. I intend to continue to 
evaluate these needs and to update them to ensure that the capital 
budget is responsive to programmatic changes, the condition of the 
buildings and their systems, and any other needs that may arise.
    At last year's House of Representatives Subcommittee on Legislative 
Branch Appropriations Hearing a question was raised by Congressman 
Fazio, the Ranking Member, regarding the potential of a future 
``balloon payment'' that might result from the accumulated costs of 
deferred maintenance. This question was right on target. The five-year 
capital budget that is being presented today establishes a multi-year 
funding plan that offers the Congress a clear view of what it will cost 
to maintain the Legislative Branch infrastructure in proper operating 
condition. The capital budget also identifies improvements that respond 
to new legally imposed standards and guidelines, such as improvements 
to meet the requirements of the Americans with Disabilities Act and the 
Occupational Safety and Health Act. There are also several projects 
that will enhance the operations of the Congress, as well as new 
projects requested by our clients to serve their programmatic needs. 
Balancing the needs of maintaining the existing infrastructure while 
keeping pace with technological enhancements and program needs is 
clearly costly. But I firmly believe that deferring these 
infrastructure reinvestment costs in the short to mid term can 
ultimately lead to far greater costs in the future. We are all also 
aware of the effect that technological pressures can have on aging 
building systems, especially from the perspective of being capable of 
delivering new telecommunications technologies.
    These projects are prioritized for your consideration as follows:
    Priority 1--Critical.--This category totals $36,856,000 and 
includes programs essential to the integrity of the Capitol complex 
infrastructure, including the following needs: assuring the structural 
and operational integrity of the Capitol complex infrastructure and 
building systems; assuring that programs essential for security, fire 
and life safety, and environmental and hazardous materials protection 
are provided; and assuring that programs under Congressional direction 
are carried out.
    Priority 2--Highly Desirable.--This category totals $7,631,000 and 
includes costs for highly desirable enhancements to the programs 
outlined in the ``Critical'' priority level, as well as new program 
initiatives that would improve the delivery of services.
    Priority 3--Desirable.--This category totals $376,000 and includes 
costs for programs that are desirable to implement, but that could be 
deferred in the near term without major interruption to current 
services.
    Priority 4--Client Request.--This category totals $9,108,000 and 
includes costs for new facilities or building renovations or 
enhancements to support programs that have been requested specifically 
by clients such as the Library of Congress, the U.S. Capitol Police, 
and congressional officers such as the Senate Sergeant at Arms and 
Secretary. Although funds to carry out the projects are requested in 
the Architect of the Capitol's budget, the responsibility for 
justifying these projects remains with the requesting client. However, 
in my revised prioritization I have included my recommendation of the 
client requested projects in our ranking categories.
    It is important to note that over $9 million of the nearly $54 
million requested in fiscal year 1998 are for capital projects related 
directly to client requests, i.e., $3,300,000 for the Library of 
Congress and $2,965,000 for the U.S. Capitol Police.
    It is also important to recognize that these requirements do not 
simply disappear if deferred. If projects requested for fiscal year 
1998 are deferred, the costs to accomplish them will rise due to added 
deterioration, increased maintenance costs to sustain the systems in 
the interim, inflation, and fluctuations in market conditions. The 
deferred projects also will then add to the fiscal year 1999 funding 
need, which has already been identified at $68 million. It is 
recognized that the total funding in the request is very large when 
compared to past years' submissions. Here is why:
    Replacement of Aging Building Systems.--Several of the buildings in 
the Capitol complex are reaching an age and condition that require 
major renovation or replacement of building systems. For example, the 
Ford House Office Building was renovated in the mid-1970's. Now, over 
twenty years later, some of its building systems are reaching the end 
of their useful life expectancies. Various improvements are therefore 
recommended for the Ford Building. Similar factors affect the Jefferson 
and Adams Library of Congress Buildings. Building systems that were 
evaluated in the late 1970's and early 1980's (during development of 
the Renovation and Restoration project) as being in adequate condition, 
now require substantial improvement. Likewise, systems in the James 
Madison Memorial Building that were originally designed and constructed 
in the mid 1970's are beginning to require replacement.
    Technological Advances.--Technology is changing far more rapidly 
than existing building infrastructures can support and adapt to. This 
is especially true in the rapidly expanding area of telecommunications, 
but there is a corollary effect that is felt in any building system 
that uses any sort of electronic technology for operation or support. 
The latter is a more subtle factor in building system maintenance, 
repair and replacement cycles. The subtlety lies in building systems 
that operate quite well for a time on a particular version or vintage 
of electronic technology. However, as these electronic systems wear 
out, compatible replacement components are not always readily 
available. Building systems that appear to be relatively ``new'' may 
require electronic upgrades to keep them operating. As an example of 
this type of project, funds are requested to upgrade the infrastructure 
supporting the Dirksen Building's telecommunications systems.
    Regulatory Compliance Requirements.--Programs essential for 
complying with the Americans with Disabilities Act, the Occupational 
Safety and Health Act, security, and environmental and hazardous 
material protection have received very high priority in terms of 
advancing the timetables for completion. Although efforts have been 
underway for several years in all these areas, recent external factors 
have caused this Office to reexamine the policy of meeting these needs 
over a longer term. Passage of the Congressional Accountability Act has 
reinforced our resolve to ensure that the Capitol complex is free of 
barriers and hazards to the Members, Senators, staff and visitors. 
Also, terrorist activity throughout the world has increased, and as a 
result there is a heightened sensitivity toward threats to security at 
the Capitol complex. These external factors have led this Office to 
include several projects in the fiscal year 1998 capital budget.
    Infrastructure Reinvestment.--Replacement Value--In 1991, the AOC 
sought to validate the level of funding that was being requested for 
reinvesting in the Capitol complex infrastructure. Cyclical maintenance 
funding methodologies which had been developed and used by three major 
universities were applied to the Capitol complex to determine the 
appropriate level of funding required to maintain these facilities. The 
result of applying these methodologies yielded an annual investment 
rate that averaged 1.7 percent of the replacement value of the Capitol 
complex. Based on the average investment rate of 1.7 percent, an annual 
reinvestment of approximately $57.5 million should be made in the 
physical plant of the Capitol complex in fiscal year 1998. The Capitol 
complex is valued conservatively at $3.6 billion. When the cost of new 
facilities are deducted from the capital funding levels presented for 
each of the five years in the capital budget, the remaining 
reinvestment levels are below this amount. As an order of magnitude 
point of reference, an annual investment of $36 million would represent 
approximately one percent of the hypothetical replacement value of the 
Capitol complex. I have reviewed other benchmark data and found that 
annual renewal investment rates realistically range from 1.5 to 3.0 
percent. In comparison, the fiscal year 1998 request related to 
existing facilities of $52 million is a 1.4 percent investment rate.
    The following table summarizes the funding levels presented in the 
five-year capital budget, and indicates the value of the amounts 
requested as cyclical maintenance items for reinvestment in the 
physical plant, client requests, and new initiatives requested to 
enhance existing support systems or those that may be requested in 
response to advances in technology. These five year projections will be 
reviewed, modified and updated each year as new information becomes 
available through detailed studies and evolving needs and priorities.

                                          FIVE-YEAR PLAN FUNDING LEVELS                                         
----------------------------------------------------------------------------------------------------------------
                                                          Cyclical       Client     Continuing and              
                      Fiscal year                        maintenance    requests    initiating \1\      Total   
----------------------------------------------------------------------------------------------------------------
1998..................................................   $20,960,000    $8,908,000    $24,103,000    $53,971,000
1999..................................................    25,308,000    12,995,000     29,857,000     68,160,000
2000..................................................    30,189,000    40,000,000     24,417,000     94,606,000
2001..................................................    22,573,000    27,900,000     22,253,000     72,726,000
2002..................................................    12,260,000     8,200,000      7,533,000     27,993,000
2003-2007.............................................    17,765,000  ............     18,295,000   \2\ 36,060,0
                                                                                                              00
----------------------------------------------------------------------------------------------------------------
\1\ Including Regulatory Compliance Requirements and Technological Advances.                                    
\2\ To complete above projects.                                                                                 

    Mr. Chairman, I also wish to point out that this budget was 
prepared with the intent of requesting planning and design funding well 
in advance of large renovation and construction projects. Only design 
funding is requested for these large capital projects in fiscal year 
1998 in order to prepare detailed designs and firm cost estimates for 
justifying appropriations requests for construction in later years.
    The following table indicates the capital budget increases for 
fiscal year 1998.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year                 
                         Capital projects                           1997 budget    1998 request       Change    
----------------------------------------------------------------------------------------------------------------
Capitol Buildings: Capital Budget...............................      $3,400,000     $10,830,000     +$7,430,000
Capitol Grounds: Capital Budget.................................         250,000       1,610,000      +1,360,000
Senate Office Buildings: Capital Budget.........................       4,280,000      14,958,000     +10,678,000
Capitol Power Plant: Capital Budget.............................  ..............       1,895,000      +1,895,000
Library Buildings and Grounds: Capital Budget...................       1,410,000       6,305,000      +4,895,000
Botanic Garden: Capital Budget..................................  ..............       8,452,000      +8,452,000
----------------------------------------------------------------------------------------------------------------

    I assure the Chairman that I will work closely with him and the 
Committee staff between now and the time the Committee marks up this 
portion of the appropriations bill to achieve a rational and adequate 
funding level to support the needs of the Congress.
                              human factor
    I have noted earlier in this Statement that it is premature for me 
to draw specific conclusions on how to best comply with the 
Congressional direction to downsize, prioritize and streamline the 
agency. It is projected that the portion of the budget presented here 
today that is related to salaries and benefits will be a worst case 
scenario, since staffing levels will not be increasing. When detailed 
recommendations about agency structure and composition are developed, I 
will present them for your consideration. At that time, whatever 
staffing efficiencies that are recommended to achieve the mid- to long-
term savings we are striving for, will include recommendations relative 
to employee considerations.
    Achieving any goals that involve significant privatization or 
downsizing will mean a work force reduced beyond what has been realized 
in the past several years. Consequently, another goal identified 
previously must be to proceed in the most humane and caring way for our 
dedicated, long-term employees. I am reviewing our organization and 
responsiveness in areas affecting human resources management and equal 
employment opportunity. I will also review previously implemented 
measures, such as employee involvement in organizational issues through 
the Architect's Workteams which involve all employees through their 
elected representatives.
    I will also be evaluating the previously proposed Employee 
Protection Plan which called for Congressional approval of severance 
pay coverage, authority to declare ``early-out'' eligibility, and 
competitive status for all employees who may be released from our 
employ. That proposal also called for separation incentives to 
encourage turnover, waiver of the 2 percent reduction in annuity for 
each year under age 55 (perhaps modified), and other incentives for 
employees to volunteer for separation. I understand that some of these 
approaches have been instituted with Congressional authority by other 
government agencies, and I will evaluate whether they may be needed to 
provide us with the proper incentives and flexibility to deal fairly 
with agency employees during any transition brought about by downsizing 
or privatization measures. I also understand that in the past some 
confusion has existed over why these protections need to be made 
available to our employees. There are two reasons, one legal, one 
philosophical. First, our employees, unlike those in the Senate, are 
covered under title 5 of the U.S. Code, the AOC Human Resources Act of 
1995, and other statutes governing our employees' rights. These 
statutes place certain restrictions on how we could undertake any 
downsizing efforts. The Employee Protection Plan was developed to 
accommodate some of those restrictions. The philosophical difference 
between our employees and those of the Senate lies in the notion that 
is strongly held by our employees that employment here is a civil 
service career: they come to work here, earn their pay, contribute to 
their government retirement fund, and eventually, after a long career, 
retire. On the other hand, many Senate employees come and go as their 
Senators are re-elected and majority parties change.
    There is one aspect of the human factor that I wish to bring to 
your attention. As I learn more and more about this agency I have noted 
that it has a deep core of institutional knowledge that extends from 
top management down through the trades shops. It would seem appropriate 
to balance the desirability of downsizing the agency with the necessity 
of retaining this vital knowledge. I hope to be able to offer some 
thoughts on this subject in the near future.
                               next steps
    As you can appreciate, the task ahead of assessing the agency with 
a fresh perspective and striving to arrive at cogent and feasible 
conclusions is a major one. I will be taking into consideration many 
factors, including the evaluation, recently performed for the agency by 
Arthur Andersen, an independent consulting firm. This evaluation 
provides benchmarking parameters comparing the nature and cost of 
services provided by the agency with those that could be provided by 
the private sector. Arthur Andersen data indicates that many of our 
services are quite competitive with private sector costs and services. 
I have been briefed by the Arthur Andersen team and it appears that 
their assumptions and study parameters are valid.
    I also intend to undertake a rigorous examination of our services 
and how the delivery of those services is viewed by our clients: Are we 
viewed as efficient and timely? In what areas do our clients feel we 
can improve? Do we clearly communicate to our clients how services are 
provided, and who should be contacted to initiate service requests? Do 
we follow up to make certain that our service efforts take care of our 
clients' needs?
    I have begun these efforts, and I assure this Committee that I 
intend to continue with these assessments expeditiously.
                                summary
    I would like to conclude with two observations, one related to the 
capital budget request and one related to the agency's mission and 
services.
    With respect to the capital budget, I readily acknowledge that the 
amount requested is large, and given the current pressures to balance 
the Federal budget it will be extremely difficult to meet these needs. 
It is essential that this Committee and the Congress realize, however, 
that many of these projects are clearly necessary to properly conserve 
the ``peoples building'' and supporting structures for future 
generations. The need for funding these projects will continue.
    With respect to the agency's mission and services, I am committed 
to undertaking a timely evaluation of the specific reports and 
proposals that were prepared by my predecessor. I am equally committed 
to improvements in service delivery across the range of congressional 
support, and to making reasoned and validated adjustments to increase 
cost efficiency.
    I wish to assure you that I will report to you periodically on our 
progress as we examine all these issues. I believe that we can be more 
effective and more cost-efficient and still continue to fulfill the 
core mission of the agency. And with respect to our dedicated 
employees, I believe that we can be sensitive and humane as we proceed 
toward these ends. The Office of the Architect of the Capitol will 
continue to be professional and effective in meeting the challenges 
ahead.
    Mr. Chairman, that concludes my statement and I shall be pleased to 
respond to any questions that you and the Committee may have.
                                 ______
                                 
                 Biographical Sketch of Alan M. Hantman
    Born on October 13, 1942, in New York City, Alan M. Hantman, AIA, 
was appointed by President Bill Clinton on January 6, 1997 and 
confirmed by the Senate on January 30, 1997, to be the tenth Architect 
of the Capitol.
    Alan M. Hantman was graduated from the City College of New York 
with a bachelor's degree in architecture and earned a master's degree 
in urban planning from the City University of New York Graduate Center. 
He is a member of the American Institute of Architects, the Building 
Owners and Managers Association, the New York Building Congress, and 
the National Trust for Historic Preservation. He is certified by the 
National Council of Architectural Registration Boards and is currently 
licensed in the states of New York and New Jersey.
    Prior to his appointment he was Vice President of Facilities 
Planning and Architecture for the Rockefeller Center Management 
Corporation of New York City for 10 years and then served as their 
consultant. He received the Sidney L. Strauss Award from the New York 
Society of Architects for his work at the Center. He previously worked 
as a development consultant, assistant chief architect, and project 
manager at major architectural and real estate services firms.
    Mr. Hantman is the first Architect of the Capitol to be appointed 
under the new selection procedure established by legislation in 1989.

                         Inaugural sound system

    Senator Bennett. Well, I congratulate you on your 
presentation. It has been lucid and succinct and very clear.
    I have a few questions. I may submit some more for you in 
writing to respond to. I will start with perhaps some minor 
ones, but once again high visibility.
    Have you undertaken any studies regarding the sound system 
that is used for the inauguration?
    Mr. Hantman. We had a meeting last week--when I say we, I 
talk about the Senate Rules, Sergeants at Arms, the Secret 
Service--kind of a postmortem of the last inauguration with 
respect to security issues, life safety issues. We are 
beginning that process to review that going forward. We 
actually have a request for $100,000 in our fiscal year 2000 
budget which would be the year before the next inauguration.
    Our problems basically are that we normally do not start 
the process until the year of the inauguration, which does not 
give us enough time to really go through the issues whether it 
is reviewing the structure for the podium itself or the sound 
system. That $100,000 would include the research and 
investigation of an appropriate sound system and other issues 
related to the inauguration. But we are discussing them now. We 
are asking for funding in the fiscal year 2000 to actually go 
out and start doing that 1 year in advance of the inauguration 
itself.

                       Year 2000 system problems

    Senator Bennett. We have spent time in the committee 
talking about the year 2000 problem. Do you have some 2000 
problems?
    Mr. Hantman. We have an abacus, Mr. Chairman, that we are 
going to use very carefully.
    Senator Bennett. If you had an abacus, we would not have a 
year 2000 problem.
    Mr. Hantman. Exactly.
    Mr. Pregnall. Mr. Chairman, we have two types of year 2000 
problems that I am prepared to talk about, those affecting our 
financial systems, but we also have electronic systems that 
perhaps our Director of Engineering might speak to in terms of 
elevators, the subway system, and other electronically operated 
systems throughout the Capitol complex. Our energy management 
control system turns on and turns off fans on a 24-hour basis. 
Those little chips that affect that system may have a year 2000 
problem as well. So, we have a two-pronged effort in analyzing 
and developing a plan to make sure that come the year 2000, the 
agency can support the needs of the Congress.
    With respect to our financial systems, about 1\1/2\ years 
ago, we began implementing a task force to look at upgrading 
all of our legacy systems in the agency. Bill Ensign 
consolidated the accounting and budget functions under my 
predecessor's hat, and I now wear that mantle. We decided to 
begin emulating the rest of the Federal Government in terms of 
its financial processing, meeting the intent of the CFO Act, 
Government Performance and Results Act, and so forth.
    In looking at that, we discovered that our existing 
financial systems do not meet current Federal requirements, and 
not only that, they were standalone, homegrown, built-up 
systems that did not talk to each other. We also learned that 
we had a year 2000 problem in all of those systems. That 
clearly was our biggest concern in terms of meeting the year 
2000 deadline.
    We sought solutions for that, including cross-servicing 
with other agencies in the legislative branch, agencies in the 
executive branch that had systems. We looked at some other 
options as well going into our existing legacy systems and 
specifically reprogramming them to achieve a year 2000 fix even 
though they were not now compliant with Federal systems.
    Based on all of the analysis that we did and after talking 
this through with many people throughout the legislative 
branch, we decided to adopt a somewhat unique solution. We have 
an existing procurement system, which is a private sector-based 
system. It also has accounts payable, inventory, and other 
functions that we can use as a year 2000 fix and buy us a 
little bit of time until we can proceed with a full federally 
compliant financial management system. We have a funding 
request in the fiscal year 1998 to begin the procurement and 
implementation of that full integrated management system.
    During the discussion over the past 6 months, we have come 
across another opportunity based on some input from the 
legislative branch Financial Managers Council. This is a group 
representing all the budget officers for legislative branch 
agencies. The staff from Appropriations sit on it ex officio I 
believe as well. This is sort of a guidance group that we 
developed about 1\1/2\ years ago.
    We are looking at cross-servicing or possibly sharing an 
application for a standard general ledger system, a fully 
Government compliant SGL, that would bring us into full 
compliance with CFO, GPRA, the Federal Financial Management 
Improvements Act of 1996. If we can pursue this option with our 
somewhat unique solution for procurement, accounts payable, and 
inventory, we will be a step ahead of most of the other 
legislative branch agencies, and that is the course of action 
we are pursuing at this time.
    We are proceeding with the implementation of our year 2000 
fix with existing applications by implementing the fully 
integrated features in our procurement system. During fiscal 
year 1998 we will be exploring, especially with the Government 
Printing Office which has a similar type function that we have, 
acquiring a general ledger system. They have a year 2000 
problem with their general ledger as well. So, we are both 
quite interested in pursuing this. That would bring us into 
full compliance for the time being with all Federal financial 
requirements.
    [The information follows:]
                      Letter From Alan M. Hantman
                              The Architect of the Capitol,
                                     Washington, DC, June 16, 1997.
The Honorable Robert F. Bennett,
Chairman, Subcommittee on Legislative Branch Appropriations, Committee 
        on Appropriations, United States Senate, Washington, DC
    Dear Mr. Chairman: I am writing on a matter related to our present 
financial systems. The present systems will be affected by the year 
2000 coding problem that affects so many computer applications. Thus, 
there is an immediate need to change out the present systems. I also am 
aware that the Committee has directed this office to consult with the 
General Accounting Office and the Library of Congress on this matter as 
it relates to our long term financial systems needs. I want to assure 
you that I support the stated goal of converging on a standard 
financial accounting and management system for the legislative branch.
    Based largely on the initial guidance of the General Accounting 
Office and the Library of Congress, this office has spent much of the 
past year defining functional requirements for our new financial 
systems. We have also drafted a schedule for acquisition and 
implementation of this new system. As we have proceeded with this 
process, because of the imminence of the year 2000 problem with the 
existing systems, we have became quite concerned over the timing of the 
planned system implementation effort.
    This concern is apparently shared by the GAO and LOC, since both 
have provided cautionary advice to us over the last year concerning our 
office's ability to acquire and implement a totally new, fully 
integrated financial system within the next two fiscal years. Although 
we have remained hopeful that cost savings for implementation might be 
achieved through an advantageous cross-servicing agreement with another 
Legislative Branch or other government entity, we are still somewhat 
concerned about the potentially high costs even under such an 
arrangement. For these reasons, we have requested $650,000 in our 
fiscal year 1998 budget funding for system acquisition and 
implementation costs.
    We have explored potential interim measures that would enable the 
AOC to meet its financial requirements through the year 2000 without a 
major expenditure of funds and/or resources. We have discovered that 
there is a year 2000 fix for the software that is used by our 
Procurement Division that can interact with our Accounting Division. 
The existing Procurement application (referred to as CAS software) is 
an integrated software package which contains financial modules (for 
Procurement, Inventory, Accounting, and Budget functions) capable of 
supporting most of our agency's immediate needs. We must upgrade our 
agency's existing CAS Procurement application to address the year 2000 
fix. We therefore intend to use the additional financial modules in the 
CAS software package as an interim fix for addressing the full scope of 
our year 2000 problem. It has an added benefit of achieving more than 
just a year 2000 fix. The various modules provide a total system 
integration solution for our agency's Procurement, Accounting, 
Inventory and Budget functions which will eliminate the dual, and 
sometimes triple, manual data entry currently performed by many of our 
personnel.
    We have compared the cost of fixing the existing systems with the 
cost of the CAS solution. Fixing the present procurement and accounting 
systems would cost more than $100,000, and would gain no increased 
functionality or bring the agency any closer to meeting our stated 
financial system goals. The cost of the CAS solution is approximately 
$130,000, and would significantly increase functionality between 
procurement, accounting, inventory and budgeting processes. We are very 
comfortable that the incremental cost increase of pursuing the CAS 
solution will provide the agency with the best possible solution to the 
year 2000 problem.
    We intend to proceed within the next week based on our immediate 
need to achieve a year 2000 fix. Under this timetable, the full CAS 
software application package can be installed for our agency by the 
beginning of fiscal year 1998. Additionally, funds are available for 
this purpose. We intend to proceed with this interim fix with the 
understanding of and commitment to the greater long-term solution in 
consonance with the Committee's direction.
    I shall, of course, be pleased to provide you with any additional 
information on this matter you may deem desirable.
            Cordially,
                                      Alan M. Hantman, AIA,
                                          Architect of the Capitol.

    Senator Bennett. Thank you.
    What is the timeframe for your ability to produce auditable 
financial statements?
    Mr. Pregnall. In order to produce auditable financial 
statements, Mr. Chairman, we first have to have that general 
ledger system in place and collecting data and then producing 
information. If we are successful during fiscal year 1998 of 
implementing a general ledger system, we will collect data 
during fiscal year 1999. We will have financial statements at 
the end of 1999, albeit they will be somewhat clumsy and 
incomplete because it will only have 1 year of information 
included.
    Our goal is to be able to produce auditable statements by 
the year 2000. Now, we do not expect to get a clean audit the 
first time out of the block. Other legislative branch agencies 
have not been able to do this. It usually takes one or two 
runthroughs to get a clean audit based on financial statements, 
but our goal right now is to have a first go in the year 2000 
and shoot for having a clean audit by the year 2001 or 2002.
    Senator Bennett. Thank you.

                     Additional committee questions

    I have no further questions. As I say, we may submit some 
to you for inclusion in the record.
    Let me conclude as I began with welcoming you and 
commending you for the work you have done and the staff that 
you have assembled and retained. We look forward to working 
closely with you to resolve the various problems.
    I am one who believes very strongly from my experience in 
the private sector that the most foolish financial thing you 
can do is cut down on routine maintenance for a short-term 
financial benefit, only to face very substantial long-term 
requirements as your physical plant collapses.
    We face a problem here in that unlike a private enterprise 
we cannot tear down the deteriorating physical plant and build 
a new one. As I say, the American people would not permit us to 
do that even if we were to suggest it. The reverence they have 
for this building, I think well deserved, is sufficiently 
strong enough that tearing it down is not an option.
    Mr. Hantman. I would not have suggested that, Mr. Chairman.
    Senator Bennett. I understand.
    Thank you very much.
    Mr. Hantman. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the office for response subsequent to the 
hearing:]
                     Additional Committee Questions
                             privatization
    Question. What is the status of your review regarding functions 
within the Office of the Architect of the Capitol which could be 
privatized?
    Answer. In the few months I have been in office, I have been in the 
process of learning as much as possible about the overall operations of 
the agency. Internally, I have held meetings with virtually every 
employee of the agency to open lines of communication about what they 
see as needs and to let them know what I have learned in my short 
tenure. In order to learn about how our services are perceived by our 
customers, I have also held meetings with key staff and office managers 
on both sides of the Congress to learn their perspectives on the 
agency: are we doing a good job? Are there areas where we need to be 
doing a better job? I am asking questions and getting responses at that 
level. And I have opened dialogue with my colleagues, the Senate 
Sergeant at Arms and Secretary of the Senate, and their counterparts on 
the House side as well, to see if there are areas were we might jointly 
improve operations and to see if there are areas where we have 
overlapping responsibilities and might achieve efficiencies. And I have 
begun the process of following up on my initial job interviews for this 
position with key Senators and Representatives of the House, as well as 
our oversight committees, to gain their views. Finally, I have sought 
outside expertise in looking at the overall operations of the agency. 
We have an initial study done by Arthur Andersen that has provided a 
third view of the agency.
    All of this information is being processed, and we are still 
gathering more. Once I have collected all this data, I intend to 
examine it from the framework of an overall strategic planning effort: 
let us make sure that we are clear in our mission goals and that we 
have the organization and resources to meet that mission. The 
organization I foresee will definitely have some mix of privatized and 
in house services, but I am not knowledgeable enough at this point to 
say precisely how much or even what services might be privatized. 
Clearly, we have much work ahead of us in the near future to move this 
plan forward. I will continue to keep this Subcommittee and its staff 
informed of our progress, and will seek input at appropriate junctures.
                             visitor center
    Question. Mr. Hantman, have you reviewed the plans for the Visitor 
Center? Do you have any suggestions or modifications to the plan? What 
is the estimated cost of this project and construction time? How much 
has already been raised in private funds? What are the long-term 
maintenance costs to your office? Will the Visitor Center impose any 
addition or reduction in responsibilities for your office?
    Answer. I have reviewed the plans for the Capitol Visitor Center 
and have met with the associate architects on the project. Although I 
raised a few questions with them on some details, I believe the design 
of the core and shell of the project is basically quite sound.
    In my judgment it would be prudent to assume that the entire 
project will cost approximately $125 million, which would allow for 
cost escalations, plan modifications resulting from the design of 
exhibits and security enhancements, certain Capitol interface 
conditions and the cost of exhibit design itself. A construction period 
of 3\1/2\ to 4 years is anticipated.
    No private funds have as yet been raised for the project, there 
being as yet no authority to solicit them. My understanding is that 
approximately $24 million in private funds now held by the Capitol 
Preservation Commission may be applied to the project in whatever way 
would be most useful to its financing.
    We believe that if net revenues generated by the cafeteria, gift 
shop and other income generating activities of the project are 
allocated to operating the Visitor Center, the project could be self-
supporting. The structural, mechanical and custodial care of the 
project will be added to the responsibilities of the Capitol 
Superintendent, but it may be possible to privatize many aspects of the 
management of the Visitor Center.
                 operating and capital projects budget
    Question. Mr. Hantman, now that you have had time to review the 
operating and capital projects budget submitted by your predecessor, do 
you have any changes that you would recommend for the fiscal year 1998 
budget of the Architect of the Capitol?
    Answer. I have held lengthy review sessions to personally look at 
the capital and operating budget requests. As a result of these 
reviews, I can say that there are only a few very minor dollar changes 
that I would make at this time. I have revised the overall 
categorization of the projects to define them in terms of life safety 
issues, security issues, infrastructure reinvestment issues, and so on. 
These project categories convey more clearly the type of work that we 
are intending to do and give the Committee an indication of the type of 
result that can be expected from expending these dollars: a life safety 
project will clearly result in a safer building environment; an 
infrastructure reinvestment project will extend the useful life of a 
facility by repairing or replacing worn out components.
    The other major point that I would make is that the five year 
capital budget is an ongoing process. We will review it in light of the 
final action taken during this appropriations cycle, and also look at 
new needs that may be identified as upcoming requirements. Thus, when 
we come before this Committee for the fiscal year 1999 budget request, 
you can be assured that we have not simply rolled forward projects 
deferred this year and added them to what we now think will be needed 
next year.
                      integrated management system
    Question. The budget includes a request for $650,000 for an 
integrated management system to develop a fully integrated financial 
management system. When do you estimate that system to be completed?
    Answer. The funds requested in the fiscal year 1998 budget for the 
IMS in the amount of $650,000 were originally estimated to be 
sufficient to procure and begin implementation of the system. Based on 
guidance from the LBFMC, we are now concerned that the requested 
funding level is insufficient. Additionally, and with guidance and 
concurrence with the LBFMC, we are proposing to utilize the fiscal year 
1998 funds to explore the possibility of acquiring through cross-
servicing or shared applications a government-approved general ledger 
application. This would bring the agency into compliance with current 
federal financial systems. If we can successfully pursue this approach 
during fiscal year 1998, we would be in a position to allow the next 
generation of federal financial systems now being sold in the market 
place to mature. We would then seek funding to procure and implement a 
wholly integrated IMS.

                         conclusion of hearings

    Senator Bennett. If there is no further business, the 
subcommittee stands in recess.
    [Whereupon, at 12:09 p.m., Tuesday, June 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]



       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Abrecht, Chief Gary L., U.S. Capitol Police......................
  45, 71.........................................................
    Prepared statement...........................................    74
American Association of Law Libraries, letter from...............   183
Archer, Hon. Bill, Chairman, Joint Committee on Taxation.........    13
    Prepared statement...........................................    15
Association of Research Libraries, prepared statement............   179

Balderson, Stuart, Financial Clerk of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   265
    Prepared statement...........................................   295
Becker, Herbert S., Director, Information Technology Services, 
  Library of Congress............................................   105
Billington, Dr. James H., Librarian of Congress, Library of 
  Congress.......................................................   105
    Prepared statement...........................................   108
Blum, James L., Deputy Director, Congressional Budget Office.....    91
Brown, Richard L., Controller, General Accounting Office.........   227

Campanale, Louise, Special Assistant, Financial Management 
  Information System and Legislative Information System, Office 
  of the Secretary of the Senate, U.S. Senate....................   265
Casey, Hon. Gregory S., Chairman, U.S. Capitol Police Board; 
  Sergeant at Arms, Office of the Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................
  45, 299........................................................
    Biographical sketch..........................................   310
    Prepared statements..........................................
      49, 307....................................................
Cook, Charles C., Superintendent, Congressional Printing 
  Management Division, Government Printing Office................   199
Cylke, Frank Kurt, Director, National Library Service for the 
  Blind and Physically Handicapped, Library of Congress..........   105

Del Balzo, Gail, General Counsel, Congressional Budget Office....    91
Delquadro, David M., Personnel Officer, Congressional Budget 
  Office.........................................................    91
Desautels, Mark G., Assistant for Intergovernmental Relations, 
  Congressional Budget Office....................................    91
Dey, Christopher, Chief Financial Officer, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   299
DiMario, Michael F., Public Printer, Government Printing Office..   199
    Prepared statement...........................................   201
Dodaro, Joan M., Assistant Comptroller General for Operations, 
  General Accounting Office......................................   227
Dorgan, Hon. Byron, U.S. Senator from North Dakota, questions 
  submitted by...................................................   239
Duffy, Dennis, General Counsel, Office of Compliance.............   249

Ford, Hon. Wendell H., prepared statement........................     5
Frenze, Christopher, Executive Director, Joint Economic Committee     7

Greigg, Stanley L., Director, Office of Intergovernmental 
  Relations, Congressional Budget Office.........................    91
Guy, William M., Budget Officer, Government Printing Office......   199
Hantman, Alan M., Architect of the Capitol; and member, U.S. 
  Capitol Police Board...........................................
  45, 315........................................................
    Biographical sketch..........................................   332
    Letter from..................................................   334
    Prepared statement...........................................   326
Harris, Larry, Administrative Assistant, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   299
Hinchman, James F., Acting Comptroller General of the United 
  States, General Accounting Office..............................   227
    Prepared statement...........................................   229
Hodges, Polly E., Budget and Finance Officer, Congressional 
  Budget Office..................................................    91
Hughes-Brown, Beth, Budget Officer, Office of Compliance.........   249

Jenkins, Jo Ann C., Chief of Staff, Office of the Librarian, 
  Library of Congress............................................   105

Kelley, Wayne P., Superintendent of Documents, Government 
  Printing Of- fice..............................................   199
Kies, Kenneth J., Chief of Staff, Joint Committee on Taxation....    13

Livingood, Hon. Wilson, Sergeant at Arms, U.S. House of 
  Representatives, member, U.S. Capitol Police Board.............    45
    Prepared statement...........................................    71
Lopez, Kenneth E., Director of Security, Library of Congress.....   105

Medina, Rubens, Law Librarian, Library of Congress...............   105
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................   105
    Prepared statement...........................................   123

Nager, Glen, Chairman of the Board, Office of Compliance.........   249

O'Neill, Hon. June E., Director, Congressional Budget Office.....    91
    Prepared statement...........................................    92
Orton, Hon. Bill, former U.S. Representative from Utah...........   243

Pauls, Lloyd A., Associate Librarian for Human Resources, Library 
  of Congress....................................................   105
Peach, J. Dexter, Assistant Comptroller General for Planning and 
  Reporting, General Accounting Office...........................   227
Peters, Marybeth, Register of Copyrights, Library of Congress....   105
    Prepared statement...........................................   121
Peterson, Eric C., Staff Director, Joint Committee on Printing...     1
Pregnall, Stuart, Budget Officer/Director of Financial Services, 
  Architect of the Capitol.......................................   315

Ravenberg, Duane, Head of Telecommunications, Office of the 
  Sergeant at Arms and Doorkeeper, U.S. Senate...................   299

Saxton, Hon. Jim, Chairman, Joint Economic Committee.............     7
    Prepared statement...........................................     8
Schmitt, Bernard A., Deputy Chief of Staff, Revenue Analysis, 
  Joint Committee on Taxation....................................    13
Schmitt, Mary M., Deputy Chief of Staff, Law, Joint Committee on 
  Taxation.......................................................    13
Scott, Gen. Donald L., retired, Deputy Librarian of Congress, 
  Library of Congress............................................
  105, 152.......................................................
Silberman, Ricky, Executive Director, Office of Compliance.......   249
    Prepared statement...........................................   253
Sisco, Hon. Gary, Secretary of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   265
    Biographical sketch..........................................   294
    Prepared statement...........................................   271
Stephens, James, Deputy Executive Director for the House, Office 
  of Compliance..................................................   249
Symms, Loretta, Deputy Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   299

Tabb, Winston, Associate Librarian for Library Services, Library 
  of Con- gress..................................................   105
Talkin, Pam, Deputy Executive Director for the Senate, Office of 
  Compli- ance...................................................   249

Warner, Hon. John W., Chairman, Joint Committee on Printing......     1
    Prepared statement...........................................     3
Washington, Linda J., Director, Integrated Support Services, 
  Library of Congress............................................   105
Webster, John D., Director, Financial Services, Library of 
  Congress.......................................................   105
Williams, Kathy A., Budget Officer, Library of Congress..........   105

Zargorn, Janet S., chair, American Bar Association Standing 
  Committee on the Law Library of Congress.......................   243
    Prepared statement...........................................   244
Zelaska, Sharon, Assistant Secretary of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   265
Zimmerman, Daniel F., Chief, Systems Development and Research 
  Unit, Congressional Budget Office..............................    91



                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional committee questions...................................   336
AOC:
    And Sergeants at Arms responsibilities.......................   319
    Consolidation plan...........................................   319
    Management needs.............................................   317
    Project request..............................................   319
    Supervisors, training needs of...............................   317
Background information--fiscal year 1997 budget request..........   327
Capitol complex replacement value................................   322
Construction management employees................................   317
Cyclical maintenance project.....................................   323
Cyclical reinvestment budget.....................................   321
Five-year capital budget:
    Fiscal year 1998.............................................   328
    Plan.........................................................   325
Human factor.....................................................   331
Inaugural sound system...........................................   332
Integrated management system.....................................   337
Monumental construction, benchmark for...........................   322
Next steps.......................................................   331
Office of the Architect of the Capitol, role of the..............   326
Operating and capital projects budget............................   337
Operating budget:
    And capital projects.........................................   320
    Fiscal year 1998.............................................   328
Outsourcing and privatization....................................   317
Physical plant, condition of the.................................   316
Privatization....................................................   336
Reprioritized projects...........................................   324
Visitor center...................................................
  325, 337.......................................................
Year 2000 system problems........................................   333

                          CAPITOL POLICE BOARD

Accounting:
    Function/management review...................................    86
    System.......................................................    88
Additional committee questions...................................    83
AOC MOU..........................................................    87
Bombs............................................................    81
COLA/comparability costs.........................................    84
Computer and telecommunications..................................    85
Computers, upgrading.............................................    76
House services...................................................    86
Jurisdiction.....................................................    77
K-9 facility.....................................................
  80, 87.........................................................
Library and Supreme Court Police forces, consolidating...........    80
Library of Congress merger.......................................    89
New positions....................................................    84
NFC status.......................................................    87
Other services increase..........................................    85
Parity issues, remaining.........................................    85
Pay parity.......................................................    79
    Initiatives..................................................    84
Physical security................................................    89
    Supplemental spending plan...................................    87
Property crimes..................................................    78
Scheduled leave/threshold........................................    84
Senate/House positions...........................................    87
Systems acquisition..............................................    90
Transportation of persons........................................    77
U.S. Capitol Police fiscal year 1998 budget request..............    50
Unified payroll..................................................    88
Unionization status..............................................    88

                      CONGRESSIONAL BUDGET OFFICE

Additional committee questions...................................   103
ADP and other spending, reductions in............................   101
Budget request...................................................    91
CBO's revenue projections, changes in............................   102
Fiscal year 1998 request.........................................    94
Joint Committee on Taxation and other agencies, relationship with 
  the............................................................   103
Major new work efforts during 1996...............................    93

                       GENERAL ACCOUNTING OFFICE

Accomplishments and highlights, fiscal year 1996.................   229
Additional committee questions...................................   234
Associates, introduction of......................................   227
Biennial budgets.................................................   232
Budget request, fiscal year 1998.................................   230
Comptroller General, process for selecting.......................   233
Congressional commission, need for to meet.......................   233
Consolidated financial statement.................................   232
GAO building usage study.........................................   231
Highlights of statement..........................................   228
25-percent budget reduction, actions taken to absorb the.........   230
Year 2000 problem................................................   234

                       GOVERNMENT PRINTING OFFICE

Additional committee questions...................................   213
Appropriations request, fiscal year 1998.........................   201
Associates, introduction of......................................   199
Billing practices................................................   212
By-law distribution..............................................   219
Congressional printing and binding appropriation.................   201
Congressional Record, study on privatizing the...................   202
Congressional Record/Federal Register, privatizing the...........   218
Depository library transition plan...............................   215
Energy conservation..............................................   218
Federal depository library program...............................   206
Financial management.............................................   210
Government Performance and Results Act [GRPA]....................   220
GPO:
    And Congress.................................................   203
    And Federal agencies.........................................   204
    And information dissemination................................   205
    Appropriated funding.........................................   201
    Long-range planning for the year 2000........................   219
    Mission in the information age...............................   203
    1998 budget request..........................................   217
Hearings, pilot project for online access to committee...........   219
House clerk's proposed document management system................   216
Personnel........................................................   217
Public Printer's statement.......................................   199
Revolving fund losses............................................   211
Revolving fund/GPO year end losses/printing rates................   213
Salaries and expenses appropriation..............................   202
Title 44, upcoming Rules Committee hearing on....................   216
Year 2000 problem................................................   210

                      JOINT COMMITTEE ON PRINTING

Congressional printing and binding appropriation.................     5
GPO's revolving fund.............................................     4
JCP budget increase..............................................     5
Staff, introduction of...........................................     1
Title 44:
    Costs relating to violations.................................     3
    Legislative proposal to revise...............................     2
    Reform.......................................................     3

                      JOINT COMMITTEE ON TAXATION

Additional committee questions...................................    35
Appropriation request, details of fiscal year 1998...............    16
Budget request...................................................    13
    Summary of fiscal year 1998..................................    15
Joint Committee on Taxation:
    Review of operations during calendar year 1996...............    18
    Summary of anticipated workload for calendar year 1997.......    20
Luxury boat tax..................................................    31
Macroeconomic estimates..........................................    32
Responsibilities, additional.....................................    28
Revenue estimating...............................................    29
Tracking experience..............................................    30

                        JOINT ECONOMIC COMMITTEE

Opening statement................................................     7

                          LIBRARY OF CONGRESS

Accident compensation............................................   174
Accountability mechanisms........................................   173
Additional committee questions...................................   166
Automated system charts..........................................   153
Budget:
    Impact.......................................................   161
    Priorities, fiscal year 1998.................................   169
Building compliance..............................................   172
Capitol visitor center...........................................   168
Congressional Accountability Act.................................   172
Congressional publications.......................................   169
Copyright CORDS..................................................   179
Copyright Office:
    Processing time..............................................   178
    Retirement eligibility.......................................   179
CRS:
    Personnel....................................................   177
    Workload.....................................................   175
Digitization, expense in.........................................   160
Digitizing materials.............................................   164
    Cost of......................................................   159
Donations, money raised through private..........................   158
Early history....................................................   110
Electronic transactions..........................................   155
Enabling infrastructure..........................................   117
Facilitative leadership..........................................   152
Federal Communications Commission................................   163
Federal-State shifts.............................................   177
Financial audit..................................................
  166, 172.......................................................
First book storage module........................................   160
Fort Meade storage facility......................................
  160, 165.......................................................
ILS:
    Installation.................................................   170
    Investment chart, questions on...............................   154
Integrated system:
    Cost for.....................................................   154
    New..........................................................   153
Internal control.................................................   167
Internet, concerns for school hookup to the......................   162
Kellogg Foundation, grant from the...............................   159
Legislation, proposed............................................   118
Library of Congress:
    Buildings and grounds........................................   117
    Collection...................................................   170
    Digital project with others, coordination of.................   158
    Information systems, hooking schools to......................   161
    Network relationships........................................   159
    Planning efforts.............................................   111
    Security.....................................................   175
    Systems, security plan for...................................   165
    Technology...................................................   173
    Today........................................................   111
    Vision for the 21st century..................................   107
Management improvement plan......................................
  153, 169, 170, 173, 175, 179...................................
Our challenge: To prepare for the concentrated loss of CRS 
  experts........................................................   126
Our highest priority: Sustain the scope and enhance the CRS 
  services, quality of...........................................   124
Police overtime..................................................   169
Revolving fund legislation.......................................   175
Security.........................................................   165
    Management plan..............................................   169
    Report.......................................................   174
Software development.............................................   162
Staff level......................................................   168
Storage:
    As a possible future expense.................................   159
    Media, additional............................................   162
Strategic plan...................................................   107
Streamlined management processes.................................   171
Support functions' efficiency and responsiveness.................   174
System viruses...................................................   165
Systematic training and development..............................   173
Talking book machines............................................   154
THOMAS...........................................................   107
Title 44 proposal................................................   167
Unprocessed Library arrearages...................................   173
Upgrading the systems............................................   161
Work force, reduction in.........................................   154
Year 2000........................................................   156
    Concerns on the problem......................................   163
    Funding to avoid problem.....................................   163

                          OFFICE OF COMPLIANCE

Additional committee questions...................................   260
Administrative and financial improvements........................   257
Alternative dispute resolution and case processing...............   252
Dispute resolution process.......................................   254
Education and information........................................   256
Fiscal year 1998 request.........................................   258
Inspections, technical assistance, and investigations............   255
Library of Congress, space in....................................   259
Office of Compliance's authority and responsibilities............   254
Regulation writing...............................................   256
Studies and reports..............................................   257

                              U.S. SENATE

                 Office of the Secretary of the Senate

Administrative offices...........................................   279
Associates, introduction of......................................   265
Budget:
    Proposed for fiscal year 1998................................   266
    Summary......................................................   271
Capitol visitors center..........................................   270
Financial management information system..........................   267
Hearing tracking service.........................................   295
Legislative:
    Departments..................................................   272
    Information system...........................................   268
Personnel management.............................................   269
Senate library...................................................   269
Strategic planning...............................................   267
Succession planning..............................................   270

             Office of the Sergeant at Arms and Doorkeeper

Associates, introduction of......................................   299
Customer service.................................................   312
Full-time equivalent positions...................................   314
Overlapping management...........................................   311

                                  (all)
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
